<html>
<title> - S. Hrg. 110-757 IRAQ AFTER THE SURGE</title>
<body><pre>[Senate Hearing 110-757]
[From the U.S. Government Publishing Office]



 
                                                        S. Hrg. 110-757

                          IRAQ AFTER THE SURGE

=======================================================================

                                HEARINGS



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED TENTH CONGRESS



                             SECOND SESSION



                               ----------                              

                      APRIL 2, 3, 8, AND 10, 2008

                               ----------                              



       Printed for the use of the Committee on Foreign Relations

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                          IRAQ AFTER THE SURGE



                   U.S. GOVERNMENT PRINTING OFFICE
47-921 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001

                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 GEORGE V. VOINOVICH, Ohio
BARACK OBAMA, Illinois               LISA MURKOWSKI, Alaska
ROBERT MENENDEZ, New Jersey          JIM DeMINT, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, Jr., Pennsylvania   DAVID VITTER, Louisiana
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
                   Antony J. Blinken, Staff Director
            Kenneth A. Myers, Jr., Republican Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              

                    Wednesday, April 2, 2008 (A.M.)
                IRAQ AFTER THE SURGE: MILITARY PROSPECTS

                                                                   Page
Biden, Hon. Joseph R. Biden, Jr., U.S. Senator from Delaware, 
  opening statement..............................................     1
Cardin, Hon. Benjamin L., U.S. Senator from Maryland, prepared 
  statement......................................................    63
Flournoy, Michele, president, Center for New American Security, 
  Washington, DC.................................................    22
    Prepared statement...........................................    26
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     4
McCaffrey, GEN Barry, USA (Ret.), president, BR McCaffrey 
  Associates LLC, adjunct professor of international affairs, 
  U.S. Military Academy, Arlington, VA...........................     6
    Prepared statement...........................................    10
    Briefing slides presented by GEN Barry R. McCaffrey during 
      his testimony..............................................    73
Odom, LTG William E., USA (Ret.), senior adviser, Center for 
  Strategic and International Studies, former director, National 
  Security Agency, Washington, DC................................    11
    Prepared statement...........................................    14
Scales, MG Robert H., Jr., USA (Ret.), former Commandant, U.S. 
  Army War College, CEO/president, Colgen, LP, Washington, DC....    16
    Prepared statement...........................................    19
                                 ------                                

                    Wednesday, April 2, 2008 (P.M.)
               IRAQ AFTER THE SURGE: POLITICAL PROSPECTS

Biddle, Dr. Stephen, senior fellow, Council on Foreign Relations, 
  Washington, DC.................................................   112
    Prepared statement...........................................   116
    Article ``Patient Stabilized'' written by Dr. Biddle--from 
      The National Interest, March 2008-April 2008...............   166
Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................    85
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................    86
Rosen, Nir, fellow, New York University, Center on Law and 
  Security, New York, NY.........................................   125
    Prepared statement...........................................   133
Said, Yahia, director for Middle East and North Africa, Reveneue 
  Watch Institute, New York, NY..................................    87
    Prepared statement...........................................    92
                                 ------                                

                        Thursday, April, 3, 2008
         IRAQ 2012: WHAT CAN IT LOOK LIKE? HOW DO WE GET THERE?

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................   171
Brancati, Dr. Dawn, fellow, Institute of Quantitative Social 
  Studies, Harvard University, Cambridge, MA.....................   187
    Prepared statement...........................................   189
Gause, Dr. F. Gregory III, associate professor of political 
  science, University of Vermont, Burlington, VT.................   204
    Prepared statement...........................................   207
Kelly, Dr. Terrence K., senior operations researcher, RAND 
  Corporation, Pittsburgh, PA....................................   191
    Prepared statement...........................................   193
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................   174
O'Leary, Carole, research professor, School of International 
  Service and program director, Center for Global Peace, American 
  University, Washington, DC.....................................   176
    Prepared statement...........................................   182
Pascual, Hon. Carlos, vice president, director of foreign policy, 
  Brookings Institution, Washington, DC..........................   212
    Prepared statement...........................................   216
                                 ------                                

                         Tuesday, April 8, 2008
                    IRAQ AFTER THE SURGE: WHAT NEXT?

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................   243
Crocker, Hon. Ryan C., Ambassador to the Republic of Iraq, 
  Department of State, Washington, DC............................   249
    Prepared statement...........................................   256
    Responses to questions submitted by:
        Senator Joseph R. Biden, Jr..............................   329
        Senator Christopher Dodd.................................   342
        Senator Russell Feingold.................................   347
        Senator Robert Menendez..................................   352
        Senator Robert P. Casey, Jr..............................   357
Lugar, Richard G., U.S. Senator from Indiana, opening statement..   246
Petraeus, GEN David H., USA, Commander, Multi-National Force 
  Iraq, Baghdad, Iraq............................................   260
    Prepared statement...........................................   267
    Responses to questions submitted by:
        Senator Joseph R. Biden, Jr..............................   333
        Senator Christopher Dodd.................................   344
        Senator Russell Feingold.................................   348
        Senator Robert Menendez..................................   355
        Senator Robert P. Casey, Jr..............................   358

              Additional Material Submitted for the Record

Cardin, Hon. Benjamin L., U.S. Senator from Maryland, prepared 
  statement......................................................   318
DeMint, Hon. Jim, U.S. Senator from South Carolina, prepared 
  statement......................................................   316
Dodd, Hon. Christopher, U.S. Senator from Connecticut, prepared 
  statement......................................................   328
                                 ------                                

                       Thursday, April, 10, 2008
             NEGOTIATING A LONG-TERM RELATIONSHIP WITH IRAQ

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................   361
Glennon, Michael J., professor of international law, Fletcher 
  School of Law and Diplomacy, Tufts University, Medford, MA.....   407
    Prepared statement...........................................   410
Long, Hon. Mary Beth, Assistant Secretary of Defense for 
  International Security Affairs, Department of Defense, 
  Washington, DC.................................................   371
    Responses to questions submitted by Senator Richard G. Lugar.   447
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................   365
Matheson, Michael J., professor, George Washington University 
  School of Law, Washington, DC..................................   401
    Prepared statement...........................................   403
Satterfield, Hon. David, Senior Advisor to the Secretary of State 
  and Coordinator for Iraq, Department of State, Washington, DC; 
  accompanied by Joan Donoghue, Principal Deputy Legal Advisor, 
  Department of State, Washington, DC............................   368
    Prepared statement...........................................   369
    Joint responses of Ambassador Satterfield and Assistant 
      Secretary Long to questions submitted by Senator Joseph R. 
      Biden, Jr..................................................   439
    Responses to questions submitted by Senator Richard G. Lugar.   445
    Joint responses of Ambassador Satterfield and Assistant 
      Secretary Long to questions submitted by Senator Robert P. 
      Casey, Jr..................................................   448
    Responses to questions submitted by Senator George Voinovich.   451
Wedgwood, Ruth, Edward B. Burling Professor of International Law 
  and Diplomacy, director of the International Law and 
  Organizations Program, The Paul Nitze School of Advanced 
  International Studies, Johns Hopkins University, Washington, DC   425
    Prepared statement...........................................   428


                IRAQ AFTER THE SURGE: MILITARY PROSPECTS

                              ----------                              


                    WEDNESDAY, APRIL 2, 2008 (A.M.)

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Kerry, Feingold, Nelson, Menendez, 
Cardin, Webb, Lugar, Hagel, Coleman, Corker, Voinovich, 
Murkowski, Isakson, and Barrasso.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    The Chairman. The hearing will come to order.
    Chairman Lugar and I welcome this panel. What a 
distinguished panel to start off our hearings. We're going to 
have about a week's worth of hearings in preparation for, and 
following on, the anticipated testimony of General Petraeus and 
Ambassador Crocker, and we really appreciate folks of your 
stature being willing to come back, time and again, to this 
committee to give us the benefit of your judgment. And we truly 
appreciate it.
    Nearly 15 months ago, in January 2007, President Bush 
announced that he was going to engage in a tactical decision to 
surge 30,000 additional American forces into Iraq. The 
following September, when Ambassador Crocker and General 
Petraeus testified before the Congress, they told us that the 
surge would start to wind down this spring, at which point they 
would give the President and the Congress their recommendations 
for what should come next. And that's the context of the 2 
weeks of hearings that we start today in the Senate Foreign 
Relations Committee and for--and the context for several basic 
questions that we're going to be asking.
    The first of those questions, at least from my perspective, 
is--has the surge accomplished its stated goal? Not merely--
``what has the surge accomplished?''--but ``has it accomplished 
its stated goal?'' And the next question, obviously, is, Where 
do we go from here with the surge? Do we continue it? Do we 
pause? Do we drawdown to presurge levels? But, much more 
importantly, where do we go from here? What has it 
accomplished? And what does it--does it lead us closer to the 
stated objective of the President of having a stable--I'm 
paraphrasing--a stable Iraq, not a threat to its neighbors, and 
not endangered by its neighbors, and not a haven for terror? 
Does it get us closer to that goal? And if not, why? What do we 
have to do? And if it does, how much do we have to continue it?
    And we also heard, yesterday, from the intelligence 
community, in a closed session--Senator Lugar and I have sort 
of, I guess, informally instituted the notion that we--in these 
serious hearings--and they're all serious, but these matters 
relating to Afghanistan, Pakistan, Iraq, points of real 
conflict, potential conflict, we--the whole committee 
participates, in a closed hearing, with the intelligence 
community, to give us a context, the most current context that 
the intelligence community thinks we're operating in. And 
that's what we began with yesterday, in a closed session; we 
heard about the security, political, and economic situation in 
Iraq, and the trend lines in the months ahead, and the new--it 
just so happened that, even though the hearings were scheduled, 
the National Intelligence Estimate for Iraq came out yesterday, 
and we had an opportunity to thoroughly discuss that with the 
community.
    And this morning we're going to hear from experts on the 
military aspects of the surge and what our military mission and 
posture should be when it ends, or if it should end. At other 
hearings, we're going to question experts on the political 
situation in Iraq. Now, I don't mean to so compartmentalize 
this. I know each of the--each of our witnesses has the 
capacity to speak to the political dynamics, as well, and 
they're welcome to do that. But, we have somewhat artificially 
divided it today between the military and political aspects of 
the consequences of the surge.
    And then we're going to do what I think is sort of an 
obligation for us to do, and that is try to imagine a 
reasonable best-case scenario for what Iraq might look like in 
the year 2012. I mean, what is the objective here? What are we 
hoping to accomplish? And what can we do to help us get there? 
And--and, I guess, parenthetically--is it worth it? We'll look 
at the long-term security assurances the administration has 
started to negotiate with Baghdad, as well, in these 2 weeks of 
hearings, to determine whether or not they require 
congressional approval or they require a rise of the level of a 
treaty, or are they merely Status of Forces Agreements? It's 
unclear, at this moment. And we're going to be going into depth 
on that.
    And then we're going to bring back Ambassador Crocker and 
General Petraeus to learn their recommendations for a post-
surge strategy.
    Violence in Iraq has declined significantly from its peak 
in 2006 and 2007. Many of us in this committee have recently 
been to Iraq. Our staff has been there extensively and written 
recent reports, coming back. There's no question, violence is 
down. And it's no small measure because of the--our military 
and the job they did, as they always do with incredible valor 
and with dispatch. But, these gains are somewhat relative. 
Violence is back to where it was around 2005. I'm always 
forced, whenever I say anything about violence being down, my 
wife looking at me and saying, ``Yeah, but how many--how many 
are still being killed?'' And so, Iraq remains a very dangerous 
place, and very far from normal.
    And there are other factors that have contributed, besides 
the valor of our military and the planning of General Petraeus, 
I believe, contributed to a reduction in violence.
    First, the Sunni Awakening Movement, which preceded the 
surge, and which the administration helped sustain--and I agree 
with them; it's not a criticism--by paying monthly stipends to 
tens of thousands of former insurgents, that has had a major 
impact on the reduction in the violence.
    Second, Sadr's decision to declare--until last week, and 
now again--declare and extend a cease-fire with the Mahdi--his 
Mahdi Militia. That cease-fire is looking somewhat tenuous, 
but, nonetheless, it has played a major role in the reduction 
in the violence.
    And third, and tragically, the massive sectarian cleansing 
that has left huge parts of Baghdad segregated along sectarian 
lines, and reduced the opportunities for further displacement 
and killing, over 4 million people--a couple of million inside 
the country, a couple of million outside the country.
    And these are three major factors, I believe--and I'd like 
the panel to let me know whether they think I'm wrong about 
that--that I believe have contributed significantly, beyond--
beyond the valor of our military, to the reduction of violence. 
But, they're all tenuous. All of these underscore the fragility 
of the so-called gains that we've achieved, and it highlights 
that, while the surge may have been a tactical success, it has 
not yet achieved a strategic purpose, which was to bide time 
for political accommodation among the Iraqi warring factions. 
Thus far, that strategy appears to have come up short. Iraqis 
have passed several laws in recent weeks, but it remains far 
from clear whether the government will implement those laws in 
a way that promotes reconciliation, instead of undermining it.
    Meanwhile, from my perspective at least in my business, 
there's no trust within the Iraqi Government in Baghdad, 
there's no trust of the government by the Iraqi people, and 
there's no capacity--there's very little; I shouldn't say 
``no''--there's very little capacity on the part of the 
government to deliver basic security and services.
    Assuming the political stalemate continues, the critical 
military questions remain the same as they were when President 
Bush announced his surge, 15 months ago. What should be the 
mission of our Armed Forces? Why are they there? What is the 
purpose? Should we continue an open-ended commitment with 
somewhere near 150,000 troops, hoping the Iraqis will 
eventually resolve their competing visions for the country? 
Should we continue to interpose ourselves between Sunni and 
Shia, and seek to create a rough balance of forces, or should 
we back one side or the other? Should we continue to intervene 
in the intra-Shia struggle for power? I remember, I think--I 
don't want to get him in trouble, but I think I remember 
talking with General McCaffrey, some time ago, and us both 
talking about how--the inevitability of a Shia-on-Shia war.
    I mean, they're--you know, I went down, a year ago, into 
Basra, with a British two-star, and we sat there, one of my 
colleagues said, ``Tell me about the insurgency,'' and the 
British two-star said, ``There is no insurgency down here, 
Senator,'' and then he laid out what was going on, which is 
pretty straightforward. He said--I think he used the phrase, 
``The various Shia militia,'' both well organized, like the 
Badr Brigade, and hard-scrapple groups that are--that were 
coming up--he said, ``They're like vultures, like mafia dons. 
They're circling the corner, waiting for us to leave, to see 
who's going to be in control.'' Yet, no one wanted to hear us 
talk about the fact that this intramural war--civil war--fight 
was inevitable.
    And so, what should be our posture? Did it make sense for 
us and the British to go in and essentially pick sides in this 
one? Their government is in competition with other Shia parties 
from--in an upcoming election. Did we do the right thing? Or 
should we move to a more limited mission, one that focuses on 
counterterrorism, training, and overwatch, as the British have 
done in southern Iraq? Or should we withdraw, as the calls are 
coming a little more clearly--should we withdraw completely, 
according to a set timetable? What are the military and 
strategic implications of each of these missions? What mission 
can we realistically sustain, and for how long, given the 
stress of our Armed Forces? At least three of you have 
extensive experience dealing with the opportunity costs this 
war is presenting to us. The stress and strain. The Pentagon 
testified yesterday before the Armed Services Committee, 
talking about how beleaguered our military is, and how we can't 
sustain this very much longer. And so, there are some questions 
I hope this highly respected panel will be willing to address.
    In the interest of time, I'm going to keep the 
introductions much briefer than each of your public service 
warrants.
    General McCaffrey is a former SOUTHCOM commander. He's 
president of BR McCaffrey Associates, one of the most decorated 
military people in the--alive and engaged today, an adjunct 
professor of international affairs at the United States 
Military Academy, and, as a measure of his courage and 
undaunting valor, he actually took on the job of being a drug 
czar, which is, maybe, almost as difficult as doing anything 
else. That's where he and I first go to know each other pretty 
well, and it's a delight to have him here.
    LG William Odom, who has served as director of the National 
Security Agency from 1985 to 1988. He is currently a senior 
adviser at the Center for Strategic and International Studies, 
and a voice that is always, always listened to and widely, 
widely respected.
    And Ms. Flournoy, who served in the 1990s as the Principal 
Deputy Assistant Secretary of Defense for Strategy and Threat 
Reduction. She is currently the president of the Center for New 
American Security.
    And GEN Robert Scales, he's a former commander of the U.S. 
Army War College, and he's the president and cofounder of the 
Colgen defense consulting firm.
    And, again, we welcome all of you and look forward to your 
testimony. But, before I yield to the witnesses, in that order, 
I'd like to yield to my colleague Chairman Lugar.

 OPENING STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM 
                            INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman. I 
join you in welcoming our distinguished panel to the Foreign 
Relations Committee this morning. We appreciate, especially, 
the study that our four witnesses have devoted to Iraq and 
their willingness to share their thoughts with us today. The 
Foreign Relations Committee seeks sober assessments of the 
complex circumstances and policy options that we face with 
respect to United States involvement in Iraq. We are hopeful 
that our hearings this week, in advance of the appearance next 
Tuesday of General Petraeus and Ambassador Crocker will 
illuminate the progress that has been made in Iraq, as well as 
the barriers to achieving our objectives.
    Clearly, conditions on the ground in many areas of Iraq 
improved during the 6 months since our last hearings. We are 
grateful for the decline in fatalities among Iraqi citizens and 
U.S. personnel, and the expansion of security in many regions 
and neighborhoods.
    The violence of the past week is a troubling reminder of 
the fragility of the security situation in Iraq and the 
unpredictability of the political rivalries that have made 
definitive solutions so difficult. Despite security progress, 
the fundamental questions related to our operations in Iraq 
remain the same. Namely, will the Iraqi people subordinate 
sectarian, tribal, and political agendas by sharing power with 
their rivals? Can a reasonably unified society be achieved 
despite the extreme fears and resentments incubated during 
repressive reign of Saddam Hussein and intensified during the 
last 5 years of bloodletting? Even if most Iraqis do want to 
live in a unified Iraq, how does this theoretical bloc acquire 
the political power and courage needed to stare down militia 
leaders, sectarian strongmen, and criminal gangs, who 
frequently have employed violence for their own tribal and 
personal ends? And can the Iraqis solidify a working government 
that can provide basic government services and be seen as an 
honest broker?
    We have bemoaned the failure of the Baghdad Government to 
achieve many political benchmarks. The failure of Iraqis to 
organize themselves for effective governance continues to 
complicate our mission and impose incredible burdens on our 
personnel. But, it is not clear that compromises on political 
and economic power-sharing would result in answers to the 
fundamental questions just stated. Benchmarks measure only the 
official actions of Iraqi leaders and the current status of 
Iraq's political and economic rebuilding effort. They do not 
measure the degree to which Iraqis intend to pursue factional, 
tribal, or sectarian agendas over the long term, irrespective 
of decisions in Baghdad, and they do not measure the impact of 
regional players, such as Iran, who may work to support or 
subvert stability in Iraq. They also do not measure the degree 
to which progress is dependent on current American military 
operations, which cannot be sustained indefinitely.
    The violence during the past week has raised further 
questions about the Maliki government. Some commentators 
asserted that operations by Iraqi Security Forces in Basra are 
a positive demonstration of the government's will and 
capability to establish order with reduced assistance from the 
United States. Others claim that in attacking militias loyal to 
Muqtada al-Sadr, the government of Prime Minister Maliki was 
operating on a self-interested Shiite faction, trying to weaken 
a rival prior to provincial elections.
    Regardless of one's interpretations, the resulting combat 
poses risks with the voluntary cease-fire agreements that have 
been crucial to the reduction in violence during the last 
several months. This improvement in stability did not result 
from a top-down process of compromise driven by the government; 
rather, it came from a bottom-up approach that took advantage 
of Sunni disillusionment with al-Qaeda forces, the Sadr 
faction's desire for a cease-fire, and America's willingness to 
work with and pay local militias to keep order. We need to 
assess whether these voluntary cease-fires can be solidified or 
institutionalized over the long term, and whether they can be 
leveraged in some way to improve governance within Iraq.
    For example, can the bottom-up approach contribute to the 
enforcement of an equitable split in oil revenue? Can it be 
used to police oil smuggling? Can it provide the type of 
security that will draw investment to the oil sector? Can it 
sustain a public bureaucracy capable of managing the civic 
projects necessary to rebuild the Iraqi economy and to create 
jobs? If the utility of the bottoms-up approach is limited to 
temporary gains in security, or if the Baghdad Government 
cannot be counted upon to be a competent governing entity, then 
United States strategy must be revised.
    As we work on the short-term problems in Iraq, we also have 
to come to grips with our longer term dilemma there. We face 
limits imposed by the strains on our volunteer Armed Forces, 
the economic costs of the war, competing foreign policy 
priorities, and political divisions in our own country. The 
status of our military and its ability to continue to recruit 
and retain talented personnel is especially important as we 
contemplate options in Iraq.
    The outcome in Iraq is extremely important, but U.S. 
efforts there occur in a broader strategic, economic, and 
political context. The debate over how much progress we have 
made in the last year may be less illuminating than determining 
whether the administration is finally defining a clear 
political-military strategy, planning for follow-on 
contingencies, and engaging in robust regional diplomacy.
    I thank the chairman for calling this series of hearings, 
and look forward to our discussions with this distinguished 
panel this morning, and an equally distinguished group this 
afternoon.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    Why don't we begin in the order I introduced you, beginning 
with General McCaffrey, and moving to his right, in that order.
    And we will--when we get to questions, gentlemen. Is 7 
minutes OK? We'll do 7-minute rounds.
    So, General, welcome back. It's a pleasure to have you 
here. I'm anxious to hear what you have to say. I've read your 
testimony, but--please.

  STATEMENT OF GEN BARRY McCAFFREY, USA (RET.), PRESIDENT, BR 
 McCAFFREY ASSOCIATES LLC, ADJUNCT PROFESSOR OF INTERNATIONAL 
         AFFAIRS, U.S. MILITARY ACADEMY, ARLINGTON, VA

    General McCaffrey. Well, let me thank you, Senator Biden 
and Senator Lugar and the committee members, for the chance to 
be here and to join Michelle Flournoy and Bill Odom and Bob 
Scales, all of whom I've known and worked with over the years.
    Let me, if I may, offer--they're already, I think, in the 
committee hands----
    The Chairman. Yes.
    General McCaffrey [continuing]. This presentation, which--
--
    The Chairman. It's been handed out.
    General McCaffrey [continuing]. Sort of a summary of our 
Joint Forces Command Working Conference I keynoted a couple of 
weeks ago, and that's a shorthand way of following the 
arguments I have been making. I've submitted a sort of an 
outline of the comments that I would make this morning, if I 
went through nine assertions on where I think we are.
    And let me also, sort of, strike a note of, if I can, 
complement the two of your opening statements. That says it 
all. Those are coherent, comprehensive. It asks the right 
questions. You sort of wonder, ``How did we end up in this 
mess?'' given your pretty acute understanding of the situation 
on the ground.
    Let me, if I can, just talk generally.
    First of all, there's no question there's some good news 
here. The best news is, we've got Secretary Bob Gates in the 
Pentagon, so the tone of the national security debate has gone 
from irrational and arrogant to one of cooperation. I think Dr. 
Rice is now empowered to begin using the tools of diplomacy. 
The people we've got on the ground in Iraq, this Ambassador, 
Ryan Crocker, is an absolute consummate professional. He's 
changed the nature of the way we coach-work with the Iraqi 
factions. Dave Petraeus, the general we put on the ground, I 
think's a national treasure. I've watched this guy since he was 
25. He's probably the most talented person we've had in uniform 
in the last 40 years, and his tactics have changed the nature 
of this struggle dramatically. I say ``tactics'' advisedly. The 
whole notion of getting out of the base camps into the downtown 
urban areas, colocating Iraqi police and army, clearly was 
courageous. It incurred significant casualties. It helped 
change the nature of the struggle.
    And then, finally, I think, we ought to take account--we've 
got a fellow there, LTG Jim Dubick, and a pretty good team, 
now, trying to stand up these Iraqi Security Forces. So, 
they've gone from the police being uniformed criminal 
organizations to--we put all nine national brigades back 
through retraining, new uniforms, fired eight of the nine 
brigade commanders; they're starting to get equipment. The 
Iraqi Army is appearing now in significant numbers. We're just 
now beginning to build a maintenance system, the medical 
system, medical evacuation, command and control. We should have 
done that, clearly, 4 years ago. But, I think that's moving in 
the right direction.
    Now, contrast that, though--it seems to me--and I just came 
out, in December--that the Maliki government, in a general 
sense, is completely dysfunction. There isn't a province in 
Iraq, from the ones that are in Kurdish north, that are 
economically and politically doing OK, to the incoherent 
situation in Basra, where a central government holds sway, 
where electricity, oil production, security, health care--
there's no place in Iraq where that government dominates, at 
provincial level. And it's not likely to do so. So, Mr. Maliki 
is one of the few people in Iraq who doesn't have his own 
militia, and he's not much of a power figure. Hard to know 
where that's going. He needs provincial elections, a 
hydrocarbon law. He's got to get consensus from among competing 
Shia groups. He's got to deal with corruption. That government 
is incompetent; but, even worse, it's corrupt at a level that 
it's hard to imagine. And then, finally, he's got to reach out 
to the Sunnis.
    The other thing that's going on is that the Iranians are 
playing an extremely dangerous role, particularly at this 
phase, where we still have enormous combat power in Iraq. They 
are actively arming, equipping, providing belligerent political 
purpose, providing money, providing out-of-country training to 
Shia factions. There was some argument, in the past years, 
they've provided some support to the Sunni insurgency. If they 
encourage, which I don't believe they are, a general uprising 
among the Shia, in the next 3 months, we'll be able to deal 
with it, militarily; it would be a disaster, politically. But, 
if--as the months go by, as we withdraw from Iraq--and 
withdraw, we will; we'll get down to 15 brigades by July; I 
assume we'll drop to a lower number by the time the 
administration leaves office--we'll actually get in a 
militarily threatening situation, where these people, the Shia, 
sit astride our lines of communication back to the gulf. We'll 
actually be in a risk situation.
    Now, it's added to by--by the way, the other thing, I think 
it's widely not talked about inside the Beltway--the other good 
news we've got is U.S. Armed Forces in country. I mean, I say--
I have to remind people, 34,000 killed and wounded--a tiny Army 
and Marine Corps and Special Operations--some of these kids are 
on their fourth, or more, combat tour. I just went to a brigade 
of the 101st--brigade commander and 400 of his troops were on 
their fourth year-long deployment. So, we've run this thing to 
the wall, and they're still out there.
    I did a seminar of 39 battalion commanders in Baghdad, and 
what struck me, listening to them, for a couple or 3 hours, was 
that--not that they were such great soldiers, which they are, 
but that they were the de facto, low-level Government of Iraq. 
They're trying to do health care and jump-start industry and 
create women's rights groups and doing call-in radio shows for 
the mayor to respond to. It was just unbelievable, what these 
people are doing.
    That Army is starting to unravel. And GEN Dick Cody, God 
bless him, came over here and laid it on the line yesterday. We 
have a huge retention problem. Mid-career NCOs, our high-IQ, 
competent, experienced captains, are leaving us. We've got a 
significant recruiting problem. I'd say, you know, just a 
general order of magnitude, 10 percent of these kids coming 
into the Army today shouldn't be in uniform--non-high-school 
graduates, Cat-4B, felony arrests, drug use, psychotic 
medication. We've got a problem. And the problem is multiple 
deployments to Iraq, where their dad and mom are saying, 
``Don't you go in, even for the college money. They'll hold you 
hostage, given stop-loss, for the next 8 years.'' The Army's 
starting to unravel.
    U.S. air and naval power is not resourced appropriately. 
Our Air Force is starting to come apart. The Navy's the 
smallest since pre-World War II. You know, down the line, 15 
years from now, when we're trying to do deterrence on the 
legitimate emergence of the People's Republic of China into the 
Western Pacific, we'd better have F-22 and modernized naval 
forces, and a new airlift fleet, or we won't be able to sustain 
deterrence.
    And then, finally, as you look at the Army globally, we're 
now hugely reliant on contractors. I don't know what the 
numbers really are--120,000 in Iraq, maybe 600 killed, 4,000 
wounded. They do our long-haul logistics, our long-haul 
communications, they maintain all the high-technology 
equipment. We need to go back and readdress the manpower of the 
U.S. Army and Marine Corps to decide, Do we really want to be 
so reliant on these patriotic, hardworking, effective 
contractors, who, at the same time, aren't uniformed, and, when 
things really go critical, will not, and cannot, stay with us?
    The Chairman. General, when you say--if I'm--excuse me for 
interrupting--when you say ``contractors,'' you're referring, 
as well, to personnel who are toting weapons, not just 
contractors building buildings. You're talking about----
    General McCaffrey. A lot of these contractors are flying 
armed helicopters, they're carrying automatic weapons, they 
have hundreds of armored vehicles. But, in addition, it's 
Turkish truckdrivers----
    The Chairman. No; I got it. I just wanted, for the record, 
to make----
    General McCaffrey. Right.
    The Chairman [continuing]. Sure we knew what that phrase 
encompassed. I----
    General McCaffrey. Some of them are egregiously wrong. Some 
of them, by the way, it's appropriate. I think it's good to 
have contractors maintaining communications gear and computers 
in a brigade TOC. That's OK. It's hard to imagine why the U.S. 
Marine Corps doesn't provide external security for a U.S. 
ambassador in a combat zone, as opposed to a private 
contractor. So----
    The Chairman. No; I just wanted to make sure--I knew--I 
just wanted to make sure, for the record, everyone understood 
that.
    General McCaffrey. Right.
    Well, you hear a lot of debate about the contractor 
community. I put in my remarks: Without the contractors, the 
war grinds to an immediate halt, because we simply can't 
sustain it without these civilian businesses that are 
supporting us.
    Final note, if you will, is one, really, a point toward the 
future. Personal viewpoint--and I say this as a soldier--
there's no political will to sustain the current national 
security strategy in the United States. Period. It's over. So, 
we're going to come out of Iraq in the next 2, 3 years, 
largely. We're going to hope that our internal strategies, the 
two of you have already articulated, allows a government to 
form, that we have provincial elections, where there's some 
legitimacy at lower level, that the Iraqi Security Forces can 
maintain order, not us. But, out of Iraq, we will come.
    And the jury's out on what's going to happen next, in my 
view. I don't--I am modestly optimistic. These people are 
courageous, they're smart, they don't want to be Lebanon or Pol 
Pot's Cambodia. But, certainly the events of the last week just 
underscore the chaotic nature inside the three major factions, 
never mind the current civil war between Shia and Sunni, and 
the next war that will take place, which will be the struggle 
between Iraqi Arabs and the Kurdish north. It'll be fought over 
ground and oil. And that's coming. The question is, Can we 
buffer that? Can we reduce that outcome?
    And, as you mentioned, all of this, of course, is 
compounded by 4 million refugees and a brain drain. The 
dentists, the engineers, they're leaving, they're going to 
Syria, Iran, France. A sensible person gets out of there right 
now, if they can.
    On that note, let me, again, thank you for the chance to 
lay down some of these ideas, and I'll look forward to 
responding, sir.
    [The prepared statement of General McCaffrey follows:]

 Prepared Statement of GEN Barry McCaffrey, USA (Ret.), President, BR 
 McCaffrey Associates LLC, Adjunct Professor of International Affairs, 
                  U.S. Military Academy, Arlington, VA

I. Thanks to Committee: Chairman Biden and Ranking Member Senator 
Lugar.

II. Honored To Join: Hon. Michele Flournoy, LTG Bill Odom, MG Bob 
Scales.

III. Was honored to submit earlier to the committee the briefing slides 
I used as opening keynote speaker on 19 March 2008 at USJFCOM Joint 
Operating Environment Workshop here in Washington, DC. These slides 
summarize my views on the general status of U.S. National Security 
Policy in the global environment. You may find them helpful as a 
shorthand summary of my views on the employment of military power in 
the coming years to defend America.

IV. Purpose of Hearing: ``Iraq after the Surge: Military Prospects.'' 
Let me offer nine general conclusions.

        1. The tactical situation in Iraq is for now enormously 
        improved; casualties to U.S. and Iraqi Security Forces are down 
        dramatically; economic life has improved; 80,000+ CLC members 
        have defused the Sunni insurgency; JSOC has defeated an urban 
        AQI insurgency.

        2. We now have brilliant new national security leadership in 
        place: Secretary Bob Gates; GEN Dave Petraeus; Ambassador Ryan 
        Crocker; Temp CENTCOM Commander LTG Marty Dempsey.

        3. The Iraqi Security Forces are improving in leadership 
        quality, numbers, and equipment.

                --400,000 total and growing.
                --National Police--fired 8 of 9 brigade commanders--
                police retrained.

                Note: Still no maintenance system, no medical system, 
                no helicopter lift force, no significant armor nor 
                artillery, no attack aviation. Officer leadership very 
                thin on the ground.

        4. The Maliki Government is dysfunctional. He must:

                --Get Provincial Elections.
                --Get a hydrocarbon law.
                -- Organize consensus among competitive Shia groups 
                (many are criminal elements).
                --Deal with corruption.
                --Reach out to Sunnis.

        5. The Iranians are playing a very dangerous role. They are 
        supporting Iraqi Shia factions with: Money, advisers, training 
        in Iran, EFPs, mortars, rockets, automatic weapons, and 
        belligerence.

                --We must open up a multilevel dialog with the 
                Iranians.

        6. We have never had in our country's history a more battle-
        hardened U.S. military force; courage (34,000 killed and 
        wounded), leadership, initiative, intelligence, fires 
        discipline, civic action. Our battalion and company commanders 
        are de facto the low level Government of Iraq.

        7. The U.S. Army is starting to unravel.

                --Equipment broken.
                --National Guard is under resourced.
                --Terrible retention problems.
                --Severe recruiting problems.
                --Army too small.

        8. U.S. Air and Naval Power seriously underresourced.

                --Sailors and Airmen diverted to ground war.
                -- Air Force equipment crashing as a system [need 350 
                F22A aircraft--600 C17 (dump C5)].
                --$608 billion war--diverting resources.

        9. Excessive reliance on contractors because ground combat 
        forces too small.

                --Need more U.S. Army Military Police.
                --Need more U.S. Army medical capacity.
                --Need more U.S. Army Combat and Construction 
                engineers.
                --Need greatly enhanced Special Forces, Psy Ops, and 
                Civil Affairs.
                -- Need U.S. Marine Corps to provide all diplomatic 
                security above RSO capabilities.

                Note: Without U.S. contractors and their LN employees, 
                the U.S. global military effort would grind to a halt.

                -- Total contractor casualties may be 600 killed and 
                4,000 wounded--many abducted.
                -- Contractors run much of our global logistics, long-
                haul communications, high-technology maintenance, etc.

V. Summary:

        -- As U.S. Forces drawdown in coming 36 months--the jury is out 
        whether Iraq will degenerate into all out civil war with six 
        regional neighbors drawn into the struggle.
        -- There is no U.S. political will to continue casualties of 
        100 to 1,000 U.S. military killed and wounded per month.
        --Our allies have abandoned us for lack of their own national 
        political support.
        --The war as it now is configured--is not militarily nor 
        politically sustainable.
        --The Iraqis are fleeing--4 million refugees--huge brain drain.

    The Chairman. Thank you very much.
    General Odom.

 STATEMENT OF LTG WILLIAM E. ODOM, USA (RET.), SENIOR ADVISER, 
    CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES, FORMER 
       DIRECTOR, NATIONAL SECURITY AGENCY, WASHINGTON, DC

    General Odom. Good morning, Mr. Chairman and members of the 
committee. It's an honor to be back here again.
    Last year, I rejected the claim that the surge was a new 
strategy. Rather, I said it was a new tactic in pursuit of the 
same old strategic aim: Political stability in Iraq. And I 
foresaw no serious prospects of success. I see no reason to 
change my judgment today. The surge is prolonging instability, 
not creating the conditions for unity, as the President claims.
    Last year, as General McCaffrey noted, General Petraeus 
wisely promised that--declined to promise that a military 
solution is possible to this political problem. Now, he said he 
could lower the level of violence, for a limited time, to allow 
the Iraqi leaders to strike a deal. Violence has been 
temporarily reduced, but today there is credible evidence--
little or no evidence that the political situation is 
improving; in fact, it's the contrary, it's more fragmented. 
And currently we see the surge of violence in Basra and also in 
Baghdad. In fact, it remains sporadic, as others have said, 
throughout other parts of Iraq over the past year, 
notwithstanding this drop in Baghdad earlier and Anbar 
province.
    More disturbing is Prime Minister Maliki's initiation of a 
military action, down in Basra, which has dragged the United 
States forces in against something they didn't approve, to try 
to do in his competitors, his Shiite competitors. This is a 
political setback. This is not a political solution. Such is 
the result of the surge.
    No less disturbing has been this violence in Mosul and the 
tensions, as just mentioned, around Kirkuk over the oil. A 
showdown there, I think, is--surely awaits us. The idea, I 
think, that some kind of federal solution can cut this Gordian 
Knot is sort of out of touch with the realities, as they are 
there today.
    Also disturbing is Turkey's incursion to destroy PKK 
terrorist groups inside Kurdistan. That confronted the U.S. 
Government with a choice either to support its NATO ally or 
make good on its commitment to secure the Kurdish leaders. It 
chose the former, and that makes it clear to the Kurds that the 
United States will sacrifice their interests to its larger 
interest in Turkey.
    Turning to the apparent success in Anbar and a few other 
Sunni areas, this is not the positive situation it has been 
reported to be. Clearly, violence has declined, as local Sunni 
leaders have begun to cooperate with U.S. forces, but the surge 
tactic cannot be given full credit. The decline started 
earlier, with Sunni initiatives. What are their motives? First, 
anger at the al-Qaeda operatives, and, second, their financial 
plight. Their break with al-Qaeda should give us little 
comfort. The Sunnis welcomed al-Qaeda precisely because they 
would help kill Americans.
    The concern we hear the President and his aids express, 
about a residual base left for al-Qaeda if we withdraw, is 
utter nonsense. The Sunnis will soon destroy al-Qaeda if we 
leave. The Kurds do not allow them in their region, and the 
Shiites, like the Iranians, detest al-Qaeda. To understand why, 
one only need take note of the al-Qaeda diplomacy campaign over 
the past couple of years on Internet blogs. They implore the 
United States to bomb and destroy this apostate Shiite regime.
    Now, as an aside, just let me comment that it gives me 
pause to learn that our Vice President, President, and some 
Members of the Senate are aligned with al-Qaeda on spreading 
the war to Iraq. Let me emphasize that our new Sunni friends 
insist on being paid for their loyalty. I've heard of one 
example, where the rough estimate for the costs in a one--100 
square kilometers--that's a 10-by-10-kilometer area--is 
$250,000 today to pay these fellows. Now, you might want to 
find out, when the administration's witnesses come next week, 
what these total costs add up to and what they're forecasted 
for in the years ahead. Remember, we do not own these people, 
we rent them. And they can break the lease at any moment. At 
the same time, this deal protects them from--to some degree--
from the government's troops and its police, hardly a sign of 
reconciliation.
    Now let us consider the implications of the proliferating 
deals with Sunni strongmen. They are far from unified under any 
single leader. Some remain with al-Qaeda. Many who break and 
join our forces, are beholden to no one else. Thus, the decline 
in violence reflects a dispersion of power to dozens of local 
strongmen who distrust the government and occasionally fight 
among themselves. Thus, the basic military situation is worse 
because of the proliferation of armed groups under local 
military chiefs who follow a proliferating number of political 
leaders.
    This can hardly be called military stability, much less 
progress toward political consolidation. And to call it 
fragility that needs more time to become success is to ignore 
its implications.
    At the same time, Prime Minister Maliki's actions last week 
indicate an even wider political and military fragmentation. We 
are witnessing what could more accurately be described as the 
road to Balkanization; that is, political fragmentation in 
Iraq. We're being asked by the President to believe that this 
shift of so much power and finance to so many local chiefs is 
the road to political centralization. He describes this process 
as state-building from the bottom up.
    Now, I challenge you to press the administration's 
witnesses to explain this absurdity. Ask them to name a single 
historical case where power has been aggregated from local 
strongmen to a central government, except through bloody 
violence in a civil war, leading to the emergence of a single 
winner, almost--without exception, a dictator. The history of 
feudal Europe's transformation to absolute monarchy is this 
story. It's the story of the American colonization of the West 
and our Civil War. It took England 800 years to subdue the clan 
rule on the Scottish-English border. And this is the source of 
violence in Bosnia and Kosovo today.
    How can our leaders celebrate this diffusion of power as 
effective state-building? More accurately described, it has 
placed the United States on--astride several civil wars, not 
just one, and it allows all sides to consolidate, rearm, refill 
their financial coffers, at U.S. expense.
    To sum up, we face a deteriorating situation, with an 
overextended Army, so aptly described by General McCaffrey. 
When the administration's witnesses will come before you, I 
hope you make them clarify how long the Army and Marines can 
withstand this Band-Aid strategy.
    The only sensible strategy is to withdraw, but with--in 
good order. Only that step can break the political paralysis 
that is gripping United States strategy in the region today.
    I want to emphasize this. You can't devise a new strategy--
we cannot change the present unhappy course we're on without 
first withdrawing. That unfreezes the paralysis and begins to 
give us choices we don't even see now. Until we get out, we 
won't even know what they are.
    The next step, when we get out, is to choose a new aim: 
Regional stability, not some meaningless victory in Iraq. And 
progress toward that goal requires revising our strategy toward 
Iran. If the President merely renounced his threat of regime 
change by force, that could prompt Iran to lessen its support 
for Taliban groups in Afghanistan. Iranians hate Taliban, and 
they support them only because they will kill Americans there 
as retaliation in the event we attack Iran.
    Iran's policy toward Iraq would also have to change 
radically as we withdraw. It cannot want instability. Iraq's 
Shiites are Arabs, and they know Persians look down on them. 
Cooperation has its limits, and people have tended to 
exaggerate the future influence of Iran in Iraq. It has real, 
important limits. Even the factions in the--that are working 
in--among the Shiites today are divided on that issue. No quick 
retaliation--reconciliation between the United States and Iran 
is likely, but steps to make Iran feel more secure could 
conceivably improve the speed with which we develop some kind 
of cooperation with them, particularly more speed than a policy 
calculated to increase their insecurity. The President's policy 
of insecurity in Iraq has reinforced the Iranian determination 
to acquire nuclear weapons, the very thing he purports to be 
trying to prevent.
    Now, withdrawal from Iraq does not mean, in my view, 
withdrawal from the region. It must include realignment of 
where we are deployed in the area, and reassertion of both our 
forces and our diplomacy that give us a better chance to 
improve our situation and reach the goal of regional stability.
    I'm prepared to comment more on that in the questions, but 
I'm going to end here, because I think that answers the 
question I came up to answer, whether the so-called surge 
strategy is working.
    Thank you very much for this opportunity.
    [The prepared statement of General Odom follows:]

Prepared Statement of LTG William E. Odom, USA (Ret.), Senior Advisor, 
     Center for Strategic and International Studies, Washington, DC

    Good morning, Mr. Chairman and members of the committee. It is an 
honor to appear before you again. The last occasion was in January 
2007, when the topic was the troop surge. Today you are asking if it 
has worked.
    Last year I rejected the claim that it was a new strategy. Rather, 
I said, it is a new tactic used to achieve the same old strategic aim: 
Political stability. And I foresaw no serious prospects for success.
    I see no reason to change my judgment now. The surge is prolonging 
instability, not creating the conditions for unity as the President 
claims.
    Last year, General Petraeus wisely declined to promise a military 
solution to this political problem, saying that he could lower the 
level of violence, allowing a limited time for the Iraqi leaders to 
strike a political deal. Violence has been temporarily reduced but 
today there is credible evidence that the political situation is far 
more fragmented. And currently we see violence surge in Baghdad and 
Basra. In fact, it has also remained sporadic and significant in 
several other parts of Iraq over the past year, notwithstanding the 
notable drop in Baghdad and Anbar province.
    More disturbing, Prime Minister Maliki has initiated military 
action and then dragged in U.S. forces to help his own troops destroy 
his Shiite competitors. This is a political setback, not a political 
solution. Such is the result of the surge tactic.
    No less disturbing has been the steady violence in the Mosul area, 
and the tensions in Kirkuk between Kurds, Arabs, and Turkomen. A 
showdown over control of the oil fields there surely awaits us. And the 
idea that some kind of a federal solution can cut this Gordian knot 
strikes me as a wild fantasy, wholly out of touch with Kurdish 
realities.
    Also disturbing is Turkey's military incursion to destroy Kurdish 
PKK groups in the border region. That confronted the U.S. Government 
with a choice: Either to support its NATO ally, or to make good on its 
commitment to Kurdish leaders to insure their security. It chose the 
former, and that makes it clear to the Kurds that the United States 
will sacrifice their security to its larger interests in Turkey.
    Turning to the apparent success in Anbar province and a few other 
Sunni areas, this is not the positive situation it is purported to be. 
Certainly violence has declined as local Sunni shieks have begun to 
cooperate with U.S. forces. But the surge tactic cannot be given full 
credit. The decline started earlier on Sunni initiative. What are their 
motives? First, anger at al-Qaeda operatives and second, their 
financial plight.
    Their break with al-Qaeda should give us little comfort. The Sunnis 
welcomed anyone who would help them kill Americans, including al-Qaeda. 
The concern we hear the President and his aides express about a 
residual base left for al-Qaeda if we withdraw is utter nonsense. The 
Sunnis will soon destroy al-Qaeda if we leave Iraq.
    The Kurds do not allow them in their region, and the Shiites, like 
the Iranians, detest al-Qaeda. To understand why, one need only take 
note of the al-Qaeda public diplomacy campaign over the past year or so 
on Internet blogs. They implore the United States to bomb and invade 
Iran and destroy this apostate Shiite regime.
    As an aside, it gives me pause to learn that our Vice President and 
some Members of the Senate are aligned with al-Qaeda on spreading the 
war to Iran.
    Let me emphasize that our new Sunni friends insist on being paid 
for their loyalty. I have heard, for example, a rough estimate that the 
cost in one area of about 100 square kilometers is $250,000 per day. 
And periodically they threaten to defect unless their fees are 
increased. You might want to find out the total costs for these deals 
forecasted for the next several years, because they are not small and 
they do not promise to end. Remember, we do not own these people. We 
merely rent them. And they can break the lease at any moment. At the 
same time, this deal protects them to some degree from the government's 
troops and police, hardly a sign of political reconciliation.
    Now let us consider the implications of the proliferating deals 
with the Sunni strongmen. They are far from unified among themselves. 
Some remain with 
al-Qaeda. Many who break and join our forces are beholden to no one. 
Thus the decline in violence reflects a dispersion of power to dozens 
of local strong men who distrust the government and occasionally fight 
among themselves. Thus the basic military situation is far worse 
because of the proliferation of armed groups under local military 
chiefs who follow a proliferating number of political bosses.
    This can hardly be called greater military stability, much less 
progress toward political consolidation, and to call it fragility that 
needs more time to become success is to ignore its implications. At the 
same time, Prime Minister Maliki's military actions in Basra and 
Baghdad, indicate even wider political and military fragmentation. What 
we are witnessing is more accurately described as the road to the 
Balkanization of Iraq, that is, political fragmentation. We are being 
asked by the President to believe that this shift of so much power and 
finance to so many local chieftains is the road to political 
centralization. He describes the process as building the state from the 
bottom up.
    I challenge you to press the administration's witnesses this week 
to explain this absurdity. Ask them to name a single historical case 
where power has been aggregated successfully from local strongmen to a 
central government except through bloody violence leading to a single 
winner, most often a dictator. That is the history of feudal Europe's 
transformation to the age of absolute monarchy. It is the story of the 
American colonization of the West and our Civil War. It took England 
800 years to subdue clan rule on what is now the English-Scottish 
border. And it is the source of violence in Bosnia and Kosovo.
    How can our leaders celebrate this diffusion of power as effective 
state-building? More accurately described, it has placed the United 
States astride several civil wars. And it allows all sides to 
consolidate, rearm, and refill their financial coffers at the U.S. 
expense.
    To sum up, we face a deteriorating political situation with an 
overextended army. When the administration's witnesses appear before 
you, you should make them clarify how long the Army and Marines can 
sustain this Band-Aid strategy.
    The only sensible strategy is to withdraw rapidly but in good 
order. Only that step can break the paralysis now gripping U.S. 
strategy in the region. The next step is to choose a new aim, regional 
stability, not a meaningless victory in Iraq. And progress toward that 
goal requires revising our policy toward Iran. If the President merely 
renounced his threat of regime change by force, that could prompt Iran 
to lessen its support to Taliban groups in Afghanistan. Iran detests 
the Taliban and supports them only because they will kill more 
Americans in Afghanistan as retaliation in event of a U.S. attack on 
Iran. Iran's policy toward Iraq would also have to change radically as 
we withdraw. It cannot want instability there. Iraqi Shiites are Arabs, 
and they know that Persians look down on them. Cooperation between them 
has its limits.
    No quick reconciliation between the United States and Iran is 
likely, but U.S. steps to make Iran feel more secure make it far more 
conceivable than a policy calculated to increase its insecurity. The 
President's policy has reinforced Iran's determination to acquire 
nuclear weapons, the very thing he purports to be trying to prevent.
    Withdrawal from Iraq does not mean withdrawal from the region. It 
must include a realignment and reassertion of U.S. forces and diplomacy 
that give us a better chance to achieve our aim.
    A number of reasons are given for not withdrawing soon and 
completely. I have refuted them repeatedly before but they have more 
lives than a cat. Let me try again to explain why they don't make 
sense.
    First, it is insisted that we must leave behind military training 
element with no combat forces to secure them. This makes no sense at 
all. The idea that U.S. military trainers left alone in Iraq can be 
safe and effective is flatly rejected by several NCOs and junior 
officers I have heard describe their personal experiences. Moreover, 
training foreign forces before they have a consolidated political 
authority to command their loyalty is a windmill tilt. Finally, Iraq is 
not short on military skills.
    Second, it is insisted that chaos will follow our withdrawal. We 
heard that argument as the ``domino theory'' in Vietnam. Even so, the 
path to political stability will be bloody regardless of whether we 
withdraw or not. The idea that the United States has a moral 
responsibility to prevent this ignores that reality. We are certainly 
to blame for it, but we do not have the physical means to prevent it. 
American leaders who insist that it is in our power to do so are 
misleading both the public and themselves if they believe it.
    The real moral question is whether to risk the lives of more 
Americans. Unlike preventing chaos, we have the physical means to stop 
sending more troops where many will be killed or wounded. That is the 
moral responsibility to our country which no American leaders seem 
willing to assume.
    Third, naysayers insist that our withdrawal will create regional 
instability. This confuses cause with effect. Our forces in Iraq and 
our threat to change Iran's regime are making the region unstable. 
Those who link instability with a U.S. withdrawal have it exactly 
backward. Our ostrich strategy of keeping our heads buried in the sands 
of Iraq has done nothing but advance our enemies' interest.
    I implore you to reject these fallacious excuses for prolonging the 
commitment of U.S. forces to war in Iraq.
    Thanks for this opportunity to testify today.

    The Chairman. Thank you.

   STATEMENT OF MG ROBERT H. SCALES, JR., USA (RET.), FORMER 
 COMMANDANT, U.S. ARMY WAR COLLEGE, CEO/PRESIDENT, COLGEN, LP, 
                         WASHINGTON, DC

    General Scales. Senator Biden, Senator Lugar, thank you 
very much for having me here. And it's a pleasure to join three 
old colleagues, who I've known for many years, to testify 
before you.
    I'm going to take a little bit more of a military-specific 
view of the situation in Iraq, and talk about what the new 
strategy might look like from a soldier's perspective.
    I don't think anyone doubts that General Petraeus, over the 
last year, has wrenched some military advantage out of what was 
about to become a catastrophic defeat; and he did it, not so 
much by increasing the numbers, to my mind, but by instituting 
a new strategy that's focused on counterinsurgency. And he's 
reached what we soldiers sometimes call a ``culminating 
point,'' which results in a shift in the military advantage. 
And when all the variables are fixed, a culminating point 
generally works to the advantage of one side or another. The 
problem is that, in an insurgency, all the culminating point 
does is buy you time. And, as we've seen in Vietnam, as a 
teachable moment, culminating points aren't always military 
victories, in an insurgency. So, the advantage can be lost if 
the dynamics in the war change. My concern is that the dynamics 
will change after the surge. And I guess that's why I'm here 
today. Because after the surge, and as United States forces 
begin to wind down, the Iraqis will assume the responsibility 
for their own defense, and this battlefield advantage that 
we've won at the cost of over 4,000 dead Americans, is at risk 
if we fail to manage this transition properly.
    First of all, let me say, sir, that very little can be done 
to change the battlefield dynamics before the surge ends. The 
counterinsurgency strategy is right, can't be altered. The 
crucible of patience among the American people, as my two 
colleagues have just said, is emptying, and is not going to be 
refilled. Al-Qaeda numbers are small, but, though small, 
they've remained a fairly constant force in Iraq. It's sort of 
like a virus that's in recession. They're not going away. And, 
sadly, and most importantly, I guess, to the future, is that 
the United States has run out of military options, as well. For 
the first time since the Civil War, the number of ground 
soldiers available is determining American policy, rather than 
policy determining how many soldiers we need. It's a strategy 
turned on its head.
    And I think what's important here is that the arithmetic is 
telling. Beyond the surge, at best, we can only sustain 
somewhere between 13-15 brigades without the Army unraveling. 
Afghanistan will require at least three brigades, and I 
suspect, gentlemen, as time goes on, that number may grow, 
sadly. So, that leaves us with no more than 12 brigades for 
continued service in Iran--in Iraq over the long term. So, 
regardless who wins the election, and almost independent of 
conditions on the ground, by the summer the troops will begin 
to come home. The only point of contention is how precipitous 
that withdrawal is going to be. And after the surge, nothing 
can be done without the ability of the Iraqi military to 
sustain the security.
    So, I would submit to you, as a thesis, that the new center 
of gravity for the remaining phases of this war will be the 
establishment of an effective Iraqi national security 
apparatus. And the question you have for me, I believe, is, Are 
the Iraqis up to the task? Some signs are encouraging. If 
you've read the headlines in the last few days, the Iraqi 14th 
Division deployed to Basra, as you know, to destroy the Shia 
militias and the criminal gangs there. An Iraqi Motor Transport 
Brigade moved one national police and three army brigades, on 
short notice, from Baghdad to Basra, a distance of over 400 
miles. Also out of the news, but also of some interest, is that 
Iraqi Special Forces were transported, some in Iraqi C-130 
aircraft, from the northern regions of Iraq to the vicinity of 
Basra. General McCaffrey talked about logistics. One Iraqi-
based support unit, so far at least, has managed to sustain the 
Basra operation, with some help from American-supplied civilian 
contractors. But, frankly, problems remain. Some units in the 
14th didn't fight well. Sectarian infiltration and desertions 
are present in that unit. Now, the division hasn't lost its 
fighting effectiveness or cohesion; that's the good news. This 
sounds like praise. But, remember, only a year ago, it would 
have been virtually impossible to pull an Iraqi Army division 
from one province and move it to another in shape--with a 
willingness to fight.
    A couple of other encouraging things that we've observed 
over the last year is that the officer leadership at the small-
unit level seems to be improving. And this is kind of a double-
edged sword, because the leadership has improved through this 
Darwinian process of self-selection that allows armies to pick 
the right people in the crucible of battle. That's the most 
wasteful way to win: To build an army when it's trying to 
reform itself while fighting. We had this experience in the 
American Civil War, where we had to build our Army from scratch 
during a war, and it's a very painful process. But, the merit-
based promotion system on the field of battle seems to be 
working. The NCOs are the backbone of our Army as many of the 
veterans on the committee will testify. But, there is no 
tradition in Iraq for an NCO corps. It's an alien concept to 
them. But, in the last year or so Iraqi divisions have started 
to establish schools to try to inculcate the leadership 
culture, if you will, of the NCO ranks, and that's encouraging.
    But, improvements in the Iraqi tactical area are not going 
to occur without significant American involvement. It's the 
American military training teams, squad-sized units, that are 
embedded in Iraqi combat battalions and brigades, that are 
making the difference.
    Another important factor are partnership arrangements 
between American units on the ground and Iraqi combat units. 
One of the things we've learned in this war, in the recent 
years, is that the most powerful tools for transforming an army 
are emulation and example. Fighting side by side with Iraqis 
makes the Iraqis fight better. It's wasteful, it's OJT in 
combat, if you will, but it seems to work.
    The third factor is the personal relationships between the 
Iraqis and the Americans. General McCaffrey talked about 
battalion commanders and brigade commanders, many of whom I 
observed in my last trip, who not only are helping to rebuild 
the country, but are helping to rebuild the army as well.
    There will be some serious problems within the Iraqi forces 
after the surge. Senior leaders and staffs are doing a 
reasonably good job of moving battalions and brigades from 
point to point, but their ability to do quality planning and 
execution, frankly, is very immature. Too often, senior leaders 
are promoted and selected based on nepotism or tribal and clan 
loyalty, another very serious problem. Clearly, sectarianism, 
in many units, still trumps allegiance to the nation. Recently 
we have seen instances of soldiers deserting, rather than fight 
against their tribal peers.
    General McCaffrey alluded to the most serious shortcoming; 
combat enablers in this army are immature at best. Such things 
make an army robust and able to sustain itself over time, like 
intelligence, fire support, administration, logistics, 
communications, and medical support, have been put on the shelf 
for too long. And, unfortunately, we face the prospect of 
keeping American units of this sort in Iraq longer to begin the 
process of building these functions for the Iraqi Army.
    So, several years on, how will the American military help 
the Iraqi Army transition itself as we withdraw? First is this 
idea of a ``thinning'' strategy. The last thing that we want to 
do is pull ourselves out, whole cloth, like we did in Vietnam. 
Instead of brigades withdrawing as a brigade, the strategy 
should be to ``thin'' these brigades, to leave behind the brain 
and partnership relationships in these brigades, once we begin 
to withdraw in order to help sustain the Iraqi units for as 
long as we possibly can. Right now we have 5,000 embedded 
trainers and 1,300 headquarters trainers. But as we begin to 
thin our partnership and move our training teams out, I just 
think we're going to have to increase the number of these 
military training teams, because 5,000 just doesn't seem to be 
a large enough number.
    So, with enablers left in place, training teams left in 
place, sadly, the casualties will continue to rise. And if al-
Qaeda is smart, they will target these transition units, simply 
as a means of getting us out of Iraq and toppling the Iraqi 
Government.
    And the next point is that if the new center of gravity is 
shifting from active combat operations to the advise-assist-
and-train function, then we must make these functions, in the 
American military, job one. The Army is beginning to fray. It's 
very difficult for the Army and the Marine Corps to sustain 
these functions. We do the advising function very well. We've 
had a century of experiences in places like the Philippines, 
Korea, Thailand, Greece, Indonesia, and El Salvador, where the 
American trainers and advisers have done a good job of building 
armies in a time of war. Unfortunately, of course, after 
Vietnam, we lost those skills. As we begin to transition, we 
must move our focus from active combat operations to rebuilding 
a world-class advisory capacity within the United States 
military. This is not an organizational issue, this is a 
cultural problem. It's graduate-level work. It involves 
knowledge of cultures and languages. It requires exquisite 
personal skills, the ability to sublimate one's ego, the 
ability to empathize with an alien culture. And, frankly, not 
all officers and NCOs are very good at this. There are those 
who have this ``cultural right stuff'' in the American 
military. They are a rare breed.
    So, what we have to do is find the means to reward the best 
and the brightest who perform these functions during the 
transition, with such things as fully funded civil schooling, 
advanced promotion, and a chance to command at all levels.
    And, finally, let me say that the post-surge strategy 
should not be focused solely on creating an Iraqi Army in our 
image. The object is to make the Iraqi Army better than the 
enemy, not mirror the United States Army.
    And it's not necessary, I believe, to build a large Iraqi 
Army. I believe that the Iraqi Army will be the glue that bonds 
together this republic that will begin to emerge in Iraq. If 
the army is the only bonding agent, then it's the intangibles 
that will eventually determine whether or not this transition 
is successful. That includes such things as inculcating 
courage, adaptability, integrity, intellectual agility, and 
leadership, and the commitment of this army to a cause higher 
than clan that will ultimately determine whether or not they 
will be successful.
    But, the greatest task we have is to inculcate into the 
Iraqi Army the will to win, rather than merely teach them how 
to win.
    Thank you.
    [The prepared statement of General Scales follows:]

Prepared Statement of MG Robert H. Scales, Jr., USA (Ret.), President, 
                      Colgen, Inc., Washington, DC

    Once the dogs of war are unleashed all consequences--political, 
diplomatic, and domestic--are shaped by what soldiers call ``ground 
truth'' and the truth on the ground has changed enormously over the 
past year in Iraq. Through Herculean efforts the military command under 
the leadership of GEN David Petraeus has quite literally wrenched 
military advantage from what a year ago was the beginning of 
catastrophic defeat. Increasing the number of ``boots on the ground'' 
was an important factor contributing to recent successes. But perhaps a 
more significant reason for the change of circumstances on the ground 
was Petraeus' change of strategy. For the first time since the invasion 
in 2003 he has been able to approach the war as an insurgency; granted 
an insurgency of a very unique Middle Eastern character.
    A year's effort and the loss of nearly 900 lives have placed the 
military situation at what soldiers refer to as a ``culminating 
point.'' The culminating point marks the shift in military advantage 
from one side to the other, when, with all other variables fixed, the 
military outcome becomes irreversible: The potential loser can inflict 
casualties, but has lost the chance for victory on the battlefield. The 
only issue is how much longer the war will last, and what the butcher's 
bill will be.
    Battles usually define the culminating point. In World War II, 
Midway was a turning point against the Japanese, El Alamein was a 
turning point against the Nazis and after Stalingrad, Germany no longer 
was able to stop the Russians from advancing on their eastern front. 
Wars usually culminate before either antagonist is aware of the event. 
Abraham Lincoln didn't realize Gettysburg had turned the tide of the 
American Civil War. In Vietnam, the Tet offensive was a teachable 
moment for the situation today in that it proved that culminating 
points aren't always military victories particularly in an insurgency.
    In an insurgency, culmination just buys time. The temporal 
advantage gained on the battlefield can be squandered if time isn't 
used to turn a military advantage into a successful political outcome. 
Another lesson from the past is that the military advantage can be lost 
if the dynamics of the conflict change over time. After the surge the 
United States will begin to leave and the Iraqis will assume 
responsibility for their own defense. The battlefield advantage won at 
so costly a price can only be continued if this change of players is 
managed with the same strategic genius that gave us the battlefield 
advantage we now enjoy.
    While the military advantage clearly resides with the coalition 
very little can be done on the battlefield for the remainder of the 
surge to accelerate the pace of military operations. The 
counterinsurgency strategy implemented by Petraeus is the right one and 
cannot be substantially altered. The crucible of patience among the 
American people is emptying at a prodigious rate and very little short 
of a complete shift in conditions on the ground is likely to refill it.
    The military balance of power cannot be changed very much 
throughout the remainder of the surge. Al-Qaeda has been pushed into a 
northern corner of Iraq and constant harassment by the U.S. military 
supported by the Sons of Iraq effectively limits how much mischief they 
can cause. But their numbers, though small, have remained fairly 
constant. The United States has run out of military options as well. 
The Army went in to this war with too few ground troops. In a strange 
twist of irony for the first time since the summer of 1863 the number 
of ground soldiers available is determining American policy rather than 
policy determining how many troops we need. All that the Army and 
Marine Corps can manage without serous damage to the force is the 
sustained deployment in both Iraq and Afghanistan of somewhere between 
13 to 15 brigade equivalents. Assuming that Afghanistan will require at 
least 3 brigades troop levels by the end of the surge in Iraq must 
begin to migrate toward the figure of no more than 12 brigades--perhaps 
even less. Reductions in close combat forces will continue indefinitely 
thereafter.
    So regardless of who wins the election and regardless of conditions 
on the ground by summer the troops will begin to come home. The only 
point of contention is how precipitous will be the withdrawal and 
whether the schedule of withdrawal should be a matter of administration 
policy. Adhering to a fixed schedule is not a good idea in an 
insurgency because the indigenous population tends to side with the 
perceived winners. However, some publicly expressed window of 
withdrawal is necessary for no other reason than to give soldier's 
families some hope that their loved ones will not be stuck on a 
perpetual rollercoaster of deployments.
    By the end of the surge much will have been accomplished. The 
ethnosectarian competition for power and influence will continue. The 
hope is that all parties by then will seek to resolve these contests in 
the political realm and not in the streets. The campaign against al-
Qaeda and the Sunni extremists will continue to show success although 
insurgent groups will remain lethal. Militia and criminal violence will 
continue to be a thorn in the side of the Maliki regime as gangs roam 
the streets of cities occasionally killing on the order of rouge 
militia leaders. No solution to this festering problem is possible by 
the time the troops start coming home.
    The influence of Iran will loom very significant--and will seem 
``conflicted,'' given Iran's desire to bloody America's nose but not 
let the Shia-led Government of Iraq fail. By this January, about the 
time the drawdown begins in earnest, pressure will build to show some 
progress toward reconciliation nationally and within warring ethnic 
groupings.
    Governmental capacity will still be inadequate though it will 
continue to develop. It will resume only when the dust settles from the 
recent flareup connected with the Iraqi Army operations in Basra. Basic 
services will remain inadequate but presuming a lull after Basra will 
slowly improve as long-term electrical and oil projects gather 
momentum.
    In sum after the surge much will remain to be done and nothing 
substantial can be done without the ability of the Iraqi military to 
maintain security after American forces begin to depart. This task is 
so important for the creation of a stable state that the establishment 
of an effective Iraqi National Security apparatus will become a new 
center of gravity for the remaining phases of the war. Can the Iraqi 
Defense Forces grow competent and confident enough to take up the task 
in the time remaining to them? So far the answer to this question, like 
so many questions about American policy in Iraq, remains clouded in 
uncertainty.
    Some signs are encouraging.
    The Iraqi Security Forces have shown strength in recent weeks. The 
Iraqi high command deployed elements of the 14th Division to Basra to 
destroy the Shia militias and criminal gangs that have held the city 
hostage for years. Iraqi motor transport units moved one national 
police and three army brigades on short notice from Baghdad to Basra, a 
distance of about 400 kilometers, with less than a week for planning 
and execution. During the operations Iraqi special forces units were 
transported, some in Iraqi C-130 aircraft, from the very northern most 
regions of Iraq to the vicinity of Basra. An Iraqi Base Support Unit, 
roughly the equivalent of an American combat service support battalion, 
has so far managed to sustain the Basra operation with some help from 
American-supplied civilian contractors. There have been problems. Some 
units in the 14th have not fought well. There have been some sectarian 
infiltration and desertions. But for all its problems the division has 
not lost fighting effectiveness or cohesion.
    These accomplishments might seem at first glance to be less than 
impressive. But it's important to recall that only a year ago it would 
have been virtually impossible to pull an Army division from one 
province and move it to another in shape (and willing) to fight.
    Officer leadership at the small-unit level is improving. Sadly the 
process of leader development is driven by the wasteful Darwinian 
process of bloody self-selection that always attends armies that must 
learn to fight by fighting, the only way to build an Army from scratch 
in wartime. The American Army in the Civil War experienced a similar 
baptism of fire at a cost of more than half a million dead.
    Noncommissioned officers are the backbone of the American Army but 
NCOs are an alien concept in areas of the world ruled by strict 
hierarchies. The Iraqi Army is no exception. Only last year did the 
Iraqis start divisional schools to teach and build corporals, squad and 
platoon leaders. Some of these newly minted NCOs are filling the ranks 
of the Iraqi Army and initial reports of their success are encouraging.
    This process of ``on the job training'' in combat has been made 
more efficient with the addition of American military training teams. 
These are squad-sized units that imbed themselves in each Iraqi combat 
battalion and brigade. Equally important are partnership arrangements 
between American and Iraqi combat units. Emulation and example are 
powerful forces in combat. Iraqi soldier and leaders tend to mimic the 
example of American professionalism and effectiveness and when fighting 
side by side the Iraqis inevitably fight better. American units 
habitually partner with Iraqi units for the duration of their time in 
Iraq. These enduring partnerships have the added advantage of allowing 
the development of personal relationships between Iraqi and American 
soldiers and commanders.
    But very serious problems continue to plague the Iraqi military and 
in spite of the best efforts of the coalition these problems will 
linger well after the surge. Iraqi senior leaders and staffs are 
reasonably competent at moving brigades and battalions from point to 
point but their ability to do quality planning and execution is very 
immature. While small-unit leaders are being selected by merit higher 
level selections are too often based on nepotism or tribal and clan 
loyalty. In some units sectarianism still trumps allegiance to the 
nation and on occasion soldiers desert rather than fight against their 
tribal peers.
    From the beginning the coalition leadership focused on building 
close combat small units as first priority. As a consequence by the end 
of the surge noncombat functions, what the military calls ``enablers,'' 
will be immature at best. No army can function for long without being 
competent in intelligence, fire support, administration, logistics, 
communications, and medical support. The American military will not 
only have to train the Iraqis in these functions but remain in Iraq to 
provide them for a long time; perhaps several years.
    The challenge after the surge will be to increase the effectiveness 
of training, advising, and mentoring to the Iraqis as American forces 
depart so that the Iraqis will be able to fill the void. Rather than 
pulling out combat brigades whole cloth partnership units will probably 
follow a ``thinning'' strategy whereby a partner unit will thin its 
ranks gradually leaving the ``brains'' of the unit in place for as long 
as possible to assist with planning and employment of enablers.
    Today there are 5,000 imbedded trainers and 1,300 headquarters 
trainers and advisers to joint, army, and ministerial staffs. As the 
Iraqis face fighting without partners they will probably need more 
training teams to imbed with them. More Americans left to fend for 
themselves in an alien and hostile environment might also mean more 
casualties. It certainly will mean that if the enemy sees killing 
advisers and support soldiers as the surest means for getting us out of 
Iraq and toppling the Iraqi Government.
    Training, advising, and assisting the army of an alien culture is 
now job one for the American military. History shows that we are good 
at this. For over a century from the Philippines to Korea, Thailand, 
Greece, Indonesia, El Salvador, and in many other distant and 
inhospitable places American soldiers have successfully assisted in 
building armies during wartime. Unfortunately after Vietnam we lost the 
skill to do these tasks effectively. Rebuilding a world class advisory 
capacity is a cultural not an organizational challenge. This is 
graduate-level work and advisers need time to learn the language and 
culture as well as the particular personal skills to do their jobs 
competently. Not all officers are good at training and advising foreign 
militaries. We must go the extra mile to find those with the cultural 
``right stuff'' and reward the best of them with fully funded civil 
schooling, advanced promotion, and a chance to command at all levels.
    The post-surge strategy should not be focused solely creating an 
Iraqi Army in the image of our own. The Iraqis only have to be better 
than their enemies. Not is the challenge to commit the blood, treasure, 
and time necessary to train and equip a large Iraqi Army. Wars are not 
won by the bigger forces but by the force that wants most to win. It 
will in the end be the intangibles; courage, adaptability, integrity, 
intellectual agility, leadership, and an allegiance to a cause other 
than the tribe that will ultimately determine who wins. As we move into 
a new season of this sad war the age-old axioms will prevail: We will 
in the end discover that our greatest task will be to inculcate in the 
Iraqis the will to win rather than to teach them how to win.

    The Chairman. Thank you very much.
    Ms. Flournoy.

   STATEMENT OF MICHELE FLOURNOY, PRESIDENT, CENTER FOR NEW 
               AMERICAN SECURITY, WASHINGTON, DC

    Ms. Flournoy. Chairman Biden, Senator Lugar, and 
distinguished members of the committee, thank you very much for 
inviting me to speak with you today. I'm honored to be part of 
the discussion that you are trying to stimulate, not only on 
Iraq, but how the United States balances its strategic 
interests across the many national security challenges that we 
face.
    In February, I had a chance to visit 10 of Iraq's 18 
provinces over a 2-week period, and, even as someone who's a 
skeptic of the war, I observed that security in many parts of 
the country had improved markedly, due to the many factors that 
Senator Biden and Senator Lugar already cited: The Sunni 
Awakening, the Sadr cease-fire, the sectarian separation that's 
occurred over the last couple of years, the shift in U.S. 
strategy toward counterinsurgency and protecting the Iraqi 
population, the surge of forces in Baghdad that enabled us to 
be more effective in implementing that strategy in Baghdad, 
more effective operations against al-Qaeda, which you're now 
seeing coming to a head in Mosul, and greater professionalism 
of some, but certainly not all, of the Iraqi military units. 
And having lived through the violence of 2006 and early 2007, 
many of the Iraqis that I spoke to really felt like Iraq had 
been given a second chance.
    But, I think the events of the last couple of weeks have 
reminded us that the situation in Iraq remains highly 
uncertain. The renewed fighting in Basra and the Shia 
neighborhoods of Baghdad are a reminder that the security gains 
that we've made over the last several months are both fragile 
and incomplete. They're fragile, because they have not been 
underwritten sufficiently by true political accommodation, and 
they're between and within the Shia, Sunni, and Kurdish 
communities. And they're incomplete, because southern Iraq has 
been left largely under the control of competing Shia militia 
since the British transferred responsibility for that area, in 
December 2007.
    That said, in areas where security has improved, public 
expectations have risen quite rapidly. Once you have security, 
people want jobs, they want essential services, they want free 
and fair elections, they want real political reconciliation. 
And these expectations, thus far, have not been met. Meeting 
those expectations will be essential to consolidating recent 
security gains.
    We're now in what counterinsurgency doctrine calls ``the 
build phase,'' which is the hardest part of this endeavor, 
where the primary objective is actually enhancing the 
legitimacy of the host-nation government, the Iraqi Government, 
in the eyes of the population. The problem that I saw is that, 
to date, the security improvements have enhanced our 
legitimacy, not that of the Iraqi Government.
    And herein lies the principal cause for my concern. The 
Maliki government appears largely unwilling or unable to take 
advantage of the space created by the improved security, and 
actually move toward political accommodation, provide for the 
basic needs of the Iraqi people, and lay the foundation for 
stability and its own legitimacy; and our government, the Bush 
administration, appears to lack a strategy for getting them to 
do so.
    One of the most striking things, to me, when I visited, 
was, whether it was Sunni tribal leaders and business leaders 
in Anbar and Baghdad, whether it was Shia mayors and governors, 
down south, the frustration with the incompetence, the 
dysfunction, the corruption of the central government was not 
only palpable, it was nearly universal.
    And so, Iraqis are deeply frustrated by the lack of 
political-economic progress overall, and unless this situation 
changes, recent security gains are going to be very difficult 
to consolidate, and may be quite perishable, no matter how many 
brigades we keep in Iraq.
    So, the real challenge in the near term is for the Bush 
administration to use the leverage we have--military, economic, 
political--to push toward real power-sharing arrangements. And 
this is a tall order, because it presumes that we will have 
something we have never had in Iraq, and that is a political 
strategy, a clear and compelling political strategy to push 
toward accommodation.
    Unless the administration succeeds more than it has in the 
past on this front, I fear that it will bequeath to the next 
administration an Iraq that is backsliding into civil war.
    Let me just take a moment to talk a little bit about the 
impact on the U.S. military, since you asked us to address 
that.
    Years of conducting two wars in Afghanistan and Iraq 
simultaneously have put great strains on the force, 
particularly our ground forces and special operations forces. 
More than 6 years of repeated combat tours--two, three, four, 
in some cases--with little time at home in between, have placed 
an extremely heavy burden on our soldiers, our marines, and 
their families.
    The operational demands of these wars are consuming the 
Nation's supply of ready ground forces, leaving us without an 
adequate pool of Army units ready for other possible 
contingencies, and thereby increasing the level of strategic 
risk that we are assuming as a nation.
    In my written statement, I've gone into great detail on the 
strains on personnel, the compressed and narrow training time, 
the shortages of equipment, the costs of reset, recruitment, 
and retention challenges. I won't go into those all here, 
because I don't want--I know we want to get to the Q&A.
    Let me just highlight one key factor, though, that is very 
important, and that is the Army's need to reduce the length of 
tours from 15 months down to at least--no more than 12 months, 
in the near term. You've heard, from the Chairman of the Joint 
Chiefs, saying that we can't sustain the current operational 
tempo at current force levels. Getting back to a one-to-one 
deployment ratio of 12 months abroad and 12 months at home is 
absolutely critical to keeping the force from unraveling, as my 
colleagues have suggested.
    As the surge comes to an end, the Army will have a total of 
17 brigade combat teams deployed in Iraq and Afghanistan. The 
Army planners have told me that they need to get that number 
down to 15 to be able to return to this 12-on/12-off cycle 
that's so crucial to keeping the force from breaking, over 
time. So, that's going to argue for trying to take two 
additional brigades out of Iraq as soon as conditions on the 
ground permit.
    At the same time, there are countervailing pressures and 
arguments. You'll hear military folks in Iraq talk about the 
need to maintain higher levels of forces in order to secure the 
provincial elections that will come, we hope, at the end of 
this year. They also talk, interestingly, about their concerns 
about our transition period, and the nobody-home phenomenon 
between election day and inauguration day. They're very worried 
about any instability in Iraq that could happen in that period, 
and, again, they want to err on the side of keeping the force 
high and then handing off to a new President who can make the 
choices to bring the force down. I think that's the argument 
that we're going to have in the next several months, that 
competition between, ``What do we need to do to relieve the 
strains on the force?'' versus what some of the commanders on 
the ground will argue for, to give themselves more flexibility 
in the--as Iraq enters a critical period.
    So, where do we go from here? Let me just say that I hope 
that, as this committee begins these hearings, that, rather 
than jumping right to troop levels, we--that you will have the 
discussion, that you are so good at having, which is, ``What 
are our strategic interests in Iraq and the region?'' and 
``What should our strategy be?'' and then, based on that 
discussion, you know, ``What should the troops levels in Iraq 
look like over time?''
    In my view, there are three fundamental premises that we 
should think about as we contemplate how to go forward.
    First, like it or not, we are where we are. Whether we 
were--one was for or against the war, we can't turn back the 
clock; we have to move forward from the point where we find 
ourselves today.
    Second, like it or not, Iraq involves our vital interests, 
and we have to balance, not only our interests in Iraq, but our 
interests in the region and more globally, to include restoring 
our moral standing and credibility in the world.
    And, third, how we get out of Iraq matters. I think that 
the next President will have three fundamental options: 
Unconditional engagement, unconditional disengagement, or 
conditional engagement. And I've laid those out in my 
testimony, but, just briefly.
    Unconditional engagement is basically a continuation of the 
Bush administration's policy of giving the Iraqi Government a 
fairly open-ended commitment of support for as long as it 
takes, whether they make progress toward political goals or 
not. This is an all-in approach that is all carrots and no 
sticks, and it gives the Iraqis very little incentive to make 
the hard choices they have to make on political accommodation. 
It's also unsustainable for us, in terms of the U.S. military, 
our Treasury, and the support of the American people.
    The other--second option is unconditional disengagement, 
which argues for a rapid withdrawal of all U.S. combat forces 
from Iraq on a fixed timetable, without regard to conditions on 
the ground or the behavior of various parties in Iraq, or the 
consequence that that withdrawal might have on stability in 
Iraq and the broader region. This is the all-out approach, as I 
would call it, and it's all sticks and no carrots. My concern 
is that this would substantially increase the risk of renewed 
civil war, and even regional war, that would do even greater 
damage to our vital interests.
    So, the best way forward that I see for the United States 
is a strategy of conditional engagement, in which we use the 
leverage we have--military, political, and economic--which, I 
would argue, we have never used effectively in 5 years, and we 
use that leverage to push Iraqis toward political accommodation 
in the near term and establish the basis for a more sustainable 
stability over the medium to long term.
    Under this approach, U.S. forces would drawdown, gradually 
shifting to an overwatch role that would be based on a 
timetable determined by the conditions on the ground and the 
extent of political accommodation in Iraq. It would transition 
U.S. forces out of the lead role of providing for the security 
of the Iraqi population and instead put them in the position 
of, as General Scales suggested, primarily advising, training, 
and assisting the Iraqi Security Forces in so doing. This makes 
building the capacity of the Iraqi forces the long pole in the 
tent. It also suggests that United States forces would continue 
to assist Iraqi forces in certain areas, like counterterrorism 
operations, and would certainly provide for force protection 
and a quick reaction force for our military advisers and 
civilians still in country.
    If, however, the Iraqis did not make substantial progress 
on political accommodation, the United States, under this 
strategy, would selectively reduce its support, in terms of 
political, economic, military aid, in ways designed to put 
additional pressure on the Iraqis to make the necessary 
political compromises, while still protecting our vital 
interests.
    What this strategy does is, it tries to make clear to the 
Iraqis that our commitment is not open-ended; it is conditional 
on them making the hard choices that need to be made. It also 
offers a missing link that's been present since the beginning 
of this endeavor, and that is a political strategy to support 
our military strategy for achieving our objectives.
    Finally, it aims to enable the United States to protect its 
vital interests in Iraq and the region at substantially reduced 
and more sustainable force levels.
    I'd like to conclude there. Thank you very much.
    [The prepared statement of Ms. Flournoy follows:]

   Prepared Statement of Michele Flournoy, President, Center for New 
                   American Security, Washington, DC

    Chairman Biden, Senator Lugar, distinguished members of the Senate 
Foreign Relations Committee, thank you for inviting me to talk with you 
about prospects for both Iraq and the U.S. military after the surge. I 
am honored to be part of the larger national discussion you are seeking 
to stimulate on how the United States should balance risk across the 
many national security challenges we face, now and in the future.
    I would like to touch on three critical and interrelated issues: 
Where things stand in Iraq today; the impacts of sustained high tempos 
of operations on the U.S. military, particularly our Nation's ground 
forces; and where we should go from here.
                       where we are in iraq today
    In February, I had a chance to visit 10 of Iraq's 18 provinces over 
a 2-week period. After walking neighborhoods with U.S. soldiers, 
conferring with State Department and USAID personnel, and meeting with 
dozens of Iraqis, I came away with both a greater sense of hope and a 
deeper sense of concern.
    Even a skeptic of the war in Iraq could not visit places like 
Adhamiyah, Doura, and Iskandariyah without being struck by how much 
security has improved. Markets were open, shoppers thronged the 
streets, and children were back in school in areas that were deadly 
urban battlegrounds only months ago.
    At the time of my visit, security in many parts of the country had 
improved markedly due to a host of factors: The Sunni ``Awakening,'' 
Muqtada al-Sadr's cease-fire, the shift in U.S. strategy to protecting 
the Iraqi population, the surge of U.S. forces in Baghdad, increasingly 
effective operations against al-Qaeda, and greater professionalism 
among some (though not all) Iraqi military units. Having lived through 
the sectarian violence of 2006 and early 2007, many Iraqis now feel 
that Iraq has been given a second chance.
    Today, the situation in Iraq remains dynamic and uncertain. The 
renewed fighting in Basra and Shia neighborhoods of Baghdad, as well as 
the possible cease-fire, are a reminder that the security gains made 
over the past year are both fragile and incomplete. They are fragile 
because they have not been underwritten by fundamental political 
accommodation between and within Iraq's Shia, Sunni, and Kurdish 
communities. Security gains cannot be consolidated absent political 
accommodation on multiple fronts.
    The security gains are incomplete because southern Iraq has been 
left largely in the control of competing Shia militias since the 
British transferred responsibility to Iraqi Security Forces in December 
2007. The full story behind the Iraqi Government's latest offensive has 
yet to be told, but it appears to have been an attempt to reassert its 
control over Basra, which is home to both critical oil reserves and the 
nation's primary port, and to defeat Sadrist elements who have 
continued to launch attacks despite Sadr's previously proclaimed cease-
fire. Some speculate that it may also have been a calculated political 
move by Prime Minister Maliki and his political allies to weaken Sadr's 
movement prior to the provincial elections slated for this fall. 
Although Sadr and the Iraqi Government appear to have negotiated the 
terms of a new cease-fire, the situation remains highly uncertain. It 
will take time before both the impetus and outcomes of this latest 
chapter in Iraq's history are fully known. But there is substantial 
risk when U.S. forces are drawn into the middle of intra-Shia battles.
    In areas where security has improved, public expectations have 
risen rapidly--for essential services like electricity, for political 
reconciliation and open, free, and fair elections, for equitable 
distribution of Iraq's vast oil wealth, and for jobs. These 
expectations must be met to consolidate recent security gains.
    We are now in what U.S. counterinsurgency doctrine calls the 
``build'' phase--certainly the hardest phase--in which the primary 
objective is enhancing the legitimacy of the host-nation government in 
the eyes of the population. The problem is that, to date, improved 
security has increased our legitimacy, not that of the Iraqi 
Government.
    And herein lies the cause for my deep concern. The Maliki 
government appears largely unwilling or unable to take advantage of the 
space created by improved security to move toward political 
accommodation, provide for the basic needs of the Iraqi people, and lay 
the foundation for stability--and its own legitimacy. And the Bush 
administration appears to lack a strategy for getting them to do so.
    From Sunni tribal and business leaders in Baghdad and the west to 
Shia mayors and governors in the center and south, mounting frustration 
with the incompetence, dysfunction, and corruption of the central 
government was palpable and universal.
    While there has been some de facto revenue-sharing by the central 
government, and the Iraqi Parliament recently passed de-Baathification 
reform, an amnesty law and a budget, the Iraqis I spoke to were deeply 
frustrated by the lack of political and economic progress overall. 
Unless this situation changes, recent security gains are likely to be 
difficult to consolidate and may be quite perishable, no matter how 
many brigades the United States keeps in Iraq.
    The Bush administration must use its remaining time in office to 
push the Iraqi Government toward real power and resource-sharing 
arrangements. This is a tall order, as it requires something that U.S. 
efforts in Iraq have lacked from the beginning: A clear and compelling 
political strategy.
    In the near term, the focus must be on building the political 
coalitions and negotiating the compromises necessary to achieve a 
handful of critical priorities: A renewed cease-fire with Sadr; a 
provincial powers law; free and fair provincial elections; an equitable 
oil law; and concrete steps toward political accommodation, such as 
progress on Article 140 issues, the integration of more Sunnis into the 
Iraqi Security Forces; and more employment opportunities in former 
insurgent strongholds.
    This will require actually using what leverage we have to pressure 
key Iraqi players to take specific actions, particularly as we 
negotiate a new bilateral agreement. Iraq is seeking significant U.S. 
commitments of political support, security assistance, and economic 
engagement. These plus U.S. force levels offer leverage for pushing the 
central government to prove its legitimacy and its worthiness of 
continued American support. Right now, we are negotiating as if we want 
this agreement more than they do.
    In sum, this administration has a vanishing window of opportunity 
to consolidate recent security gains with political and economic 
progress. But this will require the civilian side of the U.S. 
Government in Washington and Baghdad to act with greater urgency and 
focus, to use the leverage we have to the greatest effect possible, and 
to do more of what we in Washington are supposed to know how to do--
figure out how to broker political compromises and build political 
coalitions to get forward movement on tough issues.
    Unless the Bush administration succeeds in pushing the Iraqi 
Government to embrace political accommodation and invest in its own 
country in the coming months, it risks not only losing hard-fought 
security gains but also bequeathing to the next President an Iraq in 
danger of sliding back into civil war.
                      impact on the u.s. military
    Years of conducting two major wars in Afghanistan and Iraq 
simultaneously have put great strains on the U.S. military, 
particularly our ground forces and special operations forces. More than 
6 years of repeated combat tours with little time at home in between 
have placed a heavy burden on our soldiers, marines, and their 
families. The operational demands of these wars have consumed the 
Nation's supply of ready ground forces, leaving the United States 
without an adequate pool of Army units ready for other possible 
contingencies and increasing the level of strategic risk.
    At a time when the United States faces an unusually daunting set of 
national security challenges--from a deteriorating situation in 
Afghanistan, instability in Pakistan, and a truculent Iran bent on 
acquiring nuclear weapons, to a rising China, a nuclear-armed North 
Korea, and a host of weak and failing states beset by a revitalized 
global network of violent Islamist extremists--we must give high 
priority to restoring the readiness of the U.S. military for the full 
spectrum of possible missions. As a global power with global interests, 
the United States needs its Armed Forces to be ready to respond 
whenever and wherever our strategic interests are threatened.
Stresses on Personnel
    Multiple, back-to-back deployments with shorter ``dwell'' times at 
home and longer times away, have put unprecedented strain on U.S. 
military personnel. Due to the high demand for troops in Iraq and 
Afghanistan, Army and Marine Corps personnel have been spending more 
time deployed than either they or their respective services planned. 
Judging from conversations with dozens of U.S. soldiers in Iraq, the 
Army's 15-month tours with only 12 months at home in between have been 
particularly hard on soldiers and their families.
    According to Admiral Michael Mullen, the Chairman of the Joint 
Chiefs of Staff, the Nation cannot sustain today's operational tempos 
at current force levels.\1\ Getting back to a one-to-one ratio between 
time deployed and time at home in the short term, and a one-to-two 
ratio in the mid to long term, would require either a substantial 
increase in troop supply or decrease in troop demand, or some 
combination of both. As the ``surge'' in Iraq comes to an end, the Army 
will have a total of 17 Brigade Combat Teams (BCTs) deployed in Iraq 
and Afghanistan. In order to get back to a cycle of 12 months deployed 
and 12 months at home, the United States total commitment would need to 
be reduced to 15 BCTs.\2\ Over time, growing the size of the Army and 
the Marine Corps will help to reduce the strain, but not in the near 
term, as it will take time to recruit, train, and field the additional 
personnel.
---------------------------------------------------------------------------
    \1\ Hearing of the Senate Armed Services Committee, Fiscal Year 
2009 Defense Authorization Request, Future Years Defense Program, and 
Fiscal Year 2009 Request for Operations in Iraq and Afghanistan, 
testimony of the Honorable Robert S. Gates, Secretary of Defense and 
Admiral Michael V. Mullen, Chairman of the Joint Chiefs of Staff, 
February 6, 2008.
    \2\ At the same time, however, some senior military leaders are 
also concerned about the ``nobody home'' phenomenon that can occur 
during our own political transitions, from election day in early 
November to Inauguration Day in late January, and even later as senior 
administration appointees await confirmation. This concern may cause 
them to err on the side of recommending that President Bush keep more 
forces in Iraq after the pause to maintain stability until a new 
President and his or her team are in place.
---------------------------------------------------------------------------
    Meanwhile, there are signs that the stress of repeated deployments 
is taking a human toll, especially on the Army. Studies show that 
repeated tours in Iraq increase a soldier's likelihood of developing 
post-traumatic stress disorder, and indeed, cases of PTSD have risen 
dramatically.\3\ The rates of suicide, alcohol abuse, divorce, 
desertion, and AWOLs among Army personnel are all increasing.
---------------------------------------------------------------------------
    \3\ Ann Scott Tyson, ``Troops' Mental Distress Tracked,'' The 
Washington Post, November 14, 2007; see also Associated Press ``Army 
Suicides up 20 Percent in 2007, Report Says.'' 31 January 2008. http://
www.cnn.com/2008/HEALTH/01/31/army.suicides.ap
---------------------------------------------------------------------------
    While all four services have met or exceeded their active duty 
recruiting targets in recent years, they have had to take some rather 
extraordinary measures to do so. Each service has relied increasingly 
on enlistment bonuses to attract the shrinking portion of young 
Americans (only 3 in 10) who meet the educational, medical and moral 
standards for military service.
    Of all the services, the Army has faced the greatest recruiting 
challenges. Since missing its 2005 recruiting target by a margin of 8 
percent, the Army has taken a number of steps to bolster its accessions 
and meet its annual targets. These have included: Raising the maximum 
age for enlistment from 35 to 42, offering a shorter-than-usual 15-
month enlistment option, giving a $2,500 bonus to personnel who 
transfer into the Army from another service, and providing a new 
accession bonus to those who enter Officer Candidate School.\4\ Most 
notably, the Army has accepted more recruits without a high school 
diploma (only 82 percent had a diploma in FY2008 to date vice the goal 
of 90 percent) \5\ and has increased the number of waivers granted for 
enlistment.\6\ In 2007, for example, more than 20 percent of new 
recruits required a waiver: 57 percent for conduct, 36 percent for 
medical reasons, and 7 percent for drug or alcohol use.\7\ An Army 
study assessing the quality and performance of waiver soldiers compared 
to their overall cohort found that while the waiver population had 
higher loss rates in six of nine adverse loss categories, they also had 
slightly higher valorous award and promotion rates in some 
communities.\8\ This mixed record highlights the importance of 
continuing to monitor the performance of waiver soldiers over time.
---------------------------------------------------------------------------
    \4\ Hearing of the Senate Armed Services Personnel Subcommittee on 
Personnel Overview, testimony of the Honorable David S.C. Chu, Under 
Secretary of Defense for Personnel and Readiness, February 27, 2008.
    \5\ Ibid.
    \6\ The total number of waivers granted by the Army rose from 11.5 
percent in 2004 to 16.9 percent in 2006. Congressional Budget Office, 
``The All-Volunteer Military: Issues and Performance.'' July 2007.
    \7\ Department of the Army. Of the more than 10,000 conduct waivers 
granted, 68 percent were for minor misdemeanors, 18 percent were for 
serious misdemeanors, and 14 percent were for felonies.
    \8\ Department of the Army, G1 Cohort FY03-FY06 study, 2007.
---------------------------------------------------------------------------
    The Army is also facing some new retention challenges as it 
sustains an unusually high operational tempo while simultaneously 
converting to modularity and growing its force. Remarkably, loss rates 
for company grade officers (second lieutenant, first lieutenant, and 
captain) have remained fairly stable in recent years, despite the 
demands of multiple tours in quick succession. Nevertheless, there is 
cause for concern. A number of the young captains I met in Iraq were 
seriously contemplating leaving the Army. While they were proud of 
their service and most loved the Army, after two, three, or in some 
cases four combat tours in a handful of years, they needed a break--to 
resume their education, start a family, or spend time with the young 
family they had left at home.
    In addition, as the Army expands, it will need to retain a higher 
percentage of its experienced officers to lead the force. For example, 
the number of officers the Army needs grew by 8,000 between 2002 and 
2006, with 58 percent of this growth in the ranks of captain and 
major.\9\ A particular gap is at the level of majors, where the 
services estimates approximately 17 percent of spots are empty.\10\ To 
decrease the historical loss rate of company grade officers, the Army 
is offering unprecedented incentives to those captains who agree to 
extend for 3 years, including choice of one's post or branch or 
functional area, the opportunity to transfer or change jobs, assignment 
at their post of choice, professional military or language training, 
fully funded graduate education, or receipt of up to $35,000 critical 
skills retention bonus.\11\
---------------------------------------------------------------------------
    \9\ ``U.S. Army Officer Retention Fact Sheet,'' Army G1, May 25, 
2007.
    \10\ Charles A. Henning, ``Army Office Shortages: Background and 
Issues for Congress.'' Congressional Research Service, July 5, 2006.
    \11\ Hearing of the Senate Armed Services Personnel Subcommittee on 
Personnel Overview, testimony of the Honorable David S.C. Chu, Under 
Secretary of Defense for Personnel and Readiness, February 27, 2008.
---------------------------------------------------------------------------
    Given the criticality of retaining experienced field grade officers 
as it grows, and given the uncharted waters we are in as an All-
Volunteer Force sends young officers to their third and fourth combat 
rotations with little time at home, the Army is rightly paying serious 
attention to retaining its field-grade officers.\12\
---------------------------------------------------------------------------
    \12\ Bryan Bender and Renee Dudley, ``Army Rushes to Promote its 
Officers.'' Boston Globe, March 13, 2007.
---------------------------------------------------------------------------
Compressed and Narrowed Training
    To remain fully ready, the U.S. military must prepare not only for 
current operations but also for a broad range of future contingencies, 
from sustained, small-unit irregular warfare missions to military 
training and advising missions, to high-end warfare against regional 
powers armed with weapons of mass destruction and other asymmetric 
means. Yet compressed training time between deployments means that many 
of our enlisted personnel and officers have the time to train only for 
the missions immediately before them--primarily counterinsurgency 
missions in Iraq and Afghanistan--and not for the full spectrum of 
missions that may be over the horizon.\13\ These just-in-time training 
conditions have created a degree of strategic risk.\14\
---------------------------------------------------------------------------
    \13\ See, for example, General James T. Conway, Commandant, United 
States Marine Corps, Statement on Marine Corps Posture before the House 
Armed Services Committee, March 1, 2007.
    \14\ Hearing of the Senate Armed Services Committee, Fiscal Year 
2009 Defense Authorization Request, Future Years Defense Program, and 
Fiscal Year 2009 Request for Operations in Iraq and Afghanistan, 
testimony of the Honorable Robert S. Gates, Secretary of Defense and 
Admiral Michael V. Mullen, Chairman of the Joint Chiefs of Staff, 
February 6, 2008.
---------------------------------------------------------------------------
    With a 12-month dwell time that is compounded by personnel 
turnover, institutional education requirements, and equipment either 
returning from or deploying to theater, Army units have found 
themselves racing to get certified for their next deployment. While 
home-station training and exercises at the major training centers are 
evolving, the ability of units to train for the full spectrum of 
operations has been severely limited by time. This same compressed 
timeline has contributed to the overall stresses on the force.
Equipment Shortages and Wear-Out
    Near-continuous equipment use in-theater has meant that aircraft, 
vehicles, and even communications gear have stayed in the fight instead 
of returning home with their units. For example, 26 percent of the 
Marine Corps' equipment is engaged overseas and most does not rotate 
out of theater with units.\15\ Roughly 43 percent of the National 
Guard's equipment remains overseas or has worn out.\16\ Given the high 
tempo of operations and the harsh operating environments, equipment has 
been worn out, lost in battle, or damaged almost more quickly than the 
services can repair or replace it. And near continuous use without 
depot-level maintenance has substantially decreased the projected 
lifespan of this equipment and substantially increased expected 
replacement costs.
---------------------------------------------------------------------------
    \15\ Statement of General James T. Conway, Commandant of the Marine 
Corps before the Senate Armed Services Committee, the Posture of the 
United States Marine Corps, February 28, 2008.
    \16\ Commission on the National Guard and Reserves, ``Transforming 
the National Guard and Reserves into a 21st Century Operational Force: 
Final Report to the Congress and the Secretary of Defense.'' January 
31, 2008, pg. 84.
---------------------------------------------------------------------------
    The resulting equipment scarcity has lead to the widespread 
practice of cross-leveling: Taking equipment (and personnel) from 
returning units to fill out those about to deploy. The Marines and the 
Army have also drawn increasingly from prepositioned stocks around the 
world. So far, these measures have met readiness needs in theater, but 
they have also decreased the readiness of nondeployed units and impeded 
their ability to train on individual and collective tasks. Even those 
deployed are at increasing risk as the equipment they have becomes 
unusable: Army equipment in Iraq and Afghanistan is wearing out at 
almost nine times the normal rate.\17\
---------------------------------------------------------------------------
    \17\ Ann Scott Tyson, ``U.S. Army Battling to Save Equipment.'' 
Washington Post, December 5, 2006.
---------------------------------------------------------------------------
    Meanwhile, the Army has told the Government Accountability Office 
that it will need between $12 and $13 billion per year to replace lost, 
damaged, and worn equipment for the duration of the war in Iraq and at 
least 2 years beyond.\18\ The Marine Corps estimates it will need $15.6 
billion for reset.\19\ Bringing the National Guard's equipment stock up 
to even 75 percent of authorized levels will take $22 billion over the 
next 5 years.\20\ In the current budgetary environment, the military 
services are struggling to balance resources between reconstituting 
current stocks and modernizing for the future.
---------------------------------------------------------------------------
    \18\ Government Accountability Office, Statement of Sharon L. 
Pickup, ``Military Readiness: Impact of Current Operations and Actions 
Needed to Rebuild Readiness of U.S. Ground Forces.'' Testimony before 
the Armed Services Committee, House of Representatives, February 14, 
2008.
    \19\ General James T. Conway, Commandant, United States Marine 
Corps, statement on
Marine Corps Posture before the House Armed Services Committee, March 
1, 2007.
    \20\ Peter Spiegel, ``Guard Equipment Levels Lowest Since 9/11,'' 
Los Angeles Times, May 10, 2007; see also James Halpin, ``Equipment 
Levels Worst Ever, Guard Chief Says.'' Associated Press, June 6, 2007.
---------------------------------------------------------------------------
The Reserve Component: Unique Challenges
    The Reserves comprise 37 percent of the Total Force and their 
battle rhythm has accelerated enormously since operations in 
Afghanistan began in 2001. Each of the National Guard's 34 combat 
brigades has been deployed to Operations Enduring Freedom or Iraqi 
Freedom, and 600,000 selected reservists have been activated.\21\
---------------------------------------------------------------------------
    \21\ Final Report of the Commission on the National Guard and 
Reserves, ``Transforming the National Guard and Reserves Into a 21st 
Century Operational Force.'' January 31, 2008.
---------------------------------------------------------------------------
    Cross-leveling is especially acute for Reserve units, which do not 
possess equipment at authorized levels. The Army National Guard lacks 
43.5 percent of its authorized equipment, while the Army Reserve does 
not have 33.5 percent of its authorized levels. The Commission on the 
National Guard and Reserves found that spending on the Reserve 
Component ``has not kept pace with the large increases in operational 
commitments,'' \22\ making it unlikely that it will be able to 
eliminate its equipment shortfalls any time soon. Additionally, a 
dramatic shortage of person-
nel--including 10,000 company-grade officers--has forced the Reserve 
Component to borrow people from other units along with equipment.
---------------------------------------------------------------------------
    \22\ Ibid, pg. 74.
---------------------------------------------------------------------------
    While the Reserve Component is intended for use in overseas 
operations and homeland defense, it is not fully manned, trained, or 
equipped to perform these missions. The gap in Reserve readiness 
creates a significant and little-noticed vulnerability in both domestic 
disaster response and readiness for operations abroad.
    In sum, the readiness of U.S ground forces is just barely keeping 
pace with current operations. As Army Chief of Staff George Casey has 
said, ``We are consumed with meeting the demands of the current fight 
and are unable to provide ready forces as rapidly as necessary for 
other potential contingencies.'' \23\ Indeed, the United States lacks a 
sizeable ready reserve of ground forces to respond to future crises. In 
addition, the fight to recruit and keep personnel combined with the 
need to repair and modernize equipment means that building and 
regaining readiness is becoming increasingly costly.
---------------------------------------------------------------------------
    \23\ General George Casey, Chief of Staff of the Army, before the 
House Armed Services Committee, September 2007.
---------------------------------------------------------------------------
                       where do we go from here?
    As you hear testimony from General Petraeus, Ambassador Crocker, 
and others in the coming weeks, I would encourage you to place their 
recommendations in a larger strategic context that considers not only 
the way forward in Iraq but also how best to balance risk across the 
range of national security challenges we face as a nation.
    In my view, any change in U.S. strategy on Iraq must be based on 
three fundamental premises:
    First, we are where we are. Whether one was for or against the war, 
we can't turn back the clock. We must start from where we find 
ourselves today and move forward.
    Second, like it or not, Iraq affects U.S. vital interests in the 
region and globally. Today, the United States most fundamental 
interests in Iraq can be summed up as:

  <bullet> Preventing safe havens for international terrorism;
  <bullet> Preventing a regional war; and
  <bullet> Preventing of a large-scale humanitarian catastrophe.\24\
---------------------------------------------------------------------------
    \24\ See James Miller and Shawn Brimley, ``Phased Transition: A 
Responsible Way Forward and Out of Iraq'' (Washington, DC: Center for a 
New American Security, 2007): 5.

    These interests are a far cry from the maximalist, long-term goals 
articulated by the Bush administration.\25\ Rather, they are the bottom 
line of what we must seek to achieve.
---------------------------------------------------------------------------
    \25\ The administration has stated its goals in Iraq as: ``An Iraq 
that has defeated the terrorists and neutralized the insurgency; an 
Iraq that is peaceful, united, stable, democratic, and secure, where 
Iraqis have the institutions and resources they need to govern 
themselves justly and provide security for their country; [and] an Iraq 
that is a partner in the global war on terror and the fight against the 
proliferation of weapons of mass destruction, integrated into the 
international community, an engine for regional economic growth, and 
proving the fruits of democratic governance to the region.'' See George 
W. Bush, National Strategy for Victory in Iraq (November 2005): 3.
---------------------------------------------------------------------------
    In addition to being more pragmatic and realistic, these three 
preventative American interests in Iraq fit within several broader 
regional and global goals that are closely related to the outcome of 
the war:

  <bullet> Maintaining stability in the Persian Gulf and broader Middle 
        East;
  <bullet> Stabilizing Afghanistan;
  <bullet> Contesting violent Islamic extremism;
  <bullet> Restoring American credibility and moral leadership; and
  <bullet> Restoring America's military capacity to meet global 
        contingencies.

    Any new Iraq strategy must start by placing American interests in 
Iraq within this broader regional and global context. Failure to do so 
would only continue the strategic myopia that has plagued this 
administration's policies on Iraq and risk the continued erosion of 
America's strategic position in the Middle East and around the world.
    Third, how we eventually transition out of Iraq matters. The next 
U.S. President will have three options on Iraq: Unconditional 
engagement, unconditional disengagement, or conditional engagement.
    Unconditional engagement would be a continuation of the Bush 
administration's policy of giving the Iraqi Government an open-ended 
commitment of support for as long as it takes, whether they make 
progress toward stated goals or not. This ``all-in'' approach is all 
carrots and no sticks, and provides little incentive for Iraqis to make 
the hard choices that are essential to their future. It is also 
unsustainable for the U.S. military, the U.S. Treasury, and the 
American people.
    Unconditional disengagement argues for a rapid withdrawal of all 
U.S. combat forces from Iraq on a fixed timetable, without regard to 
conditions on the ground, the behavior of various parties in Iraq, or 
the consequences a rapid withdrawal might have for stability in Iraq 
and the broader region. This ``all-out'' approach is, by contrast, all 
sticks and no carrots. And it would increase the risk of a renewed 
civil war--and even a regional war--that would do even greater damage 
to America's vital interests in the region.
    The best way forward for the United States is a strategy of 
``conditional engagement,'' in which we use what leverage we have--
military, political, and economic--to encourage political accommodation 
in Iraq in the near term and establish sustainable stability over the 
medium to long term.\26\ Under this strategy, the more progress made on 
key issues like integrating Sunnis into the Iraqi Security Forces, 
holding free and fair elections, and equitably distributing Iraq's vast 
oil wealth, the more support the Iraqi Government could expect from the 
United States, and presumably the international community, to help 
build Iraqi capacity for governance and security.
---------------------------------------------------------------------------
    \26\ For more on a strategy of conditional engagements, see Colin 
Kahl, ``Stay on Success: A Policy of Conditional Engagement,'' 
unpublished CNAS Iraq Workshop paper, 18 March 2008. This paper will 
also serve as a basis for the forthcoming CNAS report on Iraq which 
will be published later this year.
---------------------------------------------------------------------------
    Under this approach, if the Iraq central government made reasonable 
political progress, U.S. forces would gradually shift to an 
``overwatch'' role as currently envisioned by in the current military 
campaign plan, on a timetable determined by the extent of political 
accommodation and conditions on the ground. More specifically, it 
envisions a gradual transition of U.S. forces from protecting the Iraqi 
population to advising, training, and assisting Iraqi Security Forces 
in doing so. Building the capacity of the Iraqi Army to act as a 
capable, nonsectarian military will be a long pole in the tent of any 
future U.S. strategy for Iraq. In addition, U.S. forces would continue 
to assist Iraqi forces in conducting counterterrorism operations and 
would provide force protection and quick reaction forces for U.S. 
civilians and military advisers in-country.
    This transition to a more sustainable military posture to support 
stability in Iraq would be conducted over a period of a few years, as 
long as the Iraqis were doing their part to make serious progress on 
political accommodation. If, however, they did not make reasonable 
progress, the United States would selectively reduce its support in 
terms of economic, political, and/or military aid in ways designed to 
put additional pressure on the Iraqis to make the necessary political 
compromises while still protecting vital American interests.
    This strategy aims to make clear to the central government and 
other players that our support is conditional, not open-ended. It 
offers the missing link in U.S. policy toward Iraq over the past 5 
years: A political strategy for achieving U.S. objectives. It also aims 
to enable the United States to protect its vital interests in Iraq and 
the region at substantially reduced and more sustainable force levels.
                               conclusion
    When I was in Iraq, the question I was most often asked by Iraqis 
was, ``Is the United States staying?'' Whether they were Sunni ``Sons 
of Iraq'' who had begun working with U.S. forces to drive al-Qaeda out 
of their town, or Shia judicial investigators who were working to bring 
the rule of law to Iraq, or teachers who wanted newly opened schools to 
stay open for a generation of Iraqi children that have already seen too 
many years of war, they all looked forward to the day when their 
country was no longer occupied by foreign forces. But they also wanted 
U.S. forces to stay awhile longer to enable Iraqis to take the risks 
necessary for political accommodation to occur.
    The only way to broaden and deepen recent security gains in Iraq is 
to use our remaining military, economic, and political leverage to push 
various Iraqi actors toward political accommodation. The Bush 
administration's success or failure in so doing over the coming months 
will determine which options remain available to the next President.
    When the next Commander in Chief takes office, he or she will 
inherit a number of tough but absolutely critical choices:

  <bullet> How to put our Iraq policy on a new course that protects our 
        vital interests there but also rebalances risk across our 
        larger regional and global goals;
  <bullet> How to reduce the corrosive and unsustainable strains on our 
        soldiers, marines and their families;
  <bullet> How to free up more forces and resources for other immediate 
        priorities like Afghanistan;
  <bullet> How to restore the readiness and rebalance the capabilities 
        of our military for the full range of possible future 
        contingencies; and
  <bullet> How to restore America's moral standing and influence in the 
        process.

    He or she will also need strong partners in Congress to make these 
tough choices and to chart a new way forward for Iraq and U.S. national 
security more broadly.

    The Chairman. Thank you very much.
    I would ask you not to answer now, but I'm going to submit, 
in writing, a question to you, if I may, Ms. Flournoy, and that 
is, the ``conditional engagement'' strategy--if, in fact, there 
is not progress, what do we selectively reduce? In other words, 
how do we selectively reduce? And what would you recommend?
    But, let me get--there are so many questions, and we're 
going to do 7-minute rounds, so I'd appreciate if you could 
make your answers as short as possible, and augment them with 
written followup, if you would like. But, answer, as you see 
fit, obviously.
    Let me be a bit--I guess it would have been thought to be 
provocative if you asked this question, you know, 3 years ago--
I, for one--I've arrived at the position I think General Odom 
has--is that--this idea of fighting terrorism in Iraq is 
fighting al-Qaeda in Iraq. And I find it not plausible, the 
argument that if we left, that al-Qaeda will gain a foothold. 
If we leave, my impression, in my, I don't know, eight or nine 
trips into Iraq, is that the Sunnis will kill them, the Kurds 
will kill them, and the Shia will kill them, because they all 
have overarching reasons to do that, that the reason why al-
Qaeda is able to sustain itself by moving north into Mosul is 
that the Sunnis will take help from anyone against what they 
believe is an oncoming Kurdish onslaught for Kirkuk to be 
occupied and Mosul to be controlled by the Kurds, exclusively.
    Would you, General McCaffrey, respond to that assertion, 
which is really, actually, better stated by General Odom. But, 
if we were to leave--we always talk about the downsides of 
leaving. We don't talk much about the downsides of staying. The 
downsides of staying are overwhelming, just in terms of our 
force structure, just in terms of the opportunity costs that 
exist in other parts of the world. But, we have fallen into the 
jargon, many of us, that if we were to leave--not 
precipitously, but announce we're leaving, ``We're going to 
leave over a certain period of time,'' that these terrible 
things would happen. The first of those terrible things that 
would happen, we would have moved al-Qaeda west. We'd move it 
from Afghanistan, 6 years ago, to having its occupation and its 
ability to operate with impunity out of a chaotic Iraq. Is that 
a reasonable assertion any longer, or is the opposite true, 
that if we leave, over time, we're likely to damage--not 
improve--damage the ability of al-Qaeda to sustain itself in 
Iraq?
    General McCaffrey, what do you think?
    General McCaffrey. I think there really has been a lot of 
intellectual confusion on, what are we doing in Iraq? And we've 
tended to move our explanation as the situation has evolved.
    It's hard to imagine that we went to Iraq originally to 
fight
al-Qaeda, or that we should stay there to do the same. Al-Qaeda 
is primarily up in Waziristan, it's in the Pak border, it's in 
downtown London, Paris, Madrid, Indonesia. It's struggling 
against corrupt, incompetent Arab regimes. It's hard to imagine 
it would be a logic that would compel us to stay there with a 
combat force.
    At the same time, I don't think it's unreasonable to say 
that a chaotic situation in Iraq, with an all-out civil war, 
would be a huge threat to the Iraqi people, to their regional 
neighbors, and to U.S. national interests, and it would be a 
threat to oil, which is still a factor in all of this.
    So, I take your premise. I think you're entirely right.
    And, by the way, interestingly enough, this--there'll be 
another military history study coming out of this--we actually 
did extremely well in an urban campaign against AQI in downtown 
Baghdad. It's damndest thing I've seen. The--part of it was 
Petraeus's tactics. Part of it was the Sunnis are sick of being 
pushed around by these people. And part of it was brilliant 
performance by, particularly, JSOC, our Special Operations 
groups. But, I think your point's a good one.
    The Chairman. Well, let me--it's--so, it seems that maybe, 
you know, the point we're looking for is, how do we leave, 
forcing events on the ground, without leaving total chaos and 
full-blown civil war behind--arguably, al-Qaeda could benefit 
in that environment. Absent that environment, it's hard for me 
to understand how al-Qaeda benefits by us leaving, or us 
drawing down.
    But, it leads me to the second point, and you've all been--
you've all--as usual, you've stuck to what we asked you talk 
about, and I appreciate it. And one of the points is the point 
raised by you, General. You talk about a culmination point 
and--a military term that we've come to understand. 
Essentially, that was the point which the strategy was looking 
to accomplish. The surge was--I'm a little out of my league 
here, using these military terms--but, essentially, it was a 
culminating point. We were looking--the stated purpose was to 
get to the point where there was a change in the space on the 
ground, how it was occupied, who was in control, in order to--
in order to give an administration an opportunity to come up 
with a political--political--set of initiatives that were 
likely to enhance the prospect of bringing these warring 
factions together so that the need for them to continue to kill 
one another diminished, and the need for our presence 
diminished.
    Now, it's interesting that each of you--none of you suggest 
that we're going to be able--or should sustain American forces 
at surge levels in Iraq, that it's either not possible or not 
desirable, or both. But, one of the things that was suggested 
by two of you is that we leave--in this transition, we leave at 
least a sufficient number of trainers there to be able to 
enhance the prospects of an Iraqi military emerging that has 
the capacity to deliver some security. I, quite frankly, 
parenthetically, don't understand how that happens out of a 
political determination, who that military should be, who 
controls that military.
    But, having said that, again, back to General Odom. General 
Odom makes the point in his statement, which I read prior to 
the hearing, that the idea of leaving behind--whether it's 500 
or 5,000 or 12,000 or 15,000--trainers, absent a significant 
American combat force to protect them, is not realistic. So, 
how do those of you who are suggesting that the training aspect 
of the Iraqi military be continued and beefed up in this 
transition period, and accommodate the necessity of drawing 
down combat brigades?
    And I'd note, parenthetically--and I have 30 seconds left, 
so I'll conclude with this--recent trip to where terror 
resides--Afghanistan and Pakistan, along the border--John and I 
and Senator Hagel, we were just there. We even had the 
opportunity to land in the middle of the mountains, and to see 
whether--it wasn't--well, it wasn't intended, but, you know, to 
see what's going on. You want to know where terror resides--
that's where it lives. You want to know where bin Laden is, you 
want to know where al-Qaeda is, the al-Qaeda we've come to know 
and love--we know where it is.
    Now, we sat with our ISAF commander, an American, saying 
that, ``Look, Helmand Province is--and the southern part of 
Afghanistan''--you've talked about it, General--``is 
increasingly controlled and/or dominated by the Taliban, which 
is growing in that area.'' He said, ``You want me to take care 
of that.'' He said, ``Give me two combat brigades. I can take 
care of that.'' But, he said, ``You know what? I have no way to 
get those combat brigades.'' Then he went on to say, as other 
commanders in the field said to us, he said, ``Look, even if we 
could get the combat brigades out of Iraq, the truth is, they 
need decompression time,'' which is your point, getting down 
from 17 to 15 to 12. It's not like getting down from there and 
sending them to Afghanistan. It's drawing them down to give 
them, actually, opportunity to have that 12 months at home, or 
whatever that number is.
    So, having said all that, how do you deal with this 
notion--and I'd like you to discuss it, and you chime in, 
General Odom, since I'm sort of making your argument, and you 
know it better than I do--how do you transition to a training 
emphasis with Iraqi forces, reducing combat brigades, and do 
that without leaving those trainers exposed?
    General, why don't you expand--or correct my----
    General Odom. Yes, sir. Your points are well made. I mean, 
I agree with--obviously, I agree with them. Let me sharpen 
them, just briefly.
    We don't have the moral choice, or the physical--we don't 
have the physical choice to prevent chaos in Iraq when we 
leave. It's going to happen, no matter how many we train, no 
matter what we do. It may not be nearly as high as we've 
anticipated. I don't think it will be. But, I'm going to assume 
it's high, because we don't have the choice to make it 
otherwise.
    We have the blame, because we went in. We made this chaos 
the case. We do have the choice not to send more U.S. troops. 
That's the moral choice you're facing, not preventing chaos in 
the future. And you get that through your head, you'll get--be 
completely confused about this.
    The other point is, until there's a political consensus, no 
matter how you train the troops, they're not going to fight 
successfully. We trained troops in Vietnam that were very 
effective units. Some days, they fought; some days, they 
didn't. It was entirely a function of loyalties in the local 
area. That is a political issue. Do you solve those--trainers 
are really beside the point.
    Finally, there is no shortage of military skills in Iraq. 
The insurgents fight very well. They don't use the American 
techniques or American NCOs and training systems. But, I'm not 
sure they need to.
    The Chairman. General.
    General Scales. Sir, first of all, I agree with you that 
from the military perspective, there is one choice. There is 
one institution in that country, as we begin to leave, that 
will prevent what Bill Odom just said is going to happen from 
happening--and that's the army. And what's so interesting is, 
the army's only 200,000. The police, I believe, has a strength 
of 500,000. And it's that small band of 200,000, some 12 
divisions, that stand between the total fracturing and collapse 
of the regime and the bloodbath that might well happen.
    So, the key, sir, is a delicate balance, if you will, 
between pulling out American power by withdrawing American 
presence, and increasing and adding to the effectiveness of the 
Iraqi forces. You almost have to view it as a balance beam or a 
teeter-totter. This is graduate-level work; it is extremely 
difficult. It's merely not about looking at the facts and 
figures of enlisted strength, officer strength, and materiel. 
And I think Bill's right, in that regard. It's about allegiance 
to the nation, and it's about an army that's willing to fight, 
not just able to fight. And you don't get this by simply 
looking at status reports and counting the number of boots on 
the ground.
    And, oh, by the--and the final thing I'll say is that it's 
not going to happen overnight, sadly----
    General Odom. I think----
    General Scales [continuing]. Just a second, Bill--sadly, 
because it's taken--we've been so slow in building 
infrastructure, we've been--we've been so reluctant to make our 
advise-train-and-assist function robust, and we've been--and 
the numbers of American troops on the ground have been so few, 
that that will prolong this process, and make it far more 
difficult than, perhaps, it could have been.
    General Odom. Can I just make a brief followup? The tipping 
points, the turning points, are when you say that the critical 
moment is, here. Don't just pick out a slice of the war. A war 
is a series--as Clausewitz said--a series of engagements. The 
first engagement was when we went in. We won that engagement. 
What happened was, the tipping point, at that point--the 
offense had the advantage when we went in; it tipped to the 
defense. Clausewitz has always argued that defense is the 
strongest form. We have been on the defense ever since. And if 
you begin to do the order of battle of what supplies the 
offense, you must not include only all those Iraqis who are 
willing to kill Americans, but all of the Arabs who are willing 
to come from other countries there. And if you want to look at 
the resources, you've got to consider all the billions of 
petrodollars we've sent there, which will supply, and are 
supplying, and will continue to supply.
    Now, when you take 150,000 U.S. force and a few trainers 
with a government of people who are not going to end up running 
this country when it's over, no matter what happens, they're 
not the winners. The people in Baghdad right now, in the Green 
Zone, are the losers. If you want to see the winners, get 
outside the Green Zone and see who doesn't have security 
guards. Those are the people that'll win.
    The Chairman. I appreciate this discussion and wish we had 
more time. And I've--your answers have taken me much over my 
time, and I appreciate them.
    Let me--staff pointed out, I should note, that the full 
statements that you've submitted will be included in the 
record, as if you presented them, as well.
    Let me yield now to--and thank you all--let me yield to 
Chairman Lugar.
    Senator Lugar. Well, thank you, Mr. Chairman.
    I want to cite, as one of you did, testimony yesterday at 
the Armed Services Committee in which General Cody gave a 
historic assessment--as reported in today's Washington Post, 
General Cody said that ``heavy deployments are inflicting 
``incredible stress'' on soldiers and families, and that they 
pose a ``significant risk'' to the Nation's All-Volunteer 
Army.'' And Cody said--he said, ``that even if five brigades 
are pulled out by July, as planned, it would take some time 
before the Army could return to 12-month tours.''
    Again quoting General Cody, ``I have never seen our lack of 
strategic depth to be where it is today,'' said Cody, who has 
been senior American official in charge of operations readiness 
for the past 6 years.
    Now, that, some of you have reiterated in various ways, but 
I want to couple that with a graph that appears in the 
Washington Post, this morning, entitled ``Spike in Attacks,'' 
that I would like to make a part of the record.
    [The graph referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Lugar. And it points out, as you do, General 
Scales, that this surge has bought us time and brought us to a 
culminating point, but the past week had rather startling 
developments. For example, the total attacks on Americans on 
March 23, a Sunday, was 42 in the whole country; on Monday, 
down to 38. But then the Maliki government commenced its 
offensive operation in Basra, and attacks on Americans went, on 
Tuesday, to 75; on Wednesday, to 128; on Thursday, to 138, and 
so forth, until the truce that the Mahdi Army called for. And 
we're back down to 53, the following Monday. The Post totals 
all this up and finds 700-and-some during a week of time, as 
opposed to about 300-and-some normally.
    Now, the point is, 60 percent of those attacks occurred in 
Baghdad. They were not in Basra. And they were largely other 
Shiites who were using road bombs and various other methods to 
kill Americans.
    Now, the point, I think, that General Odom has made, if I 
remember correctly, is that regardless of what our tactics may 
be at this point, there is likely to be civil strife in Iraq. 
In this particular case, the Mahdi forces and the Maliki 
government came to a standoff, and both are claiming that they 
did better than the other. Maybe that's the best we can hope 
for, that people clash and sort of figure out where the 
advantage lies, and then seek some accommodation.
    But, in any event, the serious point that General Cody made 
in the Armed Services Committee yesterday, is that while all 
this is going on in Iraq--and General McCaffrey's chart 
suggests is accelerating with difficulties in Afghanistan and 
Pakistan--is that there's a worldwide demand for more forces at 
a time when we have fewer to send anywhere. This is a very 
serious situation for our entire defense establishment, leaving 
aside what is happening in Iraq.
    I bring this to the fore, because I keep reading reports 
that the idea, generally, to be presented by General Petraeus, 
or maybe others--and we'll hear General Petraeus, what he has 
to say--has a sort of ``stay the course''--in other words, 
don't move people, at this particular point; let's assess for a 
few more weeks, maybe months, what is required here. But, we 
have the forces there now, and the point the--the chart that 
I've mentioned makes is that there are even more attacks on 
Americans at this particular point after the surge and because 
of internal civil conflict among Iraqis, so that we are even 
more vulnerable in the past week than we have been for several 
weeks before that.
    Now, in view of that, you have suggested that we're coming 
into some difficulties, if there are hostile Shiites who block 
our ability to get our troops out of the place. So, I want to 
explore that point. But, let's say that we were to withdraw, as 
some of you have suggested, sort of quietly--a few here, a few 
there, so almost nobody notices, and so forth. But, there are 
150,000-plus troops, plus all the equipment. I take it the 
logisticians have a handle on how you physically move people by 
the thousands out of a place. But then we get to should we do 
so simply to save the general strength of our Armed Forces, 
generally, whether it be for Afghanistan or any other 
contingencies?
    Does anybody have a thought about this?
    General Scales, I've quoted you and your statement.
    General Scales. Thank you, sir.
    Let me go back to the process of building an Iraqi Army. 
The best way to get the Iraqi Army to be effective is to get 
them to fight. I'm sorry, that's all we have left right now. 
You get them to fight by putting them into the fight, with 
advisers. And the--and, to my mind, the best you can withdraw--
pace that you can withdraw, would be somewhere between one and 
two brigades a month. That's just--that's the logistical 
problem that you have with just getting stuff out across a 400-
mile line of communications.
    Senator Lugar. Well, we got them into the fight last week, 
and they fought, and now there are even more attacks on us.
    General Scales. That's right, sir, that's one division. I 
think what we have to do is begin to back off, and put them up 
front, and let them learn to fight by fighting. And it's a 
metering process. A partnership unit will watch an Iraqi unit 
in action, allow it to operate on its own, autonomously, begin 
slowly to pull back all the support that you were alluding to 
earlier, like logistics, communications, training, and so 
forth. That's how you--that's how you temper or measure or 
balance that pullback.
    My concern is picking up, for instance, an entire brigade 
that's advising an entire division, and sending it south. I 
think that works against this delicate balance that I mentioned 
to the chairman. It is an artful craft. And, as Michele 
alluded, it's something that's going to take some time. But, to 
her point, if you just leave those American brigades there, 
then the Iraqi brigades have no incentive to fight. They can't 
learn to get better by simply watching us. And so, again, 
that's where the balance comes in, sir.
    Senator Lugar. Michele.
    Ms. Flournoy. Sir, thank you.
    One of the things that I heard again and again from U.S. 
commanders on the ground is that we've hit a plateau, that they 
felt that they could not, with military means alone, get the 
violence below certain levels, that the only way it was going 
to go down was through political accommodation. I think we need 
to use the fact that we have to have some kind of drawdown in 
order to preserve our All-Volunteer Force, in order to address 
urgent needs, like Afghanistan, in order, as a superpower, to 
have more than one ready brigade available to the United States 
for contingencies that may arrive. We have to use that leverage 
in negotiating with the Iraqis, to say, ``Look, this is going 
to happen. We cannot sustain this. Therefore, you--we need to 
see you making some specific political moves, because we cannot 
sustain this level of commitment any longer.'' We have never 
done that. And I think it would give us powerful leverage if we 
were to have those negotiations.
    Senator Lugar. Thank you.
    The Chairman. Thank you very much.
    Senator Kerry.
    Senator Kerry. Thank you, Mr. Chairman.
    Let me begin by saying something that's not always heard in 
the midst of this, which is that every one on this committee 
expresses our gratitude for the sacrifices of our troops and 
the efforts they are making. They've done whatever has been 
asked of them. And what we're here to do is figure out whether 
or not we have a strategy that's worthy of their sacrifice. 
But, we want to make certain they understand the full measure 
of our gratitude and respect for them.
    As I listen to three very experienced, distinguished and 
respected generals, the frustration that builds up in me, the 
anger that builds up, is palpable. This is an extraordinary 
situation for us to be in.
    The frank incompetence of the last years puts us in a 
predicament where we're being told, by one of our most 
successful generals who's been involved in that region, that 
the unstated reality is, by some, our troops are coming home, 
notwithstanding all of the complications that will ensue, that 
the troop levels are where they are, not because of a strategy, 
but because of the locked-in situation of the politics in Iraq, 
which have come about because we've squandered what political 
capital we had, as well as the military strategic opportunities 
of the last years.
    You could make an argument that this is essentially the 
fifth war in Iraq that we're now involved in. The first was 
against Saddam Hussein and his supposed weapons of mass 
destruction. And then we had the second, the insurgency that 
Dick Cheney told us, nearly 2 years ago, was in its last 
throes. And then there was the fight against al-Qaeda 
terrorists, when the administration said, ``It's better to 
fight over there than fight over here.'' Then there was the 
Sunni-Shia civil war that exploded after the bombing of the 
Samarra Mosque. And now, as we've seen in Basra, and as we 
hear, even in your descriptions, Generals, of what may follow 
with respect to the Kurds and the difficulties in the north, 
but also what we saw in Basra, you have the teeming pot of 
sectarianism, that has never been addressed, beginning to boil 
over again and staring us in the face of any option we have. 
Ms. Flournoy is absolutely correct, and many of us have been 
saying this for some time--it doesn't even get heard in the 
debate--which is that there are only three choices: 
Unconditional engagement, unconditional disengagement--both of 
which are unacceptable--and conditional engagement, which many 
of us have been demanding for 5 or more years.
    We're also probably on our fifth or sixth strategy of these 
wars. First there was ``shock and awe,'' which was supposed to 
begin the peaceful transition to democracy. Then came the 
``search and destroy'' missions that were designed to fight the 
growing insurgency, mainly in Al Anbar. Then there was ``as 
they stand up, we will stand down,'' which focused on training 
Iraqi Security Forces. General, I hear you talk about this 
difficulty of standing up the Iraqi Security Forces, knowing 
that ``We've got to build capacity now.'' Now, here we are, 6 
years in. I remember meeting with General Petraeus when he was 
building that capacity. That was 3\1/2\ years ago. Then we had 
the ``national strategy for victory'' and the introduction of 
the ``clear, hold, and build'' approach. And last year we had 
``the new way forward,'' which brought us the troop escalation 
designed to buy time for the Iraqi Government, which we're now 
being told is corrupt and dysfunctional to the core.
    You've described the situation where we're saying, ``We've 
got to bring our troops home.'' I assume Iraqi militants heard 
that, as well as us, and they know they're operating in that 
atmosphere, and so, they sit there and say, ``Well, as this 
peels down, we'll escalate our violence when it suits our 
purposes.''
    We've lived at the mercy of an awakening in Al Anbar that 
came about because they decided, politically, to work with us 
and be paid off and get training and weapons to prepare for 
whatever comes in the future with the Shia, and, of course, the 
Shia have been at the disposal of Muqtada al-Sadr, who declares 
a truce, which he now says may go until August, and who knows 
what happens then.
    This is intolerable. Absolutely intolerable. It is 
unacceptable.
    Many of us have been urging this notion that you've got to 
change the dynamics. I've had the Governor and the sheiks of Al 
Anbar in my office, and I've said to them, ``Is it a fact that, 
as long as we say we're there interminably, you really don't 
have to make any decisions as to what to do? You're safe under 
the President's policy, because he said we're going to be there 
as long as it takes. They can take as long as they want.'' Now, 
isn't it true that until you shift this dynamic and get our 
troops into a different status, where the Iraqis know they've 
got to work this out? That's why our troops had to engage in 
the last few days. Why doesn't it make sense to have a national 
policy of a redeployment that forces the Iraqis to confront the 
realities of how they're going to live with each other? It may 
hasten their own conflict, but the dynamic is not going to 
change without us changing this situation of unconditional 
engagement, is it, General McCaffrey?
    General McCaffrey. Well, let me say, it's sort of 
discouraging, but I basically agree with your entire assessment 
of where we are. And, of course, now the question is, What are 
we going to do about it? And I think, essentially, we've got to 
come out of Iraq, we've got to, probably, have a timetable. We 
won't be able to keep it secret. We need to ensure it doesn't 
unwind on this President's watch, because he has no political 
leverage left, so we've got to make sure the next 
administration gets it, where it's not in all-out civil war. 
And then, as we come out, I think it would be irresponsible if 
we didn't attempt to build an Iraqi Security Forces that can 
maintain order.
    Senator Kerry. I agree. And every suggestion that has been 
made in the proposals we've put forward in the last years have 
suggested exactly that, that we finish the job of training, but 
change the dynamics by which we have to engage, that we 
maintain sufficient ability to chase al-Qaeda--although I have 
argued, for years, that I haven't met anyone in Iraq who wants 
al-Qaeda around. And al-Qaeda will not be there. They're there 
because we're there. Al-Qaeda's not going to stay around if 
we're not there, wouldn't you agree?
    General McCaffrey. Yes; I think, basically, that that's the 
case. I think we went into Iraq, and remained in Iraq, because 
we feared their influence on the region, and they're counter to 
our national security strategy. But, that didn't mean that the 
international terrorism groups that struck us, and that still 
are out there representing a threat, are essentially implicit 
in Iraq. They're in Madrid, London, Waziristan. They're a lot 
of places. But----
    Senator Kerry. Well, General Odom, General Scales, and 
General McCaffrey, what is your take on the ability of the 
Sunni neighbors to play a more constructive role and, in fact, 
to change the dynamics within Iraq itself so that we can 
redeploy in a way that is sensible, and demand as General 
Zinni's talked discussed--a different security arrangement for 
the region, which we haven't seriously tried to negotiate. 
Would you comment?
    General Odom. Yes. My comment on that would be that I think 
it's unrealistic to think you're coming out of this slowly, and 
I think it's unrealistic to think you're going to avoid chaos 
and you're going to train any forces there that are going to 
work to your ends.
    You're absolutely right that you've got to change the 
dynamics. The only thing that will change the dynamics is an 
unambiguous United States beginning its withdrawal, and pretty 
hastily. And, I would advocate, move personnel before you move 
materiel. They'll string this withdrawal out for a year or two 
or three, dragging all the materiel out. That's--we've just 
made that infeasible by staying as long as we are.
    General Scales. Sir, if I----
    General Odom. I don't think--I don't think that these 
people are going to come in and help us on the way out. But, 
when they see you going out, they'll start listening to you 
about what's going to be there. And until you start that, all 
this other talk about, ``Are we going to do it in small steps 
and easily?'' just are, kind of, beside the point. General 
McCaffrey and I were speaking beforehand. I have, for some 
time, wondered if Baghdad would end up looking like Dien Bien 
Phu one of these days. If you remember that--maybe you're not 
old enough to remember--the French were trapped in Dien Bien 
Phu and lost a big part of their army deep inside Vietnam. And 
I think, you know, you need to start taking that in--that 
scenario into account. You're--they're--the President--and I 
even hear it on this committee--think there's a choice that 
doesn't exist. You're not going to get out, leaving order. The 
question is merely the price. Every year we've stayed, the 
price has gotten higher. Staying another 6 months won't lower 
the price.
    And let me just end by saying--I said something I'd like to 
reemphasize in my testimony. Victory in Iraq is a losing 
matter, and it's not really a point that's major to our 
interests. Our interests--and I remember this, being in the 
Carter White House and planning for the Persian Gulf Security 
Framework--has always been, since at least in the 1950s, 
regional stability. Our policies for the last 3 or 4 years have 
been destabilizing the region. If we want to stabilize it, the 
first thing we have to do is reverse the policy we have right 
now. Then there's some possibility of getting it back. So, I 
emphasize the--you don't have any other choices until you start 
out.
    Senator Kerry. General Scales.
    General Scales. Very briefly. It goes back again to 
balance, in terms of Sunni neighbors. We want one thing from 
them: To engage. They will engage, as long as they see us 
withdrawing and Iraq not collapsing. What we don't want them to 
do is engage to the point where they invade. So, it's a 
delicate balance.
    But I would agree with Bill, in the sense that the sooner 
the Sunni states become engaged, they will do it for their own 
interests, not for ours. And their own interest is to prevent 
Iraq from fracturing. As we begin to withdraw, you're going to 
see a spike in violence. You've seen it already. Again, it goes 
back to balance. We have to pull our troops out and then show 
that the other Sunni states need to engage very quickly, very 
emphatically, and very dramatically to prevent them from facing 
the prospects of going in with forces. And that is our 
leverage, I believe, that is to present them with a balance, 
not to present them with stark alternatives.
    Senator Kerry. Thank you very much.
    The Chairman. Excuse my cynicism. I suspect that's why 
we're leaving this to the next administration.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    And thanks, to each of our witnesses, this morning, for 
your contributions and your continued contributions over the 
last few years on, not only this issue, but service to our 
country that you've all given a lifetime to.
    The testimony of the four of you, and in the course of the 
questions and answers this morning, has brought, I think, into 
some clear focus: First, we have no good options, as you have 
all noted in different ways. We, second, have been captive to 
the reality of a great array of uncontrollables, and we will 
continue to be held hostage to those uncontrollables, 
regardless of what we have done or what we are doing. A third 
aspect of what you all noted is the absolute burden we've put 
on our military, and asked our military, essentially, to do 
everything. And as spectacularly effective as our military has 
been--and one of the comments that General McCaffrey made when 
he said ``the de facto governments, at the local level, are our 
army units.''
    Now, as we are in our sixth year in Iraq, we are not just 
at a point where I believe that the so-called ``pause,'' which 
some have been talking about--and we'll get further refinement 
on that when General Petraeus is before our committee next 
year--or, next week--but the bigger point as to the purpose, 
and what you have just had some exchange with Senator Kerry 
about, and others so far, ``Where is this going?''--you laid 
out, Ms. Flournoy, three options. One of the points that 
General McCaffrey made--in fact, maybe his opening statement--
was, How did we get in this mess? Well, the real question is, 
How do we get out of this mess? I mean, that is the only 
question.
    And as I listened to the four of you, and as General 
McCaffrey started framing, in, I think, a good and clear, 
comprehensive way, the dynamics of not only the dangers that we 
are dealing with, but the astounding amount of damage that 
we've done to our force structure, and our standing in the 
Middle East, and our self-destructive policies that have 
actually taken away diplomatic flexibility and latitude--and if 
you inventory all that, as General McCaffrey did, I think, 
quite well, what struck me about that testimony and the other 
testimony given here, that all the so-called ``good news'' is 
about--we have a competent Secretary of Defense, we have 
competent generals, we have spectacular soldiers--but all the 
good news is on the American side of the ledger. I haven't 
heard the four of you talk much about--not because it's your 
fault, or not because you're not creative, but the good news 
should be as much on the other side, or at least some good 
news. In fact, it is in the negative column.
    And I am well aware of General Odom's position on this over 
the years. And, as he says in this testimony, the surge is 
prolonging instability, not creating the conditions for unity 
in--as the President claims.
    Senator Lugar said something in his comments at the 
beginning, which a number of us have been talking about for 
many years, and that is, we've really never had a regional 
strategy. We've never had any strategy. We have ricocheted from 
event to event, catastrophe to a catastrophe, crisis to crisis. 
And until we are framing a regional strategy, and also a 
strategy within Iraq, and taking the heavy burden off the 
military to do everything, then we will continue to have these 
kinds of hearings.
    And, of course, the American people--we talk about a 
confluence, General. As we all know, elections are about self-
correction. In this election, we'll self-correct on this issue, 
as other elections do on all issues. The American people have 
made themselves pretty clear on this. And the four of you know 
this--everyone on this committee--that we can't sustain a 
foreign policy, certainly two wars, the damage we're doing to 
our country and the military, without the support of the 
American people. So, that's over. This game is over.
    And we can dance around the hearings all morning and all 
afternoon, but what we must get at is, How do we then unwind in 
a strategic way with our allies, protecting our interests? And 
it's going to force us into some tough choices, and none will 
be very good.
    And one of the obligations I think we have on this 
committee, and as elected officials, is to prepare the American 
people for that, is that there is--there is not one good choice 
here, where we're going.
    And I'd like to ask this general question. In picking up 
what--on what General McCaffrey said--at the front end of your 
statement, General, about, ``How did we get in this mess?''--
I'd like to ask you if you could, all four, briefly give me an 
answer to, ``How do we get out of this mess?'' I know it's not 
simple, one, two, three, but we've heard pieces of this. 
Certainly, Ms. Flournoy has laid out three options that she 
thinks we have. But, I would like, from the three of you, give 
me two or three, or whatever, points you want to make, briefly, 
on, ``How do we start responsibly unwinding our involvement?'' 
Because we, if nothing else, know--and it's pretty clear here--
what Senator Lugar noted in General Cody's testimony 
yesterday--it's unsustainable--if for no other reason than our 
military can't sustain the burden.
    Start with General McCaffrey. Thank you.
    General McCaffrey. Well, it seems to me that--I totally 
agree, there are a series of unpalatable choices. There are a 
couple of things we're not going to do, so there's not much 
sense in talking about them. What we're not going to do is 
substantially withdraw in the remainder of this administration. 
And I'm not too sure it's a good idea--if it goes totally 
chaotic, with no continuity in government between November and 
January, this isn't a good thing. So, I think the so-called 
``pause,'' they may be able to drawdown to 12 brigades. Who 
knows? But, essentially, the next administration comes in, 
they've got to sort it out.
    I think step one is, we tell the Iraqis we're leaving, and 
we give them a timetable. You can argue for a year, you can 
argue for 3 years. We tell them, ``We're coming out.'' We try 
and build the Iraqi Security Forces. No question. The--we try 
and--without any prevarication, engage the region in a dialog, 
in a serious conversation with the Iranians, the Syrians, the 
Turks, the Saudis, the Jordanians, and others, and to include 
the larger Muslim world. I don't think the Europeans are going 
to help us, so I'd really focus on the regional engagement. 
It's not to their advantage to have all-out civil war in Iraq 
as we pull out.
    And then, I think, finally, we do have to rebuild our 
capability to act in phase two. We've got to rebuild the Army, 
rebuild the air and naval power in the gulf. So, it's not 
``We've turned out the light and gone home,'' but we've refused 
to continue to take part as a--in a civil war inside Iraq. And 
I think that's essentially where we're going to end up with the 
next President of the United States.
    Senator Hagel. General Odom.
    General Odom. Let me say that--I just have to repeat what 
I've been saying all along. You get out of Iraq in boats and 
airplanes, and you drive down to the harbor to get into the 
boats. And you don't have a much better choice than that.
    And let me say, ``What do you do next?'' When you're 
working in a strategy to do something like this, you can't lay 
out a bunch of steps and follow them, one, two, three. You can 
have a general concept of where you're going, but, as everybody 
knows, in wars, once the first shot's fired in a new movement, 
you're going to have to adapt. But, you need to keep your eye 
on where you're headed. The target is regional stability. And 
we will have regional stability when we have better relations 
with Iran.
    Let me point out the advantages of relations with Iran. 
They don't want instability there, and they don't want 
instability in Afghanistan, and they don't want the Taliban and 
al-Qaeda. We are denying ourselves a major ally in Afghanistan.
    The Russians are able to play a spoiling role in this 
region because of an unnatural alliance between Russia and 
Iran. If we had better relations, and you took Russia out of 
the equation here, you could then start bringing pipelines out 
of central Asia, down through Iran, and unlock this lock Putin 
has had on energy--oil--to Western Europe.
    You have a country that has very strong interests in Iran, 
in taking--in stability in Iraq. They don't want that there. We 
don't have to worry about stabilizing the Kurdistan area. The 
Turks, the Iranians, and the residual Kurdish--Iraqi Government 
will do it. We can say all we want to--the problem with 
training up the present army and the present government, it's 
probably not going to be the army and the present government 
that rules. So, you're going to have to let that take its 
natural course. We've lost all chance.
    So, I won't say any more than: Get out, create new options, 
certainly do the diplomacy General McCaffrey is suggesting, 
with the regional powers. But, you're going to make real 
progress when you improve your relations with Iran. It'll have 
more--as much change for that regional balance as the United 
States-Chinese recognition in the cold war.
    Senator Hagel. Thank you.
    General Scales.
    General Scales. Very briefly, sir.
    First of all, let's be very clear. Regardless of the 
strategy or who's in office, we're not going to get out of 
Iraq, just driven by the conditions of the military. The 
question is, How do we do it without allowing chaos to reign in 
the region and without breaking the Army and the Marine Corps? 
That's really what your question is about. And the answer is to 
do it responsibly. And I agree with General McCaffrey in this 
regard, is--there's several factors involved.
    First of all, we need to have a regional engagement, and we 
need to buttress our alliances there. It's not just about 
talking to them, it's about getting regional states to engage.
    Second, as we begin to pull out, as General McCaffrey said, 
we need to do the best we can to leave behind the best fighting 
force that we can that has allegiance to the Iraqi flag. We 
have an obligation to do that.
    And, third, we have to find regional enclaves that will 
allow us to have an unobtrusive presence in the Middle East, 
simply because the Middle East is absolutely vital to our 
national interests.
    And I can't emphasize this enough--we must spend the 
resources to rebuild the Army and the Marine Corps as quickly 
as we can, to put them back on the shelf so that they can be a 
responsive force to the strategic threats of the future, which 
we know are going to emerge. And I would suggest to you, it's 
not about refurbishing what we already have. We have to rebuild 
both of these services in light of our very painful experience 
over the last 6 years.
    Senator Hagel. Thank you.
    The Chairman. Thank you very much.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    I thank you all for appearing today. And let me just say 
how much I appreciate and benefit from the comments of the two 
Senators on the other side of the aisle who have already spoken 
today. Very much appreciated their remarks.
    I am very concerned that we are bogged down in Iraq, and 
that it's undermining our ability to respond to the global 
threat posed by al-Qaeda. Al-Qaeda and its affiliates operate 
in over 50 nations, and yet we are dedicating an overwhelming 
and disproportionate amount of our diplomatic, intelligence, 
and military resources to Iraq alone, and, I've said many 
times, this just makes no sense.
    Let me ask General Odom some specific questions. Some have 
suggested that we transition to a so-called ``strategic 
overwatch'' role, whereby we continue to embed ``trainers'' in 
Iraqi military units and provide Iraqi forces with the kind of 
logistical support that we saw last week in Basra, including, 
as I understand it, close-air support. This would require 
additional combat forces to protect our ``trainers,'' as well 
as personnel to support our forces. And I'm told we could end 
up keeping as many as 50,000 U.S. military personnel in Iraq, 
long term.
    General Odom, would this approach be likely to promote 
stability in the region? And would it be more or less dangerous 
for our troops?
    General Odom. It would be a lot more dangerous for our 
troops. If you want to get a sense of that danger, talk to some 
NCOs and officers who have actually trained them out there. 
They fear for their life when they're living and working close 
with the Iraqi forces. We wouldn't be training the people that 
are going to win the civil war. We're training the people who 
are going to lose it. People fight when they have somebody to 
be loyal to. Nobody is loyal to the flag in Iraq right now; 
they're loyal to clans, and they're loyal to sectarian groups. 
And that's the reality, and there isn't anything that's going 
to get anybody off that--off the responsibility for having 
created this, to allow us to change it. So, I can't really add 
much more than that.
    Senator Feingold. So, I assume you----
    General Odom. It's an open-shut case.
    Senator Feingold. So, I, obviously, assume that you don't 
think this would promote stability in the region, either.
    General Odom. It promotes instability. It prolongs 
instability.
    Senator Feingold. Do you believe that the Iraqi Security 
Forces are operating as a neutral governmental force in Iraq, 
or is it party to the sectarian conflict there? And what steps 
have been taken by Iraqi Government officials to reduce or 
eliminate sectarianism? And have they been successful? I 
understand General Jones' Commission recommended that we 
disband the national police, because it is infiltrated by 
Iranian-backed militia that engaged in sectarian fighting, but 
Maliki refused to do this. Should we be continuing to fight 
alongside such groups, General Odom?
    General Odom. I don't think so. I don't know any 
reasonably--the Iraqi military is neutral, in favor of a 
government, some sort of government that doesn't exist there. 
And just look at what the--why are the Sunni Shiites not--I 
mean, the Sunni sheikhs not willing to sign up and go into the 
army there? They know they won't live if they go in. So, I 
mean, this is obviously not an independent force--or 
nonsectarian force.
    Senator Feingold. So, if we continue to ask our 
servicemembers to----
    General Odom. Pardon?
    Senator Feingold. If we continue to ask our servicemembers 
to prop up the Iraq Security Forces, is there a significant 
danger that we'll be dragged further into the Iraqi civil war?
    General Odom. That's been the story since we went in, and I 
don't see why it would change now. It hasn't changed for the 
last 5 years. Sure, every month more we stay, the worse it'll 
get, the higher the price. You cannot recover sunk costs.
    Senator Feingold. General, last week Maliki's forces 
attacked Sadr's militias, and U.S. forces were drawn in to 
support Maliki. Can you discuss the role that U.S. forces are 
playing when it comes to the intrasectarian fighting? And, 
given the national security threats emanating from around the 
world, is this an appropriate role for our troops?
    General Odom. I don't know any more than I've read in the 
newspapers about what the U.S. troops did there with the Iraqi 
forces. Some of the things that General Scales has been 
describing may give you the details of that. I think the--it 
struck me that we're there because Maliki foxed us into doing 
it. He gave--I don't think General Petraeus wanted his forces 
down there. The Prime Minister gave him the dilemma of one 
alternative.
    Senator Feingold. Thank you, General.
    And thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman.
    Let me get back to the question that Senator Hagel raised, 
which is, ``How do we get out of this mess''--and, General 
Scales--``without chaos reigning?'' I think it would be fair to 
say that most people wouldn't agree that getting on boats and 
planes and moving us right out would result in anything other 
than chaos reigning, but I'm not going to get into that 
discussion. I--and, particularly as you look at others in the 
area, who need to play a stronger role, the other Sunni 
nations, even they have that concern. And the question is, How 
can they play a constructive role?
    Let me get back to the question. Just one other 
observation, because hindsight is always 20-20-20. It really 
goes, by the way, to the point of the surge, by making this 
observation. There are those in this Congress who--first of 
all, Petraeus has brought us to a place--a different place than 
we were a year and a half ago, in terms of stability, in terms 
of some of the possibilities. Again, the question is, How do we 
take advantage of that? You know, a year and a half ago, 2 
years ago, those of--some would have wanted us to get out, and 
Anbar was controlled by al-Qaeda, at that point in time. I had 
doubts about what General Petraeus could do, in terms of the 
sectarian violence, which has flared up again, but even that 
has significantly declined, so he has brought us to a place. 
The question is how we take advantage of that.
    First, Ms. Flournoy, I want to push you with a little more 
specificity. The chairman said ``put in writing,'' but you've 
really--really laid out one strategy, and it's conditional 
engagement. That's the strategy, the realistic option. What are 
one or two of the things that we could do to put pressure on 
the Iraqis to move forward on the political side? Petraeus has 
given us some space. The Iraqis are--and some of them are 
moving forward. The problem is, Maliki doesn't have the 
credibility, doesn't have--has not shown the ability to do the 
things that have to be done to provide for a real resolution of 
any of the sectarian concerns. What are one or two of the 
things that we could do to show--to say, ``If you don't do 
this, here's a price that you pay, and we'll make sure that 
price is paid to move you quicker, to deal with some of the 
political problems''?
    Ms. Flournoy. Thank you, Senator.
    Just one example. I think we are at a point of great 
leverage, but--you know, but perishable, as we negotiate this 
bilateral agreement with the Iraqis. One of the things that 
they are seeking is a long-term commitment of security 
assistance to the--to build the--and support--the Iraqi 
Security Forces. I think we should make a--use that request, on 
their behalf, as a--as leverage to say, ``Look, the only way 
that we're going to provide you with that assistance is if you 
integrate--if you make that institution fully representative of 
your population, and that means integrating Sunnis, in a real 
way, into the Armed Forces of Iraq. If you don't do it, you're 
building a sectarian institution; we cannot provide the 
security assistance you need.'' That's an example of a very 
concrete place that we could use our leverage to push a form of 
political accommodation that will be a key factor as the Sunnis 
decide whether to keep out of the insurgency or whether to 
restart it before the end of the year.
    Senator Coleman. Got another one?
    General Scales.
    General Scales. Let me offer one.
    One of the problems that we've had in doing what Michele 
just suggested is embedded in the senior ranks, in the 
ministries, and in the senior ranks of the military. Everybody 
in the U.S. command will tell you who the good guys are and who 
the bad guys are, who is loyal to clan, tribe, or sect, and who 
is loyal to the nation. One of the things that we need to 
insist on, is for us to play a greater role in getting rid of 
incompetents, of those who are not loyal to the nation--I don't 
mean loyal to the regime, but loyal to the nation--and those 
who simply don't have the military skills necessary to do what 
I just suggested in my opening remarks. We know who they are. 
We just haven't had the leverage that we need to get to them.
    Senator Coleman. But, how do you--I'm sorry.
    Ms. Flournoy.
    Ms. Flournoy. Another example, on the economic side. Again, 
Iraqis are asking for things like favorable trade relations, 
all kinds of future economic investment. Again, ``We're not 
interested in even beginning that discussion until you pass an 
oil law that guarantees the equitable distribution of oil 
wealth to all of the parties in Iraq.'' I mean, it's things--
another--a political one, ``We want to see free, fair, open-
list elections--provincial in the fall, national next year--and 
if--you know, our political support is contingent on those 
things happening.'' Again, there are obvious connections that 
we've refused to make in the past, worrying that we're going to 
push them too hard, too fast. I think we're at the point where 
we have to push them as hard as we can, because time's run out.
    Senator Coleman. I would agree with that assessment.
    General McCaffrey--well, both generals--General Petraeus is 
going to come up and at least, by all accounts, indicate--say 
that, ``Let's kind of catch our breath a second. We've moved--
we're going to be moving--what, five divisions will be moving 
out.'' What are your--as we sit up here--this is graduate-level 
stuff. You know, unfortunately, in this body, folks are often 
motivated by the next election rather than anything else. And 
the American public is speaking. There's no question about 
that. So, what is it--how do we--what do we say to push him to 
more aggressively move forward? It seems to me that everyone 
agrees that we're drawing down. There's just no question about 
that. We cannot sustain what we have. And that whether we 
drawdown--again, I would disagree with General Odom--but 
drawdown in a way that avoids chaos over--there's got to be 
some period of time--what is it that we're--what do we say to 
General Petraeus, when he comes and says, ``We need to kind of 
catch our breath''? Catch our breath for what? What would be 
the--what's the response of the--to the guy sitting up here 
who's not a general? And this is graduate-level stuff, and he's 
done some things that some of us questioned whether he could 
do. What's the statement we make to him?
    General McCaffrey. Well--and, by the way, I wouldn't give 
undue credibility to generals, either. You know, I'd be very 
cautious about----
    Senator Coleman. We've got some disagreement right here 
among generals as to----
    General McCaffrey. Yeah.
    Senator Coleman [continuing]. Approach. Absolutely.
    General McCaffrey. No, in fact, let me make that point. I 
think General Odom is a very smart man, who says this thing's 
hopeless. I don't agree at all. I do not believe it's 
impossible to build an Iraqi Army that will see themselves as a 
nationalist force and have integrated Shia, Sunni, Kurds. I 
don't believe it. I've been to their battalions. The two Iraqi 
divisions out in Anbar province are now 60-percent Sunni. 
They've put 14,000 Sunni boys into the police force. So, I 
think his premise, ``Throw up your hands, get down to the 
boats, set your equipment on fire,'' is just not valid. Nor 
would our vital allies--the Saudis and the Gulf Coast States--
want to see us with a Persian Empire on their northern border 
and the country in flames. So, I do think we have a 
responsibility, under international law, to try and build an 
Iraqi Security Forces before we go out. And I think that's 
feasible.
    Now, I--and I also think--I wouldn't push General Petraeus. 
This guy's as good as we can produce. He is just absolutely 
world-class. We need to have him hold it together until the 
next administration comes in, and then we need a national 
consensus, What do we do next? Step one of that consensus is, 
``Get out of Iraq.''
    The question is, Do we do it in 1 year or 3 years? A lot of 
that'll be dependent upon how the Iraqis respond. Senator 
Biden's made a terrific argument, in the past, about, you know, 
a looser federal structure in Iraq. I think we no longer have a 
vote in the political future of Iraq. I don't think we can 
meter out embedded trainers and possibility of trade sanctions. 
These people are going to decide it in their own way.
    I don't think it's necessarily going to be a catastrophe, 
but it sure doesn't look good right now.
    Senator Coleman. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Nelson.
    Senator Bill Nelson. Well, General, if the idea is to hold 
it together from now until the new President, then it's a 
question of 1 year or 3 years, which is what you've just said, 
and that would depend on the circumstances at the time. So, the 
bottom line of what you're saying is that we ought to get out 
of Iraq. You say you don't think it's as bad as General Odom 
has said. So, what is your degree of optimism or pessimism?
    General McCaffrey. It's a helluva mess. I mean, you know, 
there's just no ways about it. The $600 billion war, 34,000 
killed and wounded, we've alienated most of the global 
population, the American people don't support the war, and 
there we are. And the Iraqi Government's dysfunctional. The 
Iraqi Security Forces are inadequate, ill-equipped, and we've 
got very little time.
    By the way, I'm not recommending we come out of Iraq in a 
year or three. That's what's going to happen. This thing's 
over. So, the question is, How do we stage it as we come out? 
I, again, would suggest--by the way, I think the actual 
outcome--we're going to see some Iraqi two-star general in 
charge of Iraq, 3 years from today, and one of these hotshot 
division commanders is going to step in here and start smashing 
heads. Iraqi mothers are sick of the violence in Baghdad. And I 
think what you're going to see is, they want order, not 
democracy; they want food and jobs. But, we've still got, of 
course, this underlying deep antipathy of the Shia-Sunni-
Kurdish kind of question. So, again, I think you've got to 
build a security force, you've got to tell them we're leaving, 
and you've got to, at some point, hit the civil war in the 
direction of somebody who's more likely to govern Iraq 
effectively than the current incoherent, dysfunctional regime 
that's in power.
    Senator Bill Nelson. Well, you're pretty graphic in your 
description, here, and thank you for sharing it. In essence, 
what you just said--and you tell me if I have correctly 
interpreted your remarks--is that the way the society is, and 
the lay of the circum-
stances, that ultimately it's going to be a military strongman 
that's going to take over in Iraq.
    General McCaffrey. Well, my guess is, somebody's got to 
govern Iraq, and I've met a--you know, a lot of Iraqi military 
officers. They're sort of used to being in charge of the 
country, and that's more likely the outcome. I'm not 
recommending it. I'd like----
    Senator Bill Nelson. No, I understand.
    General McCaffrey [continuing]. A law-based state, one at 
peace with its neighbors, one that isn't suppressing, 
brutalizing its own people.
    And one other comment, just to add on. The embedded-
trainers thing, that Baker-Hamilton report, which I thought, 
you know, had some distinguished people on it, scared me to 
death. I don't want to see 40 National Guard soldiers stuck in 
an Iraqi commando battalion in the heart of Iraq with the U.S. 
combat forces out of there, or, ``Don't worry about it, there's 
a Marine battalion afloat in the Persian Gulf, there's a half a 
brigade in Kuwait.'' We shouldn't be in there with our soldiers 
all over that country, our contractors all over that country, 
if there's no combat power. So, there's some tipping point.
    I actually told the administration--it's seven brigades--I 
just invented it. Once you convince yourself you've got to go 
below seven brigades, get out of there, leave the Green Zone 
protected with a Marine battalion and come out, because I don't 
want to see us end up with Mogadishu, where we lose 5,000 U.S. 
trainers some night when a division announces it's no longer 
part of the Iraqi Army, it's now a Shia militia unit.
    So, I'd just put that as a caution. Be careful. The only 
reality in Iraq is raw military power.
    Senator Bill Nelson. Well, this is, Mr. Chairman, some of 
the most graphic testimony that we've had, either in this 
committee or the Armed Services Committee.
    Now, you know, what you just said--you tell me if I'm 
correct--what you just said, what you expect--not what you 
want, but what you expect to happen in the future, with a 
strongman stepping forward, isn't that the history of what 
we've seen in Iraq since it was all cut up after World War I by 
the British and French?
    General McCaffrey. Well, you start getting back there and 
we'll be lost, and we'll never reemerge. We almost can't end up 
with a worse situation than Saddam, who--and his sons and the 
absolute misery he subjected the country to, and the threat he 
was to their neighbors. So, a nice, shiny two-star general, 
trying to build consensus-based politics to hold the country 
together, with a strong army and a lot of international 
interaction that's positive--the six neighbors, the Europeans, 
the United States--that might not be a bad outcome. We sure as 
heck aren't going to stay in there, at 100 to 1,000 killed and 
wounded a month, much longer.
    Senator Bill Nelson. And, although we'd not like to put the 
label on it, we're talking about another dictator.
    General McCaffrey. Well, you know, it certainly isn't going 
to be Switzerland. And it's hard to imagine what it could look 
like. I hope it's a country that has borders, has a national 
army and currency, and doesn't brutalize its own people. And 
that may well be the outcome, if we're fortunate and if the 
Iraqi leadership makes some tough decisions.
    I wouldn't write them off yet. Maliki won't be the Thomas 
Jefferson of Iraq, but there may be others who will step 
forward. They've got a lot of brave, well-educated people still 
left there.
    Senator Bill Nelson. General Odom compared what he thought 
might happen to the French at Dien Bien Phu. You just outlined 
the situation, if we left a training unit there--you happened 
to pick the National Guard--that they could be swallowed up by 
us not being able to protect them. Overall, would you agree 
with General Odom that Baghdad has the possibility of becoming 
another Dien Bien Phu?
    General McCaffrey. Well, you know, I think there's a remote 
chance--the U.S. Armed Forces are so powerful and adept that 
it's a historical anomaly. We've lost armies in World War II, 
divisions in Korea, brigades in Vietnam. I find it hard to 
imagine a U.S. Army or Marine battalion getting overrun by 
anybody in the entire country. However, I--you know, and I've 
warned the probable next commander going into Iraq, there's--I 
told them, I said--invented a probability--you've got a 5-
percent probability of fighting your way out of that country, 
trying to come down 400 miles of logistic chain, parallel to 
the Iranian frontier, with 15,000 al-Quds guys in there in 
civilian clothes, with passive resistance on the road 
networks--this could be a huge mess, the likes of what we 
haven't seen since 1951, on the Yalu. It's very unlikely, but 
military officers shouldn't be in the business of 
probabilities, but capabilities. So, again, I'm very concerned. 
Our retrograde operations, historically, are the most dangerous 
things we do, coming off the beach at Anzio, coming out of, you 
know, Inchon. We've got to really watch our step, here in the 
next year or two or three.
    Senator Bill Nelson. General----
    General McCaffrey. And we can't leave our equipment there, 
by--we're not setting fire to 10 billion dollars' worth of 
equipment, and come down the roads in fighting squadrons, with 
millions of refugees following us. We shouldn't do that.
    Senator Bill Nelson. General, thank you for your candor.
    The Chairman. Thank you very much.
    Senator Corker.
    Senator Corker. Mr. Chairman, I think it's been an 
outstanding hearing, and I appreciate the witnesses for their 
testimony.
    General McCaffrey, early on in your testimony, you talked 
about being moderately optimistic. And certainly the picture 
you just painted was very different, in some ways, than that. 
We've talked a lot about political solutions in the past--and 
we've talked about the fact that there is no military solution. 
It seems that you've sort of added a different component, and 
that the fact is, you do not think that we, ourselves, can have 
a military solution; but, in fact, you really don't see, in the 
short term, a political solution, either, in Iraq. But, what 
you envision is a military solution, on their side, not on 
ours; them having the ability to maintain order through having 
a well-trained Iraqi force, itself. But, you do not really see 
a political solution, if you will, in the short term, in Iraq. 
And I guess, as we look at conditional involvement--as has been 
discussed--I wonder whether it's fruitless, in your eyes, to 
even talk about that conditional involvement involving some of 
the political solutions that have been laid out in earlier 
testimony.
    General McCaffrey. Well, I wouldn't think a political 
solution's impossible. I actually think it's--if we get a 
provincial elections law, and they elect regional people who 
are their kind of people, if we get a hydrocarbon law and the 
Sunnis say, ``We won't get frozen out of the wealth of this 
country,'' if we create strong local police, where fearful 
mothers in Shia and Sunni communities say, ``It's our boys 
protecting us, and they won't let militias come in and murder 
us,'' then there's some granularity to that society that would 
then tolerate a loose federal structure at the top, if there's 
a strong national army. So, I don't mean to imply that this is 
going to be easy to do, but the only good outcome, is, How do 
we get to that goal? But, it won't be sitting on the Iraqis--I 
would agree with General Odom--for another 10 years, with 
150,000 troops mentoring Iraqi Army units. Their problem--I 
agree with General Scales--their problem isn't training. To 
some extent, it's not even leadership. We do need to leave them 
with equipment. They've got to find something that's worth 
fighting and dying for.
    Senator Corker. So, you, in fact, do think that we ought to 
be stipulating--on our side, on the policy side of this--
stipulating some political activity--benchmarks, if you will--
taking place as part of our involvement----
    General McCaffrey. Absolutely.
    Senator Corker [continuing]. Regardless of the fact that it 
may end up with a two-star general----
    General McCaffrey. Somehow, you've got to end up with--a 
provincial government's got to be ``My kind of people. I helped 
put them in office. They've got police, they're going to 
protect me from these other people.'' In some places, in a 
place like Baghdad, which is essentially 20 percent of the 
nation's population, it wouldn't be provincial, it would be 
neighborhoods, ``I've got to have neighborhood political 
leadership that are my people, and police who will keep me 
alive in the coming 3 years.'' So, I'd--I don't think that's 
impossible to do, it's just going to be mostly Iraqi decisions 
that get there, not U.S. decisions.
    Senator Corker. You know, the only real input a body like 
us has as it relates to this war is really the funding of the 
war. And the only real decision that we're going to have to 
make, or we will make between now and the next election, is 
going to be the supplemental that comes up.
    General McCaffrey. Well, also the----
    Senator Corker. And I----
    General McCaffrey [continuing]. Economic support, sir, for 
the nonmilitary component to working in Iraq and Afghanistan. 
There's got to be more than just a club. You've got to offer 
these people jump-starting the economy. And that's going to 
take external resources.
    Senator Corker. But----
    General McCaffrey. That's another lever.
    Senator Corker. And certainly we--many of us have talked 
about at length. I guess the question I'm asking all of you, 
except, I think, General Odom--I think I'm pretty clear as to 
where he stands, and that's an immediate situation--but, as we 
look--and I think all of us realize we're disappointed at where 
we are. I think General Petraeus has been an outstanding 
American, and certainly our troops have been that way--but, as 
we move up into this next election, really the only issue 
that's going to come before us as a body is going to be 
funding, and what I think I'm hearing you and the other two 
witnesses saying is that we need to let things be as they are, 
because this administration is not going to change course, and 
hope that the next administration has a more coherent way of 
dealing with Iraq. And I'd just like to hear the other two 
witnesses--I know you shook your head in affirmation--but, to 
state, you know, what are the other kind of policy things, and 
is that the course you recommend, if you will, keeping things 
intact until the next administration comes along.
    Yes, ma'am.
    Ms. Flournoy. I'm loathe to let this administration 
completely off the hook, because I do think that there is a 
period--the next 10 months are very important, in the sense 
that we have leverage now that we won't have when the next 
administration comes in, by virtue of the fact that the 
security situation may atrophy, by virtue of the fact that the 
bilateral agreement probably will be concluded by that time. 
So, I want to--I don't want to let this administration off the 
hook for doing as much--pushing as hard as we can in--while it 
still exists. That said, I think----
    Senator Corker. Not pushing. I hear----
    Ms. Flournoy. Yes. Right.
    Senator Corker. I mean--OK.
    Ms. Flournoy. But----
    Senator Corker. Pushing toward what?
    Ms. Flournoy. Political accommodation. Pushing the Iraqis 
toward making the hard choices to keep--to consolidate the 
security situation and keep us from sliding back to civil war.
    On the funding, though, the one thing I would underscore 
is, as long as we have American forces there, keeping the CERP 
levels fully funded and high is critical. That money is what 
gives them the flexibility to fill in the gaps where the Iraqi 
Government isn't acting, to buy, essentially, force protection 
for our troops. So, keeping that CERP money going is absolutely 
critical.
    Senator Corker. General Scales.
    General Scales. Thank you, sir.
    Well, first of all, let me just back away from the doomsday 
scenario that both the gentlemen to my left have painted for 
you.
    I've been to Iraq several times, and I've spoken to Iraqis. 
I don't--I think--I don't see the Iraqi people as a bunch of 
bloodthirsty anarchists who are just simply waiting for us to 
leave to get at each other's throats. I don't see that. I mean, 
prior to Saddam's regime, and going back into the 1950s, 1960s, 
and 1970s, Iraq was one of the more urbane and secular nations 
in the Middle East. So, I don't see a withdrawal, precipitous 
of otherwise, leading to a complete meltdown in Iraq. So, 
that's my first point.
    So, that's where I think it's important to talk about a 
responsible policy for a responsible withdrawal.
    And then, I'll also agree with Michele. I think the next 10 
months in Iraq are absolutely critical. It's that nexus, it's 
that point of intersection when the Iraqis wake up to see that 
the Americans are not going to be there, and they look around 
at each other and understand that they now have responsibility 
for what happens in the future, and they need to be the ones to 
figure it out.
    Another point I'll leave with you, to counter my good 
friend Bill Odom, is, more than anyone else, the Iraqis are 
absolutely sick of this war. The mothers of Iraq are fed up. I 
think that's true. And so, if there's a catalyst for this, it 
would be this sense of social exhaustion that seems to be 
gripping the country right now, that I think is palpable.
    And the final point I'll leave with you, which I've said 
probably too many times, is that the bonding agent, the 
catalyst, the only institution that I think that the Iraqis can 
ever learn to trust, is the military. I don't necessarily buy 
into this leading to a dictatorship. I don't know. I don't 
think anyone knows. But, I do think that a military force with 
allegiance to the state--not necessarily to a leader, but 
allegiance to the state--is the long-term best hope for, not 
only meeting the Iraqis' hopes and dreams for their future, but 
to help satisfy our own strategic interests in the region, as 
well.
    Senator Corker. Mr. Chairman, if I could just ask for a 
written response on something, and I'll stop.
    I thank you for that testimony. We will, obviously, be 
debating, on the floor, soon, funding for the rest of this 
administration's time. I would appreciate it if you might 
consider, in writing to our office, outlining some of those 
conditional things that you think would leverage this 
particular next 10 months in an appropriate way. And any of you 
who would like to respond to that, I'd love to have it. But, if 
you would consider doing that in a fairly short amount of time, 
at least the two of you, I would greatly appreciate it.
    General Scales. If it's OK, I think Michele and I would 
like to offer you sort of a--I don't know, a combined response, 
if that's all right with you.
    [The written response follows:]

    I am writing to respond to the questions you submitted during the 
hearing sponsored by your committee on April 2, 2008, entitled ``Iraq 
After the Surge: Military Prospects.'' I appreciate your close 
attention to the future of Iraq and the evolving shape and magnitude of 
the American commitment there. The active involvement of the Congress 
in these issues is absolutely vital. I look forward to doing what I can 
to continue to support your efforts.
    Regarding the question about a list of specific conditions for 
continued U.S. engagement in Iraq, I believe there is a broad range of 
areas where the United States could exercise more effective influence 
over the Iraqi Government. In my view, every commitment the Iraqis want 
from us, in principle, should be treated as a point of leverage for 
achieving our objectives, especially greater political accommodation. 
For example, security assistance, in particular Foreign Military Sales, 
could be tied to a certification that the Iraqi Security Forces is 
steadily increasing the percentage of the Army and police that are 
Sunni to a level that is comparable to the percentage of the Iraqi 
population that is Sunni.
    For a fairly comprehensive list of potential pressure points, I 
would urge you to look to ``The Declaration of Principles'' signed by 
President Bush and Prime Minister Maliki. In this document, the Iraqi 
Government requests assistance from the United States to ``enhance its 
position in regional and international organizations,'' to facilitate 
``the flow of foreign investments,'' and to help Iraq ``in recovering 
illegally exported funds and properties.'' They also ask for 
``forgiveness of [Iraq's] debts,'' ``accession to the World Trade 
Organization'' and ``most-favored-nation status with the United 
States.'' This ambitious wish list provides fertile ground for 
conditional negotiations with the Iraqi Government, and the Bush 
administration and the Congress should begin to capitalize on such 
opportunities immediately.
    Regardless of which levers the United States chooses to pull, I 
strongly endorse the idea of requiring the administration to provide a 
report of how future security agreements with the Iraqis will be used 
as leverage to push for political accommodation in Iraq and to enable 
our eventual goal of military disengagement.
    With respect to how troop reductions may proceed in the event of a 
partial drawdown, I believe the best course of action will be to 
transition U.S. forces out of the lead population security role over 
time and into an overwatch and assistance posture. This would involve 
thinning out our combat forces while refocusing our efforts on advising 
and assisting the Iraqi Security Forces as they take on greater 
responsibility. Some U.S. combat forces would still be needed for a 
time as quick reaction forces and to participate in ongoing 
counterterrorism operations.
    Finally, I am very supportive of a regional engagement mechanism as 
part of an overall stabilization strategy for Iraq. A conference or 
series of conferences hosted by the United Nations and attended by 
Iraq's neighbors in the region would create an important venue to 
facilitate foreign assistance, reduce unhelpful foreign meddling in 
Iraq, and gain the buy-in of key neighbors to address both the 
challenges within Iraq as well as broader regional security issues. I 
would encourage the committee to examine the possible approaches the 
United States might take to assist in the creation of such a conference 
or mechanism.

    Senator Corker. Thank you very much.
    The Chairman. Senator, thank you for your patience.
    Senator Menendez. Thank you, Mr. Chairman.
    Thank you all for your testimony.
    You know, General McCaffrey, if you're right and the future 
of Iraq ends up being in the hands of some two-star general, 
which, for me, really means a dictator, changing--what we will 
have accomplished is to change from one dictator that we did 
not like to another dictator that we may like, or at least 
satisfy our purposes. And isn't it sad to have lost 4,000 
American lives and spent a trillion dollars for that to be the 
outcome?
    You know, as I listened to the panel, across the board, 
while there may be some degree of difference about the ultimate 
result, there isn't any difference, it seems to me, about the 
question that there is undoubtedly a withdrawal to take place. 
Time and matters may be the difference of opinion. If that is 
the case, isn't it true that President Bush would best serve 
the next President of the United States, who either--no matter 
who she or he may be--as well as the Nation, by now telling the 
Iraqis that we will be transitioning out, and that the 
unconditional blank check that we have given them is up? 
Wouldn't the President be doing the next President of the 
United States and the Nation the right thing, the responsible 
thing, by sending that message now?
    General McCaffrey. Well, I think the facts of the matter 
are, this administration is not going to do that. They're going 
to hang in there and try and make sure it doesn't come apart on 
their watch. That's the reality. I think all the----
    Senator Menendez. I don't disagree with you, but----
    General McCaffrey. Yes.
    Senator Menendez [continuing]. Wouldn't it be the right 
thing----
    General McCaffrey. Well, I think the Iraqis----
    Senator Menendez [continuing]. The responsible thing?
    General McCaffrey [continuing]. Have all figured out we're 
leaving, and that that, to some extent was helpful. That's why 
the Sunnis started joining the police force and joining the 
army and pushing for provincial elections and pushing for the 
federal government to work in support of their objectives.
    I think most everybody inside the Beltway, most everybody 
inside the Green Zone, understands we've got a limited time 
left in Iraq. So, whether this President tells them that or not 
is almost irrelevant.
    I also don't think we are well served, though, by having 
this administration try and solve almost anything. Thank God 
we've got Secretary Bob Gates in there, terrific leadership on 
the ground. We'll probably hold it together through the 
election and then tee it up for the next team to come in and 
say, ``What are we going to do about this?'' And the solution 
will probably be a couple or 3 years in the making. So----
    Senator Menendez. Well, there's obviously time. Wouldn't 
the clock be better served by precipitating it? I think it goes 
in line with some of the suggestions that you're making about 
moving forward----
    General McCaffrey. Well, we are----
    Senator Menendez [continuing]. In terms of what conditions 
are----
    General McCaffrey [continuing]. Remember, drawing down 
right now. We already know we're going down to 15 brigades.
    Senator Menendez. The question is, What is the ultimate 
goal? And while you disagree on timeframes and conditions, you 
don't disagree on other issues--this is something that the 
administration still refuses to recognize, and some who are 
running for President still refuse to recognize, as well. So, I 
have real concerns about--the longer we let the Iraqis--maybe 
they know we're going to leave--think that we'll hang in there, 
the more they will fight, as General Petraeus, when he was here 
last year, said, ``for power and resources.'' I don't want to 
lose American lives for Iraqis to fight over power and 
resources--for Iraqi politicians to do that. That's not why I 
would send the sons and daughters of America to fight in a 
cause. And so, that's my concern.
    Let me ask you this. You know, I just saw what happened, 
and I see the reports that came out, where, in essence, Maliki 
decides to pull the trigger for more political purposes than 
security purposes. Some U.S. officials were quoted in an 
article--who said that, basically, this is Maliki firing the 
first salvo in upcoming elections. His dog in that fight is 
that he is basically allied with the Badr Corps against forces 
loyal to Sadr. It's not a pretty picture. This is how U.S. 
troops should be dragged in, by the determination of Maliki to 
do something that is politically propitious for him, but isn't, 
at the core, security issues? I mean, when are we going to 
change those dynamics? Is there any disagreement on that?
    General McCaffrey. No, you know, I think that's a reality 
on the ground in Iraq.
    Senator Menendez. Let me, then, go to the final question. 
It's about soft power, which we have forgotten about. I agree 
that there are some things that still should be done. But, you 
know, 43 percent of Iraq's population currently lives in 
absolute poverty; 19 percent of Iraqis' children suffered from 
malnutrition prior to the war, today it's 28 percent. Last 
year, 75 percent of Iraqi elementary-aged children attended 
school, according to the Iraqi Ministry of Education; now it's 
only 30 percent. Fifty percent of Iraqis lacked regular access 
to clean water prior to 2003; now it's 70 percent. Only 50 of 
the 142 U.S.-funded primary health centers are open to the 
public, and 62 percent of Iraqis surveyed in a February poll 
rated the availability of medical care as ``quite bad'' or 
``very bad.'' We are now $25 billion later appropriated to Iraq 
in foreign assistance funding. How do we think that we're going 
to do anything to change those dynamics to make a difference, 
if these are the results, the statistics, where the figures on 
children suffering from malnutrition are greater today than 
before the invasion, where the percentage, in terms of access 
to clean water, is significantly higher, for lack of access to 
clean water, than it was prior to the invasion, where there are 
less Iraqi children, by well over half--75 percent last year, 
30 percent this year? How much more money does it take before 
we do this right? What would you suggest? I'm sure you're going 
to say, and I've heard in your written testimony, a reference 
to assistance. But, that seems to me that we have thrown the 
assistance down the drain.
    Ms. Flournoy. If I could, sir, I don't think it's a matter 
of providing lots more--you know, billions of dollars of 
additional U.S. assistance. I think this is get--I mean, Iraq 
has vast oil wealth, and what's keeping that wealth from being 
appropriately distributed to meet the basic needs of the 
population are the fundamental political issues inside the 
country, and that's--again, I think it's not a matter of 
lacking money, it is a matter that the money isn't going where 
it should go. And that's, again, where we need to focus on 
rolling up our sleeves and getting in to try to help broker and 
negotiate political compromises between the factions inside 
Iraq. And we have been loathe to do that, even though we've 
been occupying their country for 5 years.
    Senator Menendez. And a final question, as my time's up, I 
know what it is to be waiting--so, the bottom line is----
    The Chairman. Senator, go ahead.
    Senator Menendez. If----
    The Chairman. I'll let everybody have more time.
    Senator Menendez. If, $25 billion later, that soft-power 
leverage didn't produce anything--and I agree with you that 
Iraq has its own resources, but this is a struggle over power 
and resources, and those who have it don't want to give it up 
to those who don't. And so, what is the leverage tool that 
you're suggesting? If we're going to not start telling them 
we're going to get out, which is a message on the security 
side, if we spent $25 billion and that didn't produce any 
leverage for them to move to political reconciliation, power-
sharing, and the sharing of the national patrimony, what is our 
leverage, at this point, to try to get them to do that? What 
would you suggest?
    Ms. Flournoy. We never used the $25 billion as leverage. 
That's my point. We never used----
    Senator Menendez. So, in other words, we need----
    Ms. Flournoy [continuing]. It as leverage.
    Senator Menendez. And so, my question, then to you, would 
be, Do we need to suggest that there will be more money used--
--
    Ms. Flournoy. No. I think----
    Senator Menendez [continuing]. To create leverage?
    Ms. Flournoy. I think that when you look at the--what's 
being negotiated in the bilateral agreement, from longer term 
security assistance to political support to issues of economic 
investment--not so much assistance, but, sort of, investment 
and trade relations and that kind of thing--all of those things 
provide us with leverage. But, the administration has been 
unwilling to link those issues to movement on political 
accommodation. And that, I think, is a huge opportunity missed.
    Senator Menendez. I agree with you on linkages, as well as 
benchmarks, which this administration resisted, then adopted, 
and then kept moving the goal posts.
    But, on that last point, about the long-term strategic 
security, I agree with the chairman, that is something that has 
to come before this Senate, because, to me, it has all the 
aspects of a treaty. And without it coming to the Senate, I 
would be strongly opposed to it, and would join others here to 
try to make sure that the Senate has a voice.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman.
    We've spent roughly $600 billion on the war in Iraq, so 
far--military operations, base security, reconstruction, 
foreign aid, Embassy costs, and veterans health care. In fiscal 
year 2008, we've spent an average of $10 billion per month in 
Iraq. The Congressional Budget Office estimates that if we 
continue to drawdown gradually, we will continue spending about 
$100 billion per year for the next 5 years, and $77 billion per 
year for another 4 years after that from fiscal year 2014 to 
2018.
    In February, CBO projected that the future war costs from 
fiscal year 2009 through fiscal year 2018 could range from $440 
billion, if troop levels remain at 30 brigades by 2010, to $1 
trillion, if troop levels fell to 75,000 by 2013.
    Under these scenarios, CBO projects that funding for Iraq, 
Afghanistan, the global war on terror, could reach from $1.1 
trillion to about $1.7 trillion from fiscal year 2001 to 2018. 
But, none of the war costs have actually been paid for. They've 
been added to the national tab. This is the first war that I 
know where we haven't asked the American people to sacrifice 
and to pay for it.
    Ms. Flournoy, you said that the Army has told the 
Government Accountability Office it will take between $12 and 
$13 billion per year to replace lost, damaged, and worn 
equipment for the duration of the war in Iraq and at least 2 
years beyond. The Marine Corps estimates it will need $15.6 
billion to reset its equipment. Bringing the National Guard's 
equipment stock up to even 75 percent of authorized level will 
take $22 billion over the next 5 years. In the current 
budgetary environment, the military services are struggling to 
balance resources between reconstituting current stocks and 
modernizing for the future.
    I raise these issues because I'm concerned that the health 
of our military and the long-term fiscal health of our Nation 
is really in great jeopardy today. This is a serious national 
security issue for the economy and the future of our country.
    When are we going to recognize that we need to balance our 
budget and plan for long-term investments in our military and 
other domestic infrastructure? When will we have sacrificed 
enough lives and families and future investment in the country 
to say that we've done the best that we can in Iraq, and we 
need to start moving in another direction and reduce additional 
costs to our country?
    Now, there's no question at all, from what I have heard 
today, that all of you say that because of circumstances we're 
going to have to withdraw from Iraq, that it's got to be done. 
Now, the issue is, How is it going to be done?
    Last year, several of us tried to get this administration 
to reduce the surge troops and then come back to us and lay out 
a plan on how it would reconstitute our involvement in Iraq. We 
almost had enough votes to get it done, but we failed because 
of a date of when it was supposed to happen. Do we just let the 
status quo continue, trust the administration, and let it go? 
Or does this Congress, does this Senate, start to take some 
action in regard to this situation?
    Now the administration will come back to Congress and ask 
for more money. Congress has never said to the administration, 
``In order to get the money, we want to know what the plan is, 
in terms of the withdrawal.'' From what I've heard from the 
witnesses here today, it would not be a bad idea if Iraq knew 
for sure that we were going to withdraw. Also, when I was in 
Egypt, I talked with its Foreign Minister. The Egyptians are 
concerned. The Saudis are concerned. The other neighbors are 
concerned. And if they know we're withdrawing from Iraq, don't 
you believe that, because they're concerned about what's going 
to happen in the region, they will come to the table and start 
exercising as much leverage as they can on the Iraqi Sunnis and 
Shiites to say, ``Let's work this out''? And though it is said 
that withdrawal could bring about a civil war, my attitude is 
that we may have a civil war anyhow, regardless of what we do. 
About Mr. Sadr, 3 years ago I said, ``This guy wants to be the 
next Ayatollah of Iraq.'' Study his family history. He was out 
of commission for about 6 months, and people said he would no 
longer be involved--I heard that from some responsible people 
in the administration. I said, ``You know what I think?'' I 
said, ``He's in Iran, upgrading his religious qualifications to 
put himself in a position where, when the Grand Ayatollah Ali 
al-Sistani is gone from Iraq, Sadr may be the guy that runs the 
country.
    So, what actions should we take to get the administration 
to lay out a clear vision for our future involvement in Iraq? 
We have an administration who basically says, ``Stay out of our 
way. Trust us. We're going to handle that.'' What should we do, 
as Members of the U.S. Senate, to get an exit strategy on 
track? Because I believe that, if we wait and let the current 
situation meander down the stream, it's going to be a lot worse 
than if we take action now to change it.
    I'll never forget when I was Governor of Ohio and the 
legislators said to me, ``You shouldn't make the cuts.'' I 
said, ``We are in deep trouble here. We have got to make the 
cuts.'' They said, ``You don't have to do it.'' I started to 
make the cuts. I said, ``If we don't start making the cuts now, 
then when we finally have to do it, it's going to be a lot 
worse.''
    I'd like your--all of your reactions.
    General Odom. Can I applaud everything you've said. And I 
didn't even know some of the fiscal detail, and I'm glad to 
learn that.
    I've been asked many times, not only by Members of the 
Senate, but also House Members, ``What do we do? What do we 
do?'' I've suggested the Constitution says you have two powers, 
the budget and impeachment. Now, you pass budgets, and the 
President turns them down or won't let you get one through. 
There's one other thing you can do with the money leverage. You 
could just refuse to appropriate a bill, or to pass a bill for 
him to veto. So, if you want to bring this to a halt, it's in 
the power of this Congress.
    General Scales. Sir, I'd--you do have the power of the 
purse. And I think Bill is right in that regard.
    But, let me offer you one caution. Last time we did this, 
in the 1970s, when I was a captain--I guess I had just made 
major--a lot of the spillover of this effort to get out of 
Vietnam, at the end of the day, wound up on the shoulders of 
the young men and women who were serving in uniform. And 
legislation, regardless of how it's handled, is a blunt 
instrument, as you know.
    I'd just offer a caution. As the military begins to move 
out, and as you see these bills coming due, a couple of points. 
No. 1 is, resetting equipment is not as important as resetting 
people. I've been to Iraq, and I have good friends whose sons 
and daughters have been killed and wounded by what's happened 
recently. And I will tell you that I hope that we go the extra 
mile to take care of them and----
    Senator Voinovich. OK. But, what I'm saying is----
    General Scales. Yes, sir.
    Senator Voinovich [continuing]. The administration should 
have some public position that basically says, ``This is the 
plan''----
    General Scales. Yes, sir.
    Senator Voinovich [continuing]. ``And we know we have to do 
it, and here is what we are going to do.'' And we should make 
it clear to the Iraqi people and say, ``Take advantage of the 
opportunity that you have while we are still there.'' Send the 
message out to the neighbors in the region, ``We're not leaving 
the entire region. We will be there, but we are on our way out 
of Iraq. We have finished our military engagement there. We 
paid the money and we lost the lives. We have 28,000 people who 
have come home, half of whom are going to be disabled the rest 
of their lives. It is now time for you to do this.'' And 
we've----
    General Scales. Sir, I----
    Senator Voinovich [continuing]. Given them enough time.
    General Scales. Yes, sir. I have no argument with that. My 
only point back to you is, just be careful, so that we don't 
wind up hurting those who we're trying to help.
    Ms. Flournoy. Sir, if I could just add, you know, I 
actually don't believe that all Iraqis think we're on our way 
out. I think that they--many of them are watching our elections 
very closely, and think it could, you know, be a ``stay the 
course'' approach or a, you know, phased-transition approach.
    So, I think, for this body to send a bipartisan signal that 
we are beginning a transition, and our posture will change, and 
our strategy will change, and we want to do it in a way that 
maximizes--that protects our interests and tries to avoid civil 
and regional war, but we are beginning a transition--I think, a 
bipartisan signal from this body, how--whatever it looks like, 
would be very powerful. Iraqis watch our politics very closely, 
and I don't think the message is fully received that that 
transition is about to start occurring.
    Senator Voinovich. OK. Does anybody think that we should 
just stay the course we are on right now and then let the next 
administration come in and pick up the baton and deal with it?
    Barry.
    General McCaffrey. Well, it's an odd situation. By the way, 
the last time I was over here--Senator Biden asked me to 
testify--I was pretty strong in my rebuke of Congress. Under 
Article I of the Constitution, you have the responsibility to 
raise and support an army and navy. You have the treaty power, 
the impeachment power, the power of the purse, on and on. And I 
think Congress has been entirely missing at the debate. The 
Democrats--and I'm nonpartisan--the Democrats have been missing 
in action, fearful of being contaminated, as lacking patriotism 
and courage. And the Republican Party has stayed with Secretary 
Rumsfeld when he was leading us over the edge of a cliff. So, I 
would want you to be introspective in your own role in this.
    We've had lonely voices. Senator Biden has certainly been 
one of them, from the start. Senator Hagel and others. But, I 
think it's time for Congress to act. And I cannot imagine that 
the war will--first of all, the American people don't support 
continuation of the current strategy. It's over. And, 
therefore, Congress will soon reflect that reality. And I think 
Congress does have to step up. But, in the short term, there 
won't be--nobody is going to step forward and tell a President, 
``Draw down to five brigades by the time you leave office.'' 
It's just not going to happen. So, what we do want is the next 
administration--and I think Michele's comment--bipartisan is 
the key. This shouldn't be a partisan matter. This is, you 
know, the American Armed Forces at risk. This is our national 
security policy. And you've got to step up, in the next 
administration, and make sure you shape their thinking. This is 
the dominant branch of government. You know, I say that--I 
apologize for saying it that way, but I teach American 
government, the last 10 years, and that's what you are. So, 
good luck in your deliberations.
    The Chairman. Lots of luck----
    Senator Voinovich. Thank you.
    The Chairman. Thank you.
    Senator Cardin.
    Senator Cardin. Certainly.
    First, let me ask unanimous consent that my entire 
statement be made part of the record.
    [The prepared statement of Senator Cardin follows:]

   Prepared Statement of Hon. Benjamin L. Cardin, U.S. Senator From 
                                Maryland

    We are here today--after more than 5 years, 4,000 lives lost, 
30,000 wounded, and $600 billion spent--to once again reevaluate our 
country's strategy in Iraq. I welcome this discussion. Because I 
continue to believe it is imperative that we change course now; not 
next month, not next year.
    I first want to pay tribute to our troops and diplomats serving in 
Iraq with such courage and competence. I am humbled again and again by 
their skill and their sacrifice. Bearing witness to their service fuels 
my own conviction that we, our Nation's civilian leaders, owe them a 
strategy in Iraq and a global foreign policy that is worthy of their 
commitment.
    I've always believed invading Iraq was a mistake. I voted against 
granting our President that authority in 2003. I have opposed, from the 
beginning, the way this administration carried out that effort once 
begun. Its strategy--I think everyone now agrees--was naive and fatally 
flawed. But as much as we might wish it, we cannot change the past. 
This war was recklessly begun; we've got to find the smartest, most 
prudent way to end it.
    In a speech on January 10, 2007, announcing our ``New Way 
Forward,'' the President explained his new ``surge'' strategy to end 
the conflict in Iraq. By adding 30,000 additional troops, ``over time, 
we can expect . . . growing trust and cooperation from Baghdad's 
residents. When this happens, daily life will improve, Iraqis will gain 
confidence in their leaders, and the government will have the breathing 
space it needs to make progress in other critical areas.'' By pouring 
all our military resources into Iraq we were supposed to improve 
security and provide the government there the room to reach political 
reconciliation.
    But even the President recognized that, and I quote, ``A successful 
strategy for Iraq goes beyond military operations. . . . So America 
will hold the Iraqi Government to the benchmarks it has announced.''
    In March, General Petraeus was quoted in a Washington Post 
interview saying, ``no one'' in the U.S. and Iraqi Governments ``feels 
that there has been sufficient progress by any means in the area of 
national reconciliation,'' or in the provision of basic public 
services. Only 3 of the 18 benchmarks have been accomplished.
    Thanks to the excellent work of our troops, and several unrelated 
factors--the Sadr cease-fire, the Sunni ``Awakening,'' and, tragically, 
ethnic cleansing--violence in Iraq decreased from its highest and most 
appalling levels. But the Iraqi Government did not take advantage of 
relative calm to reach accommodation among its various factions. Local 
political and militia groups continue to struggle to amass power. 
Recent violence in Basra and Baghdad demonstrate that our troops 
continue to referee a multitude of civil wars and political power 
struggles--Shia on Shia in Basra and Baghdad, Shia on Sunni, Kurdish on 
Sunni, and the list goes on.
    Desperate for security, we are undermining our goal of stability. 
We are arming and paying Sunni militia to combat al-Qaeda in Iraq, we 
arm Shia militia allied with Iran to combat other Shia militia that 
oppose the central government. I have yet to hear a clear strategy for 
how we will unite these disparate armed forces under the central 
government.
    Four million Iraqis have been displaced by this conflict. Half are 
in neighboring countries. All are running out of money creating a 
humanitarian and a security crisis throughout the region. If all were 
to try and return home, it would be chaos. We aren't doing what we need 
to do to resolve the crisis.
    Nowhere in arming opposing militias, our involvement in intra-Shia 
violence, or our neglect of the growing refugee crisis, do I see 
evidence of a long-term strategy toward stability that will outlast our 
unsustainable military presence.
    So, this summer, we will be in a familiar place. Just as when the 
President announced the ``surge,'' we will have over 130,000 troops in 
Iraq, unacceptable sectarian violence, 4 million Iraqis displaced, and 
no political reconciliation to show for our efforts. We need a new 
strategy in Iraq.
    We have several experts before this committee today. I want to hear 
what you think our objectives should be given the political reality on 
the ground in Iraq and the reality of our military capacity. What are 
your recommendations for what tactics we should employ to reach those 
goals?
    If possible, I would like to hear from you how we should balance 
the needs in Iraq against the reality of needs elsewhere in the world 
including Afghanistan and Pakistan, and the reality of new and growing 
needs here at home.
    For years, some of us have been calling for a new approach; one 
that includes a changed military mission. Instead of refereeing warring 
factions, our troops should focus on training, counterterrorism, and 
force protection. Because that mission calls for fewer troops, we 
should continue phased redeployment past this July. Any effort must 
include stepped-up diplomacy. We need our Nation's most senior 
officials engaged in bringing other nations and international entities 
such as the United Nations and the Organization for Security and 
Cooperation in Europe (OSCE) to the table.
    The world has an interest in a safe and secure Iraq. But in working 
toward that end, we cannot ignore other competing needs around the 
world and at home. We need a more thoughtful approach that will protect 
our troops and our All-Volunteer Force, step up our diplomatic efforts, 
and internationalize the effort to bring stability to that country and 
to the Middle East.

    Senator Cardin. Let me continue this discussion, because I 
do think it is extremely helpful.
    It's interesting that the President's justification for 
increasing our troop levels in Iraq over the past year was to 
give some breathing space to the Iraqi political situation. He 
understood, as many of us agree, that we need a political 
solution to what was happening in Iraq. Now, my colleague, 
Senator Voinovich, has gone through the sacrifices that America 
has made, and I opposed this war from the beginning, and have 
been very critical of the manner in which it's been managed. 
But, I was certainly hopeful that we would have seen more 
political progress by this date.
    We're now discussing an important question. What do we do 
in the next 10 months of this administration? What can be done? 
And I certainly believe that Congress needs to take decisive 
action. And I hope we can find a bipartisan manner to do that, 
a course of action that could garner a significant number of 
votes so that we can overcome the procedural problems that we 
have in the United States Senate. I think that will take a 
good-faith effort by the leaders of both of our parties. And I 
think there is a growing consensus that Congress needs to take 
action that addresses the realities of the situation in Iraq. 
Realistically, American troops can not stay indefinitely as is 
required under the current course in Iraq.
    Let me explain why I think the increased American troop 
levels in Iraq were a total failure. There's been virtually no 
political progress made over the last year. Now, when I take a 
look, historically, at how we've been able to make progress for 
peace in troubled parts of the world, whether it's Northern 
Ireland or South Africa or Bosnia, there were courageous 
political leaders, that were prepared to make concessions in 
order to bring about peace. So, I guess my first question to 
our panel is, Can you identify any political party in Iraq, or 
any potential leader there, that's really prepared to step 
forward and make the type of concessions that are necessary to 
instill confidence in the Iraqi people that there could be a 
central authority that would respect the rights of all the 
people of Iraq? Do we have that type of political party or 
leader that we can work with?
    Ms. Flournoy. If I could, sir. I met a number of Iraqis, at 
the local level, who are exactly those kinds of people, but 
they are not empowered in the current political process. They 
are not the people who gained power in the last set of 
elections. And this is one of the reasons why I think so many 
people put emphasis on provincial elections, that there are, 
sort of, grassroots leaders who are doing real things for their 
community, and who understand the importance of serving a 
constituency, but they aren't the people in power in Iraq right 
now.
    Senator Cardin. Do we have any leaders that are currently 
in power that we could work on?
    General Odom. Can I----
    Senator Cardin. Certainly. General.
    General Odom. Pardon?
    Senator Cardin. General.
    General Odom. You know, there's no historical precedent, 
that I know, for political consolidation in a place like Iran, 
without a war. I don't--we're just talking academically, 
theoretically. It's got nothing to do with the real world, to 
talk about some kind of--some fellow stepping forward, or this, 
that, and the other. Can you imagine some European power, in 
the United States, 1868, trying to get Jefferson Davis and 
Abraham Lincoln to negotiate a peace? No way. That's where you 
are. Even worse. There are many more sides.
    There--Senator Voinovich, I wanted to say, in addition to 
your comments, I don't know any case where we've provided aid 
to foreign countries that are in wars like this, where we don't 
end up funding both sides. The more money you put in, the worse 
it is. I wrote a book on this, comparing several alternative--
several cases. In every case, the worst thing you can do is 
give a country money. As Michele, I think, said, in here, or 
someone else, there's plenty of money in the oil, and the issue 
is who's going to get it. So----
    Senator Cardin. The other question, of course, is that if 
there's to be progress made in the next 10 months, then there 
needs to be workable compromises so that the oil revenues, in 
fact, can be used to help the people of Iraq. Is there any----
    General Odom. That's not going to happen.
    Senator Cardin. Is there any hope that there could be 
significant progress in the next 10 months, in that regard?
    Ms. Flournoy. The oil revenue is actually being 
distributed, de facto, to the provinces, based on, sort of, 
prior census information in Iraq. But, the problem--without a 
law, it's not reliable, and people feel they can't count on it. 
It's haphazard, it happens late, it may or may not happen in 
the future. So, the legal framework is key to giving the--
particularly the Sunnis--the confidence that they are going to 
get a share of the Iraqi wealth and the economy that they can 
use to build on in the future. That's why the law is so 
important.
    Senator Cardin. I just want to make sure that there are no 
further replies from any of the witnesses as to whether there 
is any national party or leader that we could rely upon. I see 
that there's no real desire to go further on that.
    I want to raise one more question--one more point, if I 
might, in the time I have remaining, and that's an issue that 
has not been raised today, and that is Iraq's refugee problem. 
I don't see how we are going to develop a stable country with 
so many milllions of Iraqis displaced in and outside Iraq. We 
now have over 4 million displaced people in Iraq; 2.2 million, 
I believe, is the most recent number, within Iraq itself; 
there's now over a million, I believe, in Jordan and Iran and 
Syria. Is there any game plan for dealing with the refugee 
issue, or is this just being pushed down the road, saying, 
``Once we resolve Iraq--or once Iraq resolves itself, then 
we'll worry about the refugees''? Is anyone trying to figure 
out a comprehensive strategy for addressing this issue?
    Ms. Flournoy. We met with the new U.N.--the Secretary 
General's representative there, who is a very inspiring figure, 
actually, and they are working on plans for dealing with the 
return of internally displaced people. They're very concerned 
that the return of some of those refugees and IDPs will be a 
spark for fighting, as people come back, find their homes 
occupied by someone of another sect, you know, battle----
    Senator Cardin. Right.
    Ms. Flournoy [continuing]. Fighting ensues, and so forth. 
So, I think the U.N. is working on that, but it is not front 
and center in the Iraqi Government's list of priorities, and 
not much is actually being done, in a practical way, to deal 
with the magnitude of the problem. They're dealing with a few 
dozen families a week right now, but the magnitude of the 
problem is overwhelming.
    Senator Cardin. Well, I think the refugee issue is a 
critical one that no one has really allocated appropriate 
thought or planning. If we get to a stage where we have a 
political opportunity to make advancements, the refugee issues 
are going to become a huge problem. And I can tell you, the 
countries in which most of the external displaced people--are 
looking to the International Community for some assistance in 
this regard, and we've been very quiet; the United States has 
not provided, I think, the necessary leadership on this issue.
    So, I'd just come back to the point. If we're expecting to 
make progress in the next 10 months, and I'm inclined to agree 
with the advice that the panel has given us, that the Congress 
needs to exert itself in the strongest possible way we can, 
that the current policies have failed, and we need a new plan 
in Iraq. We should make that plan as strong as we can, getting 
the broadest possible support, so it is a bipartisan--a true 
bipartisan statement. And if we can do that, a new bipartisan 
strategy would be the best thing we can get done. I don't know 
whether we have enough support for it, quite frankly, in the 
Senate. It's something we need to explore. We've tried. We've 
tried to compromise on the way forward, and no matter what the 
proposal we don't seem to be able to get to that 60-vote margin 
that's required in the Senate.
    But, I think we need to continue to work toward a new 
strategy. But, as we continue to work in Congress, what I find 
difficult to accept is that I don't believe this administration 
is conducting its own planning. I don't believe this 
administration has realistically determined how you can make 
the necessary political progress, understanding it has to come 
from the Iraqis. Yes, the United States needs to be direct in 
prodding the Iraqis to move in the right directions, and we 
need to use every point of leverage we can, including our 
international influence, to make that happen. But, 
realistically, what I'm hearing from our experts, is that the 
current Iraqi leadership is not capable, or willing, to do what 
is necessary.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Webb. As my mother would say, ``God love you.'' 
Thank you for waiting.
    Senator Webb. Thank you, Mr. Chairman.
    It would seem that everything that can be said has been 
said. I had to leave the hearing for a while, but I was 
watching most of it from my office. I had another meeting I had 
to go through. But, I did want to come back and raise a few 
points.
    The first thing I would like to say is that--and I've read 
all the testimony and listened to most of it--on the testimony 
that relates to your point, Ms. Flournoy, I'd like to offer a 
little bit of a different suggestion here. When you talk about 
``the options that we have are unconditional engagement, 
unconditional disengagement, or conditional engagement,'' my 
view would be that what we really should be pursuing is 
conditional disengagement. We should be making it very clear 
that we are on our way out, subject to certain conditions, in 
many ways tantamount to what the Nixon doctrine was saying in 
the early 1970s, that if there were external attack or if there 
were issues of international terrorism that clearly are broader 
than Iraq, we would reserve the right to take military action, 
but that we're on the way out. I don't think we should be 
putting ourselves in the situation of withdrawing our forces 
only based on circumstances that relate to performance of the 
Iraqis, which is a situation that we can't control.
    And, in that regard, you also mentioned in your statement, 
that you believe that the only way to take advantage of 
security gains is to use our remaining leverage to push various 
Iraqi actors toward political accommodation. I would just like 
to say that I strongly believe that the only way that we're 
going to really resolve this is through regional cooperation. 
And when you have situations that have had this much 
disagreement and violence, it's almost impossible to push those 
factions into some sort of an accommodation purely from the 
inside.
    And an analogy is, I worked a good bit of time on the 
normalization of relations with Vietnam. I still work on that 
issue. You have two entities there that conducted a great deal 
of violence toward each other, for reasons that I supported, 
from our national perspective. But then, after the war was 
over, the Communist government was absolutely brutal to the 
people who were on the other side, and that's probably the most 
irresolvable issue. But, we're still unable to say that those 
two entities should be making peace between themselves, without 
some sort of an outside bridge. And that's why I've continued 
to say, over and over again for the last 4 years, that the way 
to resolve this is with a strong statement of purpose that we 
are going to remove our forces off of the local defense, the 
street-by-street-level military action, and to assist in the 
creation of an international umbrella under which we can solve 
this problem.
    I strongly agree with General Odom that the question is not 
training the Iraqis. I think the Iraqis have shown, in many 
cases, they know how to fight. I think the insurgency 
demonstrates that. The Iraqi military, in the past, 
demonstrated that. They fight their own way. The way that they 
handled our initial invasion was a classic example of 
asymmetric warfare. They weren't going to take the hit, but 
they were going to blend back away from where we were and then 
come back in, piecemeal. The question is whether they want to 
fight, which is something that was also brought up.
    And then, finally, General McCaffrey, I listened to what 
you were saying a few minutes ago about how most of the blame 
belongs here in the Congress for congressional inaction. I 
would like to offer a different perspective on that. I 
remember, last year, when you testified, and one of the things 
that you mentioned in the testimony was the Article I power of 
the Congress with respect to the army and the navy. I can 
remember actually having a conversation with you, because there 
were two separate clauses. The army clause is different than 
the navy clause. The Congress has the power to raise and 
maintain an army. It is required to maintain a navy. That does 
give the Congress the authority to set things into motion. I 
would agree with you that the vote that was taken to set this 
war into motion was a very regrettable experience for this 
country. And I was doing my best, as someone who was not in the 
Congress at the time, to provide a warning voice on that 
matter.
    From my perspective, the greatest failure since that time, 
and perhaps, to a certain extent, before that time has come 
from the highest-ranking leadership of the military and the 
retired military. I think that there are too many senior 
military officers who, either for reasons of loyalty or reasons 
of political alignment with the Bush administration, or because 
they were doing business with companies that made it very 
difficult for them to make these judgments, didn't speak out. 
They didn't speak out, like General Odom spoke out. They didn't 
speak out like Tony Zinni spoke out, or didn't take the risks 
that people like Greg Newbold and General Shinseki took in 
their positions.
    As someone who grew up in the United States military as a 
son of a career military officer, who served in the military, 
has a son who's served in Iraq, as well as a son-in-law, that 
puzzles me. Looking back on it, I think that is the most 
regrettable reason of where we are.
    We need the people--like the Greg Newbolds of the world, 
the General Odoms--to be speaking out honestly--loyalty to the 
country, but finding a solution here, so that we can move 
forward and face our true strategic concerns around the world.
    General McCaffrey. Yes; let me, if I may, though, say that 
I don't think Congress bears a preponderance of the 
responsibility at all, if I left that impression. I do think 
Congress was sadly lacking in the debate. Their only power is 
not some narrow governance of the Armed Forces, or setting 
the----
    Senator Webb. Well, General, I certainly would agree with 
you, in terms of the debate that set this into motion. And once 
it went into motion, it's very difficult to stop, from a 
congressional perspective.
    General McCaffrey. I agree.
    Senator Webb. And the Congress, in the last year and 4 
months, at least from the Democratic side--and I don't mean to 
make this a party issue--we have tried, time and again, and 
every single issue that is connected to Iraq has been elevated 
to a filibuster, including an amendment that I put forward that 
basically said, ``As long as you've been deployed, you should 
have that much time at home.'' As someone who has had a dad 
deployed, who's been deployed, who's had a son deployed, to me 
that was just common sense. But, even that took on political 
overtones. So, the Congress may have been paralyzed, but I 
don't think that Congress has been AWOL.
    General McCaffrey. No, I agree. And, by the way, make sure 
you add my name to the list of people that spoke up, in writing 
in the Wall Street Journal, on day five of the war. So, I've 
been pretty critical of Rumsfeld and his crew for getting us--
for starting the mess we've been--and I also don't disagree 
with your view that the senior military leadership has been 
more compliant than they should have been.
    Senator Webb. I think a lot of us who have long experienced 
the national security affairs saw this coming. I wrote a piece 
in the Washington Post, 6 months before the invasion, and I 
said there would be no exit strategy, because they did not 
intend to leave. There were a lot of people who could see that. 
And we have to do what we can now to repair the damage that has 
been done to our country, to our reputation around the world, 
and to our ability to address the issues that we were supposed 
to be facing in the first place.
    General McCaffrey. Yes.
    Ms. Flournoy. Senator, might I respond to your first couple 
of comments?
    It's interesting that you should mention ``conditional 
disengagement.'' We're actually in the midst of a heated 
internal debate at CNAS as to whether we've got the name of our 
strategy correct or not, and the other option is ``conditional 
disengagement.'' So, you may see that change, over time.
    And I couldn't agree with you more----
    Senator Webb. I think that puts the place of the United 
States in the right----
    Ms. Flournoy. Right.
    Senator Webb [continuing]. Spot if you were to use----
    Ms. Flournoy. Yeah. I mean, I think if----
    Senator Webb [continuing]. That terminology.
    Ms. Flournoy [continuing]. You're talking about the 
military dimension, that's probably more fitting. I think if 
you're talking about broader--all the tools of power, there'll 
be continued engagement in Iraq over time. You know, but I do 
think it's an important framing issue that we're in discussion 
on.
    On the regional point, I couldn't agree with you more, and 
I--forgive me for leaving that out. There cannot be any--you 
know, we absolutely have to push the Iraqis, internally, to 
make the hard choices, but they can't do that without a broader 
context of regional agreement and regional cooperation and some 
sort of support for----
    Senator Webb. You know, as I said, the Vietnamese 
experience is a good microcosm. I started going back to Vietnam 
in 1991, and my concern was always the people who were with us 
on the battlefield, who were left behind. A million of them 
went to reeducation camps, et cetera. They were lost in the 
debate. We were talking about our Vietnam veterans. We were 
talking about what the Communist soldiers have done. And when I 
would raise it to, for instance, the Secretary General, the 
lineal descendant in the job of Ho Chi Minh--he would say, ``I 
have mothers who have lost five sons fighting for the Communist 
side. You can't tell me to go give the South Vietnam veteran 
the same veteran benefit as my guy. I can't do it.'' And the 
people who fought with us were so bitter about the reeducation 
camp experiences, they don't talk. So, you need that kind of a 
bridge. And very much so in Iraq, because there are so many of 
these countries that are playing under the table, that have 
interests. And the best way to deal with it is to bring them 
out in the open, in terms of what they're willing to commit, 
nationally, toward a solution there.
    Thank you, Mr. Chairman. I know----
    The Chairman. Thank you.
    I just--we're going to be--there are going to be an awful 
lot of volumes written, in the next decade, about who knew 
what, when, and who said what, when. And that's all legitimate. 
The thing that always amazes me is, the context in which that 
vote took place was how to avoid war, not how to go to war. 
Everybody now says they all knew we were going to war. That's 
not what the President personally assured me and other people. 
That's not what he had done. He had acted rationally for 6 
months prior in Afghanistan. There was no reason to believe he 
would be irrational, as he turned out to be, in my view. But, 
that debate will never be won today and I predict to you, 
you're going to see our neocon friends, very prominent ones--
some of the names have been mentioned--I'll bet you they--in 
the next 2 years, you're going to hear a book coming out from 
some of the most prominent ones, saying, ``You know, if the 
President had just listened to me and allowed us to put in a 
dictator from the first--from the get-go, we would have been 
OK.'' So, there's going to be a lot of this.
    But, let me conclude by making--raising one point, not for 
an answer, because I've trespassed on your time much too long, 
but maybe for you to think about, and if you're inclined to 
respond in writing--if not, you all know me well enough, I'll 
pick up the phone and call you and ask you.
    One of the things that Senator Webb, who's been very 
forward-thinking on this whole area for a long time, said--he 
gave the analogy of Vietnam, and he began going back, in 1990. 
I would respectfully suggest, in 1990 we still had credibility 
in the world. We still had credibility, and even credibility in 
Vietnam. I would respectfully suggest we have no credibility. 
We have no credibility in Iraq, we have no--among the 
factions--we have no credibility in the region, and we have no 
credibility with our allies and our antagonists, as it relates 
to Iraq, anywhere in the world.
    I tell that old bad joke, General Odom, about the guy who--
my baseball coach in college told me, and I'm going to change 
the name. George was a star centerfielder. In the first three 
innings, George makes three errors. He never makes errors. He 
made three errors. Coach says--calls timeout and says, 
``George, you're out,'' and he puts in Barry. And Barry goes 
in, play resumes, first pitch, routine fly ball to centerfield 
to Barry, hits his glove, and he drops it. Coach goes crazy, 
calls timeout, and says, ``Barry, you're out.'' And he's 
crossing the third base line, he grabs Barry by the number, and 
says, ``Barry, what in the devil's the matter with you?'' And 
Barry looks at the coach and says, ``Coach, George screwed up 
centerfield so badly, no one can play it.'' [Laughter.]
    Well, the truth is, George has screwed up centerfield so 
badly, we do not have, in my humble opinion, the credibility to 
be the catalyst to do the things you're talking about.
    Which leads me to my parting question, not for you to have 
to answer now, unless you--if you want to, you can, but I'm not 
asking you to. When I put forward the plan General McCaffrey 
referenced--two plans, actually--I pointed out that--this 
federal system--time worked against accomplishing it. The more 
time, the more water over the dam, the harder it was to 
establish a rational political way out of Iraq. And we might 
have to change our policy as we moved along, because this 
President has squandered, in my view, so many opportunities to 
keep a bad thing from getting worse. But, one of the things I 
do think is necessary--everyone talks about the need for 
regional engagement--us engaging within the region, but also, 
by implication, the region engaging as it relates to a solution 
with regard to Iraq.
    And here's my point. One of the things I think we always 
vastly, in my 34 years, 35 years as a Senator--knowing that all 
Congresses can do is respond to foreign policy--the blunt 
instruments in the Constitution are just that, they're pretty 
blunt--is that we always underestimate the stake that the 
observers have in the outcome of our actions. Case in point: As 
the French President told me--the previous French President 
told me, the worse mistake you ever made was going to Iraq, the 
only bigger mistake would be for you to leave, because he has 
14 percent of his population that is Arab, and he's worried 
about it being--he was worried about it being radicalized. The 
Germans know if this thing goes as badly as it might, they're 
going to have somewhere between 500 and 1 million Kurds beating 
the path to their doorstep, if things go really badly. The 
Iranians, this--I find this ridiculous assertion that the 
Iranians and Ahmadinejad really means what he says was, 
``Leave, and we'll take care of it.'' The last thing they want 
to take care of is an all-out Shia war with Arab Shia, and 
deciding who to pick. The last thing Syria needs is us to 
leave, and leave in chaos. Saudi Arabia. But, we don't play any 
of those cards.
    And so, here's what--my question. I have been proposing--
and actually went and asked for a meeting with the Permanent 
Five of the Security Council. Now it's--how long ago? Almost a 
year ago. And they were kind enough to meet with me, for almost 
2 hours. And I asked the question of each of their Ambassadors, 
including our Ambassador, who's there. And I said, ``What would 
you do if the President of the United States came to you and 
said, `I want the Permanent Five of the Security Council--not 
us, the Permanent Five--to call an international conference on 
Iraq, where the Security Council members, the Permanent Five, 
invited each of the stakeholders in the region to the meeting 
and, ahead of time, we were able to work out, among the major 
powers, the broad outlines of a political settlement for 
Iraq'--what would you do?'' Without naming the ambassador, one 
ambassador said, ``The first question I'd say is, `Mr. 
President, what took you so long?' '' Literally.
    Then, I asked each of them, including our own, ``Would you 
participate?'' And the answer was, ``Absolutely,'' they were 
certain their governments would.
    So, my question is, If I am correct--and I may not be--that 
we have virtually no credibility with the players--other than 
to be able to threaten to withhold, Michele, that's a 
credible--a credible tool we have--but, if we have no 
credibility, or little credibility, isn't the vehicle by which 
we begin to deal--whether it's your proposal, General Odom, 
knowing we're going to have to stay in the region, we can't 
leave the region, or whether it's a proposal of any of the rest 
of you all, whom have said, ``You've got to engage the other 
players,'' you can't make it to Basra--my staff just was down 
in Kuwait, we're talking about them being able to have flow-
through with equipment no more than one brigade every month and 
a half or so, just to physically get out. So, we're going to 
need a lot of cooperation. So, doesn't it make sense--or, does 
it make sense for us to quietly initiate a proposal through the 
Permanent Five, or maybe others, to call for that regional 
conference, to begin to set the stakes as to what the nature--
the broad nature of this political arrangement's going to have 
to be in Iraq? Because I think a lot of the players in Iraq--
and I've been there as much as anybody, I know most of them 
personally, I've spoken with virtually--I actually haven't 
spoken to Sadr, and I haven't spoken to Sistani. I think 
they're the only two. And my impression, just as a plain, old 
politician, is, they're each looking for somebody to say, ``The 
devil made me do it. I didn't want to make this compromise. I 
didn't want to have to do this, but we have no choice.''
    So, I would just raise with you, again--I'm asking--I will 
ask you not to answer it now--but to think about whether or not 
there is any utility, not in the sort of goo-goo good-
government, feel-good internationalist environment that we're 
going to get the International Community involvement, but is 
there a practical benefit by having the major powers first meet 
and negotiate what--the outcome they're looking for, 
generically, and then to bring in the regional powers, to put 
pressure on the domestic powers inside Iraq, to figure out how 
we can more easily leave with the least amount of blood, 
carnage, damage, and whatever?
    That's the thing I'd like to, maybe, be able to pick up the 
phone and call you all about over the next couple of weeks to 
see what you think.
    I truly appreciate it. You've been a brilliant panel, and 
you've added greatly to our knowledge base.
    Thank you very, very much.
    We're adjourned until 2:30, when we'll have another 
distinguished panel to discuss the political ramifications, as 
if we didn't discuss it this morning.
    [Whereupon, at 12:55 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


    Briefing Slides Presented by GEN Barry R. McCaffrey During His 
                               Testimony
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               IRAQ AFTER THE SURGE: POLITICAL PROSPECTS

                              ----------                              


                    WEDNESDAY, APRIL 2, 2008 (P.M.)

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:37 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Kerry, Feingold, Boxer, Bill 
Nelson, Cardin, Lugar, Hagel, Corker, Murkowski, Isakson, and 
Barrasso.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    The Chairman. The hearing will come to order. We thank our 
witnesses, all of them, for being here, and intrepid press, who 
after a long hearing this morning, came back this afternoon. 
All of--all the witnesses we have this afternoon have spent a 
considerable amount of time in Iraq and all have provided very 
insightful commentary in Iraq over the period of the last 
several years.
    Yahia Said--I hope I pronounced that correctly--is Director 
of Middle East and North Africa at the Revenue Watch Institute. 
Dr. Stephen Biddle is a senior fellow at the Council on Foreign 
Relations. And Nir Rosen is a fellow at the Center on Law and 
Security at New York University.
    Fifteen months ago when the President announced his surge 
of an additional 30,000 American forces into Iraq, he made 
clear that his strategic purpose was to bide time and space for 
the Iraqis to come together with a political solution. Today, 
we look forward to the assessment of each of our witnesses on 
the progress on that central rational for the surge, what 
political progress has been made. In short, we want to know 
whether or not you believe the surge has achieved this 
strategic purpose. Do the laws approved by the Iraqi Government 
in recent months on de-Baathification amnesty, provincial 
powers, suggest that we have turned the corner, or Iraqis main 
political force is still pulling in very different directions. 
What does the violence in Basra, the restlessness of the Sunni 
Awakening movements, and tensions over Kirkuk tell us about 
Iraq's political development? Is Basra to be celebrated as a 
sign of progress as the President suggests, or as the--I was 
just watching earlier today, just on the way over here, Admiral 
Fallon's comments saying that the jury is out on whether or not 
it's a success or failure--or is it an indication of a bitter 
and complex power struggle with Iran's influence growing and 
Sadr emerging stronger?
    Can the administration's current approach lead to a 
resolution of the fundamental political differences in Iraq? If 
not, how should we be changing our policy?
    The administration believes that deals struck in the Green 
Zone among a narrow cast of actors can resolve Iraq's political 
disputes. That may be, I wonder whether that's true though. 
Provincial elections in the fall are being proclaimed as the 
next game-changer, reflecting the triumph of hope over 
experience. And we are told that we must continue to support a 
strong central government, when that government does not enjoy 
the trust of very many Iraqis, and has virtually no capacity to 
deliver security and services. We are told there is not a 
fundamentally different way to more actively involve Iraqi's 
neighbors and the major powers in collectively promoting a 
political solution.
    Iraq's neighbors have created working groups on border 
security, refugees, and electricity. But, we've told them to 
stay out of the central political issues, where they could, in 
my view, have the greatest political impact, and where they 
have an incentive to help, because Iraq's instability may spill 
over their borders.
    Maybe the current policy is the best we can do to secure 
the fundamental interest in leaving Iraq without leaving chaos 
behind, but I'm not sure that's true, I don't believe that. It 
seems to me that we can and must do a lot better. So I look 
forward, we all do, to the analysis of the underlying political 
dynamics in Iraq and for the ideas of our witnesses of how we 
can best promote--what I think is the ultimate objective--
sustainable political progress, self-sustaining political 
progress in the coming months. I look forward to hearing your 
testimony, and I now turn over to Chairman Lugar.

 OPENING STATEMENT OF HON. RICHARD G. LUGAR. U.S. SENATOR FROM 
                            INDIANA

    Senator Lugar. Well thank you very much, Mr. Chairman, and 
I join you in welcoming our distinguished witnesses to this 
afternoon's session, which will focus, as you pointed out, on 
the political situation in Iraq. We appreciate this opportunity 
to hear insights and engage the witnesses in a discussion of 
United States policy options.
    This morning we discussed the security dynamics in Iraq, 
which are inextricably linked to the political outcome. Last 
year, our national debate framed two independent steps of a 
surge strategy. We were attempting first to reduce the violence 
in Iraq through the application of additional American troops, 
better training of Iraqi forces, tactics aimed at sustaining 
stability in key neighborhoods. And second, we were hoping to 
use the so-called breathing space created by improved security 
to induce Iraqi political leaders to include meaningful 
compromises on governance and power-sharing.
    Conditions on the ground in many areas of Iraq improved 
during the past year. This progress has helped to save lives 
and has raised hopes that transforming political compromises 
would follow. But overall, progress by the central government 
in Baghdad on achieving political benchmarks has been 
disappointing and Iraqi factions have been reluctant to 
negotiate power-sharing arrangements in an uncertain 
environment.
    Meanwhile, the United States took advantage of Sunni 
disillusionment with al-Qaeda forces, the Sadr factions desire 
for a cease-fire, and other factors to construct multiple 
cease-fire agreements with tribal and sectarian leaders. Tens 
of thousands of Iraqi Sunnis, who previously had sheltered al-
Qaeda and targeted Americans, joined Awakening councils, drawn 
by their interest in self-preservation and United States 
payments. This bottom-up approach remains the most dynamic 
political development in Iraq, but it is uncertain whether it 
can be translated into a more sustainable political 
accommodation or whether its utility is only in providing a 
temporary and tenuous system of interlocking cease-fires.
    The violence of the past week is a troubling reminder of 
the fragility of the security situation in Iraq and the 
unpredictability of the political rivalries that have made 
definitive solutions so difficult. Even if compromises are 
made, they have to be preserved and translated into a 
sustainable national reconciliation among the Iraqi populace. 
And that reconciliation would have to be resilient enough to 
withstand blood-feuds, government corruption, brain drain, 
calculated terrorist acts, and external interference that will 
challenge social order. It would also have to be strong enough 
to overcome the holes in responsible governance that are likely 
to continue to afflict Iraq.
    As the government and competing factions maneuver 
politically, there has to be greater attention to improving the 
basic functions of government, upon which popular support 
depends. This includes competently managing Iraq's oil wells, 
overseeing reconstruction programs, delivering government 
assistance to the provinces, and creating jobs.
    I'll be interested to hear from our witnesses their 
assessments of whether the bottom-up approach of voluntary 
cease-fires can be institutionalized over the long term, and 
whether it is still possible to invigorate the top-down model 
of political accommodation in Baghdad.
    I thank the chairman for calling this hearing and look 
forward to our discussion. Thank you Mr. Chairman.
    The Chairman. Thank you.
    Gentleman, again thank you for being here. And if you'd 
proceed in the order you're introduced, I'd appreciate it.
    Mr. Said, please.

  STATEMENT OF YAHIA SAID, DIRECTOR FOR MIDDLE EAST AND NORTH 
         AFRICA, REVENUE WATCH INSTITUTE, NEW YORK, NY

    Mr. Said. Thank you very much, gentlemen. I'm honored to
be here for the second time. I had the honor and the pleasure 
to
speak here on the first hearing before the surge. And at the 
time I sounded skeptical about the likelihood of the surge 
achieving its objectives, particularly in the political area.
    I feel obliged, several months hence, and responsible to 
say that I think, on the whole, the surge has been successful. 
The approach, the politics that were involved in the surge have 
interacted with dynamics that were already on the ground in 
Iraq, in significantly reducing the levels of violence and 
creating the, sort of, breathing space that one hopes could 
bring political progress.
    In my notes, I will again sound, very skeptical notes, 
about the likelihood of political progress, but I think it's 
very important to admit, as a student of Iraq and as a observer 
of Iraq, that the surge has been, surprisingly from my 
perspective, effective.
    The Chairman. Sir, you just lost all credibility. The only 
witness to ever come before us and acknowledge that maybe what 
you said before wasn't accurate. I think we should dismiss this 
witness. [Laughter.]
    This hasn't happened in 35 years since I've been here. 
Thank you.
    Mr. Said. One of the issues I was asked to talk about is 
national reconciliation. And national reconciliation has been 
taking place in Iraq over the past year. It has a different 
form than what has been envisioned, in terms of formal process. 
The fact that Sunni insurgents have decided that al-Qaeda is 
the biggest threat to them and to their communities and decided 
to turn their guns on them, that's--that's national 
reconciliation. The fact that the Sadrists have decided to 
distance themselves from the special groups and have decided to 
predominantly observe a cease-fire, that's a very important 
sign of national reconciliation.
    The general backlash that one feels--perceptive backlash in 
Iraq against sectarianism, that has prompted politicians and 
clerics to stop preaching hate, to stop preaching sectarianism, 
that's a true sign of national reconciliation. And I don't want 
to sound too optimistic here, the violence, the murder that 
took place in 2006 will leave very deep scars in society, and 
historical experience shows that countries that go through such 
bloodshed often relapse into conflict. But I think that what we 
see in Iraq today, in terms of backlash, even the events in 
Basra, which showed how Iraqis are really not prepared, are 
really fed up with the violence and the chaos and want to move 
on in a more calm and civilized way is a real sign of national 
reconciliation.
    Unfortunately, almost the opposite is happening on the 
political front. The reduction in the violence is leading those 
who are in power, who have control of the Government in Baghdad 
for the last 5 years, to seek to entrench themselves in power, 
to preempt any challenges to their power. The Government in 
Baghdad has been, now for a year, running without half of its 
ministers, who have quit, from the Iraqi Islamic Party, from 
the Iraqi list, from other opposition groups. And some of these 
have been desperately trying to find a face-saving way back 
into government and have not been allowed. And the government 
has been essentially run by three political parties, the two 
Kurdish parties and the Supreme Islamic Council. So it's a 
narrowly defined government, confined to the Green Zone.
    Some compromises have been made, and the Senators have 
mentioned the package of flaws that we're past. The picture is 
entirely mixed on those laws and I will try to go through some 
of them to just elucidate what's at stake. The de-
Baathification law, the Justice and Reconsideration Law 
definitely has shown some progress, but in a sense, it's a 
confirmation, it's a ratification of what was already taking 
place. Many Baathists have received exemptions from de-
Baathification law in order to resume their work in government. 
There was simply a realization that it's impossible to run 
government without some of these people, and this law came to 
just ratify that realization.
    The Amnesty Law has a major exception to people charged 
with terrorism, and yet it's the terrorism charge under which 
most insurgents are captured, and so rendering it almost 
meaningless. However, we hear that it's being implemented in 
almost a blanket way. By the way, Kurdistan, the Kurdistan 
region has declared that the law doesn't apply to their 
territory.
    The governance, the law on the powers of governance was 
mostly passed because it's included a clause that sets a 
deadline for the elections, for the provincial elections that 
are due to happen in October. Not many of the people who voted 
for that law looked very deeply into the details of it. It 
includes a lot of contradictions, it attempts to move away from 
the level of decentralization envisioned in the constitution, 
but in most cases it tries to paper over the differences, and 
this has been also typical for many of the laws that have been 
passed in the last--in the last year.
    The budget, which is part of that package, shows progress, 
in terms of the economic governance. It shows that the process 
of designing the budget and negotiating it has improved over 
the last 3 years, but it also has a sting in its tail, the 
budget has a very large and a growing allocation to the regions 
and the provinces and it sets a path decentralization that has 
not been really negotiated and agreed on. It's sort of a 
stealth decentralization--decentralization by stealth--over 30 
percent of the budget has been allocated to the regions. And 
should oil prices drop, it will be very difficult to take back 
those concessions. It's like raising taxes, and so it's sort of 
an irreversible process that will--that may significantly 
weaken the federal government.
    So in any respect, there are--otherwise the true signs of 
those who are in power, the groups that are in power in the 
Green Zone, trying to consolidate their hold on power and 
preempt challenges.
    What Iraq really needs though, is not necessarily political 
reconciliation, so much as political succession. What Iraq is 
going through today, is very similar to some things, to 
processes that happened in Eastern Europe and former Soviet 
Union, that have gone through similar processes. What happened 
in Russia and Azerbaijan and Georgia, 3, 4 years after the fall 
of the regimes, is that people in these societies got tired of 
the former dissidents and the exiles, people who came to power 
like Yeltsin or Elchibey in Azerbaijan or Gamsakhurdia in 
Georgia, and try to change society from the ground up, came up 
with very great ideas about transforming society from the 
ground up, were generally not very successful at delivering 
services and carrying out the duties of government. And at the 
end, were replaced by old structures, by representatives of the 
old regime. Yeltsin went, he was replaced by Putin and his 
structure that draws a lot of its resources from the old 
regime. Aliev came to power in Azerbaijan, Shevardnadze came to 
power in Georgia.
    And there's a similar process taking place in Iraq today. 
Many of those who came with the invasion have shown Iraq a very 
low capacity to implement, to deliver on the promises and on 
the anticipations. And at the same time, have sought to impose 
changes, dramatic changes that society was not ready for. And 
whether they were liberal or religious fundamentalists or 
decentralizers and performance of federation ideas, in most 
cases they carried ideas that were alien to society and the 
society was not prepared to accept at face value.
    And the backlash against them is translating into a 
nostalgia for some of the steady hands of the past, not 
necessarily, not in any way the Baathist leader, but the 
technocrats, the officers, the people who meant--kept the state 
running. And this is a process that is not unique to Iraq, this 
has happened in many former totalitarian and authoritarian 
states, and it's part of the dynamic we see in Iraq.
    So you see the forces in decline, not only the ruling 
parties, but all the new political groups that came with the 
invasion, whether they are in government or in opposition, you 
see them in decline, and you see new forces on the ascent. And 
these forces are on the ascent, in part, as a result of the 
surge. Part of the strategy employed by General Petraeus was to 
help Sunni insurgents create a distance, distance themselves 
from al-Qaeda, and he, in many ways, empowered the insurgency 
by bringing it from the cold, giving them recognition, 
sometimes caching weapons and fire support, and working with 
them in alliance to fight al-Qaeda. He has helped the Sadrs 
distance themselves from the special groups. If you look at the 
command in Iraq, they always try to have a very nuanced 
rhetoric about the Sadrs, about their right to pursue political 
goals, but not military goals.
    So, they have created, that what we have today in Iraq is a 
new constituency, new political groups with strong grassroots 
support, the concerned local citizens, the Sadrs who withstood 
the--committed themselves to the cease-fire, the bureaucrats 
that are emerging, the officers of the new Iraqi Army, who are 
seeking--who are looking for a place at the table, who are 
seeking a say in the way the country is governed, and who are 
not very easy to reconcile with the current political leaders. 
And the political leaders are trying to preempt challenges by 
these groups, from threatening their positions.
    And one area where there's confrontation is going to take 
place along these lines, is the issue of federalism. In a way, 
the events in Basra could be a first salvo in that battle over 
federalism in Iraq. One way that the current political leaders 
could preempt challenges to their power is to proceed faster on 
the issue of decentralization. The law on the formation of 
regions comes into force next month in Iraq. That law makes it 
very easy to form a region like Kurdistan in the south, and 
indeed the Supreme Islamic Council, this is one of their main 
political goals. And this move is seen as a way to seal off 
challenges to their power by the Sadrists and by other groups 
that have more grassroots support throughout the country and by 
other nationalist groups, like the concerned local citizens.
    And so there's an attempt to--one of the interpretations of 
what happened in Basra, is an attempt to trim the Sadrists in 
size and to allow the Supreme Islamic Council then to proceed 
politically with the idea of establishing a region in the 
south. This could be a very divisive issue and that could 
ignite tensions much more dramatically in the coming months.
    The other issue is, of course, the issue of the Oil Law, 
which is also something I've been asked to address. I've been 
recently witness to a conversation on that between the person 
who drafted the law, Mr. Tariq Shafiq, and the head of the 
Kurdish Parliament. And the drafter of the law asked the 
speaker of the Parliament, ``Why can't we just leave the 
differences of the Baath behind, why can't we--we were all 
victims of Saddam--let's leave that behind and work together to 
divvy up this oil wells together for the benefit of everyone.'' 
And the speaker of the Kurdish Parliament, who is a very 
moderate Kurdish nationalist by any account, was clearly upset. 
He's like, ``You want me to forget Halapsha, we will never 
forget Halapsha, we will never let the Iraqi State control oil 
and use it against us again to annihilate the Kurdish people.''
    And this is the core controversy over the Oil Law, between 
those who feel that the state is the best guardian of that 
well, who can maximize, and those are represented by the 
Ministry of Oil, and by growing majority in Iraq, in terms of 
the public, and between the Kurds and some others who feel that 
the state should never control oil because that's a recipe for 
tyranny. The paradox in that is that we have a new state in 
Iraq, it's no longer Saddam Hussein in power. We are building 
the state together and we have to be able to trust it, it's 
impossible at the same time to build a state and to keep it 
weak, because you don't trust it. And this is one of the 
paradoxes, one of the weaknesses of the current political 
leaders, which makes them very similar to those who were in 
Eastern Europe before them. They maintain the dissident 
mentality, they still view the state as an enemy, even though 
it--the regime, the dictator should no longer exist.
    So to sum up, in terms of resolving the issue on the Oil 
Law, of course, there is a path to do that. Obviously it's a 
fundamental issue that touches on the formation of the 
federation in Iraq and how Iraqis share power and resources. It 
cannot be resolved over night, it needs to be resolved through 
open political debate. But one step that could be taken 
immediately, is to work on a transparent mechanism for revenue-
sharing. And Iraq has recently joined an initiative called the 
Extractive Industries Transparency Initiative, which could 
serve as the first step on that, it allows Iraq to know exactly 
how much money is being earned and it will provide a very good 
first step toward revenue sharing and distribution.
    Another issue is the Iraqi Government is considering asking 
the United States for an extension of the arrangement for the 
Development Fund for Iraq, to maintain all the oil resources, 
the oil account, under the protection and custody of the U.S. 
Government and the Federal Reserve Bank of New York. And I 
think this is something that should be considered, because that 
will allow for a third party to act in a way as a guarantor 
that there's no abuse of those resources.
    But more generally, in terms of ensuring that the surge and 
the effort that went into it, going further are a success. It's 
very important to make sure that the path for political 
succession, for political change in Iraq remains open, and that 
the current political leaders are not preempted by rash moves, 
by irreversible moves toward decentralization that could leave 
the rest of the Iraqi people, and many of the movements that 
have emerged out of the surge, feeling that they have been 
robbed of their political rights. It's very important that the 
U.S. troops acting in support of the state and restoring the 
authority of the state, don't seem as if they are siding with 
one political force over the others, and don't seem that they 
are taking sides.
    There is a very big danger if the path toward 
decentralization proceeds as it is happening now, that the 
United States end up having to protect a number of weak 
statelets who have--have to prevent them from fighting each 
other and have to protect them from incursions from the 
outside, which is a real present danger in the path 
decentralization that some Iraqi politicians seem to envision.
    So these are sort of some of the main ideas I have. I have 
delivered to you a very heavy tone, unfortunately, on these 
issues, but I'm happy to address many of the other questions 
you have in the discussion.
    Thank you.
    [The prepared statement of Mr. Said follows:]

 Prepared Statement of Yahia Khairi Said, Director for Middle East and 
         North Africa, Revenue Watch Institute, Washington, DC

1  Executive Summary
  <bullet>  The reduction in violence experienced by Iraq today is 
        fragile and fleeting. The surge is only one of several factors 
        contributing to it, with the Multi-National Force acting as a 
        linchpin for a number of local cease-fires and alliances.
  <bullet> A vital factor in the security improvement is public 
        backlash against the chaos and extremism of the past 5 years. 
        The backlash is not aimed only at al-Qaeda but also at 
        sectarian politics of the mainstream parties and forceful 
        efforts to transform society.
  <bullet> As a result of the surge strategy the insurgency has in 
        effect ``come in from the cold,'' and attained official 
        recognition and a coherence it lacked before. More than 70,000 
        men, many of whom were members of the former military and 
        security structures, are now armed and financed by the U.S. 
        through the Concerned Local Citizens. They pose a challenge to 
        the legitimacy of the official security forces and the state's 
        monopoly on the use of force. They have little trust in the 
        government and are seeking their own say in how the country is 
        governed.
  <bullet> A bureaucratic awakening is also underway benefiting from 
        the improved security situation and reversal of de-
        Baathificaiton. Iraq's once efficient machinery of government 
        is slowly beginning to turn in defiance of political gridlock, 
        corruption, and incompetence. Tangible progress is also taking 
        place at the local level benefiting from the new local 
        alliances and U.S. military support.
  <bullet> Without progress at the political level, improvements to 
        security and administration are likely to falter. Progress is 
        needed to bring the various initiatives together and provide 
        them with coherence and resources. Groups currently vying for 
        power will need a way to negotiate a shared vision of the 
        future. Yet the political process, hobbled by a sectarian 
        allocation formula, is showing little signs of movement.
  <bullet> Rather than broadening the political process and opening the 
        doors for compromise, forces dominating the government are 
        using the lull in the violence to consolidate their hold on 
        power by establishing facts on the ground.
  <bullet> Growing differences between government and opposition and 
        within individual parties and factions are creating political 
        paralysis. Constitutional review, hydrocarbon and election 
        legislation are in limbo. The laws being passed often fail to 
        address the underlying issues and tensions. Crucial 
        disagreements over the distribution of power, the role of 
        religion or transitional justice remain unaddressed.
  <bullet> Tensions around Iraqi Kurdistan are at new heights and 
        threaten to spill over into open conflict, due to issues 
        including Kirkuk, disputed internal boundaries, oil contracts 
        and the presence of the Turkish Kurdistan Worker's Party (PKK). 
        At the same time, challenges to Iraq's territorial integrity by 
        Iran and Turkey are left unanswered, setting a dangerous 
        precedent in a ``bad neighborhood.''
  <bullet> Holding of overdue local elections, under a new electoral 
        law, is the best way to peacefully introduce the actors 
        emerging through the surge, into the political process, be they 
        concerned local citizens, Sadrists observing the cease-fire or 
        old technocrats.
  <bullet> An open and inclusive dialog will be required to resolve the 
        critical issues addressed by the hydrocarbon legislation,. The 
        current differences can neither be papered over nor resolved 
        unilaterally. In the meantime transparency in the management of 
        oil revenues based on the Extractive Industries Transparency 
        Initiative, which Iraq has just joined, can be a first step 
        toward building lost confidence.
  <bullet> The package of issues surrounding the limits of Iraqi 
        Kurdistan's self-determination, including Kirkuk and the 
        disputed territories, will need to be addressed through a 
        special U.N. mandate. This is the only way to give this grave 
        issue the attention and resources it requires without siphoning 
        attention from Iraq's other needs. A new resolution on Kirkuk 
        will also help close the chapter that began with the 2003 
        invasion, hasten a transition to a more legitimate U.S. role 
        and broaden international engagement in Iraq.
2  Introduction
    The situation in Iraq over the past year has been so dynamic that 
few observers were able to keep pace. Burnt by repeated false hopes and 
disappointed in most of the leading personalities, a student of Iraq 
would be forgiven for assuming that nothing will work and that any 
improvements are bound to be temporary.
    However, last year saw tangible progress on many fronts, not only 
in the area of security following the introduction of the surge. The 
breathing space provided by improved security is critical for all other 
developments, but the most remarkable change taking place in Iraq today 
is at the grassroots level.
    As this paper will show, Iraqis across sectarian and ethnic 
boundaries are taking a stand against extremism of all varieties, alien 
ideologies regardless of origin, and the chaos and uncertainty of the 
past 5 years. The public disgust is aimed equally at foreign al-Qaeda 
operatives and hectoring homegrown clerics, narrow-minded sectarian 
politicians and corrupt officials.
    As Iraqis reject those responsible for the chaos, they turn to 
those they naturally associate with stability and functioning 
government. These are not the Baath Party bosses who have been long 
discredited, but the professionals, the steady hands who kept the state 
humming while Saddam was busy hatching megalomaniacal plans and writing 
novels.
    The most remarkable ``awakening'' taking place in Iraq today is 
that of its onetime efficient bureaucracy. Technocrats and 
professionals, including military and security officers, are trying to 
jump-start whatever is left of the machinery of government and restore 
a modicum of normalcy.
    The regime that could emerge from the return of these elites will 
look different from either the theocracy of al-Qaeda or democratic 
vision of the political exiles. It could look a lot more like Russia 
under Putin than Germany under Adenauer.
    One of the most remarkable failures of Iraq's observers over the 
past 5 years has been the selective application of other post-
authoritarian and post-totalitarian experiences. Those who wanted to 
reengineer society from the ground up chose the model of Germany and 
Japan. Those who saw partition as the solution thought of Yugoslavia as 
a model. Yet, it is Russia and other post-Communist countries in 
Eastern Europe and the Former Soviet Union which offer the most 
pertinent lessons for Iraq--first, that the least likely embers to be 
found under the ashes of totalitarianism are those of liberal democracy 
and second, that parts of the old elites and power structures always 
find their way back to the top.
    This is not to say that the people of Iraq are unfit for--or 
undeserving of--democracy and the right to manage their own affairs, 
but that having suffered through so much pain for so long, especially 
over the past 5 years, their priorities and preferences are skewed 
toward order, security, and normalcy.
    The grassroots awakening taking place in Iraq today is very 
fragile. By definition it is lacking in political direction. It needs 
power and resources and a benign security environment to be sustained. 
The extremists and criminals thriving on the war economy will do 
anything to stop the forces of normalcy.
    This paper does not advance a sanguine view about the return of the 
old elites and the prospects of a Putin scenario in Iraq. It identifies 
several risks of conflict and reaction that such a course of events may 
entail, chief among them a conflict in Iraqi Kurdistan. However, the 
alternatives, short of a permanent surge, are too gruesome to 
contemplate.
    The paper concludes with some recommendations, not only aimed at 
sustaining the current momentum but also at ensuring that it develops 
in a more democratic, less violent direction.
    These observations are based mainly on interactions with 
policymakers and politicians over the past 2 years and do not give 
sufficient credit to the courageous civil society activists and opinion 
formers who shaped the public backlash against extremism, sometimes at 
the cost of their own lives. Dr. Isam al-Rawi, professor of Geology at 
Baghdad University and a moderate member of the Sunni Association of 
Muslim Scholars is one of those heroes. He sought to stem the slide 
into civil war and was the first to condemn al-Qaeda. He was 
assassinated while trying to stop the carnage working closely with 
moderate Sadrists through the worst months of 2006.
    The following sections will look at the improvement in the security 
situation and the dynamics that led to it; the changing political 
fortunes of the various groups and parties forming the Iraqi political 
scene; and the defunct political process and the crises and fissures it 
is generating. The paper concludes with possible future scenarios and 
policy recommendations aimed at mitigating the worst possible outcomes.
3  Security Improvements and the Surge
    According to Multi-National Force-Iraq (MNF-I) figures the violence 
throughout Iraq and particularly in its most volatile areas is down to 
2005 levels. This is a substantial reduction in comparison to the 
horrific levels reached in 2006, but 2005 was hardly a peaceful year.
    The figures do not reflect the full picture and particularly the 
perceptions of people on the ground. While many Iraqis assert that 
there is still a lot of violence particularly crime, their actions 
speak otherwise. This is not only demonstrated by the anecdotal 
evidence of revived economic activity, traffic on the streets or the 
trickle of returnees. International Organisation for Migration (IOM) 
figures, for example, show a significant decline in displacement rates 
starting as early as the end of 2006.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source IOM.

    These figures do not only demonstrate the drop in violence but may 
also help explain the causes. A significant decline in displacement by 
early 2007, long before the ``surge'' forces were in place (the 
deployment of additional brigades was only completed in June 2007), 
indicates that other factors are at play--among the most important, is 
the completion of ethnic cleansing in many areas particularly large 
swaths of Baghdad.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ethnic segregation in Baghdad before and after 2006 (source: 
BBC.co.uk).

    Much less susceptible to quantification is the public backlash 
against the excesses committed by almost all parties during 2006. The 
backlash is not limited to the extremist versions of Islam propagated 
by al-Qaeda or some Shia clerics. It is also aimed at some of the 
sweeping changes which coalition authorities and their Iraqi allies 
sought to push through over the past 5 years. The backlash is forcing 
most religious leaders, politicians, and warlords to distance 
themselves from the sectarian, fundamentalists, or radical change 
rhetoric.
    The violence of 2006 seems to have provoked a sense of defiance 
among Iraqis who felt dragged into a civil war against their will and 
better judgement. The backlash was propagated through formal and 
informal civil society networks which survived despite the violence and 
the chaos. Baghdad University, Iraqi Women's Network, Web sites and 
blogs like the mysterious Shalsh Al-Iraqi who poked fun at everyone 
from the Sadrists to the Marines all played a role in affirming the 
public consensus against the extremism and chaos of the past 5 years.
    The events of 2006 and the near collapse of the Iraqi state seem to 
have also shocked Iraq's neighbours who have either condoned or 
actively supported many of the combatants over the past 5 years. MNFI 
and Iraqi Government reports point to a dramatic decline in the flow of 
fighters and weapons from Syria and Iran during 2007.
    A combination of these factors and the strategy adopted by the 
Multi-National Force under the command of General Petraeus led to the 
current improvement in the security situation.
    The improvement is fragile and fleeting. It could be best described 
as a truce--an informal complex arrangement bringing together (1) most 
Iraqi insurgent groups particularly those drawn from former military, 
security structures and Baathists; (2) the Sadrists and the affiliated 
Mahdi Army; (3) Iraqi security forces particularly the National Police 
and affiliated Badr militia; and (4) the MNFI who are also acting as 
broker and guarantor.
    Today, MNFI has more substantive control over the situation in Iraq 
than at any other time since the beginning of the invasion. This was 
not achieved by dominating the battlefield, where the troops remain 
just one of many actors, but by brokering a complex web of alliances 
and arrangements that put them at the centre.
    The first element of the truce began to emerge in mid-2006 long 
before the surge. The Anbar Awakening Council--a coalition of Sunni 
Arab tribal leaders declared a campaign to expel al-Qaeda from the 
province. The Awakening ``movement'' originated in rivalries between 
tribes which aligned themselves with al-Qaeda in Iraq, on one side, and 
those who felt threatened by the group, on the other. What started as 
isolated skirmishes over illicit revenues, gradually evolved into an 
anti-al-Qaeda ``uprising'' uniting the bulk of the insurgency in the 
Sunni areas. The movement grew out of rising alienation and fear caused 
by the al-Qaeda and the foreign ideology it represented to most Iraqis, 
particularly, to the relatively secular former military and security 
personnel forming the backbone of the insurgency.
    Al-Qaeda and the regime it attempted to establish through the 
Islamic Emirate of Iraq gradually displaced the occupation as the most 
immediate threat perceived by most insurgents in Sunni areas. This was 
as much a result of the group's own actions as the reactions they 
provoked across the country. Al-Qaeda violence was seen as providing a 
pretext for both Shia sectarian violence and greater Iranian influence, 
seen by many as an existential threat. Large-scale spectacular attacks 
and day-to-day identity killings, attributed to al-Qaeda, culminating 
in the bombing of the Askariya Shrine in Samarra in February 2006, 
unleashed a cycle of sectarian reprisals that threatened to decimate 
society.
    The ensuing civil war involved uneasy and, ultimately, 
unsustainable alliances along sectarian lines between al-Qaeda and 
relatively secular and nationalist Sunni insurgents, on one side, and 
between the Mahdi Army of Muqtada al-Sadr and the new state security 
services dominated by its arch rival the Islamic Supreme Council and 
its Badr Organization, on the other.
    Both the insurgents and Sadrists condoned and engaged in sectarian 
violence in the name of protecting their respective communities. Both 
risked losing their legitimacy and nationalist credentials in the 
process. The violence, at the end, caused only more pain and suffering 
to the communities in the name of which, it was allegedly perpetrated. 
The numbers of displaced people indicate that the suffering was roughly 
proportionate to all of Iraq's communities (with the exception of 
Kurdistan).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: IOM.

    The Multi-National Force in Iraq (MNF-I) seized on the opportunity 
provided by the Anbar Awakening Council, not only by refraining from 
prosecuting armed groups engaged in the fight against al-Qaeda, but 
also by providing them with cash and weapons. Coalition forces and 
Iraqi Army units working under their command provided fire support to 
the armed groups against the better equipped al-Qaeda. This amounted to 
an outright alliance and established a relationship of trust among the 
former adversaries that was to prove invaluable in other parts of Iraq.
    In Baghdad and some of the surrounding countryside, coalition 
forces under Petraeus's command had to break up the complex cycle of 
violence into its various components in order to allow for the 
mobilization of efforts by all sides against the extremists in their 
midst. They achieved this by brokering localised cease-fires and 
alliances with all but the most extremist groups, be they al-Qaeda, 
``special groups'' or ``death squads.''
    A combination of nuanced rhetoric and the threat of force on the 
part of the MNFI, for example, allowed the Sadrists to distance 
themselves from the so-called ``special groups'' (bands attributed to 
the Sadrist Mahdi Army which have been carrying out lethal attacks on 
coalition forces, sectarian and vigilante atrocities) and led, 
ultimately, to the Mahdi Army cease-fire in August 2007, which was 
recently extended for another 6 months. Coalition officials and 
officers go to great lengths to distinguish between the ``special 
groups'' and the rank and file of al-Sadr's Mahdi Army.
    A similar approach is used with Sunni insurgents, rechristened by 
the MNFI as Concerned Local Citizens (CLC) and Neighbourhood Militias, 
and distinguished from the foreign led, if majority Iraqi al-Qaeda. 
This is quite a significant shift, if one takes into account that the 
insurgents have, for most of the past 5 years, allied themselves with 
al-Qaeda, and that both they and the Mahdi Army are responsible for the 
bulk of U.S. casualties.
    Coalition forces also pressured the Government in Baghdad to 
curtail the ``death squads'' associated with the National Police. Heavy 
and highly visible coalition presence in the most vulnerable areas 
provided added assurance to communities and militias, who purported to 
act on their behalf.
    The multinational forces succeeded in gaining the trust of 
communities by changing the focus of the mission from the prosecution 
of insurgents to protection of civilians. This is a significant 
departure from past practices and is a reflection of Petraeus's 
counterinsurgency philosophy.
    U.S. troops were taken out of their fortified basis and placed 
literally ``in harm's way,'' as evidenced by the spike in U.S. 
casualties in the initial months of the surge. This was done with the 
explicit aim of providing protection and assurance to civilians. The 
troops were often based at Iraqi police stations and carried out police 
duties along with Iraqi Army units, which are relatively more trusted 
by the restive communities than the police. They often brought with 
them services and reconstruction relief to areas long ignored by the 
government.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: Coalition casualties.

    This approach, together with the good will established through 
cooperation in Anbar, allowed both communities and insurgents to 
provide the coalition with the main weapon they need to fight al-Qaeda 
and other extremists--information.
    Acting on supplied intelligence, coalition forces are devoting more 
care than in the past to minimising collateral damage to civilians by 
relying on skilled Special Operations Forces to carry out pinpoint 
raids.
    This approach, while clearly effective, has its limitations and 
pitfalls. This is particularly visible in Diyala and Ninawa provinces, 
where the Awakening model can not be replicated. Unlike Baghdad and 
surrounding areas, these provinces, in addition to Salah al-Din and 
Kirkuk have the added complication of the ``disputed territories''--
areas contested by the various communities. The Kurds have made inroads 
into these provinces, provoking a hostile reaction by other 
communities.
    In ``disputed areas'' it has been more difficult to mobilise 
insurgents to fight al-Qaeda since they perceive the threat from 
Kurdish expansion as a higher priority. Moreover, the chaotic 
environment in these areas, pitting the various communities against 
each other, has produced a level of anonymity in which terrorists have 
thrived. Al-Qaeda historically dominated these areas even when it used 
the Anbar as ``base camp.''
    Other limitations of the surge approach emanate from the continued 
use of indiscriminate measures which affect large sections of the 
population. The numbers of administrative detainees have soared to an 
estimated 40,000, in both Iraqi Government and coalition custody (there 
are 23,000 in coalition custody as of March 2008; source: MNFI). 
Estimates for those in Iraq Government custody range from 15,000-20,000 
thousands (source: Brookings Index). Many have been held for years 
without charge or trial. There are still numerous incidents of civilian 
casualties as a result of MNFI actions and those of their contractors. 
The use of high concrete barriers has turned many neighbourhoods into 
disjointed enclaves limiting freedom of movement and economic activity.
    The mobilization of the insurgents under the Concerned Local 
Citizens (CLC) banner as well as the permissive attitude toward the 
Mahdi Army, key ingredients of the prevailing cease-fire, are 
problematic in the medium and long term. They detract from the already 
tarnished legitimacy of the official security forces. The use of 
``neighborhood watch'' and militias amounts to a vote of no confidence 
in the National Police, in particular. With no realistic prospects or 
any real efforts at demobilization and reintegration, these militias 
and paramilitary formations undermine the prospects for establishing a 
state monopoly on the legitimate use of force.
    The surge is also creating tensions with erstwhile allies in the 
Iraqi Government who feel threatened by the new groups, particularly 
the CLCs. Many CLC commanders are drawn from the ranks of the military 
and former security services and some are suspected of human rights 
violations during Saddam's reign and the past 5 years. They are openly 
opposed to current Government parties. However, cooperation between the 
CLCs and the ruling parties is essential if the ``political surge'' is 
to be successful.
    The entire arrangement is highly dependent on U.S. mediation, 
financing, and massive troop presence, none of which is sustainable 
over the long term. More than 70,000 Concerned Local Citizens receive 
US$300 a month each (or nearly US$300 million a year) from coalition 
forces (New York Times December 22, 2007). The Iraqi Government has 
shown little inclination to assume this burden. So far less than 2,000 
have been integrated into Iraqi Security Forces (Brooking Index).
    The truce between insurgent groups, tribal chiefs, and the 
Sadrists, on one side, and the MNFI and Government forces and militias, 
on the other is temporary, dictated by political expedience. The tribes 
are notorious for the fluidity of their alliances. The insurgents 
continue to view the U.S. as an occupying force and question the 
legitimacy of the regime it helped establish. Their own legitimacy and 
identity is built around resistance to both. Their distrust of the new 
elites particularly the former exiles runs deep.
    Without a clear prospect for a fair political process, which allows 
all these forces to articulate, pursue, and negotiate their interests, 
including achieving the end of the occupation, the truce is liable to 
disintegrate.
4  Public Backlash
    The surge has benefited from and fed into: (1) The backlash against 
extremist ideologies including religious politics of both Sunni and 
Shia varieties; (2) the backlash against Green-Zone politics--a 
combination of sectarianism, radical change, and government failure; 
(3) the resurgence of local politics and community leaders; (4) the 
resurgence of mid-level prewar elites and structures, particularly 
military and security personnel and the bureaucracy.
            4.1  Parties, groups, and movements
    Iraq's convoluted political scene continues to fragment as the ebb 
and flow of political fortunes produce new fissures and divisions. The 
``National Unity Government'' collapsed in the middle of 2007 with the 
departure of the Sunni Arab block led by the Iraqi Islamic Party (IIP), 
the Sadrists and Fadhila, Shia opposition groups and the secular Iraqi 
List of Iyad Allawi. This left a truncated Shia-Kurdish alliance 
comprising of the two main Kurdish Parties, the KDP and PUK, the Shia 
Islamic Supreme Council (ISC, formerly SCIRI) and the fragmented Dawa 
Party of the Prime Minister Nouri al-Maliki. Division is growing, 
however, both among and within these groups.
    After al-Qaeda, the first victim of the public backlash against 
extremism was the Association of Muslim Scholars (AMS), a group of 
Sunni Arab clerics, which at some point represented the political arm 
of the insurgency. The AMS has all but imploded after failing to come 
up with a clear condemnation of al-Qaeda and support for the Awakening 
movement. Moderate members of the association, either left, were co-
opted by the government or assassinated. Others fled the country, 
sometimes under threat of prosecution by the Government, including the 
head of the organization Sheikh Hareth al-Dhari.
    The backlash on the Shia side is less dramatic but, nonetheless, 
perceptible. The largest Shia movement, the Sadrists, had to back down 
from confrontation with government forces or risk losing public support 
in the latest confrontation in Basra. The movement declared a cease-
fire in 2007 in a drastic attempt to distance itself from the carnage 
of 2006. These actions are threatening to splinter the movement among 
raising accusations to the leadership of a sellout. Allowing U.S. 
forces free reign in their bastion of Sadr City and ``turning the other 
cheek,'' if not actively supporting the targeting of ``rogue'' 
commanders and ``special groups'' is a high risk strategy for a 
movement which lost thousands, building its credibility as a the symbol 
of ``Shia resistance.''
    Having left the government almost a year ago, the Sadrists today 
are firmly in opposition. The movement regularly demonstrates its 
strength through mass protests and challenges to the power of its 
rivals in the Islamic Supreme Council (ISC), the other main Shia group 
which controls government both in Baghdad and in the southern 
provinces. The Sadrists remain the dominant popular movement among the 
Shia underclass in Iraq, but they are clearly on the defensive.
    The backlash against extremism did not translate into support for 
the ``moderate forces,'' as the groups engaged in the political process 
like to refer to themselves. Quite the opposite, the mainstream parties 
are sharing in the backlash.
    To most ordinary Iraqis, ``Green Zone'' politicians were riding the 
sectarian wave if not actively whipping it up. Continued gridlock along 
sectarian, ethnic, and party political lines reveals more to the public 
about these politicians' intentions than their ``national 
reconciliation'' rhetoric. Their credibility is further eroded by 
failure to deliver improvements in people's daily lives.
    The first to lose are the Iraqi Islamic Party (IIP) and their 
allies in the Accordance Front--a coalition of Sunni Arab parties. They 
are being squeezed, from one side, by their erstwhile partners in the 
National Unity Government (Islamic Supreme Council (ISC), the Kurds, 
and Dawa), who refuse to give them any real power and, from the other, 
by the Awakening movement, which is challenging their claim to 
represent Anbar and other Sunni areas at regional and national levels. 
The IIP is caught between government and opposition neither of whom 
recognizes it as its own.
    The secular (heterogeneous) parties aligned in the disintegrating 
Iraqi List of former Prime Minister Iyad Allawi are not faring much 
better, having equally attempted to be both in government and in 
opposition and ended up in neither. Like the Sadrists, the IIP and the 
Iraqi List left the National Unity Government almost a year ago. Unlike 
the Sadrists, they have been seeking a face-saving way back into the 
Government without much success.
    The ruling parties (Islamic Supreme Council, KDP, PUK, and Dawa) 
are attempting to capitalize on the success of the surge, depicting it 
as a vindication of their positions and a result of their actions. The 
Prime Minister, cutting a melancholic figure for most of 2006 and 2007, 
boldly proclaims ``saving the country from civil war.''
    The ruling parties are trying to use the decline in violence to 
consolidate their hold on power. Rhetoric notwithstanding, they are 
showing less flexibility and readiness for compromise on issues of 
power and resource sharing. They recently (March 2008) held the Second 
Political National Reconciliation Conference, which was boycotted by 
all opposition groups both within and outside Parliament (Al-Hayat, 
March 20, 2008).
    The ruling parties' efforts to establish facts on the ground 
including attempts to subdue the Sadrists and prevarication on overdue 
Governorate elections, due in 2007, betray a lack of confidence in 
their own strength and ability to remain in power through an open 
political process.
    Together with other parties led by former exiles, including the 
Iraqi List the ruling parties are suffering from a backlash against the 
radical change agenda espoused by these politicians upon the fall of 
the regime and supported by the U.S. and its coalition partners. 
Despite differences between them, these politicians, who have dominated 
since the days of the Governing Council, became associated with 
developments maligned by a large cross section of Iraq society, 
regardless of ethnic or sectarian affiliation. Policies like de-
Baathification, the dissolution of the military and security 
structures, economic deregulation and liberalization, administrative 
decentralization, close association with the West at the expense of 
traditional regional and international allies, became synonymous in the 
minds of many Iraqis with the chaos that has engulfed the country since 
the fall of the regime.
    In some respects, Iraq's former dissidents and reformers are facing 
a similar predicament to that of most of their predecessors in Eastern 
Europe and the Former Soviet Union. Russian Reformers, Georgian and 
Azeri Nationalists, Czechoslovak, Polish and Hungarian Dissidents who 
came to power shortly after the fall of communism have some things in 
common with Iraq's leaders of today. They sought to impose change 
faster than their societies were willing to accept. They continued to 
fight the state and the ghosts of the regime even after its fall. They 
often failed to meet the basic requirements of government and ended up 
losing out to a resurgence of former regime elites and bureaucratic 
structures under new guises (former Communists' parties and party 
bosses, the KGB). Similarities are particularly strong with Russia and 
those former Soviet Republics where regime change did not come as a 
result of a popular revolt and where the public was indifferent to 
change.
    The Islamic Supreme Council (ISC), the main Shia party, which has 
consolidated its control of both the central government and southern 
Governorates over the past 5 years, is constantly challenged by a range 
of actors including the Sadrists, Fadhila Party, local clerics and 
tribal leaders. These challenges regularly spill into open hostilities 
and assassinations, with the ISC more often than not on the losing end, 
despite its nominal control of the security services. The ISC recently 
attempted to emulate the Anbar Awakening model in Shia areas to 
mobilize the tribes in the south against the Sadrists and other rivals 
without much success, exposing even more weakness in the process.
    The decline in the ISC popularity seems to have even reflected on 
the Shia clerical establishment (Hawza) which became closely associated 
with the group. Representatives of Iraq's Shia Spiritual Leader, 
Ayatollah Ali al-Sistani are regularly targeted for assassination, 
which is often explained by their closeness to the ISC. The past year 
has seen the religious establishment take a much lower political 
profile, as a result. Ayatollah al-Sistani routinely refuses to speak 
out on day-to-day political issues and disputes. Most recently he 
refused to comment or even receive information on the ongoing 
discussions about the Iraqi-U.S. Status of Forces Agreement (SOFA).
    Faced with such a predicament the ISC seems to be pursuing a 
twofold strategy. On the one hand, it is seeking to strengthen the 
Central Government and its institutions, which it dominates (the 
Ministries of Finance and Interior, for example), and on the other, it 
continues to support the project of a Southern Federal Region. Support 
for this idea among the Shia public is not in evidence (ABC Polls, 
Bookings). Moreover, it is far from a given that ISC will be able to 
control the emerging region on the basis of free vote. This may explain 
the on-again-off-again nature of ISC's pursuit of the project. It may 
be that the ISC is pursuing those strategies as alternate, fall back 
positions. It may also be an indication of splintering within the group 
between the Hakim family who seem to be more in favor of the Southern 
Federal Regions than other prominent party figures. This contradictory 
approach, however, is further weakening the party and may foretell its 
disintegration.
    The Patriotic Union of Kurdistan (PUK) of President Jalal Talabani, 
which along with the ISC dominates the Federal Government is pursuing a 
similar strategy. It has been losing ground in Kurdistan, having ceded 
control over the regional government to the Kurdistan Democratic Party 
(KDP). The transition of power from a KDP Prime Minister to one 
nominated by the PUK has just (early 2008) been delayed. The PUK has 
instead invested in the strengthening of the central government, 
expending significant political and human resources in the process. For 
local political considerations, the PUK is compelled to side with the 
Kurdistan Democratic Party (KDP) on Kurdish issues, particularly Kirkuk 
and oil, even if in a more nuanced way. This position has become 
increasingly difficult to sustain as polarization on those issues 
intensifies.
    In this context, the Kurdistan Democratic Party (KDP) of President 
Masood Barazani has, perhaps, been the most consistent of all Iraqi 
groups, having pursued a Kurdish nationalist policy all along. If 
anything, the KDP seems to be escalating its nationalist rhetoric and 
actions as evidenced in the hardening of positions on issues of Kirkuk, 
the oil contracts, the PKK and the relationship with Turkey. This 
approach, while possibly bearing fruit in terms of strengthening the 
party's position within Kurdistan, is putting it in an increasingly 
isolated position within Iraq and contributing to an unprecedented 
level of Kurdish-Arab tensions.
    It is difficult to gauge the true level of support for the two main 
Kurdish parties and their allies in Kurdistan. The nationalist rhetoric 
could be interpreted as a way to preempt challenges to their dominance 
by rivals, particularly the Kurdish Islamists. Rising disaffection with 
corruption, and human-rights violations, is unlikely to amount to a 
significant challenge to the entrenched two-party rule. After all, they 
have produced in Kurdistan what most Iraqis only dream of--security.
    Perhaps the clearest winners of the new dynamic are the insurgents, 
``brought in from the cold'' as Concerned Local Citizens. Having earned 
a legitimacy in the underground, resisting the occupation, its ``puppet 
government'' and the ``death-squads,'' they are now given money and 
weapons by their erstwhile enemies to rid Iraq of the scourge of al-
Qaeda. Without much exaggeration, they can claim that the arrangement 
they have with the MNFI, particularly in Anbar, as a victory.
    Numbering an estimated 80,000-100,000, the CLCs are a force to be 
reckoned with, especially considering their background in the military 
and security establishment of the former regime. Their political 
allegiance and interests are neither clear nor coherent. The Islamic 
fervour of the early days is diminished as part of the backlash against 
al-Qaeda extremism. Allegiance to the local clerics who have failed to 
provide a coherent political leadership seems to have given way to 
tribal fealty, but this too could prove fleeting.
    Several attempts, over the past 5 years, to transform the tribes 
into a political force have faltered on the inherently fractious and 
parochial nature of these institutions. A tribal alliance in Anbar may 
hold long enough to dislodge the Iraqi Islamic Party from the 
Governorate's council but is unlikely to become an effective national 
political force.
    Given their background, a yet to emerge reformed Baath Party, would 
present a more natural home for the former insurgents. All efforts to 
reincarnate the Baath party, however, have failed so far. The new 
groups are either too close to the discredited party leadership or too 
close to the new regime to represent viable political alternatives to 
both.
    The Awakening movement is emblematic of a broader revival of local 
politics and economics. In most areas benefiting from the decline in 
violence, localized economic activity and reconstruction efforts are 
underpinned logistically and financially by the MNFI. The Government 
which still lacks the tools to carry out investments is providing the 
financial resources in some cases. Provincial Reconstruction Teams are 
beginning to find their footing after a rocky start.
    However, without a legitimate national framework which ties these 
localized efforts together, coordinates among them and supplies them 
with resources, they are unsustainable.
    The past year also witnessed the resurgence of mid-level elites 
from the previous regime. The New Iraqi Army is the best example. 
Officers from the dissolved army account for 70 percent of the new 
officer corps, including many high ranking officers who had to receive 
a special exemption from the de-Baathification laws. About 77 percent 
of the 117 battalions of the New Iraqi Army are assessed by their U.S. 
trainers to be capable of planning, executing, and sustaining 
operations independently (Section 1227 Report). MNFI claims that up to 
20 percent of current counterinsurgency operations are Iraqi Army led. 
The recent operation in Basra (March 2008) against the Sadrists 
demonstrated some of this progress. The army enjoys more credibility 
and trust among the public. These facts do not only indicate that the 
Army is one of the better functioning institutions in the Iraq state 
today but that it is also likely to become a political player sometime 
in the future.
            4.2  Bureaucratic awakening
    The most remarkable ``awakening'' taking place in Iraq today is 
that of the bureaucracy. A resurgent bureaucracy is seeking to 
coordinate localized improvements and fill the gap between the vibrant 
local and dormant national levels of government.
    Benefiting in part from the reduction in violence and the 
relaxation of de-Baathification, this awakening is also an act of 
defiance by the once efficient machinery of government against 
political gridlock and incompetence at the top.
    The collapse of the regime, destruction of most files and data 
banks, and the decimation of the middle levels of the bureaucracy under 
the impact of de-Baathification, emigration, attrition, and cronyism, 
all but eliminated the Iraqi Government's ability to translate 
political programs, declarations, and intentions into concrete policies 
and actions. This is best demonstrated in the repeated failure to 
implement the investment budget.
    The paralysis in the Green Zone, where most ministers work and 
reside, is allowing technocrats of lower levels to reclaim control of 
the system. One of the main areas of progress is that of policy 
implementation and follow-up.
            4.2.1  Policy planning and implementation
    This problem with policy planning and implementation has deep 
historical roots which were only exacerbated by the invasion and its 
aftermath. In the 1960s and 1970s Iraq built its own version of the 
socialist central planning system. Each line ministry represented a 
vertical ``stove pipe,'' living and operating in near perfect isolation 
from other ministries. Bureaucrats' only lines of communications were 
through their respective ministry's chain of command.
    Coordination and planning of ``routine'' investments was carried 
out by the Ministry of Planning (MoPDC today) which concentrated in its 
hands most policymaking, data processing and analytical tools. Major 
projects requiring cross-departmental coordination, such as the post-
1991 war reconstruction, were left to the Revolutionary Command Council 
(RCC). The RCC was the only institution with oversight of the entire 
system including the secret budget.
    This inefficient--if functional--system, suited best to the needs 
of war economy, gradually corroded over the eighties and nineties until 
it was dealt a mortal blow with the invasion of 2003. First, it was 
decapitated by the removal of the RCC. Then, it was dismembered by the 
introduction of political and ethnic quotas in the allocation of 
ministerial portfolios. The quota system further deepened the isolation 
of the ministries from each other, turning each of them into its own 
separate fiefdom, belonging to one or the other party. Not even the 
Prime Minister let alone the Minister of Planning could ``instruct'' a 
new minister to follow a certain policy, particularly if it requires 
sharing of power and resources with other ministries. This situation is 
further complicated by the greater powers given to the Governorates and 
regions without a clear coordinating role at the centre.
    The dual fuel and electricity shortage is a demonstration of this 
breakdown. The ministries of oil and electricity (MoO and MoE) have a 
history of animosity and were only capable of working with each other 
under RCC duress. Today their lack of cooperation is credited, to some 
extent, with the persistent shortage of both fuel and power. The MoE 
refuses to tailor its plans for power generation expansion to coincide 
with the existing gas and fuel supply network. Instead, the Minister is 
seeking authority to produce his own natural gas. MoE is also refusing 
to dedicate the necessary power to support existing or future 
refineries. Likewise, the MoO is focused on increasing exports and 
production of refined products for consumption and refuses to take MoE 
needs into account in its investment plans. It will never voluntarily 
cede the prerogative of producing and transporting natural gas to 
another ministry. To make matters worse, whatever energy and fuel are 
produced (or imported) are prevented from being efficiently shared by 
competing regions and Governorates. Refusal by the Governorates to 
share power is often credited with unnecessary outages affecting all 
users. Border regions and Governorates often commandeer fuel shipments 
transiting their territory.
    Neither the line Ministries nor the Ministry of Finance (MoF) 
inherited policy planning and coordination capabilities from the 
previous regime. Economic and planning functions at the line Ministries 
were, in reality, accounting and engineering functions. Ministries 
received detailed instruction from MoPDC which they duly carried out. 
The MoF was the Government's cashier, releasing funds and ensuring 
proper accounting but had no analytical or policy planning 
capabilities.
    Within this context, it is no wonder that the budget, now mostly 
controlled by the MoF, is closer to a cash distribution formula than to 
a monetary embodiment of a coherent economic policy. The National 
Development Strategy, meant to serve as the basis for the investment 
budget is compiled with diminishing rigour by MoPDC and is only taken 
seriously by foreign donors, if at all. The power to approve donor 
financing (through the Iraq Strategic Review Board (ISRB)) is one of 
few residual competencies of MoPDC. Its role has thus been reduced to 
``donor coordination,'' a function it is less and less capable of 
carrying out due to its declining domestic policy coordination role.
    Ministries used only to carrying out clearly detailed instructions 
are simply not equipped to budget and spend multibillion investment 
allocations. Without proper costing, commercial or even technical 
justification, the projects underpinning allocations, for example, to 
MoE and MoO over the past 3 years, were simply declarations by the 
government of its intent to alleviate fuel and electricity shortages. 
The situation is even more challenging at the Governorate level, which 
never had any spending let alone policy planning functions. The 
doubling of their investment budgets is driven primarily by politics as 
explained elsewhere in this paper.
    Faced with an extremely low level of investment budget execution, 
estimated at 22 percent in 2006, the past year saw concerted efforts by 
various actors to address this problem.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: SIGIR, January 2008.

    Spearheaded by a number of mid- and high-level technocrats, efforts 
are under way to improve budget execution at various institutions, 
including the Council of Ministers Secretariat (CoMSec), the National 
Security Council (NSC), the Prime Minister's Advisory Council (PMAC), 
Supreme Economic Council (SEC), Parliament and the provinces.
    In all these cases, efforts are aimed at building cross-
departmental, multidisciplinary and in some cases interregional policy 
planning, coordination, and review functions, either at the national 
program level or around concrete reform and investment projects. 
Typically, these efforts involve Director General level officials from 
all the relevant ministries and entities. They are usually authorized 
to draw necessary resources from the private sector and civil society 
as well as international donors. Sometimes, they are also authorized to 
circumvent or expedite spending procedures and decision.
    The Supreme Economic Council (SEC) and the National Security 
Council (NSC) have worked on the International Compact with Iraq (ICI) 
and the National Security Strategy, both examples of medium-term 
planning at the national program level. Both have established 
interministerial policy entities. The Policy Planning Unit (PPU) at the 
SEC is meant to coordinate, monitor, and review of policies enshrined 
in the International Compact with Iraq. The PPU is also meant to 
provide a single point of contact to International Development Partners 
thus streamlining coordination of donor assistance. The Joint Planning 
Centre at the NSC is focused on policy planning and analysis but has no 
monitoring or review functions. Both entities are comprised of Director 
General level officials from all ministries and government agencies 
concerned, divided into thematic working groups to address particular 
issues or projects; e.g., Energy, Human Development, etc.
    The Prime Minister's Advisory Council (PMAC) is working in the same 
vein at the level of discreet projects such as the US$500 million water 
and agricultural development project. The project involves cross-
departmental and interdisciplinary cooperation from the design stage 
through to implementation and monitoring. They are also working on 
resolving problems of coordination between the Ministries of Oil and 
Electricity.
    The PMAC is also cleaning up the legislation from dozens of 
Revolutionary Command Council Orders and other Saddam era laws. 
Interdisciplinary teams are preparing documentation and legislation 
which is then used by Parliament to sunset some of these orders and 
laws.
    Other examples of relatively successful project level coordination 
include the rollout of the Social Safety Net, spearheaded by the 
Ministry of Labour and Social Affairs and involving a number of 
ministries and departments.
    The Public Expenditure and Institutions Assessment (PEIA) completed 
recently by World Bank depicts another example of cross departmental 
cooperation, aimed at improving efficiency of public finances. These 
efforts are spearheaded by MOF and involve the Central Bank, Trade 
Bank, Ministry of Planning (MoPDC) and the Supreme Board of Audit. The 
PEIA draft indicates that Iraq's public finances are not far below the 
average for the region.
    In a related effort, the MoPDC has been assisting the Governorates 
in the development of Provincial Development Strategies to provide a 
rationale for the ever growing provincial investment budget 
allocations.
    The Council of Ministers Secretariat (CoMSec) is playing a similar 
cross-departmental coordination role, focusing on the seemingly trivial 
but critical issue of follow-up of decisions adopted by the Council of 
Ministers.
    It is too early to assess the effectiveness of all these efforts. 
The Government claims that investment budget execution more than 
doubled in 2007 to reach 40 percent (preliminary figures by the U.S. 
Department of the Treasury indicate a much lower success rate with 
execution standing at 10 percent by September 2007, SIGIR).
    So far these structures have been more efficient in the areas of 
reporting and analysis and less so in the areas of coordination and 
review. These are, however, relatively new functions for the officials 
involved and it should be expected that they will take time to evolve.
    The development of Iraqi policy planning and coordination functions 
and improvement in budget execution is already changing the dynamic of 
the relationship with foreign donors. There is a growing impatience 
among Iraqi officials with the donors', hitherto, central role in 
reconstruction effort. The disconnect is exacerbated by the donors' 
lack of awareness of many initiatives and their continued dependence on 
mechanisms built around the Ministry of Planning. High turnover and 
declining quality of personnel of donor personnel often means that 
Iraqi officials see little value from the interaction with them.
    The bureaucratic awakening offers unmistakeable signs of a 
machinery of government adjusting to a new reality as it springs back 
into action. Directors General and experts working in interdepartmental 
and interdisciplinary teams outside their ministerial hierarchies are 
taking a leap of faith in their quest to bypass old and new political 
and procedural bottlenecks. The success of their efforts will depend on 
the authority and resources made available to them which in turn 
determines the ability of these teams to make a difference.
    As these efforts proliferate, the need will increase for 
coordination among them in order to avoid overlap and maintain the 
integrity of the budget process.
    The main challenge to such efforts remains the lack of clarity in 
the allocation of powers and resources across government and between 
the centre and the regions. As the declining fortunes of the Ministry 
of Planning reveal, policy planning bodies are only worth as much as 
the enforceability of their policies.
    Like the security achievements of the military surge, the 
bureaucratic awakening is fragile and fleeting. After decades of abuse 
and years of chaos this may well be the last chance to fix Iraq's 
machinery of government. Without clear political direction and the 
resolution of underlying political differences this surge will 
ultimately run its course.
5  Defunct Political Process
    The surge was meant to create the enabling environment for 
political dialog and compromise, which in turn would provide the 
foundation for lasting peace. Yet, the political process seems to be 
heading in the opposite direction with the deepening of political 
fissures and the emergence of new cross-cutting faultlines.
    Having all but abandoned the notion of a ``national unity 
government,'' there is a deepening schism between government and 
opposition, both within and outside Parliament.
    The ruling parties are acting more assertively, seeking to 
capitalize on the improved security environment and consolidate their 
control of government. Parties engaged in the political process in and 
outside government have a growing sense of unease about new and 
emerging actors and are seeking to establish facts on the ground to 
consolidate their ``first mover advantage.'' All Iraqi actors are 
growing in experience and confidence and are less susceptible to 
external influence.
    These developments are reducing the scope for compromise even when 
the improved security environment is opening new opportunities for 
dialog. Yet, compromise is needed on fundamental issues related to the 
future of Iraq including: (1) The degree of decentralization; (2) the 
relative roles of the state and the private sector; (3) the role of 
religion and the religious establishment; (4) the mechanisms of 
transitional justice; and (5) relationship with the surrounding region 
and the wider world.
    Both insiders and outsiders share a high degree of distrust in the 
political process as a platform for the negotiation and resolution of 
these issues.
    The political process, launched with the formation of the Governing 
Council in July 2003, on the basis of a sectarian and ethnic allocation 
formula (Muhasasa) remains hostage to that principle despite the 
succession of elections which have taken place since. With deep 
mistrust and a historical ``tradition'' of winner-takes-all, ethnic and 
sectarian quotas have emerged as the main framework for power and 
resource sharing.
    This framework, however, is more often a cause for gridlock than 
consensus, especially when the issues in question cut across ethnic and 
sectarian lines. Thus, Iraqi political leaders remain deadlocked on 
almost every issue, even when dialog, within the framework of nascent 
democratic institutions, seems to point to compromise.
    Most opposition ministers left the National Unity Government of 
Nouri al-Maliki in the spring and summer of 2007 protesting the failure 
of the ruling parties to share power. Attempts at reconstituting the 
government along ``professional'' lines have faltered against the 
sectarian allocation principles at the heart of the process. In the 
interim the Iraqi Government is run literally by a handful of 
politicians who have all but monopolized decisionmaking over the past 5 
years.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Simplified illustration of tension between position of power and 
public support for the various groups and the cross-cutting divisions 
and alignments on slected issues.

    It is misleading to interpret the passage of key legislation, such 
as the Amnesty Law as a sign of compromise. Rather than addressing the 
key political questions the passed laws either paper over them or 
reflect the position of the ruling parties.
    This is not to say that compromise is impossible but that the 
search is hampered by the mechanisms and personalities which dominated 
the political process over the past 5 years.
    The recent passage of the budget, amnesty, and provincial powers 
laws is a case in point. The three laws were passed as a package. Some, 
including Sheikh Khalid al-Atiya, the respected First Deputy Speaker of 
Parliament, say that this was done in violation of the Constitution and 
Council of Representatives Procedures. The laws had to be passed in a 
package not because all those who voted agreed with each law, but 
because each of those who voted only agreed with one of the three laws 
(or even just parts thereof).
    The most discussed issue on the budget was not how accurately it 
reflected agreed-upon policies and priorities but rather the amount 
allocated to Kurdistan. At the end, an important component of this 
issue, the allocation to the Kurdish Peshmarga (regional guards), was 
left to the Prime Minister to decide in consultation with the Kurdistan 
Regional Government.
    There was little discussion about the relevance of an Amnesty Law 
which excludes most charges related to the insurgency (e.g., terrorism, 
murder). The Kurdistan Regional Government who's members of Parliament 
voted for the law has declared that it is not applicable to the region. 
The Sadrists supported the Governorates' Powers Law, only because it 
opened the way for provincial elections, which they hope to win.
    The laws were passed despite a boycott by all opposition Members of 
Parliament except the Sadrists with the Speaker casting the tie-
breaking vote. The Presidency Council then vetoed the Governorates' 
Powers Law. This amounted to a breach of trust for the Sadrists who 
made the passage of the whole package possible by breaking rank with 
other opposition groups in the hope of getting the regional elections 
expedited. Later the Presidency was forced to rescind its veto.
    The ruling parties continue to pursue decentralization as a way of 
preempting challenges by existing and new opposition groups, 
establishing hard to reverse facts on the ground in the process.
    The law on the Formation of Regions which comes into effect 
shortly--May 2008--will make it easy and irreversible to form a Federal 
Region. If new regions adopt a similar attitude to federalism as the 
Kurds the state could be hollowed out.
    Investment allocations to the Governorates have been doubled again 
in the 2008 budget and the largely unspent 2007 allocations rolled 
over. More than 30 percent of the budget is now allocated directly to 
the regions and Governorates, a process, that will be hard to reverse 
and that could leave the central government without sufficient 
resources to carry out its obligations. These measures have been taken 
in the face of vehement opposition by nationalist opposition parties 
both within and outside the political process.
            5.1  Hydrocarbon legislation
    Nowhere is the gridlock caused by the sectarian political process 
more evident than in the hydrocarbon law discussion. The discussion 
encompasses many of the fundamental issues determining the shape of the 
future Iraqi state, from the sharing of power and resources between the 
center and the regions to the role of the private sector and the 
protection of minorities.
    The discussion is closely correlated with the issue of ``disputed 
territories,'' relations with neighbors and the wider world. Oil has a 
symbiotic relation with the modern Iraqi state. It played a determining 
role in Iraqi economy, politics, and shaped the relationship between 
state and society. Petroleum nationalization carried out piecemeal in 
the 1960s and 1970s of the last century is, for many, an integral part 
of Iraqi national identity.
    The negotiations held, formally, between teams representing the 
Ministry of Oil (MoO) and the Kurdistan Regional Government (KRG) over 
almost 2 years have become a proxy to competing conceptions of Iraq's 
past and future.
    The MoO sought to establish continuity with the national industry 
model, giving the state a pivotal role in regulating and managing the 
sector through the Ministry and the Iraq National Oil Company (INOC). 
It sought to improve efficiency and prevent abuse by augmenting the 
system with market and public accountability mechanisms including 
transparency and power-sharing with the regions. In particular the MoO 
sought to break with the excessive centralization of the industry by 
reconstituting INOC, abolished by Saddam in 1987, as an operationally 
and commercially independent enterprise.
    The Kurdistan Regional Government had radically different vision. 
It sought to abolish the existing system altogether, blaming it, not 
only for inefficiency and abuse but also, for the tragedies that befell 
the Kurds at the hands of successive, oil-financed, regimes. What 
little role they envisaged the state as playing, in the areas of policy 
and regulation, was largely delegated to the regions. Decentralization 
and liberalization were promoted, not only as means to harness market 
forces for the rapid development of the sector but also, to prevent 
corruption and abuse.
    Despite the gulf that separates those two positions, the parties 
came close to a compromise which combined a high degree of 
decentralization and liberalization with effective policymaking, 
coordination, and regulation at the national level.
    Emphasizing the constitutional principle of undivided public 
ownership of oil, the compromise involved a tradeoff, constraining 
regional powers with national coordination. A separate law establishing 
a transparent mechanism for revenue-sharing was meant to assure the 
Kurds and other regions of their fair share of revenues, while allowing 
for the maximization of revenues through a more coherent management 
structure.
    Most of the public discussions on the hydrocarbon legislation, 
especially outside Iraq, focused on the role of private sector and the 
possible use of Production Sharing Agreements as the basis for model 
contracts. This misses the main point of the negotiations--the 
distribution of powers between the Federal center and the region.
    The compromises encoded in the draft adopted by the Council of 
Ministers in February 2007 were fragile and vague. The law included 
many contradictory provisions and papered over unresolved differences. 
At the end it collapsed under the impact of a series of events 
including:

          (1) A review by the Experts (Shura) Committee of Parliament 
        which spelled out the compromise in a clear language and 
        deleted the reference to ethnic quotas in the formation of the 
        Federal Oil and Gas Council--the highest national policymaking 
        body;
          (2) The introduction of an annex by the Ministry of Oil 
        allocating all producing fields to INOC;
          (3) The introduction of a draft revenue-sharing (Financial 
        Resources) law which gave the Ministry of Finance nominal 
        control over the oil account;
          (4) A parallel development, which was not directly related to 
        the hydrocarbon law discussion but, undoubtedly, affected the 
        political context was the lack of progress and eventual lapsing 
        of article 140 of the Constitution pertaining to the 
        ``normalization'' of the situation of Kirkuk and the ``disputed 
        territories'' (see below);
          None of the above developments alone represents a clear break 
        with achieved agreements and compromises but together they seem 
        to have intensified the Kurd's mistrust in the intentions of 
        the national government.
          (5) The Kurds then adopted their own Oil and Gas Act; and
          (6) Signed 15 contracts with independent international oil 
        companies including 12 in a period of 1 month. Some contracts 
        were signed for blocks on ``disputed territories,'' outside the 
        current boundaries of the Kurdistan Region. One contract, given 
        to the Kurdistan Region's own oil company, was for a currently 
        producing field, already under development by the Federal 
        Ministry of Oil.

    The right to negotiate and sign contracts, pending review by the 
Federal Oil and Gas Council is contained in the draft oil legislation. 
The contracts, however, violate the spirit of the negotiations and also 
possibly the letter of the pending law since they were awarded through 
a process that was neither competitive nor transparent and in the 
absence of an agreed national sector development strategy. Although the 
KRG claims that the contracts comply with the region's own law and 
their own interpretation of the constitution, they are clearly in 
violation of currently prevailing Iraqi laws, having entirely bypassed 
the national government.
    Since then (November 2007) no serious efforts have taken place to 
resume negotiations. Each side seems determined to proceed according to 
their own script, establishing facts on the ground in the process. The 
Ministry of Oil has declared the Kurdish contracts null and void and is 
``blacklisting'' companies who signed them (including OMV of Austria 
and the Korean National Oil Company). It is proceeding with its own 
negotiations with five oil majors (including Exxon, Shell, BP, Total, 
and Chevron) for 2-year Technical Service Contracts on currently 
producing fields. This could boost output by up to 0.5 million bpd. In 
February 2008 the MoO completed a short-list of companies for a bidding 
round which could be held as early as mid-2008 for longer term 
exploration and development contracts. The outline of the model 
contracts is still a work in progress. It is expected to be a risk-
sharing though not a production-sharing contract since the latter has 
been all but vetoed by public backlash. The KRG are negotiating further 
contracts.
    The story of the hydrocarbon law demonstrates many of the 
shortcomings of the emerging political system. A small circle of 
unelected officials debated a law that touches upon many of the key 
issues affecting the future of Iraq. Any compromises forged by the 
technical teams were upturned by the ``political leaders.'' A similar 
dynamic affected the proceedings of the Constitutional Review 
Committee, which managed to agree on substantive changes to the 
constitution, addressing some of its greatest shortcomings, only to be 
buried by the very same ``leaders.''
    The Kurdish position on the degree of decentralization reveals the 
depth of their mistrust of the new political system and the checks and 
balances it is supposed to have placed on the power of the Federal 
Government. The Kurds explicitly state that government control over the 
oil industry or over the oil account is unacceptable to them. They are 
even reluctant to allow the national Parliament to ``open'' the agreed 
law or review contracts. They are pushing for a greater role for the 
private sector to provide an insurance against leaving large parts of 
the industry in the hands of government (or government-owned entities), 
which they do not trust.
    The difficulty in passing the hydrocarbon law and the tenacity with 
which the Minister of Oil, Dr. Hussain al-Shahristani, is pursuing his 
state-centric position is also indicative of the changing political 
environment.
    Al-Shahristani, an independent member of the United Iraqi Alliance, 
is at odds with many of his colleagues in Government. He is relying 
instead on support in Parliament, the Shia religious establishment and 
the broader public. He is openly challenging some of the more radical 
interpretations of federalism as depicted in the constitutions and is 
seeking to assert a greater role for the state in economic life than 
was envisioned in the early days of the new regime. He is not shying 
away from open conflict with the Kurds, who have been an indispensable 
powerbroker for most of the past 5 years.
    The Ministry benefited from the ongoing campaign by Iraqi oil 
experts seeking to rationalize the draft law and strengthen the 
governments capacity to coordinate and regulate the sector. The 
campaign has the added credibility of including the main drafters of 
the first version of the law in addition to the most senior Iraqi oil 
experts.
    The Iraqi oil experts' championing for a greater state role is 
another indication of the backlash against what is widely seen as 
excessive decentralization, liberalization, and general weakening of 
the state since the invasion. This backlash cuts across political 
parties and ethnic groups, perhaps with the exception of the Kurds. 
This is feeding into tensions between them and the rest.
    Persistent U.S. pressure to pass the hydrocarbon law has failed to 
compel the parties to compromise, revealing the limits of U.S. 
influence in Iraq today.
            5.2  Potential Conflict over Kirkuk
    The Special Representative of the U.N. Secretary General to Iraq, 
Stefan De Mistura recently called Kirkuk a ``ticking bomb.'' This 
uncharacteristically blunt assessment is a reflection of the gravity of 
the simmering tensions around the future of Kirkuk and more generally 
the potential for conflict on all issues related to the boundaries of 
self determination for Iraq's Kurds.
    For most of the past 5 years the two Kurdish parties enjoyed a 
privileged position on the Iraqi political scene. They were better 
organized and resourced than most other parties. They had more 
government experience from managing the Kurdistan Region since 1991. As 
opposed to most Arab parties, they had a real constituency providing 
them with a strategic depth and a sense of accountability.
    Despite fighting a bloody conflict for most of the 1990s, the two 
Kurdish parties have maintained a more or less united position on most 
issues, both inside the region and in Iraq. They also enjoyed good 
relationship with the U.S., which had to rely on their support 
especially after Turkey refused to allow the use of its territory for 
the invasion in 2003.
    Their armed forces, the Peshmarga, are by far the best equipped and 
most disciplined of all military formation operating in Iraq to this 
date, so much so that they provide close protection to most senior 
Iraqi officials. Kurds also hold key positions within the army and form 
the core of key military units.
    This has allowed the Kurdish parties, despite their minority status 
to play the role of the powerbroker, shaping many of the policies of 
the past 5 years.
    The approach of the two Kurdish parties despite the differences 
between them (described above) is twofold. On the one hand, they are 
working to expand the boundaries of Kurdish self-determination, 
politically, economically and geographically, stopping just shy of 
outright independence. On the other, they are seeking to maintain 
sufficient influence over the rest of Iraq, to ensure that it does not 
become a threat to the Kurdish people again. This approach is born out 
of bitter historical experience as well as the political reality which 
makes an independent Kurdistan impossible, at the moment.
    For most of the past 5 years, the two Kurdish parties succeeded in 
convincing their key political partners in government that a relatively 
weak central state formed out of semi-independent regions is a win-win 
solution for everyone. Former exile parties, which associated the Iraqi 
state with tyranny, shared this view, at least in theory. This vision 
was reflected in the political mechanisms developed since the invasion, 
which placed a heavy emphasis on ethnic and sectarian quotas and gave 
party leaders more power than government officials. It is also 
reflected in the Constitution, which vests significant powers in the 
regions at the expense of the Federal Government.
    The Kurdish parties' main ally in this pursuit was the Islamic 
Supreme Council, and by extension the United Iraqi Alliance (the 
largest coalition of Shia parties). This partnership is showing signs 
of strain on both practical and political grounds. As Parliament and 
government proceed to interpret and implement the Constitution, it is 
becoming clear the Kurdish parties had greater degree of 
decentralization in mind than everyone else. Federal officials, 
attending to the day-to-day business of government, are often 
confronted with the difficulty of managing a state with such a high 
degree of decentralization. The oil law and budget discussions 
described above are cases in point. The Governorates' Powers Law, 
adopted without much Kurdish input, since it does not apply to them, 
rolls back many of the decentralizing provision of the Constitution. It 
garnered heterogeneous support in Parliament across sectarian lines 
demonstrating the emerging tilt toward consolidating state power.
    Politically, the United Iraqi Alliance, including the Islamic 
Supreme Council (ISC) is less committed to the cause of strengthening 
the regions than their Kurdish allies, particularly since they have 
much less confidence in their ability to dominate them. Many UIA 
officials have invested in--and aspire to keep--national political 
office and would like to see more power and resources at the center.
    Although nominally only in control of the three Kurdish 
Governorates (Erbil, Duhok, and Suleimania) the Kurdistan Regional 
Government has been effectively in control over a larger area which 
includes swaths of four other Governorates (Diyala, Salah al-Din, At-
Ta'mim, and Ninava). They have been dominating the security structures 
and Governorate councils in most of these provinces. Kurdish control 
over these territories is overt and was part of the justification for 
their claim of 17 percent of the budget instead of the 13 percent 
understood to be the share of the Iraqi population living in the three 
KRG provinces.
    Perhaps the main case where the win-win narrative falters is Kirkuk 
and the other ``disputed territories'' in Ninava, Salah al-Din, and 
Diyala, where Kurdish gains are increasingly seen as a loss by all the 
other actors and vise versa. Disagreement on this issue, though barely 
articulated, is fueling all other disputes. It is increasingly becoming 
a harbinger of violent conflict.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Approximate map of the disputed territories--between the red and 
green lines, source: geology.com.

    Many Kurds deported forcibly from Kirkuk under Saddam's policy of 
Arabisation have been allowed to return. There is little evidence of 
forcible removal of non-Kurdish residents from the disputed areas but 
the Kurds do not hide their desire to see a transfer of those who were 
brought in by Saddam back to where they came from.
    Article 140 of the constitution was essentially meant to formalize 
Kurdish control over the ``disputed territories,'' first through a 
process of ``normalization''--population transfer and compensation--and 
then through referenda to determine which parts of the disputed 
Governorates will be included in the Kurdistan Region.
    Without officially reneging on the agreed upon formula, the 
government allowed article 140 to lapse at the end of 2007, largely 
through inaction. The status of the article is unclear, though most 
including the Kurdish parties are working under the assumption that it 
has been extended for 6 months.
    The issue is so explosive and the differences among erstwhile 
allies so deep that there has not been a real discussion on it since 
the drafting of the Transitional Administrative Law (TAL) under Paul 
Bremer in 2004. Article 140 of the constitution is almost a verbatim 
copy of article 58 in the TAL.
    Arab-Kurdish confrontations over other less explosive issues have 
been more overt, acting as both proxies for Kirkuk and being 
exacerbated by it. There were several occasions over the past 18 months 
where Iraq's fractious Arab political class, including Shia and Sunni 
parties in government and opposition united against the Kurdish 
parties. The issues ranged from the relatively harmless ban on the 
Iraqi flag, imposed by the Kurdistan Regional Government in September 
2006, to the dispute over the allocation to the Kurdistan Regional 
Government in the 2008 budget and the oil contracts. Almost all parties 
objected to the allocation of 17 percent to the KRG although the same 
percentage was awarded to the region in the previous two budgets. The 
subdued reaction by most Arab politicians to the Turkish incursion in 
pursuit of the PKK is the clearest indication yet of the rising 
tension.
    Together these tensions are creating a new schism which is 
contributing to government paralysis and threatening Iraq's territorial 
integrity. If neglected they may very well escalate into a new 
conflict.
6  Scenarios
            6.1  Putin without Putin
    The first scenario involves a continued rolling back of some of the 
excesses of the past 5 years in every respect--religious extremism, 
reformist zeal, state failure. This process would be coupled with a 
change in the political leadership. New power structures would be drawn 
from the former regimes' institutional but not party elites--Concerned 
Local Citizens commanders, military and security services personnel, 
mid-level technocrats.
    This is similar to the emergence of Putin in Russia at the end of 
the chaotic Yeltsin era, which brought some of the KGB and other Soviet 
era structures back to power but not the Communist Party. This dynamic 
would be fed by a similar public yearning for order after a prolonged 
period of chaos and uncertainty.
    This option will necessarily involve the scaling back of some of 
the achievements of the past 5 years along with the excesses but is 
likely to be the least destabilizing in the medium term.
    The largest Shia group, the Sadrists, could accept this development 
as long as no prominent Baathists are involved in the ``restoration.'' 
The other dominant political groups, including the Kurdish parties and 
other former exiles, are less likely to accept it.
    The holding of elections on schedule and according to new 
legislation could facilitate a less violent transition. The nature of 
the political structure that would emerge to lead these constituencies 
and their relation to the Baath Party will determine the degree of 
resistance (and violence) engendered by this scenario.
    The Kurdish leadership will be the hardest to reconcile with the 
resurgence of the state under structures associated with the former 
regime. This may further intensify tensions around Iraqi Kurdistan. 
Indeed the greatest threat associated with this scenario is a violent 
conflict a la Chechnya. ``Standing up'' to the Kurds may become a 
rallying cry for Iraqi Arab nationalists and the battleground on which 
they demonstrate their credentials just like Putin used Chechnya to 
consolidate his grip on power.
            6.2  Indefinite surge
    Another scenario would see prolonged, substantial U.S. presence to 
protect the current political leaders, allowing them to hold on to 
power and resist change. Elections may be postponed or subverted. The 
ruling parties would continue to dominate government, ignoring and at 
increasingly suppressing descent while maintaining the appearance of a 
political process. The recent operation in Basra, could be a harbinger 
of this scenario.
    The main avenue for the current leaders to diffuse challenges by 
emerging actors is to accelerate the decentralization of government and 
liberalization of the oil sector--in essence removing the target for 
any power claims. Substantial moves have been undertaken in this 
direction, such as the law on the formation of the regions, the 
accelerated increase in provincial budgetary allocations and the 
Kurdistan oil contracts.
    This scenario will maintain the motivation for parts of the 
insurgency, especially as they see U.S. forces propping up a regime 
they do not accept. It could be less violent than before since parts of 
the insurgency would be co-opted in the process and the momentum from 
the 2006 civil-war would have been broken.
    Without a legitimate and viable central state, the resurgent 
bureaucracy would likely give up. It will be a race against time 
whether an entirely new machinery of government, emerges at both 
national and regional level before total state collapse.
    The constrained legitimacy of the emerging regime would continue to 
pose a threat to Iraq's territorial integrity. Encroachments on Iraqi 
territory by Turkey and Iran already reveal how vulnerable the Iraqi 
state has become.
    This scenario will require a ``permanent surge''--an extensive and 
prolonged MNFI commitment to protect unpopular leaders from domestic 
challenges, prevent conflicts between regions and protect an 
increasingly fragile Iraq from external threats.
    While the most peaceful in the short term, as long as significant 
U.S. presence is maintained, this scenario is likely to be volatile and 
fragile in the medium and long term.
            6.3  Somalia
    The worst case scenario would see the ``surges,'' both military and 
bureaucratic, run their course without achieving their objectives.
    Neither the current leaders nor the opposition groups challenging 
them emerge as clear winners. Al-Qaeda is revived as unresolved 
political, sectarian, and ethnic conflicts are reignited. Violence 
creeps back up completing the collapse of the machinery of government 
and the exodus of the technocrats and middle classes. Recent up-tick in 
violence may be an ominous sign of movement in this direction.
    The U.S. is eventually forced to withdraw or return to the presurge 
mode of operation, leaving a Somalia-like vacuum behind. Iraq's 
neighbors would feel compelled to intervene preemptively to prevent 
violence from spilling over, carving out buffer zones and entire 
regions in the process.
    Eventually, the international community is forced to intervene to 
address a growing threat to international peace and security and a 
spiraling humanitarian catastrophe. The U.S. is again at the forefront 
as the only nation capable of leading such an intervention and as the 
party responsible for bringing Iraq to this state.
7  Conclusion and Recommendations
    None of these three scenarios would count as ``victory'' for the 
U.S., in the sense that none would leave behind a fully fledged 
democracy in Iraq. The second scenario is only possible if the U.S. is 
prepared to commit forces at the same level of the ``surge'' over a 
long period.
    The Somali scenario is not only dire for the Iraqi people but could 
have dangerous repercussions for the rest of the Middle East, the 
United States and indeed the world. This kind of stateless ``black 
hole'' breeds a kind of predatory political economy in which violence, 
sectarianism, and crime feed on each other and spread.
    That leaves the Putin scenario. Any U.S. or international strategy 
should focus on the best way to ensure that this scenario does not lead 
to a Chechnya-like conflict in Iraqi Kurdistan and to moderate likely 
authritarian trends.
    This will require action in four directions.
            7.1  A U.N. resolution for Kirkuk
    Diffusing the brewing crisis over Kirkuk and the disputed 
territories will require more than the Iraqi political class has to 
offer at the moment. The United Nations efforts need to be bolstered by 
a separate UNSCR under chapter VII. The resolution should not be 
limited to the disputed geographic boundaries but to the whole package 
of issues related to extent of Iraqi Kurdistan's self-determination. 
This will allow for the mobilization of necessary international 
resources and attention on this set of issues, without neglecting 
Iraq's other needs.
    A UNSCR resolution under chapter VII is justified by the 
international nature of the problem, involving in addition to Iraq, 
Iran, Syria, and Turkey and by the real threat of contagion it 
represents.
    It should be possible to persuade the Kurdish leadership of the 
need of a separate U.N. mandate, both as the only realistic way for 
nonviolent progress on this issue, and as a way to legally 
internationalize their cause.
    The Iraqi Government should also be able to recognize the need for 
separate, dedicated international attention to the issue, as it is the 
weakest party in this conflict.
    Another benefit of a separate resolution on Kirkuk is that it 
offers a path for transition from previous Iraq resolutions. It would 
allow the rest of Iraq to emerge from the chapter VII framework while 
keeping the most acute issues under international responsibility.
            7.2  A transparent and accountable revenue-sharing 
                    mechanism
    Resolving the conflict over the oil legislation is a key to 
unlocking Iraq's development potential. It can help build trust among 
Iraqis and provide a blueprint for federalism in other areas. 
Addressing the issue of oil has a complementary relation to efforts 
aimed at diffusing tensions over Kirkuk. Iraq's oil, however, merits 
being addressed in its own right as the country's main source of 
income.
    One approach for breaking the deadlock on the oil issue would be 
the establishment of an efficient, transparent and accountable revenue-
sharing mechanism:

          (a) Iraq has just declared its commitment to the Extractive 
        Industries Transparency Initiative (EITI), the KRG commitment 
        to this framework is enshrined in the region's Petroleum Act. 
        EITI could serve as the foundation for building trust on the 
        revenues generated by the various parties and the way they are 
        managed.
          (b) The next step would be to renew the Development Fund for 
        Iraq's (DFI) arrangement to capture all of Iraq's oil revenues 
        with a fully empowered international oversight mechanism. The 
        DFI arrangement contained in UNSCR 1483 expires at the end of 
        2008. Iraq has expressed interest in renewal which could be 
        arranged with the help of International Financial Institutions.
          (c) Third is a revenue-sharing law, which establishes a 
        robust and transparent mechanism, that does not hollow out the 
        budgetary process. Such law would combine a formula mechanism 
        that assures the regions of their fair share without rendering 
        meaningless the budgetary process and robbing the Federal 
        Government of the ability to set economic policy vested in it 
        by the Constitution.

    These are realistic measures that are in reach of the parties 
involved, and would be much easier to achieve than current efforts to 
move on the entire hydrocarbon package simultaneously.
    Once a modicum of confidence on the management of revenues is 
established it may become easier to exchange concessions on the issue 
of sector management and the role of the private sector.
            7.3  Free, fair and timely elections
    Emerging forces including the Concerned Local Citizens, the bulk of 
the Sadrists observing the cease-fire and the awakening bureaucracy 
need to be introduced into the political process in a meaningful and 
nonviolent way.
    This necessitates the holding of local elections before the end of 
this year and national elections in 2009. The elections need to take 
place under new legislation that dispenses with the closed lists, which 
favor the political parties and their unaccountable bosses. Better 
assurances against abuse need to be put in place, including a more 
robust Electoral Commission, civil society, and international 
monitoring.
    The nature of the political structures which would eventually 
emerge to lead the new constituencies, their relationship to the Baath 
Party and to other centers of power will determine both how peaceful 
the transition, and how authoritarian the emerging regime will be. The 
experience of the surge provides valuable lessons in promoting 
moderation within all groups and isolating the extremists. The nuanced 
approach adopted by General Petraeus toward the insurgents and the 
Sadrists alike needs to be maintained and expanded.
            7.4  New legitimate multilateral framework
    The U.S. role in Iraq needs to transition into a more legitimate 
and multilateral framework.
    This is not only necessary to remove the stigma of the occupation 
from the U.S. forces and the new Iraq, but also offers a path toward 
disengagement. As a Prince Turki al-Faisal of Saudi Arabia once said, 
``the withdrawal should not be as illegitimate as the invasion.''
    This transition cannot be achieved through the Iraq-U.S. treaty 
being negotiated between two outgoing governments. A treaty of this 
nature, regardless of its merits, will inevitably lack the legitimacy 
it is meant to confer. It may even further discredit the current 
government, which few inside and outside Iraq believe capable of 
negotiating with the U.S. on equal footing.
    The UNSCR resolution on Kirkuk proposed above could form the best 
mechanism for transitioning U.S. role in Iraq from the status of 
occupying forces it acquired with the invasion. The mandate will 
authorize U.S. operation throughout Iraq in order to prevent a conflict 
over Kirkuk which has the potential of engulfing the entire region. 
Such a mandate would have more legitimacy and appeal to bring more 
international partners on board.
    The experience of Eastern Europe and the former Soviet Union does 
not only afford sobering insights into the limits of change in 
countries emerging from tyranny and the possibility of restoration of--
at least part of--the old power structures. It also offers hope that 
over time, old elites will gradually fade from the system, opening the 
way for new leaders who take their countries into the next stage of 
development. For this to take place, however, two conditions are 
essential: Peace and a functioning mechanism for the succession of 
power. These are the greatest challenges facing Iraq today.

    The Chairman. Thank you.

  STATEMENT OF DR. STEPHEN BIDDLE, SENIOR FELLOW, COUNCIL ON 
               FOREIGN RELATIONS, WASHINGTON, DC

    Dr. Biddle. Thank you. I'd like to start by highlighting 
the distinction that Senator Lugar drew a minute ago, between 
top-down and bottom-up approaches to trying to get something 
that looks like tolerable stability in Iraq.
    The top-down approach, emphasizing a national-level deal, 
in which the leaders in Baghdad of Iraq's Kurdish, Sunni, and 
Shiite communities come together, mutually compromise, agree on 
meeting each other's needs, and as a result, produce peace and 
stability in the country, has produced very, very slow 
progress. And I think is likely to continue to produce only 
slow progress in Iraq, because of a variety of structural 
constraints associated with the distribution of political power 
in the country and the way the government is wired together.
    Given this, I think the kind of slow, non-zero, but very 
slow progress we've seen in national dealmaking in Iraq, is 
unlikely to accelerate dramatically any time soon.
    By contrast, the bottom-up approach, focusing on local, 
bilateral, piecemeal negotiated cease-fire deals, in which 
particular former combatant factions and especially the United 
States and to some extent the Government of Iraq, reach 
negotiated agreements, in which the parties standdown and 
observe a variety of other conditions in exchange for, 
centrally, a promise that neither will attack the other, and 
secondarily, but importantly, a promise that the United States 
will pay the members $300 a person a month, has, I think, 
produced in a remarkably short period of time, a system of 
cease-fires that is largely responsible for the reduction in 
violence that we saw in 2007, which did not come because we had 
destroyed the enemy, it did not come because the enemy fled the 
country or because they gave up aspirations to attain their 
goals by force, and instead, agreed to participate in some sort 
of peaceful political process.
    I think centrally the reduction in violence can be 
attributed to the negotiation of the series of cease-fire deals 
between the former combatants. This decentralized, 
disaggregate, bottom-up approach, I think represents far the 
more promising of the two, in terms of avenues by which this 
country might eventually be stabilized.
    Now, this raises a whole host of important questions and 
issues. I'll speak briefly about two of them and we can come 
back to others in question and answer. The first is, this 
system of cease-fires, at the moment, is prevalent in western 
and central Iraq, but is notably absent in the three provinces 
between Baghdad and Kurdistan, Ninawa, Salah ad-Din, and 
Diyala. The first challenge we face is extending this system of 
negotiated standdowns from violence into the holdout areas in 
which the remnants of al-Qaeda in Iraq, and the remaining Sunni 
insurgent factions who have not stopped fighting are now 
concentrated.
    There are offensive operations now ongoing in those 
provinces, that are designed to produce this result. It's not 
knowable at the moment whether this will succeed or not. There 
is some chance that it will, there is no guarantee that it 
will.
    The second challenge, however, and one that's been at least 
as widely discussed, is whether or not the system of cease-
fires that we've got at the moment can hold. After all, the 
people who have agreed to these cease-fires, are in many cases, 
the same people who were killing us a year ago. They retain 
their weapons, they retain their organizations, they retain 
their leaders. In many cases they retain their former ambitions 
and goals. Given this, many people have expressed concern that 
these deals are transient and temporary, will soon collapse and 
these parties that retain their aspirations to eventually take 
over control of the country will pursue them once again by 
force after they find themselves in a more advantageous 
position after the passage of time. And indeed, that's 
possible. Cease-fire deals of this kind do sometimes collapse 
in renewed violence, but they don't always.
    Moreover, the situation is not unique to Iraq. Almost any 
time a civil war anywhere in the world is terminated by a 
negotiated deal, as opposed to the annihilation of the weaker 
side, the early stages of that negotiated deal almost always 
involve wary, distrustful, well-armed former combatants who 
retain their ability to go back to the war path if they choose, 
but who are choosing for the time being, voluntarily to 
standdown and not to pursue their objectives by violence. Any 
time a cease-fire--a civil war has ever been terminated by a 
negotiated agreement, it went through a phase not unlike the 
one we now face in Iraq.
    Many of these attempts to negotiate cease-fires fail, some 
however, succeed. And I would argue that there are at least two 
key requirements for a condition like that we observe in Iraq 
now, to proceed into stability as opposed to proceeding into 
renewed violence. The first is that it be in these cold, hard 
strategic self-interest of the parties themselves to observe a 
cease-fire, as opposed to pursuing their objectives by force. 
If it becomes in their unilateral self-interest to fight rather 
than to observe a cease-fire, they will do so.
    One of the several reasons why I think there's some reason 
to hope that the system of cease-fires we observe in Iraq today 
might be stable, is that since the middle of 2006, the 
underlying self-interested strategic landscape of Iraq has 
changed dramatically, as a result in large part of happy 
accidents, especially a series of mistakes by our Sunni--former 
Sunni and al-Qaeda enemies, especially the bombing of the 
Samara Mosque in February of 2006, and the subsequent Sunni 
defeat in the sectarian battle of Baghdad that followed the 
mosque bombing, which has dramatically changed Sunnis 
expectations for who would win an all-out war between Sunni and 
Shia in Iraq if the United States were to leave.
    Secondarily, the mistake made by our al-Qaeda in Iraq 
enemies, whose extraordinary brutality has alienated their 
coreligionists, in the form of more secular Sunni insurgent 
groups. These two conditions taken together, significantly 
change the Sunni community's interest in cease-fire, as opposed 
to fighting. We then followed with some astute policy 
decisions, largely by accident, but nonetheless astute, in the 
form of the surge, which provided the combat strength to 
exploit the information that realigned Sunnis were willing to 
provide on the location of al-Qaeda in Iraq, terrorist cells, 
bombmaking factories, safe houses, and other assets, and which 
then provided the wherewithal to protect the Sunnis who had 
realigned from the al-Qaeda and Iraq counterattack that 
unsurprisingly and inevitably followed from their realignment.
    These three developments, two mistakes by our enemies and 
the availability of protection from the United States, has 
substantially changed the self-interest of Iraq's Sunnis from 
warfare into cease-fire. The changing strategic calculus of 
Iraqi Sunnis, then changed the strategic calculus of Iraqi 
Shiites, and especially Muqtada
al-Sadr's Jayish al-Mahdi. In the interest of time I won't 
articulate and detail here, although it's done in my written 
statement. The particular strategic calculus that Shiite 
militias and especially Jayish al-Mahdi have followed, suffice 
to say for the time being, that Muqtada al-Sadr declared a 
cease-fire, not out of altruism, it's because he needed it, and 
because he found it in his unilateral self-interest to do so.
    So for the first time, I would argue, in Iraq today, the 
strategic landscape is such that the key parties have a self-
interested desire in cease-fire, as opposed to warfare.
    The second requirement for going from an unstable 
transition moment to the kind we see now, to something that 
looks like persistent stability in the midst of a civil war, is 
an outside party to act as a peacekeeping force, to police and 
stabilize the deals that have been reached. The locals don't 
trust each other with guns, that's the reason we've had a 
cease-fire in Iraq. For that reason, Iraqi military forces left 
to their own devices, whether they be subnational or whether 
they be the Iraqi Security Forces in the hands of the Maliki 
government, are not sufficient to produce stability in the 
country.
    Some third party, who may not be loved by anyone in Iraq, 
and in fact we're not, but who's at least not suspected by 
anyone in Iraq of harboring aims for genocidal violence against 
them if they were to get too much power in the country, needs 
to be present in order to reduce the incentives of all the 
players to respond to spoiler violence with an escalation in 
the intensity of the killings, and instead, be willing to wait 
it out, go slow, damp escalatory spirals, and wait to see if 
the outsider will instead take action.
    For the time being, and probably for several years, the 
only party who's capable of playing that role in Iraq is the 
United States. If we manage to extend the system of cease-
fires, our role in Iraq could change from that of war fighters 
in a raging counterinsurgency, to that of peacekeepers in a 
situation that looks more like Bosnia, and less like Vietnam. 
But some presence by an outside stabilizer is probably 
necessary for a long time, in order to prevent this system of 
not inherently stable cease-fires from returning to active 
violence.
    If we do this, the result is not going to be Eden on the 
Euphrates. A stabilized Iraq, along this model, would look a 
lot more like Bosnia or Kosovo, and a lot less like cold war 
Germany or Japan. This is not what the administration had in 
mind when it launched the invasion of Iraq, and it's a long, 
long way from an ideal prognosis, or an ideal set of 
prescriptions for that part of the world.
    But, I would argue, it offers at least the possibility--not 
a guarantee, but a reasonable possibility--that it could stop 
the violence, that it could save the lives of potentially tens 
of thousands of innocent Iraqis, who would otherwise die 
violent and brutal deaths in an escalation of violence if 
stability fails to obtain in Iraq, and I think it offers some 
chance of securing America's remaining vital national strategic 
interest in this conflict, which is that it not spread 
elsewhere in a part of the world that's terribly important to 
U.S. strategic interests, and become a regionwide war in the 
Mideast.
    Now again, that's a long way from something that we would 
have sought back in 2003, but I would argue, it's also a long 
way from the perfectly plausible worst-case scenario that we 
could obtain if the United States eventually leaves behind an 
unstable Iraq. Reasonable people can differ, given the costs 
and the risks of this program, but I would argue that it may, 
at least, offer the least bad of the various ways forward 
available to us in Iraq in 2008.
    [The prepared statement of Dr. Biddle follows:]

  Prepared Statement of Dr. Stephen Biddle, Senior Fellow for Defense 
          Policy, Council on Foreign Relations, Washington, DC

    What will happen to Iraq as the recent surge in U.S. troop strength 
subsides? Violence fell in late 2007; will this trend continue, or was 
this merely a temporary lull created by an unsustainable U.S. troop 
presence? The last week saw a major spike in fighting as the Maliki 
government launched an offensive against militia fighters in Basra; is 
this a harbinger of future violence? And what do the answers imply for 
the U.S. posture in Iraq? Should we extend the ongoing troop 
reductions? Or should these be slowed or even reversed?
    In fact the violence reduction was more than just a temporary lull. 
It reflected a systematic shift in the underlying strategic landscape 
of Iraq, and could offer the basis for sustainable stability if we 
respond appropriately.
    But this will not yield Eden on the Euphrates. A stabilized Iraq is 
likely to look more like Bosnia or Kosovo than Germany or Japan. And 
like Bosnia and Kosovo, a substantial outside presence will be needed 
for many years to keep such a peace. If U.S. withdrawals leave us 
unable to provide the needed outside presence, the result could be a 
rapid return to 2006-scale violence or worse. Nor can we afford to hold 
out for a less Balkanized Iraq that could control its own territory 
without us in the near term: Pushing too hard too soon for the ideal of 
a strong, internally unified Iraqi state can easily undermine the 
prospects for a lesser but more achievable goal of stability per se.
    This is because the violence reduction of 2007 was obtained from 
the bottom up, not from the top down. Instead of a national political 
deal, the military defeat or disarmament of the enemy, or their 
conversion into peaceful politicians in a reconciled, pluralist 
society, violence fell because most of the former combatants reached 
separate, local, voluntary decisions to stop fighting even though they 
retained their arms, their organizations, their leaders, and often 
their ambitions. These decisions were not accidental or ephemeral--they 
reflected the post-2006 strategic reality of Iraq, which for the first 
time gave all the major combatants a powerful self-interest in cease-
fire rather than combat. This new self-interest in cease-fire creates 
an important opportunity for stability. But the decentralized, 
voluntary nature of these cease-fires means that peace would be fragile 
and would need careful and persistent U.S. management to keep it from 
collapsing, especially early on. The required U.S. presence would 
change from war fighting into peacekeeping, and U.S. casualties would 
fall accordingly. But a continued presence by a substantial outside 
force would be essential for many years to keep a patchwork quilt of 
wary former enemies from turning on one another--if we try to exploit 
the violence reduction to take a peace dividend by bringing American 
troops home too quickly, the cease-fire deals we have reached would 
likely collapse. And if we try to replace this patchwork quilt of local 
cease-fire deals with a strong central government that could monopolize 
violence in Iraq and allow us to leave, the result is much more likely 
to be the collapse of today's cease-fires without any effective central 
government to put in their place.
    This is not what the administration had in mind when it invaded 
Iraq. Reasonable people could judge the costs too high and the risks 
too great. But an Iraq stabilized from the bottom up in this way 
nevertheless offers a meaningful chance to stop the fighting, to save 
the lives of untold thousands of innocent Iraqis who would otherwise 
die brutal, violent deaths, and to secure America's remaining vital 
strategic interest in this conflict: That it not spread to engulf the 
entire Middle East in a regionwide war. No options for Iraq are 
attractive.\1\ But given the alternatives, stabilization from the 
bottom up may be the least bad option for U.S. policy in 2008.
---------------------------------------------------------------------------
    \1\ I address withdrawal alternatives and their consequences in 
greater detail in ``Evaluating Options for Partial Withdrawals From 
Iraq,'' testimony before the Committee on Armed Services, Oversight and 
Investigations Subcommittee, United States House of Representatives, 
First Session, 110th Congress, July 25, 2007.
---------------------------------------------------------------------------
    I advance this case in four steps. First, I assess the causes of 
the recent decline in violence, and attribute this to a series of 
voluntary local cease-fires--not national political reconciliation, the 
destruction or elimination of the enemy, an exhaustion of violence 
potential as a result of sectarian cleansing, or improvements in Iraqi 
Government forces. Second, I discuss the chances for these cease-fires 
to hold. If violence is down because the combatants have chosen to stop 
fighting, will they choose otherwise when the surge brigades come home? 
I argue that while voluntary cease-fires are inherently reversible, 
they do not always collapse. The new strategic landscape in Iraq 
creates an opportunity for a lasting cease-fire that outlives the 
surge, but does not guarantee this by itself. Third, I argue that to 
realize this opportunity requires a continuing military presence by an 
outside peacekeeper. This does not mean open-ended war fighting or the 
U.S. casualties that go with it, and it may not require the surge's 
troop count. But peacekeeping is labor intensive nevertheless--and the 
right posture for stability maintenance in Iraq is thus the largest 
force we can sustain in steady state for an extended stay. Finally, I 
assess the alternative of strengthening the Iraqi state to enable it to 
monopolize violence, control its own territory, and replace U.S. or 
other foreign troops with Iraqi security forces. I argue that for the 
foreseeable future, any attempt to replace local cease-fires with 
centralized state security is far likelier to destroy the gains bought 
at such cost in 2007. Iraq may eventually mature into a workable 
federal state. But this is a generational goal, not an immediate one. 
For a long time to come, stability in Iraq will require settling for 
what we can get, not holding out for what we once sought.
                      i. why did violence decline?
    The original idea behind the surge was to reduce the violence in 
Baghdad in order to enable Iraqis to negotiate the kind of national 
power-sharing deal we thought would be necessary to stabilize the 
country. Chaos in the capital, it was thought, made negotiated 
compromise impossible; by deploying more U.S. troops to the city and 
assigning them the mission of direct population security, it was hoped 
that a safe space could be created within which the national leaders of 
Iraq's Sunnis, Shiites, and Kurds could afford to take the risks 
inherent in compromise.
    The violence came down, but the compromise did not follow. Although 
some slow, grudging political progress has been made, the pace has 
lagged far behind the original intentions of the surge's designers. 
Many, prominently including the Democratic leadership on Capitol Hill, 
were prepared to declare the surge a failure given its inability to 
produce the reconciliation deal that was the whole point originally.
    In the meantime, however, a completely different possibility 
arose--one that was neither planned nor anticipated nor intended when 
the surge was designed, but which has nevertheless become central to 
the prospects for stability in Iraq. This ``Anbar Model'' or ``bottom-
up'' approach began with a group of Sunni tribal Sheiks in Anbar 
Province, then quickly spread to Sunnis elsewhere in Iraq and now to 
many Shiites as well.
    This model is built not around a national compact, but instead a 
series of bilateral contractual agreements in which particular groups 
of local Iraqis agree not to fight the United States or the Government 
of Iraq, and to turn their arms instead on common enemies--initially 
al-Qaeda in Iraq (AQI), and increasingly rogue Shiite militias as well. 
These local groups further agree to wear distinguishing uniforms, to 
patrol their home districts, to limit their activities to those home 
districts, and to provide coalition forces and the Iraqi Government 
with biometric data (e.g., fingerprints and retinal scans), names, and 
home addresses for all members. In exchange they receive recognition as 
legitimate security providers in their districts, a pledge that they 
will not be fired upon by U.S. or Iraqi Government forces as long as 
they observe their end of the agreement, and a U.S.-provided salary of 
$300 per member per month. (They do not, however, receive arms or 
ammunition from the United States--we are not ``arming the Sunnis,'' as 
many have alleged. Cease-fire participants use their own weapons and 
ammunition, of which they have plenty without our help.)
    The parties to these local cease-fire deals have been variously 
termed ``Awakening Councils,'' ``Sons of Iraq'' (SOI), or ``Concerned 
Local Citizen'' (CLC) groups. As of March 2008, membership in these CLC 
organizations had grown from a baseline of essentially zero in early 
2007 to more than 95,000 Iraqis under more than 200 such contracts 
across much of western and central Iraq. By way of comparison, the 
entire active strength of the British Army worldwide is about 100,000--
the growth in CLC membership in just a few months has been truly 
extraordinary.
    For now, the CLC groups are disproportionately, though not 
exclusively, Sunni (about 80 percent of CLC members were Sunnis in 
January 2008). Many of the principal Shiite combatants, however, are 
observing their own cease-fires. In particular, Muqtada al-Sadr 
directed his Jayish al-Mahdi (JAM), or ``Mahdi Army'' militia to stand 
down from combat operations following an altercation with the rival 
Shiite Badr Brigade in Karbala in August 2007.
    The result is that as of early 2008, most of the major combatants 
on both the Sunni and Shiite side were all observing voluntary cease-
fires.
    One would expect this rapid spread of local cease-fires to have an 
important effect in reducing violence in Iraq, and indeed it did. In 
fact it has been largely responsible for the dramatic reduction in 
violence by late 2007. In effect, most of the combatant factions that 
had been fighting the Americans and the government voluntarily agreed 
to stop. Moreover, the remaining hardcore AQI and rogue militia 
holdouts had been seriously disadvantaged by the defection of their 
erstwhile allies: Without the safe houses, financial support, 
intelligence and concealment provided by their coreligionists, AQI and 
militia rogues were exposed to U.S. firepower in ways they had not been 
previously. Guerillas survive by stealth--their key defense from 
destruction by better-armed government forces is the government's 
inability to distinguish fighters from innocent civilians. When their 
former allies agreed to finger holdout guerillas for U.S. engagement, 
AQI's military position in western and central Iraq thus became largely 
untenable and they were forced to withdraw into the limited areas of 
Diyala, Salah ad-Din, and Ninawa provinces where CLC deals had not yet 
been reached. The net result was a dramatic reduction in opposition, a 
dramatic reduction in the number of enemy-initiated attacks, and a 
corresponding reduction in U.S. casualties, Iraqi civilian deaths, and 
ISF losses.
    The violence reduction was not, by contrast, caused by our killing 
the enemy or driving them out of Iraq. AQI's casualties were heavy in 
2007, but AQI was never the bulk of the Sunni combatant strength, and 
violence in 2006 was increasingly attributable to Shiite militia 
activity. Neither of the latter has suffered nearly enough losses to 
explain a radical reduction in violence, nor have many such combatants 
fled the country.
    Nor is the violence reduction attributable to sectarian cleansing. 
Many have argued that violence fell because there was no one left to 
kill: Baghdad's once-mixed neighborhoods are now purely Shiite, they 
claim, removing the casus belli that once drove the violence. Yet 
significant Sunni populations remain in Baghdad--many fewer than in 
2005, but significant all the same. More important, the relative 
incidence of mixed and pure, or Sunni and Shiite, neighborhoods in 
Baghdad correlates very poorly with the scale of sectarian violence. 
The killing has always been concentrated at the frontiers between 
Shiite and Sunni districts, where, typically, Shiite militia fought to 
expand their control and Sunni insurgents fought to hold them off. As 
this unfolded, Sunnis were often forced out and city blocks would fall 
under Shiite control, but this simply moved the frontier to the next 
block, where the battle continued unabated. Cleansing thus moved the 
violence, but it did not reduce it. This can be seen in the casualty 
statistics for 2006, which hardly fell as the city's Sunni population 
shrank: All estimates show increasing civilian fatalities over the 
course of 2006, not the opposite. The only way this cleansing process 
could explain a radical drop in violence is if the frontiers 
disappeared as a result of Sunni extinction in Baghdad--but this has 
not occurred. And it is far from clear that even a total Sunni eviction 
from Baghdad would end the violence: The frontier would simply move on 
to the ``Baghdad Belts,'' the ring of heavily Sunni towns and suburbs 
that surround the city. In fact this had already started in 2006-07: 
Both Sunni and Shiite combatants maneuvered extensively to improve 
their positions for continued warfare beyond the city by contesting 
control of key outlying towns. The violence did not simply run its 
course and ebb for lack of interest; regrettably, there remains an 
enormous potential for continued sectarian bloodletting in Iraq.
    Nor is the violence reduction attributable to improvements in Iraqi 
Government security forces. The ISF is better than it was, but its 
leadership, training, equipment, and logistics remain very uneven. Its 
key shortcoming, however, remains its politics rather than its 
proficiency. Predominantly Shiite or Kurdish ISF units are often 
distrusted by Sunnis and have great difficulty functioning effectively 
in their neighborhoods. Even Shiite ISF formations can have difficulty 
functioning in Shiite neighborhoods controlled by rival Shiite 
factions, as the recent fighting in Basra demonstrates. A few ISF units 
have established a reputation for even-handedness and can in principle 
act as nationalist defenders of all, but too few to secure the country. 
Much of the ISF, in effect, thus operates as the CLCs do: They defend 
their own. Local communities, whether Sunni or Shiite, accept defense 
by coreligionists they trust, but not by others--hence Iraq today is 
increasingly a patchwork of self-defending sectarian enclaves, warily 
observing the others but for now declining to use violence as long as 
they are left alone.
                     ii. can the cease-fires hold?
    Of course, a voluntary decision to stop fighting can be reversed. 
CLC members retain their weapons. Many are essentially the same units, 
under the same leaders, that fought coalition forces until agreeing to 
stop in 2007. Many retain fond hopes to realize their former ambitions 
and seize control of the country eventually. The JAM has mostly stood 
down but not demobilized; they, too, could return to the streets. Many 
have thus argued that these cease-fire deals could easily collapse. And 
indeed they could.
    But this is not unusual for cease-fires meant to end communal civil 
wars such as Iraq's. These typically involve very distrustful parties; 
they often begin with former combatants agreeing to cease-fires but 
retaining their arms; and they are always at risk of renewed violence. 
Many fail under these pressures. But some succeed: In Bosnia, Kosovo, 
Liberia, Sierra Leone, Mozambique, and Zimbabwe, for example, cease-
fires of this kind have held and led to persistent quiet, if not warmth 
or deep reconciliation, between the former warring parties.
    At least two requirements are needed to translate fragile deals 
into persistent stability. First, peace has to be in the perceived 
strategic self-interest of all parties. If one or several see warfare 
as superior to cease-fire, then any deal is temporary and will collapse 
at a more tactically opportune moment.
    Until recently, Iraq failed this criterion. Sunnis feared Shiite 
domination, but believed they were stronger militarily than the 
Shiites; if only Sunnis could drive the Americans out, then a weak 
Shiite regime would collapse without its U.S. protectors and Sunnis 
could seize control. Hence fighting made sense for them. Shiites, by 
contrast, feared a Sunni restoration and saw warfare against Sunni 
insurgents as necessary to avert a takeover. Initially most Shiites 
were willing to let the government and its American allies wage this 
war for them. Eventually, however, they began to lose faith in either 
actor's ability to protect them, and thus turned to Shiite militias to 
wage war against the Sunnis on their behalf. Militia warfare offered 
Shiite civilians protection against Sunni violence. Fighting also 
offered Shiite militia leaders--and especially Muqtada al-Sadr--a power 
base they could not obtain otherwise, and a possible route to political 
control via military victory over the Sunnis, and eventually, over the 
Americans (who opposed Shiite warlord autocracy in favor of an 
unacceptable multisectarian compromise with the rival Sunnis). Shiites, 
too, thus preferred warfare.
    Events in 2006 and early 2007, however, changed this strategic 
calculus fundamentally for both Sunni insurgents and Shiite militias. 
The key to this was the Sunni's military defeat in the sectarian Battle 
of Baghdad that followed the Askariya Mosque bombing of February 2006. 
Until that time, Shiite militias had fought mostly defensively and 
often stood on the sidelines in Sunni-U.S. combat. But when AQI 
destroyed the shrine, the Shiite militias entered the war in force and 
on the offensive. The result was a year-long wave of sectarian violence 
in Baghdad pitting Sunni insurgent factions and their AQI allies 
against, especially, Muqtada al-Sadr's Jayish al-Mahdi. At the time, 
this wave of bloodshed was seen as a disaster--and in humanitarian 
terms it clearly was. The United States tried to stop it. But in 
retrospect, it may prove to have been the critical enabler of a later 
wave of cease-fires by changing fundamentally the Sunni strategic 
calculus in Iraq.
    Before the mosque bombing, Sunnis could believe they were the 
stronger side and would win an eventual all-out war. The Battle of 
Baghdad, however, provided a window into what such a war would mean for 
Sunnis, and they did not like what they saw. To Sunnis' surprise and 
dismay, the battle produced a decisive Sunni defeat: What had once been 
a mixed-sect city became a predominantly Shiite one as the JAM 
progressively drove the Sunnis out and shrank their remaining 
strongholds in the capital. With the Americans playing no decisive 
role, Shiites overwhelmed Sunni combatants in neighborhood after 
neighborhood. Sunnis who had harbored fond hopes of ruling the country 
by defeating the Shia in open warfare were now unable to call relatives 
in traditional Sunni strongholds because the JAM had driven them from 
their homes and replaced them with Shiite squatters. Neighborhoods that 
had been Sunni homeland for generations were now off limits, populated 
with and defended by their rivals. In a head-to-head fight, the Sunnis 
had been beaten by Shiite militias they had assumed they could 
dominate.
    A second major development was a series of strategic errors by AQI. 
Americans have no monopoly on error in Iraq, and AQI's leadership 
seriously overplayed their hand in 2006. Al-Qaeda in Iraq is 
exceptionally violent, and not only against Shiites and Americans. 
Fellow Sunnis whom AQI's leadership felt were not sufficiently devout 
or committed were also targeted with extraordinary brutality--including 
delivery of children's severed heads to the doorsteps of Sunni Sheiks 
who failed to follow AQI preferences. The smuggling networks that many 
Sunni Sheiks in Anbar province had relied upon for generations to fund 
tribal patronage networks were appropriated by AQI for its own use. 
Before the Battle of Baghdad, most Sunnis tolerated these costs on the 
assumption that AQI's combat value against Shiites and Americans 
outweighed their disadvantages. As defeat in Baghdad became clearer, 
however, it also became clear that AQI could not deliver real 
protection. By late 2006 AQI's inability to prevent defeat in Baghdad 
and the costs it imposed on coreligionists had thus convinced many 
Sunnis that they needed to look for new allies. And the only possible 
choice was the United States.
    At the same time, the surge made this realignment with the United 
States much easier and safer. Americans had sought political 
accommodation with Sunni insurgents for years; attempted openings to 
Sunni leaders had been a major component of U.S. policy throughout 
Zalmay Khalilzad's tenure as Ambassador, when the U.S. tried to broker 
compromise from both sides. These efforts made little headway, however, 
with a Sunni leadership that expected to rule Iraq if it instead held 
out and won the ensuing war. By 2007, however, Sunnis had become much 
more interested in American protection. And with the surge, Americans 
had more protection to offer. Any Sunni contemplating realignment 
against their nominal AQI allies surely realized that a massive AQI 
counterattack awaited them--no organization with AQI's reputation for 
brutality would stand back and watch while its allies changed sides and 
betrayed them. And, in fact, the initial wave of Sunni tribal 
disaffection in Anbar was met with an immediate campaign of bombings 
and assassinations from AQI against the leaders and foot soldiers of 
the rebel tribes. Previous rumblings of Sunni tribal disaffection with 
AQI in Anbar had been reversed by such counterattacks. Now, however, 
the rebel tribes approached American forces whose strength in Anbar and 
Baghdad was growing, and whose mission was changing to emphasize direct 
U.S. provision of population security through aggressive patrolling and 
persistent combat presence (as opposed to the previous mission of 
limiting U.S. exposure while training Iraqis to take over the 
fighting). After much initial wariness, the Americans decided to 
support this realignment and joined forces with the tribes against AQI 
in Anbar. With American firepower connected to Sunni tribal knowledge 
of who and where to strike, the ensuing campaign decimated AQI and led 
to their virtual eviction from Anbar province. The result was a 
provincewide cease-fire under the auspices of the Anbar Awakening 
Council and the U.S. military.
    This outcome provided a model for similar cease-fires elsewhere. 
Sunnis outside Anbar understood their Baghdad defeat's military 
implications at least as well as the western Sheiks had. As the arrival 
of U.S. surge brigades and their extension of American security 
capabilities made it possible, more and more local Sunni leaders thus 
opted to standdown from combat against the Americans and to make common 
cause with them instead, enabling their new allies to hunt down AQI 
operatives, safe houses, and bomb factories. The result was a powerful 
synergy: The prospect of U.S. security emboldened already-motivated 
Sunnis to realign with the U.S.; Sunni realignment as CLCs enhanced 
U.S. lethality against AQI; U.S. defeat of local AQI cells protected 
realigned Sunni CLCs; local CLC cease-fires with the Americans reduced 
U.S. casualties and freed U.S. forces to venture outward from Baghdad 
into the surrounding areas to keep AQI off balance and on the run.
    Cease-fires with Sunnis in turn facilitated cease-fires with key 
Shiite militias. These militias began largely as self-defense 
mechanisms to protect Shiite civilians from Sunni attack. But as Sunni 
insurgents ceased offensive operations and as AQI weakened, the need 
for such defenders waned and the JAM in particular found its support 
base among Shiite civilians weakening. This loss of support was 
exacerbated by the growing criminality of many militia members, who had 
exploited their supporters' dependency by preying on them with gangland 
control of key commodities such as cooking fuel and gasoline for 
economic extortion. Rising criminality in turn created fissiparous 
tendencies within the militias, as factions with their own income 
sources grew increasingly independent of the leadership and Sadr in 
particular. Meanwhile the American military presence was strengthening 
with the arrival of the surge brigades in Sadr's home base of Baghdad, 
and those Americans were increasingly freed of the need to fight Sunnis 
by the growth of local cease-fires, posing an increasing threat to JAM 
military control in the capital.
    Taken together, this created multiple perils for Muqtada al-Sadr. 
In previous firefights with the Americans, he had sustained heavy 
losses but easily made them up with new recruits given his popularity. 
But Shiites' growing disaffection with his increasingly wayward 
militia, coupled with declining fear of Sunni attack, threatened his 
ability to make up losses with new recruitment. At the same time, 
tensions with other Shiite militias, especially the Badr Brigade in 
southern Iraq where JAM was weaker but where much of Iraq's oil wealth 
was concentrated, posed a threat from a different direction, and his 
weakening control over rogue elements created a danger of the 
organization gradually slipping out of his hands. When Shiites were 
unified by a mortal threat from Sunni attack and the Americans were 
tied down with insurgents and AQI, these internal problems could be 
managed and Sadr could afford to keep the JAM in the field and killing 
Sunnis and Americans. But as the Sunni threat waned, Shiite support 
weakened, the JAM splintered, and the Americans strengthened, Sadr's 
ability to tolerate a new battle with the U.S. Army was thus 
progressively diminished. Of course, Sadr is notoriously hard to read, 
and it is impossible to know exactly why he does what he does. But at 
least one plausible hypothesis is that the effect of Sunni cease-fires 
added to other mounting internal pressures to persuade Sadr that he had 
to standdown himself rather than taking another beating from the 
Americans. Hence the new circumstances drove the JAM, too, to observe a 
cease-fire.
    The result was a major change in incentives for both the Sunni 
insurgency and the key Shiite militia. Of course, this decline in 
violence is still far from a nationwide cease-fire--hard fighting 
remains, especially in parts of Diyala, Salah ad-Din, and Ninawa 
provinces where AQI's remnants have taken refuge and where the CLC 
movement is still taking shape. But if the strategic logic described 
above holds, then there is at least a chance that the local cease-fires 
of January 2008 could continue to expand to cover the remaining 
holdouts. This does not mean sectarian harmony or brotherly affection 
in Iraq. But it does mean that cold, hard strategic reality 
increasingly makes acting on hatred too costly for most Sunni 
insurgents and Shiite militias--which has translated into a rapid 
spread of local cease-fires in accordance with the new interest 
calculus.
    Yet this has not produced national reconciliation among Iraq's 
elected representatives in the capital. Why not?
    In time it may. For now, however, the Maliki government's 
incentives differ from Muqtada al-Sadr's. Sadr needs peace to avoid 
further deterioration in his internal position and to avert casualties 
he cannot replace in a costly battle with the Americans. Maliki, by 
contrast, is not fighting the Americans--the surge is no threat to him. 
On the contrary, U.S. reinforcements and weaker Sunni opposition reduce 
the cost of continued warfare for Maliki's ISF. For Maliki, moreover, 
peace is politically and militarily riskier than war. Reconciliation 
along American lines requires dangerous and politically painful 
compromises with rival Sunnis: Oil revenue-sharing with Sunni 
provinces, hiring of former Baathists, Anbari political empowerment, 
and other initiatives that Maliki's Shiite allies dislike, and which 
Maliki fears will merely strengthen his sectarian enemies militarily. A 
predominantly Sunni CLC movement adds to these fears. Sadr needs peace 
because war now risks his political status; Maliki, conversely, runs 
greater risks by compromising for peace than by standing fast and 
allowing the war to continue. Thus the Shiite government makes little 
progress toward peace even as Shiite militias standdown in cease-fires.
    Worse, Maliki may have an incentive to overturn pledged cease-fires 
in order to seek political advantage against internal rivals. For most 
of his tenure, Maliki had been dependent on the Sadrist movement for 
his legislative majority. Recently, however, Maliki has realigned with 
Abdul Aziz al-Hakim's competing Shiite Islamic Supreme Council of Iraq 
(ISCI). ISCI has been competing with Sadrists for control of the Shiite 
south, and especially the oil production and export centers around 
Basra and Umm Qasr. ISCI now controls much of the local government and 
police there, but Sadrist gains among the region's dispossessed Shiite 
poor threaten this control, and the upcoming provincial elections 
scheduled for this fall could realign power in the south to Sadr's 
benefit and Hakim's disadvantage. Maliki now enjoys an unusual freedom 
of maneuver for his ISF by virtue of the combination of Sunni cease-
fires and U.S. surge brigades. This offers him a potential window of 
opportunity to use the ISF to weaken Sadr in the south under the guise 
of suppressing illegal militias. By pressing an offensive against JAM 
elements in Basra now, Maliki has a chance to kill or arrest Sadrist 
gunmen who might otherwise be available to intimidate voters in the 
fall, arrest Sadrist officials, ransack Sadrist offices, and intimidate 
potential Sadrist voters. The ISF offensive in Basra that began on 
March 25 may well have sprung from such motives, though its apparent 
failure suggests that the government's ability to achieve such ends is 
very limited. Of course, events in Basra are ongoing and too little is 
yet known to establish with any confidence just what is happening or 
why; I discuss the possibilities in more detail in section IV below. 
But there is reason for concern that the Maliki government may now have 
less interest in cease-fire than its opponents do. If so, it is 
imperative that the United States act to prevent the Government of Iraq 
from overturning cease-fires without being able to replace them with 
real security of its own (see section IV). And either way, the 
government has limited incentives to pursue costly, risky programs for 
national-level reconciliation via compromise.
    This is not to deny any progress by the government. It has been 
distributing revenue to Sunni provinces even without a Hydrocarbon Law 
to require this. It recently passed a new de-Baathification law making 
it easier to hire Sunnis into some government jobs, and had been doing 
such hiring anyway even without a legal mandate. The result has been a 
modest degree of grudging movement toward compromise. Perhaps this will 
eventually produce an accommodation sufficient to resolve Iraq's 
communal differences politically.
    But it is also entirely possible that the near to mid-term future 
could see a weak central government unable to monopolize violence, 
control its territory, or do much more than distribute oil revenue 
while the real dynamic of Iraqi security devolves to localities, where 
a patchwork quilt of local cease-fires in response to the shifting 
incentives of combatants in the field meanwhile produces an end to the 
fighting--for a time.
                        iii. what is to be done?
    This brings me to the second requirement needed for cease-fires to 
hold long enough to end communal civil wars. An outside party is 
typically needed to serve as a peacekeeper to enforce the deals.
    This is because such deals are neither self-enforcing nor 
inherently stable. Even where peace is in the mutual self-interest of 
the majority on both sides, there will still be spoilers who will seek 
to overturn the cease-fire and renew the war. Rogue elements of Shiite 
militias, for example, profit from the fighting and will seek to 
restore the instability within which they flourish. And AQI has no 
interest whatever in stability. Though hurt badly and on the ropes in 
Iraq, AQI is not annihilated and even small numbers of committed 
terrorists can still bomb selected marketplaces or public gatherings.
    Such spoilers hope to catalyze wider violence by spurring the 
victims to take matters into their own hands and retaliate against the 
historical rivals that many will blame for such attacks. In an 
environment of wary, tentative, edgy peace between well-armed and 
distrustful former combatants, even a few such attacks can lead to an 
escalatory spiral that quickly returns the country to mass violence and 
destroys any chance of stability.
    Alternatively, the central parties to the cease-fire may try to 
expand their area of control at the expense of neighboring CLCs or 
militia districts. Ambitious Sunnis with dreams of Baathist restoration 
may use the lull to build strength, probe their rivals for weakness, 
then launch a new offensive if they discover a vulnerability. Shiite 
militia leaders unsatisfied with a limited role in a weak government 
could push the limits of their accepted status at the expense of Sunnis 
or rival Shiite warlords.
    In this context, outside peacekeepers play a crucial role in 
damping escalatory spirals and enforcing cease-fire terms. As long as 
the underlying strategic calculus favors peace, then an outside 
military presence allows victims of spoiler attacks to wait rather than 
retaliating--they can afford to delay and see whether the Americans 
will take action against the perpetrators rather than jumping to 
immediate violence themselves. This enables their historical rivals, in 
turn, to stand back from preempting them the first time a bombing takes 
place. The peacekeepers' ability to enable victims to wait and see thus 
reduces the virulence of the escalatory dynamic in the aftermath of the 
inevitable bombings and terrorist strikes.
    Similarly, if CLC leaders and militia commanders know that a U.S. 
combat brigade is going to enter their district and arrest any leader 
whose followers violate the terms of the agreed cease-fire--and if the 
provision of biometric data and locating information for all CLC 
members means that the Americans know who the violators are and where 
to find them--then the underlying mutual interest in cease-fire is less 
likely to be tested. And if the victims of a rival's expansion know 
they can call on a U.S. combat brigade to penalize their assailants 
they will be less prone to retaliate themselves and incur the cost of 
unnecessary fighting and casualties to their own followers.
    This is not war fighting. It does require troops who can fight if 
they have to. And some fighting would be needed, especially early on, 
to punish spoilers and cease-fire violators and thereby to discourage 
further violence. But success in this mission means that the parties 
quickly understand that continued wary tolerance suits their interests 
better than renewed warfare, making the foreigners' role one of 
maintaining a cease-fire rather than waging a war. Soldiers are 
needed--but the casualty toll of combat should not be.
    Peacekeeping of this kind is, however, labor-intensive, long term, 
and would almost certainly have to be a U.S. undertaking, especially in 
the early years of a cease-fire. We are the only plausible candidate 
for this role for now--no one else is lining up to don a blue helmet 
and serve in a U.N. mission in Iraq. We are not widely loved by Iraqis; 
among the few things all Iraqi subcommunities now share is a dislike 
for the American occupation. Yet we are the only party to today's 
conflict that no other party sees as a threat of genocide--we may not 
be loved, but we are tolerated across Iraq today in a way that is 
unique among the parties. Nor are Iraqi attitudes toward Americans 
fixed or permanent: Sunni views of the U.S. role, for example, have 
changed dramatically in less than a year. Marine patrols in Falluja 
that would have been ambushed a year ago are now met with kids mugging 
for photos from marines carrying lollipops along with their rifles. Of 
course, what goes up can come down; attitudes that change quickly for 
the better can change just as quickly for the worse, and one should not 
misinterpret friendly words in English for real attitudes expressed 
only to intimates in Arabic. But it is at least possible nevertheless 
that the United States could play this role, whereas it is very 
unlikely that any internal party within Iraq could. And it is just as 
unlikely that any international actor other than the United States will 
agree to do so any time soon.
    Whoever does this is going to have to do so for a long time: 
Perhaps 20 years--until a new generation, which has not been scarred by 
the experience of sectarian bloodletting, rises to leadership age in 
Iraq. A U.S. role will clearly be important for at least part of this 
time, but it may not be necessary for the United States to do this 
alone the entire time. If 2-3 years of apparent stability makes it 
clear that the Iraq mission really has become peacekeeping rather than 
war fighting then it is entirely plausible that others might be willing 
to step in and lighten the American load, especially if they can do so 
under a U.N. or other multinational banner rather than a bilateral 
agreement with the United States or the Government of Iraq. So we need 
not assume a 20-year U.S. responsibility alone. But a long-term 
presence by outsiders of some kind will be needed. And it would be 
imprudent to assume that we can turn this over to others immediately.
    The number of troops required could be large. The social science of 
peacekeeping troop requirements is underdeveloped, but the common rules 
of thumb for troop adequacy in this role are similar to those used for 
counterinsurgency: Around one capable combatant per 50 civilians. For a 
country the size of Iraq, that would mean an ideal force of around 
500,000 peacekeepers--which is obviously impossible. But some such 
missions have been accomplished with much smaller forces. In Liberia, 
for example, 15,000 U.N. troops stabilized a cease-fire in a country of 
4 million; in Sierra Leone, 20,000 U.N. troops sufficed in a country of 
6 million. It would be a mistake to assume that such small forces can 
always succeed in a potentially very demanding mission; but it would 
also be a mistake to assume that because the United States cannot meet 
the rule-of-thumb troop count that the mission is hopeless.
    Some now hope that lesser measures will suffice to stabilize Iraq's 
cease-fires. The U.S. leadership in Baghdad, for example, hopes that it 
can create a financial incentive for CLCs to behave by making them 
Iraqi Government employees with the Maliki regime paying their 
salaries. The regime, however, is resisting this, and it is far from 
clear that Sunni CLC leaders would trust Maliki to pay them if the U.S. 
withdrew most of its troops. Nor would this solve the problem anyway: 
Spoiler violence is inevitable even if the CLCs behave themselves, and 
without U.S. troops in sufficient force to respond effectively such 
attacks would be dangerously destabilizing.
    Perhaps financial incentives alone will suffice all the same; 
certainly they would help. But to rely on them in the absence of a 
robust peacekeeping presence would be very risky. The strongest 
assumption is thus that more is better when it comes to the post-surge 
U.S. troop posture: The larger and the longer term the peacekeeping 
presence, the greater the odds of success; the smaller and the shorter 
term the presence, the weaker the odds. And this in turn means that if 
the United States reduces its troop levels in Iraq too quickly or too 
deeply, the result could be to endanger the stability prospects that 
have been bought at such cost in lives and treasure. We cannot afford 
to keep enough troops in Iraq to provide the ideal peacekeeping force. 
But to leave Iraq without an outside power to enforce the terms of the 
deals we have reached is to make it very likely that those deals will 
collapse in the face of inevitable spoiler violence, ambition, and 
fear. The right troop count depends on the technical details of just 
what the United States can sustain in Iraq given the demands of 
equipment repair, recapitalization, troop rest, retention, and 
recruitment. But the right number is the largest number that we can 
sustain given these constraints.
             iv. overreaching for a centralized iraqi state
    This is clearly not an ideal prognosis. Americans want to bring the 
troops home, not maintain a peacekeeping mission of unknown duration 
and considerable cost in Iraq. It is widely hoped that a more effective 
Iraqi Government with an improved security force can take the reins and 
enable American troops to withdraw. As the President once put it, as 
they standup, perhaps we can standdown. To do this, however, would 
require a real monopoly of force and the ability to assert control over 
substate militias. The U.S. has in the past encouraged the Maliki 
government to do just this--to use the ISF to suppress and ultimately 
disarm Iraq's various militias, and especially the Shiite Jayish al-
Mahdi.
    For this reason, some Americans, including the President, applauded 
Maliki's recent offensive against JAM elements in Basra and elsewhere. 
As I note above, this offensive is ongoing and its ramifications are as 
yet unclear. There are ways in which it could indeed enhance stability 
in Iraq. But it could also upset the system of cease-fires that largely 
produced the violence reductions of the last year. Even if well-
intentioned, this offensive is a dangerous gamble. And it may not be 
well-intentioned. Either way, it illustrates the danger of overreaching 
in pursuit of a strong, centralized Iraqi state that is unattainable 
for now.
    The administration and the Maliki government have described this 
offensive as aimed only at criminal, renegade elements of the JAM who 
have failed to observe Sadr's announced cease-fire. If so, then this 
operation is nothing more than an extension of longstanding U.S. and 
Iraqi Government efforts to crack down on ``rogue JAM'' cells that had 
broken away from Sadr's control. These efforts have killed or captured 
large numbers of rogue cell leaders over the last year, and contribute 
to stability by eliminating factions unwilling to make peace, thereby 
rendering the JAM as a whole more amenable to a controlled cease-fire 
under Sadr's command. Sadr has tacitly accepted such strikes in the 
past, as this actually benefits him as much as it does the U.S. or 
Maliki. And Sadr's muted reaction to Maliki's offensive suggests that 
he is, so far, interpreting it as aimed chiefly at rogue elements 
beyond his control: Not only did Sadr not order the mainstream JAM to 
war, he recently ordered it explicitly to standdown from combat with 
the government or the Americans, effectively reinforcing his prior 
commitment to cease-fire. All of this is consistent with the notion of 
a limited offensive meant only to target rogue JAM in support of Sadr's 
cease-fire.
    It is also possible, however, that the Basra offensive's motives 
may have been less pure or limited. As I noted above, the combination 
of upcoming provincial elections, Sunni cease-fires, and U.S. surge 
brigades created a potential incentive for the Maliki government to 
press a temporary advantage in order to weaken the mainstream Sadrist 
movement in Basra to the benefit of Maliki's political allies in the 
competing ISCI bloc. If so, this would represent an empowered 
government unilaterally breaking a cease-fire with the JAM in order to 
exploit a window of opportunity for partisan internal political 
advantage.
    If the ISF were actually strong enough to crush the whole JAM, such 
an offensive might offer an alternative route to stability in Iraq: A 
monopoly of force under the Maliki government. After all, the JAM has 
been Iraq's strongest internal military force--it was largely the JAM 
that defeated the alliance of Sunni insurgents and AQI in the Battle of 
Baghdad. If the ISF could defeat the JAM, and if Maliki's political 
interests now motivated him to fight them (which he had been unwilling 
to do heretofore), then perhaps the ISF would now be strong enough to 
beat Iraq's other internal armies, too, and to centralize power 
accordingly.
    But the evidence in Basra suggests otherwise. By all accounts, the 
ISF has been unable to defeat the JAM. After nearly a week of fighting, 
press accounts were reporting that less than a third of Basra was in 
ISF control. Even with coalition air and artillery support and 
reinforcement by U.S. Special Forces teams on the ground, the ISF still 
proved unable to oust the JAM and secure the city. The ISF is 
apparently still not able to monopolize violence in Iraq--even with 
active coalition support in the critical sector, and the passive 
support of 18 brigades of U.S. ground forces elsewhere to free ISF 
troops for offensive action in Basra. Stability under a strong central 
state is thus not forthcoming any time soon in Iraq.
    Worse, a failed attempt to monopolize violence under Maliki could 
now have grave consequences for the entire country. Hopes for stability 
in Iraq today rest chiefly on the system of local cease-fires in which 
former combatants have voluntarily stopped shooting in exchange for a 
pledge that they will not be shot. But if the Maliki government is now 
seen as ignoring these deals and attacking piecemeal those who now 
observe them, starting with the JAM in Basra, then all such commitments 
will evaporate. Any faction who waits quietly until the ISF finishes 
off the others one by one before getting around to them is either 
foolish or suicidal; a truce that only one side observes will soon be 
observed by no one. The result would be a rapid return to the violent 
days of 2006 and early 2007--but with declining U.S. troop levels, not 
increasing ones.
    If we are to stabilize Iraq from the bottom up, via local cease-
fires among willing factions, then we must be prepared to observe the 
terms ourselves and to compel the Iraqi Government to do so, too. And 
that means accepting the continued existence and security of the local 
factions that agreed to stop fighting--unless they break the cease-fire 
terms themselves. To change the terms in the middle of the deal by 
trying to centralize power involuntarily over the objection of armed 
factions who cannot be destroyed at tolerable cost is to invite a 
return to mass violence as each strives to defend itself by attacking 
its neighbors once more. Bottom-up stability and the pursuit of a 
powerful, centralized state by force of arms are thus incompatible.
    We can and must strive to persuade Iraqi factions to join a unified 
Iraqi political process peacefully. In the long run this process may 
succeed. But if we try to shortcut a glacial process of peaceful 
accommodation by disarming militias involuntarily in the meantime--or 
if we permit an Iraqi Government to try this itself for whatever 
motives it may hold--the result could be a return to mass violence with 
neither bottom-up nor top-down reconciliation in the offing.
                      conclusions and implications
    Iraq's system of local cease-fires may thus offer an opportunity to 
stabilize the country and avert the downside risks of failure for the 
region and for U.S. interests. To realize this opportunity will not be 
cheap or easy. And it will not produce the kind of Iraq we had hoped 
for in 2003. A country stabilized via the means described above would 
hardly be a strong, internally unified, Jeffersonian democracy that 
could serve as a beacon of democracy in the region. Iraq would be a 
patchwork quilt of uneasy local cease-fires, with Sunni CLCs, Shiite 
CLCs, and Shiite militia governance adjoining one another in small, 
irregularly shaped districts; with most essential services provided 
locally by trusted coreligionists rather than by a weak central 
government whose functions could be limited to the distribution of oil 
revenue; and with a continuing need for outside peacekeepers to police 
the terms of the cease-fires, ensure against the resumption of mass 
violence, and deter interference from neighbors in a weak Iraqi state 
for many years to come.
    Moreover there are many ways in which such a peace could fail even 
if the United States and the key Iraqi factions play the roles 
described above. Long term peacekeeping missions sometimes succeed, but 
peacekeepers can also become occupiers in the eyes of the population 
around them. If the U.S. presence is not offset or replaced in time by 
other tolerable alternatives under a U.N. or other multinational 
banner, nationalist resistance to foreign occupation could beget a new 
insurgency and a war of a different kind. If spoiler violence or early 
challenges to the peacekeepers' authority are not met forcefully and 
effectively, then the volume of challenges could overwhelm the 
availability of enforcement and the effort could collapse into renewed 
warfare. If ongoing operations do not keep AQI from regrouping, or if 
today's growth of negotiated cease-fires does not ultimately spread 
through the remainder of Iraq, then the U.S. mission could remain that 
of war fighting without any peace to keep. If Sadr eventually loses 
patience with the Maliki government's offensive in Basra, or if he 
loses control of enough of the JAM splinter groups now under assault, 
then today's entire system of local cease-fires could unravel.
    There are no guarantees in Iraq. And given the costs and the risks 
of pursuing stability, a case can still be made for cutting our losses 
now and withdrawing all U.S. forces as soon as it is logistically 
practical.
    But none of the options are cost or risk-free in Iraq, including 
withdrawal. A U.S. departure from an unstable Iraq risks an escalation 
in violence, the prospect of regional intervention, and a much wider 
war engulfing the heart of the Mideast's oil production--any 
responsible proposal for troop withdrawals in Iraq must contend with 
their risks, which are substantial. All U.S. options in Iraq thus 
remain unattractive.\2\ But we must choose one all the same.
---------------------------------------------------------------------------
    \2\ See Biddle, ``Evaluating Options for Partial Withdrawals From 
Iraq,'' for a more complete discussion of withdrawal alternatives.
---------------------------------------------------------------------------
    And the case for cutting our losses in Iraq is weaker today than it 
was a year ago. The rapid spread of negotiated cease-fires and the 
associated decline in violence since then has improved the case for 
remaining in Iraq and paying the price needed to maximize our odds of 
stability. It will not be cheap, and it is hardly risk-free. But in 
exchange for these costs and risks we now have a better chance for 
stability--not a guarantee, but a better chance--than we have seen for 
a long time.

    Senator Lugar. Thank you very much.
    The Chairman has asked me to recognize Mr. Rosen.

STATEMENT OF NIR ROSEN, FELLOW, NEW YORK UNIVERSITY, CENTER ON 
                 LAW AND SECURITY, NEW YORK, NY

    Mr. Rosen. Good afternoon, thank you for having me.
    I've spent most of the last 5 years in Iraq, especially 
with Sunni and Shia militiamen in mosques and powers of center, 
other than the Green Zone, so I hope to give you a different 
perspective.
    I left last--last left Iraq in last February, a month ago--
a little over a month ago. The Bush administration and the U.S. 
military have stopped talking of Iraq as a grand project of 
nation-building. The American media has obeyed this, as well, 
and they also abandoned the larger narrative presenting Iraq as 
a series of small pieces. And just as Iraq is being physically 
deconstructed, it's also being intellectually deconstructed.
    It's no longer a state undergoing an occupation and a civil 
war in a transition, but small stories of local heroes and 
villains, and well-meaning American soldiers, of good news 
here, and progress there, but the whole is much less than the 
sum of its parts.
    Iraq is basically Somalia, leaving aside Kurdistan--when I 
talk about Iraq, I'm not referring to Kurdistan--you have 
warlords and militias controlling fiefdoms. Most of the experts 
who give their opinion on Iraq, such as Fred Kagan for the 
American Enterprise Institute--people who don't speak Arabic, 
who go around on babysit tours with the American soldiers--the 
view they present of Iraq is false, and it's very dangerous to 
rely on them, and they've done you a disservice.
    There is no shortage of Iraqis--I applaud you for bringing 
Mr. Said--Iraqis who can speak for themselves, and journalists 
who spent much of their time there.
    I know it's true that fewer Americans are dying in Iraq, 
and perhaps from a purely American point of view, that's a 
success. But less Americans are dying in Iraq, because no 
longer--the dominant story is no longer a resistance to a 
foreign occupation--it's no longer a war of national 
occupation.
    Less Americans are dying because Iraq has been in a civil 
war. That's why less Americans are dying, because Iraq is now a 
battle for control between various Iraqi factions. And the 
proper standard for judging progress in Iraq isn't the number 
of American deaths, but the quality of life for Iraqis, and 
unfortunately for most Iraqis, life under Saddam was better. 
Even opponents of Saddam are saying this, and I was just a few 
weeks ago, the people from the Mahdi Army, asking them, after 5 
years, was life better for you, under Saddam? And they said, 
yes, it was.
    Iraq doesn't exist today. It has no government, it's in 
control of warlords, as I said, and events in the Green Zone 
have never mattered, and still don't matter. It's always been a 
theater. The people who control power in Iraq, the militia 
leaders, have never inhabited the Green Zone. And therefore, 
focusing on laws passed in the Green Zone, and political deals 
made in the Green Zone or the international zone is a 
distraction, and a dangerous one.
    Since the escalation of American soldiers began last year, 
hundreds of thousands of Iraqis have continued to flee their 
homes, mostly from Baghdad, and Baghdad has become virtually a 
Shia city, leaving aside a few Sunni pockets.
    So, one of the main reasons why less Iraqis are dying, are 
because there are less Iraqis to kill. The civil war was very 
successful in achieving the goals of the various parties. This 
is a key to understanding the drop in violence. Shias were 
cleansed from Sunni areas, and Sunnis were cleansed from Shia 
areas. This is bound to stop, eventually, the violence was 
logical, and it achieved its logic, it achieved its goals. The 
enemy's population was displaced. And if war is politics by 
other means, then the Shias won, and they now control most of 
Iraq.
    Fortunately, for the planners of the surge, events are 
working in their favor internally, in the Iraqi civil war. The 
Sunnis have lost, and beginning in 2006, when I interacted with 
Sunni resistance leaders in Iraq, and Syria and Jordan, they 
began to realize, ``Oh my God, we've lost, what do we do now?'' 
There were internal recriminations, they blamed Sunni clerics 
in 2003, who had issued fatwas prohibiting Sunnis from joining 
the Iraqi Government. They began to wonder what they should do 
next, and they realize that, from their point of view, their 
main opponent might have been the same main opponent that the 
Americans had--Iran. And they may have begun to pursue that 
route, and they hope that Americans would realize that they had 
this common enemy, although it took awhile for them to come on 
board.
    In many ways, they were shocked how they became the enemy. 
They thought they were the rightful rulers of Iraq, and they 
would have been very happy to accommodate an American presence, 
and you heard Iraqi resistance leaders saying this throughout 
the years, as long as they were the ones in power, these mostly 
Sunni men.
    Now, the Americans arm both sides of a civil war, and this 
is also basically allowed for some temporary stability. How are 
you arming both sides in the civil war? The Iraqi Security 
Forces, majority Mahdi Army, of course, and now you're allowing 
for Sunni militiamen to arm themselves, or to use money that 
they've been given by Americans, to arm themselves. David 
Kilcullen, the influential counterinsurgency adviser, defined 
this as balancing competing armed interest groups.
    Now, supporters of the war and the surge tie this to the 
success, but they forget that tens of thousands--hundreds of 
thousands, perhaps--of Iraqis have been killed, millions 
displaced, and thousands of dead and American wounded, have 
also been a price. Just so that the violence can go back to the 
horrifying levels it was a couple of years ago.
    And much of the violence doesn't get reported. American 
officers underreport the violence--much of the violence that 
occurs outside of the sight of the American military, or of the 
media. When I was living in Baghdad these last few months, 
several times there were dead bodies in front of my house. This 
didn't make the media. A guy was shot in the head on his way to 
work--he was an Interior Ministry official--these sorts of 
things happen all the time, they don't get reported. Although 
it's true that violence is down a little bit.
    Now, at the same time the Sunnis are realizing they lost 
the civil war, Muqtada al-Sadr realized that his militia was 
out of control, he had lost control of many of his men, they 
were no longer merely resisting the Americans, or protecting 
areas from Sunnis, but they were establishing their own mafias, 
they were terrorizing civilians. And he fears that clashing 
with the Americans and with Sunnis who were being empowered, 
would threaten his own power. And he knew that, within the 
context of the surge, he was one of the main targets--or his 
militia was.
    So, he imposed a freeze, which is often mistranslated as a 
cease-fire, so that he could reform his troops, so he could 
consolidate his control over them--he could take out the bad 
ones, and sort of wait the Americans out. Because, like the 
Sunnis, he knew that the Americans were bound to leave, 
eventually.
    The Mahdi Army freeze, which began in late August of last 
year, coincided immediately with a huge drop in violence which, 
among other things, shows us just how responsible they were for 
the recent violence.
    At the same time, the Sunni militias imposed, basically, 
their own cease-fire. They've been battling the Americans, the 
Shias, and al-Qaeda, and they've failed on every front. 
Resistant to the occupation, have not succeeded in liberating 
Iraq from the Americans, or in seizing power, or overthrowing 
the Iraqi Government, the Shia militias have won the civil war.
    And Sunnis are being purged from Baghdad, purged from the 
Iraqi state--physically purged, and also purged from 
ministries. The majority of the Iraqi refugees outside of Iraq 
were Sunni. They had initially allowed al-Qaeda elements to 
enter the areas to protect them from the Americans and from the 
Shias, but while this has been a temporarily successful tactic, 
al-Qaeda began to impose its own reign of terror in Sunni 
areas, establishing its own mafias, often times--this would be 
familiar to inner-city Americans, teenagers, stealing cars, 
calling themselves al-Qaeda because it sounds cool, makes you 
sound tough.
    But they're out of control, these young men, undermining 
traditional authorities, undermining traditional smuggling 
routes, and something had to be done. As a result, Sunni 
militiamen began to cooperate with the Americans against al-
Qaeda. Members of the Sunni resistance who fought the 
Americans, and engaged in organized crime, just couldn't take 
it any more.
    These new militias--called the Awakening groups, or Sons of 
Iraq, or Concerned Local Citizens, critical infrastructure 
security guards, Iraqi security volunteers--are for the most 
part, former members of the resistance. I spent a lot of time 
with them in Baghdad and elsewhere. Members of the 1920 
Revolution Brigade, the Islamic Army of Iraq, Army of the 
Mushadin, and other groups.
    Now, the tactic of the U.S. supporting these armed groups 
worked best in the Anbar province. It's partially worked in 
Baghdad, though many Iraqis in Baghdad and elsewhere fear that
al-Qaeda has imposed its own cease-fire, sort of waiting out 
the surge, as well, and that they're lying low.
    Now, in the very violent Diyala province and Salah ad-Din, 
the Anbar model has so far not succeeded at all. And like the 
Mahdi Army, the Sunni militia's hope to wait for the Americans 
to reduce their troop levels, before they resume fighting the 
Shia militia.
    Joining these American-backed militias has given them 
territory in Baghdad and elsewhere that they now control. This 
was their dream--to seize power in as many areas as possible, 
and from there, eventually seize control of the Iraqi state. 
These Sunni militias also have political goals, and are 
attempting to unite to become a larger movement that will be 
able to regain Sunni territory, and effectively fight the Shia 
militias, in a Shia-dominated government, which they refer to 
as an Iranian occupation.
    So, they say we have a temporary cease-fire, a hudna, with 
the Americans, so we can fight the Iranian occupation of Iraq, 
which to them means the Shia-dominated government, the Shia 
militias.
    And I have actually accompanied, a few weeks ago, members 
of some of these Sunni militias from South Baghdad, from Durra, 
to Ramadi where they paid homage to Abu Risha, the brother of 
the slain Awakening leader that President Bush met, and they 
hope to join his movement. They didn't view themselves as 
security guards, they view themselves as a--to make some 
political movement, we have achieved military success, now 
we're going to translate that into some sort of political 
success. And to them, the main enemy is the Iraqi State. 
They're very explicit about that, at least when the American 
soldiers are not around.
    These Awakening groups are paid by the U.S. military, and 
operate in much of the country, and they employ former fighters 
and they are empowering them. And this is much to the 
consternation of the Shia-dominated government, as well as the 
Shia militias, who thought they had defeated the Sunnis, just 
to see the Americans let them come into Baghdad, through the 
back door.
    So, the militias were the main problem in Iraq, we just 
created new ones. American soldiers, officers, call this the 
``Iraqi solutions for Iraqi problems,'' but it's really quite a 
very frightening scenario when you have more militias in a 
country that's been terrorized by militias.
    By accepting money from the Americans, the Sunni militiamen 
have ridden themselves, from their point of view, of an onerous 
American presence. The Americans think they've purchased Sunni 
loyalty, but the Sunnis think that they've purchased American 
loyalty. They think they've gotten the Americans off of their 
back, for a little while, so they can rebuild their power, 
rebuild their strength, and eventually take on the Shias once 
again. And they're very open about this when you talk to them.
    Now, in both cases, Sunni and Shia militia, the militiamen 
are chaffing under the restrictions based on them. The Mahdi 
Army fighters are losing power on the street--they're no longer 
out there with their guns, either the Americans are there, or 
Awakening groups are there. Crime is increasing in these areas, 
because the Mahdi Army was preventing some source of crimes, 
and they're very frustrated, and they were for awhile, that the 
Americans are still targeting them, still arresting them, and 
that the Iraqi Army is targeting them. And they're very 
frustrated with what they see, as al-Qaeda guys who were 
killing us a few months ago, now being empowered and paid by 
the Americans.
    Many Mahdi Army groups, of course, have ignored the cease-
fire, and are rejecting Muqtada al-Sadr's commands, they view 
him as a sell-out--he's over there in Iran, living the good 
life, we're over here--in fact, his followers are much more 
radical than he is, these days. And there have been 
demonstrations lately in Baghdad where they're chanting that 
he's basically betrayed them.
    Now, Sunni militiamen are also very frustrated, the 
Awakening groups. They were promised 20 percent of them would 
be integrated into Iraqi Security Forces, that's not happening, 
it's clear that it won't happen. Those who have tried to go, 
many of them complain that they're treated as suspects, they're 
harassed, they're abused by the Shia-dominated security forces, 
and they also complain very often that the Americans are late 
in paying them, they frequently threaten to quit in protest, 
they feel very humiliated, they threaten to resume fighting--
it's well-known that the American military cannot sustain its 
numbers there, in the same levels, for very much longer.
    It's going to be forced to reduce its numbers, and when 
this occurs, there's going to be increased space for Sunni 
militias to operate, for Shia militias to operate, they have 
not abandoned their political goals, their ideological goals.
    The Government of Iraq is dominated by sectarian Shia 
Islamist Parties. They also dominate the security forces, and 
they often target Sunni civilians for cleansing. The government 
and the security forces worry about the empowered Sunni 
militias that they will have to fight one day, again.
    As we saw last week, rival Shia militias are also bitter 
enemies, and when I was in Baghdad, in Sadr City, there were 
displaced Iraqis who had moved up from Karbala and from 
Diwaniyah, because their families had been Sadr supporters, and 
they complained that militias, or the security forces loyal to 
the Supreme Council, the Badr organization, had targeted them. 
And they distributed videos of dead children and dead families, 
houses that had been burned, et cetera, and they were very 
bitter, and they also threatened to resume fighting.
    Now, it's wrong to view the clashes in Basra last week as 
between the Mahdi Army bad guys and the Iraqi Government good 
guys. They were between rival militias for control over 
resources, over voters, and the Iraqi Security Forces 
themselves are divided in their loyalty, hence the Iraqi Army 
units that fought in the south, were recruited from the south, 
and they were loyal to the Supreme Council. Elsewhere, we saw 
that the Iraqi police units--most of them who are loyal to the 
Mahdi Army--refused to fight. And many of the soldiers are also 
loyal to the Mahdi Army.
    As we saw, were it not for the American military and Air 
Force, the Iraqi Army could not have stood up to the Mahdi 
Army, and the Mahdi Army would have had no reason to sue for 
peace, as it did.
    Muqtada al-Sadr's movement is the most popular movement in 
Iraq today, and the most powerful one. The Sadrs started a 
large humanitarian organization in Iraq, as well. They provide 
the most aid to the most people--their supporters, mostly, but 
that's true, nevertheless.
    The one bright spot you could see in the recent fighting in 
the south is that this inter-Shia fighting means that there's 
no longer a united Shia block that can purge Sunnis. The Badr 
organization, the Mahdi Army, had worked together quite closely 
in expelling Sunnis from Baghdad and elsewhere, and killing 
them and operating as death squads. That's not going to happen 
anymore, now that the rivalry between them is so intense. And 
the hatred between them is intense, and it's real.
    So, as a result, we might see cross-sectarian alliances 
between different militias, Sunni militias aligning with Shia 
militias, such as the Sudras, when it comes to issues of 
federalism, when it comes to the elections in the future, and 
perhaps that means that at least the most frightening scenario 
of a Sunni/Shia war spreading throughout the region, is no 
longer as realistic.
    Many Americans are unaware, and this hasn't come up in 
today's meeting, as well, that the American military is not a 
benign presence in Iraq. While things aren't--the occupation 
isn't as brutal as it once was, it's still very brutal. And a 
foreign military occupation is a systematic position of 
violence and terror on an entire people. American soldiers are 
not in Iraq as peacekeepers or policemen, and they're also not 
helping the Iraqi people. The numerous and routine raids that 
Americans engage in, terrorize an entire population. I've gone 
on many of these raids, and I've experienced that terror 
myself.
    Tens of thousands of Iraqi men are arrested, the majority 
of them are innocent, they're never charged with anything, 
they're never tried, their homes are destroyed, their families 
traumatized. Children watch their fathers being taken away for 
a day, for 2 years, and perhaps eventually they're released.
    At least 24,000 men are still in American-run prisons in 
Iraq. At least 900 of those are juveniles. Now, even when the 
Americans hand over a fraction of the Iraqi prisoners to Iraqi 
authorities, if Iraqi authorities find them innocent, the 
Americans can still hold them, these are called ``on-hold 
cases,'' and there are 500 cases of Iraqis who are being held 
by the Americans after they were found innocent of anything, of 
committing any crime by Iraqi authorities.
    Now, of course, the international human rights 
organizations are loathe to make the recommendation that the 
Americans hand their prisoners over to the Iraqis, because it's 
well known that it's much better to be held by the Americans 
than to be held by the Iraqis. And I have witnessed a situation 
where Sunni leaders in an area complained to the American 
officers in the area, ``Why did you let the Iraqi Police arrest 
them? Why can't you arrest our men?'' Because at least they 
know they won't be executed when they're being held in American 
detention. The conditions in the Iraqi prisons are really 
horrifying, and the women's prison in Kadhmiya, the female 
prisoners are routinely raped by their Iraqi prison guards.
    And conditions in the Iraqi prisons got much worse during 
the surge, because the Iraqi system couldn't cope with the 
massive influx of prisoners.
    I visited, while I was there, numerous Iraqi ministries and 
government offices. This is the Muharram Month, the Shia holy 
month, during which they have Ashura celebrations, ceremonies 
are held. In all of the government buildings I visited, there 
were Shia religious banners on all of the walls, Shia flags on 
top of the buildings, radios and television stations inside 
these government buildings were tuned in to Ashura ceremonies, 
the Karbala. And this creates the impression among Sunnis that 
there's a Shia ownership of the government. And Sunnis, who 
feel that they are excluded and unwanted, which is true--this 
sort of reinforces that.
    But, in truth, the government is irrelevant, anyway. It 
provides no services, not even the fundamental monopoly on the 
use of violence. So, the focus we have here on the government, 
on laws being passed, it's a distraction, because power is 
really in the hands of militias in the street, and these 
militias are very small--local, neighborhood militias that 
sometimes are formed from local soccer leagues, local gangs 
from before the war, where the gang leaders became Mahdi Army 
leaders, or resistance leaders.
    I met Iraqi National Police officers while I was in Baghdad 
who complained to me that all of their men were loyal to the 
Mahdi Army, and that many of their commanders were loyal to the 
Badr organization. And if they were suspected of disloyalty, 
then their own men would turn them into Shia militias. And 
Mahdi Army commanders had come into police stations, and 
threatened Shia police officers who were suspected of not being 
sufficiently loyal to the Mahdi Army.
    I was actually in the neighborhood of Washash, which is 
close to the Mansour neighborhood, it's a Shia slum adjacent to 
the rich Mansour neighborhood, and I was filming over there for 
a documentary, and it's controlled by the Mahdi Army, but sort 
of a rogue Mahdi Army group that's disliked by other members of 
the Mahdi Army, and they were complaining to me about how the 
Iraqi Army abuses them in a sectarian in their area.
    And as I was filming, the Iraqi Army came in, because they 
were upset that there was a journalist there. So, the Mahdi 
Army said, ``Don't worry, we'll smuggle you out through the 
back, we'll take you to the Iraqi police.'' And behind one of 
the concrete blast walls, there were a couple of Iraqi National 
Police vehicles. And the men said, ``Don't worry, these guys 
are with us.''
    The Iraqi Police were with the Mahdi Army, so I was handed 
by the Mahdi Army to Iraqi police to protect me from the Iraqi 
Army. This sort of stuff is quite common.
    You mentioned, in closing, a few recent developments, 
reconciliation, the de-Baathification law--the de-
Baathification law served to only alienate more Sunnis, because 
it was perceived as actually being more Draconian that what had 
previously been in place.
    There have been many recent steps--legal steps--that 
alienated Sunnis further. The release of two Health Ministry 
officials, who are widely known to be members of Shia death 
squads was a huge insult to Sunnis.
    The reconciliation--to the extent it's occurring--is 
occurring between Iraqis and the Americans, not between Iraqis 
and one another. There's zero political reconciliation, zero 
reconciliation between the communities, they're more and more 
divided, they're separated by concrete blast walls, and within 
these communities that are being created--these sort of ``city 
states'' throughout the country--everything that is essential 
for life is available there. So, we're creating power stations 
there that are separate from the national power grid, we're 
creating neighborhood advisory committees, district advisory 
committees, that are separate from the government, sort of 
independent institutions, further undermining the Iraqi state.
    It appears to me that the future of Iraq, in the best case 
scenario, is a Somalia-like situation, where powerful warlords 
are able to consolidate control, at least over some 
territories, and I imagine that those warlords who are in 
control of areas that are rich in resources, will receive 
foreign backing from the Americans, from the Saudis, et cetera, 
but it's also quite possible that civil war will be reignited.
    There's a key flashpoint in East Baghdad, Adhamiya, where 
the Abu Hanifa Mosque is, the most important Sunni mosque in 
Baghdad. Hundreds of thousands of Sunni pilgrims used to go 
there, Abu Hanifa is a theologian who was sacred to many Sunnis 
around the world. The Mahdi Army has been trying to hit that 
mosque with mortars for a long time, in retaliation for the 
Samarra attack. It's the last Sunni stronghold in East Baghdad. 
If that mosque were to fall to Shias, you could see Sunnis 
throughout the whole region being galvanized. There are many 
flashpoints, and the violence that we saw last year, could 
really reignite tomorrow, it could happen at any moment.
    [The prepared statement of Mr. Rosen follows:]

Prepared Statement of Nir Rosen, Fellow, New York University, Center on 
                     Law and Security, New York, NY

    The Bush administration and the U.S. military have stopped talking 
of Iraq as a grand project of nation-building, the American media have 
dutifully obeyed, and they, too, have abandoned any larger narrative, 
presenting Iraq as a series of small pieces. Just as Iraq is being 
physically deconstructed so, too, is it being intellectually 
deconstructed, not as a state undergoing transition but as small 
stories of local heroes and villains, of well-meaning American 
soldiers, of good news here and progress there. But the whole, in this 
case, is less than the sum of its parts.
    In May 2002 the newly arrived American proconsul for Iraq, Paul 
Bremer, promulgated an edict that unceremoniously disbanded the former 
ruling Baath Party as well as the Iraqi Army, police, and other 
security services. Hundreds of thousands of men were left jobless and 
Iraqis began to perceive the Americans as occupiers, not liberators. 
The ideologues behind this war believed Iraq was a state in which Sunni 
Muslims ruled Shiite Muslims. Most Muslims in the world are Sunnis. 
Shiites, a majority in Iraq and Iran, descend from a dispute over who 
should lead the Muslim community. Iraq has no history of serious 
sectarian violence or civil war between the two groups, and most Iraqis 
viewed themselves as Iraqis first, then Muslims, with their sects 
having only personal importance. Intermarriage was widespread and 
indeed most Iraqi tribes were divided between Sunnis and Shiites. The 
Baath Party which ruled Iraq for four decades had a majority Shiite 
membership. And the Iraqi Army, though a nonsectarian institution that 
predated the coming of the Baathists, was also majority Shiite, even in 
its officer corps.
    But the American ideologues who saw themselves as liberators needed 
an evil worthy of their lofty self-image. To them the Baath Party was a 
Sunni Nazi Party that ruled Shiite Jews. They would de-Baathify just as 
their role models had de-Nazified. Sunnis were suspect of loyalty to 
the former regime and as a result the American military adopted a more 
aggressive posture in majority Sunni areas, resulting in clashes in 
places like Falluja that indeed led to the formation of a powerful 
popular resistance. Sunnis were weakened by the fact that Saddam, a 
Sunni himself, from attaining too much popularity or power, to avoid 
rivals. Sunni Muslims also lacked any charismatic religious leaders who 
could represent the community. Shiite Islam on the other hand has an 
established hierarchy with only a few key clerical leaders that Shiites 
can follow.
    Today Iraq does not exist. It has no government. It is like 
Somalia, different fiefdoms controlled by warlords and their militias. 
I have spent most of the last 5 years since April 2003 in Iraq, with 
Iraqis, focusing on their militias, mosques, and other true centers of 
power. Events in the Green Zone or International Zone were never 
important, because power was in the street since April 2003. When the 
Americans overthrew Saddam and created a power vacuum, massive looting 
followed. That first month of occupation there was enormous hope, but 
the looting created an atmosphere of pervasive lawlessness from which 
Iraq never recovered. The entire state infrastructure was destroyed and 
there were no security forces, Iraqi or American, to give people a 
sense of safety. They quickly turned to inchoate militias being formed, 
often along religious, tribal, and ethnic lines. Those same militias 
dominate Iraq today. This would have happened anywhere. If you removed 
the government in New York City, where I am from, and removed the 
police, and allowed for the state infrastructure to be looted and then 
you dismissed the state bureaucracy you would see the same thing 
happen. Soon Jewish gangs would fight Puerto Rican gangs and Haitan 
gangs would fight Albanian gangs.
    The most powerful militias belong to Shiites who rallied around 
populist symbols such as Muqtada al-Sadr. The Americans then fired the 
entire state bureaucracy, and for some Shiite leaders, this was an 
opportunity to seize control. While many Sunni clerical and tribal 
leaders chose to boycott the occupation and its institutions, many of 
their Shiite counterparts made a devil's bargain and collaborated. The 
Americans maintained their sectarian approach, unaware that they were 
alienating a large part of Iraqi society and pitting one group against 
the other. Most of the armed resistance to the occupation was dominated 
by Sunnis, who boycotted the first elections, effectively voting 
themselves out of Iraqi politics. Radical Sunni militants began to 
attack Shiites in revenge or to provoke a civil war and disrupt the 
American project. Sectarian fundamentalist Shiite parties dominated the 
government and security forces and punished Sunnis en masse. By 2005 
the civil war started. Later that year the Americans realized they had 
to bring Sunnis into the fold, but it was too late, the Shiites in 
power saw no reason to share it.
    Millions of refugees and internally displaced Iraqis fled their 
homes, while tens of thousands died in the fighting. But by 2007 it was 
clear the Shiites had won. The Americans began to realize they were 
empowering the Iraqi allies of Iran, the next target in their plans for 
a ``new Middle East.'' They also felt the pressure from Sunni Arab 
dictators in Egypt, Jordan, and Saudi Arabia, the so called 
``moderates,'' who feared Iran's populist and antiimperialist message, 
its support for groups such as Hamas and Hezbollah who resisted Israel 
and made the ``moderates'' look like sell outs.
    The Bush administration was also feeling pressure on the home 
front. The war was unwinnable and unpopular. Victory was an empty and 
undefined term and the motives for the war were constantly changing. In 
2007, when most reasonable observers were calling for a reduction of 
American troops and an eventual withdrawal, the Bush administration 
decided to increase the troops instead. The immediate impact was 
nothing, and since it began nearly 1 million Iraqis fled their homes, 
mostly from Baghdad, and Baghdad became a Shiite city. So one of the 
main reasons less people are being killed is because there are less 
people to kill. This is a key to understanding the drop in violence. 
Shiites were cleansed from Sunni areas and Sunnis were cleansed from 
Shiite areas. Militias consolidated their control over fiefdoms. The 
violence in Iraq was not senseless, it was meant to displace the 
enemy's population. And if war is politics by other means, then the 
Shiites won, they now control Iraq. Fortunately for the planners of the 
new strategy, events in the Iraqi civil war were working in their 
favor. The Sunnis had lost. They realized they could no longer fight 
the Americans and the Shiites, and many decided to side with the 
Americans, especially because many Sunnis identified their Shiite enemy 
with Iran, America's sworn enemy as well. The Americans armed both 
sides in the civil war. David Kilcullen, the influential Australian 
counterinsurgency adviser, defined it as ``balancing competing armed 
interest groups.'' Though supporters of the war touted the surge as a 
success, they forgot that tens, if not hundreds, of thousands of Iraqis 
who have been killed, the millions displaced, and the thousands of dead 
and wounded Americans just so that violence could go back to the still 
horrifying levels of just a couple of years ago.
    At the same time that the Sunnis were realizing they had lost the 
civil war, Muqtada al-Sadr realized his militia was out of his control, 
and he feared its clashes with Americans, Sunnis, and fellow Shiites 
would threaten his own power. Moreover he knew that his militia was the 
main target for the increased American troops. So he imposed a 
``freeze''--often mistranslated as a cease-fire--on his powerful 
militia so that he could ``reform'' it. The Americans had declared that 
the Mahdi Army would be targeted so the Mahdi Army largely withdrew to 
wait for the eventual reduction in American troops. The Mahdi Army was 
also ill-disciplined and out of control, so Muqtada took advantage of 
the opportunity to consolidate control of his men and root out the 
unruly ones. When the Mahdi Army Freeze began there was an immediate 
and huge drop in violence, which shows just how responsible they were 
for the violence.
    At the same time the Sunni militias imposed their own cease-fire. 
They had been battling the Americans, the Shiite, and al-Qaeda and 
failed on all fronts. Resistance to the occupation had not succeeded in 
liberating Iraq or in seizing power or overthrowing the government. The 
Shiite militias had won the civil war and Sunnis were being purged from 
Baghdad and from the Iraqi state. Most of the Iraqi refugees were also 
Sunnis. Al-Qaeda, which initially had been useful in protecting Sunni 
areas from the Americans and the Shiites was now out of control, 
imposing a reign of terror in Sunni areas. As a result Sunni militiamen 
began to cooperate with the Americans against al-Qaeda. Members of the 
Sunni resistance who fought the Americans and engaged in organized 
crime grew weary of the radicals in the Anbar province who undermined 
traditional authority figures and harmed their smuggling routes and 
highway robbery and rebelled against them. These new militias, called 
Awakening groups, Sons of Iraq, Concerned Local Citizens, Critical 
Infrastructure Security Guards, and Iraqi Security Volunteers are 
largely former insurgents who have shifted tactics. This tactic worked 
best in the Anbar province and has partially worked in Baghdad, though 
many Iraqis fear that al-Qaeda has imposed its own cease-fire and is 
lying low to avoid its enemies. In the very violent Diyala and Mosul 
provinces the Anbar model has so far not succeeded. Like the Mahdi 
Army, the Sunni militias hope to wait for the Americans to reduce their 
troop levels before they resume fighting Shiite militias. Joining these 
American backed militias has given them territory in Baghdad and 
elsewhere that they now control. These Sunni militias also have 
political goals and are attempting to unite to become a larger movement 
that will be able to regain Sunni territory and effectively fight the 
Shiite militias and the Shiite-dominated government, which they call an 
``Iranian Occupation.''
    These Awakening groups are paid by the U.S. military and operated 
in much of the country, employing former fighters and often empowering 
them, to the consternation of the Shiite-dominated government as well 
as the Shiite militias, who thought they had defeated the Sunnis, just 
to see them trying to regain power through the backdoor. So although 
militias and an irrelevant central government were among the main 
problems in Iraq, the Americans were creating new militias. They called 
it ``Iraq solutions for Iraqi problems.'' By accepting money from the 
Americans, Sunni militiamen rid themselves of the onerous Americans as 
well. The Americans think they have purchased Sunni loyalty, but in 
fact it is the Sunnis who have bought the Americans, describing it as a 
temporary cease-fire with the American occupation so that they can 
regroup to fight the ``Iranian occupation,'' which is how they refer to 
the Shiite-dominated government and security forces.
    In both cases, the militiamen are chafing under the restrictions 
placed on them. The Mahdi Army fighters are losing power on the street 
since they have withdrawn. They are frustrated that the Americans still 
target them for arrests and that security forces loyal to rival Shiite 
militias such as the Badr militia are also targeting them. They worry 
about the creation and empowerment of new Sunni militias. Some Mahdi 
Army groups ignore the cease-fire or reject Muqtada al-Sadr's command, 
others merely grow impatient and hope to confront the Americans and the 
Sunnis once again. Sunni militiamen were promised that 20 percent of 
them would be integrated into the Iraqi Security Forces. This has not 
happened. Instead they clash regularly with Iraqi Security Forces and 
are rejected by the Government of Iraq. Often the Americans are late in 
paying them as well. They increasingly feel humiliated and threaten to 
resume fighting. The American military cannot for much longer sustain 
the increased number of troops it has in Iraq. It will be forced to 
reduce its numbers. When this occurs and there is increased space for 
Sunni and Shiite militias to operate in, they will resume fighting for 
control over Baghdad and its environs. The Government of Iraq is 
dominated by sectarian Shiite Islamist parties. They also dominate the 
security forces which often targeted Sunni civilians for cleansing. The 
Government and Security Forces also worry about the empowered Sunni 
militias who they will one day have to fight again. As we saw last 
week, rival Shiite militias are also bitter enemies. The clashes 
throughout Shiite areas of Iraq were not between the Mahdi Army bad 
guys and the Iraqi Government good guys. They were between more 
nationalist and populist, and popular, Shiite militias who reject the 
occupation and are opposed to federalism and on the other side the 
Shiite militias such as Badr who collaborate with the Americans and are 
competing for power, territory, resources, and votes with the Mahdi 
Army. The Iraqi security forces are divided in their loyalties and 
hence the Iraqi Army units that fought in the south were recruited from 
areas where they were more likely to be loyal to the Iraqi Supreme 
Islamic Council, formerly the Supreme Council for the Islamic 
Revolution in Iraq, and its Badr militia. As we saw, were it not for 
the American military and air force, they could not have stood up to 
the Mahdi Army anyway. Muqtada's Sadrist movement is the most popular 
movement in Iraq today and his militia is the most powerful one. The 
one bright spot in the recent increase in violence between Shiite 
militias is that it marks the end of the Sunni-Shiite civil war. There 
will no longer be a Shiite bloc united in fighting Sunnis as there was 
in the past, when Badr and the Mahdi Army collaborated to expel and 
kill Sunnis. Now we may start to see cross sectarian alliances between 
militias.
    Now thanks to the Americans, the Sunnis, formerly on the run, are 
once again confident, and control their own territory. The Mahdi Army 
is consolidating its forces, ridding itself of unruly elements and 
waiting for the inevitable reduction in American troops. Iraqi Security 
Forces will also be able to once again operate with impunity when there 
are less Americans present. Both sides are getting ready to resume 
fighting. Refugees International is concerned that when violence 
resumes there will be fewer options for displaced Iraqis. Syria and 
Jordan, the main safe havens for Iraqis in the first round of the civil 
war, have now virtually closed their borders to new Iraqis. 
Additionally, 11 of Iraq's 18 provinces have closed their borders to 
internally displaced Iraqis. There will be nowhere to run to and as a 
result large-scale massacres may occur.
    Iraq remains an extremely unstable and failed state, with many 
years of bloodshed left before an equilibrium is attained. There is no 
reconciliation occurring between the two warring communities, and 
Shiites will not allow the territorial gains they made to be chipped 
away by Sunnis returning to their homes, or Sunni militias being 
empowered. Violence is slightly down in Iraq in large part because the 
goal of the violence, removing Sunnis from Shiite areas and Shiites 
from Sunni areas, has largely succeeded, and there are less people to 
kill. Baghdad and much of Iraq resemble Somalia. Warlords and their 
militiamen rule neighborhoods or towns. In many cases displaced Iraqis 
are joining these militias. There is no serious process of 
reconciliation occurring between the communities. Armed groups are 
preparing for the next phase of the conflict. Shiites will not allow 
the gains they made to be chipped away by returning Sunnis and the ISVs 
or Sahwa are intent on fighting the ``Iranians,'' which is how they 
describe the government and virtually all Shiites.
    The Americans have never grasped the importance of ideology and of 
the idea of resisting an occupation. They have insisted that Iraqis 
joined militias and the resistance for the money, and so they believe 
that they are now joining the American-backed Sunni militias for the 
money too. The Sunnis the Americans are paying joined the resistance 
not for money but out of a desire to fight the occupation, to protect 
themselves, to seize power, to kill Shiites and ``Persians,'' and for 
an array of other reasons, none of them related to money. Likewise men 
don't join the Mahdi Army, which does not even provide salaries, for 
the money, but out of loyalty to the Sadrist movement, to Muqtada and 
his father, out of solidarity with their dispossessed Shiite brethren, 
out of fear of Sunni attacks, resentment of the American occupation and 
other reasons.
    Most embedded journalists, just like embedded politicians and 
embedded members of think tanks on Washington's K Street or 
Massachusetts Avenue, lack language skills and time on the ground in 
Iraq--and since they are white, they cannot travel around Baghdad 
without attracting attention and getting kidnapped or killed. They know 
nothing about Iraq except what they gain through second- or third-hand 
knowledge, too often provided by equally disconnected members of the 
U.S. military. Recently we have seen positive articles about events in 
Iraq published by so-called experts such as Anthony Cordesmen, Michael 
O'Hanlon, Kenneth Pollock, Fred Kagan, and even former members of the 
Coalition Provisional Council such as Dan Senor. These men speak no 
Arabic and cannot get around without their babysitters from the 
American military. But it seems that the more they get wrong, these and 
other propagandists for the war, such as Thomas Friedman, manage to 
maintain their credibility.
    They should ask Iraqis, or those journalists who courageously risk 
their lives to spend enough time with Iraqis to serve as their 
interlocutors--such as Leila Fadel of McClatchy, Ghaith Abdel Ahad of 
the Guardian or Patrick Cockburn of the London Independent--what is 
actually happening in Iraq, rather than continue to deceive the 
American people with the fantasy of ``victory.'' It is true that fewer 
American soldiers are dying today, but that is not the proper metric 
for success. Of course less Americans are dying. In 2006 the conflict 
in Iraq stopped being a war of national liberation against the American 
occupation and became chiefly a war between Iraqis for control of Iraq. 
The proper standard for judging Iraq is the quality of life for Iraqis, 
and sadly, for most Iraqis, life was better under Saddam.
    There is no reconciliation occurring between the various sects and 
ethnic groups, the warring communities, and Shiites will not allow the 
territorial gains they made to be chipped away by Sunnis returning to 
their homes, and they are determined to keep the Sunni militias out of 
power. Violence is slightly down in Iraq in large part because the goal 
of an earlier stage of the conflict--removing Sunnis from Shiite areas 
and Shiites from Sunni areas--has largely succeeded, and there are 
fewer people to kill. There may be many years of bloodshed left before 
equilibrium can be attained.
    Many Americans are also unaware that a foreign military occupation 
is a systematic imposition of violence and terror on an entire people. 
American soldiers are not there as peacekeepers or policemen, they are 
not there to ``help'' the Iraqi people. At least 24,000 Iraqis still 
languish in American-run prisons. At least 900 of these are juveniles, 
some of whom are forced to go through a brainwashing program called the 
``House of Wisdom,'' where American officers are arrogant enough to 
lecture Muslims about Islam. The Americans are supposed to hand over 
Iraqi prisoners to Iraqi authorities, since it's theoretically a 
sovereign country, but international human rights officials are loath 
to press the issue because conditions in Iraqi prisons are at least as 
bad as they were under Saddam. One U.S. officer told me that 6 years is 
a life sentence in an Iraqi prison today, because that is your 
estimated life span there. In the women's prison in Kadhmiya prisoners 
are routinely raped.
    Conditions in Iraqi prisons got much worse during the surge because 
the Iraqi system could not cope with the massive influx. Those 
prisoners whom the Americans hand over to the Iraqis may be the lucky 
ones, but even those Iraqis in American detention do not know why they 
are being held, and they are not visited by defense lawyers. The 
Americans can hold Iraqis indefinitely, so they don't even have to be 
tried by Iraqi courts. A fraction are tried in courts where Americans 
also testify. But we have yet to see a trial where the accused is 
convincingly found guilty and there is valid evidence that is properly 
examined, with no coerced confessions. Lawyers don't see their clients 
before trials, and there are no witnesses. Iraqi judges are prepared to 
convict on very little evidence. But even if Iraqi courts find Iraqi 
prisoners innocent, the Americans sometimes continue to hold them after 
acquittal. These are called ``on hold'' cases, and there are currently 
about 500 of them. And the Americans continue to arrest all men of 
military age when looking for suspects, to break into homes and 
traumatize sleeping families at night, and to bomb heavily populated 
areas, killing civilians routinely. Most recently the Americans killed 
civilians while bombing Tikrit and now 5 years into a war allegedly to 
liberate Shiites the Americans are bombing Shiite areas, serving as the 
air force for the Dawa party and the Badr militia.
    I visited numerous Iraqi ministries and government offices in 
January and February. It was the Shiite holy month of Muharram and 
Shiite flags and religious banners covered these buildings. Radios and 
televisions in government offices were tuned in to Shiite religious 
stations. This creates the impression of Shiite ownership of the 
government among Sunnis, a feeling that they are excluded and unwanted, 
which is true. But the government is irrelevant anyway, it provides no 
services, not even the fundamental monopoly on the use of violence. So 
the focus we have back in Washington on laws being passed is flawed, 
power is in the hands of militias whose leaders are not in the Green 
Zone, so events there are a distraction.
    Driving to the Amriya district in western Baghdad last month, my 
friend pointed to a gap in the concrete walls the American occupation 
forces have surrounded this Sunni bastion with. ``We call it the Rafah 
Crossing,'' he laughed, referring to the one gate to besieged Gaza that 
another occupying army occasionally allows open. Iraqi National Police 
loyal to the Mahdi Army had once regularly attacked Amriya and Sunnis 
caught in their checkpoints which we drove through anxiously would not 
long ago have been found in the city morgue. Shiite flags these 
policemen had recently put up all around western Baghdad were viewed as 
a provocation by the residents of Amriya. Our car lined up behind 
dozens of others which had been registered with the local Iraqi Army 
unit and were allowed to enter and exit the imprisoned neighborhood. It 
often took 2 or 3 hours to finally get past the American soldiers, 
Iraqi soldiers, and the ``Thuwar,'' or revolutionaries, as the Sunni 
militia sanctioned by the Americans to patrol Amriya was called. When 
it was our turn we exited the vehicle for Iraqi soldiers to search it 
as an American soldier led his dog around the car to sniff it and I was 
patted down by one of the Sunni militiamen. Not knowing I was American, 
he reassured me. ``Just let the dog and the dog that is with him finish 
with your car and you can go,'' he laughed.
    We drove past residents of Amriya forced to trudge a long distance 
in and out of their neighborhood past the tall concrete walls, because 
their cars had not been given permission to exit the area. Boys labored 
behind push carts, wheeling in goods for the shops that were open. One 
elderly woman in a black robe sat on a push cart and complained loudly 
that the Americans were to blame for all her problems. Amriya had been 
a stronghold of the Iraqi resistance since the early days of the 
occupation, and after Falluja was destroyed in late 2004 resistance 
members as well as angry displaced Sunnis poured in. Shiites were 
attacked, even if they were former Baathists, their bodies found lying 
on the streets every day, and nobody was permitted to touch them.
    Forty percent of Amriya's homes were abandoned, their owners were 
expelled or had fled and over 5,000 Sunni families from elsewhere in 
Iraq had moved in, mostly to Shiite homes. Of those who had fled to 
Syria, about one-fifth had returned in late 2007 when their money ran 
out. This Ministry of Migration, officially responsible for displaced 
Iraqis, did nothing for them. The Ministry of Health, dominated by 
sectarian Shiites, neglected Amriya or sent expired medicines to its 
clinics. There was no hospital in the area but Amriya's Sunnis were too 
scared to go to hospitals outside, because Shiite militias might kidnap 
and kill them. Like elsewhere in Iraq, the government run ration 
system, upon which nearly all Iraqis had relied upon for their 
survival, did not reach the Sunnis of Amriya often, and when it did 
most items were lacking. Children were suffering from calcium shortages 
as a result. Over 2,000 children were made orphans in Amriya in the 
last few years. This is Baghdad today. Fiefdoms run by warlords and 
militiamen. The Americans call them gated communities. In various Sunni 
and Shiite neighborhoods I found that displaced Iraqis were 
overwhelming joining militias. They were said to be more aggressive 
than locals.
    Around the same time I was smuggled into the Shiite bastion of 
Washash, a slum adjacent to the formerly upscale Mansur district. 
Unusually for a Shiite area, Washash was walled off as well. ``We are 
like Palestine,'' one local tribal leader told me. I first visited 
Washash in April 2003, when its unpaved streets were awash with sewage 
and the nascent Shiite militia of Muqtada Sadr, the Mahdi Army, was 
asserting itself. Not much had changed but the Mahdi Army now firmly 
controlled the area and had brutally slaughtered or expelled nearly all 
the Sunnis. Mahdi Army raids into neighboring Mansur to fight al-Qaeda 
or otherwise terrorize locals had prompted the Americans to surround 
Washash with walls, wiping out its markets which had depended on the 
surrounding districts for their clientele. Washash's Shiites complained 
that the Iraqi Army had besieged them and the commander of the local 
unit was sectarian, punishing them collectively. The Mahdi Army 
provided what services they had, and as Mahdi Army men gave me a tour 
and I filmed them on the main intersection and by the walls that kept 
them in, somebody alerted the Iraqi Army and its soldiers came in 
looking for me. Mahdi Army men smuggled me out through a small exit in 
the concrete walls, handing me over to Iraqi National Police for 
protection from the Iraqi Army. ``They are from our group,'' meaning 
from the Mahdi Army, the Shiite militiamen assured me when they handed 
me over to their comrades in the police.
    I met Iraqi National Police officers who complained to me that all 
their men were loyal to the Mahdi Army and their commanders were loyal 
to the Mahdi Army or the Badr militia. If they were suspected of 
disloyalty to the Shiite militias their own men informed on them and 
the Mahdi Army threatened them with the knowledge of their superior 
officers.

    The Chairman. Very encouraging. [Laughter.]
    I'm being a bit facetious, but let me ask you--we'll do 7-
minute rounds. Based on what you've--and you've had obviously 
extensive experience, you demonstrate and with--I'll not make a 
judgment whether it was good or well-founded reasons that you 
point out all the other so-called experts don't speak the 
language, haven't been on the ground, don't--haven't walked the 
walk, as I would say--that you've walked. But, based on what 
you've said, there's really no hope, we should just get the 
hell out of there right now, right? I mean, there's nothing to 
do. Nothing.
    Mr. Rosen. As a journalist, I'm uncomfortable in advising, 
sort of an imperialist power, about how to be a more efficient 
imperialist power. And I don't think that we're there for the 
interest of the Iraqi people, I don't think that's ever been a 
motivation.
    However, I have mixed emotions on that issue. Many of my 
Sunni friends, beginning about a year ago, many of them who 
were opposed to the Americans, who supported attacking American 
troops in Iraq, began to get really nervous about the idea of 
the Americans leaving Iraq. Because they knew that there would 
be a massacre. It could be Rwanda the day the Americans leave.
    And the creation of these Sunni militias--the Awakening 
groups--militates against that kind of a massacre of civilians 
occurring, because now there are actually Sunni safe zones, and 
thousands of Sunnis from Shia areas are inhabiting territories 
that are controlled by the Sunni militia.
    But, I do believe if the Americans were to withdraw, then 
you would see an increase in violence--at least temporarily--
until some sort of equilibrium is reached----
    The Chairman. But the good news is, we wouldn't be 
imperialists anymore in Iraq, from your perspective.
    Mr. Rosen. Only elsewhere in the region.
    The Chairman. Only elsewhere in the region. [Laughter.]
    I'm sure glad we invited you, let me tell you. [Laughter.]
    Mr. Rosen. There's really no--there's no positive scenario 
in Iraq these days. Not every situation has a solution.
    The Chairman. Gotcha. No, no--I'm not suggesting that there 
is a solution. I--it seems as though that you've made a--from 
your testimony it's pretty clear that there is no solution. And 
the status quo's not a good thing. There's no political 
solution. You make the case very compellingly that there is 
good reason for the bad guys in the central government not to 
want the Sunnis there, because the Sunnis only want to gain 
power in order to take power, and to deal and go after the 
Iranian occupation agents, who are the present--the government, 
et cetera, so I don't see any mix there that, where there's any 
political ground upon which to settle disputes intra-Shia/Shia 
or inter-Sunni/Shia, or for that matter, the Kurds.
    So, I'm not taking issue with your description, I'm just--
want to make sure I understand what you're saying. And that is 
that there doesn't seem to be any solution, except possibly our 
continued presence may mitigate in the direction of allowing 
one side or other to build up more capability, so that when we 
do leave, they will be better positioned to be able to have 
their grievances--better able to be dealt with, because they're 
more powerful.
    Mr. Rosen. Yes.
    The Chairman. That's a pretty--OK.
    Gentlemen, to the nonimperialist side of the witness 
stand----
    [Laughter.]
    The Chairman. Let me ask you, you both talk about the idea 
that there is--there is some progress made, there is some 
relative optimism about the politics, but it seems to depend on 
the continued presence of a large American military force.
    First of all, is that premise correct? Listening to both of 
you, both of you believe that there's a need for continued 
large American presence for some time. And that seems to fly in 
the face of what we heard from the previous panel this morning, 
three Generals, and an analyst who--basically stating not their 
opinion, but their judgment--that this is over. The idea that 
we're going to be able to sustain a large American presence in 
Iraq for the next 2, 3, 4, 5 years is not possible.
    And so the real question I have--what, if anything, can we 
do to positively influence the politics, and political 
compromise that you believe is necessary to be able to leave 
something stable behind in the context of what many observers 
believe is an inevitability of significant and continued 
drawdown of American military forces in Iraq? That's my 
question, and then I'll yield to my colleagues.
    Either one of you, if you would.
    Mr. Said. Yes, the answer to your question is yes, I think 
that the progress, I think even Nir agrees that there has been 
some progress, that there has been some reduction in the 
violence.
    Mr. Rosen. Yes.
    Mr. Said. He attributes it mostly to the fact that ethnic 
cleansing has taken place, and I agree that this is a big part 
of the picture. But I do think that some of the policies that 
have been employed by the U.S. forces, and by General Petraeus 
have worked. The localized cease-fires, the new ones that the--
--
    The Chairman. They've worked in the sense that they've 
reduced violence.
    Mr. Said. Reduced violence. They've worked in the sense of 
reducing violence, which means saving lives.
    The Chairman. Right.
    Mr. Said. Which means that thousands of Iraqis are alive 
today that wouldn't have been, otherwise. It's a very big 
difference.
    They have actually worked, and I think in this case, 
inadvertently, in producing the beginning of a political 
solution. But the political solution is not an amicable one, 
it's not one that is negotiated in the Green Zone, and in this 
respect, I fully agree with Nir--that the negotiations in the 
Green Zone are meaningless.
    But political solutions and things are crystallizing, in 
terms of identifying political constituencies, that's going to 
eventually come to power, and want a more or less coherent 
Iraqi state.
    Now these forces are not necessarily very pretty. These are 
not the nice dissidents, democrats who came with the United 
States into the Green Zone. And these are not the typical sort 
of Kurdish Sunni/Shis leaders, but some of these people are in 
the Awakening movement, and some of these people are within the 
Sadrists, some of these people are within the technocrats that 
are emerging today.
    And this is one area, by the way, where I would disagree 
with Nir, because it's the area where I have worked most in 
Iraq, which is with the state machinery. I think there is an 
Awakening that can buy into this machinery of the state. The 
things, matters, on the bureaucratic level, within the Ministry 
of Finance, within the Ministry of Oil, I mean some of the 
critical junctures of the Iraqi Government are beginning to 
stir, beginning to work more efficiently. Iraq has produced $41 
billion of money last year, of oil. Growth is expected to be 80 
percent, this year.
    So, there is some real progress. It's very minute, and it's 
not reflecting--and this I agree--that it's not reflecting an 
improvement of the daily lives of Iraqis, but there is 
progress, there are signs of hope.
    But the political solution, and again, I emphasize here, is 
about importance of maintaining succession, what the United 
States could do in terms of a guardian, in terms of a 
peacekeeper between now, and a year or two from now, is not 
guard an ethnic segregation, a la Bosnia, but to ensure that 
the political process proceeds as envisioned by law. That we 
have elections in October----
    The Chairman. But how does that occur?
    Mr. Said. It does not occur by, for example, there will be 
attempts between now and the elections in October and the 
elections next year, by those who are entrenched in power by 
the Skiri, by some of the Kurdish parties, to circumvent the 
political process, by going to a very decentralizing policy of 
federalism. By setting up regions in the south----
    The Chairman. But that's part of their Constitution, so 
you--it's interesting, and I'll end with this. I'm amazed by 
you guys when you come and testify. You pick the parts of the 
Constitution you like. You want the law to apply, but the 
portion of the law that you want to apply is selective. You 
want the law to apply on provincial elections, but you do not 
want the portion of the Constitution, which calls for the 
ability to set up regions. And it was supposed to be 
implemented within 6 months after the Constitution was put in 
place, but you all say, ``No, that's a very bad idea. Having 
federalism here, man, that's a bad idea, we can't let that 
happen.'' Yet, that's what the Constitution calls for.
    Mr. Said. I think that should happen after the elections, I 
think we have a caretaker----
    The Chairman. That's not what the law says, though. Let's 
just get it straight. Let's make sure we understand what the 
law, the law you keep invoking, the Iraqi Constitution does not 
prioritize it. It says from the get-go, any one of the 
governorates could chose to vote by a majority vote to become a 
region. A region can write its own constitution, and have its 
own domestic security, local security, and join with another 
governorate, or not.
    Now, I don't understand, you know, we get criticized for 
interfering, and for not interfering. And we interfered in the 
sense of saying, ``We don't think that's a good idea.'' So we 
kicked that can down the road, we used our influence to make 
sure it got kicked down the road, it kicks in now. April the 
15th or 17th.
    But I assume, if any one of the governorates wanted to have 
that vote now, you'd probably encourage us not to let them have 
that go forward, no?
    Mr. Said. No, I would not call for such interference in the 
political process. But, if the Iraqi Government does what seems 
to have happened in Basra recently, which is an attempt to 
prepare the ground to make sure that the vote in Basra goes the 
right way----
    The Chairman. Right.
    Mr. Said [continuing]. As in--as they want.
    The Chairman. I agree with you.
    Mr. Said. Then we should not be--at least the United States 
must not be part of that.
    The Chairman. OK. Well, I'm over my time by 3 minutes here, 
so let me yield now to the chairman.
    Senator Lugar. Thank you very much, Mr. Chairman.
    I'm struck by the fact that, your suggestion, Mr. Rosen, 
that conceivably Iraq might turn out to have some of the 
characteristics of Somalia, with warlords, and all of the 
aspects of that. But, what I'm wondering, if that is the case, 
and this would require an extension of the power of Somalia in 
one way or another--what does this mean with regard to the 
region?
    Is it conceivable, for instance, being the devil's advocate 
for a moment, that a situation that had all the governmental 
frailties of Somalia, but simply there in Iraq, does not make 
that much difference, with regard to Iran, or with regard to 
Saudi Arabia, Syria, Turkey. Or, does the fact that that you 
have a Somalia situation mean that they have increased 
difficulties, or that they perceive difficulties, in such a way 
that they prey upon this ``new Somalia.'' What is your reading 
of that situation?
    Mr. Rosen. I think it's in the interest of all of Iraq's 
neighbors that Iraq be a stable country, and that this civil 
war end. None of the countries are promoting that kind of 
instability, because it's against their best interests, 
economically, but certainly in terms of their refugee flows. I 
don't think that there's a very high likelihood of a regional 
war. I think we've seen that the Iranians and the Saudis, when 
they had their proxies in Lebanon, for example, come to blows, 
the Iranians and Saudis very quickly come to the table. There's 
a great fear in the region of the Iraq war drawing them in.
    I think that what you'll see, of course, is that Iraq's 
neighbors will support their own proxy militias, but not that 
they'll be drawn in significantly, but with the one lesson that 
everybody's learned from this, that nobody wants to be a 
foreign military presence in Iraq.
    And the Iranians, certainly, as close as some of the Shia 
militias are to them, the Sadrist movement is very hostile to 
Iran, very suspicious of them, and they were only pushed into 
some of them seeking shelter in Iran out of a real necessity, 
of a sense of persecution, no where else to go.
    But, Iran being the main concern--no other country in the 
region--other than Turkey--can really intervene militarily. The 
Syrians don't have that capability. Certainly, the Saudis and 
the Jordanians won't. The Saudis will use their money, just as 
they're using Saudi money now to support the creation of Sunni 
militias in Lebanon. So, too, if the Americans were to stop 
paying the Sunni militias, the Saudis would take over that 
role.
    I don't see the threat of a regional war--which is a 
relief. I think that the refugees--the continued presence of 
refugees in Syria and Jordan could undermine the stability of 
those countries. In many ways, people in the region perceive 
that as a second Palestinian refugee problem, but yet more 
extreme--much more significant in numbers, but also with more 
ties to militias back home.
    All of the countries in the region, of course, are pretty 
fragile themselves. No shortage of Sunni radical opposition in 
Jordan and Syria that could link up with dissident Sunni 
militias from Iraq, with the same ambitions of retaking 
Baghdad. But, I think those are long-term problems, and not 
ones that we're likely to see in the next few years.
    Senator Lugar. Let me just ask, last year I made a 
suggestion in a speech on the Senate floor that it would be 
advisable for the United States, which was on the threshold of 
inviting all of the countries that surround the country--and 
maybe others, in the European community, or the United Nations 
or anybody else--to sort of meet, side by side in the Green 
Zone and sit around a table and discuss each others' interests 
as they discussed Iraq.
    Such a conference, obviously, never occurred. There were a 
couple of attempts to bring together parties in various regions 
and then smaller meetings on specific issues--border security, 
displaced persons and refugees, and energy--but they met 
perhaps once each in the past year and dissipated in due 
course. The International Compact is a grander, 5-year vision 
for economic independence, but would such a regular meeting 
forum be effective in reinforcing efforts, or would it be a 
contribution the United States could make? Would this be a 
construction maneuver, or an imperialist one, if you perceive 
it?
    Mr. Rosen. Well, the Iraqis are always resentful, and they 
could complain, ``Why are foreign countries being brought in to 
negotiate our fate?'' The conflict in Iraq is between Iraqi 
groups, and while the neighbors have a role, I think it's also 
an exaggerated--I think, especially the role of Iran within the 
conflict in Iraq is exaggerated.
    I think it would be a very healthy step for the United 
States to engage Iran and Syria and not treat them as enemies, 
and recognize that they have legitimate interests when it comes 
to Iraq, but I don't think that engaging Iran and Syria would 
make much of a difference when it came to Iraq, because the 
conflict--it's not even a Bosnia-like situation, where you can 
bring Milosevic and Tudjman to the table, and Izetbegovic to 
the table--you don't have three leaders in Iraq, you have so 
many small militias, that at this stage, those types of leaders 
haven't emerged.
    So, it wouldn't matter what the leadership in Iran said, 
and Syria said. The guys on the ground in the small 
neighborhoods aren't going to obey that, they're going to look 
out for their own interests of their constituencies.
    Senator Lugar. Mr. Said.
    Mr. Said. Yes, I think there is an opportunity, actually, 
coming up, to allow not only for a more legitimate, 
international legitimate United States role in Iraq, but also 
for expanding international participation in that. And the fact 
that the U.N. Security Council authorization for U.S. forces, 
for the multinational forces, expires this year, and there is 
intention to proceed along a different line.
    And in this respect, I think the treaty that is being 
discussed today between the Iraqi Government and the United 
States Government is not necessarily the right way to proceed. 
I think what is needed is something with international 
legitimacy.
    Now, there's one conflict in Iraq that we haven't spoken 
about yet, which is nearing boiling point, which is the 
conflict over Kirkuk. And the special representatives to the 
Secretary General have recently called it a ticking bomb. And I 
think there is an opportunity there for the International 
Community to come together with a special United Nations 
Security Council Resolution for Kirkuk, in an attempt to 
preempt or to prevent a conflict, that will allow the United 
States to cast its role in Iraq from a different perspective--
not as an invader, but as a peacemaker, but also to bring in 
other parties to the table, other partners, to multilateralize 
efforts in Iraq in a way that hasn't been possible before.
    And I think this is something that will deserve an 
attention in the coming months. The status of Kirkuk that was 
supposed to be resolved in December has lapsed, they have made 
an extension until June, but there is no progress on that, and 
the Iraqi politicians are incapable of resolving that by their 
own.
    Mr. Rosen. If I could just bring up Kirkuk--people have 
been talking about Kirkuk as a powder keg, as a spark for civil 
war since 2003, and that hasn't been the case. And that's 
because it's so firmly in the hand of Kurdish security forces 
that there's no other force that can challenge their control of 
Kirkuk. And, it's basically a fait accompli--they own Kirkuk. 
Occasionally you can have a suicide car bombing, or something, 
but they dominate it, and I don't think that were they to seize 
it, it would--you would have some demonstrations in Baghdad, 
but there's nobody who could really confront them on that.
    And many of the Turkmen who previously had feared the 
Kurdish hegemony, and Kurdish nationalism--they now view life 
in the Kurdish-controlled area as better for them, many of them 
are quite wealthy in Kirkuk, better for them than living under, 
sort of, the rest of Arab Iraq, where life is much more 
dangerous. So, I don't think that Kirkuk is the powder keg, as 
it's often portrayed to be.
    Senator Lugar. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Kerry.
    Senator Kerry. Thank you.
    Mr. Rosen, I know you have written extensively, lived in 
and researched these conflicts--the elections in Afghanistan, 
Pakistan, Somalia, Iraq, obviously, Jordan--looking closely at 
the madrasahs and the Taliban and Zarqawi and his evolution, 
and so I ask if would share with us, using a little color, if 
you will--how do you get to go on these raids? And how do you 
assure your own safety in that context?
    Mr. Rosen. You need a good smile.
    Senator Kerry. Say again?
    Mr. Rosen. You need a good smile.
    Senator Kerry. That's the trick?
    Mr. Rosen. Yes. [Laughter.]
    People of every faction are very eager to get their point 
of view across, especially those who don't have access to----
    Senator Kerry. So, in your capacity as a journalist, you 
felt relatively able to move around?
    Mr. Rosen. Yes, admittedly, the last year in Iraq was much 
more difficult, and I've benefited in the ways--the media has 
benefited from the control, the increased control that warlords 
have over parts of Baghdad, because as a guy, you can call them 
up, and he'll guarantee your safety.
    Likewise, the Red Cross and other agencies are also 
benefiting from this, because like in Somalia and Afghanistan, 
they can now deal with the guy in charge with the gun.
    Senator Kerry. Based on all of this research that you've 
been able to do, and obviously you've drawn a lot of lessons, I 
assume, from the cultural divide, and the problems that exist. 
Let me ask you first, as a threshold question--did you hear the 
testimony this morning of the generals?
    Mr. Rosen. I did not.
    Senator Kerry. If I told you that three generals sat here 
this morning and told us that it is inevitable, in their 
judgment, that troops are going to drawdown, do you agree with 
that?
    Mr. Rosen. I do, certainly. I think that's the unanimous 
opinion of most Americans.
    Senator Kerry. Do you all agree?
    Mr. Said. That seems to be the mood, in this country, to 
withdraw. I'm not saying that this would be the right thing for 
Iraq.
    Dr. Biddle. Withdrawal is the policy of everyone, including 
the administration, I think the question is, How far and how 
fast?
    Senator Kerry. Let me probe that for a moment.
    Let us assume that there is an inevitability that the 
current levels of troops have proven to be inadequate to 
maintain, and we know we're coming back to the level we were at 
last year when the violence rose. The escalation, by 
definition, was temporary--it ends this summer. It's over. 
We're facing the reality that there are going to be fewer 
troops. We can't sustain this current level, according to our 
generals. There will be testimony tomorrow, to that effect, and 
it's been in the newspapers lately. Everybody reads the 
newspapers, so the bad guys know, as well as we do, that we're 
under this constraint and they can play to that, incidentally. 
It's not a very good way to manage security or other choices, 
but that's where we are.
    In that light, is it also inevitable that the fundamental 
forces driving the divide between Sunni and Shia and the Kurds, 
and that there will be sectarian violence of some level, no 
matter what we do. Is that not inevitable?
    Dr. Biddle. Yes.
    Senator Kerry. Dr. Biddle.
    Dr. Biddle. I think the level of sectarian violence can get 
down to the point where it will no longer be on the front pages 
of American newspapers, which it actually did over the whole 
course of the last 6 or 8 months.
    Senator Kerry. By what means, absent political 
reconciliation on these fundamental differences? By what means?
    Dr. Biddle. By the means of the local bilateral cease-fires 
that we've seen over the course of the last 6 to 10 months.
    Senator Kerry. By bilateral cease-fires. So, we're going to 
have to buy out each individual group, and each individual 
group will, in essence, be in power within their own little 
area?
    Dr. Biddle. I think our payments to them is actually a 
secondary----
    Senator Kerry. Then leave the payments out of this. Take 
this reality--that such groups are going to have power within 
their own areas, which are highly decentralized?
    Dr. Biddle. Absolutely.
    Senator Kerry. Yet that works completely contrary to the 
fundamental strategy of this administration, which is to have a 
central government of Iraq, an Iraqi national identity, and a 
functioning national government?
    Dr. Biddle. The original--the explanation of our policy 
that the President continues to make--as he did, for example, 
in describing Maliki's offensive in Basra, would not be the one 
I would choose, for example. I don't think stability in Iraq 
through top-down reconciliation is realistic. I don't think 
that means that stability is impossible, I do think that 
mechanism is unlikely.
    Senator Kerry. But that stability is only going to be 
maintained so long as we're there, as a dampening force.
    Dr. Biddle. And that's precisely the heart of the primary 
prescription I would offer to the committee.
    Now, the question of how many troops we keep there, and for 
how long, and with what mission, is yet to be determined.
    Senator Kerry. So, you're in the 100-years-war school?
    Dr. Biddle. No, no--I'm not, for a variety of reasons.
    Senator Kerry. Then where do you draw the line?
    Dr. Biddle. Well, I think you draw the line much the way 
we've drawn it, for example, in the Balkans.
    Senator Kerry. Ad hoc?
    Dr. Biddle. Well, the objective, if we're going to take a 
bottom-up approach, as opposed to the top-down approach, is 
we're going to try and keep the violence down, keep the country 
stable long enough for very long-term, slow political 
processes----
    Senator Kerry. Can the United States responsibly support 
$10 to $12 billion a month until that happens?
    Dr. Biddle. I would hope and assume that as our mission 
transitioned out of war fighting and into peacekeeping, both 
our casualties, and our expenditures, and our troop count, 
could all come down. Could any of them come down to zero in 
Iraq without the violence escalating? I think that's very 
unlikely.
    Senator Kerry. Mr. Said.
    Mr. Said. I think it could be, I think a high level, a 
significant level of troops could be drawn down within 2 years 
if--I don't think there's a dichotomy between a bottom-up and a 
top-down approach. I think the bottom-up approach has to 
coalesce into a national approach.
    Senator Kerry. But you talked about people conceivably 
coming to power, and rising to the surface here, that would not 
necessarily be either our choices or particularly pleasing to 
us.
    Mr. Said. Yes.
    Senator Kerry. And that smacks of what I've been hearing 
from certain sectors, that we may even see the appearance of a 
strongman--one strongman, two--one in Shia, one in Sunni--is 
that what you're talking about?
    Mr. Said. I'm talking about, definitely Iraq looking more 
like Russia under Putin.
    Senator Kerry. Is that what our troops ought to be doing? 
Is that what they went over there to die for, and that we're 
paying for?
    Mr. Said. It will be better than Saddam Hussein, Putin is 
better than the Communist Party in the Soviet Union, Azerbaijan 
is better than it was under the Soviet Union, and the most 
important thing is, that Iraq will not become a hotbed for al-
Qaeda, will not become a source of instability----
    Senator Kerry. Well--I haven't met an Iraqi who has 
suggested to me that if we weren't there al-Qaeda will find any 
rationale to exist. Average Iraqis hate them. They don't want 
foreign jihadists in their territory. Particularly, if we 
weren't there, one or the other is going to fight to run the 
show. Sunni or Shia.
    Mr. Said. And the Sunni militia got rid of it very easily--
--
    Senator Kerry. Excuse me?
    Mr. Said. The Sunni militias got rid of al-Qaeda quite 
easily throughout Iraq recently, when they head out.
    Senator Kerry. Absolutely. And if they don't find a 
rationale into welcoming them into their community, i.e., they 
serve their purpose, to stir up the Shia waters, or the United 
States--to keep us on edge of the knife--they're not going to 
stay around.
    Mr. Said. No.
    Senator Kerry. The issue of al-Qaeda--the administration 
and everybody else has to drop it as a rationale for anything 
that's happening in Iraq. This is instead a question of how do 
you resolve the Kurd, Sunni, and Shia interests, is it not?
    Mr. Rosen. I think al-Qaeda is a distraction, it's not a 
significant presence in Iraq, it never was----
    Senator Kerry. But, Dr. Biddle, you nonetheless hear it as 
a rationale from this administration?
    Dr. Biddle. Speaking as this witness, I would say, 
certainly
al-Qaeda in Iraq is not the issue, Sunni, Shia, and Kurd and 
the various subfactions among those are the issue, and the 
concern for the United States, as opposed to Iraqis--other than 
the humanitarian issues at stake which are important--is we 
don't want to have a situation, not a guarantee, but a 
possibility in Iraq in which--like Lebanon, a civil war 
metastasizes into a larger conflict that draws in the 
neighbors.
    Senator Kerry. We all agree with that, but it seems to me 
there are options that have been significantly unexplored, 
which you touched on, with respect to Syria, Iran, regional 
diplomacy, and other interconnected interests in the region--of 
which there are many, none of which have been sufficiently 
leveraged and put on the negotiating table--that would allow 
the United States to address many of those concerns.
    Dr. Biddle. And which, I doubt at the end of the day will 
be sufficient, absent the U.S. presence, to keep the 
situation----
    Senator Kerry. But nobody--the Democratic proposals, and I 
use this term, because we've often heard such proposals 
characterized as withdrawal--has been planning, really, how to 
finish the job of training and standing up the Iraqi forces so 
they, among other duties, finish the job of combating al-Qaeda 
and protecting American forces and facilities? These are not 
bad missions.
    Dr. Biddle. The central disagreement I have with that 
mission is, I think, that relying on the ISF--whether we build 
them up and advise them, or not--is a dangerous prospect in 
Iraq, as----
    Senator Kerry. Well, when can we rely on them?
    Dr. Biddle. As this recent offensive in Basra, I think, 
suggests----
    Senator Kerry. But when you say relying on them--if you're 
there as a backstop, if you're there for emergencies to prevent 
chaos, but they're on the front line, isn't there a point of 
transition? That's the only way to begin to withdraw, is it 
not?
    Dr. Biddle. Well, I think for many years--5, 6, I'm 
reluctant to give you a specific month figure--but for many 
years, we're going to be required as more than a backstop. 
Iraqi Sunnis do not trust the government security forces.
    Senator Kerry. I understand that, but if you did some of 
the diplomacy along the lines that Senator Biden and I and 
others embraced on the floor recently, in strongly bipartisan 
vote, with respect to how you put in effect the Constitution of 
the country itself, then you could provide empowerment and 
security to Shia, provide empowerment and security to Sunni, 
and likewise to the Kurds, and create the stability we want 
with far less expenditure of money and treasure. We aren't even 
trying to do that.
    Mr. Said. Yes, I just wanted to comment on two things, and 
this is the main message that I would like to say. And I think 
a decision that goes along sectarian lines will produce--will 
require a stronger and longer U.S. engagement than less. 
Because, unless the Iraqis have a national regime that keeps 
the peace----
    Senator Kerry. Well, we're not talking about Iraqis not 
having it under that. They would have a national regime.
    Mr. Said. Because, if you would have these little 
statelets, the United States will have to stay forever to 
protect them from each other, and from incursions from the 
outside.
    Senator Kerry. You have given us nothing that indicates any 
encouragement at all for how you fundamentally avoid them 
playing to those very sectarian desires and needs right now.
    Mr. Said. I think we heard two stories today, first of all, 
the story of Basra, that shows that actually they are--Iraqis 
are divided along different lines from the ethnic, Shia, and 
Kurdish thing.
    Senator Kerry. We've all known that.
    Mr. Said. There are political coalitions that could be made 
there, for example, the Iraqi Army--which I actually disagree 
here--has been a rising star within the Iraqi state 
administration, that they enjoy much more trust within the 
Sunni community than the police. They have shown--regardless of 
how you interpret Basra, they have shown very good progress in 
Basra, and actually the community there has been much more 
reluctant to see them attacked--so there is progress on that 
issue.
    If the Army becomes a tool for political advancement of 
interests of one group or the other, that's a problem. But if 
we can manage to keep--and the United States have done a good 
job with the Iraqi Army, in terms of trying to keep it neutral 
and give it credibility, I think it offers hope for the future.
    Senator Kerry. Mr. Chairman, I went over, I apologize.
    The Chairman. Well, that's OK.
    Senator Kerry. Mr. Chairman, I thank you for the time.
    The Chairman. I know this is--we could all--it would be 
useful if we had the time to each of us do a half an hour, and 
I understand.
    But, Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your testimony here this 
afternoon.
    Dr. Biddle, in your written testimony and in an article 
that you provide us, you focus on how you're defining 
stabilizing Iraq from the bottom-up. And I am trying to discern 
how we identify a stabilized Iraq. And in reading through your 
testimony, and then listening to Mr. Rosen and Mr. Said--I'm 
sorry that I wasn't able to hear your oral testimony, but I 
have gone through your written--how can we agree on what a 
stable Iraq is? Can we?
    Dr. Biddle. Well, I can tell you what I think it is, and 
see if anyone else agrees. My definition of stability is an end 
to large-scale violence. And I define it that way, in part, 
because I think that meets our two central interests in the 
country, at this point. That we not allow--to the extent that 
we can prevent it--needless deaths of tens of thousands of 
innocent Iraqis, and that we reduce, to the degree that we can, 
the risk that the war spreads.
    I think if we end large-scale violence in Iraq, we secure 
those two critical interests.
    Senator Murkowski. And we do that through this bottom-up 
approach that you're suggesting?
    Dr. Biddle. I think that's a much better bet than from the 
top down, yes.
    Senator Murkowski. Mr. Said.
    Mr. Said. I think the bottom-up approach has almost reached 
its limit. It has been very effective so far, but it has 
reached its limits. We see those limits--as the other speakers 
have pointed out--in the areas where the situation is more 
complex--like Diyala province, Kirkuk, and Maysan--where the 
threat of Kurdish expansion and Kurdish incursion into the 
disputed territories have prevented Sunni insurgents from 
turning their guns on al-Qaeda.
    And that is why I'm emphasizing the danger of the situation 
in Kirkuk. Kirkuk itself may not become a point of the 
conflict, but the whole issue of the disputed territories along 
the borders of Kurdistan, is going to be a problem for 
advancing, or for addressing the bottom-up approach.
    The other thing I'm trying to say, is the bottom-up 
approach is not enough. The Concerned Local Citizens and the 
Sadrists now have stuck to the cease-fire, and all of those 
groups who have agreed to lay down their weapons, or to turn 
their weapons on the enemies of the Iraqi people, need to have 
the other shoe to drop.
    And the other shoe is, for them to feel empowered 
politically. For them to have jobs. For them to have a say in 
the country's future. And therefore, we need to fix the 
political process, which has been, so far, closed. The 
political process has not been an open one, it has been very 
exclusive. We need to make sure that the political process 
proceeds as per book, and that these people can contest 
elections, can contest power, and can present their own vision 
of the country's future, which is distinct from what is 
presented from the Green Zone today.
    Senator Murkowski. So, this is the same type of a plateau 
that was discussed this morning in the earlier panel--that you 
get to a point, and we're no longer making the progress that we 
would like to have seen, and it seems this all hinges on what 
we can do with a political solution.
    Mr. Rosen, how do you define stability?
    Mr. Rosen. Well, I certainly agree that it means less 
violence, and ideally, some sort of a central government that 
is able to impose its will on the entire country, and that 
Iraqis respect. While I don't see that occurring, I think 
tragically, although the United States has an immense moral 
obligation to solve things in Iraq, given that we broke it, I 
don't see any actions that the United States can take, and I 
think in the end it's going to be up to the Iraqis to reach 
accommodations, and I think that eventually they will.
    And, at a minimum, they've been demanding, for a very long 
time, from the beginning, some sort of a timetable, a date of a 
United States withdrawal, even if we find an immediate 
withdrawal, Iraqis are united in their wish for the Americans 
to leave sooner rather than later, and united in their belief 
that they can solve their own problems, and that their fate is 
theirs, and that they should be the ones who determine it.
    Senator Murkowski. So, this plateau that we are--I'm 
assuming you agree, also, that we're at a place where we're not 
making the progress that we had been making, and that we must 
do something different. And your solution to that, then, is for 
the United States to withdraw, and for, basically the Iraqis to 
assume leadership?
    Mr. Rosen. I would--the one point I would disagree on, is 
when you say that we're not making the progress that we had 
been making, I'm not sure which period of progress you refer 
to, but I don't think there's been any. But, yes, I think that 
they should withdraw as soon as possible.
    Senator Murkowski. Insofar as how you advance the political 
resolution or reconciliation, from where we are right today, 
what is the first thing that you would do, Mr. Said?
    Mr. Said. Well, as I said, it's very important that the 
elections take place in October, that the local elections----
    Senator Murkowski. You're talking about a very real 
likelihood of delay to that, what does that do?
    Mr. Said. That's a big problem. As I said, the people who 
have laid down their weapons, and the people who have stopped 
attacking American forces, and stopped attacking Iraqi forces, 
needs to be--need to have an option, need to have a way to 
express their political interests, and their grievances, and 
their aspirations. And this is not something they could do in 
the enclaves that the surge has created for them, this is 
something they need to do by contesting local elections, by 
contesting federal elections, by participating in referenda--if 
they would happen--about the formation of regions.
    By determining--what happened is--and this is part of the 
discussion I had with the Senator--is the Constitution was 
passed at a certain political moment, reflecting a consensus of 
a certain group of people that is no longer actually true 
today, and we have additional players in the picture, we have 
new players that have emerged, that need to have a say in the 
way that Iraq is governed and run. And if they have a peaceful 
way of expressing and achieving their interests, of negotiating 
their interests with the others, then we will have less 
conflict.
    But, if that tool is withdrawn, whether it's elections or 
referendum, or whether it's subverted through falsification or 
abuse, then we will have conflict, and there's no alternative 
to conflict.
    Senator Murkowski. How important is it that the economy be 
stronger? That people feel a sense of optimism within their 
economy? You still have unemployment at very, very high levels, 
so you've got an opportunity to express yourself through the 
electoral process, but life is still not good at home. Have you 
really been able to advance the political reconciliation, then, 
if you don't have----
    Mr. Said. Iraq has lots of money. Iraq has no shortage of 
resources to prove a very good living standards for its 
citizens. The Iraqi budget, with the a similar population, has 
10 times the budget of Afghanistan, with the same number of 
population. So, Iraq has enough resources, the resources are 
mismanaged. And the resources are mismanaged, because the 
political process is dysfunctional, and because we have a 
government that is not very competent.
    So, as a matter of fact, the political process, allowing 
new forces to contest and to come up--whether it's the 
technocrats that are working, actually, quite valiantly to fix 
the machinery of the state, or some of the other forces--that 
will help address that issue, too. It's not an issue of a 
dysfunctional economy, but really of a dysfunctional government 
that is not managing, to use economic resources properly.
    Senator Murkowski. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    And I thank the panel, very much.
    And, since Mr. Rosen mentioned timetables, and a view of 
the Iraqi people about timetables, let me ask the whole panel, 
is there a chance that setting a timetable for the redeployment 
of the United States forces from Iraq will create an incentive 
for Iraq's neighbors, the Iraqi Government, and Iraqi factions 
to come to the table and negotiate? What are the key diplomatic 
steps needed to ensure that Iraq's neighbors are engaged to 
deal with the challenges that they will face as our troops 
redeploy?
    Dr. Biddle.
    Dr. Biddle. I think it's clearly a good thing to have 
Iraq's neighbors engaged, and moreover, I think most of the 
participants in the debate over Iraq would agree.
    I think the problem has to do with how much leverage they 
can actually exert. At the end of the day, Iraq is a problem 
that's internal to Iraq. The problem is a serious security 
dilemma within Iraq, in which each of the major parties, and 
many of the factions within them, are scared to death of the 
others.
    In an environment where they're scared to death of each 
other, and they see the stakes as potentially genocidal, the 
kinds of leverage that the neighbors can bring to bear, I 
suspect, are insufficient to resolve the problem, until and 
unless the parties within Iraq reach a decision that it's in 
their self-interest to obtain a cease-fire. Which, I think has 
been happening, actually, over the course of the last year.
    If we get that precondition, then the neighbors at the 
margin can make a helpful difference. If we don't get that, I 
don't think the neighbors can make the difference.
    Senator Feingold. Mr. Said.
    Mr. Said. I think a timetable for withdrawal has always 
been a good idea, I think it will set a very clear and a very 
firm indication that the United States is not there, is not in 
Iraq as an occupying force for a long term, does not have any 
long-term views on staying in Iraq, so it's always good to 
defang al-Qaeda or any of the other groups, and remove any 
additional reason for violence.
    I think it should take place within an international, 
legitimate framework. I think Prince Turki al-Faisal, who used 
to be Ambassador of Saudi Arabia here, mentioned once that the 
withdrawal should not be as illegitimate as the invasion. And I 
think this is a very important, very important point.
    And I think a timetable for withdrawal will provide 
incentives, if it was within a negotiated framework, and as a 
matter of fact, this is what I suggested, is to negotiate a new 
Security Council resolution for Iraq, probably centered around 
the package of issues that are coming to a head around the 
borders of Kurdistan, and that involve Iraq's neighbors, and 
that could be a much more uniting platform--that will be a 
platform that could attract other forces to be engaged with 
Iraq.
    But, where I agree with the speaker here, is that Iraq will 
need an international presence, of one sort or the other, 
including, probably a strong U.S. military compound, because 
the United States is the most capable to safeguard the cease-
fires that have existed, and to chaperone the political process 
for the next steps that will bring a more legitimate, and a 
more rooted, and a more connected government.
    Senator Feingold. Mr. Rosen.
    Mr. Rosen. Well, I think certainly on the humanitarian 
side, there should be an attempt to encourage Jordan and Syria 
to reopen their borders, to be aware that the potential for 
greater displacement can still occur, should the United States 
withdraw--and even should the United States not withdraw and 
some continued plan should be created for that, there should be 
safe havens, perhaps.
    Certainly the infrastructure in Jordan and Syria is not 
sufficient to handle the refugees they already have, and 
something should be done to support that. I know steps are 
being taken, but certainly there's a lot more that can be done 
to deal with the humanitarian impact of a withdrawal, and at 
least a temporary flare in violence that I would predict would 
follow that, sort of gradual withdrawal.
    I think the Syria regime is unique among countries in the 
region, in that it's managed to maintain a good relationship 
with all of the actors in Iraq--Kurds and Arabs and Sunnis and 
Shias. And the United States has been alienating Syria, and I 
think that's been a tragic era, but they're in a position where 
they have the era of Muqtada, they have the era of the Dawa 
Party, Maliki himself was in exile there, Talibani formed his 
party in Syria--many of the Sunni resistance groups are now 
basing themselves in Syria--the leadership, at least, or people 
go to Syria for treatment when they've been wounded in attacks 
against the Americans, or just for some R&R.
    Jordan used to be sort of the dados for the resistance, but 
Syria is more that location, a place where they can think about 
what the next steps are, what do we do now?
    So, if any country can, at least, have a positive influence 
on Iraqi actors, certainly Syria would be that country. But the 
United States has been very focused only on the refugee issue, 
and has refused to discuss other issues with them, in fact, we 
treated them with a great deal of hostility on most other 
issues--they have no incentive, obviously, to----
    Senator Feingold. Let me ask you something else, Mr. Rosen, 
I'd like to ask you about the current strategy of working with 
the Sunni local militias, more commonly known as Concerned 
Local Citizens, as you discussed in your testimony.
    Does such an approach promote reconciliation and legitimate 
integration in national political structures, or does it deepen 
fragmentation of the Iraqi political system?
    Mr. Rosen. Well, it's had a positive and negative response, 
or reaction, I'm sorry. Certainly, Sunnis are very 
appreciative, in many cases, of these new Sunni militias. 
Sunnis in Amirya, in western Baghdad, now feel safe. In the 
past they not only were afraid of Americans and al-Qaeda, but 
the Iraqi police used to go up to their neighborhoods and open 
fire on their houses--likewise in Dora--and many of the Sunnis 
fled. Admittedly, they also killed Shias in that area.
    But now you have Sunni refugees from all over Iraq who are 
seeking safe havens--shelter--in the areas that are controlled 
by the Sunni militia. So, they're certainly grateful, and for 
them it's a very positive development. They no longer fear al-
Qaeda, they no longer fear the Shia militias, and for the 
moment, they also don't fear American raids, as much.
    But, long term, the creation of new militias obviously 
militates against any sort of stable Iraq. These militias 
aren't being integrated into the Iraqi Security Forces, it's 
quite clear that that's not going to happen.
    On the other hand, the creation of these militias also 
strengthens the Sunnis and makes it more difficult to envision 
a Rwanda-like scenario where Shia militias just overrun Sunni 
neighborhoods and finish them off--which was a real 
possibility.
    So, it's had a positive and negative effect, and it really 
depends on what point of view you're looking at. But, from a 
Shia point of view, this is horrifying. These are the guys who 
were killing us a few months ago, and now the Americans have 
empowered them. And they will often point, and name specific 
individuals, ``This guy in the Fidel neighborhood is famous for 
beheading Shias, and now he's wearing an American badge, and 
being paid by the Americans.'' So, they're quite upset about 
it.
    At this point, I think it's too early to tell, indeed, if 
these militias, the Sunni militias, join into a political 
movement, and it's quite clear that they want that--one could 
envision that they would be able to reach some accommodation 
with rival Shia parties. Once you have a larger Sunni block, 
it's much easier for the two sides in Iraq to strike some sort 
of a deal, rather than you have a Sunni leader in each little 
neighborhood, who's clashing with the Shia rivals.
    Senator Feingold. Thank you, Mr. Chairman.
    The Chairman. Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    I'd like to ask one question of all three of you, and it's 
going to be a summary of what I've heard in almost a full day 
of testimony today.
    This morning, General Scales said that the surge had 
brought us to what they refer to in the military as ``the 
culminating point,'' meaning you're at a point where you make 
the next-step decision, and conditions on the ground can 
destroy this moment very quickly. So, this culminating point is 
time-sensitive.
    Mrs. Flournoy said there are three options: Conditional 
engagement, unconditional engagement, or unconditional 
disengagement. All of the generals--the best I heard them, even 
General Odom--said, yeah, conditional engagement is where we 
are, because unconditional engagement is not where we are right 
now, without an end, and disengagement immediately would be a 
disaster. I think Mr. Said said a good bit about that as well.
    So, we're at a culminating point, conditional engagement, 
according to everyone's testimony. And then Dr. Biddle made the 
comment, if I understood it correctly in your testimony that, 
we were at a point, given the bottom-up cease-fires and what's 
been taking place, where maybe an outside peacekeeper could 
maintain peace for a period of time while the political 
situation developed. You said that we had the credibility to be 
the peacekeeper--I thought I heard you say that. At least, 
we're the most trustworthy of the other alternatives.
    That being the case--conditional withdrawal which has 
conditions upon which we stay, is the best place to be, and we 
are at a culminating point.
    And taking you--Dr. Biddle, what you said about the 
peacekeeping role--if we said, we're going to remain, our role 
is going to be maintaining the peace, and the conditions for 
doing that are, the Iraqi Government has to do ``x'', what are 
those things that should be the conditions, that are the 
predicate for the peacekeeping?
    Dr. Biddle. I don't think conditional engagement, in the 
sense that we tell them if things don't come together, we 
leave, is the right way to get leverage.
    Senator Isakson. You tell me, I want you to tell me what 
you think is the right way.
    Dr. Biddle. I think there's several better sources of 
leverage than that.
    The first is the Iraqi Security Forces itself. The Iraqi 
Security Forces today amounts to Nouri al-Maliki's militia. He 
values it deeply, for a variety of reasons. I don't believe 
that it's the central route to security in this country, 
however, because I don't think it's trusted by Iraqi Sunnis, 
and I think it's deeply divided within itself--there are 
variations between its elements, of course, but I think it's 
deeply divided, especially in the National Police.
    Given that, our degree of willingness to support the 
operations of, and the expansion of, the Iraqi Security Forces 
are a substantial point of potential leverage with the Maliki 
government, and for that matter, with other parties in Iraq, 
whose stakes are affected differentially by the growth and the 
increase in efficacy of the Iraqi Security Forces. That would 
be my No. 1 choice for prospective leverage over Iraqi players, 
in general, and the Iraqi Government, in particular.
    Others include the particulars of the legal basis on which 
the U.S. presence either continues or doesn't continue. This is 
a situation, too, in which the Iraqis have interests, we have 
interests, there's an ongoing negotiation in which they would 
like things from us, we have the ability to offer them or 
withhold them.
    We've been talking for a long time about using questions of 
aid and assistance--whether in the form of advising, either to 
the Iraqi military, or to ministries of the Iraqi Government, 
or financial aid. We tend not to use these conditionally as 
sources of leverage. We tend to offer them in a blanket way, in 
the hopes that somehow it will render Iraq capable of governing 
itself--those are also potential sources of leverage to the 
United States in trying to get better behavior out of key Iraqi 
actors.
    If, instead, we say the only form of leverage we're going 
to use with the Iraqis is a threat to depart, wholesale, and if 
we accept--as, apparently, some of the witnesses did this 
morning--that total disengagement would be a disaster, what 
we're doing is threatening suicide in order to get Iraqis to 
behave. And I don't think that's a credible threat. I think 
there are far more credible threats than that available to us, 
and I think they have, potentially, a good deal more leverage 
opportunity than we've exploited.
    Senator Isakson. Mr. Said.
    Mr. Said. Yes, I think the United States has very little 
leverage in Iraq, with a threat or without a threat or with any 
of the tools that other speakers have just pointed out.
    The United States is playing, currently in Iraq, the role 
of enabler. They have created a level of security through the 
surge and with other dynamics, that allows the political 
process to move in certain direction. And I think, as an 
enabler, as a provider of a certain service--which is security 
service--the United States could accept--should accept that at 
least the political process proceeds, as advertised. Elections, 
local elections at the end of this year, national elections at 
the end of next year. I think these are the main benchmarks I 
would be looking at, and to make sure that the state 
institutions that are being built--whether it's the Army or the 
police--are not used as political tools, are not used as 
militias.
    And this is an area where the United States has been 
relatively effective, by working with the U.S. Army. And I 
think there are opportunities there, with the state 
institutions. But otherwise, I do agree, there's very little in 
terms of leverage.
    Just one point, I do think it's the way of proceeding 
through a treaty, through ratifying the U.S. presence in Iraq 
next year through a treaty, rather than the U.N. Security 
Council Resolution, is very dangerous. It's an outgoing 
administration here, and it's an outgoing Government in Iraq. 
And it will have--the Government in Iraq will have very little 
legitimacy to sign any long-term agreement with the United 
States. As a matter of fact, no matter what the merits of an 
agreement are, they're going to be used against the Iraqi 
Government--they will be treated as some sort of a surrender of 
sovereignty, as sort of a backing off, because nobody has trust 
that this government will be able to negotiate on equal footing 
for the United States, so it's a very dangerous route to go.
    Senator Isakson. Mr. Rosen.
    Mr. Rosen. I can't think of many examples--on the question 
of whether threatening to withdraw must get leverage, when the 
majority of Arab-Iraqis, at least, want the United States to 
withdraw, I don't think they would perceive that as a threat.
    On the local level, leaving aside the Iraqi Government, the 
United States has a great deal of leverage when it comes to 
dispensing money to local actors, and one of the reasons why 
areas like Durra are temporarily peaceful, is because we're 
just tossing contracts for construction, and other stuff, at 
actors on both sides. And the United States is going to become 
a commodity--at lease temporarily--people want to take as much 
as they can. And officers on the U.S. side who are engaged in 
this are certainly very aware that we're sort of buying people 
off with contracts, temporarily.
    The Government of Iraq, of course, doesn't need United 
States money, it has a surplus, it just isn't able to spend it. 
But I don't think you need leverage--I think the Iraqis are 
united in wanting peace, and I think that they'll eventually 
reach that commendation on their own. And I trust that, left on 
their own, they'll be able to do that. Eventually, although 
initially, as I said, I think the fighting will continue.
    Senator Isakson. I know my time is up, but Mr. Said made a 
point that I'd just like to comment on. You were referring to 
Article VII of the U.N., under which we now operate in Iraq, 
versus when this authority expires at the end of this year, and 
you refer to a future treaty or agreement.
    I think I agree with what you said--a treaty would be 
problematic, I think you said. But some people are calling an 
agreement a treaty, and it's not. My understanding is that the 
predicate for those agreements are that they are cancelable by 
either party at any time, which is anything but a treaty, I 
think.
    It's an interesting point that you made about leverage. You 
all said, ``Well, we don't have any leverage,'' in one way or 
another--except, you said, that maybe that agreement may, in 
fact, provide a forum by which we could actually get to some 
conditions, with regard to the relationship between the two 
countries. Did I hear that right?
    Mr. Said. I don't think negotiations between the--because 
the point is, the current set of political leaders in Iraq face 
a real threat of being deposed from power, through either the 
political process, or through violence. And the only reason 
they want the U.S. troops is to protect them and to keep them 
in power. As a matter of fact, this is part of the rationale 
behind the treaties--to, what they call, ``protect the 
constitutional order,'' which to many Iraqis, when I read that, 
I see that saying, ``Keep me in power.'' And that is something 
that is going to severely jeopardize the legitimacy of the 
government, and reduce the efficiency of state institutions, 
including the Army.
    So, it's a very dangerous route to go, regardless of the 
possible concessions one might log. But, at the end of the day, 
they will not give the United States any concessions that would 
have a chance to leave power, because then--why negotiate the 
United States staying in? I mean, these political leaders only 
want the United States to keep them in power.
    If the condition is for them to allow for a process that 
will take them out of power, then they won't--they won't agree.
    Dr. Biddle. By way of clarification, I think we have a 
great deal more potential leverage than we have used, or 
exploited, to date. I don't happen to think a threat of 
withdrawal is the best source of it, but I do think there is 
potential leverage to be had.
    Senator Isakson. I know I'm over time--I would love for you 
to send me a quick note on what you think that is. Would you do 
that for me?
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    And by the way, for the record, treaties all have 
unilateral withdrawal clauses in them, as well, requiring no 
bilateral agreement.
    But anyway, Senator--Chairman Boxer.
    Senator Boxer. Thank you, Chairman Biden.
    The Chairman. Is this easier than global warming, or 
harder?
    Senator Boxer. They're both extremely daunting tasks, as 
you know.
    Let me say that this panel has been really interesting, and 
shocking. You shocked me, many of you, with what you said.
    Maybe I didn't hear it right, Dr. Biddle, so correct me if 
I'm wrong. But did you just say that Maliki uses the Iraqi 
Security Forces as his militia? Did you say that?
    Dr. Biddle. Yes.
    Senator Boxer. OK.
    Well, that's unbelievable, Mr. Chairman. If that's true, 
and Maliki uses the Iraqi Security Forces as his militia, as 
opposed to it being a force to bring about peace and security 
in the country, that's scandalous. And the fact that we would 
have paid $20 billion to train a force that is supposed to be 
securing peace in the country, and somebody who's a so-called 
expert says it's a militia, is really shocking.
    Now, Mr. Rosen, it seems to me out of everyone here, and I 
may be wrong, but you have spent more time in Iraq than our 
other witnesses in the last year? Is that accurate?
    Mr. Rosen. I suspect if you say, I spent more time--born 
there.
    Mr. Said. I spent 6 months over the last year.
    Senator Boxer. Six months over the last year?
    And you, sir?
    Mr. Rosen. OK, most of the last 5 years.
    Senator Boxer. You've spent most of the last 5 years there. 
So, you've spent a lot of time in Iraq.
    Now, this is the picture you painted for us. Please tell me 
if I'm overstating it, or understating it in any way.
    I heard you say in your description of what's going on, and 
it took you quite a while, and you gave us a lot of detail, 
that the picture of Iraq today is a bloody, lawless place, run 
by militias. It's a place that has undergone ethnic cleansing--
and the Shia won that battle, basically--and now there's Shia 
on Shia violence, and the Sunnis are basically hanging on, 
because we have given them this payment, and they're able to, 
in some ways, secure what's left of their population. And that 
is what I took away from your description. Am I missing 
something? I also took away that the U.S. presence there is 
only putting off the day that the Iraqis will find their own 
way. Is that pretty much accurate?
    Mr. Rosen. Yes; that's correct. I'm surprised that you 
would find it shocking that the Iraqi Security Forces operate 
as a militia, because they're notorious for this, over the last 
2 years.
    But, the one point I would disagree about with Mr. Biddle 
is that, I don't think they're Maliki's militia. I think that 
would actually be a better case scenario, that at least there 
would be one united militia. Unfortunately, they're vociferous 
like everything else in Iraq, and----
    Senator Boxer. OK, well, let me tell you why I'm surprised. 
I'm surprised, because that's not what General Petraeus tells 
us. He tells us he's proud. He's proud of the Iraqi Security 
Forces. That's what Condi Rice tells us. The fact of the matter 
is, I am surprised, because our military, who has done 
everything we've asked them, has said very clearly--very 
clearly--that the Iraqi Security Forces are our great hope. And 
a lot of us who want to get out of there, OK? Because we think 
this war was a horrible mistake from the start. It's a disaster 
happening right before our eyes, and we are counting on the 
fact that the Iraqi Security Forces can step in and take the 
lead.
    But what you're telling us, unlike the American military, 
is that they are nothing more than a militia. Now, let me----
    Mr. Rosen. I should elaborate. We must distinguish between 
the Iraqi Army and the Iraqi police and Iraqi----
    Senator Boxer. I'm talking about the Security Forces--
they're the police. And then there's the military. So, you say 
there's a difference. So, the military, you think, has stepped 
up, but not the police.
    Mr. Rosen. The Army is less sectarian, and more 
trustworthy.
    Senator Boxer. Fine.
    Mr. Rosen. But, however, it's still also divided in its 
loyalties to Kurds, to Shias, and to various Shia factions, 
which is why Maliki only uses certain Army units.
    But certainly, when it comes to the police, just one quick 
example of how extreme the situation is, I have a friend who is 
a captain in the Iraqi National Police, and he complained to me 
that all of his men are loyal to the Mahdi Army, and that he's 
been threatened by Mahdi Army commanders, coming into his 
police station, telling him, ``If you don't collaborate with 
us, we'll kill you,'' and this happened in front of his 
commanding officer.
    Senator Boxer. Well, the reason I appreciate this 
distinction that you're making is because I do want to ask 
General Petraeus about that. Because there are about equal 
numbers of the police and the army. And, I mean if they are 
what you suggest it's a disaster.
    Mr. Rosen. Former officers of Saddam's army, who are now, 
actually, many of them are officers in the police, but also in 
the army, tend to be less sectarian----
    Senator Boxer. OK, but I'm trying to understand--you said 
that the Security Forces, the police forces, are acting like a 
militia for Maliki. You said it's beyond that, sometimes they 
even act in the name of other militias----
    Mr. Rosen. Well, the Badr and the Mahdi Army----
    Senator Boxer. All right.
    Dr. Biddle. In the interest of clarity, Mr. Rosen and I are 
in agreement on the nature--the heterogeneous composition of 
the Iraqi Security Forces, which consists of the Army, the 
local police----
    Senator Boxer. I understand. I understand that.
    Dr. Biddle. Not all units are equally sectarian or equally 
factional.
    Senator Boxer. I am saying that you said that the Iraqi 
Security Forces were being used by al-Maliki as his private 
militia, let's move on.
    Dr. Biddle. And what I'm trying to do when I draw that 
distinction is to draw a distinction between the way many 
Americans think of the Iraqi Security Forces, is that this is a 
disinterested, nationalist defender of the interest of all 
Iraqis--that, I think, is an inaccurate characterization of how 
it's operated.
    Senator Boxer. I'm just interested in what you said. And I 
reiterate that's what you said, and I'm going to ask the 
generals about it, and I appreciate the fact that you brought 
it up, because I think if these are the facts, I don't know 
where the end of the road is on this situation.
    Now, let me just go to the issue, Dr. Biddle, of your 
comment that we're the only ones, pretty much, who can take 
care of this thing. By becoming peacekeepers, you don't know 
how long we'll have to be there. You don't think it'll be 100 
years. But let's see, we're going into our sixth year, it's 
costing us $12 billion a month, but you're saying, in your 
opinion, that we're going to have to stay there, because we're 
the only ones who are trusted.
    Now, I just don't agree that that's the case. Last month, a 
poll of Iraqis was conducted for ABC News and the BBC and other 
news organizations. Seventy-two percent of Iraqis continue to 
oppose the presence of U.S. forces--this is during the peaceful 
lull over the past 6 months--72 percent of Iraqis continue to 
oppose the presence of United States forces in Iraq; and 61 
percent believe the presence of United States forces in Iraq is 
actually making the security situation worse. When asked what 
would happen if American forces left the country entirely, 46 
percent said the security situation in Iraq would actually get 
better, while only 29 percent said that security would get 
worse.
    And perhaps more telling, only 21 percent of Iraqis believe 
that the surge has improved conditions for political dialog in 
Iraq, while 79 percent of Iraqis say the surge is having no 
effect. They say that it's actually making conditions for 
political dialog worse.
    Now, what I just want to say, because my time is over, so I 
feel I have to conclude, is that I don't see how the U.S. can 
transition to a peacekeeping force with the numbers we have 
seen from Iraqi's in this poll?
    And moreover, your whole notion that one of the great 
powers in the world, America, who shed so much blood in Iraq, 
is now going to go around negotiating in a ``bilateral'' 
fashion--and I note the word ``bilateral'' which gives it a lot 
of, you know, diplomatic oomph--is ridiculous. That we're going 
to go around to all of the militias, now, and sit down in a 
bilateral way with these killers and warlords, and make a 
decision that peace lies with them is ridiculous, for the 
reason that you cannot count on those people. You know, Sadr 
woke up the other day and he decided he was off the playing 
field. He gave the signal, and there's rioting all over the 
streets, and so on and so forth. So, for this policy to be your 
idea of how to get out of this, a policy that says that we 
should now have bilateral negotiations with people who have 
killed our troops and who once again, could wake up and decide 
to fight each other, I think it's a disaster. And in the name 
of the people who have died, to have it lined up as a series of 
agreements with warlords, is just unbelievable to me, and for 
taxpayers who have paid all this money for that ending, it is 
just horrible.
    Now, the reason we have these kind of ideas, which I think 
are ludicrous--is because there's no good solution to a 
nightmare that this President got us into.
    Dr. Biddle. Of course there's no good solution.
    Senator Boxer. There is no good solution to this nightmare. 
So, why not just figure out a way to tell the Iraqis, we 
spilled the blood--it's your turn. Let them negotiate with each 
other. Let them sit down, Shia on Shia militia, and figure it 
out. We'll be there to help, in the background, but this has 
got to end, and it's got to end soon. And if it doesn't--the 
path you are defining for us, I think, is just a nightmare.
    Dr. Biddle. As long as we don't care what the outcome is, 
we can absolutely disengage and allow the Iraqis to work this 
out however they would like. The Iraqis may very well work it 
out in a way that doesn't serve either the interests of many 
innocent Iraqis, or the United States. But as far as 
negotiating with people that have killed Americans, 200 
Concerned Local Citizens contracts, already negotiated within 
Iraq are already precisely the form of----
    Senator Boxer. I understand.
    Dr. Biddle [continuing]. That you're describing.
    Senator Boxer. I do understand.
    Dr. Biddle. If we're going to reach a negotiated solution 
to a war, by definition that means negotiating with people who 
killed Americans. And, in turn----
    Senator Boxer. How many of these warlords are we going to 
negotiate with; got a number?
    Dr. Biddle. So far, over 200.
    Senator Boxer. Oh, OK, well, ipso facto. Two hundred 
warlords, we're going to have bilateral agreements----
    Dr. Biddle. We already have bilateral agreements.
    Senator Boxer. Excuse me--you're talking a diplomatic 
surge, that's a military surge. You're talking about diplomacy 
with warlords. And all I can say to you is that it's a 
frightening prospect. And for you to suggest that I don't care 
about the outcome is a total, total slap in the face of us who 
are against this war. We care a lot about the outcome. We knew 
there might be a horrible outcome, and that's why we voted 
``no'' in the first place. So, don't say we don't care about 
the outcome. You think Mr. Rosen doesn't care about the 
outcome? His solution is, get out as fast as possible. Because 
if you get out as fast as possible, that will bring the 
Iraqis----
    Dr. Biddle. The reason I framed the observation as, ``if'' 
one doesn't care about the outcome, is because I'm convinced 
that we all do, which is why I think that approach is unsound.
    Senator Boxer. That's not the impression that I got from 
your comments, but I'll take it as an apology. [Laughter.]
    The Chairman. Thank you, Senator. [Laughter.]
    Senator, the floor is yours----
    Senator Cardin. Thank you.
    The Chairman. And I have to tell you now, I have to leave 
at 10 of, so you are going to become chairman.
    Senator Cardin. Well, I hope to be--perhaps I'll be 
finished before then, I'll try to be as brief as possible.
    I just want to quickly follow up on a discussion we had 
during the first panel this morning regarding the prospect of 
making some progress in the next 10 months, under this 
administration. I must tell you, I think our policies during 
the past 5 years have not been in the best interests of the 
United States or the Iraqis, and I'm convinced that unless we 
change our policies in Iraq during the next 10 months, that 
we'll have 10 more months of decisions that are not in the best 
interest of the United States.
    And I reach that judgment while recognizing that our 
military has performed with great distinction. And during this 
most recent period, it has been successful, as we know our 
military can be, in trying to bring as much security as 
possible to the streets of Iraq.
    But the purpose of the surge was to give time for a 
political solution, in Iraq, so that the government could have 
the confidence of its people, and that political solution 
certainly has not occurred during this past year.
    So, my first question for the panel is, if we are going to 
make progress in Iraq, we need responsible Iraqi political 
leaders who are willing to make concessions. When I look, 
historically at what happened in South Africa, what happened in 
Northern Ireland, what happened in Bosnia, we had leaders who 
were willing to step forward and make courageous concessions 
for the good of their country.
    Can you name a political party, or an individual at the 
national level in Iraq, that we perhaps could work with? That 
is prepared to step forward, and make those types of courageous 
concessions, in an effort to bring about a significant change 
in Iraq?
    Mr. Rosen. The concessions to the United States, or 
concessions----
    Senator Cardin. No, concessions within Iraq. That would be 
willing to step forward and say, ``We've got to change, we've 
got to give up this, and we've got to do that, in order to 
bring about a national reconciliation,'' and is prepared to be 
a leader, and make the type of concessions necessary, so that 
you can have a political process--political progress toward 
reconciliation in Iraq.
    Mr. Rosen. I think the Sadrist movement, actually, led by 
Muqtada al-Sadr, is one such example. They've been offering----
    Senator Cardin. What type of concessions are they willing 
to make?
    Mr. Rosen. Well, they've shown themselves willing to 
negotiate, and even work with Sunnis in the past, with the 
Sunni militias, when it came to fighting against the Americans 
together----
    Senator Cardin. What concessions are they willing to make 
now?
    Mr. Rosen. Concessions about what issues?
    Senator Cardin. I'm asking you, Are they in a position to 
exercise national leadership to bring the country together by 
moving forward with, admittedly, unpopular positions for their 
constituency, in order to bring about national reconciliation 
to a government that perhaps could have the credibility?
    Mr. Rosen. They're certainly one of the movements with the 
greatest legitimacy in Iraq, and if they have this popular 
appeal, and they have local leaders who----
    Senator Cardin. I haven't seen them put forward a program 
that would be viewed upon as being conciliatory.
    Mr. Rosen. Well, certainly in the last year, that wouldn't 
be the case.
    Senator Cardin. Right.
    Mr. Rosen. But prior to that, they had reached many 
accommodations with Sunnis, and I think most recently--
certainly when it comes to issues of federalism, of 
nationalism, the Sadrist movement is perceived--even by 
Sunnis--as being not loyal to Iran, which, the Supreme Council, 
for being opposed to federalism, so we've seen them strike 
deals with al-Awi, with some of the Sunni parties on those 
issues.
    They're the most trusted group by Sunnis, in terms of their 
nationals, and they have those credentials, because they fought 
the Americans, they said, we had two fighters against the 
American occupation, and even if inter-Shia fighting actually 
increases their legitimacy, they're not perceived as being mere 
pawns of Iran.
    And I think on the Sunni side, as well, you can imagine 
concessions, we've seen actually, now I remember, the Mahdi 
Army protecting Sunnis fleeing from al-Qaeda in different parts 
of Baghdad. So, sectarianism is important, but it's the fear of 
being killed that's motivating many Iraqis. It's not something 
ingrained, there's no ancient hatred of Sunnis--on the 
contrary, as Mr. Said said, are intermarried--and I think that 
could occur again.
    I think you also rely on these nationalist groups, and 
these nationalist groups, often by definition, are the ones who 
fought the Americans, but they are the ones who have the 
greatest appeal and popularity among people.
    Senator Cardin. Mr. Said, you want to give me a couple of 
names of----
    Mr. Said. I'm not going to give you any names, actually, 
but the point is, the criteria for identifying the leaders is 
very important, because so far, the criteria for identifying 
leaders was the people we like. The people who speak to us, the 
people who speak our language, and that's what--how the 24 
governing Council Members were selected, and that's what 
brought us to this situation. And what is needed is to find out 
the leaders who have shown leadership, and the Sadrist movement 
is clearly a group that has shown, not only that it's the most 
popular movement in Iraq today, but that it's capable of 
showing leadership.
    The fact that the Sadrists backed off confrontation with 
the government this time in Basra, although they had the 
military upper hand, shows a level of wisdom that is not 
usually attributed to them.
    And likewise on the Sunni side----
    Senator Cardin [presiding]. You don't think that retreat 
was politically motivated because of the timing of the 
elections?
    Mr. Said. Yes, it was--from the Sadrist position--they 
realize there was a public backlash against them----
    Senator Cardin. It was in their interest.
    Mr. Said. Exactly.
    Senator Cardin. Again, I appreciate your response, I'm not 
sure I've heard whether they would be willing to step forward 
to make the type of concessions necessary, so that the 
different----
    Mr. Said. It's not about concessions--it's about their 
platform is actually identical with the platform of many of the 
Sunni insurgents--nationalism, a unitary country, a stronger 
central government, restoring state services and resistance to 
occupation----
    Senator Cardin. I don't know if they would share the power, 
from what my----
    Mr. Said. They are more likely to share power with these 
guys, they have--there is more bitter animosity among the Shia 
between the Sadrist and the Skiri and the current government, 
than there is between them and the Sunni insurgents.
    Senator Cardin. Nationalism leaves a lot to be desired, as 
far as sharing a power.
    Dr. Biddle, can you give me a name?
    Dr. Biddle. I don't think anyone in Iraq, at the moment, is 
going to make large-scale concessions in the short term, and 
that's why top-down progress has been as slow as it is. I think 
many parties in Iraq are willing to make small-scale, grudging, 
slow concessions, which is why there has been some movement, 
but I think it's unrealistic to expect a radical acceleration 
of that process any time soon, absent major uses of coercive 
leverage by the United States that we've not been willing to do 
heretofore, and which may not succeed, were we to try them.
    Senator Cardin. Well, since I have the gavel, I'll ask one 
more question--I don't normally get the gavel, so I hate to 
give this up----
    [Laughter.]
    Senator Cardin. But, I don't think Senator Biden is back 
until tomorrow, so I think I'm safe until then.
    Let me ask you one more question I asked this morning, and 
that is, do any of you have a suggestion on how we should 
handle the displaced individuals--those within Iraq and the 
refugees outside of Iraq? The estimates we hear are somewhere 
around 4 million people in Iraq have been displaced, a little 
over 2 million within Iraq. A large number of refugees are in 
Jordan and Syria and Iran.
    Obviously if these individuals wanted to go back to their 
original homes, it would create all types of problems. Is there 
any solution to this problem that--within the next several 
years--that could bring people back to the communities in which 
they want to live?
    Mr. Rosen. I'm a consultant for Refugees International, and 
we're actually coming out with a report in 2 weeks on this 
issue, exactly.
    But, just briefly, internally, when you're engaged in a 
civil war it's a bit--it's the wrong time to return people to 
their homes, it's much too dangerous for Iraqis to be returning 
to their original homes these days, and indeed they're not.
    So, there was a trickle of Iraqi refugees from Syria who 
came back late last year, the majority of those did not go back 
to their homes, they actually went to safe areas, Shias went to 
Shia areas, Sunnis to Sunni areas.
    There is also no body to adjudicate the property disputes 
for post-2003. There is a body for pre-2003, so, certainly a 
body should be set up to adjudicate those disputes, because 
that's going to be a spark for violence for many years to come.
    Right now, there's nobody--there's no one body who decides 
who gets to go where. In some areas it's the Iraqi Army, in 
some areas, it's the Mahdi Army or one of the Awakening groups.
    The official U.S. military policy is not to be involved in 
returns, and certainly not to take people out of their homes. 
So, basically, the Shia gains in the civil war have been 
frozen. And, they, of course, wouldn't allow anybody to chip 
away at that by allowing Sunnis to return to those areas, but 
the displaced are much too scared to go back. There are rumors 
of a displaced guy trying to go back to his home, and being 
killed--these rumors spread like wildfire throughout the 
displaced population.
    So there's not much you can do politically, but on the 
humanitarian level, the displaced have no access to 
electricity, they don't have access to their ration cards--
their ration cards which were essential for so many Iraqis--80 
percent of the Iraqis depend on that. When you're displaced, 
you can't move your ration card with you from your original 
home to your new home, so you don't have access to your 
rations. And even though there are those who do have access to 
their rations, are only getting about 50 percent of that. So, 
at a time when the needs in Iraq are worse than ever, the 
public distribution system which supplies food and nonfood 
items to Iraqis, is really at a breaking point. And that's 
something that the International Community can support, and 
certainly should.
    And you should also envision some sort of safe havens, 
perhaps a contingency plans for where to house the displaced, 
that's internally, at least. People should also be aware that 
the displaced Iraqis are actually joining militias--in Sunni 
areas they're joining the Awakening groups, and people complain 
that these guys are more radical than elsewhere.
    Now, officially, according to the U.S. contracts with these 
groups, displaced Iraqis aren't supposed to join, it's supposed 
to be people from the neighborhood itself. So, that's a problem 
that should be monitored.
    And you also have to acknowledge, if you're concerned about 
humanitarian aid, that the major Humanitarian aid providers in 
Iraq are nonstate actors, are the Sadrist Movement, are 
Awakening groups, are militias and warlords. And if you want to 
have humanitarian access in Sadr City, you have to cut a deal 
with the local Sadrists, you have to recognize them, people 
that you might not like.
    Externally, in Syria and Jordan, some pressure should be 
put on them to grant the Iraqis some sort of legal status, so 
that they might be able to work. Because you have a population 
that was often in the middle class, or wealthy, that's growing 
impoverished, and they're not able to work, so their children 
work in the black market, because nobody really monitors child 
labor.
    People are living off of whatever savings they had, they 
sold whatever they had in Iraq and fled to Syria, and now 
they're running out of savings, they're unable to work. So, 
there should be, perhaps, financial assistance offered to the 
Jordanians and Syrians to grant some sort of status to the 
Iraqis, they might feel more secure, so their kids will be able 
to go to school.
    The infrastructure in Syria and Jordan isn't able, at this 
point, to handle so many Iraqis in terms of water and sewage 
and health and education, and the United States--which clearly 
has a debt, has a moral obligation, at least, if we're not 
going to accept the Iraqi refugees ourselves, we should do what 
we can to improve their quality of life in Syria and Jordan.
    Senator Cardin. I think that was an excellent explanation 
of what is the best-case scenario, which is not very good, and 
stands little chance of being implemented in the next couple of 
years. And I think that's a very sobering thought.
    I think it's going to fall on the International Community 
to provide help to the refugees, I think that's the only way 
it's going to happen. I think the longer it takes for Iraq to 
acknowledge the legitimate rights of people who have been 
displaced within their own country, the more difficult it's 
going to be to resolve it.
    And I couldn't agree with you more, it's not safe for 
Iraqis to return to their former communities under the 
circumstances. But their properties are being taken over, and 
when they return, it means that someone would have to give up 
their property, which is something people don't relish doing--
it's just a formula for future disaster.
    Mr. Rosen. Very often you have displaced Iraqis who come 
from poor areas, so a Sunni from the Shah District in east 
Baghdad, who now find themselves living in the home of a 
middle-class, upper-class Shia in western Baghdad, so they have 
their own incentive--why would we want to go back to our small, 
poor house when we can live in a very nice house that the local 
Sunni militia has given us in this wealthier Sunni area?
    Senator Cardin. Well, that is the best case scenario, I 
guess, in that circumstance.
    Mr. Rosen. Some sort of registry of deeds should be 
established, so in the future, people can refer to that and 
prove who owned what.
    Senator Cardin. I think as we look at how we move forward 
from where we are, and we can't rewrite history, and looking at 
how U.S. policy can assist in dealing with Iraq in the future, 
this is one area that is just a huge problem. And one that 
needs to be taken into consideration, and in fact, our 
government is doing virtually nothing in this regard.
    We're not taking Iraqi refugees in any great numbers. We 
give verbal support to some of the refugee issues, and we give 
some financial assistance, but it's other countries that are 
really burdened. I understand that refugees should have the 
right to work, I agree with you on that. But when you talk to 
the host countries, they are really pressed, financially, from 
dealing with the refugee issues.
    So, these are going to be tough issues that are going to 
have to be dealt with, and I don't think we're even thinking 
about these issues. And we talk about what progress can be made 
in the next 10 months--I'm not terribly optimistic, but I think 
we have a responsibility to do everything we possibly can to 
chart the right course for the United States and for Iraq.
    You get the last word.
    Mr. Said. If I may, just a key area to work on the refugees 
is the millions that are in Syria and Jordan. These are very 
poor countries, the Iraqi Government is sitting on billions of 
unspent money, I think it's very important to put as much 
pressure on the Iraqi Government to allocate Syria--I mean, the 
Iraqi Government has been giving some pennies, some crumbs to 
Syria and Jordan to take care of the refugees--$20 million, $30 
million--I think the costs are in the hundreds of millions of 
dollars, and it's within the power of the Iraqi Government to 
spend that money. It could be allocated directly to the 
refugees as pension payments, as compensation for the public 
distribution system that is not being delivered to them. But, I 
think it's very important that the Iraqi Government steps up, 
at least, on that one.
    The other issue which the Iraqi Government should be able 
to do in the short term, is to keep internal borders open, so 
that refugees could move on and find a better place.
    Senator Cardin. I think they are excellent suggestions, I 
just would point out, I don't believe they're high on the 
priority list of our government when working with the Iraqis, 
and I think these issues need to be addressed at a higher 
level. I think you're correct. These are great interim steps, 
and they need to be taken. I just hope that our government will 
make refugee issues the priority they should be, I just have 
not seen that in the past.
    With that, I'm going to take the power of the Chair and the 
committee stands adjourned.
    [Whereupon, at 5:01 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


``Patient Stabilized''--by Stephen Biddle, The National Interest, March 
                            2008-April 2008

    Iraq's progress is better today than it has been for a long time. 
An end to major violence, and with it a major reduction in the risk of 
a wider war and the human cost of further bloodshed, is now a real 
possibility. But to realize this potential won't be cheap or easy. And 
it won't produce Eden on the Euphrates. A stable Iraq would probably 
look more like Bosnia or Kosovo than Japan or Germany.
    This is because the likeliest route to stability in Iraq is not by 
winning hearts and minds or reaching a grand political bargain in 
Baghdad. It is by building on a rapidly expanding system of ``bottom 
up'' local cease-fires, in which individual combatant factions who 
retain their arms nevertheless agree to stop using them and standdown. 
Of course, fighters who voluntarily stop shooting can voluntarily start 
again; such deals are not inherently stable or self-policing. But 
neither are these merely accidents or brief tactical breathing spells. 
Cease-fires in Iraq have spread so rapidly because they reflect an 
underlying, systematic shift in the war's strategic calculus since 
early 2006 that has now made peace look better than war for the major 
combatants. This same strategic reality gives most of the remaining 
holdouts a similar incentive to standdown, which could bring an uneasy 
stability to Iraq.
    If so, the challenge for the United States would not end. The 
mission would shift from war fighting to peacekeeping, and U.S. 
casualties would fall accordingly.
But a continued presence by a substantial outside force would be 
essential for many years to keep a patchwork quilt of wary former 
enemies from turning on one another.
    This was not what the administration had in mind when it designed 
the surge or invaded Iraq. And it will not produce a strong, internally 
unified, Jeffersonian democracy that spreads liberty through the Middle 
East while standing in alliance with America against extremist and 
hegemonic threats in the region. But it can stop the fighting, save the 
lives of untold thousands of innocent Iraqis who would otherwise die 
brutal, violent deaths, and secure America's remaining vital strategic 
interest in this conflict: That it not spread to engulf the entire 
Middle East in a regionwide war. Eden this is not. Reasonable people 
could judge it too costly or too risky. But there is now a greater 
chance of stability in exchange for this cost and risk than there has 
been since this war's early months--and given the stakes, the case for 
staying and doing what is needed is stronger now than it has been for 
years.
    The original idea behind the surge was to reduce the violence in 
Baghdad, enabling the Iraqis to negotiate the kind of national power-
sharing deal we thought would be necessary to stabilize the country. 
The violence came down, but the compromise did not follow. Instead, a 
completely different possibility arose--a ``bottom up'' approach 
beginning with a group of Sunni tribal sheikhs in Anbar province.
    In a span of just a few months, this ``bottom up'' approach has 
yielded more than 100 local cease-fires across much of western and 
central Iraq. The participants agree not to fight U.S. or Iraqi 
Government forces, to turn their arms instead on common enemies, to 
wear distinguishing uniforms, to patrol their home districts, to limit 
their activities to those home districts and to provide coalition 
forces with biometric data (e.g., fingerprints and retinal scans) for 
all members. In exchange they receive recognition as legitimate 
security providers in their districts, a pledge that they will not be 
fired upon by U.S. or Iraqi Government forces as long as they observe 
their end of the agreement and a U.S.-provided salary of $300 per 
member per month. More than 80,000 Iraqis have now joined the 
``Awakening Councils'' or ``Concerned Local Citizen'' (CLC) groups that 
implement these deals.
    This was very bad news for al-Qaeda in Iraq (AQI). The CLC members 
had once been their allies, providing the safe houses, financial 
support, intelligence and concealment that had been essential to AQI. 
Without this, al-Qaeda was left exposed to U.S. firepower in ways it 
had never been before. Their ensuing heavy losses in Anbar and Baghdad 
drove AQI's remnants into the limited areas of Diyala, Salah ad-Din, 
and Ninawa provinces where CLC deals had not yet been reached.
    The CLCs are mostly Sunni. But many of the principal Shia 
combatants are now observing their own cease-fires. In particular, in 
August 2007 Moktada al-Sadr, the principal Shia militia warlord in 
central Iraq, directed his Jaish al-Mandi (JAM) or ``Mahdi Army'' 
militia to standdown, too.
    Holdouts remain, especially in the northern provinces between 
Baghdad and Kurdistan. But by January 2008, most of the major 
combatants on both the Sunni and Shia sides were all observing 
voluntary cease-fires. This produced a dramatic reduction in 
opposition, a dramatic reduction in the number of enemy-initiated 
attacks, and a corresponding reduction in U.S. casualties, Iraqi 
civilian deaths and Iraqi Government military losses. There are no 
guarantees, but it is now increasingly plausible that enough of today's 
holdouts can be brought around to bring something resembling a 
nationwide cease-fire to Iraq.
    If this happens, will the cease-fires hold? After all, voluntary 
decisions to stop fighting can be reversed. CLC members and JAM 
militiamen retain their weapons. Many are essentially the same units, 
under the same leaders, that fought coalition forces until agreeing to 
stop in 2007. Many retain fond hopes to realize their former ambitions 
and seize control of the country eventually. Many observers have thus 
argued that these cease-fire deals could easily collapse. And indeed 
they could.
    But this is not unusual for cease-fires meant to end communal civil 
wars such as Iraq's. These typically involve very distrustful parties; 
they often begin with former combatants agreeing to cease-fires but 
retaining their arms; and they are always at risk of renewed violence. 
Many fail under these pressures. But some succeed: In Bosnia, Kosovo, 
Liberia, Sierra Leone, Mozambique, and Zimbabwe, for example, cease-
fires of this kind have held.
    Translating fragile deals into persistent stability requires at 
least two key conditions: Peace has to be in the perceived strategic 
self-interest of both parties, and outside peacekeepers have to be 
present to keep it that way.
    Until recently, Iraq failed to meet the first condition. But two 
major errors by AQI changed the strategic landscape dramatically by 
mid-2007.
    Their first big mistake was to bomb the Shia Askariya Mosque in 
Samarra in February 2006. Before this, Sunnis believed they were the 
militarily stronger side; if only they could drive the United States 
out, they thought they could defeat a weak Shia regime and rule Iraq 
again. The Shia had largely allowed the U.S. and Iraqi Governments to 
wage war against the Sunnis for them; Shia militias had fought mostly 
defensively and often stood on the sidelines in Sunni-U.S. combat. But 
when AQI destroyed the shrine, the Shia militias entered the war in 
force and on the offensive. The result was the Battle of Baghdad: A 
year-long wave of sectarian violence in the capital pitting Sunni 
insurgent factions and their AQI allies against, especially, the Jaish 
al-Mandi. At the time, Americans saw this wave of bloodshed as a 
disaster--and in humanitarian terms it was. But in retrospect, it may 
prove to have been the critical enabler of a later wave of cease-fires 
by changing fundamentally the Sunni strategic calculus in Iraq.
    The Battle of Baghdad gave the Sunnis a Technicolor view of what an 
all-out war would really mean, and they did not like what they saw. 
With the Americans playing no decisive role, the JAM overwhelmed Sunni 
combatants in neighborhood after neighborhood, turning what had been a 
mixed-sect city into a predominantly Shia one. Districts that had been 
Sunni homeland for generations were now off-limits, populated with and 
defended by their rivals. By goading the JAM into open battle, AQI had 
triggered a head-to-head fight in which Sunnis were clearly and 
decisively beaten by Shia they had assumed they could dominate.
    AQI's second mistake was a systematic alienation of its Sunni 
allies. Fellow Sunnis whom AQI's leadership judged insufficiently 
devout or committed were treated with extraordinary brutality--
including delivery of children's severed heads to the doorsteps of 
wayward sheikhs. The smuggling networks that Sunnis in Anbar province 
relied upon to fund tribal patronage networks were appropriated by AQI 
for its own use, leaving sheikhs impoverished and disempowered. Before 
the Battle of Baghdad, most Sunnis tolerated these costs on the 
assumption that AQI's combat value against Shia and Americans 
outweighed their disadvantages. Defeat in Baghdad, however, showed that 
AQI could not deliver real protection, making AQI all cost and no 
benefit for its coreligionists.
    By late 2006, Sunnis who once thought they were on the road to 
victory thus realized they faced defeat unless they found new allies. 
This forced them to abandon AQI and turn to the United States while 
they still could. After initial wariness, U.S. forces took the plunge 
and aligned with the tribes against AQI. With American firepower 
connected to Sunni tribal knowledge of whom and where to strike, the 
ensuing campaign decimated AQI and led to their virtual eviction from 
Anbar province. U.S. protection in turn enabled the tribes to survive 
the inevitable, brutal AQI counterattacks. The result was a 
provincewide cease-fire under the auspices of the Anbar Awakening 
Council and the U.S. military.
    News of the Anbar model spread rapidly among disaffected Sunnis 
elsewhere. And as word spread, U.S. surge brigades began arriving. The 
combination of Sunni realignment, increased U.S. troop strength and a 
new U.S. mission of direct population security created a powerful 
synergy. The prospect of U.S. security emboldened Sunnis outside Anbar 
to realign with the United States; Sunni realignment enhanced U.S. 
lethality against AQI; U.S defeat of local AQI cells protected 
realigned Sunnis; local cease-fires with the Sunnis reduced U.S. 
casualties and freed U.S. forces to venture outward from Baghdad into 
the surrounding areas to keep AQI off balance and on the run.
    Cease-fires with Sunnis in turn facilitated cease-fires with key 
Shia militias. For Moktada al-Sadr, leader of the JAM, the Sunni 
standdown and the U.S. surge transformed the strategic landscape. The 
JAM arose to defend Shia civilians from Sunni violence. But that 
violence was now on the wane as Sunnis brokered cease-fires. In the 
interim, JAM thugs had increasingly exploited the population's 
dependency on the militia to extort personal profit through gangland 
control of key commodities such as cooking oil and gasoline, inspiring 
growing resentment among Shia civilians. This was tolerated when the 
JAM was all that stood between Shia and mass murder by Sunnis. But as 
the Sunni threat receded, the continuing exploitation turned the JAM 
into a parasite rather than a protector, and its Shia public support 
waned.
    Meanwhile, the U.S. military buildup in Baghdad posed an increasing 
threat to JAM control over its base. The Americans offered Shia 
security without gangsterism, and the Sunni cease-fires meant not just 
diminished public tolerance for the gangsters, but greater U.S. freedom 
to swing troops into a battle with the JAM for control over Shia 
population centers. Al-Sadr could have fought this, staking his 
reputation and his militia on a gamble that he could defeat the 
Americans. But
al-Sadr had tried this twice before and been decimated by U.S. 
firepower each time. In the past, he had nevertheless emerged from 
these defeats stronger than ever, as his popularity among Shia brought 
fresh recruits in droves to replace his losses. Now, by contrast, his 
popularity was declining. And his control over his own militia was 
splintering as rogue lieutenants with their own income took an 
increasingly independent path. With a weaker army and a declining 
ability to replace its losses, al-Sadr thus had no assurance that he 
could survive another hammering from the U.S. Army. He chose instead to 
standdown.
    Yet, the local reductions in violence have not produced national 
reconciliation among Iraq's elected representatives in the capital. Why 
not?
    In time they may. For now, though, the Shia-dominated al-Maliki 
government's incentives differ from those of its coreligionist Moktada 
al-Sadr. Al-Sadr needs peace to avoid further deterioration in his 
internal position and to avert casualties he cannot replace in a costly 
battle with the Americans. Al-Maliki, by contrast, is not fighting the 
Americans--the surge is no threat to him. On the contrary, U.S. 
reinforcements and weaker Sunni opposition reduce the cost of continued 
warfare for the al-Maliki government's army. For al-Maliki, moreover, 
peace is politically and militarily riskier than war. Reconciliation 
along American lines requires dangerous and politically painful 
compromises with rival Sunnis: Oil-revenue sharing with Sunni 
provinces, hiring of former Baathists, Anbari political empowerment and 
other initiatives that al-Maliki's Shia allies dislike, and which al-
Maliki fears will merely strengthen his sectarian enemies militarily. A 
predominantly Sunni CLC movement adds to these fears. Al-Sadr needs 
peace because war now risks his political status; al-Maliki, 
conversely, runs greater risks by compromising for peace than by 
standing fast and allowing the war to continue. Thus, the Shia-
dominated government makes little progress toward peace even as Shia 
militias standdown in cease-fires.
    This is not to deny any progress by the government. It has been 
distributing revenue to Sunni provinces even without a hydrocarbon law 
to require this. It recently passed a new de-Baathification law making 
it easier to hire Sunnis into some government jobs and had been doing 
such hiring even without a legal mandate. To date this has resembled a 
form of toe dipping: the al-Maliki government has been willing to 
experiment tentatively with compromise as long as it retained the 
ability to back off again later if the results were unfavorable. These 
moves could lay the basis for eventual compromise. But for the near- to 
mid-term future we are likelier to see a weak and sclerotic central 
government unable to do more than distribute oil revenue, while the 
real dynamic of Iraqi security devolves to localities.
    Thus, for now, local cease-fires look more likely to end the 
fighting than national grand bargains. But for these cease-fires to 
hold, an outside party will be needed to serve as a peacekeeper.
    This is because such deals are neither self-enforcing nor 
inherently stable. Even where peace is in the mutual self-interest of 
the majority on both sides, there will still be spoilers who seek to 
overturn the cease-fire and renew the war. Rogue elements of Shia 
militias profit from the fighting and will seek to restore the 
instability within which they flourish. And AQI has no interest 
whatsoever in stability. Though on the ropes, even small numbers of 
committed AQI terrorists can bomb selected marketplaces and public 
gatherings. In an environment of wary, tentative, edgy peace between 
well-armed and distrustful former combatants; even a few such attacks 
can lead to an escalatory spiral that quickly returns the country to 
mass violence.
    In another bad-case-but-likely scenario, the central parties to the 
cease-fire may try to expand their area of control at the expense of 
neighboring CLCs or militia districts. Ambitious Sunnis with dreams of 
Baathist restoration may use the lull to build strength, probe their 
rivals for weaknesses, then launch a new offensive if they discover a 
vulnerability. Shia militia leaders unsatisfied with a limited role in 
a weak goverment could push the limits of their accepted status at the 
expense of Sunnis or rival Shia warlords. The military balance limits 
what Sunnis, especially, can actually accomplish via renewed violence, 
but some will surely test the waters anyway or simply miscalculate; 
either way, it is easy to imagine the cease-fire parties cheating on 
the terms.
    Outside peacekeepers play a crucial role in damping such escalatory 
spirals and enforcing cease-fire terms. As long as the underlying 
strategic calculus favors peace, then an outside military presence 
allows victims of spoiler attacks to wait rather than retaliate--they 
can afford to delay and see whether the Americans will avenge them. 
Similarly, if CLC leaders and militia commanders know that a U.S. 
combat brigade is going to enter their district and arrest any leader 
whose followers violate the terms of the agreed cease-fire--and if the 
provision of biometric data and locating information for all CLC 
members means that the Americans know who the violators are and where 
to find them--then the underlying mutual interest in cease-fire is less 
likely to be tested.
    This is not war fighting. But it does require troops who can fight 
if they have to. And some fighting would be needed, especially early 
on, to punish spoilers and cease-fire violators, thereby discouraging 
further violence. Peacekeepers must thus be combat capable, but 
peacekeeping should not require the casualty toll of sustained warfare.
    Peacekeeping of this kind is labor intensive, long term, and would 
almost certainly have to be a U.S. undertaking, especially in the early 
years. We are the only plausible candidate for this role for now--no 
one else is lining up to don a blue helmet in Iraq. We are not widely 
loved by Iraqis; among the few things all Iraqi subcommunities now 
share is a dislike for the American occupation. Yet we are the only 
party to today's conflict that no other party sees as a threat of 
genocide. We may not be loved, but we are tolerated. And Iraqi 
attitudes toward Americans are not fixed: Sunni views of the U.S. role, 
for example, have changed dramatically in less than a year. Marine 
patrols in Falluja that would have been ambushed are now met with kids 
mugging for photos from marines carrying lollipops along with their 
rifles.
    This mission will be long--perhaps 20 years long--until a new 
generation, which has not been scarred by the experience of sectarian 
bloodletting, rises to leadership age in Iraq. A U.S. role will clearly 
be important for at least part of this time, but it may not be 
necessary for the United States to do this alone the entire time. If 2 
to 3 years of apparent stability make it clear that the Iraq mission 
really has become peacekeeping rather than war fighting, then it is 
entirely plausible that others might be willing to step in and lighten 
the American load, especially if they can do so under a U.N. banner 
rather than a bilateral agreement with the United States or the 
Government of Iraq. So we need not assume a 20-year U.S. responsibility 
alone. But a long-term presence by outsiders will be needed. And it 
would be imprudent to assume that we can turn this over to others 
immediately.
    The number of troops required could also be large. The social 
science of peacekeeping-troop requirements is underdeveloped, but the 
rule of thumb for troop adequacy in this role is similar to that used 
for counterinsurgency: Around one capable combatant per 50 civilians. 
For a country the size of Iraq, that would mean an ideal force of 
around 500,000 peacekeepers--which is obviously impossible. But some 
such missions have been accomplished with much smaller forces. In 
Liberia, for example, 15,000 U.N. troops stabilized a cease-fire in a 
country of 4 million, in Sierra Leone, 20,000 U.N. troops sufficed in a 
country of 6 million. It would be a mistake to assume that such small 
forces can always succeed in a potentially very demanding mission--but 
it would be just as bad to assume that because the United States cannot 
meet the rule-of-thumb troop count, the mission is hopeless. The best 
assumption is that more is better when it comes to peacekeeping: The 
larger the force, the better the odds, hence the right troop count is 
the largest one we can sustain for a potentially extended stay.
    Some now hope that lesser measures will suffice to stabilize Iraq's 
cease-fires. The U.S. leadership in Baghdad, for example, hopes that it 
can create a financial incentive for CLCs to behave by making them 
Iraqi Government employees. But the 
al-Maliki regime is resisting this, and it is far from clear that Sunni 
CLC leaders would trust al-Maliki to pay them if the United States 
withdrew most of its troops. Nor would government paychecks for CLCs do 
much for the JAM, which is an equally grave threat to stability.
    Financial incentives alone won't prevent spoiling, but they would 
help. They are just another useful tool for effective peacekeeping. The 
chance of maintaining a stable Iraq is highest with the largest number 
of peacekeepers we can sustain; other measures help, but they are not 
substitutes.
    Iraq is thus not hopeless--there is a real chance for stability. 
But this is no time for a victory parade. Stability's requirements are 
hard, and its payoff is likely to be imperfect.
    Nor is it guaranteed. Peacekeeping sometimes succeeds, but 
peacekeepers can also wear out their welcome. If the U.S. presence is 
not replaced in time by tolerable alternatives, nationalist resistance 
could beget a new insurgency and a war of a different kind. If spoiler 
violence or probes for weakness are not met forcefully enough, then 
challenges could overwhelm the peacekeepers and Iraq could collapse 
into renewed warfare. If ongoing operations do not spread today's 
cease-fires through the rest of Iraq, then the U.S. mission could 
remain that of war fighting without any peace to keep.
    Given these costs and risks, a case can still be made for cutting 
our losses now and withdrawing all U.S. forces as soon as logistically 
practical. But withdrawal has costs and dangers of its own: U.S. 
departure from an unstable Iraq risks regional intervention and a much 
wider war engulfing the heart of the Middle East's oil production, plus 
the human consequences of spiraling sectarian bloodshed if the war 
escalates in our wake, even without foreign intervention.
    Any policy for Iraq is thus a gamble. Stability cannot be 
guaranteed by staying; disaster cannot be excluded if we leave; exact 
odds cannot be known for either in advance. The scale of cost and 
uncertainty here makes all options for Iraq unattractive and risky.
    But we have to choose one. And the strategic landscape of 2008 
shifts the odds and the risks in ways that make the case for staying 
less unattractive than it has been for a long time.


         IRAQ 2012: WHAT CAN IT LOOK LIKE? HOW DO WE GET THERE?

                              ----------                              


                        THURSDAY, APRIL 3, 2008

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Kerry, Bill Nelson, Obama, Lugar, 
and Isakson.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    The Chairman. The hearing will come to order.
    Let me begin by welcoming our distinguished panel. We gave 
you an easy assignment: Tell us what Iraq is going to look 
like, what it should like, in 2012. But, in some ways this 
session is the most important we're going to be holding during 
this 2 weeks of hearings, including when Petraeus and Crocker 
come to testify, because my guess is they'll still be talking 
tactics, and not overall strategic objectives. And so, we're 
very delighted that all of you agreed to participate.
    Before we begin, I would like to remind everybody: Before 
the war began, this committee held an extensive set of hearings 
in the summer of 2002--and I know it's very easy to, you know, 
rewrite history, but we had distinguished witnesses, like 
yourselves--left, right, and center--testifying. They were, 
according to the press and the ratings, very heavily watched 
hearings. And the chairman and I and others raised an awful lot 
of the questions that--and, quite frankly, warned of some of 
the dilemmas we're likely to face, absent taking some action, 
which we did not take.
    That's not so much to try to say, you know, well, boy, we 
got this right, because I'm not making that assertion, but it 
is to put back in perspective what Dick Lugar raised--and I, as 
well, but I think he was the leading voice--of raising the 
question about, ``OK, we do this. What's the endgame?'' Not, 
``What's the exit strategy?'' What's the endgame? What do we 
want this country to look like? What is--what do we think will 
happen? What do you think we'll be left with?
    Everyone remembers, back then, there was the famous--quote 
``famous''--Powell axiom, ``You break the China, you own it.'' 
You know, ``You invade Iraq, you own it.'' Well, we own it. And 
it turns out that it may not have been such a good buy.
    And so, what we're trying to do today, the purpose of this 
hearing, is, a little bit, to go back--we are at a culmination 
point, to use a military term that a number of our witnesses 
used yesterday--we're at a potential turning point, we're at a 
place where possibly--possibly--we can change our strategy--or 
adopt a strategy, and possibly change some of the course of 
events by different actions.
    And so, what we want to look at is, today, what we tried to 
look at 6 years ago, which is: OK, where--the best-case 
scenario--where do we end up? Because I would note, 
parenthetically--and I apologize to my staff for wandering off 
their beautiful opening statement--but, the truth of the matter 
is that I don't know of any democracy where the people in that 
democracy will, over an extended period of time, shed blood and 
a great deal of financial treasure to maintain the status quo 
ante. I don't know where that's ever occurred. Now, it's one 
thing when you say we've been in the Balkans a long time, but 
people aren't dying, Americans aren't dying, and we're not 
spending 12 billion bucks a month.
    So if the best case is, we keep worse things from 
happening, that may be, from a policymaker standpoint, a 
legitimate justification for our national interest, to remain 
engaged as deeply as we are. But, it will not sell in a 
democracy. It will not sell in a democracy. And, based on our 
records, we're pretty good salesmen. We've been doing this for 
a long time. We've--I'll speak for myself--we've fooled our 
voters, for 35 years, into reelecting us.
    Yeah. Well, I hope you're there in Delaware. I look forward 
to meeting you, whoever is the person that said that.
    But, the point I'm making is that it's not going to--this 
cannot be sustained unless we have a pretty clear goal as to 
what we think will be the endgame here if we continue to ask 
the American people to do what we're asking them to do. We 
can't continue to make this up as we go along. We have to, in 
my view, mark a direction on our strategic compass and 
deliberately move in that direction.
    Ironically, despite all the debate in Washington and beyond 
about our Iraq policy, there is one premise just about everyone 
shares: Lasting stability will come to Iraq only through a 
political settlement among the warring factions.
    So, the single most important question you would think we 
would be debating is this: What political arrangements might 
Iraqis agree to? And what are the building blocks to achieve 
them? Yet, we almost never ask ourselves those questions, and 
we very seldom ever debate them, either in Presidential debates 
and/or in debates among policymakers. But, today, hopefully, we 
will.
    We've asked each of you to think ahead. In a reasonable, 
best-case scenario, What might Iraq look like, politically, 4 
years from now, in the year 2012? And what policies should we 
pursue now--inside Iraq, in the region, and beyond--to help the 
Iraqis get there, assuming we can?
    My own view, as my colleagues know all too well, is this. 
Absent an occupation, we cannot sustain or return to a dictator 
that we say we don't want--and we've not been able to find a 
suitable candidate yet--Iraq will not be governed from the 
center, at least at this point in history. That's the premise 
from which I start.
    I want to make it clear, I wish that were not true. It 
would be much, much, much, much, much better if there was a 
prospect Iraq could be governed from the center with a 
democratic government in place, or at least a government in 
place that had the confidence of the majority of the people.
    I believe Iraq's best chance to remain unified and stable 
is through a decentralized system of government that devolves 
considerable power to local and regional levels--in a word, 
federalism--but has a sustainable, identifiable, and real 
Central Government that has real powers. We can't impose this--
this view or any other view--or any other solution--on the 
Iraqis. But, we don't have to, because, in fact, in my view, 
federalism is enshrined in their Constitution.
    Now, I notice, at all the hearings we have, we have a lot 
of very qualified witnesses, and they selectively choose what 
laws they think should, in fact--when you really get you guys 
and women in the room, the truth is, people really don't like 
that Constitution, outsiders don't like the Constitution--many. 
They don't--it doesn't jibe with what the ideal state would be. 
Yet, it's the Constitution. And if we suggest that the 
Constitution, in and of itself, is not workable to produce a 
stable government, we should say so.
    And it's a vision my colleagues in the Senate, by the way--
of this federal system--my colleagues in the Senate and the 
House have endorsed, overwhelmingly, and put into law. And so, 
one of the things we want to find out, Are we right about that? 
Seventy-five Senators said the federal way to go--federal 
system is the way to go. The House overwhelmingly voted for the 
Biden resolution. Whether or not that makes any difference 
remains to be seen. But, if it's not the way to go, we should 
be talking about, What is the way to go?
    I'm not wedded to that plan. If there's a better way to 
meet our objectives of leaving Iraq without leaving chaos 
behind, I will strongly support it. And, as I said at the 
outset, the plan that I put forward, that we voted on, every 
day and month and year that goes by, absent moving on it, it 
makes it harder for it to be implemented. So, it may outrun--
theoretically, it may have been a good idea, a year ago or 2 
years ago. Maybe it's not a good idea anymore, because of--
events have moved beyond it. I think not; but, maybe.
    As important as defining the objective that we should be 
seeking is how we get to whatever the objective is. It's 
critical, in my view, that we establish a process that gets 
Iraqis' neighbors and the world's major powers much more 
actively involved in helping the Iraqis arrive at a political 
accommodation. And that's based on my observation of 35 years 
in the Senate, dealing with foreign policy issues, but also as 
an amateur student of history, that I don't recall many 
circumstances, as one witness said, yesterday, where there is a 
spontaneity among--between warring factions, absent expiring on 
the battlefield, where one says, ``You know, let's work this 
out. We can work this out.'' So, even among my Democratic 
colleagues, who said, ``We'll leave it up to the Iraqis. We'll 
say we'll leave, and they'll get it right,'' I'm not so sure--I 
don't--I'm not so sure of that. Matter of fact, I'm pretty sure 
that's probably not going to happen.
    So, what's the mix? Our influence in Iraq is a waning 
asset--I would argue, a wasted asset. I think we've basically 
run the string. Our influence is influence relating to our 
money and our physical power, but not our judgment. The 
influence of Iraq's neighbors and the major powers is also, in 
my view, a--not a waning, but a wasted asset we're not taking 
advantage of.
    So, I look forward to hearing from our witnesses today, who 
have given a great deal of thought to a vision of what a future 
Iraq might look like, and the willingness to share with us that 
vision, and how, if at all, the International Community can 
help it be realized.
    Professor Carole O'Leary is a program director and scholar 
in residence of the Center for Global Peace at American 
University. Dr. Brancati--am I pronouncing it correctly? Dr. 
Brancati is a fellow--I'm married to Dominic Giacoppa's 
daughter, so I'd better get it right--is a fellow at the 
Institute of Quantitative Social Studies at Harvard University, 
and we appreciate her coming down. Dr. Gregory Gause is an 
associate professor of political science at the University of 
Vermont; where as--from all the time you spend, several years 
ago, in New Hampshire, and I did, they affectionately refer to 
it as the ``Republic of Vermont.'' I--but, it's a great 
university, and it's nice to have you here, Doctor. And Dr. 
Terrence Kelly is the senior operations researcher at the RAND 
Corporation, one of the most respected think tanks in the 
world. And Ambassador Carlos Pascual is a vice president and 
director of foreign policy at the Brookings Institution, 
another great, well-respected think tank.
    Ladies and gentlemen, I thank you all for being here. And 
let me yield, now, to Chairman Lugar, and then we'll begin your 
testimony.

 OPENING STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM 
                            INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman. I 
appreciate this further opportunity for our committee to 
consider the future of Iraq, in advance of the testimony we're 
preparing to hear from General Petraeus and Ambassador Crocker, 
next week.
    Yesterday, in two hearings, the Foreign Relations Committee 
examined the status of military and political efforts in Iraq. 
And today, our witnesses will look beyond immediate problems, 
to the prospects for Iraq, 4 or 5 years into the future.
    Now, this is a very important exercise, because our 
consideration of policy in Iraq has often been focused on 
short-term considerations. Demonstrations of progress in Iraq 
are welcome, and we are grateful for the efforts of our 
military and civilian personnel in Iraq, who have risked their 
lives to improve the security situation during the last year.
    However, if we are unable to convert this progress into 
sustainable political accommodation that supports our long-term 
national security objectives in Iraq, this progress will have 
limited meaning. In other words, we will not achieve success 
without progress, but progress may not be enough for success.
    I have cautioned against seeing Iraq as a set piece, as an 
end in itself, distinct from broader United States national 
security interests. If we see Iraq as a set piece, we are more 
likely to become fixated on artificial notions of achieving 
victory or avoiding defeat when these ill-defined concepts have 
little relevance to our operations in Iraq. What is important 
is not the precise configuration of the Iraqi Government or the 
achievements of specific benchmarks, but, rather, how Iraq 
impacts our geostrategic situation in the Middle East and 
beyond.
    Fifteen months ago, at the beginning of the Foreign 
Relations Committee January 2007 hearing series on Iraq, I 
suggested a set of objectives for American involvement in Iraq. 
And these objectives were: Preventing the use of Iraq as a safe 
haven or training ground for terrorism; preventing civil war 
and upheaval in Iraq from creating instability that leads to 
regional war, the overthrow of friendly governments, the 
destruction of oil facilities or other calamities; and 
preventing a loss of U.S. credibility in the region and the 
world; and preventing Iran from dominating the region.
    Now, although observers might quibble over the exact 
definition of these objectives and the importance of achieving 
them, they remain a useful distillation of United States 
motivations for continuing involvement in Iraq.
    The questions before us now are, Can the U.S. strategy 
achieve these objectives? What adjustments can be made to our 
current strategy to improve its chances of success? If the 
current strategy cannot achieve them, is there an alternative 
strategy that might work? And if no strategy is likely to 
succeed at an acceptable cost, how do we minimize the damage of 
failing to adequately achieve some or all of these objectives?
    We begin this inquiry, knowing that we have limited means 
and time to pursue an acceptable resolution in Iraq. Testifying 
before us yesterday, MG Robert Scales joined our other 
witnesses in underscoring the limits imposed by the strains on 
our own Armed Forces. He wrote, in the prepared testimony, ``In 
a strange twist of irony, for the first time since the summer 
of 1863 the number of ground soldiers available is determining 
American policy rather than the policy determining how many 
troops we need. All that the Army and Marine Corps can manage 
without serious damage to the force is the sustained 
deployment, in both Iraq and Afghanistan, of somewhere between 
13 and 15 brigade equivalents. Assuming that Afghanistan would 
require at least three brigades, troop levels by the end of the 
surge in Iraq must begin to migrate toward the figure of no 
more than 12 brigades, perhaps even less. Reductions in post-
combat forces will continue indefinitely thereafter.''
    The limits of our military endurance elevate the importance 
of achieving political progress that can take advantage of the 
improved security on the ground. But, we have to be mindful 
that the task of stabilizing Iraq is not a fixed target. The 
lack of technical competence within the Iraqi Government, 
external interference by the Iranians and others, the 
corruption at all levels of Iraqi society, the lingering 
terrorist capability of al-Qaeda in Iraq, intractable disputes 
over territories and oil assets, and power struggles between 
and within sectarian and tribal groups can frustrate careful 
planning and well-reasoned theories. The violence of the past 
week is a troubling reminder of the fragility of the security 
situation in Iraq and the unpredictability of the political 
rivalries that have made definitive solutions so difficult. 
Even if compromises are made, they have to be preserved and 
translated into sustainable national reconciliation among the 
Iraqi populace.
    I look forward to hearing our witnesses' assessment of how 
the United States might achieve our objectives in Iraq, given 
these challenges.
    And I thank the chairman for calling this hearing.
    The Chairman. Well, thank you very much.
    We have a small attendance right now.
    John, did you want to make a brief opening statement?
    Senator Kerry. No, thanks, Mr. Chairman. I appreciate it.
    The Chairman. OK.
    What has been suggested by staff, based on the approach 
being taken, is that we start in the--and we move in the 
following order. Start with Professor O'Leary, Dr. Brancati, 
then Dr. Kelly, Professor Gause, and Ambassador Pascual, if we 
do it in that order. OK? That's how I'll recognize you.
    And Professor O'Leary, the floor is yours.

  STATEMENT OF CAROLE O'LEARY, RESEARCH PROFESSOR, SCHOOL OF 
 INTERNATIONAL SERVICE AND PROGRAM DIRECTOR, CENTER FOR GLOBAL 
           PEACE, AMERICAN UNIVERSITY, WASHINGTON, DC

    Professor O'Leary. Thank you. Thank you, Chairman Biden and 
Senator----
    The Chairman. And I might add--excuse me for interrupting--
I'll make sure that the entirety of each of your statements is 
placed in the record, and--I mean, it's all right to go and do 
the whole statement, but I just want you to know it will be 
placed in the record, without objection, each of you, and you 
can move from there.
    Thank you.
    Professor O'Leary. Thank you.
    Good morning. Thank you for inviting me to appear here 
today to consider what Iraq can look like in 2012, and how to 
get there.
    This morning, I will focus on several key recommendations, 
which, if implemented, I believe can build the foundation for a 
stable, federal, and democratizing Iraq in 2012. In other 
words, I'm going to focus on how we get there.
    First, I would like to refer to my written testimony and 
mention that I've listed eight core stipulations for what Iraq 
will look like in 2012. And, having worked in Iraq continuously 
since May 2003, I'm a gradualist. So, among my core 
stipulations, No. 3, I'd like to read it now.
    Under an amended federal regions law, at least one new 
federal region will have been created in Iraq, bringing the 
number of regional governments to at least two--the Kurdistan 
Regional Government, of course, being the second.
    The new federal region, I will call the Kufa Regional 
Government that combines the governorates of Najaf, Karbala, 
and Qadisiyah with Babil and Wasit, soon to hold referenda on 
whether to join this new region.
    So, without elaborating from the written testimony, my 
Iraq, in 2012, is a federal Iraq; the Constitution has been 
amended; it's still a unified Iraq, in the sense that it's one 
country; and it is slowly democratizing.
    My first theme relates to federalism itself, and I am a 
strong proponent of federalism.
    Words matter, and gradualism is the way forward if the goal 
is the establishment of a federal system in Iraq. Establishing 
stability in a future Iraq is a necessary precondition for the 
development of good governance and a vibrant civil society. The 
Iraqi experience of state-directed violence against specific 
ethnic and sectarian groups, including mass murder and ethnic 
cleansing, requires a new framework for governance that 
accommodates the political and cultural significance of 
pluralism in Iraqi society. Federalism, as an organizing 
framework for pluralistic societies, is one model that can 
promote stability in Iraq.
    Now, in this regard, it's been suggested, at various times, 
that the partition of Iraq may be the path that leads to 
political stabilization. Taking an Iraqi point of view, it is 
clear to me that the term ``partition'' is unhelpful, perhaps 
even detrimental, to the goal of stabilizing Iraq. The term 
``partition'' immediately causes Iraqis to become suspicious, 
to tune us out, and to be reluctant to engage in dialog on 
power-sharing, decentralization, and federalism. And there's a 
real irony here. Federalism as a model for governance in Iraq 
has long been supported by proponents such as myself precisely 
because it is a model that can hold Iraq together as a single 
state, minus the presence of a new dictator. Unfortunately, in 
the current political environment, many Iraqis believe that 
when American officials, scholars, and/or the media use the 
word ``federalism,'' we are really using it as a gloss or code 
word for ``partition.'' We need to be clear in our use of these 
terms. If we mean ``partition,'' as in the economic and 
political breakup of Iraq, then we should say so. If we mean 
``federalism'' as a means to keep Iraq unified, then we should 
be clear about that, too. Conflation of the terms ``partition'' 
and ``federalism'' on our side is not only erroneous, but 
dangerous, as it contributes to an environment of confusion and 
mistrust on the part of the Iraqi body politic.
    In order to support the goal of a federally organized Iraq, 
the United States should support workshops, wherein 
international experts on federalism engage directly with Arab 
Iraqis on issues relating to decentralization and power-sharing 
through case-study analysis of examples of federal systems 
across the globe. In doing so, we should emphasize that 
federalism is not just a Kurdish issue; rather, the different 
models of federalism should be examined on their own merits as 
they apply or don't apply to the needs and goals of the 
majority of the citizens of Iraq who live outside the Kurdistan 
region.
    In other words, the situation calls for a fresh analysis of 
how good or bad a fit federalism is for Iraq, irrespective of 
the longstanding Iraqi Kurdish view that federalism is the only 
option for post-Saddam Iraq. This fresh start, I strongly 
believe, will encourage Arab buy-in. In particular, emphasis 
should be placed on the case of the UAE, the United Arab 
Emirates, an Arab state which espoused federalism as a model 
for governance precisely because it offered a pathway toward 
holding the country together and distributing the oil resources 
fairly in a tribal context. The UAE is an example of a 
pluralistic society in which the pluralism stems from 
tribalism, not ethnicity. This, of course, is an important 
point for Arab Iraqis who reject what they see as the Kurdish 
insistence on ethnic federalism.
    And I would point out here that Washington, DC, has several 
experts on the UAE, including Edmund Ghareeb at American 
University, who can attest to the fact that Sheikh Zaid, the 
founder of the Emirates, convened a gathering of political 
science experts in 1970, about there, to consider all the 
different models of governance, and he settled on federalism as 
a way to avoid tribal warfare in what would become the 
Emirates, and as a way to share the oil fairly across the 
population; i.e., those parts of the Emirates--those federal 
units that had oil would have to share their resources with 
those parts of the Emirates that did not have oil.
    So, my second theme is that words matter and 
``reconciliation'' has been a divisive term in how we have 
pushed Iraqis to embrace it. I would recommend dropping the 
emphasis on ``reconciliation.'' It's a term that many Shia--in 
fact, every Shia person I have ever interviewed--rejects, 
irrespective of their party affiliation. Grand Ayatollah 
Sistani himself rejected the notion as unnecessary, in 2004, as 
did his son and spokesman. The Shia community in Iraq believes 
that there is nothing to reconcile about, in terms of Shia/
Sunni relations. That is, they assert that they have no problem 
with the Sunnis, per se; rather, the Shia believe that the 
crucial issue is the timely prosecution of crimes committed by 
the Baath Party under the Saddam regime.
    So, I would propose that an alternative to continued United 
States support for the concept of reconciliation is to refocus 
our efforts on activities that bring Iraqis--Iraq's communities 
together using traditional Arab, tribal, and Islamic mechanisms 
for dialog and conflict resolution that can produce, for 
example, enhanced understanding, ``tafahom'' in Arabic, which--
--
    The Chairman. Doctor, do you elaborate that on your 
statement, what some of those mechanisms are? And if you don't, 
I'd like to ask you now--not to go into it now, but to amend--
you know, make an appendix to your----
    Professor O'Leary. OK.
    The Chairman [continuing]. So we--those of us--speak for 
myself----
    Professor O'Leary. Yes.
    The Chairman [continuing]. Who don't fully understand all 
those mechanisms, would have a better sense of what, 
mechanically, they are.
    Professor O'Leary. I will.
    Senator Kerry. What do you call it?
    Professor O'Leary. And what do I----
    Senator Kerry. What do you call it? If it's not 
reconciliation, what is----
    Professor O'Leary. I would--the--I'm getting to that point, 
Senator.
    I would argue that enhanced understanding--understanding, 
``tafahom'' in Arabic, which can lead to agreement, 
``tawafiq,'' as in the name of the political coalition, which 
can then lead to consensus, ``ijma.'' And so, I would say our 
goal would be to lead Iraqis toward a consensus on how to move 
forward from this painful past, rather than reconciliation, 
which has a different set of implications, in my view. And I 
would argue that we do this using a gradualist approach--in 
other words, let Iraqis take the lead--bringing Sunnis and Shia 
together to focus on how to use traditional Arab conflict 
resolution tools to move toward consensus. That forms the basis 
of my approach, and I will submit the appendix on those tools--
--
    The Chairman. That would be helpful.
    Professor O'Leary [continuing]. And what they are.
    [The written response of Professor O'Leary follows:]

This document was prepared in response to Chairman Biden's request to 
Professor Carole O'Leary at the April 3rd hearing ``Iraq 2012: What Can 
It Look Like? How Do We Get There?'' to submit additional material on 
traditional Arab tribal and Islamic traditions of conflict resolution 
and appropriate terminology to replace the misplaced emphasis on 
``reconciliation.''
    Specifically, this briefing contextualizes the progression from 
understanding (tafahom) to agreement (tawafiq) to consensus (ijma) 
within the core tenets of Arab tribal and Islamic peace and conflict 
resolution.
                            musalaha process
Musalaha
    Sulh is the cessation of hostilities--the point arrived at through 
the process of musalaha, and it is related to the word sulah, which 
along with salaam, means peace. It should be noted that Islamic Peace 
theorists consider sulah to be ``negative peace'', or peace that is not 
in and of itself a state of long-term amiability and fellowship between 
two formerly conflicting parties. The conceptual basis for sulh comes 
from the Qur'an, where it is used to refer to righteously reformed 
behavior, or making peace and conciliation. It is a term that applies 
strictly to conflicts amongst Muslims, and is not mentioned in the 
application of disagreements between Muslims and non-Muslims, although 
there is no limitation to its use in this capacity within the Qur'an. 
In the Qur'an, the use of sulh for resolving conflicts between factions 
within the Muslim community twice, both verses of which have 
application to Iraq. They are: ``If two parties among the faithful 
fight, make peace between (aslihu) between them. But if one of them 
transgresses against the other, then fight the aggressor till they 
comply by the command of God,'' (49:9) ``The faithful are brothers; 
make peace (aslihu) between your two brothers,'' (49:10). Within the 
context of Iraq, so long as the Iraqis are themselves willing to 
recognize that they are in need of aslihu, then there are processes by 
which sulh, or a cessation of hostilities, can lead to sulah, or a 
period of general peace without fighting, which would, with patience 
and time, lead to salaam or a long-lasting sense of goodwill of all the 
Iraq communities towards each other as part of a Iraqi nation-state. 
This is all theoretical, so the best context in which to place sulh 
would be in the tribal sense of the word, where sulh is used to refer 
to the positive product of tribal negotiation.
    In conclusion, sulh and its related word musalaha both mean 
``cessation of conflict/state of peace/achievement of conciliation)'', 
and sulh is the most commonly used of the words. Sulh is used in the 
rural areas of Lebanon, in the Biqa' Valley especially, in Israel 
amongst Palestinians in the Galilee and Bedouins of the Negev, and it 
is an officially recognized form of conflict resolution by the 
Hashemite Kingdom of Jordan. For Jordanian Bedouin tribes, sulh means 
``the best of judgements'', and they use it in the context of the 
process of peacemaking and in the outcome of the peacemaking (Irani and 
Funk, 2001: 182-183). There are two varieties of sulh, public and 
private. Public sulh is similar to a peace treaty between countries, 
and is used when there is conflict between two or more tribes that 
leads to significant bloodshed and property destruction. Public sulh 
leads to muwada'a, or a peaceful period of a cessation of warfare. 
Private sulh is a happens when the aggrieved parties are within a 
tribe, and the victim and the perpetrator of the crime is known (Irani 
and Funk, 2001: 183).
Tawafiq
    The term tawafiq does not have an Islamic connotation, but it means 
either ``accordancy'' or ``accordance'' in Arabic. The term in English 
can have three main meanings, ``consensus'', ``adherence to a correct 
process'', and ``the bestowal of a particular status or treatment on 
somebody or something.'' In English, tawafiq would be an equivalent 
term to ijma', however there is an important difference between the two 
terms in Arabic. Tawafiq does not appear to be used in a religious 
sense, which ijma' carries historically and in modern use, and is thus 
more of a secular term. This may be why the Sunni Iraqi political 
movement, the Tawafiq Bloc, named itself ``Tawafiq'', to imply a strong 
sense of united strength that must be recognized by its competitors in 
Iraq, and that it was created from a process of consultation amongst 
the various Sunni groups that make up that particular coalition. 
Tawafiq may be a better word to use than ijma' in trying to describe 
the end product of a musalaha that would be promoted amongst the 
Iraqis, because it does not carry the same theological baggage with it.
Ijma': A tribal practice that has been Islamicized)
    Ijma' is a concept that has strong resonance amongst Middle Eastern 
and Islamic people. Ijma' essentially means ``consensus,'' usually in 
the context of reaching a decision that will have a broad impact upon 
the umma, or community of Muslims. In most situations, the emphasis 
upon ijma' as a legitimate method of establishing the rules of Middle 
Eastern societies is applied through the offices of scholars of Islamic 
law, who it is asserted, must come to ijma' in order to create rulings 
on daily life for the Muslim community. Sunni religious scholars differ 
from their Shia counterparts in that they emphasize the role of ijma', 
while Shia religious figures tend to highlight the role that ijtihad, 
or the use of the individual's intellect and not necessarily with the 
consultation and consensus of other Shia scholars, in creating daily 
guidelines for living a good Muslim life. Ijma' is not in and of itself 
a controversial idea, having a long established precedence from the 
time of the first Islamic Caliph Abu Bakr as a legitimate source of 
decisionmaking in Muslim society, it is the scenarios in which ijma' 
can rightly be applied that is up for debate. Generally, ijma' has been 
the reserve of Islamic religious scholars, who sought ijma' in relation 
to the creation of, and ruling on, religious laws and norms based upon 
the historical example of the Prophet Muhammad encoded in the sunna, 
his sayings reported in the hadith, and by the immutable revelations of 
God given to the Muslims through Muhammad in the Qur'an. Interestingly 
enough, the Qur'an was collected and codified through a process that 
sought ijma' to ensure the accuracy of the final collected Qur'an.
    The grave necessity for a system of consultation to collect the 
Qur'an into one book was a cause of the nature of the revelation of the 
Qur'an, which was oral, projected by the Prophet Muhammad to his 
community of believers, who would then, inspired by the beauty of the 
language of God entrusted to Muhammad, often memorize the verses word 
for word, or, if their memory was not strong enough and they could 
write, record the verses that had been revealed on scraps of bark or on 
camel bone. As the Islamic state expanded across the Arabian Peninsula, 
first under the Prophet Muhammad, and then under the command of his 
successors, especially the Caliphs Abu Bakr, Umar, and Uthman, the 
number of Companions of the Prophet who could recite the entire Qur'an 
were diminished by death in warfare, old age, or senility. Worse still, 
as the Arab armies were established in military bases outside of the 
main cities of conquered territories of the Near East, Persia, Central 
Asia, and northwestern India, the written Qur'ans that emerged in these 
areas were not all the same. Groups of competing Muslims began to 
accuse each other of heresy, and tried to support their claims by 
upholding their version of the Qur'an as right and true. Mortified by 
the dissention, which was at times violent, amidst the fledgling 
Islamic umma, Companions of the Prophet, who had special status as 
amongst the first converts of Islam who had known the Prophet and who 
had heard him recite the Qur'an in person, worked with the third 
Caliph, Uthman, to unify the divergent versions of the Qur'an through a 
process of consultation that sought to verify every reported verse of 
the Qur'an in the various texts before they would be accepted as 
truthfully the words of God. And in fact, there are references to the 
use of ijma' to unite the Muslim community in the Qur'an itself, the 
inspiration of which could not be lost upon the Companions of the 
Prophet and the Muslim community, Especially important are these two 
verses: ``Hold fast to the rope of Allah, all of you, and do not split 
into factions,'' (3:103) ``Obey Allah and obey the Messenger and those 
who are in charge of affairs among you. Should you happen to dispute 
over something, then refer it to Allah and to the Messenger'' (4:58-
59). At the end of this work, an ijma' was brokered amongst the umma, 
which led to the recording of a faithful version of the Qur'an.
    In the present day the historical example of the collection of the 
Qur'an into its final form is considered one of the most important 
examples of the application of ijma' as not only a source of democratic 
intention, but also as a tool to resolve conflict. Ijma' is vital to 
the well-being of the Muslim body-politic, and in the absence of divine 
revelation through the Prophet Muhammad, who is the last of the 
Prophets of God, political power of the umma, which is not divine, must 
incorporate the ijma' of the umma and it is the umma that is sovereign 
in all political matters. Concerned proponents of democracy in a 
society that is Muslim, have tried to promote the democratic spirit of 
ijma' as a means to marry Islamic ideas with ``Western'' ideas of a 
liberal, citizen-based democracy. The advantage of using a term such as 
ijma' is that it has a strong historical precedent in the Islamic 
community, and is sought-after product of Islamic theological 
consultation to determine sharia (Islamic religious law).
    Hypothetically, the necessity for ijma' could lead to a whole range 
of reforms within Muslim countries that would be in the spirit, if not 
the exact form, of what is now considered ``Western liberal 
democracy,'' so long as these reforms do not contradict the Qur'an. In 
the modern Middle East, public settings such as tribal councils 
(shuraat), NGO meetings, Parliament assemblies, already employ ijma', 
or at the very least pretend to utilize ijma', to solidify public 
support for policies or decisions. The social negotiations that lead to 
ijma' are considered, although still with debate, to apply to any 
person who is above all a member of the umma, whether male or female, 
and who is not a child or mentally handicapped. It should be noted, 
however, that generally speaking, ijma' is still a concept that has 
been confined to the religious sphere of Islamic societies, and 
specifically to the debates amongst Islamic religious scholars on the 
merits of this or that point of the sharia. However, beyond all the 
debate that surrounds ijma' amongst Islamic religious scholars, the 
need for an ijma' is not disputed. A hadith of the Prophet Muhammad 
addresses ijma', stating, ``My community will not agree upon 
misguidance. Therefore you must stay with the congregation, and Allah's 
hand is over the congregation.'' As part of Islamic political theory, 
there are four accepted levels of government, all of which are required 
to sustain themselves upon ijma'. These are: The construction of a 
khalifa (an Islamic political society which is not necessarily one led 
by a Caliph with authoritarian powers like some Islamist movements in 
the modern world suggest) that utilizes shura, or a governing body 
based upon consultation of the umma, which tries to implement the sawad 
al-a'zam, majority rule, which has the ultimate objective of supporting 
what is right action and forbidding what is wrong action. Again, these 
Islamic concepts, invested heavily with ijma', have application to 
Western liberal democratic society, with the same issues of majority 
versus minority rights, and determining what is lawful versus unlawful, 
that vexed the ``Western liberal democracies'' such as the United 
States. The issue of contention here is what exactly is meant by the 
construction of a khalifa, and what would the role be, and the 
ideological persuasions of, the Islamic religious scholars who would 
attempt to become the de facto ``judicial'' branch of the Islamic 
democratic state. Another question to ponder is in the context of 
multisectarian, multiethnic nation-states, such as Iraq, what type of 
system would develop to incorporate non-Muslim, or divergent Muslim, 
citizens? Would the model be the old millet system of the Ottoman 
Empire, where each community tended to its own civil affairs, and was 
accorded protection, so long as it was considered one of the ``People 
of the Book,'' and what role will secular law play within state 
structures? The most idealistic application of ijma' would be to move 
it beyond its traditional role of applying to the umma as an Islamic 
community, and expand the right of participation in the creation of 
ijma' to the umma of Humanity, beyond the confines first of Islam, and 
also of ethnicity. But, it might be necessary to focus first on the 
trees rather than the forest, by supporting the appreciation of ijma' 
as a secular political idea for a nation-state rather than just a local 
(although possibly trans-national) tribal shura secular concept of 
local governance. At any rate, it will be necessary to move the concern 
for ijma' away from the strict realm of politics in the context of 
religious debate.

    Professor O'Leary. My third theme relates to the 
importance, in my view, of tribalism in Iraqi society. 
Tribalism is a reality in Iraq. That's a fact. Tribes are an 
entry point into Iraqi society, and United States efforts to 
promote democratic values in civil society, including the 
rights of women and minorities, should incorporate the 
indigenous tribal system. Why? Tribes have existed in the 
Middle East for thousands of years. They are a stable form of 
traditional Middle East collective identity that has weathered 
the storm of colonialism and modernity. And inasmuch as some of 
the largest tribes in Iraq are mixed Sunni and Shia, such as 
the Shammar and the Jabour, it is important for the United 
States to engage tribesmen and tribeswomen and their leaders in 
efforts to confront sectarianism and to achieve consensus on 
the local and national level on such important issues as 
federalism.
    Tribes can also provide a productive avenue for efforts to 
promote civil society and democratic values. Tribes can offer a 
safe space for discussion of human rights, democratic values, 
and civil society through family and community discussions and 
low-key training programs within tribal communities. Moreover, 
there are, clearly, democratic ideas and traditions within the 
Arab tribal system itself. Such ideas include notions of 
consensus-building, of a person's individual autonomy, and of 
the sheikh as the first among equals, as well as such practices 
as mediation, negotiation, and compensation, which come under 
``urf,'' or traditional tribal law.
    My fourth and final theme is personal, and based on my 5 
years of work in Iraq: Strategic planning for capacity-building 
is critical. In fragile states, management, organizational 
development, and technical capacity are often overlooked. Based 
on my experience with capacity-building efforts in Iraq, I 
believe it is necessary to stress the importance of continued 
U.S. support for direct assistance to senior-level managers at 
the national, regional, and governorate level. I'm referring, 
of course, to ministers, deputy ministers, director generals, 
governors, and the like.
    In particular, I am recommending that U.S. funds be 
directed at one-on-one mentoring, or you might call it 
``twinning,'' programs in which an outside expert with high-
level management and organizational development experience, as 
well as the necessary technical expertise, is matched to a 
particular Iraqi senior-level manager for a minimum period of 6 
months. I have seen, firsthand, the fruits of this approach in 
my work with the Kurdistan Regional Government. In this regard, 
a key tool, which can be transferred to Iraqi managers, is 
strategic planning, and I can't stress this enough, how 
valuable this tool is, and how valuable and empowering it can 
be for Iraqis, for whom strategic planning is literally an 
unknown concept.
    And, for those of you who may worry that this approach is 
hegemonic, I can state that my experience in Baghdad and in the 
Kurdistan region has been that Iraqis are avid consumers of 
information on how to do strategic planning, particularly 
through the use of strategic planning charts that allow Iraqis 
to fill in the vision of where they want to be in 6 months, a 
year, 2 years; goals, outcomes, and deliverables tied to a 
timeline. The international community has a role to play in 
advancing these capacities to help mitigate the consequences of 
a lack of political will at the center, and also to strengthen 
emerging political will in the absence of strong technical 
capacity.
    Thank you.
    [The prepared statement of Professor O'Leary follows:]

     Prepared Statement of Carole A. O'Leary, Professor, School of 
 International Service and Program Director, Center for Global Peace, 
                  American University, Washington, DC

    I would like to thank Chairman Biden, Senator Lugar, and the 
distinguished Committee on Foreign Relations for inviting me to appear 
today to consider what Iraq can look like in 2012 and how to get there. 
I bring to my analysis a cultural perspective informed by my background 
in anthropology and research on governance, human rights, and communal 
identity dynamics in the former Kurdish Safe Haven between 2000 and 
2003. Since May 2003, I have been able to work in other parts of Iraq, 
including Basra, Mosul, Kirkuk, and Baghdad. My research has focused on 
understanding tribalism in the post-Saddam context, as well as 
identifying traditional tribal and Islamic mechanisms for conflict 
resolution and reconciliation. Throughout this period, I have had the 
privilege of supporting USAID and the State Department on various 
grants and contracts for education and human rights capacity-building. 
It has been an honor to support the brave men and women in our Armed 
Services, USAID, and the Department of State in their efforts to build 
a stable, democratic Iraq.
                           core stipulations
By 2012:
    1. Iraq will have held at least one round of National Elections.
    2. More locally representative provincial governments will be in 
place after at least one round of provincial elections.
    3. Under the Amended Federal Regions Law at least one new federal 
region will have been created in Iraq, bringing the number of regional 
governments to at least two (the Kurdistan Regional Government, plus a 
second ``Kufa'' Regional Government that combines Najaf, Karbala, and 
Qadisiyyah, with Babil and Wassit soon to hold referenda on whether to 
join the new region).
    4. A new election law will replace the closed-list system with 
either an open-list or district-by-district elections.
    5. The Islamic Supreme Council in Iraq or ISCI (formerly known as 
SCIRI) will not survive the passing (from terminal lung cancer) of 
Sayyed Abdul Aziz al-Hakim, at least in its current form. His son 
Sayyed Ammar will establish a moderate faction of the party that will 
remain close to the Kurds and attempt to position itself to reach out 
to professional/technocrat Shia, as well as Iraqis who define 
themselves as tribal and Arab (both Shia and Sunni).
    6. An emerging coalition focused on ``Iraq First'' and made up of 
more secular, independent Iraqis, Sunni, and Shia, professionals, 
tribal sheikhs, and their followers, as well as some Kurds, Christians, 
and Turkmen will challenge the overtly religious parties (Shia and 
Sunni) in the Council of Representatives. Sunni politicians formerly 
linked to the insurgency will gravitate toward this coalition.
    7. The Shia religious parties--The Sadr Movement, ISCI, Dawa, and 
Fadhila will still have constituencies, but not a majority in the 
Council of Representatives.
    8. The USG will be focusing its efforts on diplomatic and economic 
support, particularly in the areas of decentralization and local 
governance, public administration, management and organizational 
development, including human resources.

To achieve a desirable outcome in 2012, the U.S. should:
    1. Set expectations lower than a western-style democracy model for 
the new Iraq.
    2. Support education and training initiatives that explore how 
federal models of governance work to the benefit of pluralistic 
societies across the globe (from the U.S. and Canada to Spain, 
Switzerland, and Belgium, to the UAE and India). In particular, support 
discussion within and across Arab society in Iraq in order to 
facilitate analysis of the issue separate from Kurdish interests.
    3. Support stability before rapid reforms.
    4. Step back from unrealistic efforts to produce a ``grand 
bargain'' reconciliation and localize the issue, focusing our efforts 
and funding on supporting consensus building (ijma) within and across 
communities in a regional context.
    5. Understand that tribalism is part of the fabric of civil society 
and, with our support, can help to mend the sectarian rift in Iraq.
    6. Support the development of new political parties that cut across 
regional, ethnic, and sectarian divides.
    7. Support capacity-building initiatives that focus on good 
governance practices, including management training in strategic 
planning, finance, and economic development.
    8. Establish partnerships between U.S. and Iraqi institutions of 
higher learning, to promote exchanges, faculty enhancement and program 
development.

Below I identify four key actions which we can take to build a 
foundation for a stable Iraq in 2012.
1. Words matter: Parting with ``Partition''
    Establishing stability in a future Iraq is a necessary precondition 
for the development of good governance and a vibrant civil society. The 
Iraqi experience of state-directed violence against specific ethnic and 
sectarian groups, including mass murder and ethnic cleansing, requires 
a new framework for governance that accommodates the political and 
cultural significance of communalism in Iraqi society. Federalism as an 
organizing framework for pluralistic societies is one model that could 
promote stability in Iraq.
    In this regard, it has been suggested at various times that 
partition of Iraq may be the path that leads to political 
stabilization. Taking an Iraqi point of view, it is clear that the term 
``partition'' is unhelpful--perhaps even detrimental--to the goal of 
stabilizing Iraq. It immediately causes Iraqis to become suspicious, to 
tune us out, and to be reluctant to engage in dialogue on power-
sharing, decentralization, and federalism. There is a real irony here--
federalism as a model for governance in Iraq has long been supported by 
its proponents, including myself, precisely because it is one model 
that can hold Iraq together as a single state minus a new dictator.
    Unfortunately, in the current political environment many Iraqis 
believe that when American officials, scholars, and/or the media use 
the word federalism, we are really using it as a gloss or codeword for 
partition. We need to be clear in our use of these terms--if we mean 
partition as in the economic and political break up of Iraq, then we 
should say so--if we mean federalism as a means to keep Iraq unified 
then we should be clear about that, too. Conflation of the terms 
partition and federalism on our side is not only erroneous but 
dangerous, as it contributes to an environment of confusion and 
mistrust on the part of the Iraqi body politic.
    My second point is that it is not for us as Americans to decide how 
many federal units Iraq should have--for example, if we are analyzing 
how a model based on regional federalism would work in Iraq, it is not 
for us to suggest that a three-region model is the only, or even the 
optimal, solution. Rather, our role should be to present case study 
models for comparative analysis and discussion to our Iraqi friends so 
as to empower them in their decisionmaking. Based on my own ongoing 
research, Arab Iraqis who are open to federalism are without doubt more 
likely to think in terms of at least five federal regions, not three.
    In order to support the goal of a federally organized Iraq, the 
U.S. should support workshops wherein international experts on 
federalism and its variants engage directly with Arab Iraqis (without 
the presence of Kurds) on issues relating to decentralization and 
power-sharing [within the context of case study analysis of examples of 
federal systems across the globe]. In doing so, we should emphasize 
that federalism is not just a Kurdish issue--rather, the different 
models of federalism should be examined on their own merits as they 
apply (or don't apply) to the needs and goals of the majority of the 
citizens of Iraq who live outside the Kurdistan Region. In other words, 
the situation calls for a fresh analysis of how good or bad a ``fit'' 
federalism is for Iraq, irrespective of the longstanding Iraqi Kurdish 
view that federalism is the only option for post-Saddam Iraq. This 
fresh start, I believe, will encourage Arab ``buy in.''
    Particular emphasis should be placed on the case of the UAE, an 
Arab state which espoused federalism as a model for governance 
precisely because it offered a pathway toward holding the country 
together and distributing the oil resources fairly in a tribal context. 
The UAE is an example of a pluralistic society in which the pluralism 
stems from tribalism, not ethnicity. This of course is an important 
point for Arab Iraqis who reject what they see as a Kurdish insistence 
on ethnic federalism.

Ongoing interviews conducted [in Jordan and Iraq since 2006] with Sunni 
and Shia Arab Iraqis with tribal identities, suggest the following 
trends:
    1. Only a very small percent of Arab Iraqis--Sunni and Shia--
support regional federalism in the sense of a small number of large 
regions tied to sect and ethnicity.
    2. While the majority of Arab Shia accept federalism as a general 
concept, they reject regional or ethnosectarian federalism in favor of 
much smaller administrative federal units based on the existing 
governorates outside the Kurdistan Region. Moreover they support a 
limited amount of decentralization and a power-sharing formula that 
leaves intact key powers for the central government. I say this not 
withstanding the well-known position espoused by Sayyed Abdul Aziz al-
Hakim in support of a large, unitary southern federal region for Iraq.
    3. Iraqis in general appear to overwhelmingly reject partition--and 
here I would include the leadership of the Kurdish coalition which is 
openly committed to a single Iraq under a democratic, pluralistic, and 
federal system. That said, the same leadership openly asserts that if 
Iraq moves away from a democratic, pluralistic, and federal model of 
governance, they will exercise their right to self-determination--
whatever form that might take under a given scenario.
    4. Pundits and the media--both here and in Iraq--have often twisted 
the meaning of the so-called Biden-Gelb plan, as well as the Biden-
Brownback nonbinding resolution. In no part does either document call 
for the partition or dismemberment of Iraq. Both documents are clearly 
committed to a vision of a unified Iraq under a system of regional, 
economic federalism in which the glue, so to speak, is that the 
regions--including the Sunni region--will receive a fair share of the 
oil revenues to be distributed on the basis of population, not on the 
basis of how much oil or gas a particular region may have.
    5. The longstanding and robust Kurdish support for regional and 
economic federalism has obfuscated the issue for Arab Iraqis, as well 
as served to ``turn them off'' (as the Kurdish embrace of federalism 
created a visceral Iraqi Arab reaction and rejection of the concept).
    We are not yet at the point where we can talk about implementing an 
Arab vision of federalism for Iraq. Rather, an education campaign is 
needed to debunk the idea that ``federalism for Iraq'' is a conspiracy 
by the U.S. aimed at dividing Iraq and stealing its oil.
    Engaging Sunni rejectionists on this issue requires understanding 
Sunni concerns. Among the issues raised by my Iraqi Sunni Arab 
interviewees are the following: No clear understanding of how 
federalism provides economical benefits to local communities; and no 
clear understanding of how federalism will serve to equitably divide 
Iraq's resources among its citizens.
    The Arab Sunni view is driven by the need to see Iraq unified under 
a central government not tied to Iran, ensuring equal distribution of 
resources. The Kurds favor regional and economic federalism in order to 
consolidate de facto independence. The Shia political figures are 
seeking some form of federalism allowing them more control over the 
Iraqi population and natural resources in the south, a view supported 
by Iran. From an Arab Sunni point of view: (1) Iran's interference in 
Iraqi politics is at the heart of the problem; (2) the Shia-controlled 
central government has been unable to impose its political will in Shia 
areas in the south and, at the same time, has almost no ability to 
assert power in Sunni areas, rendering it an ineffective political 
contributor to the federalism debate; and (3) the Arab Sunni community 
will not even begin to contemplate federalism as a viable form of 
governance until it feels comfortable with and confident about the 
Shia-controlled central government's political intensions.
2. Words matter: Moving away from ``Reconciliation'' as a rallying 
        theme
    U.S. civilian and military personnel should strive to use terms and 
experiences that Iraqis can relate to. But, this is not just about 
using words Iraqis can understand, rather it is about helping them make 
the changes they think they need--keeping Iraqis at the fore. Indeed, 
it is not about pushing America ideas, but rather supporting Iraqi 
ones, letting Iraqis come up with their own ideas about how they think 
development should proceed, and, in turn, U.S. personnel providing 
support for these ideas as they see appropriate.
    Renewed focus should also be given to the importance of the culture 
of honor (sharaf) in Iraq. Keeping one's word of honor and following 
through on promises, especially at the communal level, is something 
that transcends any cultural or religious differences, not to mention 
proving key to strengthening ties among Iraqis and between Iraqis and 
Americans. Indeed, increasingly, for Iraqis, honor is not only meant to 
be employed in the rhetorical sense, but also practically speaking. 
Meeting some of their most basic needs remains a priority for many 
Iraqis. Thus, taking more initiatives to show how keeping one's word of 
honor (on both sides) can materialize in terms of real benefits is a 
worthy goal. This may prove critical to any continued U.S. 
reconstruction efforts.
    Second, I would recommend dropping the emphasis on reconciliation--
a term that many Shia, irrespective of party affiliation, find 
offensive.\1\ Grand Ayatollah Sistani himself rejected the notion as 
unnecessary in 2004. The Shia community in Iraq believes that there is 
nothing to reconcile about in terms of Shia-Sunni relations; that is, 
they assert that they have no problem with Sunnis per se. Rather, the 
issue for them is the timely prosecution of crimes committed by the 
Baath Party under the Saddam Regime.
---------------------------------------------------------------------------
    \1\ See, for example, ``Iraq: Reconciliation Conference Underscores 
Political, Sectarian Rifts,'' Radio Free Europe/Radio Liberty (RRE/RL 
Newsline) Wednesday, March 26, 2008.
---------------------------------------------------------------------------
    An alternative to continued U.S. support for the concept of 
reconciliation, is to refocus our efforts on activities that bring 
Iraq's communities together using traditional tribal and Islamic 
mechanisms for dialogue and conflict resolution that can produce 
enhanced understanding (tafahom) which can then lead to agreement 
(tawafiq) which can then lead to consensus (ijma), utilizing a 
gradualist approach. Bringing Shia and Sunnis together, to focus on how 
to use traditional ``Arab'' conflict resolution tools to move toward 
consensus, forms the basis of this approach.
3. Tribalism: An example of traditional communal identity in Iraq that 
        transcends sect and is part of the fabric of civil society
    The image of a triangle or pyramid is used to represent people who 
organize themselves socially and politically through the metaphor of 
blood: Descent from a common ancestor, real or imagined, through one's 
father's line. Tribe represents a communal identity which is both a 
form of sociopolitical organization (e.g., like a state, nation-state, 
or a kingdom) and a cultural identity based on notions of kinship and 
genealogy, honor and autonomy. Persons holding a tribal identity are 
not limited in their economic activities. Tribesmen and women can be 
pastoral nomads, village agriculturalists, shopkeepers in towns, heads 
of corporations in cities or rulers of nation-states (e.g., in Saudi, 
Kuwait, Jordan, Qatar, Yemen, etc.).
    Far from being a relic of the past or a ``primitive'' vestige of 
social organization, ``tribe'' in some modern contexts can be a 
constructive element in sustaining modern national identity (e.g., 
Jordan and Saudi Arabia). Thinking about how Middle Easterners 
understand their tribal identities allows us to have a window on how 
shared ideas about morality, honor, and the nature of society relate to 
concepts of reconciliation and conflict resolution as we understand 
them. Thus, while this is not an argument in support of tribalism per 
se, tribalism is a reality (or ``social fact'') in Iraq. Tribes are an 
entry point into Iraqi society and U.S. efforts to promote democratic 
values and civil society in Iraq, including the rights of women and 
minorities, should incorporate the indigenous tribal system. Why? 
Tribes have existed in the Middle East for thousands of years. They are 
a stable form of traditional Middle East collective identity that has 
weathered the storms of colonialism and modernity. And, inasmuch as 
some of the largest tribes in Iraq are mixed Sunni and Shia, it is 
important for the U.S. to engage tribesmen and tribeswomen and their 
leaders in efforts to confront sectarianism and achieve consensus on 
the local and national levels.
    Tribes can also provide a productive avenue for efforts to promote 
civil society and democratic values in Iraq inasmuch as tribes men and 
women understand their tribal identity through the metaphor of family 
(kinship and genealogy). Thus, tribes can offer a safe space for 
discussion of human rights, democratic values, and civil society 
through family and community discussions and low-key training programs 
within tribal communities. Moreover, there are clearly democratic ideas 
and traditions within the tribal system itself. Such ideas include 
notions of consensus-building, of individual autonomy and of the sheikh 
as the first among equals, as well as such practices as mediation, 
negotiation, and compensation which come under `urf or traditional 
tribal law.
4. Strategic planning for capacity-building from the top and the bottom
    In fragile states, management, organizational development, and 
technical capacity are often overlooked. We assume that governments 
make bad decisions because of the lack of political will, when the lack 
of management, organizational development and technical capacity can 
also feed bad decisions. Capacity works at all levels--national, 
regional, local. But approaches to building capacity require education 
and training--introduction of strategies to strengthen relationships, 
promote a shared vision, determine the allocation of resources in line 
with national goals, etc. Building technical capacity includes 
leadership and leadership training, so that organizations at all levels 
of the system understand how to implement their mandates under a clear 
set of rules and regulations. Capacity includes knowledge and skills 
that are necessary for administrators and managers who must manage an 
emerging system.
    Based on my experience with capacity-building efforts in Iraq, I 
want to stress the importance of continued U.S. support for direct 
assistance to senior-level managers at the national, regional, and 
governorate levels (e.g., Ministers, Director Generals, Governors, 
etc.). In particular I am recommending that U.S. funds be directed at 
one-on-one mentoring, or twinning, programs in which an outside expert 
with high-level management and organizational development experience, 
as well as the necessary technical expertise, is matched to a 
particular Iraqi senior-level manager for a minimum period of 6 months. 
I have seen first-hand the fruits of this approach in my work with the 
Kurdistan Regional Government. In this regard, a key tool which can be 
transferred to Iraqi managers is strategic planning. I can not stress 
enough how valuable this tool can be for Iraqis for whom strategic 
planning is an unknown concept. And, for those of you who may worry 
that this approach is hegemonic, I can state for the record that my 
experience has been that Iraqis are avid consumers of information on 
how to do strategic planning, particularly through the use of strategic 
planning charts that allow Iraqis to fill in goals, outcomes, and 
deliverables matched to a timeline. The international community has a 
role to play in advancing these capacities to help mitigate the 
consequences of a lack of political will, and to strengthen emerging 
political will in the absence of strong technical capacity.

    The Chairman. Thank you very much. It was very helpful.
    Doctor.

     STATEMENT OF DR. DAWN BRANCATI, FELLOW, INSTITUTE OF 
 QUANTITATIVE SOCIAL STUDIES, HARVARD UNIVERSITY, CAMBRIDGE, MA

    Dr. Brancati. Thank you very much.
    So, I, too, agree that a federal system is an important 
tool to implement in Iraq. In order to achieve a sustainable 
peace in 2012 and beyond, I argue, Iraq needs to put in place a 
viable federal system.
    At the outset, the Iraqi Constitution defines Iraq as a 
single, independent federal state. Subsequently, it carves out 
a political system that broadly shared decisionmaking authority 
among multiple tiers of government. Great strides, however, 
have yet to be made before this system is realized in practice.
    Federalism is not only an appropriate political system for 
Iraq, but a vital one with which to build peace in the country. 
Federalism is not partition, nor is federalism necessarily the 
first step on a short road toward partition. On the contrary, 
federalism can be a crucial tool for avoiding state dissolution 
in Iraq.
    So, why is federalism an appropriate system for Iraq? 
Federalism can promote peace by moving issues that are 
potential sources of conflict from the national sphere to the 
subnational level, where groups can decide these matters on 
their own. At the subnational level, groups, in turn, can 
tailor policies that meet their specific needs and goals, 
allowing for what former President Clinton has described as 
``the best of all worlds.''
    Why doesn't federalism necessarily lead to separatism? 
Federalism allows groups to benefit from being a member of a 
larger state, which may include, as the Iraqi Constitution 
stipulates, border protection and revenue-sharing, while still 
exerting control over issues that are most important to them.
    Nonetheless, the effect of federalism on Iraq will not 
necessarily be immediate. Initially, federalism will be 
characterized by a lot of push and pull as Iraqis struggle to 
find the appropriate level of decentralization for their 
country. This push and pull will likely be present for the 
foreseeable future, although probably not with as much 
intensity as of now.
    Federalism's flexibility, in this respect, is one of its 
key strengths, however. A system that is not flexible will snap 
under pressure.
    I make these claims, not based on anecdotal evidence or a 
few selectively chosen case studies; instead, I make these 
claims based on hard data. So, in a statistical analysis of 50 
democracies around the world over nearly six decades, I find 
that decentralization results in a 70-percentage-point decrease 
in antiregime rebellion and a 44-percentage-point decrease in 
the intercommunal conflict.
    I also find that having more extensive forms of 
decentralization decreases intrastate conflict over less 
extensive ones. The specific areas I examined in this analysis 
include the ability of regions to raise their own revenue and 
exert control over education and public order or police.
    While these numbers may seem obtuse, in terms of human 
lives they are starkly apparent. Moreover, there is also a 
tendency, when you hear figures like these, to claim that a 
particular case is unique and does not fit an established mold. 
It is true, countries are unique, and Iraq is different from 
other countries in many respects. After all, Iraq has no prior 
history with federalism. In fact, federalism is not a very 
common practice in the Middle East at all, as many critics of a 
federal Iraq have pointed out.
    The fact, however, that Iraq has no prior history with 
federalism, or that federalism is an uncommon form of 
governance in the Middle East, is irrelevant to this 
discussion. Many countries that have vibrant democracies today 
did not have strong prior histories with democracy. The same is 
true with federalism. History must begin somewhere, and Iraqi's 
democratic history must begin with federalism.
    Not every variant of federalism will engender peace in 
Iraq, however. For federalism to be successful, the central 
authority must not be hollow. If it is, subunits of the state 
are likely to have very little incentives to stay within Iraq. 
The central government must also be independent; that is, it 
must not rely on the goodwill of the subunits to function, 
since this goodwill is unlikely to be forthcoming. Various 
parties within Iraq, and the Middle East more generally, are 
also unlikely to accept this system in practice.
    Dissolving specific powers to the subnational level in Iraq 
will not necessarily lead to peace, for federalism is not a 
one-size-fits-all system. Whether devolution of certain powers 
encourages peace is likely to depend on the particular demands 
of the Iraqi people. Devolving authority in areas not solicited 
by specific groups is unlikely to contribute to a stable Iraq.
    Only a federal system, moreover, that builds ties across 
subunits of the state and across ethnolinguistic and religious 
and tribal groups will promote peace in Iraq. Federalism 
requires cooperation among subunits of the state, but it does 
not necessarily encourage it.
    Cooperation must, therefore, be incentivized. In other 
words, cooperation must be built into the system. This is 
particularly the case in terms of oil revenue-sharing. The 
party system, I believe, is key in this regard. Party systems 
must be overarching. That is, they must fully incorporate 
people from different regions, ethnolinguistic, religious, and 
tribal groups. Parties in the conflict situation, such as in 
Iraq, may not naturally involve this way. The system must, 
therefore, require it legislatively.
    In the same 50-country study of federalism I've already 
mentioned, I found that the effectiveness of federalism in 
reducing conflict is severely curtailed when the party system 
is dominated by regional parties. Regional parties focus on 
what is in the best interest of their group, and not 
necessarily what is in the best interest of the country as a 
whole or that of other groups. As such, regional parties can be 
a major hindrance to peace.
    It is foolhardy to believe, however, that federalism alone 
can engender peace in Iraq. Federalism will not bring the war 
in Iraq to an end. The war must first end for federalism to 
operate effectively.
    Federalism must also be buttressed by economic development 
and a stable security force that acts as a deterrent to 
violence. This is particularly problematic if the United States 
pulls out of Iraq before stability is achieved and key 
structures are in place.
    In order to realize these goals in 2012 and beyond, 
federalism needs the support and encouragement of the United 
States, as called for in the Biden-Brownback amendment. The 
United States, of course, should not impose federalism on Iraq, 
but this amendment does not call for such action. U.S. 
encouragement is needed, however, to overcome classic 
commitment problems; that is, in order to realize federalism, 
parties must share power and trust that the other side will 
share power, as well. However, since one party may shirk, other 
parties may be reluctant to commit to federalism in the first 
place; thus, a third party, like the United States, is needed 
to ensure that both parties commit to federalism and take 
action against violations of the system.
    While it is impossible to know what will befall Iraq in the 
leadup to 2012, extant knowledge suggests that, even with 
federalism, the current prognosis for Iraq looks weak. However, 
without federalism, the prognosis looks even bleaker.
    [The prepared statement of Professor Brancati follows:]

    Prepared Statement of Prof. Dawn Brancati, Fellow, Institute of 
     Quantitative Social Studies, Harvard University, Cambridge, MA

    In order to achieve a sustainable peace in 2012 and beyond, Iraq 
needs to put in place a viable federal system. At the outset, the Iraqi 
Constitution defines Iraq as a ``single independent federal state.'' 
Subsequently, it carves out a political system that broadly shares 
decisionmaking authority among multiple tiers of government. Great 
strides have yet to be made, however, before this system is realized in 
practice.
    Federalism is not only an appropriate political system for Iraq, 
but a vital one with which to build peace in the country. Federalism is 
not partition. Nor, is federalism necessarily the first step on a short 
road toward partition. On the contrary, federalism can be a crucial 
tool for avoiding state dissolution in Iraq.
    Why is federalism an appropriate system for Iraq? Federalism can 
promote peace by moving issues that are potential sources of conflict 
from the national sphere to the subnational level, where groups can 
decide these matters on their own. At the subnational level, groups can 
tailor policies that meet their specific needs and goals, allowing for 
what former President Clinton has described as the ``the best of all 
worlds.'' \1\
---------------------------------------------------------------------------
    \1\ Former U.S. President Bill Clinton once stated that ``I think 
if we will keep this in mind--what is most likely to advance our common 
humanity in a small world, and what is the arrangement of government 
most likely to give us the best of all worlds, the integrity we need, 
the self-government we need, the self-advancement we need . . . I think 
more and more people will say, this federalism, it's not such a bad 
idea.'' See Edison Stewart, ``Clinton Weighs in With Plea to Quebec,'' 
Toronto Star, October 9, 1999.
---------------------------------------------------------------------------
    Why doesn't federalism necessarily lead to separatism? Federalism 
allows groups to benefit from being a member of a larger state, which 
may include, as the Iraqi Constitution stipulates, border protection 
and revenue-sharing, while still exerting control over issues that are 
most important to them.
    Nevertheless, the effect of federalism on Iraq will not necessarily 
be immediate. Initially, federalism will be characterized by a lot of 
push and pull as Iraqis struggle to find the appropriate level of 
decentralization for their country. This push and pull will likely be 
present for the foreseeable future although probably not with as much 
intensity. Federalism's flexibility in this respect is one of its key 
strengths, however. A system that is not flexible will snap under 
pressure.
    I make these claims not based on anecdotal evidence or a few 
selectively chosen case studies. Instead, I make these claims based on 
hard data. In a statistical analysis of 50 democracies around the world 
over nearly six decades, I find that decentralization results in a 70-
percentage-point decrease in antiregime rebellion and a 44-percentage-
point decrease in intercommunal conflict.\2\ I also find that having 
more extensive forms of decentralization decreases intrastate conflict 
over less extensive ones. The specific areas I examined in this 
analysis include the ability of regions to raise their own revenue and 
exert control over education and public order or police.
---------------------------------------------------------------------------
    \2\ These figures are based on a statistical analysis of antiregime 
rebellion and intercommunal conflict in Dawn Brancati, forthcoming, 
``Peace by Design: Managing Intrastate Conflict Through 
Decentralization'' (Oxford, U.K.: Oxford UP). The models include 
variables for decentralization, regional party vote, political and 
civil rights, type of electoral system, age of democracy, 
ethnolinguistic heterogeneity and GDP. The models show that holding 
every variable but decentralization at its mean, that decentralization 
decreases antiregime rebellion by 0.70 points and decreases 
intercommunal conflict by 0.44 points. Different models yield different 
figures although across models, the effect of decentralization is 
strongly significant.
---------------------------------------------------------------------------
    While these numbers may seem obtuse, in terms of human lives, they 
are starkly apparent. There is also a tendency when you hear figures 
like these to claim that a particular case is unique and does not fit 
an established mold. It is true countries are unique and Iraq is 
different from other countries in many respects. After all, Iraq has no 
prior history with federalism. In fact, federalism is not a very common 
practice in the Middle East at all, as many critics of a federal Iraq 
have pointed out.
    The fact, however, that Iraq has no prior history with federalism, 
or that federalism is an uncommon form of governance in the Middle 
East, is irrelevant to this discussion. Many countries that have 
vibrant democracies today did not have strong prior histories with 
democracy. The same is true of federalism. History must begin somewhere 
and Iraq's democratic history must begin with federalism.
    Not every variant of federalism will engender peace in Iraq, 
however. For federalism to be successful, the central authority must 
not be hollow. If it is, subunits of the state are likely to have very 
little incentive to stay within Iraq.\3\ The central government must 
also be independent. That is, it must not rely on the goodwill of the 
subunits to function since this goodwill is unlikely to be forthcoming. 
Various parties within Iraq and the Middle East more generally are also 
unlikely to accept this system in practice.
---------------------------------------------------------------------------
    \3\ Typically, central governments have jurisdiction--singular or 
shared with regional authorities--over issues that affect a country as 
a whole or issues that subunits of a state cannot provide for 
individually.
---------------------------------------------------------------------------
    Devolving specific powers to the subnational level in Iraq will not 
necessarily lead to peace, for federalism is not a one-size-fits-all 
system. Whether devolution of certain powers encourages peace, is 
likely to depend on the particular demands of the Iraqi people. 
Devolving authority in areas not solicited by specific groups is 
unlikely to contribute to a stable Iraq.
    Only a federal system, moreover, that builds ties across subunits 
of the state and across ethnolinguistic and religious groups will 
promote peace in Iraq. Federalism requires cooperation among subunits 
of a state, but it does not necessarily encourage it. Cooperation must, 
therefore, be incentivized. In other words, cooperation must be built 
into the system. This is particularly the case in terms of oil revenue 
sharing.
    The party system, I believe, is key in this regard. Party systems 
must be overarching. That is, they must fully incorporate people from 
different regions and ethnolinguistic and religious groups. Parties in 
a conflict situation, such as in Iraq, may not naturally evolve this 
way. The system must, therefore, require it legislatively.
    In the same 50-country study of federalism I've already mentioned, 
I found that the effectiveness of federalism in reducing conflict is 
severely curtailed when the party system is dominated by regional 
parties. Regional parties focus on what is in the best interests of 
their group and not necessarily what is in the best interests of the 
country as a whole, or that of other groups. As such, regional parties 
can be a major hindrance to peace.
    It is foolhardy to believe, however, that federalism alone can 
engender peace in Iraq. Federalism will not bring the war in Iraq to an 
end. The war must first end for federalism to operate effectively. 
Federalism must also be buttressed by economic development and a stable 
security force that acts as a deterrent to violence. This is 
particularly problematic if the U.S. pulls out of Iraq before stability 
is achieved and key structures are in place.
    In order to realize these goals, federalism needs the support and 
encouragement of the U.S., as called for in the Biden-Brownback 
amendment. The U.S., of course, should not impose a federal system on 
Iraq. But, the Biden-Brownback plan does not call for such action. U.S. 
encouragement is needed to overcome classic commitment problems. That 
is, in order to realize federalism, parties must share power and trust 
that the other side will share power as well. However, since one party 
may shirk, other parties may be reluctant to commit to federalism in 
the first place. Thus, a third party, like the U.S., is needed to 
ensure that both parties commit to federalism and take action against 
violations of this system.
    While it is impossible to know what will befall Iraq in the lead up 
to 2012, extant knowledge suggests that even with federalism the 
current prognosis for Iraq looks bleak. Without federalism, however, 
the prognosis looks even bleaker.

    The Chairman. Thank you.
    Dr. Kelly.

     STATEMENT OF DR. TERRENCE K. KELLY, SENIOR OPERATIONS 
          RESEARCHER, RAND CORPORATION, PITTSBURGH, PA

    Dr. Kelly. Mr. Chairman, Mr. Ranking Member, and members of 
the committee, it's an honor for me to be here today to share 
some thoughts on Iraq's prospects in the future and how this 
will be shaped by, and influence, United States interests and 
policies.
    My observations that I'll share with you today are based on 
two tours in Iraq, 5 months with the CPA, trying to demobilize 
militias, at which time I met almost daily with the leaders of 
these groups, and then 14 months running the policy planning 
and analysis shop for the Embassy. I came back almost a year 
ago; a year ago next week, I returned.
    Permit me to jump right to my conclusions and to refer you 
to my written statement for the arguments that lead me to them.
    First, the conflict in Iraq is not likely to be resolved 
anytime soon. Efforts to create a government that would not 
only include all major Iraqi sectarian and ethnic factions, but 
also equitably address their needs, will not succeed in the 
near future, if at all. Many of the most influential Iraqi 
political players have fought each other and killed the others' 
family members, friends, and colleagues for their entire adult 
lives. Reconciliation is at least a generation away.
    Next, we are trying to do too much in Iraq. Unless one 
thinks that the United States can maintain very high troop and 
civilian manpower levels in Iraq for the foreseeable future, we 
need to define what we must do, as opposed to what we would 
like to do, and commit resources accordingly. This requires a 
clear articulation of U.S. vital interests and policies and 
strategies based on these. Securing United States, rather than 
Iraqi, interests will have profound implications for our 
approach and required resources.
    Finally, although reconciliation may be far off, violence 
must be controlled. Rather than try to force reconciliation, we 
should focus on how Iraq could reach a modus vivendi and what 
needs to be done within this process to secure United States 
vital interests. As the development of this modus vivendi will 
take a long time, U.S. efforts should focus on achieving long-
term effects. Policies aimed at affecting facts on the ground 
today, that have limited long-term effects, may have good, 
altruistic justifications, but should not drive U.S. policy, 
and should be based on cost-benefit calculations.
    If a modus vivendi is what is needed, what might it look 
like? On the political front, Iraq is likely to be dominated by 
Shia religious parties for some time to come. 
Confederalization--and I believe it is a confederal arrangement 
they have, not a federal arrangement--may produce three or more 
regions, and will take time. This may cause population 
migrations and the development of political, social, and 
security circumstances unique to each region. Some mix of 
regions, along with provinces not part of any region, may be 
the end result; in fact, it's likely to be the end result. Iran 
will have a lot of influence on this process, and the United 
States should work with, and seek to influence, Iran and Iraq's 
other neighbors to get the best outcome.
    Secular or moderate Islamic parties could come into being 
if they are funded and protected, but otherwise will not. Given 
current circumstances, it is unlikely that there will be any 
such parties of significance soon. If the United States large-
scale presence departs before these parties are an established 
part of the Arab-Iraqi political and social fabric, they will 
not be able to start for a very long time, if at all.
    The Iraq Security Forces will become more sectarian as the 
Shia-dominated government puts its people into key positions, 
and will remain weak and of questionable loyalty until sometime 
after a modus vivendi is reached. The security forces will 
eventually become more competent, after a period of turmoil, as 
they expand and new leaders take charge. If Iran plays a major 
role in the development of these forces, and they have offered 
to provide security assistance to the Government of Iraq, then 
some part of them will be radicalized under the influence of 
Iran's Quds Force. This makes it critical for the United States 
military to stay engaged with the Iraqi Security Forces for 
some time, in my opinion.
    Unless a reasonable modus vivendi is reached, one 
implication of sectarian government may be government-sponsored 
violence that targets the Sunni population as the security 
forces go after terrorists and insurgents. We should expect to 
see many civilian casualties of U.S. forces leave before stable 
order is established.
    If large-scale political violence continues as regions are 
formed, this may lead to measures aimed at controlling the flow 
of people across regional borders and armed confrontation 
between the various Iraqi Government and regional security 
forces. Shia militias will be impossible to disband, and will 
likely be rolled into these forces.
    Social developments driven by Iraq's education system, 
Iraqi and regional media, and religion will cause many of these 
changes. If radical influences are left unchecked, the Iraqi 
education system and the poisonous regional media could produce 
generations of Iraqis who hate and distrust the United States. 
This could result in a social structure that is inward-looking, 
and, in the worst case, combine a political anti-Americanism, 
like that in Iran, with a popular anti-Americanism, like that 
in Saudi Arabia.
    This is a grim portrait, but long-term United States 
efforts can help mitigate the worst of these scenarios, 
particularly if undertaken in partnership with other major 
players, both inside and outside of Iraq. Short-term efforts 
will not significantly mitigate these ill outcomes.
    To be successful, we should recognize a few critical facts. 
First, we must put U.S. interests first and clearly recognize 
the limits of U.S. capabilities, both institutionally and 
politically and over the long term. In particular, efforts to 
help Iraqis create a stable Iraq that is a friend of the United 
States will not be completed in the next few years. As a 
result, the United States needs a nonpartisan set of basic 
understandings about what is important to America in Iraq, and 
a sustainable level of investments that will enable the United 
States to take care of its vital interests.
    I should point out that, although I'm speaking now about 
vital interests, the United States has other types of 
interests, which should also be part of our strategic 
calculations.
    Second, Iraq's political leaders and organizations, along 
with the foundation provided by Iraq's social structures, will 
play a more important role in the long term than military 
efforts, with the exception of those required to prevent the 
overthrow of the Iraqi Government or the dissolution of the 
state. They will determine what kind of security forces Iraq 
will have, how Iraq views terrorism in the West, and how they 
approach their problems. This is an area in which I believe we 
can have a positive influence. To make gains here, we must 
change the political calculations of Iraq's major political 
players, and we can only do that by demonstrating a willingness 
to use strong measures and providing lasting benefits. Our 
investments should reflect this reality.
    Third, Iraq will not be a secular, democratic, pluralistic 
society anytime soon, but could be a country with which the 
United States has a good relationship, and, in the long run, 
does well by regional standards of development and human 
rights. It is worth noting that the United States may not want 
as a formal ally, as it would be a dependent client for a long 
time. An Iraq that is not hostile, controls its territory, and 
does not threaten its neighbors might be a better outcome.
    Finally, the United States must bring its goals in line 
with its capabilities or invest in the additional capabilities 
needed to achieve its goals. The current mismatch between ends 
and means is neither effective nor sustainable.
    None of this is likely to come about as a result of U.S. 
unilateral actions. Five years of large-scale, largely 
unilateral actions have made this clear. Successful American 
efforts to influence Iraq's modus vivendi will necessarily 
involve working with, and influencing, not only those states 
and political actors with whom we agree, but also many with 
whom we disagree; and, in particular, Iraq's neighbors.
    Thank you.
    [The prepared statement of Dr. Kelly follows:]

    Prepared Statement of Dr. Terrence K. Kelly, Senior Operations 
              Researcher, RAND Corporation, Pittsbugh, PA

    Mr. Chairman, Mr. Ranking Member, and members of the committee, it 
is an honor for me to be here today to share some thoughts on Iraq's 
prospects in the future, and how this will be shaped by, and influence, 
U.S. interests and policies. You have asked me to address what Iraq may 
look like in 2012, and how we might get there. Permit me to first give 
you an overview of the argument I would like to make today.
    First, the conflict in Iraq is not likely to be resolved any time 
soon. True reconciliation is likely at least a generation away. 
Furthermore, though some talk of ``victory'' and similar terms, we do 
not know what that means, though we may know it after we see it. In 
particular, this is not a war between nation-states, there is no enemy 
army to defeat, and in several important cases it is quite difficult to 
identifying who the ``enemy'' is. Even when we know who he is, there 
are often no easy ways to ``defeat'' him, as he may be an integral part 
of the government we have chosen to support and is always among the 
population we are committed to defend.
    Next, we are trying to do too much in Iraq. Unless one thinks that 
the U.S. can maintain very high troop levels in Iraq for the 
foreseeable future, we need to clearly understand what we must do as 
opposed to what we would like to do, and commit resources accordingly. 
This requires a clear articulation of U.S. vital interests. While it is 
difficult to build a strategy that relies on hindsight to assess 
progress and success, it is not difficult to articulate U.S. interests 
in Iraq--something that has not been done in a manner that is useful to 
strategist and planners. U.S., not Iraqi, interests should drive our 
strategy, and they will have profound implications on our approach and 
required resources.
    To explore such an approach and provide a statement on how we get 
to 2012, I will first review some facts about the situation in Iraq, 
and then propose two vital U.S. interests that I believe should drive 
our approach. I then argue that what is needed is an Iraqi modus 
vivendi rather than a comprehensive reconciliation, and discuss how 
such arrangements might come about, as well as what U.S. interests and 
capabilities imply that we should do to affect this modus vivendi. I 
will conclude by touching on what Iraq, and our involvement in Iraq, 
might look like in 2012 and beyond.
                             preliminaries
    Violence in Iraq has decreased dramatically. Pundits have 
conflicting arguments for why this has happened, but in one important 
way such discussions are academic. The fact of the matter is that 
violence needed to be reduced for political progress to be made, and 
violence has been reduced. That, in itself, gives cause for cautious 
optimism. However, this decrease has been achieved by working with 
local leaders, due to the realization that national reconciliation was 
not likely in the near term. I believe that this process has gone about 
as far as it can to reduce violence. Further advances will require 
Iraqi national-level leaders to eschew political violence, as they 
control most of the levers for large-scale violence. Yet, I also 
believe that national reconciliation remains far off. So, what is to be 
done?
    First, let us review some facts.
    Principal among these facts is that efforts to create a government 
that would not only include all major Iraqi sectarian and ethnic 
factions, but also equitably address their needs, will not succeed in 
the near future, if at all. Many of the most influential Iraqi 
political players hold longstanding, blood-soaked negative perspectives 
of other major players. Many of these actors have fought and killed 
each other for their entire adult lives, and in some cases their 
factions have fought each other for centuries.\1\ The Shia leadership 
currently in power is in the process of establishing a sectarian 
government that favors the Shia; the Kurds are seeking to ensure that 
they maintain effective, though not formal, independence; and the Sunni 
continue to be torn by deep internal divisions and an emerging struggle 
over political leadership, which, together with the violent trends and 
anti-Shia worldviews current in that community, make the continued 
existence of Sunni political violence very likely. As the Shia 
consolidate power under the cover of the U.S. presence in Iraq, their 
internal divisions are coming to the fore and increasingly manifesting 
themselves in Shia on Shia violence, as we have seen over the past few 
years, and the past 10 days in particular. In short, the political 
situation in Iraq is not, and will not be, conducive to creating a 
pluralistic, democratic society for some time. But, that does not mean 
that Iraq's future cannot benefit U.S. strategic interests. That is a 
tougher question, and one I will return to shortly.
---------------------------------------------------------------------------
    \1\ As one senior Kurdish politician put it in February 2006, 
making reference to the Sunni-Shia conflict, ``They killed the 
grandsons of the Prophet here 1,200 years ago [sic], and nothing much 
has changed since.'' His point was that Iraqis had to either agree to 
move forward together--establish a modus vivendi--or go their separate 
ways.
---------------------------------------------------------------------------
    With respect to security, 5 years of data indicates that political 
violence will remain a characteristic of Iraqi society for some time to 
come. Even with the reductions seen since mid-2007, violence remains at 
unacceptably high rates. In particular, two facts are critical. First, 
the ``accelerants'' of violence--primarily suicide bombings and 
assassinations carried out by Sunni and Shia extremists--are extremely 
difficult to defend against, and will only be defeated when and if the 
government develops security forces and intelligence capabilities that 
are large enough, capable enough, and loyal enough to control and 
secure the population, and the population in turn identifies the 
violent actors to enable the government to kill or capture them. The 
population can, and will only, turn extremists in when it feels safe to 
do so. General Petraeus and the men and women of the MNF-I, along with 
some sectors of the Iraqi Security Forces, have done great work, but it 
is not yet enough. Further reductions in violence will require more, 
and more capable and trustworthy, Iraqi security forces.
    The second consideration is that political power in Iraq is largely 
held by those parties that have armed factions answerable to party 
leaders. Almost all of these parties have leaders who are senior 
members of government. This all but ensures that many of the most 
influential government leaders will not truly cooperate to eliminate 
the extra-governmental armed groups that are responsible for violence. 
It is critical to understand that they maintain these armed 
organizations for their political and physical survival, not just their 
ambitions. Only significantly different political and security 
conditions will change this.
    An important and often overlooked fact that has a large effect on 
the prospects for political and security gains is the widespread and 
largely unchecked criminal activity in much of Iraq. Criminality not 
only makes economic activity difficult, but contributes to the 
circumstances that permit all violent actors to operate without 
detection, and in many cases provides funding for these actors (though 
some of the most important of these have succeeded in putting most of 
their armed members on the government payroll, and so are no longer 
dependent on criminal activity or external funders to meet payroll). 
However, addressing this problem will be difficult as many of leaders 
of the illegal armed groups that depend on criminal proceeds are, 
again, political leaders with important roles in government. This 
symbiotic relationship between crime and political violence is a 
hallmark of almost every state plagued by political instability and 
lacking mature and capable security forces and judicial systems. Real 
progress in solving Iraq's political and security problems will not be 
made until its leaders address the criminal elements within their own 
ranks. Often, external pressure and assistance is needed to do this.
    Combining the political and security observations above, it is 
clear that Iraq will not reach reconciliation in the near future if 
``reconciliation'' is understood in the literal sense. What we should 
pursue in the short- and mid-term is not reconciliation, but the 
cessation of large-scale violence based on an agreed upon way forward--
a modus vivendi--that all major Iraqi players accept. I will explore 
this in greater depth in the next section.
    A final and perhaps the most critical observation is that the U.S. 
has operated in Iraq as if it were attending primarily to what is 
important for Iraq, not what is important for the United States. Under 
the Coalition Provisional Authority this was appropriate from both an 
ethical and practical point of view, as the CPA was the occupying 
Government of Iraq. U.S. interests in Iraq will be discussed in the 
next section as well. However, there is one additional observation that 
I would be remiss if I did not take this opportunity to make.
    Critically important, is the fact that the U.S. Government does not 
have the institutional capabilities to accomplish the things it has set 
out to do in Iraq, even under much more benign circumstances. No U.S. 
Government institution is designed for nation-building or 
counterinsurgency, and the task in Iraq requires large-scale, 
interagency capabilities to do both. The only agency whose mission is 
close to that of nation-building is the U.S. Agency for International 
Development (USAID), but the total number of USAID Foreign Service 
officers worldwide is only slightly over 1,000 (roughly the size of a 
deployed army battalion task force). The State Department, though given 
responsibility for this task by NSPD-44, does not have the manpower, 
operational culture, or resources to do this. It is a fine institution 
that excels in diplomacy, and in particular one that is designed to 
interact with existing states. But diplomacy is only one of several 
important capabilities required for nation-building and 
counterinsurgency. The criticism of State and other civilian agencies 
for not ``stepping up to the plate'' ignores these important facts. It 
is like asking your grandmother why she won't run a 6-minute mile. It 
is not that she won't, but rather that she can't. If the U.S. is to be 
successful at all, it will need goals that are more in line with its 
capabilities or capabilities more in line with its goals. The 
importance of a sober, apolitical assessment of what can be done cannot 
be overstated.
                      implications for u.s. policy
    The first and principal implication of the observations above is 
that any assessment of what the U.S. can and should try to accomplish 
in Iraq must start with U.S., not Iraqi, interests--they are not the 
same and the U.S. will end up with a different strategy if it does 
this. This in turn requires a definitive statement of U.S. vital 
interests in Iraq, and a thorough analysis based on those interests 
leading to a strategy and plan that is in line with U.S. capabilities. 
Furthermore, in order to bring American activities into line with 
capabilities, the U.S. needs to focus on what is really important--
starting with those activities required by its vital interests, and 
cautiously adding other efforts that support other important interests 
under a conservative understanding of what it is capable of.
                         u.s. interests in iraq
    The U.S. has two major categories of interests in Iraq and in 
general--its vital interests and other important, but lesser, 
interests. A definition of vital interests might be that they are those 
ends that would eliminate an existential threat to the U.S., or prevent 
outcomes that could significantly and negatively change our way of 
life. In order to understand what U.S. actions should be and how they 
could effect Iraq's development, these must be the starting point for 
any analysis. For the purposes of this testimony, I consider the 
following to be the U.S.'s vital interests in Iraq:

  <bullet> That Iraq not become a launching pad for large-scale 
        international terror, and
  <bullet> That what happens in Iraq does not lead to regional 
        instability of a magnitude that has a significant, long-term 
        negative effect on the U.S. economy or security.\2\
---------------------------------------------------------------------------
    \2\ Others could be, and have been, proposed. For example: The mode 
of U.S. departure does not give the appearance of defeat at the hands 
of radical Islamists, nor undermine the U.S.'s ability to use power in 
other vital areas in the Middle East or elsewhere when needed; that 
Iraq not be so dominated by a neighbor that they could pose a challenge 
to U.S. positions in the Persian Gulf; and preventing one or more 
large-scale humanitarian disaster(s) caused by civil strife. As 
important as these are, I do not believe they rise to the level of 
vital interests, and so I do not carry them forward in the discussion 
that follows. However, they should be major considerations in the 
development of our strategies.

    A brief look at what is needed to secure these vital interests 
reveals that achieving them requires regional approaches not confined 
solely to Iraq. What Iraq's neighbors and other international players 
with an interest in Iraq do will affect U.S. interests there.
    Focusing on these two interests alone does not mean that other U.S. 
interests will not affect our actions to some degree. But, vital 
interests should drive policy, and all other interests are subject to 
cost-benefit analysis. Efforts to secure other interests should be 
undertaken only after sober consideration of the magnitude and duration 
of these efforts, and a clear understanding of the limitations of U.S. 
capabilities.
    Turning first to preventing Iraq from being a launching pad for 
major international terrorist groups, note that if we disaggregate this 
interest into its critical factors there are a few observations that 
are particularly important. First, if the Iraqi people support 
international terrorism, then it would be difficult to prevent it from 
originating in Iraq. The most important aspect of this goal is the 
attitude of the Iraqi people toward the rest of the world, and the U.S. 
in particular. This will be determined, at least in part, by a few 
influential social and cultural factors, and in particular the 
education Iraqis get, what they see on their televisions and in their 
papers, and what they hear in their mosques and on their radios. If 
this is so, then efforts to influence Iraq's education system, conduct 
effective strategic communications, and reach out to Iraq's religious 
leaders are critical. I will address these in the section on Iraq's 
modus vivendi.
    Equally important is whether Iraqi political leaders support such a 
state. Unquestionably, many of these leaders would support 
international terrorism if they saw it as in their interests. Indeed, 
some Iraqi leaders, both inside and outside of government, are actively 
supporting terrorism inside of Iraq today. What this means for the U.S. 
is that it must change the political calculations of Iraqi leaders by 
making clear to them that terrorism is not in their best interests, and 
that if they violate U.S. vital interests we will ensure that they 
cannot achieve their own goals. This will require the willingness to 
use strong measures against those who would threaten U.S. vital 
interests, and to make real commitments to those who further our 
interests. This will also require influencing and working with Iraq's 
neighbors. It is worth noting that our ability to exercise this 
influence will diminish when the U.N. Security Council resolution that 
authorizes the Multi-National Force-Iraq lapses at the end of this 
year.
    Finally, we must recognize that for the foreseeable future Iraq 
will have a weak government and security forces, and therefore limited 
ability to ensure that international terror does not seek to put down 
roots there. To balance these facts, the U.S. must have policies to 
ensure that Iraq does not contain ungoverned space or sectors of 
society in which large-scale efforts to develop international terrorist 
capabilities go undetected, and that the forces are in place to destroy 
such capabilities when they are discovered. It is worth noting that 
interdicting terrorist activities without Iraqi cooperation would be 
extremely difficult--a good reason for maintaining working 
relationships with the Iraqi Government and security forces.
    Turning next to those actions in Iraq that could lead to large-
scale regional instability, note that instability and violence are not 
synonymous; political violence in Iraq is inevitable for some time to 
come; regional instability is not. The key questions are: What events 
in Iraq could so destabilize the region that the U.S.--and world--
economies suffer significantly, and what conditions would lead to 
large-scale intervention by other countries that could threaten U.S. 
security to the extent that U.S. troops are forced to go back into Iraq 
in large numbers, possibly without reliable regional partners?
    Events in Iraq alone are not likely to have a major effect on the 
U.S. and world economies. Rather, such effects would be the result of 
regional events and would likely generate a large-scale regional 
response and intervention on the order of that mentioned above. Should 
Iraq's oil exports fall entirely off the world market, it would not 
rise to the level of a vital U.S. interest due to its impact on oil 
prices, though it would remove almost all indigenous funding from the 
Iraqi Government and create other effects that could in turn have dire 
consequences. Economic disruptions that could significantly damage 
world economies would be something on the magnitude of a large-scale 
interruption of northern gulf oil exports (e.g., oil coming from Iraq, 
Iran, Kuwait, and Saudi Arabia) that lasted for several months. It is 
worth noting that these oil exports are of critical importance to other 
major world powers, to include European countries, China and India, and 
their actions to prevent major disturbances to oil markets should be an 
important consideration in U.S. strategy.
    Should the situation in Iraq cause neighboring or other states to 
intervene, or cause other large-scale disturbances in Middle Eastern 
stability (e.g., large-scale violence migrating out of Iraq into 
neighboring countries), the U.S. as well as other countries could be 
sucked into military confrontations that could cause unforeseeable 
changes to regional and perhaps global security. Although such 
scenarios are less of a worry than a year ago, regional stability 
should remain a vital interest for the near future.
              what might an iraqi modus vivendi look like?
    Under Saddam Hussein, Iraqis understood the rules of society. That 
modus vivendi, though brutal and oppressive, was the basis for how Iraq 
ran. Since March 2003, Iraqis have been competing with each other to 
determine the new rules for society. Policymakers should realize that 
the U.S. will have a limited role in the gestation of Iraq's modus 
vivendi--certainly nothing approaching the ability to dictate it--and 
that most aspects of Iraq's social arrangements do not affect U.S. 
vital interests or other important interests, and so should not be the 
subject of intense U.S. efforts.
    The question of how the Iraqi leaders and people arrive at a modus 
vivendi is what I consider next, because our policies and actions will 
affect those processes rather than their product--the modus vivendi 
itself. Note that many of these processes will take a long time to play 
out--many beyond 2012--and so U.S. efforts should place significant 
effort on achieving long-term effects. According to this logic, 
policies aimed at affecting facts on the ground today that have limited 
long-term effects on Iraqi political and social arrangements important 
to U.S. vital interests may have good altruistic justifications, but 
should not drive U.S. policy. Note as well that it is also possible 
that Iraqis will not reach a modus vivendi. U.S. policy should take 
this possibility and scenarios that come from it into account as well, 
but I do not discuss that possibility here.
    Of the several major processes that will determine what kind of 
modus vivendi Iraq will arrive at, some the U.S. can directly 
influence, some it can indirectly influence, and over some it will have 
little or no influence. These processes can be placed in three general 
categories--political, social, and security.\3\ These categories are 
not distinct. Political processes will be considered in two major 
categories; the formal elements of government, and political parties, 
trends and leaders.\4\ Social aspects are many and cannot be considered 
comprehensively in this short testimony, but three will be briefly 
addressed--the roles of education, the media, and religion. Finally, 
security will be addressed in terms of the armed forces, police forces, 
and regional forces (e.g., the Kurdish Peshmerga and similar ``regional 
guards'' that are likely to come into being as more regions are 
formed).\5\
---------------------------------------------------------------------------
    \3\ Economic issues are noticeably absent. While Iraq's economic 
progress is important, and decisions on economic issues such as oil- 
and state-owned enterprises are important and contribute to violence, 
they are the product of political forces at this point. Importantly, 
the violence is at its essence political. Were Iraq much poorer than it 
is, or if the violence in Iraq was over economic grievances, then 
economic processes would demand more prominent consideration.
    \4\ It is important not to think of Iraqi political parties in 
Western terms--their goals, the means they are willing to use to 
achieve their goals, and the interactions between them are much 
different than in Western-style democracies.
    \5\ ``Regions'' is the term used in the Iraqi Constitution for the 
nearly sovereign entities that are envisioned--the Kurdistan region is 
the only currently existent one. The term ``region'' is also commonly 
used for Iraq's immediate neighbors and the Middle East in general. The 
intended meaning should be clear from the context. Illegal armed 
elements will be considered as part of the problems to be addressed.
---------------------------------------------------------------------------
                          political processes
    Iraq's formal political processes are defined by its Constitution, 
adopted in October 2005. Although there are strong arguments for why 
Iraqis should significantly amend their Constitution, it is unlikely 
that significant changes will be made, as it currently favors a 
majority of the population. The Iraqi Constitution gives the Prime 
Minister little real control of his government or federal fiscal 
resources. For example, he cannot hire or fire ministers without the 
approval of Parliament, and so has very limited ability to influence 
their behavior and that of the government. Furthermore, Iraqi regions 
have near-sovereign powers (only one currently exists, but under 
current law more may be formed starting this month), and provincial 
governors are not beholden to the Prime Minister for power, though they 
do depend on the central government for some resources and support. 
Additionally, the deal that was struck to form the current ``Unity'' 
government distributed what little power does exist in the Executive to 
the participating political parties. In particular, individual 
ministries ``belong'' to participating political parties, giving the 
leaders of those parties the power to select and dismiss ministers--
arguably, more real influence over ministerial posts and actions than 
the Prime Minister. The notable exceptions to this rule are the 
original security ministries (the Ministries of Defense and Interior), 
the ministers of which were selected based on their not having a major 
party affiliation. While this avoids giving control of these critical 
ministries to any political party, it does not increase the formal 
control of the Prime Minister. Keeping the security ministries out of 
party hands may also not hold in future governments.
    There are two ways for the Prime Minister to exercise control--
through political leadership and dealmaking, and by subverting the 
Constitution. If the Prime Minister is able to subvert the Constitution 
and control the security forces without checks and balances, then Iraq 
will resemble many other countries in the region that hold elections 
and have legislatures, but honor them in the breach with all effective 
power residing in the Executive. Subversion of this kind is currently 
kept in check by the fact that real power resides with those parties 
that maintain large armed forces (e.g., Islamic Supreme Council of 
Iraqi, the Office of Martyr Sadr, the Kurdish parties, and with the 
Sunni awakening and associated ``sahwa'' forces, some Sunni parties). 
Should one of the Arab parties with a large and capable extra-
governmental armed force secure the premiership, or should a Prime 
Minister successfully raise a strong militia--as some reports indicate 
PM Maliki is trying to do--then the chances of the Executive 
monopolizing power would be greatly increased. However, it is important 
to recognize that should the Executive seize power it would not 
necessarily violate U.S. vital interests, though it would likely have a 
significant effect on U.S. domestic support for our efforts in Iraq. 
There are certainly realistic scenarios in which U.S. vital interests 
would be better served by a friendly though authoritarian government, 
rather than a democratic government that is either incapable of 
managing large-scale levels of violence or unfriendly.
    The legislature is a work in progress. Issues more contentious than 
those debated in the U.S. Congress in the 1850s are being fought over 
in the Parliament, and may not see the light of day. This does not 
imply that the Parliament is a capable legislature--it is not. Its 
efforts to reach a quorum and conduct routine business illustrate many 
significant problems. However, it does illustrate that U.S. 
expectations of what is possible are overly optimistic. Further, unless 
the Prime Minister succeeds in usurping much of the Parliament's 
powers, it is perhaps the principal institution that provides a forum 
for productive and nonviolent interactions between Iraq's various 
factions on critical issues that could positively contribute to a 
healthy modus vivendi. However, important voices and forces that will 
affect Iraq's modus vivendi are not represented in the Parliament or 
the formal government bodies, most notably a large portion of the Sunni 
leadership. Parliamentary elections will not be held for almost 2 
years.
    The judiciary is undermanned, facing a caseload much larger than 
its capabilities in better circumstances, and besieged by the violence 
that surrounds it and pervades much of Iraq. Its principal role in 
forming an Iraqi modus vivendi is to provide access to justice, but it 
will not likely make much progress in this regard, as doing so would 
require taking on the major political powers in Iraq who are behind the 
violence, as well as the crime necessary to support them. Doing this 
must be a political decision if it is to succeed, because it will 
require the Iraqi Security Forces to deliver prisoners with political 
influence to the courts and to truly protect witnesses and judges, and 
the prison systems to keep those convicted in jail. Iraq's recent 
experience with the dismissal for lack of witnesses of the criminal 
charges against former Deputy Minister of Health Hakim al-Zamili, a 
high ranking Sadr Movement official reportedly responsible for using 
Health Ministry facilities to kill Sunnis in Iraq, clearly illustrates 
this challenge. As a result, the government justice system is not 
likely to play a large role in shaping Iraq's modus vivendi for the 
foreseeable future. It is important to note that without a functional 
judiciary of appropriate capacity, access to justice for most Iraqis 
will come from other sources--principally tribal justice and sharia 
courts run by religious officials, or not at all. This implies that 
these other forms of justice--over which the U.S. has little 
influence--will play a larger role in shaping Iraq's modus vivendi than 
the Iraqi judiciary.
    In Iraq, as in many countries emerging from conflict, political 
parties play an important if not dominant role in establishing a modus 
vivendi. Iraqi political parties are often strongly affiliated with 
religious sects or leaders, and in some parts of Iraq tribes are 
organizing or joining with existing parties to enter the political 
process. Real power is held by those political leaders who have armed 
financial, and in some cases religious, wherewithal. Some of this power 
stems from legitimate sources (elections, popular allegiance, services 
provided to the people) while some stems from illegal and destructive 
activity (e.g., the maintenance of militias, funds raised through 
corruption and organized crime, external sponsors, nepotism, and other 
exclusionary practices). Importantly, the current situation in Iraq has 
all but eliminated the ability for secular or centrist parties to 
operate in the Arab parts of Iraq, driving former and would-be 
secularists and centrists to the extremes of the political spectrum for 
survival. The situation in Iraqi Kurdistan has long discouraged parties 
other than the KDP and PUK, though not in the extremely violent way 
currently seen in much of Arab Iraq.
    A final consideration that cuts across political and social 
processes is what I call the Sunni and Shia ``narratives'' for Iraq's 
ills. While not a process in the sense of the political, social, and 
security processes, it is an important manifestation of the problem 
that deserves consideration. If one talks with Iraqi Shia, their 
characterization of Iraq's problems are often articulated something 
like this: ``The violence is done by the Saddamists and takfiris, and 
if you help us eliminate them then everything will be OK.'' \6\ Sunnis, 
on the other hand, say ``The violence is the fault of the militias and 
the Iranians who control them. If you help get rid of them then 
everything will be OK.'' The result of this is that both groups look at 
the overall situation as well as individual events, and come to 
incompatible conclusions. For example, I have had more than one senior 
Shia government official tell me that the Shia death squads are not 
really Shia, but rather former Fedayeen Saddam who are really part of 
the Baathist problem, thus distancing their parties and the government 
from responsibility for acting against Shia murderers. With no common 
understanding of the root causes of Iraq's problems, there is no basis 
for finding solutions. The Kurds also have a narrative that is at the 
moment less widely reported, but which will become louder and more 
important as the issues of Kirkuk and other disputed areas (the Article 
140 process) come to a head.
---------------------------------------------------------------------------
    \6\ ``Takfiris'' is the term used for those who declare other 
Muslims to be apostates, thereby making their murder permissible and 
even virtuous.
---------------------------------------------------------------------------
                            social processes
    Americans do not understand Iraqi social processes well, and so 
have not been effective at recognizing their importance. In many, 
though not all, ways, the U.S. cannot significantly influence these 
processes. Nor should it try to in most cases. The U.S.'s roles in 
these issues are primarily to support institutions and pressure 
political leaders to make needed changes. Here I briefly consider 
education, media, and religious influences on Iraq's modus vivendi.
    The Iraqi education system is of strategic importance. Not only 
will the education that young Iraqis get play a pivotal role in 
determining how they see the world, but access to education and 
education of a certain type will help determine their parents' world 
views as well, and so has a major impact on U.S. and Iraqi 
counterinsurgency efforts. In particular, the Iraqi Ministry of 
Education will hire teachers and select a curriculum that will greatly 
affect young Iraqis' world views.\7\ Whether their education supports 
tolerance and a pluralistic society, or an extreme Islamist one that 
support violence against those that disagree with it, is of paramount 
importance. This fact was not lost on Saddam Hussein--all teachers 
under his regime had to be members of the Baath Party, and the 
curriculum was carefully crafted to serve his needs--nor is it lost on 
any major Iraqi political leader. These two aspects--the influence of 
education on young Iraqis' world view and the impression access to 
education leaves on their parents--will play major long-term roles in 
determining who will win the social, political, and violent struggle 
for Iraq, and whether or not Iraq supports terrorism. The impact of 
these issues on Iraq's modus vivendi over the long-term will be 
profound. The U.S. has all but ignored this critical aspect of Iraqi 
society.
---------------------------------------------------------------------------
    \7\ The current Minister of Education, Dr. Khudayyir al-Khuza'i is, 
in the words of one senior and well-informed observer who spent years 
in Iraq, ``an Iranian'' in his political philosophy and outlook.
---------------------------------------------------------------------------
    The media has an enormous impact on how Iraqis, and indeed the 
entire region, see the conflict in Iraq and its principal players. 
Trends in Iraqi, Arab, and Muslim public opinion indicate that 
insurgents, terrorists, and Islamist political parties have done much 
better than the U.S., the coalition and the Iraqi Government at 
persuasion. Unless the U.S. and its allies in the region soon find 
effective ways to communicate with the Iraqi, Arab, Middle Eastern, and 
Islamic populations, America's best hope for success in this field will 
be that the heinous acts of those who would radicalize Iraq alienate 
other Muslims. Yet even this will not alter the gross distortions of 
U.S. intentions and efforts that are commonly heard in Iraq today. The 
U.S. could, and has in the past (though not in Iraq), done better in 
this field. It should be a, if not the, major effort.
    Religion plays a pivotal role in determining Iraqi attitudes and 
actions, influencing not just individuals, but also Iraqi political 
parties and even the security forces. While religious influences always 
existed in Iraq, what was once a large and important secular segment of 
society has been marginalized due to the violence that has driven most 
Iraqis to transfer their allegiance to identity-based groups who can 
offer some protection. The U.S.'s ability to influence Iraqi religious 
figures is very limited, at least in their religious domain--
politicians who lead religious parties may be a different story. 
Efforts to mitigate some of the worst influences that wrap themselves 
in religious banners should be directed at their manifestations. In 
particular, the U.S. cannot and should not attempt to choose Iraq's 
religious leaders or censor what they say. But it can and should 
support Iraqi political leaders who work for moderation, and seek to 
deter those who foment violence.
                           security processes
    Finally, we turn to Iraq's security forces and ministries. To date 
the U.S. efforts to build nonsectarian security forces have not been 
successful. The police are overtly sectarian in many places in the 
country, and there are concerns about some Iraqi Army leaders and 
units. It is important to consider why this is so, and under what 
circumstances it matters.
    With respect to Iraq's security forces in general, there are three 
factors that will determine their effectiveness--quantity, quality, and 
loyalty. Efforts are underway to significantly increase the size of the 
Iraqi security forces (ISF). Furthermore, quality ranges greatly from 
the well-trained Iraqi Special Operations Forces to some Iraqi police 
who have not even been through basic police training. Yet, the most 
difficult element of the equation is the issue of loyalty. Large parts 
of the security forces are loyal to political parties rather than the 
Iraqi Government, other parts of the security forces are so intimidated 
by militias and insurgents that they cannot perform their jobs, and 
other parts are so corrupt as to make their loyalty to any entity 
questionable. As with other aspects of security, the trends are largely 
positive, but most observers believe there is a long way to go. 
Finally, the Defense and Interior Ministries, which oversee the armed 
forces and police forces, have had severe problems with basic support 
functions such as supplying fuel for vehicles, feeding deployed forces, 
or buying them the appropriate equipment. Most troubling is the 
penetration of the Ministry of Interior by Shia Islamist parties. The 
tensions between ISCI and the Sadrist Trend which have been playing out 
in much of Baghdad and southern Iraq for some time also exist there, 
with the management largely dominated by ISCI and much of the rank and 
file belonging to Sadr.
    Iraq's security forces will not be stable and professional for some 
time. Even without the challenges highlighted above, building an Army 
and Defense Ministry from scratch, and reforming police forces and the 
Interior Ministry, are not things that can be done quickly. As a point 
of comparison, in Northern Ireland it took approximately 10 years to 
reform the Royal Ulster Constabulary, despite the cultural affinity and 
common language between the British and the police force, and far 
greater resources per-capita devoted to the problem than we are 
spending on Iraqi police reform.
    Turning now to the challenges of creating nonsectarian forces in 
Iraq, note that political actors are actively seeking to make permanent 
the safety of their populations and secure their hold on power by 
affecting the makeup of the military and police forces, and the 
intelligence service (and should additional regions form, this will be 
the case for their regional guards as well). Iraq's history of brutal 
suppression, as well as the fact that it is in the middle of ongoing 
sectarian, and perhaps soon to be ethnic, violence makes these efforts 
to consolidate power a very reasonable and anticipatable thing for 
Iraqi political leaders to do. Indeed, it would be amazing if they did 
not. However, other less laudable reasons also exist for this behavior, 
such as the raw contest for power, wealth, and interpretations of Islam 
among Iraq's many faction and leaders. Power in Iraq does in fact 
reside with the parties that have the greatest ability to use violence.
    Whether this matters to the U.S. is a more difficult question, and 
is contingent on different scenarios for Iraq's future. Keeping in mind 
that what matters most to the U.S. are its vital interests, any 
government that meets these criteria and exercises real control over 
the security forces could be acceptable. The U.S. has other interests 
as well, such as avoiding humanitarian catastrophes and not deserting 
its friends in Iraq, which would likely be harmed by many of the most 
probable outcomes in Iraq. Most important to the U.S. is the fact that 
a sectarian government that came to and remained in power would all but 
certainly try to change the leadership of the security forces over time 
to cement its dominance. This would in turn likely lead to injustices 
perpetrated by the ruling faction, and efforts to counter this should 
be undertaken if they could be done at an acceptable cost. But, when we 
try to determine what U.S. policy should be in these difficult 
circumstances, facts matter. One principal fact is that the U.S. will 
only be able to stave off the sectarianization of the Iraqi Armed 
Forces while the MNF-I is in Iraq in large numbers. It will not be able 
to permanently deny Iraq's Government the ability to put their people 
in charge of Iraq's security forces. If this is so, then our current 
efforts to prevent the sectarianization of the Iraqi security forces 
are the proverbial finger in the dike, unless one envisions either an 
enlightened political change, or Iraqi security forces--the army in 
particular--that refuses to permit civilian leadership to affect its 
makeup, which is unlikely. If this is the case, then a compelling 
argument can be made for permitting this process to go forward while 
the MNF-I is in Iraq in large enough numbers so that it can prevent the 
worst excesses and influence--and develop relationships with--the new 
security force leadership; things that the U.S. might not be able to do 
after a significant drawdown.
    The previous discussion applied primarily to the Iraqi Army. Iraq's 
police are local forces, and have already largely been shaped by the 
dominant factions in each area. The effort required to reverse this 
nationwide is beyond what the U.S. could accomplish in the near term, 
as it would not only require fundamentally changing the approach of 
security force leaders, but also creating a fundamentally different 
social and political environment that would require decades to take 
root. This is truly a long-term challenge.
    The formation of regions could mitigate some of the worst excesses 
that might come to pass under sectarian security forces in a unified, 
nonconfederal Iraq, but only after populations have moved to render 
each region overwhelmingly of the same ethnic and sectarian composition 
as its ruling faction. While the displacement of large numbers of 
Iraqis would cause significant hardships and damage U.S. credibility, 
it would not rise to the level of a vital interest, though it would 
create large numbers of Iraqis with real grievances against the 
government (and the U.S.), with the attendant implications for internal 
security. Some of the worst effects might be mitigated with a proactive 
effort to assist those who are forced to flee their homes, but to date 
the Iraqi Government has proven far less capable or willing to aid 
displaced Iraqis than some political leaders, such as Muqtada al-Sadr. 
Additionally, a confederal Iraq would pose other significant diplomatic 
and security challenges for the U.S., as each region would have a 
distinct, nearly sovereign, government and might require a separate 
approach.
    Before leaving the issue of security forces, it is important to 
note that coalition and Iraqi security forces are not the only ones 
operating in Iraq. Iran's security and intelligence forces operate 
there (as all but certainly do the intelligence agencies of other 
neighbors), and Iran has formally offered security assistance to the 
Iraqi Government. It is also well known that Iran trains Shia militias 
and provides weapons and explosively formed penetrators to their 
proxies in Iraq. Without a doubt, Iran will have a large influence on 
both the security situation in Iraq through direct action, funding, and 
other support, and on the Shia-dominated Iraqi security forces. So too 
will Iraqi militias. The Peshmerga, though not formally a militia, 
serves as the regional security force for the Kurdish Regional 
Government (KRG), an arrangement recognized under the Constitution. 
When new regions form, as is likely after the Regional Formation Law 
goes into effect later this month, militias and insurgent groups will 
all but certainly provide the core of each region's guard and police 
forces. These militias will remain largely answerable to their parent 
political parties, as do the two Peshmerga forces to the two major 
Kurdish political parties. Whether this leads to a true 
confederalization of Iraq or something that looks more like warlords 
and fiefdoms remains to be seen. Some combination of the two is likely.
                other influences on iraq's modus vivendi
    Finally, there will be other competing internal and external 
influences that will affect Iraq's political, security, and social 
arrangements for the future. The primary ones, and the ones that will 
have the greatest influence, will include those external parties that 
seem to the Iraqi leaders and population to be permanent factors they 
must consider. In particular, Iraq's neighbors who have demonstrated 
the intent and ability to influence Iraqi domestic events over the long 
term will be important. Whether they are more influential than the U.S. 
will depend in part on whether or not the U.S. makes believable, long-
term commitments to the Iraqi Government. In addition, there are 
forthcoming events that will bring major conflicts to a head, such as 
the requirement to resolve the Kirkuk and disputed areas issue this 
year, provincial elections in October 2008, and national elections in 
late 2009 or 2010--all will affect Iraq's modus vivendi. Ways to work 
with and influence each important party, and all collectively, as well 
as well-thought-out approaches to upcoming major events need to be 
developed. This is an area in which considerable work remains to be 
done.
               what iraq's modus vivendi might look like
    What does this discussion tell us?
    On the political front, Iraq is likely to be dominated by Shia 
religious parties for some time to come. If ISCI dominates, its 
arrangement with the Kurds will continue to provide Kurdish leaders 
with the autonomy inside Iraq that they demand. The wild cards posed by 
the health of key religious and political players could have an impact 
on these dynamics, but likely not as great as some fear. Should 
President Jalal Talibani or ISCI leader Abdul Aziz al-Hakim pass from 
the scene, their parties would replace them with other substantive 
leaders who would not significantly change the trajectory of their 
parties, though the loss of the close personal relationships that 
President Talibani in particular has with many other Iraqi leaders 
could lead to a decline in cooperation between Arabs and Kurds. Should 
Grand Ayatollah Sistani pass from the scene, the impact, though 
probably the most significant, would be less severe than some think, 
particularly as Sistani's desire to actively influence politics 
declines, and Iraqi Shia become disillusioned with Islamist parties. 
The influence of Muqtada Sadr remains less predictable. There were 
hopes in early 2007 that his prolonged absence from Iraq would lessened 
his influence both within the political and armed branches of his 
movement and on the general Iraq political and security scene. There 
are currently signs that his political movement and Jaysh
al-Mahdi--the Sadrist militia--may be splintering. But events of the 
past 10 days illustrates the continued influence of the Sadrist 
``trend,'' whether controlled by Sadr and his aides or not, will remain 
important.
    The dominance of these religious parties and Sadr's prolonged 
absence make it increasingly unlikely that there will be major changes 
to the Constitution that would give the central government 
significantly increased powers. Confederalization will take some time 
(perhaps 5 to 10 years), but is likely to produce three or more 
regions. This will cause population migrations and the development of 
political, social and security circumstances that are unique in each 
region, posing significant challenges for the U.S., other international 
players, and the Government of Iraq. Shia-on-Shia violence will be one 
result of this realignment of and quest for political power, but will 
eventually result in a more or less steady, though violent, state. More 
than one Shia region is likely to be formed, and some mix of regions 
along with provinces not part of any region may be the end result. Iran 
will have a lot of influence on this process, and the U.S. should work 
with and seek to influence Iran and Iraq's other neighbors to get the 
best outcome.
    Should confederalization lead to the breakup of Iraq, the Kurdish 
issue could throw the northern part of the Middle East into chaos as 
Turkey, Iran, and perhaps Syria intervene to protect their domestic 
security situation, as they, too, have large restive Kurdish 
minorities. With no Iraq for the Iraqi Kurds to remain in, solutions to 
that situation would be difficult to identify and painful.
    Secular or moderate Islamic political parties could come into being 
if they are funded and protected, but otherwise they will not. I 
believe it is unlikely that there will be any such parties of 
significance soon. If the U.S. large-scale presence departs before 
these parties are an established part of the Arab Iraqi political and 
social fabric, they will not be able to start for a long time unless 
they can find other protectors and sources of funding.
    The Iraq security forces will become more sectarianized as the 
Shia-dominated government puts its people into key positions in the 
security forces and the security related ministries. The security 
forces will eventually become more competent, after a period of turmoil 
as they undergo a great expansion and new leaders take charge. If Iran 
plays a major role in this professionalization process, then the 
security forces, or some part of them, will likely be radicalized under 
the guidance of the Iranian Republican Guard Corps. This makes it 
critical for the U.S. military to stay engaged with the Iraqi security 
forces for some time. Policies that support such engagement, such as 
encouraging the Iraqis to buy U.S. military equipment, providing 
ongoing U.S. technical support, joint professional military education 
programs, and above all assistance in combating Iraq's internal enemies 
who could also threaten the United States, should be seriously 
considered.
    One implication of the sectarian government and the 
sectarianization of the security forces is that the U.S. will have 
difficulty keeping government-sponsored violence targeted at Sunni 
terrorists, insurgents, and the surrounding Sunni populations in check. 
Also, it will be nearly impossible to get the government to disband 
Shia militias. Many in the Shia population will look positively at 
strong actions taken against the Sunni population in the name of 
fighting those who make car-bombs, and those Shia militias that do not 
prey on the Shia population. Militias will continue to be condoned by 
the Iraqi Government, and they will not be disbanded short of rolling 
them into either the central or regional security forces. A large, 
though unknown, percentage of the membership of the major militias is 
already on the government payroll due to the ``ownership'' of the 
various ministries by the major political parties discussed earlier. 
The Iraqi Government will use very violent measures against al-Qaeda in 
Iraq, Sunni insurgents and their supporters after the MNF-I draws down. 
We should expect to see many civilian casualties if U.S. forces leave 
before a stable order is established. If large-scale internal terrorist 
threats and political violence continue as regions and regional 
security forces form up, this will likely lead to measures to control 
the flow of people across regional borders, as well as potentially to 
armed confrontations between the Iraqi Army and regional security 
forces--in the Sunni region(s) in particular--and between the security 
forces of different regions.
    Social developments driven by Iraq's education system, Iraqi and 
regional media, and religion will drive many of these changes. If left 
unchecked, the Iraqi education system and poisonous media will 
contribute to the production of a new generation that hates and 
distrusts the U.S., and a society that is anti-American. Civil society 
programs could have a positive effect if properly funded and protected 
(and assuming other U.S. actions do not negate their efforts), but 
otherwise the only NGOs able to prosper outside of Iraqi Kurdistan will 
be associated with Islamist parties. This would contribute to a social 
structure that is inward-looking, and in the worst case could combine 
the political anti-Americanism of Iran with the popular anti-
Americanism of Saudi Arabia.
                              conclusions
    This is a grim portrait, but not one that needs to come about. 
Long-term U.S. efforts can mitigate the worst of these scenarios, 
particularly if undertaken in partnership with other major players both 
inside and outside of Iraq. Short-term efforts will not mitigate these 
ill effects. This can only happen if we recognize several critical 
facts.
    First, we must put U.S. interests first, and clearly recognize the 
limits of U.S. capabilities--both institutionally and politically, and 
over the long term. In particular, efforts to help Iraqis create a 
country that is a friend of the U.S. will not be completed in the next 
few years. As a result, the U.S. needs a nonpartisan set of basic 
understandings about what is important to America in Iraq, and a 
sustainable level of investments that will enable the U.S. to take care 
of its vital interests there.
    Second, Iraq's political leaders and organization along with the 
foundation provided by Iraq's social structures are more important than 
short-term military efforts, with the exception of those required to 
prevent the overthrow of the Iraqi Government or the dissolution of the 
state. They will determine what kind of security forces Iraq will have, 
and how Iraqis view the West and approaches its problems. This is an 
area in which we can have positive, though limited, effects. To make 
gains here, we must change the political calculations of Iraq's major 
players, and we can only do that by demonstrating a willingness to use 
strong measures and provide lasting benefits. Our investments should 
reflect this reality.
    Third, Iraq will not be a secular, democratic, pluralistic society 
any time soon, but could be a county with which the U.S. has a good 
relationship, and that in the long run does well by regional standards 
of development and human rights. It is worth noting that the U.S. may 
not want Iraq as a formal ally, as it would then be a dependent client 
for a long time. An Iraq that is not hostile, controls its territory 
and does not threaten its neighbors might be a better outcome. Our 
goals for Iraq must recognize this reality, or they will not be 
reached.
    Finally, the United States must bring its goals in line with its 
capabilities or invest in the additional capabilities needed to achieve 
its goals. The current mismatch between ends and means is not 
sustainable.
    None of this is likely to come about as the result of unilateral 
U.S. actions. Five years of large-scale, largely unilateral efforts 
have made this clear. American efforts to influence Iraq's modus 
vivendi will necessarily involve working not only with and influencing 
states and other political actors with whom we agree, but also those 
with whom we disagree, and in particular with Iraq's neighbors.

    The Chairman. Thank you very much.
    And the--our next witness is Professor Gause.

 STATEMENT OF DR. F. GREGORY GAUSE III, ASSOCIATE PROFESSOR OF 
    POLITICAL SCIENCE, UNIVERSITY OF VERMONT, BURLINGTON, VT

    Dr. Gause. Thank you, Mr. Chairman, other members of the 
committee. I do want to add one line to my biography, to try to 
score points with the chairman. I was born and raised in 
Wilmington, DE.
    The Chairman. The question is, What high school did you go 
to?
    Dr. Gause. Salesianum.
    The Chairman. You've just lost big points. [Laughter.]
    Dr. Gause. I figured I'd lose points----
    The Chairman. I went to that other Catholic high school.
    Dr. Gause. I'm fully aware.
    The Chairman. I say to my colleagues, this--when he went to 
this school, there were 2,100 boys in that school, that drew 
the best athletes in the State. I went to the school with 240, 
and they used to beat the hell out of us. So, let's go to the 
next witness. [Laughter.]
    Welcome, Professor.
    Dr. Gause. Thank you, Senator.
    In the spirit of the hearing, calling for an optimistic 
scenario about Iraq in 2012, I think that there might be five 
elements to that optimistic scenario.
    One, the country remains loosely united, with the Kurdish 
region still officially part of Iraq, though clearly it will 
enjoy a large amount of autonomy from Baghdad, but with no 
other quasi-independent regional governments. If there's 
federalism in Iraq, it's--in the Arab sections--it's going to 
have to be federalism of the provinces.
    Two, the Arab Sunni Awakenings and Sons of Iraq Movements 
are integrated into the state structure through regional 
elections, national elections, and the integration of a 
substantial portion of their militias into the national 
security services.
    Three, parliamentary and electoral alliances will have to 
cross the sectarian divide, providing for some stability at the 
center. I don't think there's going to be parties that cross 
those divides, but alliances among parties can do so.
    Four, the central government will have to control the bulk 
of Iraq's oil revenues, allowing it to slowly and carefully 
build its reach throughout the Arab parts of the country.
    And, five, this point be reached without a sustained, 
bloody, sectarian civil war.
    I think this is a plausible scenario, though not a likely 
one.
    The staff asked me to focus on regional factors that might 
influence how Iraq could get to this point.
    While I think that decisions by Iraqis and by Americans 
will have the most influence on the course of events in Iraq, 
there are three regional powers--Iran, Saudi Arabia, and 
Turkey--that can affect the Iraqi scene. I'd like to make four 
points about them and our regional diplomacy.
    First, the Turks are the easiest of the three to understand 
and with which to deal. Their interests in Iraq are filtered 
almost exclusively through the Kurdish lens. They worry about 
events in Iraqi Kurdistan affecting Turkish Kurds directly 
through the PKK and more generally in encouraging thoughts of 
autonomy, if not independence, among Turkish Kurds.
    Given American regional influence both with the Turkish 
Government and with the Kurdish Regional Government in Iraq, 
we're well positioned to calm tensions and prevent the 
occasional crisis between the Turks and the Iraqi Kurds from 
escalating.
    Second, for Iran and Saudi Arabia, Iraq is one part of a 
larger contest for regional influence. That contest extends 
from the Persian Gulf to Iraq to Lebanon and the Palestinian 
territories. The Saudi-Iranian contest is not a direct military 
confrontation, and it is unlikely to become one. It's more 
subtle, played out in the domestic politics of these countries 
and in Arab public opinion. But, it is very real.
    The most important regional question affecting Iraq's 
stability is whether Saudi Arabia and Iran can find a workable 
arrangement that satisfies both of their regional ambitions. If 
they can, they can encourage their local Iraqi allies to work 
out an accommodation. If they cannot, the Saudis will seek to 
prevent the consolidation of Iran's predominant influence in 
Iraq.
    Third, many have urged the United States to take a more 
active role in bringing regional powers together in an 
international conference to stabilize Iraq. It's not a bad 
idea, but we should not exaggerate its importance.
    More important would be the agreements and understandings 
which would have to precede such a conference. The key prior 
understanding would have to be between the United States and 
Iran, the two outside powers that have the most influence in 
Iraq. And that requires an engagement on the bilateral 
American-Iranian relationship.
    If there's anything that Iran wants from us, it's not 
things in Iraq, where they have many cards to play already, 
it's things in their relationship with us: An end to the threat 
of attack and regime-change efforts, some acceptance of its 
nuclear program, an acknowledgment of its regional role.
    Now, we should not assume that direct engagement with Iran 
will lead automatically to a more cooperative Iranian attitude. 
Lots of Iranians, at least at the outset, will see such a 
bilateral initiative as an admission of weakness on our part. 
However, such engagement could strengthen those in Iran who 
argue for more modest Iranian regional goals, and it would 
certainly place the Iranian leadership before hard choices that 
they have been able to avoid, up to now.
    My fourth and final point. I believe that the negative 
regional consequences of an American military withdrawal from 
Iraq have been exaggerated. Undoubtedly, withdrawal will be 
accompanied by violence within Iraq, as made--as various groups 
test their strength in both intra- and intersectarian and 
interethnic contests, but it is hard to see, in most cases, how 
that violence would spill over the borders. The Kurdish area 
would not be subject to such violence, with the important 
exception of violence in the Kirkuk region, should the KRG move 
to formalize its control there. Sectarian tensions could rise 
in Saudi Arabia, Kuwait, and Bahrain, with increased sectarian 
violence in Iraq. However, these states have adequate police 
and security forces, and are more than willing to use them, to 
maintain order and state power.
    The most likely areas of spillover are Syria and Jordan, 
which have taken in the bulk of Iraqi refugees. International 
efforts would be necessary to relieve the burden upon them of 
new refugee influx. This is a serious issue, but a far cry from 
widespread regional destabilization.
    A second argument about American withdrawal's regional 
consequences is that the prospect of regional intervention into 
Iraq could lead to a broader regional war, making the Iraqi 
civil war a Middle East war. I think this is highly unlikely. 
The Iranians already have what they want in Iraq: Substantial 
influence, both with the Baghdad government and with major 
Iraqi actors across ethnic and sectarian lines. They do not 
have to intervene militarily.
    The Turks, for their part, do not want to occupy Iraqi 
Kurdistan or annex it. The Saudi Army is hardly capable of 
serious cross-border operations. Foreigners will play in Iraqi 
politics as long as Iraq is weak and as long as Iraqi parties 
seek foreign support. They are doing so now, with us there. 
They will continue to do so. But, they do not appear to have 
the desire, in the case of Turkey or Iran, or the means, in the 
case of Saudi Arabia, to intervene militarily in a direct and 
sustained way which could lead to a wider regional war.
    A third objection to American military withdrawal, from the 
point of view of regional politics, is that al-Qaeda will claim 
victory and be emboldened in its regional aims. Undoubtedly, 
al-Qaeda will claim victory with an American withdrawal, but 
making that fact the reason to maintain our presence in Iraq 
gives Osama bin Laden a veto over American policy, and I can't 
imagine that that would be a good thing.
    Were we to have withdrawn in 2006, as al-Qaeda in Iraq were 
enjoying successes in the Sunni Arab areas, this objection 
would be compelling. However, thanks to the turn in Sunni Arab 
politics over the past 18 months, and to the surge, AQI has 
suffered important reverses. It's not eliminated, but it's 
certainly not on the march. As long as the Sunni Arab sentiment 
continues on its current course, it's highly unlikely that a 
group as small as AQI will be able to achieve any major 
victories in the area. Bin Laden can claim what he wants, but 
people in the region and the world will see the results on the 
ground.
    On the contrary, I think that the prospect of our 
withdrawal might--and I emphasize ``might''--lead both Iran and 
Saudi Arabia to face up to the prospects that a complete 
deterioration of security in Iraq could harm their interests. 
It could lead to a more realistic sense of what an acceptable 
outcome for both states would be, and a willingness on Iran's 
part to compromise on its more ambitious goals in Iraq. Such an 
understanding would have to involve Iran discouraging its 
client, the Islamic Supreme Council, from pushing for the nine-
province regional government of the center and the south, Iran 
encouraging the Baghdad government to include Sunni Arab 
leaders who emerge from the new provincial and national 
elections, and Iran accepting a Prime Minister other than Nouri
al-Maliki, who's unacceptable to the Saudis. Such an 
understanding would require Saudi Arabia to encourage its 
allies in the Awakening Movements to accept the reality of Shia 
demographic weight in Iraqi politics, and discourage them from 
trying to defeat the government and Shia militias and claim 
power on their own.
    American withdrawal, rather than leading to regional 
stability, could, if properly managed, actually contribute to 
greater regional stability.
    [The prepared statement of Dr. Gause follows:]

Prepared Statement of Dr. F. Gregory Gause III, Associate Professor of 
        Political Science, University of Vermont, Burlington, VT

                  iraq in 2012: an optimistic scenario
    The most optimistic scenario for Iraq in 2012 is that: (a) The 
country remains loosely united, with the Kurdish Region still 
officially part of Iraq, though clearly it will be enjoying a large 
amount of autonomy from Baghdad, and no other quasi-independent 
regional governments; (b) the Arab Sunni Awakenings/Sons of Iraq 
movements are integrated into the state structure through regional 
elections, national elections, and integration of a substantial portion 
of their militias into the national security services; (c) 
parliamentary and electoral alliances cross the sectarian divide, 
providing for some stability at the center; (d) the central government 
controls the bulk of Iraq's oil revenues, allowing it to slowly and 
carefully build its reach throughout the Arab parts of the country; and 
(e) this point is reached without a sustained, bloody sectarian civil 
war.
    While this is a plausible scenario, it is not a likely one. It 
seems almost inevitable that the various Arab parties will test their 
political-military strength against one another. This is already 
happening among Sunni Arabs, with the happy result that al-Qaeda in 
Iraq and its local fellow-travelers have seen their influence reduced. 
This is happening among Shia Arabs, with a number of major incidents 
between government forces/Badr Organization militia and Muqtada al-
Sadr's Mahdi Army, most recently just this week. There is no guarantee 
that the brutal Sunni-Shia conflict of 2006-early 2007 will not be 
repeated. The risks of large-scale violence between Kurds and Arabs, 
not particularly high since the fall of Saddam Hussein's regime, will 
rise if the Kurdish leadership pursues efforts to include Kirkuk in the 
KRG. However, while violent conflict is likely, it is not inevitable. 
We have seen the Kurdish leadership be willing to defer a decision on 
Kirkuk. While the Mahdi Army and the government forces/Badr 
Organization have clashed, political agreements have limited the extent 
and duration of their confrontations. The Awakening Movements seem 
anxious to enter the political process. Violence is likely over the 
next 4 years, but there is also hope that it can be mitigated by 
agreements among the Iraqis themselves.
                        regional powers and iraq
    The course of Iraqi politics, for good or for ill, is largely in 
the hands of Iraqis themselves and in our hands. However, regional 
parties can contribute either to the stabilization of Iraq or to its 
fragmentation. The most important regional players in the Iraq game are 
Iran, Turkey, and Saudi Arabia. While Ankara views Iraqi developments 
almost exclusively through the lens of Kurdish issues, for Riyadh and 
Teheran Iraq is one part of a larger contest for regional influence. 
That contest extends from the Persian Gulf states through Iraq to 
Lebanon and the Palestinian territories. That contest is the reason for 
the boycott by many Arab heads of state of the Arab summit meeting in 
Syria, Iran's major Arab ally, this past weekend. That contest is the 
reason that Lebanon has been without a President for the past months 
and will likely remain without a President for some time. That contest 
is the reason that most Arab countries want Fatah and Hamas to find 
some workable arrangement in the Palestinian territories, for fear that 
continued confrontation will push Hamas closer to Iran.
    The Saudi-Iranian contest for influence is not a direct 
confrontation. Iran does not pose a military threat to Saudi Arabia, 
and the Saudis do not see Iran as such. While Riyadh worries about the 
Iranian nuclear program, that is an issue for the future, not the 
immediate present. President Ahmadinejad visited Saudi Arabia in 2007 
and the two countries have kept lines of communication open. The 
Iranians are not trying to destabilize the Saudi regime in its own 
domestic politics, as they tried to do in the 1980s. The Saudis do not 
want to see an American-Iranian military confrontation, because they 
fear that the Arab side of the gulf will be targeted for Iranian 
retaliation. For their part, the Iranians do not seek out a direct 
confrontation with Saudi Arabia, hoping to avoid a sectarian Sunni-Shia 
polarization that might benefit them in Iraq but could hobble their 
influence elsewhere in the Muslim world. Their contest for influence is 
more subtle, played out in the domestic politics of Iraq, Lebanon, and 
the Palestinian territories, and in Arab public opinion. But it is very 
real.
    The Saudi leadership realizes that Iran has more cards to play in 
Iraq than it does. It does not seek to reverse the reality of post-
Saddam Iraq: That the Shia Arab majority is going to have a central 
role in the future of Iraqi politics. What Riyadh seeks is to prevent 
Iraq from becoming an Iranian client state. It sees the current Iraqi 
Government of Nouri al-Maliki as, in effect, an Iranian client regime. 
King Abdallah refuses to meet with al-Maliki and Riyadh has backed the 
failed efforts, led by former-Prime Minister Iyad Allawi, to put 
together an alternative parliamentary majority to unseat the Maliki 
government. It also opposes the proposal by the Islamic Supreme Council 
of Iraq (ISCI) to create a 9-province regional government in the center 
and south of Iraq--a ``Shiastan'' on the model of the KRG. Riyadh views 
that prospect as the end of Iraq as a state, with the Shia-dominated 
regional government as a permanent client of Iran.
    The Saudis have limited but important assets by which to affect 
Iraqi politics. For years after the fall of Saddam Hussein, Riyadh was 
paralyzed regarding the development of Iraqi politics. They had advised 
Washington against going to war, but cooperated to a limited but 
important extent in the war plan. They had no desire to support the 
elected Government of Iraq after 2005, because they saw it as an 
Iranian client. However, they were leery of supporting their sectarian 
allies in Iraq, the Sunni Arab insurgency, for two reasons: (1) The 
insurgency was killing Americans, which could place their bilateral 
relationship with Washington at risk; and (2) part of the Sunni 
insurgency was in league with al-Qaeda, which by 2003 the Saudi 
leadership realized was a threat to its own rule in Saudi Arabia. The 
emergence of the Awakening Movements in late 2006-early 2007 provided 
the Saudis with ideal clients--anti-al-Qaeda Sunni Arabs cooperating 
with the United States. Riyadh is supporting those movements, but we 
should not exaggerate the Saudi influence upon them. They are 
indigenous, not Saudi-created or controlled. As mentioned above, Saudi 
Arabia also maintains ties with important Iraqi politicians across the 
sectarian divide.
    The Iranians have a wider array of local allies, particularly armed 
allies, in Iraq. They created and continue to support ISCI, formerly 
the Supreme Council of the Islamic Revolution in Iraq. They have ties 
to other Shia groups, including the Sadrist movement. They have good 
relations with Kurdish parties, particularly the Patriotic Union of 
Kurdistan led by Iraqi President Jalal Talabani. They have a thriving 
trade with Iraq; tens of thousands of Iranian pilgrims visit the holy 
sites in Iraq every year. While the Shia religious establishments in 
Najaf and Qom have something of a historical rivalry for leadership in 
Shia theology, we should not discount the personal and family ties and 
corporate identity which link the Shia ulama across the Iran-Iraq 
border.
    The most important regional question affecting Iraq's stability is 
whether Saudi Arabia and Iran can find a workable arrangement that 
satisfies both of their regional ambitions. If they can, then they can 
encourage their local Iraqi allies to work out an accommodation. If 
they cannot, we can expect both states to continue to see Iraq as a 
contest for influence, with the Saudis seeking to prevent the 
consolidation of Iran's predominant influence in the country.
    As mentioned above, the Turkish perspective on Iraq is not 
regional; it is domestic. Ankara views events in Iraq through the prism 
of its own Kurdish issue. It has accommodated itself since 1991 to the 
de facto independence of Iraqi Kurdistan. Turkish businesses are 
developing substantial interests there. However, it will not long 
tolerate any actions by the Iraqi Kurdish leadership which it sees as 
encouraging Turkish Kurds to dream of independence and revolt against 
the Turkish Government. While Turkey's military options are limited, it 
has demonstrated that it will use force in the border region against 
the PKK. It will use its diplomatic and economic influence to support 
Iraqi Turkomans in Kirkuk against the KRG's desire to annex the area. 
It will stand foursquare against Iraqi Kurdish independence.
              american diplomacy, regional powers and iraq
    Many observers of the Middle East have urged the United States to 
take a more active role in bringing regional powers together in a 
diplomatic effort to stabilize Iraq. This was a major recommendation of 
the Iraq Study Group. It is not a bad idea, but we should not invest it 
with more importance and efficacy than it merits. It is not so much the 
actual convening of such a conference as the agreements and 
understandings which would precede it that could improve the prospects 
for a good outcome in Iraq. None of the regional parties will pay a 
price just to sit at that table. Each believes that it has assets 
regarding Iraq which it will not give up just for the privilege of 
joining such a meeting.
    The kinds of understandings which Turkey would require to play a 
constructive role in stabilizing Iraq could be achieved comparatively 
easily by an active American diplomatic effort, because we have 
influence both in Ankara and with the Iraqi Kurdish leadership. As long 
as we can assure the Turks that the Iraqi Kurds will not harbor and 
support the PKK and will not move to separation from Iraq and formal 
independence, we can reassure Ankara that its vital interests will not 
be compromised. The Kirkuk issue will be harder for American diplomacy 
to finesse, as the Kurdish leadership appears intent upon integrating 
Kirkuk into the KRG. Turkey will oppose this, but it does not pose the 
same kind of threat to fundamental Turkish interests that the PKK and 
Kurdish independence do. The Bush administration has handled the 
Turkish side of the Iraq issue relatively well, at least since the 
debacle of Turkish refusal to allow the opening of a northern front 
during the 2003 war. Working out and sustaining a modus vivendi between 
Turkey and the KRG can be accomplished without a regional conference.
    American diplomatic efforts to encourage a Saudi-Iranian 
understanding would be much more difficult. First, we have no influence 
on the Iranians. Second, we join the Saudis in seeking to contain their 
influence in the region. We are not brokers, as we could be between 
Turkey and the Iraqi Kurdish leadership. We are participants in the 
regional contest for influence. In fact, the Saudis have a more nuanced 
view of their contest with Iran, including keeping lines of 
communication open to Teheran, than we do. The Iranians are certainly 
not going to pay a price simply to sit at a table with us and other 
regional powers to discuss Iran's future. By skipping the last 
scheduled bilateral meeting in Baghdad, the Iranians signaled that they 
are hardly panting for dialogue with us.
    Any constructive engagement with Iran on regional issues, including 
Iraq, requires an engagement on the bilateral American-Iranian 
relationship. There is not much that we can give the Iranians in Iraq. 
They already have enormous influence with many of the Iraqi players, 
including the Iraqi Government. If there is anything that Iran wants 
from us, it involves their relationship with us--an end to the threat 
of attack, some acceptance of its nuclear stance, an acknowledgement of 
its regional role--not our ability to ``give'' them something in Iraq.
    In the same way that we should not exaggerate the results of 
convening a regional conference, we should not assume that direct 
engagement with Iran will lead automatically to a more cooperative 
Iranian attitude. The Iranian leadership will inevitably see such a 
bilateral initiative as an admission of weakness on our part, at least 
at the outset. However, such engagement will place the Iranians, who 
are themselves divided on a number of regional issues, in front of 
difficult choices. It could constrain the more ambitious elements of 
the leadership, strengthening those who argue for more modest Iranian 
regional goals. It will place the Iranian leadership before hard 
choices that they have been able to kick down the road up to now.
    In the context of an Iranian-American bilateral engagement that is 
moving forward, it might be (I emphasize ``might'') possible to achieve 
a larger regional understanding that major regional parties can live 
with. Such an understanding would involve acknowledgement of Iran's 
influence in Iraq, Iran's acknowledgement that Arab-Israeli and 
Palestinian-Israeli peace is a global concern which Iran should not 
block and an understanding in Lebanon that gives Hezbollah a 
commensurate role in Lebanese politics without a veto over an elected 
Lebanese Government while assuring a stable Israeli-Lebanese border. 
There is no guarantee that a bilateral American-Iranian understanding 
can be achieved and can lead to these other positive results, but it is 
almost certain that we will not be able to reach these goals without 
some kind of American-Iranian understanding.
    With an American-Iranian dialogue commenced, if it demonstrates any 
promise, the possibility of a successful regional conference on Iraqi 
issues increases. The U.S. can then use its influence with Saudi Arabia 
to urge Sunni Arab Iraqi groups to play a constructive role. Moreover, 
such regional progress could put pressure on the Syrian-Iranian 
alliance, as Damascus could begin to doubt Teheran's commitments. 
Distance in that relationship can only increase the chances of positive 
movement in Lebanon and opens up the possibility of progress on the 
Syrian-Israeli track of the Arab-Israeli peace process.
    This analysis of regional politics has been made in the spirit of 
the hearing, calling for imaging a relatively positive outcome for Iraq 
in 2012 and how we might get there. While the positive effects of 
American-Iranian bilateral understandings are plausible, they are by no 
means inevitable--neither American-Iranian agreements nor the positive 
consequences. However, it is hard to imagine good Iraqi and regional 
outcomes without some kind of American-Iranian understanding.
          american withdrawal from iraq and regional politics
    One of the persistent arguments put forward against American 
military withdrawal from Iraq is the spill-over effect of Iraqi 
instability in the region as a whole. The argument has three elements: 
(1) That domestic violence in Iraq will spill over into bordering 
countries--Kurdish violence in Turkey, Iraqi refugee flows 
destabilizing Syria and Jordan, Sunni-Shia tensions leading to domestic 
violence in Kuwait, Saudi Arabia, and Bahrain; (2) that all-out civil 
war in Iraq will draw in the forces of neighboring states, with Turkish 
intervention in the north, Iranian intervention in the south and Arab 
state interventions in response, turning Iraq into a full-fledged 
regional war; and (3) that al-Qaeda would be so emboldened by our 
withdrawal that it would be able to take its fight against pro-American 
Arab regimes across Iraq's borders.
    One should never bet against the worst possible outcomes in the 
Middle East. However, it is hardly inevitable that American withdrawal 
from Iraq would lead to any of these bad results. On the contrary, I 
will make the case that an announced intention to withdrawal on a 
realistic timetable might (again, I stress ``might'') actually push 
regional powers to take more cooperative stances on Iraq.
    The prospects of violent spill-over from Iraq are much more limited 
than the worst case scenarios about American withdrawal assert. 
Undoubtedly, withdrawal will be accompanied by violence within Iraq, as 
various groups test their strength both in intra- and intersectarian 
contests. But it is hard to see in most cases how that violence would 
spill over the borders. The Kurdish area would not be subject to such 
violence, as it is relatively well ordered now (with the important 
exception of violence in the Kirkuk region should the KRG move to 
formalize its control there). The spill-over prospects into Turkey have 
more to do with the status of the PKK in Iraqi Kurdistan, which would 
not be greatly affected by events to the south. Sectarian tensions 
could rise in Saudi Arabia, Kuwait, and Bahrain with increased 
sectarian violence in Iraq. That was certainly the case during 2006-
early 2007. However, increased tensions and violence are two different 
things. The states in all three countries have adequate police and 
security forces and are more than willing to use them to maintain order 
and state power. The most likely areas of spill-over from Iraq are 
Syria and Jordan, which have taken in the bulk of Iraqi refugees. 
International efforts would be necessary to support these states and 
relieve the burden upon them of new refugee inflows. This is a serious 
issue, but a far cry from the picture of widespread regional 
destabilization one sometimes hears.
    The prospect of regional intervention into Iraq, making an Iraqi 
civil war into a regionwide conflict, is also highly unlikely. First, 
there is already substantial foreign intervention (besides our own) in 
Iraq. The Iranians have considerable influence and the Saudis are 
building theirs, as was discussed above. The Turkish military will 
intervene in Iraqi Kurdistan when it thinks it is necessary. It is hard 
to see why these interventions would escalate with American withdrawal. 
The Iranians already have what they want in Iraq--substantial influence 
both with the Baghdad government and with major actors in border 
regions to the south and the north. The Turks do not want to occupy 
Iraqi Kurdistan or annex it. The Saudi Army is hardly capable of 
serious cross-border operations. Foreigners will play in Iraqi politics 
as long as Iraq is weak and Iraqi parties seek foreign support. They 
are doing it now, with the American military there. They will continue 
to do it. But they do not appear to have the desire (in some cases, 
like Turkey and Iran) or the means (Saudi Arabia) to intervene in a 
direct, sustained military way that could lead to a wider regional war.
    Undoubtedly, al-Qaeda will claim victory with an American 
withdrawal. But making that fact, over which we have no control, the 
reason to maintain our presence in Iraq gives Osama bin Laden a veto 
over American policy. That cannot be a good thing. Were we to have 
withdrawn in 2006, as al-Qaeda in Iraq was enjoying some successes in 
Sunni Arab areas, this objection to withdrawal would be more 
compelling. However, thanks to the turn in Sunni Arab politics over the 
past 18 months and to the surge, AQI has suffered important reverses. 
It is not eliminated, but it is certainly not on the march in Iraq. As 
long as Sunni Arab sentiment continues on its current course, it is 
highly unlikely that a group as small as AQI will be able to achieve 
any major victories in the area. Bin Laden can claim what he wants; 
people in the region will see the results on the ground.
    The regional risks of American withdrawal are not as great as some 
contend. There could also be regional benefits to withdrawal. As long 
as we remain in Iraq with substantial military forces, neither Iran nor 
Saudi Arabia has to face up to the regional consequences of a chaotic 
Iraq. The Iranians can rest assured that we will not allow the 
government which they support to be defeated militarily. The Saudis can 
assume that we will not allow complete Iranian control over Iraq. Both 
can build up their allies with little regard to the consequences for 
longer term Iraqi politics, as both are protected against their worst-
case outcomes. However, the prospect of our withdrawal might (again, I 
emphasize ``might'') lead both Teheran and Riyadh to face up to the 
prospect that a complete deterioration of security in Iraq could 
increase the prospects of their worst-case outcomes. It could lead to a 
more realistic sense of what an acceptable outcome for both states 
would be and a willingness on Iran's part to compromise on its more 
ambitious goals in Iraq.
    Such an understanding would involve Iran: (a) Discouraging its 
client ISCI from pushing for the 9-province regional government of the 
center and the south, (b) encouraging the Baghdad government to include 
Sunni Arab leaders who emerge from new provincial and national 
elections, and (c) accepting a Prime Minister other than Nouri al-
Maliki. Such an understanding would require Saudi Arabia to encourage 
its allies in the Awakening Movements to accept the reality of Shia 
demographic weight in Iraqi politics and discourage them from thinking 
that they had the chance to defeat the government and Shia militias and 
claim power on their own.
                         conclusions: iraq 2012
    While regional actors will be important players in how Iraqi 
politics develops, the real decisions will be made by Iraqis 
themselves. Iran's allies in Iraq have varying degrees of loyalty to 
Teheran, from relatively strong for ISCI to relatively weak for the 
Sadrists. The Saudis exercise only influence, not control, over Sunni 
Arab actors. The Kurds answer only to the United States as an outside 
power patron, and we certainly do not control them.
    While more violence is inevitable over the coming years, the hope 
for a minimally violent transition to a more effective Iraqi state 
relies on two political processes. First, the new Sunni Arab leadership 
which has emerged in the Awakening and Sons of Iraq movements must be 
integrated into provincial and national political and security 
structures. This could be accomplished through new elections, at both 
the provincial and national levels, which would empower this new 
leadership. Second, the split among the Shia components of the Unified 
Iraqi Alliance, which has been obvious for the past year and was most 
recently manifested in the fighting of this week, has to work itself 
out politically. The Sadrists need to compete on their own against ISCI 
and Dawa and other Shia groups in the provinces and in national 
elections. Splitting the Shia bloc opens up the possibilities for 
cross-sectarian political alliances which could mitigate sectarian 
tensions and encourage a more stable central government.
    This optimistic scenario relies upon other important developments. 
The Kurdish leadership must show forbearance regarding Kirkuk. Efforts 
to incorporate the Kirkuk area into the KRG could spark new violence 
between Kurds and Arabs. While this might unite Arabs across sectarian 
lines, it would hardly be a good thing for the development of a more 
stable Iraq. The central government must control oil revenues, at least 
in the Arab areas. Only through its ability to use and distribute 
revenue can the central government begin to build its capacity to 
govern. ISCI must give up its dream to establish a 9-province 
``Shiastan'' in the center and the south. It is a divisive proposal 
among Shia (the Sadrists are dead set against it) and absolutely 
unacceptable to even the most moderate Sunni Arabs.
    There is no guarantee that Iraq can be saved from a descent into 
worse political violence, either if the United States remains in the 
country or if it leaves. If there were easy solutions to the problems 
of Iraq, we would have found them by now. However, there is the 
possibility that domestic and regional forces might be able to mitigate 
violence and encourage the gradual establishment of state authority in 
Iraq. On the regional level, that result will require an American-
Iranian understanding.

    The Chairman. Thank you very much. Pretty good for a 
``Sallies'' guy.
    Dr. Gause. Thank you, sir.
    The Chairman. No. Thank you. It was very good. I appreciate 
it very much.
    Dr. Pascual.

 STATEMENT OF HON. CARLOS PASCUAL, VICE PRESIDENT, DIRECTOR OF 
     FOREIGN POLICY, BROOKINGS INSTITUTION, WASHINGTON, DC

    Ambassador Pascual. Mr. Chairman, Senators, thank you very 
much for the opportunity to testify before this committee, 
particularly given the leadership role that you've played in 
sustaining a dialog on the political aspects of the conflict in 
Iraq. And, as you emphasized from the beginning, Mr. Chairman, 
this is a really crucial issue that we face today.
    I believe that the failure of American policy in Iraq 
presents us with an untenable situation as we consider the 
situation in 2012. On the one hand, I believe that withdrawal 
of American troops will most likely result in an internal 
conflagration that could, to some extent, spill over borders, 
although, as we have just heard, not in a formal war; that it 
can increase the threat of transnational terrorism; that it can 
send oil prices soaring even further; and that it would add to 
the number and anguish of 4.5 million Iraqi refugees and 
displaced people. Yet, keeping American troops in Iraq is an 
unsustainable stopgap in the absence of major progress toward a 
political settlement among Iraq's competing and warring 
factions.
    As we consider what Iraq might look like in 2012, Mr. 
Chairman, I think this presents us with quite a challenge. We 
can't predict precisely what Iraq will look like in 4 years. We 
do have some certainty that Iraqis will determine what Iraq 
will look like. We can make a reasonable guess at what some of 
the principal factors might be. Let me outline what I think 
some of those core issues might be, based on some of the 
discussions that we already have had.
    The first is that there must be some understanding on 
federal-regional relations. That issue has been clearly put on 
the table.
    The second is that there must be an understanding around 
the sharing of oil revenues, and that, inevitably, will require 
some level of compromise and revision to the Constitution, 
because currently the Constitution provides for the provinces 
to have the dominant authority for the development of oil 
resources in the country.
    The third is that militias and their roles must be 
formalized and brought into state control. They can no longer 
be allowed to operate on their own.
    Fourth, there must be an understanding for the protection 
of minority rights, particularly in areas where those 
minorities are seeking to continue to live their lives where 
they no longer have national protections in law.
    The fifth is the need for working out provisions for 
political inclusion. Some legislation has been passed to 
reverse some of the aspects of de-Baathification which have 
occurred, but it is unclear how it will be implemented and how 
it will be extended to senior levels.
    And, sixth, there must be an understanding around Kirkuk 
and the Kurdish areas in a way that provides for the autonomy 
of those regions, yet, at the same time, is sufficiently 
reassuring, that doesn't result in the kinds of Turkish 
incursions that we have seen over the past months.
    These provisions may very well require some suspension of 
formal competitive politics in Iraq. The Iraqis will need to 
decide if, during this period, they actually need to 
consolidate their government, rather than engage in further 
politics.
    What, ideally, we would see is a return of some of the 4.5 
million refugees and displaced persons. We, ideally, would see 
some consistent degree of security on the ground. But, it is 
inevitable that what would also be required is a major 
international security presence, most likely on the order of 
50,000 troops, if not even higher. And I think it would be 
delusionary if we think that a sustainable peace can be 
maintained in Iraq, under any circumstances, if there isn't 
this kind of international presence. But, it can only happen 
if, in fact, there is, as you said at the beginning, Mr. 
Chairman, a political settlement.
    I would like to take a couple of minutes to underscore why 
that political settlement is so critical right now, and why it 
is such a critical factor in sustaining some of the progress 
that we've seen in the reductions of violence.
    You have already heard, in the hearings that you've 
conducted, and you certainly will hear from General Petraeus, 
an impressive array of statistics of how violence has gone 
down. And the question I think we all have to ask is, Is it 
sustainable? The answer to this lies in the briefings that the 
U.S. military has, in fact, been giving us. Over the past 
weeks, we've had an opportunity, at Brookings, at hosting some 
of the generals and colonels who have been involved in the war 
in different parts of Iraq, and here are some of the things 
that we hear.
    The first is credit to the willingness of Sunni militias 
and tribes to cooperate with the United States against al-Qaeda 
in Iraq. They hate al-Qaeda in Iraq more than the United 
States. And that has been positive. There are now 85,000 people 
participating in the Sunni Awakening, which is, in fact, 
actually extending beyond the Sunnis. The United States is 
paying them. And, as a result, that is putting food on the 
table, but there is also an argument to be made that some may 
be using that money to rearm.
    The second factor that we hear is the de facto truce that 
the Shia have declared against American troops. The reasons for 
that may vary, but one of the things that certainly has 
occurred is a refocusing of Shia attention to conflict in the 
Basra region in the south as they seek to control Iraq's 
wealthiest areas. And we have seen how that truce could so 
easily break apart in the last few weeks as a result of an 
extraordinarily convoluted set of relationships, of perceptions 
of whether the United States was supporting an Iraqi 
incursion--Iraqi Security Forces attacking, particularly the 
Sadrist forces and supporting the Islamic Supreme Council of 
Iraq. As a result of that, retaliatory attacks occurred in the 
Green Zone. The greatest irony is that the Sadrists were acting 
in retaliation for American support of what was perceived as 
the strongest pro-Iranian party in the south. It underscores 
the complexity and the bizarre nature of these arrangements, 
and how fragile that they can be.
    In addition to that, what we have to recognize is that we 
have, in fact, a situation which is almost impossible to 
understand. You have an increase of capacity and strength on 
the Sunni militias, a stand down on the part of the Shia, what 
would normally be absolutely untenable with one another, and 
has been allowed because of U.S. forces maintaining a balance 
in between. And whether that can be sustained very much depends 
on the nature of the Iraqi political base.
    What we've seen is that there has been some progress: The 
passage of an amnesty law, which one would expect. Most 
militias would want the prospect of amnesty. There has been a 
reversal of some de-Baathification measures, which still have 
not been implemented. There's been a very important 2008 budget 
law that was passed, which was given a boost, obviously, by 
high international oil prices. There is a provincial election 
law that was passed, with elections that are going to take 
place in October, and could be potentially destabilizing, 
because the Islamic Supreme Council of Iraq knows that it will 
lose seats, and it will resist it in every possible way.
    And then, beyond that, let's look at the core factors. 
There's still no agreement on federal-regional relations, 
there's no agreement on revenue-sharing, there's no agreement 
on militias, there is no agreement on minority rights. And 
we've seen the sensitivity of the Turkish situation, vis-a-vis 
the Kurds.
    If U.S. forces are taken away from this equation, I think 
the results are predictable: An upsurge in violence, possibly 
at even greater levels than seen in the past, because of the 
regrouping of Sunni militias that have still not accepted a 
Shia-dominated national government. Yet, to leave United States 
forces in the midst of this quagmire is also irresponsible if 
efforts are not made to address the fundamental political 
issues that drive the Iraqis to war. And hence, your opening 
statement and the importance of this kind of political 
settlement.
    Now, on this matter, I would hope that there should be no 
partisan divide in the United States, and that there should be 
a focused and urgent attention given to negotiating a political 
settlement, where Iraq's neighbors will at least agree to honor 
the settlement, if not support it.
    President Bush has made clear that force levels are not 
dropping significantly during his term. The process of 
implementing a diplomatic strategy focused on the future of 
Iraqi politics, I believe, has to start now, when the United 
States force presence can at least enhance diplomatic leverage.
    In my testimony, I have tried to outline some specific 
steps that need to be taken. I have proposed that the United 
Nations can be an important and constructive force. There are 
many who are skeptical about the U.N., but let's remember that 
in April 2004, when the United States could not reach a deal on 
an Iraqi interim government, the United States turned to the 
United Nations and Lakhdar Brahimi essentially negotiated and 
brokered that deal on behalf of the United States to be able to 
make it possible.
    What we have to see from the U.N. has to be of that 
nature--not business as usual, but a specialized team, and a 
specialized team that has the capacity to talk to all Iraqis of 
all political stripes, across the core negotiating issues that 
I mentioned at the outset of my testimony.
    On the basis of that, judgments have to be made about 
whether a deal can be brokered. Discussions are going to have 
to be held with the neighbors. I believe those discussions have 
to start out sequentially, rather than initially bringing them 
together into a room where the posturing will be overwhelming 
and it will be impossible to get to some form of a deal.
    I believe that, at some point, a judgment call will have to 
be made about whether to have something that resembles a Dayton 
Conference or something like the Bonn Agreement. But, I would 
also underscore that if the United Nations is playing a role 
here, it does not mean a suspension of American diplomacy. 
Let's remember the Bonn Agreement process, where Lakhdar 
Brahimi was at the center of negotiations, yet the United 
States had Jim Dobbins and Zalmay Khalilzad playing a critical 
and essential role with all of the individual parties, 
bilaterally, and in reinforcing the United Nations process.
    I think we also have to be realistic. The chances of 
something like this succeeding are not high; yet, at the same 
time, I believe the costs are low. And even if it does not 
succeed, I think it is still worth the effort.
    Europe, China, Japan, Russia, and India all have a stake in 
the stability of the Middle East and the gulf. They should have 
an incentive to invest in regional stability. I think a focused 
diplomatic effort by the United Nations could begin the process 
of reengaging these countries and seeking their support to 
control the potential spillover of war into the region, as well 
as to address the plight of refugees.
    Mr. Chairman, I believe that, without such an initiative, 
we have a danger of continuing to allow our troops to remain in 
an untenable situation, and I believe you have an opportunity 
now, with this committee, to begin to refocus attention, not so 
much on the military dimensions of the war, but how you bring 
in a diplomatic and a political process that can help support a 
sustainable peace.
    Thank you very much.
    [The prepared statement of Ambassador Pascual follows:]

Prepared Statement of Hon. Carlos Pascual, Vice President, Director of 
         Foreign Policy, Brookings Institution, Washington, DC

    Mr. Chairman, thank you for the opportunity to present this 
testimony. It is an honor to appear before this committee. I commend 
the role so many of you have played to focus attention on the need for 
a political and diplomatic strategy in Iraq. The lack of a meaningful 
U.S. strategy in this area continues to threaten the prospects for 
sustainable progress. If anything has become clear over the past 5 
years in Iraq it is that a strong military strategy, underpinned with 
poorly conceived gestures at political reconciliation, will not result 
in Iraq becoming a peaceful and viable state.
    The failure of American policy in Iraq presents us with an 
untenable situation. The withdrawal of American troops from Iraq will 
most likely result in an internal conflagration that could spill over 
borders, increase the threat of transnational terrorism, send oil 
prices soaring further, and add to the number and anguish of 4.5 
million Iraqi refugees and displaced people. Yet, keeping American 
troops in Iraq is an unsustainable stopgap in the absence of major 
progress toward a political settlement among Iraq's competing and 
warring factions.
    This is a critical moment for Congress to give the administration 
the strongest possible impetus to undertake a focused diplomatic 
initiative with the United Nations and key international partners to 
seek a brokered political settlement in Iraq. Such an initiative must 
go beyond well-worn platitudes about the administration's commitment to 
diplomacy. It must focus on building a sustainable compromise among key 
Iraqi parties. It must recognize that the U.S. would benefit from a 
strong U.N. political role--if that role and its leadership are well 
structured. It must reflect the need to coordinate diplomatic activity 
and American military assets.
    We must also be realistic. Although the chances for a diplomatic 
initiative producing a brokered political settlement are not high, it 
is still worth trying. The cost of trying is low. The gains from 
succeeding are huge. The fallout from failure is limited. The process 
of reviving an international diplomatic process on Iraq could help our 
friends and allies come to appreciate that they too have a stake in 
contributing to regional efforts to mitigate the spillover from war.
    In this testimony, I would like to address the vulnerability that 
Iraq's ongoing crisis presents for U.S. troops, key elements for a 
revised diplomatic strategy for Iraq, and critical issues that I hope 
this committee can inject into the policy debate.
                   fragile and unsustainable progress
    There is no doubt that General Petraeus will present an impressive 
array of statistics illustrating reductions of violence in Iraq when he 
testifies before Congress. All key indicators on insurgent attacks, 
bombings, and civilian and military fatalities demonstrate that 
violence is down, even if attacks and fatalities still remain 
unacceptably high. General Petraeus and the U.S. military deserve 
credit and praise for the ways in which they have carried out a new 
counterinsurgency strategy in Iraq.
    I would also predict that if most senior military officers were 
asked if this progress in security is viable without a political 
settlement in Iraq, their answer would be ``no.'' The reasons for that 
lie in the fragile underpinnings of the factors contributing to the 
reductions in violence. U.S. military spokespersons acknowledge that 
the military surge was necessary to reduce violence, but the surge 
alone was not enough. Sunni militias in Anbar and increasingly in other 
parts of the country decided that they hated al-Qaeda in Iraq more than 
the United States, and beginning in late 2006 they started cooperating 
with the U.S. military against al-Qaeda's brutality. Now there are 
around 85,000 ``concerned citizens'' participating in this Sunni 
``Awakening.'' They are paid by the U.S. military for contributions to 
local security. These payments have no doubt helped put food on the 
table for many families, and they may have also provided the cash they 
need to rearm.
    Shia militias, particularly Muqtada al-Sadr's Mahdi Army, called a 
cease-fire against U.S. troops that generally held until late March. In 
part, the Shia cease-fire toward U.S. forces may reflect a calculated 
judgment to gauge the impact and capacity of surging U.S. forces. 
Meanwhile, Shia militias have confronted each other in Basra, with the 
Mahdi Army, the Badr Organization associated with the Islamic Supreme 
Council of Iraq (ISCI), and Fadhila engaged in a struggle to control 
the resources and power in Iraq's wealthiest city and region.
    The Shia cease-fire toward the U.S. came apart, at least 
temporarily, in late March when the Iraqi Security Forces launched a 
campaign against what the Iraqi Government deemed ``outlaws'' in Basra. 
Others argue that the Iraqi Government used Iraqi forces to target 
Sadr's Mahdi Army and take sides in favor of ISCI, which is reputed to 
have strong ties to Iran. Details are far from clear, but it is 
plausible that some Sadr followers retaliated against the U.S. compound 
in the Green Zone because the U.S. supports the Iraqi Government and 
security forces, which are supporting Sadr's pro-Iranian enemies in 
Basra. As of April 1, 2008, it appears that a new cease-fire may have 
been struck with Sadr, but the convoluted web of fighting and 
retaliation over the previous week underscored the fragility of the 
Shia cease-fire toward coalition forces.
    The combined development of strengthened Sunni militias and a Shia 
cease-fire would normally seem unimaginable. It has been possible 
because both Sunni and Shia have seen a strong U.S.-force presence as a 
balancing factor that, for now, serves each of their interests. Putting 
aside the current conflict in Basra, one can argue that better security 
has facilitated incremental political progress: An improved 2008 
budget, an Amnesty Law that (unsurprisingly) militia leaders support, 
some reversal of the de-Baathification laws, legislation to authorize 
provincial elections in October, and signs of improved governance in 
some provinces.
    One must see this narrow base of political progress against a wider 
backdrop. There is still no understanding of the core political issues 
dividing Iraqi society: Federal-regional relations, long-term revenue 
allocation, disarmament and demobilization of militias, the inclusion 
of former Baathists in senior political positions, and protection of 
minority rights. We have already seen in the past month the fragility 
of the situation in the Kurdish areas and the potential for Turkish 
incursions. Iran's role also remains a point of debate, but there is no 
question that Iran can be disruptive when it wants to. Iraqi Security 
Forces have improved, but they still cannot carry out operations 
effectively on their own. The Iraqi police have not succeeded in 
enforcing the rule of law.
    If U.S. forces are taken away from this equation, the results are 
predictable: An upsurge in violence, possibly at even greater levels 
than seen in the past given the regrouping of Sunni militias that have 
still not accepted a Shia-dominated national government. Yet to leave 
U.S. forces in the midst of this quagmire is also irresponsible if 
efforts are not made to address the fundamental political issues that 
drive the Iraqis to war.
    On this matter, there should be no partisan divide in the United 
States: There must be focused and urgent attention to negotiating a 
political settlement in Iraq, where Iraq's neighbors will at least 
agree to honor the settlement, if not support it. President Bush has 
made clear that force levels are not dropping significantly during his 
term. The process of implementing a diplomatic strategy focused on the 
future of Iraqi politics must start now, when the U.S.-force presence 
can enhance diplomatic leverage. It will take time and other partners, 
as I will discuss shortly. The diplomatic options must be set up for 
the next U.S. President to expeditiously demonstrate a new course that 
is nonpartisan and can be accepted internationally.
    The argument for a brokered settlement in Iraq has a strong 
foundation in international experience. Civil wars in Bosnia, Kosovo, 
East Timor, Congo, Sudan, Haiti, South Africa, and Northern Ireland 
have all demonstrated that peace cannot be achieved without a political 
agreement among the warring parties. Military force can help induce a 
political settlement or create space to implement it, but force alone 
cannot sustain peace. Even when parties reach agreements, they often 
fail--and it could very well be the case that Iraqis are simply not 
``done fighting.'' Shias may still believe they can ``win.'' Sunnis are 
committed to making sure that Shia do not. Militias may be so 
splintered that it is difficult for any actor to rein them in, or for 
any group of leaders to speak credibly on behalf of the sectarian 
groups they claim to represent.
    If a settlement is not reached, the spillover from Iraq could 
threaten the entire region. The refugee crisis could become a new 
source of instability, as major refugee flows have in virtually every 
other part of the world. Insurgents would likely cross borders seeking 
support, recruits and perhaps to widen conflict. Neighbors would likely 
be drawn further into backing sectarian brethren. Wider instability 
would help al-Qaeda franchises gain stronger holds in the region, 
including the potential for further destabilization in Lebanon. A 
referendum in Kirkuk and signs of Kurdish nationalism could risk Turkey 
acting again in Kurdistan. All these factors would create greater 
instability around Israel. And beyond the region, the risks to energy 
production and transit would likely manifest themselves in yet higher 
prices--radically so if there are real disruptions to supply when there 
is virtually no spare short-term oil production capacity outside of the 
gulf.\1\
---------------------------------------------------------------------------
    \1\ For an overview of international oil supply options, see the 10 
August 2007 International Energy Association Oil Market Report (http://
omrpublic.iea.org/archiveresults.asp?formsection=
full+issue&formdate=2007&Submit=Submit), especially pp. 18-27. The 
Saudis continue to have the largest spare capacity at about 2 million 
barrels per day (mbd). Russia is producing far above historical trends 
and is seen to have little spare capacity. Neither Nigeria nor Iraq are 
reliable fallbacks for oil. A disruption or perceived disruption in 
gulf oil production or transit, with few ready alternatives, could 
produce sharp price hikes and fuel international speculation.
---------------------------------------------------------------------------
                       a new diplomatic strategy
    All of these factors make peace in Iraq a long shot. Yet that 
should not stop serious attempts at reconciliation. U.S. efforts, 
however, must match the complexity of the task.
    Even if the path to stability is uncertain, what should be clear is 
that the current American strategy for reconciliation--setting 
benchmarks and demanding that a failed Iraqi state achieve them--will 
not succeed. As of March 2008, over one-quarter of Iraq's Cabinet seats 
are vacant or only nominally filled. The state cannot perform basic 
functions such as maintaining law and order. It is unrealistic to 
expect Iraq to fix itself through a sequential process of passing laws 
and holding elections and referendums. Issues such as oil revenues, 
federal-regional relations, and the question of de-Baathification are 
interrelated. It is unrealistic to expect warring parties to settle on 
part of this equation without understanding the outcomes on related 
issues. Local reconciliation in some provinces where security has 
improved is indeed important, but at some point that needs to translate 
into a willingness to accept and support a national government, which 
is certainly not yet the case among Sunni militias in Anbar.
    Regional diplomatic efforts have not had the strategic focus to 
advance prospects for a settlement, nor is it likely that they could 
without massive work. Regional meetings in Istanbul, Baghdad, and Sharm 
el-Sheikh did not have a clear goal of supporting an Iraqi settlement 
or an agenda to sustain it. The International Compact for Iraq (ICI) is 
a framework for assistance conditioned on policy actions by Iraq, 
similar in spirit to the conditionality packages developed for the 
former Soviet states in the 1990s. In the short term, the ICI is a 
self-defining mechanism for stalemate as Iraq cannot realistically meet 
the conditions. Visits by Secretaries Rice and Gates intended to 
encourage the Gulf States to support Iraq will produce little concrete 
action as long as ``support'' suggests bolstering what is perceived as 
Shia dominance in Iraq. Moreover, simply convening regional actors 
without a strategic agenda could complicate serious negotiations among 
Iraqis, as each regional player may seek to advance its parochial 
interests. To move forward with a realistic agenda for peace in Iraq, 
regional gatherings would need a clear focus around a defined agenda, 
which to date is nonexistent.
    A new approach is needed. It should be led by the U.N. But in order 
for the U.N. to even consider such a role, the United States must make 
clear that it welcomes U.N. involvement and that it will coordinate 
military action to support the diplomatic process. All Iraqi parties 
that are not associated with al-Qaeda in Iraq should be given a voice 
in the process. To succeed, regional actors would have to endorse a 
political settlement, or agree at a minimum not to undermine it. If an 
agreement is reached, it will require international troops and 
oversight to implement it.\2\ Political agreements to end civil wars 
require massive preparation and negotiation. They do not spontaneously 
generate.
---------------------------------------------------------------------------
    \2\ Carlos Pascual and Kenneth M. Pollack, ``The Critical Battles: 
Political Reconciliation and Reconstruction in Iraq,'' Washington 
Quarterly, vol. 30, no. 3, Summer 2007.
---------------------------------------------------------------------------
    To be effective, the U.N. must also be mindful of its shortcomings, 
and Member States must take seriously that they constitute the U.N. 
Members of the Security Council must place international imperative 
over political bickering. Given widespread anti-American sentiments, 
some countries will be content to see the United States continually 
bogged down in a protracted and humiliating quagmire. China and Russia 
could play a constructive role in advocating for the U.N. to seek a 
viable place in Iraq, if they act on their interests in a stable Middle 
East and international energy markets. All Member States have to put 
behind them the controversies of the Oil for Food program, drawing 
lessons on corruption and transparency from past management mistakes.
    U.N. Security Council Resolution 1770, passed on August 10, 2007, 
provides the necessary mandate to seek political reconciliation in 
Iraq. Implementing this mandate will require U.N.-equivocal political 
backing, careful calibration of expectations, and skilled diplomacy. To 
undertake this task, the U.N. needs a special team and a flexible 
mandate. It cannot be business as usual. The lead negotiator should 
report to the Secretary General, and must be empowered to engage 
regional and international actors directly. The team should include 
individuals who know Iraq, and who can liaise effectively and credibly 
with key external constituencies such as the United States, the EU, the 
Permanent Members of the Security Council, and the Gulf States.
    Running such a political process is as much art as science. It will 
require engaging all the key actors in Iraq, all the neighboring 
states, and all the major external actors (the U.S., EU, others in the 
P5, major donors, and potential troop contributors). The following are 
some of the critical strategic considerations.

  <bullet> Core Elements. Any agreement will likely revolve around a 
        ``five plus one'' agenda: Federal-regional relations; sharing 
        oil revenues; political inclusion (redressing the de-
        Baathification issue); disarmament, demobilization and 
        reintegration of militias; and minority rights. Even under a 
        minimalist Federal Government arrangement, Sunnis will need 
        assurance of a role in an equitable allocation of oil revenues. 
        Minority rights are key to protecting those who do not succumb 
        to sectarian pressures to move. Demobilization of militias will 
        be needed for the state to regain control over the use of 
        force. The Kurds will insist on retaining regional autonomy. 
        The ``plus one'' is the timing of a referendum on Kirkuk, which 
        is guaranteed by the Constitution but could trigger pressures 
        for Kurdish independence and draw Turkey and Iran into the 
        conflict. Because these issues are so interconnected they 
        should be negotiated as a package rather than sequentially, in 
        order to maximize options for viable compromises.
  <bullet> Five-Year Truce. The focus should be agreement on a 5-year 
        truce--provisions that can create sufficient confidence to stop 
        the fighting--with the option to extend the timeframe annually. 
        At this point animosities are too sharp to expect that the 
        parties can negotiate permanent solutions to the core agenda. 
        Also, developments over the coming years may produce better 
        options than those can be developed in just a few months.
  <bullet> Iraqi Positions. As a condition for participating in the 
        negotiation process, Iraqi political parties and militia 
        leaders will need to condemn the role of al-Qaeda in Iraq and 
        agree to cooperate against it. The U.N. negotiator must have 
        leeway on whom to consult. As seen in the current U.S. military 
        experience, that may entail militias that once attacked 
        American forces.\3\ The U.N. Representative will likely need to 
        meet separately with the Iraqi actors, mapping out their 
        positions against the ``five plus one'' agenda in order to 
        determine if there are potential deals to be made that also 
        respect core substantive objectives. That may lead to small 
        group meetings among parties to test potential alliances.
---------------------------------------------------------------------------
    \3\ Thomas E. Ricks, ``Deals in Iraq Make Friends of Enemies,'' 
Washington Post, 20 July 2007. Available: http://
www.washingtonpost.com/wp-dyn/content/article/2007/07/19/
AR2007071902432.
html?nav=emailpage; accessed: 9 August 2007.
---------------------------------------------------------------------------
  <bullet> Regional Players. Along with surveying Iraqis, the 
        neighboring states should be engaged on the core agenda. Again, 
        these meetings should start separately to mitigate the 
        inevitable posturing and gamesmanship that occurs when 
        competing actors are in the same room. From these meetings, the 
        U.N. Representative will need to determine which outside actors 
        have useful leverage, with whom, and issues where potential 
        spoilers need to be isolated or neutralized.
  <bullet> Support Team. Iraqi and regional consultations will need a 
        dedicated expert support team to provide guidance on issues 
        ranging from the commercial viability of revenue-sharing 
        arrangements on oil, to international experience on legal and 
        constitutional arrangements. The U.N. will need to organize 
        experts available in real time to support the negotiation 
        process. It will also need to develop public information 
        strategies, using local and regional television and radio, to 
        explain the U.N. role and mitigate attempts at disinformation 
        from al-Qaeda and other potential spoilers.
  <bullet> Brokering an Agreement. Eventually a judgment will need to 
        be made on whether to try for a major meeting to broker an 
        agreement--like the Bonn Agreement for Afghanistan or the 
        Dayton Accords for Bosnia. The meeting must be a carefully 
        orchestrated process of negotiating among an inner circle of 
        key Iraqis while engaging (separately and in a more limited 
        way) a wider contact group of the neighboring states. The U.S. 
        will need to sustain constant bilateral diplomacy throughout 
        this process, coordinating every step of the way with the U.N. 
        Representative. The Bonn Agreement exemplified such 
        coordination, with the U.N. Special Representative Lakhdar 
        Brahimi running the core meetings, and U.S. Special Envoys Jim 
        Dobbins and Zalmay Khalilzad engaging the external actors.

    The desire for a political agreement should not result in accepting 
any settlement. The U.N. Representative, the negotiating team, and key 
partners in the negotiations will need to determine if the commitments 
are genuine, adequate, and sufficiently encompassing of the key players 
to be viable. The initial peace agreement for Darfur in April 2006, for 
example, was stillborn because it did not involve all key rebel 
factions. In 1999, the Ramboulliet negotiations on Kosovo were called 
off because the Serbs would not consider viable compromises on Kosovar 
autonomy.
    Strong coordination is critical between diplomacy and military 
action to control potential spoilers. U.S. forces must continue during 
this period to prevent and respond swiftly to insurgent attacks. The 
Iraqi Government must say publicly and unequivocally that it supports 
the peace process. Similar support must be gained from Sunni, Shia, and 
Kurds for the process, even if they cannot precommit to the outcomes. 
Every step must be taken to isolate insurgents in their opposition to 
seeking a settlement, making it more difficult for them to find shelter 
among Iraqis.
    For Republicans, the hardest point to accept in this strategy is 
this: If Iraqis are given the chance to broker a political settlement 
and reject it, then this eclipses the rationale to keep American troops 
in Iraq. U.S. forces cannot fix Iraq for them. We would need to tell 
Iraqis clearly that if they do not take this opportunity, we will 
withdraw and reposition U.S. forces to control the spillover from Iraq. 
For Democrats the point of discomfort comes with success. If a 
settlement can be reached, then Iraqis will need sustained 
international support in order to implement it. A unbrokered settlement 
increases the prospects to diversify the international military 
presence, but the core military effort would still have to be borne by 
the United States.
    If attempts at a settlement fail, this diplomatic initiative is 
still worth the effort. As argued earlier, Europe, China, Japan, 
Russia, and India all have a stake in stability in the Middle East and 
the gulf. They should have an incentive to invest in regional 
stability. A focused diplomatic effort, led by the U.N., could begin 
the process of reengaging these countries and seeking their support to 
control the spillover of war into the region, as well as to address the 
plight of refugees. Without such an initiative that can change the 
diplomatic dynamics around Iraq, the military costs of containment will 
fall on the United States, as well as the people in the surrounding 
countries who would feel the direct impacts of a return to an 
intensified Iraqi conflict.
                      key issues for the congress
    To date, the debate on Iraq has focused on the role of the U.S. 
military--whether to continue to fight for a decisive outcome or to 
withdraw from a seemingly irresolvable quagmire. Military force must 
factor into any future strategy in Iraq, but America's fixation on the 
military has obscured both attention to, and pressure for, a diplomatic 
process than can help produce a sustainable payoff for the lost lives 
and trillions of dollars that the United States will eventually invest 
in Iraq.
    Congressional hearings next week are a chance to put into central 
focus the need for a diplomatic strategy that can take Iraq toward a 
political settlement. The Bush administration has already signaled that 
it will not shift its strategy in Iraq. That clearly ties the hands of 
the Congress. However, it does not prevent the Congress from sustaining 
pressure for diplomatic action in order to give the next American 
President a chance to take the actions, ignored by this administration, 
to at least create the prospect for a political settlement in Iraq. In 
that spirit, I offer the following 10 questions as a contribution to 
framing the interrelationship between political process and military 
action in Iraq, and the role that the United States and the internal 
community might play.

    1. Can a U.S. military presence in Iraq, of whatever size, produce 
sustainable results without a political settlement?
    2. What are the critical issues that must be addressed together to 
achieve a sustainable political outcome in Iraq? The administration has 
already highlighted federal-regional relations, revenue-sharing, 
minority rights, and the status of militias. What is the best way to 
achieve an understanding across these issues?
    3. Is the Iraqi Government, Parliament, or any Iraqi group or 
political party capable of leading and conducting a political process 
that could produce a political settlement that secures a truce among 
Iraq's competing and warring factions?
    4. What are your expectations for Kirkuk, and how will developments 
there play into the fragile status between Turkey and Kurdish areas?
    5. Will provincial elections in October increase the prospects for 
stability by giving a chance to more credible leaders, or will they 
sharpen political and ethnic competition in the provinces?
    6. What are prospects for and limits of political reconciliation at 
a provincial level as long as there is disarray in national politics? 
How far can the bottom-up process go and how can it be used more 
constructively?
    7. How significantly has Iraqi military capacity expanded? Can 
Iraqi forces substitute for U.S. forces to sustain the relative balance 
among Sunni militias and between Sunni and Shia militias seen since the 
surge?
    8. Can Iraqi police enforce any semblance of a rule of law in Iraq, 
or is order still largely dependent on U.S. or Iraqi military forces?
    9. What are the implications for U.S. military strategy, tactics, 
and force levels taking into account these political factors and the 
status of Iraqi capabilities?
    10. What is the administration's strategy to mobilize a focused 
diplomatic initiative that can put before Iraqis clear options for a 
brokered political settlement?
                               conclusion
    Realities on the ground in Iraq and in American and international 
politics will shift rapidly and affect the nature of what can be done 
in Iraq. American policy has thus far failed in dealing with the 
complex nature of security, political, and economic challenges in Iraq. 
This failure has created new threats: Risks of a wider sectarian 
conflict in the region between Sunni and Shia, an emboldened Iran, a 
network of al-Qaeda franchises operating throughout the Middle East and 
North Africa, U.N.-governed spaces in Iraq that can become bases for 
exporting transnational terrorism, and instability and lack of 
resiliency in international oil markets. These threats are regional and 
global. They call for multilateral engagement that the United Nations 
can lead. Yet there should be no illusions about simple success.
    A political agreement to end the war is not an end point, but a 
milestone on a course to sustainable peace. From there, the complexity 
of implementing the agreement takes hold. It will be a long-term 
proposition. International forces stayed in Bosnia for over a decade, 
they are still in Kosovo, and even in resource-rich countries such as 
Russia and Ukraine that went through massive transitions without wars, 
it took almost a decade to halt their economic declines after the 
collapse of communism. The international community must recognize that 
it will take a decade of sustained peace for Iraq to become stable and 
prosperous.
    That timeframe alone underscores why any single nation, even the 
United States, cannot unilaterally support Iraq onto a path of 
prosperity. The demands on personnel and resources are too great to be 
sustained credibly by one international actor. The strains on our 
military and Foreign Service personnel serving in Iraq demonstrate that 
the current strategy is not sustainable. If the international community 
does not have a role in brokering peace, there will be less incentive 
to contribute seriously to the expensive and time-consuming process of 
building a viable state.
    The United Nations should consider a peace-building role in Iraq 
only if there is a binding political settlement, which is accepted by 
the main sectarian groups in Iraq (with clear indication that militia 
leaders will follow political leaders) and endorsed by Iraq's 
neighbors. Without such an agreement, attempts at peace-building will 
result in unsustainable half measures constrained by violence and will 
not make a meaningful difference to most Iraqis. The U.N. will fare no 
better than the United States. Without a political agreement, the U.N. 
should limit its role in Iraq to humanitarian relief.
    To maximize the next U.S. President's chances to advance a 
political settlement in Iraq, the process needs to begin to explore the 
prospects now. It should be made clear to Iraqis and the international 
community that if the Iraqis will not take advantage of a credible 
multilateral process to reach a political compromise, then American 
troops cannot make a sustainable difference in Iraq and will be 
withdrawn. What should not be forgotten under any circumstance is that 
diplomatic and military strategies must reinforce each other as part of 
a coherent policy. In Iraq, the United States seems to have forgotten 
the meaning of proactive diplomacy to achieve peace.
    The limits of unilateralism also apply to containing the spillover 
from war in Iraq if it is not possible to broker, at this point, a 
political compact among the parties. The United States should encourage 
a U.N. role in diplomacy to get commitments from Iraq's neighbors not 
to fuel the Iraq civil war with money and weapons, and by implication 
exacerbate the foundations for international terrorism. Perhaps other 
nations, not from the Middle East, could contribute troops or observers 
to control the spillover. An even broader lesson is that the disruption 
of diplomatic ties with perceived enemies only hampers our capacity 
when we have no choice but to find common ground. At present the very 
question of a dialogue with Iran has become an issue, when the real 
focus should be on the substance of such a dialogue.
    America's image around the world has reached an all time low. The 
Pew Global Attitude Project Survey Report from June 2006 showed that 
the United States military presence in Iraq is seen by most nations as 
a greater threat to world peace and security than Iran.\4\ The Pew 
Global Attitude Project Survey Report released on June 27, 2007, showed 
that, in nearly all countries surveyed, more people view China's 
influence positively than make the same assessment of U.S. influence.'' 
\5\ World Public Opinion 2007, a report published by the Chicago 
Council on Foreign Affairs and WorldPublicOpinion.org, shows that ``In 
10 out of 15 countries, the most common view is that the United States 
cannot be trusted to `act responsibly in the world.' '' \6\ The United 
Nations cannot solve these problems for the United States. But the next 
American President may well find that engaging seriously in 
multilateral fora, investing in rebuilding the United Nations, 
respecting and abiding by international law, and resorting to 
unilateral action only under imminent threats could restore respect for 
the United States and American leadership. In Iraq, American advocacy 
for U.N. political and humanitarian leadership may not only help the 
United States in Iraq, it may begin to give credence to a reawakening 
of American diplomacy and international engagement.
---------------------------------------------------------------------------
    \4\ ``America's Image Slips, But Allies Share.'' ``U.S. Concerns 
Over Iran, Hamas,'' Pew Global Attitudes Project, Survey Report, 13 
June 2006, p.3. Available: http://pewglobal.org/reports/
display.php?ReportID=252; accessed: 9 August 2007.
    \5\ ``Global Unease With Major World Powers,'' Pew Global Attitudes 
Project, Survey Report, 27 June 2007, p.44. Available: http://
pewglobal.org/reports/display.php?ReportID=256; accessed: 9 August 
2007.
    \6\ ``World Public Opinion 2007,'' the Chicago Council on Global 
Affairs and WorldPublic
Opinion.org, 25 June 2007, p.30. Available: http://
www.thechicagocouncil.org/UserFiles/File/POS%20Topline%20Reports/
WPO_07%20full%20report.pdf; accessed: 9 August 2007.

    Senator Lugar [presiding]. Well, thank you very much.
    The Chairman had to take an emergency call, and asked me to 
conduct my questioning, and then I will yield to him as he 
returns. And he's asked that we have a 10-minute spell for each 
of our members.
    It has been mentioned in these hearings that the United 
States presence will be required for the foreseeable future, 
and clearly we're going to hear, I suspect, from General 
Petraeus and Ambassador Crocker, at least a similar thought. A 
question from yesterday intersects with our thoughts today, was 
over the level of the United States presence, and how it is to 
be sustained over an extended period of time. And the generals, 
in essence, were saying that our Armed Forces are stretched. We 
are in a position in which, in order to fulfill our obligations 
in Afghanistan, and to encourage, as we are doing presently, 
NATO allies to be there, and at the same time to have at least 
the forces that could meet other strategic problems facing the 
United States, we are headed toward fewer troops in Iraq.
    Now, at one point, one of you mentioned ``perhaps 50,000'' 
was an adequate level. Whether that be the number, clearly this 
would raise the question: If there are 150,000-plus now, where 
do you redeploy them from, or how do you disperse, or what 
missions would you assign to the 50,000 who remain? Or what is 
the nature of the U.S. military presence while, as some of you 
have said, a diplomatic process, which is clearly uncertain, 
may or may not work out, may involve the U.N., may involve 
other parties? Perhaps our diplomacy becomes more active and 
successful. But, if you can, address what I suspect is going to 
be an immediate problem for our Armed Forces, and the 
successful continuation of all of our missions--which is: How 
do we do this with fewer people? What would that fewer number 
be in your judgment, and over what period of time? Give us as 
well, some of your thoughts on the expense of this in terms of 
levels of expenditure among the many economic and budgetary 
challenges we will face. And if we're to look at a cost-benefit 
analysis, is it worth it? And why?
    Ambassador Pascual, would you try that out for size? And 
then I'd invite others.
    Ambassador Pascual. Senator, thank you. I'd be pleased to 
begin, especially since I used the figure of 50,000. And let me 
explain the context of that.
    I put that in the context of 2012, with the assumption that 
there is a political agreement that all sides have agreed to. I 
would add that it would be a political agreement that would be 
brokered by the United Nations. And my assumption is that it 
would be an international force, with multicountry--multiple 
countries participating in it.
    That level is certainly not viable today. And the dilemma 
that we face right now is that we have seen that we need a 
significant force presence, and I think it would be hard to 
argue that 160,000 is too many to be able to continue to play 
the role that has been needed to, in fact, begin to sustain the 
reductions in violence throughout the country.
    The problem is that even that number cannot do it for all 
of Iraq. And so, what we end up facing right now is that 
160,000 allowed some progress in the security situation, but 
the argument that I was seeking to make is that it's an 
unsustainable progress, and that what we need to refocus 
attention on is not just the troop levels, but, in fact, the 
political process that makes any level of troops, whether that 
be 100,000 or 150,000, in fact, a viable and sustainable one.
    The difficult part of this process is that, for, I think, 
many Republicans, if we engage in Iraq in a political--provide 
for the Iraqis a chance to engage in a brokered political 
process, and the Iraqis say ``No,'' and do not take that 
option, then the rationale for sustaining a U.S. force presence 
is, I think, eclipsed. The flip side of the equation, which is 
difficult for many Democrats, is that if, in fact, there is a 
brokered political process and the Iraqis say ``Yes, we are 
willing to buy into this,'' it's going to mean a sustained 
international presence for a period of time, and the United 
States is going to have to play into that.
    And so, I think that right now what we find ourselves at is 
a juncture point, that we have 150,000 or so troops there, the 
President has indicated he's going to sustain that throughout 
the rest of his term, for the most part, and can something be 
done over the next 6 months that puts in place a prospect for 
the next President of the United States to actually create 
something which is sustainable. And I would argue that the 
focus to make that sustainable should be not so much on the 
security side or the military side, but, right now, really has 
to come on the political side, because that's the part that we 
have not been able to give enough of an impetus.
    Senator Lugar. What evidence is there that other countries 
want to participate in this international aspect? Most of our 
allies have indicated that they've rejected our idea of going 
into Iraq, to begin with, are not about to be drawn back into 
this. You've mentioned the neighbors. Perhaps. But, what gives 
you any confidence that some type of international group is 
going to wrestle with this?
    Ambassador Pascual. I think one of the critical factors 
is--and this is one of the important reasons to try to approach 
this brokered settlement through the United Nations--in the 
past months, we've had discussions with a number of European 
friends, and we have engaged them in this very question, 
because we've said, ``You have as much of a stake here in 
stability as we do, and you have as much of a concern about 
international energy prices as we do, and so, you should be 
willing to invest in this stability.'' And what many have 
indicated is that they need something that shows that there has 
been a change in the dynamic of the political process. And that 
is, in part, what a brokered political process can actually do. 
It can at least begin to send the signal that it is not 
business as usual, with the United States dominating the scene, 
but that we are, in fact, trying to encourage a multilateral 
process that can bring in other countries to make investments. 
Some of those might be in the form of troops, some of them 
might actually be in form of money.
    It will not be simple. It does not play well in the 
politics of Europe or in the politics of Asia. Yet, at the same 
time, many recognize that we have to get beyond where we are 
today, and the combination of a U.N.-brokered process and the 
incumbency of a new President of the United States who will be 
given some degree of leeway, actually makes--gives us an 
opportunity to turn the corner and to try something new.
    Senator Lugar. Professor O'Leary, do you have any comment 
about the situation?
    Professor O'Leary. Yes, if we're starting from 2008, I 
think we have to revisit the oil law. And remember that there 
was a draft--the Kurds and the Shia had come to an agreement--
there was a draft. I've seen the draft. Things happened. 
Personalities got involved. And so, we have to bring them back 
to that draft, because having a viable oil law, I think, can 
set the stage, along with moving forward on federalism, for the 
political parties to be able to control their areas.
    The militias are a reality. I think we have to accept them, 
for the time being. And from my point of view, although I have 
no military expertise, we will be drawing down troops, and we 
simply have to deal with Iraq as it is, and push them forward, 
particularly on the oil law.
    Senator Lugar. Dr. Kelly, do you have a thought?
    Dr. Kelly. I would not hazard a guess on what troop levels 
are needed, because I don't think the analysis has been done, 
based on what U.S. interests are. And I think, Senator Lugar, 
the interests that I have in my written testimony are very 
close to what you have in your opening statement.
    But, I would observe that the need for security forces is 
to address the dysfunctionality of Iraqi political and social 
structures. And until those are fixed, no amount of security 
forces is going to fix the situation in Iraq. So, that raises 
the question of whether or not we need 150,000 United States 
troops there, or do we need some other combinations of ways to 
influence both Iraqi society and Iraqi political leaders.
    I would also point out that there's two tiers of players 
here. There's the local, or maybe provincial, players, who 
we've dealt with to get the violence down. There's also 
national-level leaders who control the big levels of violence, 
and there are a discrete number of people there; we know who 
they are. I think we can provide them carrots and sticks to 
change their behaviors if we go about it in a logical way.
    Senator Lugar. Dr. Gause.
    Dr. Gause. I've never worn the uniform and don't know much 
about the military, but it does seem to me that, in the 
inevitable circumstance of the drawdown of our forces, whether 
it's total withdrawal or just a reduction to a sustainable 
level, we should be concentrating on our enemy, which is al-
Qaeda in Iraq. And that means supporting the Sunni turns that 
we've seen in the last 18 months, making sure that those areas 
in the west, the northwest, and in Baghdad do not become safe 
areas for al-Qaeda to operate. And I don't think that we should 
be picking sides in inter-Shia fighting, as we've done in the 
last few days, because we don't have the resources to 
materially affect--to have one side actually beat the other, 
which might actually lead to some progress. If we can't do 
that, then we should stay out of that kind of fighting.
    Senator Lugar. How about the charges that, by arming the 
Sunnis, that we are setting up a civil war in which they're 
better prepared to fight the Shiites?
    Dr. Gause. It's entirely possible. But, given that, it 
seems to me, our major enemy in Iraq is al-Qaeda in Iraq and 
preventing Iraq from becoming a base for al-Qaeda operations, 
the turn in Sunni politics is something that's been positive 
for us, and should be supported. There's also the ancillary 
benefit that, when we eventually do withdraw, the fact that the 
Sunni militias are armed up in a better way, while it might 
lead to some fighting, would reduce the chances of a complete 
victory for one side over another that could actually lead to 
enormous civilian casualties. I don't say that there won't be 
fighting, but there might be a balance of forces, which would 
allow a better negotiated outcome.
    Senator Lugar. Mr. Chairman, I've run through my time. I 
yield back to you.
    The Chairman [presiding]. Well, thank you very much.
    And let me say to my two colleagues, even if other Senators 
come in, you'll be recognized next, because of the 10 minutes 
we're using here, and because of your incredibly patience the 
last couple of days. So--although that's not a formal new rule, 
I say to my friend from Florida. But, I--I'd like, first of 
all, thank you all. The testimony--you've responded exactly 
what we asked, and it's impressive, and I thank you very much.
    What I'm going to do, if I may, in the few minutes I have, 
is ask each of you a specific question, and then--rather than 
have you all comment on each of the questions I ask, to try to 
get through some elements of what you said.
    Let me start where you ended. Mr. Ambassador, I'm very 
impressed with your testimony, and I'd like to pursue the U.N. 
piece a little bit. I, for one, happen to think you're right, 
that you--I don't know that an attempt at coming up with a 
consensus is likely, but I know, absent trying, there's no good 
likely outcome. And the downside is not nearly as down as the 
upside, if we make any progress.
    And I want to state, for the record, as one Democrat who 
tried to become a nominee, that I've said, throughout the 
process--and I've not changed my view--that I am one Democrat 
who would support--in the dilemma you outlined, support 
American forces remaining in Iraq if, in fact, it was in the 
context of a political settlement.
    And the third point I'd like to make, leading to this 
question, is that I have believed all along--and I--realizing 
it is--it's a--just a best guess--that, in the context of a 
political settlement, and the threat of us physically getting 
out because of the political pressure here, it would have a 
significant impact on our European and Asian allies to consider 
participating in a--with a security force--much smaller, 
probably constrained, in terms of responsibilities. But, in 
that context--and I can make an analogy, broadly, to Bosnia--I 
think, in the context of people not being killed in large 
numbers, people would be much more prepared to sit on top of an 
internationally condoned, an internationally accepted, and 
regionally accepted, and locally noninflammatory settlement 
that will have, still, trouble, but, in that context, people 
participate.
    The question, for me, is a practical one, as it is, I know, 
for you and everyone else--How do you get there? My view is 
that--and I hope I'm wrong, but my view is that we don't have a 
lot of credibility, the United States of America, right now, in 
the region or with our Asian and/or our European friends. And 
so, some months ago I went to see the Permanent Five 
ambassadors. They all expressly said, at that time--I haven't 
spoken to them since pre-Christmas--at that time, they would be 
prepared to participate--their countries, they believe, were 
prepared to participate, under the auspices of the Security 
Council. And the Secretary General implied to me that he would 
be prepared to have the U.N. be the broker, here.
    So, the question I have, though, is--you talk about a 
specialized team--is it more likely that that specialized team 
could materialize under a broader umbrella of it being sought 
through, and by, the Security Council, or at least the 
Permanent Five in the Security Council, or is that an 
unnecessarily step? Do we have enough on our own, enough juice 
on our own, to get this done? To get it begun, let me put it 
that way.
    Ambassador Pascual. Mr. Chairman, I think, first of all, 
one important measure is that the last U.N. Security Council 
resolution on Iraq for the mandate, 1770, actually provides the 
necessary authority to actually do something like this, so I 
don't think it actually requires further Security Council 
action.
    One of the things that is critical----
    The Chairman. But, I don't think--I know it does not 
legally require----
    Ambassador Pascual. Right.
    The Chairman [continuing]. More action. But, this 
administration has made it clear it does not want the United 
Nations----
    Ambassador Pascual. Right.
    The Chairman [continuing]. Determining what the next 
stage--I'm going to use layman's terms--the next stage of U.S. 
involvement is, relatively. That's why they're bilaterally 
negotiating this, quote, ``agreement,'' whatever it is--
whatever form it's going to take. They could easily do it 
through the United Nations----
    Ambassador Pascual. Right.
    The Chairman [continuing]. Under the existing resolution. 
So, I--you understand?
    Ambassador Pascual. Yes, I think----
    The Chairman. It's very important.
    Ambassador Pascual. Absolutely. I think you're exactly 
right. And that is exactly the next point to come to, which is 
that this goes absolutely nowhere unless the United States is 
absolutely unequivocal, at the highest levels, that it's 
willing to engage and cooperate with such a process, and, 
ideally, would identify and name an individual that would work 
with a United Nations team.
    Originally, when I had written on some of these issues, I 
proposed that it should be a senior international official. I 
had, in some cases, used somebody like Minister Bernard Kushner 
as an example of the kind of individual who----
    The Chairman. Who took another job.
    Ambassador Pascual. He has another job. [Laughter.]
    He might take a leave of absence. [Laughter.]
    But, in fact, what we've actually seen on the ground is, 
Stefan de Mistura has actually done a tremendously impressive 
job----
    The Chairman. I agree.
    Ambassador Pascual [continuing]. And has gained the respect 
of many people all across the board. And if the United States 
were willing to come to the U.N. and basically say to the 
Secretary General that, ``We want to engage in this process, 
that we are committed to coordinating with you, that we want 
you to take this lead, that we will also coordinate on the 
security side, and that we want you to come to us with a 
proposal on how you would structure a team,'' my sense is that 
the other P-5 would be supportive of that, you know, if we----
    The Chairman. That's my sense, as well. The thing that 
startles me, I say to my colleagues, is, I don't know why it's 
not in the political interests of the administration to do 
this. Why not let somebody else help take ownership of this? It 
boggles my mind. But, that's a different issue.
    Let me move to you, Doctor, if I may--Dr. Gause. First of 
all, there's a second strike you have against you. Puneet 
Talwar, of my staff, was one of your students. You really 
messed him up. [Laughter.]
    And that's an attempt at humor.
    But, let me--there's so much you said that I agree with, 
but let me focus on one piece of what you said. And that is 
that the regional consequences of withdrawal are exaggerated. 
I've come to personally adopt that position. I did not believe 
that, 2 years ago, although, obviously, the caveat is, God only 
knows, anything could happen, and there are a lot of unintended 
consequences from actions. But, toward that end, if you--if 
you're going to also do a little bit of failsafe here--should 
we be doing more now through the International Community and 
us, as well--in dealing with and discussing with the nations 
which are, unfortunately, the beneficiaries of over 2 million 
refugees, helping accommodate their--the cost that they're 
incurring and the impact on the--potential impact on their 
domestic stability? And what would you do toward that end now, 
if you would?
    Dr. Gause. I think the most important thing you can do on 
the refugee issue, for Jordan, is money. The Jordanians are 
overburdened, their school system is overburdened. Throwing 
money at problems doesn't always solve them, but it's certainly 
a first step toward solving them.
    On the Syrian issue, we have conflicting interests, here. 
We're not particularly friendly to the Syrian Government, and 
the Syrian Government hasn't been particularly friendly to us 
recently, but they are the recipient of the vast bulk of the 
refugees who have left Iraq, not counting the displaced persons 
within Iraq.
    And I do think that we have an interest in regional 
stability, more generally, and thus, in not seeing a Syria so 
destabilized by the 800,000 refugees that it's taken in that 
there's a political upheaval there. And thus, we might have to 
hold our nose a bit, but I do think that it's worth, maybe, 
throwing a little money at the Syrians, through U.N. 
mechanisms, so it doesn't go directly to the Syrian 
Government----
    The Chairman. Thank you. My time is running out. Let me--
and I'm going to come back, if others don't stay, to ask a few 
more questions.
    But, again, I'm not being solicitous, Dr. Kelly, I was 
really impressed with your testimony. I'd like to ask you to--
and I, unfortunately, have not read it, so you may have already 
answered this in your written statement--about some of the 
specific mechanisms you're talking about, that you reference in 
here. But, let me go to one specific point you made that I 
think is really an important point, and if you could elaborate 
on it a moment, and that is that ``We may not want Iraq as a 
formal ally.'' Would you elaborate on that?
    Dr. Kelly. Yes, Senator. I think the logic for what we do 
and the resources we expend needs to start with our core 
interests. And so, having Iraq as an ally may or may not 
provide any extra benefit toward those interests. So, if Iraq 
is capable of securing its own borders and it's capable of 
maintaining decent security forces that can keep international 
terrorism--and, by the way, I do agree that the prospects of 
regional instability are less now than they were a year ago--if 
Iraq is able to do that, then the question has to be asked, 
What benefit is to be gained from having Iraq as a formal ally?
    The Chairman. I agree with you. Look, one of the things 
that I think I've come to--again, not that it matters to 
anyone--but, one of the conclusions I came to is, here we have 
some very, very, very bright people in this administration, 
and--who are--some are no longer there, some are still there--
who had to understand some of the consequences that the Senator 
and I and this committee--and the committee--had pointed out 
we're likely to face. But, I can't believe they didn't 
understand it. I can't believe that they thought things were 
going well, for the 4 years that they talked about how well 
they were going. And the conclusion I came to is, I think they 
had a--at least two of the major players have a very 
Machiavellian view, and it would be great if it could have 
worked. One is, we'd be able to install a government that was 
beholden to us, which would not allow us to own the oil, but 
have leverage over it, in OPEC environment. And, two, we'd have 
a permanent base in Iraq to thwart Iranian ambitions.
    Which leads me to the issue of--now I don't quite 
understand, quite frankly, the administration's desire--strong 
desire to do something other than--other than have a Status of 
Forces Agreement--which is necessary--and go back to the U.N., 
under the existing authority.
    So, it seems to me--I acknowledge the cynic in me--I think 
there is still a larger motive as to what they view to be our 
national interest as it relates to Iraq. To me--I've been 
saying it for 6 years--the best that could possibly happen is 
have a stable Iraq, not threatened by its neighbors, not a 
threat to its neighbors, not a haven for terror, that basically 
functions and is not a--does not operate a repressive regime. 
That--you give me that now, I take it, ``Lord, you--, I got it, 
sign me up.'' And I don't need to be the ally of that country--
a formal ally of that country. I don't want to be the enemy. 
I'd cooperate with it. So, that's why I raised the question.
    And one of the things that, Dr. O'Leary, that I really am 
taken by--mainly because I think it makes sense--the idea of us 
using our--I mean, the biggest problem I find, whether I'm in--
and this has been the case for 6 years, in the many times I've 
been to Iraq or Afghanistan--is the practical incapacity to 
turn on the street lights, have the water function, spray for 
that varmint that eliminates the date palm tree, actually have 
somebody who knows how to run something: Bureaucrats. As one 
three-star general said to me--General Chiarelli; he was three-
star at the time--he said, ``Senator, next time I hear anybody 
criticize a bureaucrat, I'm going to shoot them.'' I'm 
paraphrasing. He said, ``God, give me some bureaucrats to 
actually figure out how to make a department function.'' And we 
even went to the point, as you remember, when the Brits 
proposed the idea of----
    Professor O'Leary. Yes.
    The Chairman [continuing]. ``Adopt an agency,'' you know, 
and--whether that would or would not have worked, I don't know.
    But, I'm over my time, so I'll quickly get to this. With 
regard to the oil law, it seems to me, in my discussions with 
the CEOs and/or representatives of the major multinational oil 
companies--and they're all multinational--as well as with Mr. 
Yergin, of Cambridge Institute, whatever it is called--is 
that--I don't understand it. I suggested to the President, 4 
years ago, that maybe he get together with some of these key 
oil powers to invite the major informed representatives of the 
Shia, Sunni, and Kurds, who understand the oil situation in 
Iraq, to Switzerland, or some neutral spot, and to lay out for 
them, and literally chart it, how much better off the Kurds 
would be if they gave up 10 percent of their oil, how much 
better off the Shia would be. Now there's no major, major 
investment taking place; not likely to be, unless there's a 
unified oil law, according to all the major oil interests--
major companies in the world. And right now, to--figuratively 
speaking, they're getting--each getting 50 percent of $10 
instead of 40 percent of $100. It seems to me, literally, part 
of this is an education process. Not us going in and 
instructing, but us doing what you talked about, and that is to 
actually run workshops on federalism, run workshops on oil, you 
know, development. Is that the context in which you're talking 
about these workshops? I mean, it's kind of block-and-tackle 
stuff, but----
    Professor O'Leary. It is block-and-tackle, but that's 
exactly what we need. And from one person's perspective of 5 
years' duration, it can work, and it does work. It may not, you 
know, have the resonance of, perhaps, some broader plan, but it 
works, it's ``getting down and dirty.'' I think the idea of 
bringing the key oil brokers--Kurdish, Sunni, and Shia--
together with oil experts is a very good idea, because now the 
impasse has hardened, and, I think, personally, as someone who 
focuses on culture, that the--when they were so close, at the 
draft level, and then it broke apart, it was old fears and----
    The Chairman. Gotcha.
    Professor O'Leary [continuing]. Notions of each other--self 
and others----
    The Chairman. Well, I'm going to get back to this, but I've 
really trespassed on the time of my colleagues, and I believe 
Senator Isakson is next.
    And, Doctor, I have--if you're patient enough to wait, 
after we get a second round, I have three or four questions for 
you, if I may.
    John.
    Senator Isakson. Thank you, Mr. Chairman.
    Let me ask Dr. Kelly. You said, ``To make gains here, we 
must change the political calculations of Iraq's major 
players.'' What exact political calculations are they currently 
operating under that we must change?
    Dr. Kelly. I think it's, perhaps, useful to talk about who 
these people are, and where they're coming from, and where they 
think they're going to, and then maybe----
    Senator Isakson. Please do.
    Dr. Kelly. Most of these political parties were resistant 
groups of one sort or another. The older ones were in Tehran or 
Damascus or London. The newer ones that have formed up since 
the violence started were mostly against the coalition and 
against the Iraqi Government. So, the way that they approach 
problems is a very confrontational one. It's not just 
ambitions, it's their calculations of political and personal 
survival that are critical here. And those are very important 
facts, and they drive people to make certain judgments and 
decisions.
    I think, also, that most of the Iraqi political parties 
have maximal visions of what they can achieve. In other words, 
they believe that they can achieve all of their goals, and 
prevent the other people from achieving their goals.
    And so, I think what's critically necessary is to make 
clear to them that--and this is all within the context of U.S. 
vital interests that we're agnostic to what their individual 
political and personal goals are, as long as they don't violate 
our interests in Iraq. And I think that in order to make that 
argument, the penalties and benefits of being with the United 
States or against the United States need to be made clear. 
We've made those rhetorically clear, but we've not used as 
strong measures as we could, in the past.
    Well, let me leave it at that, Senator.
    Senator Isakson. So the way we change it is, make it clear 
to these individuals that there are risks to them not being 
supportive. Is that what you mean?
    Dr. Kelly. What I'm saying is, if they violate key U.S. 
interests, they need to know that there's a penalty. And if 
they support key U.S. interests, they need to know that there's 
a benefit to doing that.
    Senator Isakson. OK. Give me, just conceptually, what the 
penalty is and what the benefit is.
    Dr. Kelly. I'd prefer not to be too specific on that in 
open session.
    Senator Isakson. OK. Well, then, let me just follow up.
    Mr. Chairman, I've listened for 2 days, and I find myself 
at an interesting point. I think a lot of us are at this point 
where we're not focusing on the immediacy that's ahead of us. 
Everybody's worrying about whether we've won or lost something.
    I was thinking, as I was listening to them talk, if, 
backing away from politics for a second, and trying to be as 
objective as I can, we went in, under the authorization of U.N. 
Resolution 1441, if I remember, and that was the U.N. 
resolution which the whole world thought--and the intent of the 
resolution was to find weapons of mass destruction. And 
everybody--Republicans, Democrats, our friends, our enemies--
had some bad intelligence. Although we found the remnants and 
pieces; we didn't find the weapon.
    The President declared two other goals when we went in. One 
was to allow the Iraqis to hold free elections, and, second, 
for the body they created to write a constitution.
    So, although we may have made some mistakes here and there, 
we have actually accomplished the goals the President laid 
out--one, the U.N. authorization; second, the latter two--and 
it seems like now we need to establish a goal for the stage we 
are at. I think--I forgot what the general said, yesterday. I 
think he called it a ``gathering place.'' Is that what he 
called it? We're at a----
    The Chairman. Culminating place.
    Senator Isakson [continuing]. Culminate--we're at a 
``culminating place.'' And it seems to me like everybody's 
talking around what the place ought to be. I mean, with all due 
respect, Dr. Kelly--and I understand why you said it--but, when 
you said, ``I'd rather not get into the details in this 
forum,'' we need to start getting into the details of what this 
political calculation or political goal needs to be, and how it 
needs to be stated as the next point of achievement. I guess 
that's what I get to.
    Everybody up here, with the exception of Dr. Gause, has 
said, ``Look, there's going to have to be American troops there 
for a while.'' We're talking in the context of 2012. And even 
Dr. Gause said--he used the word ``might,'' not ``certain,'' in 
terms of what the future will bring--none of us know what the 
future's going to be. But, it seems like to me we--the United 
States Government, the President, and the Congress--need to 
decide if we are at the--what was it called? I know it wasn't 
``gathering place,'' it was called what?
    The Chairman. Culminating place.
    Senator Isakson. If we're at a culminating place--what is 
the next step? I mean, because we really accomplished the last 
three, and can claim success, although we had some problems 
along the way. And it needs--I hear you all saying we basically 
need to have some political resolution in Iraq. I know we don't 
want to tell them, necessarily, what the resolution is. And I 
understand why we can't talk, sometimes, about certain things 
in open forum. But, if we don't ever describe--and I'm talking 
too much, and I asked a question. I apologize. But, if we don't 
ever describe what ``it'' is, you know, then we're never going 
to get to that next step.
    So, I'm looking for some input from you all on what you 
would say that next step needs to be, if we are truly at that 
point.
    We'll just start at that end, with the ladies, and work 
down.
    Professor O'Leary. Thank you.
    I think the next step is very clear. The next step is to 
focus on the oil law, get that resolved and passed, and then to 
move toward an open discussion of federalism in which the 
majority Arab body politic--Sunni and Shia, tribal and not--
can, in a sense, visit this issue anew, through the support of 
American and international experts convening meetings and 
workshops. Those, for me, are the next two key steps, because I 
believe the outcome we're moving to is a stable Iraq though a 
federal system of governance.
    Senator Isakson. Yes, ma'am. Thank you.
    Dr. Brancati. I agree. Once violence on the ground has been 
stabilized, the next step is then to look toward a political 
settlement. I also believe that we should bring in experts from 
the United States, as well as abroad, on federalism, to discuss 
how this political settlement should be, in practice. But, I 
also want to encourage it to look very specifically at the 
details of the federal system, rather than where the discussion 
lies right now, which is very general.
    Senator Isakson. Ambassador.
    Ambassador Pascual. I would underscore the importance of 
moving toward a political process, that that has to be the next 
step that brings together the parties, moving toward a 
political settlement, with the U.N. at the center of it. And I 
think, from the discussion on this panel, even though there 
have been disagreements on some points, the things that have 
been emphasized have been federal-regional relations, the 
sharing of oil revenues, an understanding of what to do with 
militias, dealing with minority rights, dealing with political 
inclusion, and dealing with Kirkuk. Those are the fundamental 
questions around which a deal has to be struck, and that's 
where we need to focus attention.
    Dr. Gause. But, that deal can only be struck if we get new 
leadership in Baghdad and we rearrange--we can't do it--if 
Iraqis rearrange the power relations at the center. I think 
that entails two things: Provincial elections, which very 
possibly will generate new leadership, both in the Sunni 
community--we have Sunni leaders in Baghdad who cannot commit 
and who cannot bring their constituents along--we need new 
Sunni Arab leadership through provincial elections; and 
national elections, which I think should be accelerated, to be 
able to commit their side, to consolidate the security gains, 
politically.
    On the Shia side, we actually need the opposite. We need 
elections, but to divide what was a dysfunctional electoral 
coalition, the Unified Iraqi Alliance. Right now, elements of 
that alliance are fighting each other on the street. We need to 
get those elements of that alliance to test their real strength 
through elections at the provincial and, I would say, at the 
national, level, and then hope that new political alliances 
that cut across that sectarian divide can come to new 
understandings on federalism and on oil laws, because we're 
stuck, with the current configuration of power in Baghdad, on 
those important things.
    Dr. Kelly. I'd like to make three quick points.
    The first is that this is a much longer challenge than 
2012. And while I agree that a political agreement is necessary 
for any kind of progress, I think that the prerequisites are 
not in place right now to reach a political agreement. In fact, 
we don't know, particularly on the Sunni side of the equation, 
who the valid representatives of that portion of the Iraqi 
polity is. So, I think, establishing the conditions for a 
political agreement is the short-term steps.
    I would like to just say one thing on the oil law. The oil 
law is fundamentally a political issue that's tied up with 
Kurdish independence or quasi-independence, it's not an 
economic issue. So, while economic education on the cost and 
benefits of an oil law may be important, it's the overriding 
political issue which is driving the Kurdish perspectives on 
that.
    And last, as a retired Army officer, I'd like to translate 
the Army term ``culminating point'' into the English language. 
That's not the point where you achieve your goals, rather 
that's the point where your resources are exhausted, and 
usually is reached before you achieve your goals. So, if that 
general was talking about a ``culminating point,'' he's not 
talking about a place where everybody comes together, but a 
point where we can no longer continue on toward our objectives.
    Senator Isakson. OK. Well, I'll just take an extra minute 
on that. I understood that. I mean, all of the generals--and I 
think everybody recognizes--one of them said, ``Our troop 
levels are dictating our strategy, rather than our strategy 
dictating our troop levels.'' And that's because we are at a 
point of maximum deployment. And I guess what we really need is 
a catalytic agent to force people to come--I guess the sense I 
get from what I've heard a lot of you all say, and heard 
yesterday, is that the calculations by the Iraqis are, 
``Everything's going to stay the same for a while, so nobody's 
doing anything.'' And--that's simple English--and if we had a 
catalyst, which might be a new face appointed to go to the 
region to start talking, it would seem to me like if you 
brought somebody out of retirement who was well respected, and 
their authority was to go start bringing back a political 
settlement, all of a sudden these parties, who right now are 
accepting the status quo, might say, ``Hey, I need to sit down 
and talk, or the train might leave the station.'' And, second, 
there, maybe needs to be a definitive requirement of the Iraqi 
Government to give them a chance to succeed or fail. And the 
oil law probably is that most likely requirement.
    And my last point, I think a lot of these political 
divisions or power-sharing arrangements--once these provincial 
elections take place, a lot of people are going to have to show 
their hand, and that's when Maliki and everybody else are going 
to have to show their colors.
    So, I've talked too much, but I'm looking for that 
catalyst. Instead of declaring victory or defeat, I think we 
can declare success that we've come to a point where we now 
need to determine how we culminate this thing. And it's going 
to take a catalytic agent to force the political parties and 
factors to come together and talk.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator.
    Senator Bill Nelson. Those same generals, yesterday, 
basically have a different cut than any of you do about what's 
going to happen. They said that you can't sustain a war without 
the support of the American people; and therefore, we're going 
to withdraw; and, when we withdraw, another dictator is going 
to take over. He--one of the generals, General McCaffrey or 
General Odom, I can't remember which, said that it's--he posed 
that it would mean----
    The Chairman. It was McCaffrey.
    Senator Bill Nelson [continuing]. The rise of a new face, 
perhaps a major general.
    Now, these are two completely different points of view. 
What do you all think about what they said? And that's my only 
question.
    The Chairman. Well, Senator, if you can solve the Florida 
primary situation, you can handle this. [Laughter.]
    We're----
    Senator Bill Nelson. I'm working on it.
    The Chairman. We're looking to you to move to settle Iraq 
after you settle Florida.
    Senator Bill Nelson. I'm working on it.
    The Chairman. I know you are.
    Sir--go ahead, Doctor.
    Dr. Kelly. Senator, I would agree that the current 
commitment is not sustainable. And I think that was a key point 
I tried to make in my written testimony. And that is why it's 
critical that we define what it is the United States needs to 
do, rather than what we would like to do for the Iraqis, and 
have a commitment that's sustainable over the long term. 
Otherwise, there is likely to be an unfortunate outcome.
    And what that future for Iraq looks like may or may not 
include a democratic country. Whether that is one of our goals 
is a decision that will have to be made, based on analysis of 
what United States key vital interests are in Iraq.
    Senator Bill Nelson. Well, you all are talking about all 
this democracy and balancing all these interests. You're 
talking about what the chairman has proposed for some period of 
time, which is a kind of federalist system. And these generals 
are up there and telling us this is all for naught.
    Professor O'Leary. To the general, with all respect, I 
would suggest that the devil is in the details of who the Iraqi 
general would be. And I have conducted interviews and 
conversations with former high-ranking Iraqi officers, in 
Jordan, and, at a minimum, let me say, the Kurdish issue is off 
the table, they accept the Kurdistan Regional Government, as it 
exists today. They wouldn't go to war with Kurdistan, which is 
not to say they would accept Kirkuk being annexed by the 
current Kurdistan Regional Government.
    I think that a change in government in that direction 
depends very much on the motives of the military person. And if 
it were a tribal Arab Shia military--returned retired military 
officer who had made his bones, so to speak, in the Iran-Iraq 
war, I think that could be a rather, actually, unifying cross-
sect phenomenon.
    Senator Bill Nelson. What do you think, Ambassador?
    Ambassador Pascual. I think one of the lessons that we've 
learned from the history of conflict is that you end conflicts 
through, eventually, some form of political agreement. Iraq is 
a--for the most part, in a failed state. It's been at war with 
itself. The expectation that it's simply going to fix itself 
through the passage of laws that somehow rectify the situation 
and go through--and that it goes through a normal political 
process to rectify its wounds, I think, is unlikely. It's 
almost an ahistorical experience. But, it does raise the 
question of, How do you, in fact, actually get to an agreement? 
And what we have understood over time, whether that's been in 
South Africa or Mozambique or Northern Ireland or in Bosnia or 
in Kosovo, is that it usually is necessary for some external 
actor to play a mediating role. You find exactly the same thing 
in labor negotiations in the United States. It shouldn't be 
surprising that you would--one would need it elsewhere.
    And so, I think that if that is the case, the question is, 
Can we, in fact, spark it? And can we get some form of a 
brokered deal across this range of issues to, in effect, have a 
truce for a period of 4 to 5 years that then allow the Iraqis 
themselves to regroup and come together and make some of the 
bigger decisions about the future in--of the country, and a 
little more of a normalized situation that--they have right 
now?
    Dr. Gause. About a year and a half ago, I participated in a 
scenario-building exercise in Iraq, at New York University, and 
that's exactly the scenario we came out with as most likely. We 
called this person the ``national unity dictator.'' We assumed 
that he'd have a Sunni father and a Shia mother, and, 
hopefully, Kurdish grandparents somewhere in the background.
    It does seem to me that when we go, whenever we go, this is 
a very plausible outcome. The things that work against that, 
though, in my view, Senator, are--Are you going to have an 
Iraqi Army by then that's not simply a representation of one 
particular sectarian party, the Islamic Supreme Council of 
Iraq? Are you going to have the reintegration of some of the 
old officer corps?--to the extent that you would have some kind 
of cross-sectarian Arab understanding that this was a national 
army and not a sectarian militia in army uniforms. I know that 
we've been working hard to do up an army like that. I don't 
know how far we'll get.
    The other thing is that a number of these militias are 
pretty well armed now; some of them, by us. And to the extent 
that these militias can take on the army in their own 
particular areas, then it decreases the likelihood that any 
general would say, ``Yeah, this is a job that I would want.''
    But, I do think that, given the dysfunction in Iraqi 
politics right now, if we don't see any change through 
catalytic events, as Senator Isakson said, that, when we go and 
we're no longer protecting the Iraqi Government in the Green 
Zone, I think that that's a very plausible outcome.
    Dr. Kelly. One more comment, if I could, Senator.
    Democracy in Iraq is actually a misnomer. Going to the 
ballot box and putting a piece of paper in a box does not a 
democracy make. It requires a set of laws that people 
understand and more or less follow, which is absolutely absent 
in Iraq. Perhaps the largest single challenge in Iraq is the 
total absence of the rule of law for anyone with any political 
power.
    Senator Bill Nelson. Well, given what you've just said, is 
it possible that you'd have a dictator impose, on top of a--
what do you call it? The federal system, where you've----
    The Chairman. Federalism----
    Senator Bill Nelson [continuing]. Where you've got a 
tripartite----
    The Chairman [continuing]. Or a confederation. No, it's not 
a tripartite----
    Senator Bill Nelson. Confederation.
    The Chairman. Well, I mean, you--it's a federal system, but 
I think that Dr. Kelly--I don't think it's inconsistent--he's 
talking about, it's more like a confederation than it is--more 
like our Articles of Confederation than it was like----
    Senator Bill Nelson. Can you----
    The Chairman [continuing]. Our present legal system.
    Senator Bill Nelson [continuing]. Have that with a dictator 
on top of it? No?
    Dr. Gause. I don't think you can, because that dictator 
would want to have a unitary Iraqi Government, at least in the 
Arab sectors. I mean, I agree with Professor O'Leary, that, I 
think, for the time being, almost every Arab in Iraq basically 
says there's nothing they can do about the autonomy of the 
Kurdish Regional Government area. If they do try to get Kirkuk, 
then there could be fighting. But, I don't think that an army 
officer would say, ``Yeah, I want to be President of Iraq, but 
I want the real power to be held by people out in the 
provinces.''
    Senator Bill Nelson. So, my question, then, would come to 
you, Mr. Chairman. How do we get your system of a federal 
system to work?
    The Chairman. You missed that chance. I'm not going to be 
the nominee. [Laughter.]
    No, I'm--that was an attempt at humor again. I'll be happy 
to discuss that. But, the bottom line is, I think, my 
understanding--and this is more of a conversation--is--I say to 
my colleague--is that the--I understood the generals to say 
that, at this point we've reached--as Dr. Kelly talks about 
it--which just essentially means the strategy that we've been 
running has run its string. We're at--as Yogi Berra said--we're 
at the fork in the road, and we've got to take it. So, what's 
next? What happens here, at this point? And my understanding 
from the generals was, if there was a consensus, that the most 
likely outcome, absent a strategy for a political 
accommodation, a political consensus, a political compromise, a 
political power-sharing arrangement--absent that, the country 
devolves into chaos, the chaos that we leave, in essence, and 
it is resolved by the emergence of a military strongman. That's 
what I thought they were saying.
    And, since they did not speak to the political solution--
they were not asked to--we did not have much discussion of what 
everyone here has said--and I think that it is stated most 
succinctly by the Ambassador--which is that it is--and I could 
find the exact statement, but it is not certain that a 
political compromise or a political accommodation or a 
political power-sharing is possible, but it is necessary to 
try. And it is the only real hope to not get to where the 
generals are saying we're going not to get. Or, another way 
people would say it is, it may not be a general, it may be an 
all-out civil war, it may be chaos, it may be a lot of things.
    But, I think the way the general, yesterday, were talking 
about it, Bill, was in the context of, if there is no political 
accommodation made, we are not going to be able to sustain 
American forces at the level they are, and there is no 
political will. Several used the phrase ``it's over,'' meaning 
the military side of this is over. That's how I read what the 
generals were saying.
    Senator Bill Nelson. Well, I hope you're right, Mr. 
Chairman.
    The Chairman. So----
    Senator Bill Nelson. I read it the other way----
    The Chairman. Yeah.
    Senator Bill Nelson [continuing]. That they would certainly 
like the political accommodation, but they didn't think that 
was going to happen.
    The Chairman. Oh, I think that's true. I think they think 
it's not likely to happen. And I don't think anybody here is 
willing to bet their career that it will happen. But, I think 
what we heard today is--everyone said, in one form or another--
it is important to try to make that happen. It's better--to use 
an old saw, it's better to have tried and failed than it is not 
to have tried at all, here. And I think the way that Dr. Kelly 
has stated this is the most succinct and appropriate way to 
look at it from the standpoint of U.S. strategic interests, and 
that is that the current commitment is not sustainable. What we 
should decide is, What commitment is sustainable, consistent 
with our national interest? And that's what we're searching for 
here. And--at least as I see it--and so, I believe, still, 
because you've been supportive of the notion of federalism, I 
believe it is--some version of it is the last best hope for 
there to be the beginnings of a truce, to use the Ambassador's 
phrase, that may mature into a different system, 2 years, 5 
years, 7 years, 10 years from now, but there's got to be 
something that takes away the need, from the perspective of the 
warring parties, to continue to attempt to dominate, at the 
expense of the rights of other constituencies in Iraq.
    And so, for me, it is a federal or a confederation. It is 
only likely to come about as a consequence of--in my view, of 
international brokered intervention. I think the more the major 
powers are brought in, the more likely the outcome to succeed. 
But, it's really hard. It's really hard. And it may be that the 
only way this works--and I apologize to Senator Nelson for 
answering your question--I think the only way--and I'd be 
interested in a comment--the only other way is that we let it 
expire on the battlefield, we just--we're out of there, and 
we're not a player, and, you know, we just, sort of, as--a 
number of the generals did say that we should withdraw and have 
a regional policy. I'm not sure that--how easy that is to do. I 
think that's a hard deal.
    Senator Bill Nelson. Thanks.
    The Chairman. Thank you.
    Would any of you like to comment on the last point? Because 
that was raised by some of the generals, that we can't leave 
the region, but we're going to have to leave Iraq. Are they 
compatible?
    Yes, Dr. Kelly.
    Dr. Kelly. What happens in Iraq certainly needs to be seen 
from a regional perspective. It's not an Iraqi problem, it's a 
regional problem. I don't see how you can have a logical, 
regional approach that doesn't have some major effort invested 
in Iraq. All of these pieces are tied together. And, in some 
ways, for some of them, they come together in Iraq. That 
doesn't mean we have to have large-scale military presence 
there. But, staying engaged, I think, will be necessary, in 
some way.
    The Chairman. Dick.
    Senator Lugar. I have no more questions.
    The Chairman. I'd like to--and I don't want to hold you up, 
Senator, but I'd like to ask, if I may, Doctor, you a couple of 
questions about your statement, if I may, and maybe invite some 
comments, if I may. I promise I won't trespass on your time 
much longer.
    You talked about the party system. And what--Professor 
O'Leary is one of the few people who have spoken to--is that 
there are--if you look at--I think you have to--far be it from 
me, but--have to look at the smallest subset, here, where 
there's real power, and that's tribal. It's a tribal society. 
And there are a couple ``large'' tribes that are neither fish 
nor fowl, in the eyes of most American commentators. Everyone 
thinks every tribe is either all Sunni or all Shia or Kurd. 
But, there are some tribes that span, internally, that 
religious division. And some of the experts we've had--on the 
culture, that we've had over the years, have come in and said 
that this is more of a tribal society than it is a religious 
society. It is divided more on tribe than religion. But--so, 
how do you--you say the system must, therefore, require, 
legislatively, that these parties are able to span regions, 
as--I assume, as well as ethnicity and/or religion, and how--
what do you mean by ``legislatively''?
    Dr. Brancati. A number of countries have different 
mechanisms in part of their--in terms of their electoral 
systems that actually legislatively require groups to compete 
in multiple regions in order to take a seat in the government. 
So, you may say that, ``In order to win seats in the 
legislature, you have to compete in these three regions.'' You 
not only have to compete in these three regions, you may even 
have to compete in a certain number of districts within each 
region. And that would allow you to have parties----
    The Chairman. I see.
    Dr. Brancati [continuing]. That are crosscutting. We have 
that system, essentially, in the Electoral College in the 
United States. It works the same way.
    The Chairman. I see.
    Dr. Brancati. And I think it's better to have them, within 
a party, working out their differences than across coalitions, 
because those coalitions wouldn't be stable.
    The Chairman. I see. Again, for the record, if you could 
lay out for us any countries, other than our electoral system, 
that reflects that notion, legislatively or constitutionally, 
I'd appreciate it.
    [The written response of Dawn Brancati as an amendment to 
her testimony in answer to Senator Biden's question follows:]

    In my research I have found that the effectiveness of federalism is 
greatly reduced by the presence of regional parties, which reinforce 
regional identities, pass legislation harmful to other regions in a 
country and regional minorities; and mobilize groups to engage in 
intrastate conflict or support extremist organizations dedicated toward 
these ends. Electoral systems, however, may facilitate broad-based, 
multicultural political parties in a decentralized context. Below I 
have summarized four features of electoral systems that may facilitate 
party development in this direction, and examples of countries that 
have these systems in practice.\1\
---------------------------------------------------------------------------
    \1\ One should not interpret the level of conflict in these 
countries as indicative of the utility of these laws since many other 
factors within these countries may contribute to conflict.
---------------------------------------------------------------------------
                       cross-regional voting laws
    If groups (e.g., ethnolinguistic, religious, and tribal) are 
segmented into different regions of countries, electoral laws requiring 
parties to compete in multiple regions (or every region) of a country, 
will encourage parties to incorporate various groups into their 
agendas. The U.S. Electoral College achieves this end in practice by 
requiring Presidential candidates to win 270 Electoral College votes in 
order to win the Presidency.
Additional examples
    Hungary: Political parties that compete in multimember (MMD) 
districts must compete in one-fourth of the constituencies within these 
districts, and must compete in at least two MMD districts. To win 
compensatory seats, parties must compete in at least seven MMD 
districts.--Chapter 2, Article 5, Act Number XXXIV of 1989 on the 
Election of Members of Parliament.

    Indonesia: Political parties must have branches in 9 of the 
country's 27 provinces and half of the districts in each of these 
provinces.--Indonesian Electoral Law 1999.

    Mexico: Political parties must have members in at least 20 federal 
entities in Mexico or 300 members in at least 200 of the country's 
single-member districts.--Second Title, Chapter 1, Article 24, Federal 
Code of Institutions and Electoral Procedures, 1990.

    Russia: Political parties must have: (1) Regional branches in more 
than half of the subjects of the Russian Federation, and (2) at least 
10,000 party members and regional branches (with at least 100 members) 
in more than a half of the subjects of the Russian Federation.--Article 
3, 2001 Federal Law ``On Political Parties.''

    Turkey: Political parties must: (1) Be fully organized in at least 
half of the country's provinces and one-third of the districts within 
these provinces, and (2) have nominated two candidates for each 
parliamentary seat in at least half of the country's provinces.\2\ --
Article 14, Law on Basic Provisions on Elections and Voter Registers, 
1961.
---------------------------------------------------------------------------
    \2\ See ACE Electoral Project http://www.aceproject.org regarding 
the second point.

    If regions are not completely homogenous, laws requiring parties to 
compete in a certain number of districts within a region may increase 
the likelihood of parties incorporating multiple groups into their 
agendas. This, of course, depends on the distribution of groups across 
districts and the demographic composition of these districts.
    If regions are completely heterogeneous, laws requiring parties to 
compete in a certain number of regions of a country in order to win 
seats will not encourage parties to incorporate multiple groups into 
their agendas, since parties may incorporate a single group within each 
region and the same group across all regions.
                          electoral sequencing
    Holding national elections concurrently with subnational (i.e., 
provincial or local) elections can reduce the strength of regional 
parties at the subnational level. Statewide parties typically have 
stronger positions in national elections than in subnational ones, and 
when national and subnational elections are held at the same time, 
there is a coattails effect of national elections on subnational ones. 
Accordingly, parties that win a lion's share of national legislative 
seats tend to win a lion's share of subnational legislative seats when 
national and subnational elections are concurrent.
                         reserved seats/quotas
    Reserved seats are legislative seats that are set aside for 
representatives of particular groups (e.g., ethnolinguistic, religious, 
and tribal). While they ensure that certain groups are represented in 
the legislature, they may encourage people to vote on the basis of 
group membership rather than issues and consequently reinforce group 
identities.
    Quotas, in contrast, require parties to place a certain number of 
representatives from different groups onto their electoral lists. 
Quotas have been commonly used to improve the representation of women 
in legislatures throughout the world (e.g., Bosnia-Herzegovina, Costa 
Rica, Iraq and Spain). Quotas, as a result, may encourage more broad-
based political parties but they may also reinforce identities like 
reserved seats.
                      internal party organization
    Organizing statewide parties (i.e., parties that compete in every 
region of a country) to ensure strong representation of regions or 
groups within key committees or structures, can also facilitate 
representation of multiple groups within statewide parties.

    The Chairman. My other question is that--you indicate that, 
``The war must first end, for federalism to operate 
effectively. Federalism also must be buttressed by economic 
development and a stable security that acts as a deterrent to 
violence. This is particularly problematic if the United States 
pulls out.'' What are the key structures that you envision 
having to be codified or put in place or agreed upon in order 
to get to the point where the--you know, the war has to end? I 
mean, part of--I must admit to you, part of what I've been 
thinking--and I think others--some others have--Les Gelb, and 
others--have been that federalism would not guarantee peace, 
but an accommodation, an agreement that that's the direction 
we're moving, is the thing that will cause these groups to 
focus on their own concerns.
    Let me be purely Machiavellian for a moment. I do not take 
great comfort from Maliki using the Iraqi National Army for 
what I believe are both--you could argue are practical, but 
political reasons in trying to impact on events leading up to 
elections, provincial elections. Some cynics might suggest that 
was the purpose, or one of the overriding purposes. But, I 
think, ironically, just purely Machiavellian comment, it's 
better to have Shia fighting Shia for power and dominance than 
it has this--this intercommunal fighting of the same thing 
happening, only this time in Anbar province with Shia going in, 
with mosques being bombed, along sectarian lines.
    Now, that's not much comfort, but--so, I've assumed that 
the basic requirement of agreeing that somehow there'll be some 
implementation of the Constitution--and that's where the rubber 
meets the road in the definition of what ''regionalism`` means, 
what a ''region`` means, and what some version of 
''federalism`` means.
    So, how do you end the war to get to the point where you 
can have a federal system? I mean, you don't talk about how you 
end the war.
    Dr. Brancati. In 10 minutes or less? [Laughter.]
    The Chairman. Well, no, I----
    Dr. Brancati. No----
    The Chairman [continuing]. You'd get the Nobel Prize if you 
do it in an hour. [Laughter.]
    Dr. Brancati. Actually, I think the discussion among this 
group has actually changed my position slightly. I think--I've 
been enlightened, and I think you're right that a federal 
system would be something in--to hold out as a--to bring people 
to the table to allow this peace settlement.
    But, I--what I mean here is that unless you stop violence 
and fighting first, that federalism can't stop violence and 
fighting.
    The Chairman. I see what you're saying. OK.
    Dr. Brancati. But, it can--you need military force to stop 
that fighting.
    The Chairman. All right.
    And the last question I have--and I--I'm not picking on 
you, I'm just impressed with your statement. You point out 
that, ``In order to realize the goals, federalism needs the 
support and encouragement of the United States,'' and then you 
say, ``Thus, a third party, like the United States, is needed 
to ensure that both parties commit to federalism and take 
action against violators of that system.'' Would you comment on 
how that notion intersects with what the Ambassador is talking 
about, more of--that is, the third party--us being part of the 
third party, but that it be a U.N. auspice--or have the patina, 
at least of broader international, you know, support?
    Dr. Brancati. Absolutely. I think it's really important to 
have a third-party influence in--through workshops or through 
the United Nations, because if you allow the groups simply to 
design their system on their own, they're probably going to 
design the system that codifies their power and ensures that 
that, in the immediate term, it benefits themselves. That might 
allow for peace in the short term, but in the long term that's 
not a good idea. And so, you need experts there to move the 
system toward one that is more equitable among the different 
groups, and one that has both short-term perspectives in mind, 
as well as long-term perspectives. And that's what I mean about 
the commitment--classic commitment problems.
    The Chairman. I see.
    Oh, I'm glad Mr. Talwar pointed this out. Professor, you 
talked about this--the gradualist approach, here, and that, in 
effect, if the region's law were allowed to take effect now, 
and you had--of the 18 governates, you had--in addition to the 
ones that are already decided to be a region, in Kirkuk--if you 
had five, or three, or two more, it would be a problem. So, you 
talked about the ``kafoo''--is that how you pronounce it?
    Professor O'Leary. Kufa.
    The Chairman. Kufa. I'm sorry. The Kufa Regional 
Government. Can you elaborate on, why only one? And why Kufa? 
What that is about?
    Professor O'Leary. Yes. I spent a good number of minutes, 
obviously, pondering this question. I took to heart the 
instruction to be somewhat positive, and then I started to 
think as an anthropologist, and think hard about subnational 
divisions, both ethnic, tribal, and sectarian. And I pondered 
the Sunni region, Anbar. But, I came back to--to me, the next--
after the Kurdistan region, the next most likely region, based 
on sect, political parties, and, most of all, the influence of 
Sayyid Sistani, to come together, would be this region I'm 
calling the Kufa Regional Government.
    The Chairman. Which is primarily Shia.
    Professor O'Leary. It would be primarily Shia, it would be 
the two holy cities, plus Qadisiyah--meaning Karbala, Najaf and 
Qadisiyah. And, because the next two--inasmuch as the next two 
governorates that might logically join--Babil, which contains 
Hillah, and Wasit, there is more inter-Shia political 
diversity, including the strong influence of Sadr, such as in 
Kut, so that I couldn't join them--in 2012--I decided not to be 
that optimistic--and to, instead, suggest their toughing it out 
and holding referenda to make the decision themselves.
    The Chairman. I see.
    Well, any of you--unfortunately, I have a thousand 
questions. I won't do that to you. I promised I'd let you go. 
Is there any closing comment any one of you would like to make?
    [No response.]
    The Chairman. I truly appreciate how seriously you've taken 
this, and all the work you've done. And, Dr. Kelly, I'd like 
to, maybe even just on the telephone or--follow up with you on 
getting into what you did not want to discuss in public 
session, and try to get more specific, for--at least 
illustrative for me--about this notion, which I agree with--I 
think we all agree with--What is sustainable? You know, what 
commitment is sustainable, consist with our interest? And that 
would be a--if you'd be willing to do that, at some point.
    You've really been superlative. I appreciate it very, very 
much. And I just wish and hope--we're going to try to make sure 
all our colleagues get a sense of what you are about. I 
particularly thought--and I asked staff to compile it, ad 
seriatim, for me--each of your answers--2-minute answers to 
Senator Isakson, I thought were particularly succinct and 
informative, and they seemed to have a coherence to them, even 
though there were slightly different perspectives in each of 
them. And I found that very useful.
    Again, thank you so much for your time. We truly appreciate 
it.
    And we are adjourned.
    [Whereupon, at 11:52 a.m., the hearing was adjourned.]


                    IRAQ AFTER THE SURGE: WHAT NEXT?

                              ----------                              


                         TUESDAY, APRIL 8, 2008

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:37 p.m., in 
room SH-216, Hart Senate Office Building, Hon. Joseph R. Biden, 
Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Dodd, Kerry, Feingold, Boxer, Bill 
Nelson, Obama, Menendez, Cardin, Casey, Webb, Lugar, Hagel, 
Coleman, Corker, Voinovich, Murkowski, DeMint, Isakson, Vitter, 
and Barrasso.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    The Chairman. While our witnesses are taking their seats, 
let me begin by saying, to the audience: Welcome, we're 
delighted to have you here, but I will tell you now, anyone who 
speaks up, whether it's praiseworthy or otherwise, under any 
circumstances during the hearing, I will ask the Capitol Police 
to escort them permanently from the hearing room so that we can 
spend our time talking to the witnesses.
    As I said in the anteroom to our distinguished witnesses, 
we're delighted to have you back. I don't know how delighted 
you are to be back. But, thank you for your patience. And, 
again, welcome to the Foreign Relations Committee.
    To state the obvious, gentlemen, we--the two of you and all 
of us on this platform--share a common responsibility: To 
defend the security of the United States of America. And your 
assignment to do so is focused on Iraq, and you perform that 
mission with extraordinary skill and courage, in my view. This 
country owes you, and all the women and men who serve under 
each of you, a genuine debt of gratitude, both those in uniform 
and out of uniform. I want to, as one of the many on this 
platform who've visited Iraq on many occasions, point out that 
there are--that civilians are being killed, U.S. Foreign 
Service personnel are wounded, civilian personnel are injured, 
as well as our military women and men, and we owe them all--all 
of them--a great debt of gratitude, a debt, to state the 
obvious, we're not going to be able to fully repay.
    But, gentlemen, your mission is limited to Iraq, and 
Congress and the President have a broader responsibility. We 
have to decide where and when to send troops, how to spend our 
treasure, not just in Iraq, but around the entire world. We 
have to prioritize among the many challenges to our security--I 
know you're fully aware of what they are--but the many 
challenges to our security and the many needs of the American 
people, that extend and exceed Iraq. We have to judge how our 
actions in one place affect our ability to act in other places. 
And we have to make hard choices based on finite resources.
    As you rightly said this morning, General, it is not your 
job to answer those questions, although you're fully capable of 
answering those broader questions; it's the responsibility of 
those, as you put it in an exchange, as I recall, with Senator 
Warner, who have a broader view to make these larger decisions 
about allocation of resources. Your focus is, and should be, 
and has been, well focused on America's interests in Iraq and 
how our interests are affected, based on how things go in Iraq. 
Our focus, then, must be America's security in the world and 
how to make us more secure at home, overall.
    The purpose of the surge was to bring violence down so that 
Iraq leaders could come together politically. Violence has come 
down, but the Iraqis have not come together, at least not in 
the fashion that was anticipated. Our military has played a 
very important role, and the surge has played a role, in 
reducing the violence, but so, as you've acknowledged, did 
other developments. First, the Sunni Awakening, which preceded 
the surge, but was, in fact, enabled by the surge. Second, the 
Sadr cease-fire, which, to state the obvious, could end as 
we're speaking. And, third, the sectarian cleansing that has 
left Baghdad--much of Baghdad separated, with fewer targets to 
shoot at and to bomb, over 4\1/2\ million people displaced, in 
and out of Iraq. And a tactic--these tactical gains are real, 
but they are relative. Violence is now where it was in 2005, 
and spiking up again. Iraq is still incredibly dangerous. And, 
despite what the President said last week, it is very, very, 
very far from normal. These are gains, but they are fragile 
gains.
    Awakening members, frustrated at their government's refusal 
to integrate them into the normal security forces, as you know 
better than I, General and Ambassador, could turn their guns on 
us tomorrow. Sadr could end his cease-fire at any moment, and 
maybe his cease-fire is beyond his control to maintain. 
Sectarian chaos could resume with the bombing of another major 
mosque. Most importantly, the strategic purpose of our surge, 
in my view, has not been realized, and that is genuine power-
sharing that gives Iraqi factions the confidence to pursue 
their interests peacefully.
    What progress we have seen has come at the local level, 
with deals and truces made among tribes and tribe members and 
other grassroots groups; that is political progress. Very 
different than was anticipated. There is little sustainable 
progress, though, at the national level; and, in my view, 
little evidence we're going to see any anytime soon.
    Yes; Iraqi leaders have passed some laws, but the details, 
as they emerge, and implementation, as it lags, this progress 
seems likely to, in many cases, undermine reconciliation, as 
opposed to advance it.
    Despite this reality, it is your recommendation that when 
the surge ends we should not further drawdown American forces 
for fear we'd jeopardize the progress we've made. If that's the 
case, are we appreciably closer than we were 15 months ago to 
the goal the President set for Iraq when he announced the 
surge--and that is, a country that can, ``govern itself, defend 
itself, and sustain itself in peace?'' If we stay the course, 
will we be any closer, 15 months from now, to that goal than we 
are today?
    It seems to me that we're stuck where we started before the 
surge, with 140,000 troops in Iraq and no end in sight. That, 
in my view, is unsustainable. It is unsustainable from a 
military perspective, according to serving and retired military 
officers, and it is unacceptable to the American people.
    The President likes to talk about the consequences of 
drawing down our forces in Iraq, and he makes a dire case, 
which you echoed this morning. That's a debate we should have. 
The President's premises are highly debatable. We've heard 
detailed testimony in this committee, from military and 
civilian experts that disagree with the premises and the 
conclusions, as to what would follow if, in fact, we withdrew 
from Iraq. Would starting to leave really strengthen al-Qaeda 
in Iraq and give it a launching pad to attack America, as has 
been asserted, or would it eliminate what's left of al-Qaeda's 
indigenous support in Iraq? What about al-Qaeda in Pakistan and 
Afghanistan, the people who actually attacked us in--on 9/11? 
We know where they live, we know who they are, and we don't 
have the capacity to do much about it. If we leave, would they 
be emboldened, or would--to paraphrase the National 
Intelligence Estimate on Terrorism--would they lose one of 
their most effective recruiting tools, the notion that we're in 
Iraq to stay, with permanent military bases and control over 
the oil? Not our stated goals, but the propaganda tool being 
used. And would they, in fact, if we left Iraq, risk the full 
measure of American might, which they're able to avoid now in 
Afghanistan and Pakistan? What about Iran? Would leaving 
actually increase its already huge influence on Iraq, or would 
it shift the burden of Iraq from us to them and make our forces 
a much more credible deterrent to Iranian misbehavior?
    These are open questions. Equally competent people as you 
have testified before us that the results would be the opposite 
that you and the President have posited. Worth debating.
    Would our departure accelerate sectarian chaos, or would it 
cause Iraqi leaders and Iraqis' neighbors to finally begin to 
act responsibly and make the compromises they have to make in 
order to literally be able to live, if they're as exhausted 
with fighting as is asserted?
    We should debate the consequences of starting to leave 
Iraq. It's totally legitimate. But more importantly is the 
debate we're not having. We should also talk about what the 
President refuses to acknowledge: The increasingly intolerable 
cost of staying in Iraq. The risks of leaving Iraq are 
debatable. The cost of staying with 140,000 troops are totally 
knowable, and they get steeper and steeper and steeper every 
single day. The continued loss of life and limb of our 
soldiers, the emotional and economic strain on our troops and 
their families due to repeated extended tours, as Army Chief of 
Staff George Casey recently told us, the drain on our treasury, 
$12 billion every month that we could spend on housing, 
education, health care, or reducing the deficit, the impact on 
the readiness of our Armed Forces, tying down so many troops 
that we've heard, from Vice Chief of Staff of the Army Richard 
Cody, we don't have any left over to deal with new emergencies; 
the inability to send enough soldiers to the real central front 
in the war on terror, which lies between Afghanistan and 
Pakistan, where al-Qaeda has regrouped and is plotting new 
attacks, and is alive and well, and we know where they live.
    Last month, in Afghanistan, General McNeill, who commands 
the international forces, told me that, with two extra combat 
brigades, about 10,000 soldiers, he could turn around the 
security situation in the south, where the Taliban is on the 
move. But, he then readily acknowledged, he knows they're not 
available. There's no way he can get 10,000 troops, because 
they're tied down in Iraq.
    Even when we do pull troops out of Iraq, the Chairman of
the Joint Chiefs, Admiral Mullen, says we would have to send 
them for a year of rest and retraining before we could even 
send them to Afghanistan, where everyone acknowledges more 
troops are needed.
    Senator Levin, the chairman of the Armed Services 
Committee, and I wrote to Secretaries Rice and Gates to request 
that, like you, General McNeill and our Ambassador to 
Afghanistan testify jointly before our committees so we can 
make logical choices based on specific requests coming out of 
each of those theaters as to which is the place we should spend 
our limited resources.
    We still don't have a response, I might add.
    Fifteen months into the surge, we've gone from drowning to 
treading water, we're still spending $3 billion every week, and 
we're still losing--thank God it's less, but--30 to 40 American 
lives every month. We can't keep treading water without 
exhausting ourselves. But, that's what the President seems to 
be asking us to do. He can't tell us when, or even if, Iraqis 
will come together politically. He can't tell us when, or even 
if, we will drawdown below the presurge levels. He can't tell 
us when, or even if, Iraq will be able to stand on its own two 
feet. He says we'll stand down when the Iraqi Army stands up. 
Which Iraqi Army? A sectarian Iraqi Army, made up of all of 
Shia, or an interethnic Iraqi Army, trusted by all the people? 
He can't tell us when, or even if, this war will end.
    Most Americans want this war to end. I believe all do, 
including you gentlemen. They want us to come together around a 
plan to leave Iraq without leaving chaos behind. They are not 
defeatist, as some have suggested. They are patriots. They 
understand the national interest and the great things America 
can achieve if we responsibly end the war we should not have 
started.
    I believe it's fully within our power to do that, and the 
future of our soldiers, our security, and our country, will be 
much brighter when we succeed in getting out of Iraq without 
leaving chaos behind.
    I yield to my colleague Chairman Lugar.

 OPENING STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM 
                            INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman.
    I join you in welcoming General Petraeus and Ambassador 
Crocker back to the Senate Foreign Relations Committee. We 
truly commend their skilled service in Iraq and the 
achievements that United States military and diplomatic 
personnel have been able to bring forward under their 
leadership. We are grateful for the decline in fatalities among 
Iraqi civilians and United States personnel and the expansion 
of security in many regions and neighborhoods throughout Iraq.
    Last week, our committee held a series of hearings in 
anticipation of today's inquiry. We engaged numerous experts on 
the situation in Iraq and on strategies for moving forward. Our 
discussions yielded several premises that might guide our 
discussion today.
    First, the surge has succeeded in improving the conditions 
on the ground in many areas of Iraq and creating, ``breathing 
space,'' for exploring political accommodation. Economic 
activity has improved, and a few initial political benchmarks 
have been achieved. The United States took advantage of Sunni 
disillusionment with
al-Qaeda tactics, the Sadr faction's desire for a cease-fire, 
and other factors that construct multiple cease-fire agreements 
with tribal and sectarian leaders. Tens of thousands of Iraqi 
Sunnis, who previously had sheltered al-Qaeda and targeted 
Americans, are currently contributing to security operations, 
drawn by their interest in self-preservation and United States 
payments.
    Second, security improvements derived purely from American 
military operations have reached, or almost reached, a plateau. 
Military operations may realize some marginal security gains in 
some areas, but these gains are unlikely to be transformational 
for the country, beyond what has already occurred. Forward 
progress depends largely on political events in Iraq.
    Third, despite the improvements in security, the central 
government has not demonstrated that it can construct a top-
down political accommodation for Iraq. The Iraqi Government is 
afflicted by corruption, and shows signs of sectarian bias. It 
still has not secured the confidence of most Iraqis or 
demonstrated much competence in performing basic government 
functions, including managing Iraq's oil wealth, overseeing 
reconstruction programs, delivering government assistance to 
the provinces, or creating jobs.
    Fourth, though portions of the Iraqi population are tired 
of the violence and would embrace some type of permanent cease-
fire or political accommodation, sectarian and tribal groups 
remain heavily armed and are focused on expanding or 
solidifying their positions. The lack of technical competence 
within the Iraqi Government, external interference by the 
Iranians and others, the corruption and criminality at all 
levels of Iraqi society, the departure from Iraq of many of its 
most talented citizens, the lingering terrorist capability of 
al-Qaeda in Iraq, seemingly intractable disputes over 
territories and oil assets, and power struggles between and 
within sectarian and tribal groups, all impede a sustainable 
national reconciliation. Iraq will be an unstable country for 
the foreseeable future. And if some type of political 
settlement can be reached, it will be inherently fragile.
    Fifth, operations in Iraq have severely strained the United 
States military. These strains will impose limits on the size 
and length of future deployments to Iraq, irrespective of 
political divisions or the outcome of the elections in our 
country.
    Last week, before the Senate Armed Services Committee, GEN 
Richard Cody, the Vice Chief of Staff of the Army, testified, 
``Today, our Army is out of balance. The current demand for 
forces in Iraq and Afghanistan exceeds our sustainable supply 
of soldiers, of units and equipment, and limits our ability to 
provide ready forces for other contingencies. Our readiness, 
quite frankly, is being consumed as fast as we build it. 
Lengthy and repeated deployments with insufficient recovery 
time at home station have placed incredible stress on our 
soldiers and on their families, testing the resolve of the All-
Volunteer Force like never before.'' Later in the hearing, 
General Cody said, ``I have never seen our lack of strategic 
depth be at where it is today.''
    The lmitations imposed by these stresses were echoed in our 
own hearings. GEN Barry McCaffrey asserted that troop levels in 
Iraq have to be reduced, stating that the Army is experiencing 
``significant recruiting and retention problems'' and that ``10 
percent of recruits should not be in uniform.''
    MG Robert Scales testified, ``In a strange twist of irony, 
for the first time since the summer of 1863 the number of 
ground soldiers available is determining American policy, 
rather than policy determining how many troops we need. The 
only point of contention is how precipitous will be the 
withdrawal and whether the schedule of withdrawal should be a 
matter of administration policy.'' Now, if one accepts the 
validity of all or most of these five premises, the terms of 
our inquiry today are much different than they were last 
September. At that time, the President was appealing to 
Congress to allow the surge to continue, to create breathing 
space for a political accommodation. Today, the questions are 
whether and how improvements in security can be converted into 
political gains that can stabilize Iraq, despite the impending 
drawdown of United States troops.
    Simply appealing for more time to make progress is 
insufficient. Debate over how much progress we have made and 
whether we can make more is less illuminating than determining 
whether the administration has a definable political strategy 
that recognizes the time limitations we face and seeks a 
realistic outcome designed to protect American vital interests.
    Our witnesses last week offered a wide variety of political 
strategies for how we might achieve an outcome that would 
preserve regional stability, prevent the worst scenarios for 
bloodshed and protect basic United States national security 
interests. These included focusing more attention on building 
the Iraqi Army, embracing the concept of federalism, expanding 
the current bottom-up cease-fire matrix into a broader national 
accommodation, negotiating with the Iraqis in the context of an 
announced United States withdrawal, and creating a regional 
framework to bolster Iraqi security.
    But, none of our witnesses last week claimed that the task 
in Iraq was simple or that the outcome would likely fulfill the 
ideal of a pluralist democratic nation closely aligned with the 
United States. All suggested that spoiling activities and the 
fissures in Iraqi society could undermine even the most well-
designed efforts by the United States.
    Unless the United States is able to convert progress made 
thus far into a sustainable political accommodation that 
supports our long-term national security objectives in Iraq, 
this progress will have limited meaning. We cannot assume that 
sustaining some level of progress is enough to achieve success, 
especially when we know that current American troop levels in 
Iraq have to be reduced and spoiling forces will be at work in 
Iraq. We need a strategy that anticipates a political endgame 
and employs every plausible means to achieve it.
    I thank General Petraeus and Ambassador Crocker for joining 
us. I look forward to our discussion of how the United States 
can define success and then achieve our vital objectives in 
Iraq.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Gentlemen. Mr. Ambassador.

 STATEMENT OF HON. RYAN C. CROCKER, AMBASSADOR TO THE REPUBLIC 
          OF IRAQ, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Crocker. Mr. Chairman, Senator Lugar, members of 
the committee, it is an honor to appear before you today to 
provide my assessment on political, economic, and diplomatic 
developments in Iraq.
    When General Petraeus and I reported to you, in September, 
I gave my considered judgment on whether our goals in Iraq were 
attainable. Can Iraq develop into a united, stable country with 
a democratically elected government operating under the rule of 
law? Last September, I said that the cumulative trajectory of 
political, economic, and diplomatic developments in Iraq was 
upward, although the slope of that line was not steep.
    Developments over the past 7 months have strengthened my 
sense of a positive trend. Immense challenges remain, and 
progress is uneven and often frustratingly slow, but there is 
progress. Sustaining that progress will require continuing U.S. 
resolve and commitment. What has been achieved is substantial, 
but it is also reversible.
    Five years ago, the statue of Saddam Hussein was toppled in 
Baghdad. The euphoria of that moment evaporated long ago. But, 
as Iraq emerges from the shattering violence of 2006 and early 
part of 2007, there is reason to sustain that commitment and 
the enormous investment we have made in the lives of our young 
men and women and our resources. Let me describe the 
developments upon which I base such a judgment.
    The first is at the national level, in the form of 
legislation and the development of Iraq's Parliament.
    In September, we were disappointed that Iraq had not yet 
completed key laws. In the last several months, Iraq's 
Parliament has formulated, debated vigorously, and, in many 
cases, passed legislation dealing with vital issues of 
reconciliation and nation-building.
    A Pension Law extended benefits to individuals who had been 
denied them because of service with the previous regime.
    The Accountability and Justice Law, de-Baathification 
reform, passed after lengthy and often contentious debate, 
reflecting a strengthened spirit of reconciliation, as does the 
far-reaching Amnesty Law.
    The Provincial Powers Law is a major step forward in 
defining the relationship between the federal and provincial 
governments. This involved a debate about the fundamental 
nature of the state, similar in its complexity to our own 
lengthy and difficult debate over states rights. The Provincial 
Powers Law also called for provincial elections by October 1 of 
this year, and an electoral law is now under discussion that 
will set the parameters for these elections. All major parties 
have announced their support for elections, which will be a 
major step forward in Iraq's political development, and will 
set the stage for national elections in late 2009.
    A vote by the Council of Representatives, in January, to 
change the design of the Iraqi flag means that flag now flies 
in all parts of the country for the first time in years.
    And the passage of the 2008 budget, with record amounts for 
capital expenditures, ensures that the federal and provincial 
governments will have the resources for public spending.
    All of this has been done since September. These laws are 
not perfect, and much depends on their implementation, but they 
are important steps.
    Also important has been the development of Iraq's Council 
of Representatives as a national institution. Last summer, the 
Parliament suffered from persistent and often paralyzing 
debate--disputes over leadership and procedure. Now it is 
successfully grappling with complex issues, and producing 
viable tradeoffs and compromise packages.
    As debates in Iraq's Parliament become more about how to 
resolve tough problems in a practical way, Iraqi politics have 
become more fluid. While these politics still have a sectarian 
bent and basis, coalitions have formed around issues and 
sectarian political groupings, which often were barriers to 
progress, have become more flexible.
    Let me also talk about the intangibles: Attitudes among the 
Iraqi people. In 2006 and 2007, many understandably questioned 
whether hatred between Iraqis of different sectarian 
backgrounds were so deep that a civil war was inevitable. The 
Sunni Awakening Movement in Anbar, which so courageously 
confronted al-Qaeda, continues to keep the peace in the area, 
and keep al-Qaeda out.
    Fallujah, once a symbol for violence and terror, is now one 
of Iraq's safest cities. The Shia holy cities of Karbala and 
Najaf are enjoying security and growing prosperity in the wake 
of popular rejection of extremist militia activity.
    The Shia clerical leadership, the Marjaiyah, based in 
Najaf, has played a quiet, but important, role in support of 
moderation and reconciliation.
    In Baghdad, we can see that Iraqis are not pitted against 
each other purely on the basis of sectarian affiliation. The 
security improvements of the past months have diminished the 
atmosphere of suspicion and allowed for acts of humanity that 
transcend sectarian identities.
    When I arrived in Baghdad a year ago, my first visit to a 
city district was to the predominantly Sunni area of Dora. 
Surge forces were just moving into neighborhoods still gripped 
by al-Qaeda. Residents also were being terrorized by extremist 
Shia militias. Less than a year later, at the end of February, 
tens of thousands of Shia pilgrims walked through those streets 
on their way to Karbala to commemorate the martyrdom of Imam 
Hussein. Sunni residents offered food and water as they passed 
through, and some joined the pilgrimage.
    Mr. Chairman, news from Iraq in recent weeks has been 
dominated by the situation in Basra. Taken as a snapshot, the 
scenes of increasing violence and masked gunmen in the streets, 
it is hard to see how this situation supports a narrative of 
progress in Iraq. And there is still very much to be done to 
bring full government control to the streets of Basra and 
eliminate entrenched extremist, criminal, and militia groups.
    But, when viewed with the broader lens, the Iraqi decision 
to take on these groups in Basra has major significance.
    First, a Shia majority government, led by Prime Minister 
Maliki, has demonstrated its commitment to taking on criminals 
and extremists, regardless of sectarian identity.
    Second, Iraqi Security Forces led these operations in Basra 
and in towns and cities throughout the south. British and 
United States elements played important roles, but these were 
supporting roles, as they should be.
    The operation in Basra has also shaken up Iraqi politics. 
The Prime Minister returned to Baghdad from Basra shortly 
before General Petraeus and I left for Washington, and he is 
confident in his decision, and determined to press the fight 
against these illegal groups, but also determined to take a 
hard look at lessons learned.
    The efforts of the government against extremist militia 
elements have broad political support, as a statement, April 5, 
by virtually all of Iraq's main political leaders--Sunni, Shia, 
and Kurd--made clear.
    A wild card remains the Sadrist trend and whether the 
Iraqis can continue to drive a wedge between other elements of 
the trend and Iranian-supported special groups. A dangerous 
development in the immediate wake of the Basra operation was 
what appeared to be a reunification between special groups and 
mainline Jayish
al-Mahdi. We also saw a potential collapse of the Jayish al-
Mahdi freeze in military operations.
    As the situation unfolded, however, Muqtada al-Sadr issued 
a statement that disavowed anyone possessing heavy weapons, 
which would include the signature weapons of the special 
groups. The statement can further sharpen the distinction 
between members of the Sadrist trend who should not pose a 
threat to the Iraqi state and members of the special groups, 
who very much do.
    One conclusion I'd draw from these signs of progress is 
that the strategy that began with the surge is working. This 
does not mean that U.S. support should be open-ended or that 
the level and nature of our engagement should not diminish over 
time. It is in this context that we have begun negotiating a 
bilateral relationship between Iraq and the United States.
    In August, Iraq's five principal leaders requested a long-
term relationship with the United States, to include economic, 
political, diplomatic, and security cooperation. The heart of 
this relationship will be a legal framework for the presence of 
American troops similar to that which exists in nearly 80 
countries around the world.
    The Iraqis view the negotiation of this framework as a 
strong affirmation of Iraqi sovereignty, placing Iraq on par 
with other U.S. allies and removing the stigma of Chapter VII 
status under the U.N. Charter, pursuant to which coalition 
forces presently operate. Such an agreement is in Iraq's 
interest and ours.
    United States forces will remain in Iraq beyond December 
31, 2008, when the U.N. resolution presently governing their 
presence expires. Our troops will need basic authorizations and 
protections to continue operations, and this agreement will 
provide those authorizations and protections.
    The agreement will not establish permanent bases in Iraq, 
and we anticipate that it will expressly foreswear them. The 
agreement will not specify troop levels, and it will not tie 
the hands of the next administration. Our aim is to ensure that 
the next President arrives in office with a stable foundation 
upon which to base policy decisions, and that is precisely what 
this agreement will do. Congress will remain fully informed as 
these negotiations proceed in the coming weeks and months.
    Mr. Chairman, significant challenges remain in Iraq. A 
reinvigorated Cabinet is necessary, both for political balance 
and to improve the delivery of services to Iraq's people. 
Challenges to the rule of law, especially corruption, are 
enormous. Disputed internal boundaries, the article 140 
process, must be resolved. The return of refugees and the 
internally displaced must be managed. The rights of women and 
minorities must be better protected. Iraqis are aware of the 
challenges they face, and are working on them.
    Iraq's political progress will not be linear. Developments, 
which are on the whole positive, can still have unanticipated 
or destabilizing consequences. The decision to hold provincial 
elections, vital for Iraq's democratic development and long-
term stability, will also produce new strains. Some of the 
violence we have seen recently in southern Iraq reflects 
changing dynamics within the Shia community as the political 
and security context changes. Such inflection points underscore 
the fragility of the situation in Iraq, but it would be wrong 
to conclude that any eruption of violence marks the beginning 
of an inevitable backslide.
    With respect to economics and capacity-building, in 
September I reported to you that there had been some gains in 
Iraq's economy and in the country's efforts to build capacity 
to translate these gains into more effective governance and 
services. The Iraqis have built on these gains over the past 
months, as it most evident in the revival of marketplaces 
across Iraq and the reopening of long-shuttered businesses. 
According to a Center for International Private Enterprise poll 
last month, 78 percent of Iraqi businessowners surveyed expect 
the Iraqi economy to grow significantly in the next 2 years.
    With improving security and rising government expenditures, 
the IMF projects that Iraq's GDP will grow 7 percent, in real 
terms, this year, and inflation has been tamed. The dinar 
remains strong, and the central bank has begun to bring down 
interest rates.
    Iraq's 2008 budget has allocated $13 billion for 
reconstruction, and a $5 billion supplemental budget, this 
summer, will further invest export revenues in building 
infrastructure and providing the services that Iraq so badly 
needs. This spending also benefits the United States. Iraq 
recently announced its decision to purchase 40 commercial 
aircraft from the United States, at an estimated cost of $5 
billion.
    As Iraq is now earning the financial resources it needs for 
bricks-and-mortar construction through oil production and 
exports, our assistance focus has shifted to capacity-
development and an emphasis on local and post-kinetic 
development through our network of Provincial Reconstruction 
Teams and ministerial advisers. The era of U.S.-funded major 
infrastructure projects is over. We are seeking to ensure that 
our assistance, in partnership with the Iraqis, leverages 
Iraq's own resources.
    Our 25 PRTs throughout Iraq have been working to improve 
provincial and local governance capabilities, particularly in 
budget design and execution. They are also helping to establish 
critical linkages between provincial and federal governments. 
Our PRTs are great enablers, and we are working to ensure their 
continued viability as our forces redeploy. The relatively 
small amounts they disburse through quick-response funds have 
major impacts in local communities, and congressional support 
is important, as it is for other vital programs in the FY08 
global war on terrorism supplemental request.
    Iraq increasingly is using its own resources to support 
projects and programs that we have developed. It has committed 
nearly $200 million in support of a program to provide 
vocational training for concerned local citizens who stood up 
with us in the Awakening.
    Our technical assistance advisers have helped design new 
procurement procedures for Iraq's oil ministry. We developed 
the technical specifications from which Iraq's state-owned oil 
company will build new oil export platforms and underwater 
pipelines worth over a billion dollars.
    And in Baghdad in the last 3 months, the municipality has 
stepped up to take over labor contracts worth $100 million that 
we had been covering under the Community Stabilization Program.
    Like so much else, Iraq's economy is fragile, the gains 
reversible, and the challenges ahead substantial. Iraq will 
need to continue to improve governmental capacity, pass 
national-level hydrocarbon legislation, improve electrical 
production and distribution, improve the climate for foreign 
and domestic investment, create short- and long-term jobs, and 
tackle the structural and economic problems of the vital 
agricultural sector. We will be helping the Iraqis as they take 
on this challenging agenda, along with other international 
partners, including the United Nations and the World Bank.
    Mr. Chairman, along with the security surge last year, we 
also launched a diplomatic surge focused on enhancing U.N. 
engagement in Iraq, anchoring the international compact with 
Iraq, and establishing an expanded neighbors process which 
serves as a contact group in support of Iraq.
    The United Nations has taken advantage of an expanded 
mandate granted to the United Nations Assistance Mission in 
Iraq, UNAMI, to increase the scope of its activities and the 
size of its staff. Under dynamic new leadership, UNAMI is 
playing a key role in preparing for provincial elections and in 
providing technical assistance to resolve disputed internal 
boundaries.
    UNHCR has returned international staff to Iraq to assist 
with the return of internally displaced persons and refugees.
    The International Compact with Iraq provides a 5-year 
framework for Iraq to reform its economy and achieve self-
sufficiency in exchange for long overdue Saddam-era debt 
relief.
    Preparations are underway for a ministerial-level compact 
meeting in Sweden next month. Seventy-four nations were 
represented in last year's gathering in Egypt.
    Iraq's neighbors also understand they have a major interest 
in Iraq's future. Turkey hosted the second ministerial meeting 
of Iraq's neighbors in November, and Kuwait will host the third 
meeting later this month. In addition to all of Iraq's 
neighbors, these expanded conferences also include the 
Permanent Five Members of the Security Council, the Arab 
League, and the G-8.
    Support from Arab capitals has not been strong, and it must 
improve, for the sake of Iraq and for the sake of the region. 
Bahrain's recent announcement that it will return an ambassador 
to Baghdad is welcome, and other Arab states should follow 
suit.
    Iraq is a multiethnic state, but it is also a founding 
member of the Arab League and an integral part of the Arab 
world. Last month, Iraq hosted a meeting of the Arab 
Parliamentary Union, bringing the leaders of Arab Parliaments 
and consultative councils to Iraq for the first major inter-
Arab gathering since 1990. It is noteworthy that the meeting 
was held in the Kurdish city of Irbil, under the recently 
redesigned Iraqi flag, highlighting both the remarkable 
prosperity and stability of Iraq's Kurdish region and the 
presence of the Iraqi federal state.
    We hope that this event will encourage more active Arab 
engagements with Iraq, and we expect that Prime Minister 
Maliki's effort against Shia extremist militias in Basra will 
receive Arab support.
    The presence of the PKK terrorist organization in the 
remote mountains of Iraq, along the Turkish border, have 
produced tension between Turkey and Iraq, and led to a Turkish 
cross-border operation in February, including movement of 
Turkish ground forces into Iraq. At the same time, both 
governments are working to strengthen their ties, and Iraqi 
President Talibani made a successful visit to Turkey in March.
    Syria plays an ambivalent role. We have seen evidence of 
efforts to interdict some foreign fighters seeking to transit 
Syria to Iraq, but others continue to cross the border. Syria 
also harbors individuals who finance and support the Iraqi 
insurgency.
    Iran continues to undermine the efforts of the Iraqi 
Government to establish a stable, secure state through the 
arming and training of criminal militia elements engaged in 
violence against Iraqi Security Forces, coalition forces, and 
Iraqi civilians. The extent of Iran's malign influence was 
dramatically demonstrated when these militia elements clashed 
with Iraqi Government forces in Basra and Baghdad.
    When the President announced the surge, he pledged to seek 
and destroy Iranian-supported lethal networks inside Iraq. We 
know more about these networks and their Quds Force sponsors 
than ever before, and we will continue to aggressively uproot 
and destroy them.
    At the same time, we support constructive relations between 
Iran and Iraq, and are participating in a tripartite process to 
discuss the security situation in Iraq. Iran has a choice to 
make.
    Mr. Chairman, almost everything about Iraq is hard. It will 
continue to be hard as Iraqis struggle with the damage and 
trauma inflicted by 35 years of totalitarian Baathist rule. But 
``hard'' does not mean ``hopeless.'' And the political and 
economic progress of the past few months is significant. These 
gains are fragile, and they are reversible.
    Americans have invested a great deal in Iraq, in blood as 
well as treasure, and they have the right to ask whether this 
is worth it, whether it is now time to walk away and let the 
Iraqis fend for themselves. Iraq has the potential to develop 
into a stable, secure, multiethnic, multisectarian democracy 
under the rule of law. Whether it realizes that potential is 
ultimately up to the Iraqi people. Our support, however, will 
continue to be critical.
    I said, in September, that I cannot guarantee success in 
Iraq. This is still the case, although I think we are now 
closer. I remain convinced that a major departure from our 
current engagement would bring failure, and we have to be clear 
with ourselves about what failure would mean.
    Al-Qaeda is in retreat in Iraq, but it is not yet defeated. 
Al-Qaeda's leaders are looking for every opportunity they can 
to hang on. Osama bin Laden has called Iraq ``the perfect 
base,'' and it reminds us that a fundamental aim of al-Qaeda is 
to establish itself in the Arab world. It almost succeeded in 
Iraq. We cannot allow it a second chance.
    And it is not only al-Qaeda that would benefit. Iran has 
said, publicly, it will fill any vacuum in Iraq, and extremist 
Shia militias would reassert themselves. We saw them try in 
Basra and Baghdad, 2 weeks ago.
    And in all of this, the Iraqi people would suffer on a 
scale far beyond what we have already seen. Spiraling conflict 
could also draw in neighbors, with devastating consequences for 
the region and the world.
    Mr. Chairman, as monumental of the events of the last 5 
years have been in Iraq, Iraqis, Americans, and the world 
ultimately will judge us far more on the basis of what will 
happen than what has happened. In the end, how we leave and 
what we leave behind will be more important than how we came.
    Our current course is hard, but it is working. Progress is 
real, although fragile. We need to stay with it.
    Mr. Chairman, in the months ahead, we will continue to 
assist Iraq as it pursues further steps toward reconciliation 
and economic development. Over time, this will become 
increasingly an Iraqi process, as it should be.
    Our efforts will focus on increasing Iraq's integration, 
regionally and internationally; assisting Iraqi institutions, 
locally and nationally, to strengthen the political process and 
promote economic activity; and supporting the United Nations as 
Iraq carries out local elections toward the end of the year. 
These efforts will require an enhanced civilian commitment and 
continued support from the Congress and the American people.
    Finally, Mr. Chairman, I want to recognize and thank all 
those who serve our country in Iraq, military and civilian. 
Their courage and commitment, at great sacrifice, has earned 
the admiration of all Americans. They certainly have mine. And 
it is an honor to be with them out there.
    Thank you, sir.
    [The prepared statement of Ambassador Crocker follows:]

Prepared Statement of Hon. Ryan C. Crocker, Ambassador to the Republic 
              of Iraq, Department of State, Washington, DC

    Mr. Chairman, Senator Lugar, and members of the committee, it is an 
honor to appear before you today to provide my assessment of political, 
economic, and diplomatic developments in Iraq. When General Petraeus 
and I reported to you in September, I gave my considered judgment as to 
whether our goals in Iraq were attainable--can Iraq develop into a 
united, stable country with a democratically elected government 
operating under the rule of law?
    Last September, I said that the cumulative trajectory of political, 
economic, and diplomatic developments in Iraq was upward, although the 
slope of that line was not steep. Developments over the last 7 months 
have strengthened my sense of a positive trend. Immense challenges 
remain and progress is uneven and often frustratingly slow; but there 
is progress. Sustaining that progress will require continuing U.S. 
resolve and commitment. What has been achieved is substantial, but it 
is also reversible. Five years ago, the statue of Saddam Hussein was 
toppled in Baghdad. The euphoria of that moment evaporated long ago. 
But as Iraq emerges from the shattering violence of 2006 and the early 
part of 2007, there is reason to sustain that commitment and the 
enormous investments we have made both in the lives of our young brave 
men and women and our resources. Let me describe the developments upon 
which I base such a judgment.
            reconciliation: national and provincial politics
    The first is at the national level in the form of legislation and 
the development of Iraq's Parliament. In September, we were 
disappointed that Iraq had not yet enacted some key pieces of 
legislation. In the last several months, however, Iraq's Parliament has 
formulated, debated vigorously, and in many cases passed legislation 
dealing with vital issues of reconciliation and nation-building. A 
pension law extended benefits to individuals who had previously been 
denied them because of their service under the former regime. The 
Accountability and Justice Law (de-Baathification reform), passed after 
lengthy and often contentious debate, reflects a strengthened spirit of 
reconciliation, as does a far-reaching Amnesty Law.
    The Provincial Powers Law is a major step forward in defining the 
relationship between the federal and provincial governments. Passage of 
this legislation required debate about the fundamental nature of the 
state, similar in its complexity to our own lengthy and difficult 
debate over states' rights. The Provincial Powers Law also called for 
provincial elections by October 1, 2008, and an Electoral Law is now 
under discussion that will set the parameters for elections. All major 
parties have announced their support for these elections, which will be 
a major step forward in Iraq's political development and will set the 
stage for national elections in late 2009.
    In January, a vote by the Council of Representatives to change the 
design of the Iraqi flag means the flag now flies in all parts of the 
country for the first time in years. The passage of the 2008 budget, 
with record amounts for capital expenditures, insures that the federal 
and provincial governments will have the resources for public spending. 
All of this has been done since September. These laws are not perfect 
and much depends on their implementation, but they are important steps.
    Also important has been the development of Iraq's Council of 
Representatives (COR) as a national institution. Last summer, the COR 
suffered from persistent and often paralyzing disputes over leadership 
and procedure. Now, it is successfully grappling with complex issues 
and producing viable tradeoffs and compromise packages. As debates in 
Iraq's Parliament became more about how to resolve tough problems in a 
practical way, Iraqi politics have become more fluid. While politics 
still have a sectarian bent and basis, cross-sectarian coalitions have 
formed around issues, and sectarian political groupings which often 
were barriers to progress have become more flexible.
    Let me also talk about the intangibles: Attitudes among the 
population and the conversations that are occurring among Iraqi 
leaders. In 2006 and 2007, many people understandably questioned 
whether hatred between Iraqis of different sectarian backgrounds was so 
deep that a civil war was inevitable. The Sunni Awakening movement in 
Al Anbar, which so courageously confronted al-Qaeda, continues to keep 
the peace in the area and keep al-Qaeda out. Fallujah, once a symbol 
for violence and terror, is now one of Iraq's safest cities. The Shia 
holy cities of An Najaf and Karbala are enjoying security and growing 
prosperity in the wake of popular rejection of extremist militia 
activity. The Shia clerical leadership--the Marjaiyah--based in An 
Najaf--has played a quiet but important role in support of moderation 
and reconciliation. In Baghdad, we can see that Iraqis are not pitted 
against each other purely on the basis of sectarian affiliation. The 
security improvements of the past months have diminished the atmosphere 
of suspicion and allowed for acts of humanity that transcend sectarian 
identities.
    When I arrived in Baghdad a year ago, my first visit to a city 
district was to the predominantly Sunni area of Dora. Surge forces were 
just moving into the neighborhoods still gripped by al-Qaeda. Residents 
also were being terrorized by extremist Shia militias. Less than a year 
later, at the end of February, tens of thousands of Shia pilgrims 
walked through those streets on their way to Karbala to commemorate the 
martyrdom of Imam Hussein. Sunni residents offered food and water as 
they passed through, and some joined the pilgrimage.
    News from Iraq in recent weeks has been dominated by the situation 
in Basra. Taken as a snapshot, with scenes of increasing violence, and 
masked gunmen in the streets, it is hard to see how this situation 
supports a narrative of progress in Iraq. There is still very much to 
be done to bring full government control to the streets of Basra and 
eliminate entrenched extremist, criminal, and militia groups.
    When viewed with a broader lens, the Iraqi decision to combat these 
groups in Basra has major significance. First, a Shia majority 
government, led by Prime Minister Maliki, has demonstrated its 
commitment to taking on criminals and extremists regardless of 
sectarian identity. Second, Iraqi Security Forces led these operations, 
in Basra, and in towns and cities throughout the south. British and 
U.S. elements played important roles, but these were supporting roles, 
as they should be.
    The operation in Basra has also shaken up Iraqi politics. The Prime 
Minister returned to Baghdad from Basra shortly before I left for 
Washington--and he is confident in his decision and determined to press 
the fight against illegal groups, but also determined to take a hard 
look at lessons learned. The efforts of the government against 
extremist militia elements have broad political support as a statement 
April 5 by virtually all of Iraq's main political leaders--Sunni, Shia, 
and Kurd--made clear.
    A wildcard remains the Sadrist Trend--and whether the Iraqis can 
continue to drive a wedge between other elements of the Trend and 
Iranian-supported Special Groups. A dangerous development in the 
immediate wake of the Basra operation was what appeared to be a 
reunification between Special Groups and the mainline Jaysh al-Mahdi 
(JAM). We also saw a potential collapse of the JAM ``freeze'' in 
military operations. As the situation unfolded however, Muqtada al-Sadr 
issued a statement that disavowed anyone possessing ``heavy weapons''--
which would include the signature weapons of the Special Groups. This 
statement can further sharpen the distinction between members of the 
Sadrist Trend, who should not pose a threat to the Iraqi state, and 
members of Special Groups, who very much do.
    One conclusion I draw from these signs of progress is that the 
strategy that began with the surge is working. This does not mean, 
however, that U.S. support should be open-ended or that the level and 
nature of our engagement should not diminish over time. It is in this 
context that we have begun negotiating a bilateral relationship between 
Iraq and the United States. In August, Iraq's five principal leaders 
requested a long-term relationship with the United States, to include 
economic, political, diplomatic, and security cooperation. The heart of 
this relationship will be a legal framework for the presence of 
American troops similar to that which exists in nearly 80 countries 
around the world.
    The Iraqis view the negotiation of this framework as a strong 
affirmation of Iraqi sovereignty--placing Iraq on par with other U.S. 
allies and removing the stigma of chapter VII status under the U.N. 
Charter, pursuant to which coalition forces presently operate. Such an 
agreement is in Iraq's interest--and ours. U.S. forces will remain in 
Iraq beyond December 31, 2008, when the U.N. resolution presently 
governing their presence expires. Our troops will need basic 
authorizations and protections to continue operations--and this 
agreement will provide those authorizations and protections.
    The agreement will not establish permanent bases in Iraq, and we 
anticipate that it will expressly foreswear them. The agreement will 
not specify troop levels, and it will not tie the hands of the next 
administration. Our aim is to ensure that the next President arrives in 
office with a stable foundation upon which to base policy decisions, 
and that is precisely what this agreement will do. Congress will remain 
fully informed as these negotiations proceed in the coming weeks and 
months.
    Mr. Chairman, significant challenges remain in Iraq. A 
reinvigorated Cabinet is necessary both for political balance and to 
improve the delivery of services to Iraq's people. Challenges to the 
rule of law, especially corruption, are enormous. Disputed internal 
boundaries--the article 140 process--must be resolved. The return of 
refugees and the internally displaced must be managed. The rights of 
women and minorities must be better protected. Iraqis are aware of the 
challenges they face, and are working on them.
    Iraq's political progress will not be linear. Developments which 
are on the whole positive can still have unanticipated or destabilizing 
consequences. The decision to hold provincial elections--vital for 
Iraq's democratic development and long-term stability--will also 
produce new strains. Some of the violence we have seen recently in 
southern Iraq reflects changing dynamics within the Shia community as 
the political and security context changes. Such inflection points 
underscore the fragility of the situation in Iraq, but it would be 
wrong to conclude that any eruption of violence marks the beginning of 
an inevitable backslide.
                    economics and capacity-building
    In September, I reported to you that there had been some gains in 
Iraq's economy and in the country's efforts to build capacity to 
translate these gains into more effective governance and services. 
Iraqis have built on these gains over the past months, as is most 
evident in the revival of marketplaces across Iraq and the reopening of 
long-shuttered businesses. According to a Center for International 
Private Enterprise poll last month, 78 percent of Iraqi business owners 
surveyed expect the Iraqi economy to grow significantly in the next 2 
years.
    With the improving security and rising government expenditures, the 
IMF projects that Iraq's GDP will grow 7 percent in real terms this 
year, and inflation has been tamed. The Iraqi dinar remains strong and 
the Central Bank has begun to bring down interest rates.
    Iraq's 2008 budget has allocated $13 billion for reconstruction, 
and a $5 billion supplemental budget this summer will invest export 
revenues in building the infrastructure and providing the services that 
Iraq so badly needs. This spending also benefits the United States--
Iraq recently announced its decision to purchase 40 commercial aircraft 
from the U.S at an estimated cost of $5 billion.
    As Iraq is now earning the financial resources it needs for bricks 
and mortar construction through oil production and export, our primary 
focus has shifted to capacity development and an emphasis on local and 
post-kinetic development through our network of Provincial 
Reconstruction Teams (PRTs) and ministerial advisers. The era of U.S.-
funded major infrastructure projects is over. We are seeking to ensure 
that our assistance, in partnership with the Iraqis, leverages Iraq's 
own resources. Our 25 PRTs throughout Iraq have been working to improve 
provincial and local governance capabilities, particularly in budget 
design and execution. They are also helping to establish critical 
linkages between provincial and federal governments. Our PRTs are great 
enablers, and we are working to insure their continued viability as our 
forces redeploy. The relatively small amounts they disburse through 
Quick Response Funds (QRF) have major impacts in local communities, and 
congressional support is important, as it is for other vital programs 
in the FY08 Global War on Terror Supplemental request.
    Iraq increasingly is using its own resources to support projects 
and programs that we have developed. It has committed nearly $200 
million in support of a program to provide vocational training for 
concerned local citizens who stood up with us in the Awakening. Our 
technical assistance advisers have helped design new procurement 
procedures for Iraq's Oil Ministry. We developed the technical 
specifications from which Iraq's state-owned oil company will build new 
oil export platforms and underwater pipelines worth over a billion 
dollars. And in Baghdad, in the last 3 months the municipality has 
stepped up to take over labor contracts worth $100 million that we had 
been covering under the Community Stabilization Program.
    Like so much else, Iraq's economy is fragile, the gains reversible 
and the challenges ahead substantial. Iraq will need to continue to 
improve governmental capacity, pass national-level hydrocarbon 
legislation, improve electrical production and distribution, improve 
the climate for foreign and domestic investment, create short- and 
long-term jobs and tackle the structural and economic problems of the 
vital agricultural sector. We will be helping the Iraqis as they tackle 
this challenging agenda, along with other international partners 
including the United Nations and the World Bank.
                  regional and international dynamics
    Along with the security surge last year, we also launched a 
diplomatic surge--focused on enhancing U.N. engagement in Iraq, 
anchoring the International Compact with Iraq, and establishing an 
expanded neighbors process, which serves as a contact group in support 
of Iraq.
    The United Nations has taken advantages of an expanded mandate 
granted to the Untied Nations Assistance Mission in Iraq (UNAMI) to 
increase the scope of its activities and the size of its staff. Under 
dynamic new leadership, UNAMI is playing a key role in preparing for 
provincial elections and in providing technical assistance to resolve 
disputed internal boundaries. UNHCR has returned international staff to 
Iraq to assist with the return of internally displaced persons and 
refugees. The International Compact with Iraq provides a 5-year 
framework for Iraq to reform its economy and achieve economic self-
sufficiency in exchange for long overdue Saddam-era debt relief. 
Preparations are underway for a ministerial level Compact meeting in 
Sweden next month; 74 nations were represented at last year's gathering 
in Egypt.
    Iraq's neighbors also understand they have a major interest in 
Iraq's future. Turkey hosted the second ministerial meeting of Iraq's 
neighbors in November, and Kuwait will host the third meeting later 
this month. In addition to all of Iraq's neighbors, these expanded 
neighbors conferences also include the Permanent Five members of the 
Security Council, the Arab League, and the G-8.
    Support from Arab capitals has not been strong--and must improve, 
for the sake of Iraq and the sake of the region. Bahrain's recent 
announcement that it will return an ambassador to Baghdad is welcome, 
and other Arab states should follow suit. Iraq is a multiethnic state, 
but it is also a founding member of the Arab League and an integral 
part of the Arab world. Last month, Iraq hosted a meeting of the Arab 
Parliamentary Union, bringing the leaders of Arab Parliaments and 
consultative councils to Iraq for the first major inter-Arab gathering 
since 1990. It is noteworthy that the meeting was held in the Kurdish 
city of Irbil, under the recently redesigned Iraqi flag, highlighting 
both the remarkable prosperity and stability of Iraq's Kurdish region 
and the presence of the Iraqi federal state. We hope that this event 
will encourage more active Arab engagement with Iraq, and we expect 
that Prime Minister Maliki's effort against Shia extremist militias in 
Basra will receive Arab support.
    The presence of the PKK terrorist organization in the remote 
mountains of Iraq along the Turkish border has produced tension between 
Turkey and Iraq, and led to a Turkish cross-border operation in 
February, including movement of Turkish ground forces into Iraq. At the 
same time, both governments are working to strengthen their ties, and 
Iraqi President Talabani made a successful visit to Turkey in March.
    Syria plays an ambivalent role. We have seen evidence of efforts to 
interdict some foreign fighters seeking to transit Syria to Iraq, but 
others continue to cross the boarder. Syria also harbors individuals 
who finance and support the Iraqi insurgency.
    Iran continues to undermine the efforts of the Iraqi Government to 
establish a stable, secure state through the authority and training of 
criminal militia elements engaged in violence against Iraqi Security 
Forces, coalition forces, and Iraqi civilians. The extent of Iran's 
malign influence was dramatically demonstrated when militia elements 
armed and trained by Iran clashed with Iraqi Government forces in Basra 
and Baghdad. When the President announced the surge, he pledged to seek 
out and destroy Iranian-supported lethal networks inside Iraq. We know 
more about these networks and their Quds Force sponsors than ever 
before--and we will continue to aggressively uproot and destroy them. 
At the same time, we support constructive relations between Iran and 
Iraq and are participating in a tripartite process to discuss the 
security situation in Iraq. Iran has a choice to make.
                             looking ahead
    Mr. Chairman, almost everything about Iraq is difficult. It will 
continue to be difficult as Iraqis struggle with the damage and trauma 
inflicted by 35 years of totalitarian Baathist rule. But hard does not 
mean hopeless, and the political and economic process of the past few 
months is significant. I must underscore, however, that these gains are 
fragile, and they are reversible. Americans have invested a great deal 
in Iraq, in blood as well as treasure, and they have the right to ask 
whether this is worth it, whether it is now time to walk away and let 
the Iraqis fend for themselves. Iraq has the potential to develop into 
a stable, secure multiethnic, multisectarian democracy under the rule 
of law. Whether it realizes that potential is ultimately up to the 
Iraqi people. Our support, however, will continue to be critical. I 
said in September that I cannot guarantee success in Iraq. That is 
still the case, although I think we are now closer. I remain convinced 
that a major departure from our current engagement would bring failure, 
and we have to be clear with ourselves about what failure would mean.
    Al-Qaeda is in retreat in Iraq, but it is not yet defeated. Al-
Qaeda's leaders are looking for every opportunity they can to hang on. 
Osama bin Ladin has called Iraq ``the perfect base,'' and it reminds us 
that a fundamental aim of al-Qaeda is to establish itself in the Arab 
world. It almost succeeded in Iraq; we cannot allow it a second chance.
    And it is not only al-Qaeda that would benefit--Iran has said 
publicly it will fill any vacuum in Iraq, and extremist Shia militias 
would reassert themselves. We saw them try in Basra and Baghdad 2 weeks 
ago. And in all of this, the Iraqi people would suffer on a scale far 
beyond what we have already seen. Spiraling conflict could draw in 
neighbors with devastating consequences for the region and the world.
    Mr. Chairman, as monumental as the events of the last 5 years have 
been in Iraq, Iraqis, Americans, and the world ultimately will judge us 
far more on the basis of what will happen than what has happened. In 
the end, how we leave and what we leave behind will be more important 
than how we came. Our current course is hard, but it is working. 
Progress is real although still fragile. We need to stay with it.
    In the months ahead, we will continue to assist Iraq as it pursues 
further steps toward reconciliation and economic development. Over 
time, this will become increasingly an Iraqi process, as it should be. 
Our efforts will focus on increasing Iraq's integration regionally and 
internationally; assisting Iraqi institutions locally and nationally to 
strengthen the political process and promote economic activity; and 
supporting United Nations efforts as Iraq carries out local elections 
toward the end of the year. These efforts will require an enhanced 
civilian commitment and continued support from the Congress and the 
American people.
    In closing, Mr. Chairman, I want to recognize and thank all those 
who serve our country in Iraq--military and civilian. Their courage and 
commitment, at great sacrifice, has earned the admiration of all 
Americans. They certainly have mine, and it is an honor to be with 
them.

    The Chairman. General Petraeus.

   STATEMENT OF GEN DAVID H. PETRAEUS, USA, COMMANDER, MULTI-
               NATIONAL FORCE-IRAQ, BAGHDAD, IRAQ

    General Petraeus. Mr. Chairman, Senator Lugar, members of 
the committee, thank you for the opportunity to provide an 
update on the security situation in Iraq and to discuss the 
recommendations I recently provided by my chain of command.
    Since Ambassador Crocker and I appeared before you, 7 
months ago, there has been significant, but uneven, progress in 
Iraq. Since September, levels of violence and civilian deaths 
have been reduced substantially. Al-Qaeda-Iraq and a number of 
other extremist elements have been dealt serious blows. And 
capabilities of Iraqi Security Forces elements have grown.
    There has been noteworthy involvement of local Iraqis and 
local security. Nonetheless, the situation in certain areas is 
still unsatisfactory, and innumerable challenges remain. 
Moreover, as events in the past 2 weeks have reminded us, and 
as I have repeatedly cautioned, the progress made since last 
spring is fragile and reversible. Still, security in Iraq is 
better than it was when Ambassador Crocker and I reported to 
you last September, and it is significantly better than it was 
15 months ago, when Iraq was on the brink of civil war and the 
decision was made to deploy additional United States forces to 
Iraq.
    A number of factors have contributed to the progress that 
has been made.
    First, of course, has been the impact of increased numbers 
of coalition and Iraqi forces. You're well aware of the U.S. 
surge. Less recognized is that Iraq has also conducted a surge, 
adding well over 100,000 additional soldiers and police to the 
ranks of its security forces in 2007, and slowing increasing 
its capacity to deploy and employ these forces.
    A second factor has been the employment of coalition and 
Iraqi forces in the conduct of counterinsurgency operations 
across the country, deployed together to safeguard the Iraqi 
people, to pursue al-Qaeda, to combat criminals and militia 
extremists, to foster local reconciliation, and to enable 
political and economic progress.
    Another important factor has been the attitudinal shift 
among certain elements of the Iraqi population. Since the first 
Sunni Awakening, in late 2006, Sunni communities in Iraq 
increasingly have rejected al-Qaeda's indiscriminate violence 
and extremist ideology. These communities also recognize that 
they could not share in Iraq's bounty if they didn't 
participate in the political arena.
    Over time, Awakenings have prompted tens of thousands of 
Iraqis, some former insurgents, to contribute to local security 
as so-called ``Sons of Iraq.'' With their assistance and with 
relentless pursuit of al-Qaeda-Iraq, the threat posed by AQI, 
while still lethal and substantial, has been reduced 
substantially.
    The recent flareup in Basra, southern Iraq, and Baghdad, 
underscored the importance of the cease-fire declared by 
Muqtada al-Sadr last fall, as another factor in the overall 
reduction in violence. Recently, of course, some militia 
elements became active again. Though a Sadr standdown order 
resolved the situation to a degree, the flareup also 
highlighted the destructive role Iran has played in funding, 
training, arming, and directing the so-called ``special 
groups,'' and generated renewed concern about Iran in the minds 
of many Iraqi leaders. Unchecked the special groups pose the 
greatest long-term threat to the viability of a democratic 
Iraq.
    As we look to the future, our task, together with our Iraqi 
partners, will be to build on the progress achieved, and to 
deal with the many challenges that remain. I do believe that we 
can do this while continuing the ongoing drawdown of the surge 
forces.
    In September, I described the fundamental nature of the 
conflict in Iraq as a competition among ethnic and sectarian 
communities for power and resources. This competition 
continues, influenced heavily by outside actors, and its 
resolution remains the key to producing long-term stability in 
Iraq. Various elements push Iraq's ethnosectarian competition 
toward violence. Terrorist insurgents, militia extremists, and 
criminal gangs pose significant threats.
Al-Qaeda's senior leaders, who still view Iraq as the central 
front in their global strategy, send funding, direction, and 
foreign fighters to Iraq.
    Actions by neighboring states compound Iraq's challenges. 
Syria has taken some steps to reduce the flow of foreign 
fighters through its territory, but not enough to shut down the 
key network that supports al-Qaeda-Iraq. And Iran has fueled 
the violence in a particularly damaging way, through its legal 
support to the special groups.
    Finally, insufficient Iraqi governmental capacity, 
lingering sectarian mistrust, and corruption add to Iraq's 
problems.
    These challenges in recent weeks, violence notwithstanding, 
Iraq's ethnosectarian competition in many areas is now taking 
place more through debate and less through violence. In fact, 
the recent escalation of violence in Baghdad in southern Iraq 
was dealt with, temporarily at least, by most parties 
acknowledging that the rational way forward is through 
political dialog rather than street-fighting.
    As I stated at the outset, though Iraq obviously remains a 
violent country, we do see progress in the security arena. As 
this chart illustrates, for nearly 6 months security incidents 
have been at a level not seen since early to mid-2005, though 
the level did spike in recent weeks as a result of the violence 
in Basra and Baghdad. The level of incidence has, however, 
begun to turn down again, though the period ahead will be a 
sensitive one.
    As our primary mission is to help protect the population, 
we closely monitor the number of Iraqi civilians killed due to 
violence. As this chart reflects, civilian deaths have 
decreased over the past year to a level not seen since the 
February 2006 Samarra Mosque bombing that set off the cycle of 
sectarian violence that tore the very fabric of Iraqi society 
in 2006 and early 2007.
    This chart also reflects our increase in use of Iraqi-
provided reports, with the top line reflecting coalition and 
Iraqi data, and the bottom line reflecting coalition-confirmed 
data only. No matter which data set is used, civilian deaths 
due to violence have been reduced significantly, though more 
work clearly needs to be done.
    Ethnosectarian violence is a particular concern in Iraq, as 
it is a cancer that continues to spread, if left unchecked. As 
the box on the bottom left of this chart shows, the number of 
deaths due to ethnosectarian violence has fallen since we 
testified last September. A big factor has been the reduction 
of ethnosectarian violence in Baghdad, density plots for which 
are shown in the boxes depicting Iraq's capital over time.
    Some of this decrease is, to be sure, due to sectarian 
hardening of certain Baghdad neighborhoods. However, that is 
only a partial explanation, as countless sectarian fault lines 
and numerous mixed neighbors still exist in Baghdad and 
elsewhere. In fact, coalition and Iraqi forces have focused 
along the fault lines to reduce the violence and enable Sunni 
and Shia leaders to begin the long process of healing in their 
local communities.
    As this next chart shows, even though the number of high-
profile attacks increased in March as al-Qaeda-Iraq lashed out, 
the current level of such attacks remains far below its height 
a year ago. Moreover, as we have helped improve security and 
focused on enemy networks, we've seen a decrease in the 
effectiveness of such attacks. The number of deaths due to 
ethnosectarian violence, in particular, as I mentioned, has 
remained relatively low, illustrating the enemy's inability, to 
date, to reignite the cycle of ethnosectarian violence.
    The emergence of Iraqi volunteers helping to secure their 
local communities has been an important development. As this 
chart depicts, there are now over 91,000 Sons of Iraq--Shia as 
well as Sunni--under contract to help coalition and Iraqi 
forces protect their neighborhoods and secure infrastructure 
and roads. These volunteers have contributed significantly in 
various areas, and the savings in vehicles not lost because of 
reduced violence, not to mention the priceless lives saved, 
have far outweighed the cost of their monthly contracts.
    Sons of Iraq have also contributed to the discovery of 
improvised explosive devices and weapons and explosive caches. 
As this next chart shows, in fact, we have already found more 
caches in 2008 than we found in all of 2006. Given the 
importance of Sons of Iraq, we are working closely with the 
Iraqi Government to transition them into the Iraqi Security 
Forces or other forms of employment, and over 21,000 have 
already been accepted into the police or army or other 
government jobs. This process has been slow, but it is taking 
place, and we will continue to monitor it carefully.
    Al-Qaeda also recognizes the significance of the Sons of 
Iraq, and al-Qaeda elements have targeted them repeatedly. 
However, these attacks, in addition to AQI's use of women, 
children, and the handicapped as suicide bombers, have further 
alienated al-Qaeda-Iraq from the Iraqi people. And the 
tenacious pursuit of al-Qaeda-Iraq, together with AQI's loss of 
local support in many areas, has substantially reduced its 
capability, numbers, and freedom of movement.
    This chart displays the cumulative effect of the effort 
against AQI and its insurgent allies. As you can see, we have 
reduced, considerably, the areas in which AQI enjoys support 
and sanctuary, though there clearly is more to be done.
    Having noted the progress, al-Qaeda-Iraq is still capable 
of lethal attacks, and we must maintain relentless pressure on 
the organization, on the networks outside Iraq that support it, 
and on the resource flows that sustain it.
    This chart lays out the comprehensive strategy that we, the 
Iraqis, and our interagency and international partners are 
employing to reduce what al-Qaeda-Iraq needs. As you can see, 
defeating al-Qaeda in Iraq requires not just actions by our 
elite counterterrorist forces, but also major operations by 
coalition and Iraqi conventional forces, a sophisticated 
intelligence effort, political reconciliation, economic and 
social programs, information operations initiatives, diplomatic 
activity, the employment of counterinsurgency principles in 
detainee operations, and many other actions.
    As we combat AQI, we must remember that doing so not only 
reduces a major source of instability in Iraq, it also weakens 
an organization that al-Qaeda's senior leaders view as a tool 
to spread its influence and foment regional instability. Osama 
bin Laden and Ayman al-Zawahiri have consistently advocated 
exploiting the situation in Iraq, and we have also seen al-
Qaeda-Iraq involved in destabilizing activities in the wider 
Middle East region.
    Together with the Iraqi Security Forces, we have also 
focused on the ``special groups.'' These elements are funded, 
trained, armed, and directed by Iran's Quds Force, with help 
from Lebanese Hezbollah. It was these groups that launched 
Iranian rockets and mortar rounds at Iraq's seat of government 
2 weeks ago, causing the loss of innocent life and fear in the 
capital, and requiring Iraqi and coalition actions in response. 
Iraqi and coalition leaders have repeated noted their desire 
that Iran live up to promises made by President Ahmadinejad and 
other senior Iranian leaders to stop their support for the 
``special groups.'' However, nefarious activities by the Quds 
Force have continued, and Iraqi leaders now clearly recognize 
the threat they pose to Iraq.
    We should all watch Iranian actions closely in the weeks 
and months ahead, as they will show the kind of relationship 
Iran wishes to have with its neighbor and the character of 
future Iranian involvement in Iraq.
    The Iraqi Security Forces have continued to develop since 
September, and we have transferred responsibilities to Iraqi 
forces as their capabilities and the conditions on the ground 
have permitted.
    Currently, as this chart shows, half of Iraq's 18 provinces 
are under provincial Iraqi control. Many of these provinces, 
not just the successful provinces in the Kurdish Regional 
Government area, but also a number of southern provinces, have 
done well. Challenges have emerged in some others, including, 
of course, Basra. Nonetheless, this process will continue, and 
we expect Anbar and Qadisiyah provinces to transition in the 
months ahead.
    Iraqi forces have grown significantly since September, and 
over 540,000 individuals now serve in the ISF. The number of 
combat battalions capable of taking the lead in operations, 
albeit with some coalition support, has grown to well over 100. 
These units are bearing an increasing share of the burden, as 
evidenced by the fact that Iraqi Security Forces losses have 
recently been three times our own. We will, of course, conduct 
careful after-action reviews with our Iraqi partners in the 
wake of recent operations, as there were units and leaders 
found wanting, in some cases, and some of our assessments may 
be downgraded as a result. Nonetheless, the performance of many 
units was solid, especially once they got their footing and 
gained a degree of confidence, and certain Iraqi elements 
proved quite capable.
    Underpinning the advances of the past year have been 
improvements in Iraq's security institutions. An increasingly 
robust Iraqi-run training base enabled the Iraqi Security 
Forces to grow by over 133,000 soldiers and police over the 
last 16 months, and the still-expanding training base is 
expected to generate an additional 50,000 Iraqi soldiers and 16 
army and special operations battalions throughout the rest of 
2008, along with over 23,000 police and 8 national police 
battalions.
    Additionally, Iraq's security ministries are steadily 
improving their ability to execute their budgets. As this chart 
shows, in 2007, as in 2006, Iraq's Security Ministry spent more 
on their forces than the United States provided through the 
Iraqi Security Forces Fund. We anticipate that Iraq will spend 
over $8 billion on security this year and $11 billion next 
year, and this projection enabled us, recently, to reduce, 
significantly, our Iraqi Security Forces Fund request for 
fiscal year 2009 from $5.1 billion to $2.8 billion.
    While improved Iraqi Security Forces are not yet ready to 
defend Iraq or maintain security throughout the entire country 
on their own, recent operations in Basra highlight improvements 
in the ability of the Iraqi Security Forces to deploy 
substantial numbers of units, supplies, and replacements on 
very short notice. They certainly could not have deployed a 
division's worth of army and police units on such notice a year 
ago. On the other hand, the recent operations also underscore 
the considerable work still to be done in the areas of 
expeditionary logistics, force enablers, staff development, and 
command and control.
    We also continue to help Iraq through the U.S. Foreign 
Military Sales Program. As of March 2008, the Iraqi Government 
has purchased over 2 billion dollars' worth of equipment and 
services of American origin through FMS. Since September, and 
with your encouragement of the organizations in the FMS 
process, delivery has improved as the FMS system has strived to 
support urgent wartime requirements.
    While security has improved in many areas, and the Iraqi 
Security Forces are shouldering more of the load, the situation 
in Iraq remains exceedingly complex and challenging. Iraq could 
face a resurgence of AQI, or additional Shia groups could 
violate Muqtada al-Sadr's cease-fire order and return to 
violence. External actors, like Iran, could stoke violence 
within Iraq. And actions by other neighbors could undermine the 
security situation, as well.
    Other challenges results, paradoxically, from improved 
security, which has provided opportunities for political and 
economic progress and improved services at the local, 
provincial, and national levels. But, the improvements have 
also created expectations that progress will continue.
    The Commander's Emergency Response Program, the State 
Department's Quick-Response Fund, and the USAID programs enable 
us to help Iraq deal with its challenges. To that end, I 
respectfully ask that you provide us, by June, the additional 
CERP funds requested in the supplemental. These funds have an 
enormous impact. As I noted earlier, the salaries paid to the 
Sons of Iraq alone cost far less than the cost savings in 
vehicles not lost due to the enhanced security in local 
communities.
    Encouragingly, the Iraqi Government recently allocated $300 
million for us to manage, as Iraqi CERP, to perform projects 
for their people while building their own capacity to do so. 
The government has also committed $163 million to gradually 
assume Sons of Iraq contracts, $510 million for small-business 
loans, and $196 million for a joint training, education, and 
reintegration program. The Iraqi Government pledges to provide 
more as they execute the budget passed 2 months ago. 
Nonetheless, it is hugely important to have our resources 
continue, even as Iraqi funding begins to outstrip ours.
    Last month, I provided my chain of command recommendations 
for ``The Way Ahead in Iraq.'' During that process, I noted the 
objective of retaining and building on our hard-fought security 
gains while we drawdown to the presurge level of 15 brigade 
combat teams. I emphasized the need to continue work with our 
Iraqi partners to secure the population and to transition 
responsibilities to the Iraqis as quickly as conditions permit, 
but without jeopardizing the security gains that have been 
made.
    As in September, my recommendations are informed by 
operational and strategic considerations. The operational 
considerations include recognition that the military surge has 
achieved progress, but that that progress is reversible; Iraqi 
Security Forces have strengthened their capabilities, but still 
must grow further; the provincial elections in the fall, 
refugee returns, detainee releases, and efforts to resolve 
provincial boundary disputes and article 140 issues will be 
very challenging; the transition of Sons of Iraq into the Iraqi 
Security Forces or other pursuits will require time and careful 
monitoring; withdrawing too many forces too quickly could 
jeopardize the progress of the past year; and performing the 
necessary tasks in Iraq will require sizable conventional 
forces, as well as special operations forces and adviser teams.
    The strategic considerations include recognition that the 
strain on the U.S. military, especially on its ground forces, 
has been considerable. A number of the security challenges 
inside Iraq are also related to significant regional and global 
threats. A failed state in Iraq would pose serious consequences 
for the greater fight against al-Qaeda, for regional stability, 
for the already existing humanitarian crisis in Iraq, and for 
the effort to counter malign Iranian influence.
    After weighing these factors, I recommended to my chain of 
command that we continue the drawdown of the surged combat 
forces, and that, upon the withdrawal of the last surged 
brigade combat team in July, we undertake a 45-day period of 
consolidation of our forces and evaluation. At the end of that 
period, we'll commence a period of assessment to examine the 
conditions on the ground and determine when we can make 
recommendations for further reductions. This process will be 
continuous, with recommendations for further reductions made as 
conditions permit.
    This approach does not allow establishment of a set 
withdrawal timeline; however, it does provide the flexibility 
those of us on the ground need to preserve the still-fragile 
security gains our troopers have fought so hard and sacrificed 
so much to achieve.
    With this approach, the security achievements of 2007 and 
early 2008 can form a foundation for the gradual establishment 
of sustainable security in Iraq. This is not only important to 
the 27 million citizens of Iraq, it is also vitally important 
to those in the gulf region, to the citizens of the United 
States, and to the global community. It clearly is in our 
national interest to help Iraq prevent the resurgence of al-
Qaeda in the heart of the Arab world, to help Iraq resist 
Iranian encroachment on its sovereignty, to avoid renewed 
ethnosectarian violence that could spill over Iraq's borders 
and make the existing refugee crisis even worse, and to enable 
Iraq to expand its role in the regional and global economies.
    In closing, I, too, want to comment briefly on those 
serving our Nation in Iraq. We've asked a great deal of them, 
and of their families, and they have made enormous sacrifices. 
My keen personal awareness of the strain on them, and on the 
force as a whole, has been an important factor in my 
recommendations. The Congress, the executive branch, and our 
fellow citizens have done an enormous amount to support our 
troopers, our civilians, and their loved ones, and all of us 
are grateful for that. Nothing means more to those in harm's 
way than the knowledge that their country appreciates their 
sacrifices and those of their families.
    Indeed, all Americans should take great pride in the men 
and women, civilian as well as military, serving our Nation in 
Iraq, and in the courage, determination, resilience, and 
initiative they demonstrate each and every day. It remains the 
greatest of honors to soldier with them.
    Thank you very much.

[Editor's note.--The slides presented by GEN Petraeus during 
his testimony were not reproducible in this printed hearing. 
They will be maintained and can be viewed in the permanent 
record of the committee.]

    [The prepared statement of General Petraeus follows:]

Prepared Statement of GEN David H. Petraeus, Commander, Multi-National 
                       Force-Iraq, Baghdad, Iraq

    Mr. Chairman, ranking member, members of the committee, thank you 
for the opportunity to provide an update on the security situation in 
Iraq and to discuss the recommendations I recently provided to my chain 
of command.
    Since Ambassador Crocker and I appeared before you 7 months ago, 
there has been significant but uneven security progress in Iraq. Since 
September, levels of violence and civilian deaths have been reduced 
substantially, al-Qaeda-Iraq and a number of other extremist elements 
have been dealt serious blows, the capabilities of Iraqi Security Force 
elements have grown, and there has been noteworthy involvement of local 
Iraqis in local security. Nonetheless, the situation in certain areas 
is still unsatisfactory and innumerable challenges remain. Moreover, as 
events in the past 2 weeks have reminded us and as I have repeatedly 
cautioned, the progress made since last spring is fragile and 
reversible. Still, security in Iraq is better than it was when 
Ambassador Crocker and I reported to you last September, and it is 
significantly better than it was 15 months ago when Iraq was on the 
brink of civil war and the decision was made to deploy additional U.S. 
forces to Iraq.
    A number of factors have contributed to the progress that has been 
made. First, of course, has been the impact of increased numbers of 
coalition and Iraqi forces. You are well aware of the U.S. surge. Less 
recognized is that Iraq has also conducted a surge, adding well over 
100,000 additional soldiers and police to the ranks of its security 
forces in 2007 and slowly increasing its capability to deploy and 
employ these forces.
    A second factor has been the employment of coalition and Iraqi 
forces in the conduct of counterinsurgency operations across the 
country, deployed together to safeguard the Iraqi people, to pursue al-
Qaeda-Iraq, to combat criminals and militia extremists, to foster local 
reconciliation, and to enable political and economic progress.
    Another important factor has been the attitudinal shift among 
certain elements of the Iraqi population. Since the first Sunni 
``Awakening'' in late 2006, Sunni communities in Iraq increasingly have 
rejected AQI's indiscriminate violence and extremist ideology. These 
communities also recognized that they could not share in Iraq's bounty 
if they didn't participate in the political arena. Over time, 
Awakenings have prompted tens of thousands of Iraqis--some, former 
insurgents--to contribute to local security as so-called ``Sons of 
Iraq.'' With their assistance and with relentless pursuit of al-Qaeda-
Iraq, the threat posed by AQI--while still lethal and substantial--has 
been reduced significantly.
    The recent flareup in Basra, southern Iraq, and Baghdad underscored 
the importance of the cease-fire declared by Muqtada al-Sadr last fall 
as another factor in the overall reduction in violence. Recently, of 
course, some militia elements became active again. Though a Sadr 
standdown order resolved the situation to a degree, the flareup also 
highlighted the destructive role Iran has played in funding, training, 
arming, and directing the so-called Special Groups and generated 
renewed concern about Iran in the minds of many Iraqi leaders. 
Unchecked, the Special Groups pose the greatest long-term threat to the 
viability of a democratic Iraq.
    As we look to the future, our task together with our Iraqi partners 
will be to build on the progress achieved and to deal with the many 
challenges that remain. I do believe that we can do this while 
continuing the ongoing drawdown of the surge forces.
                       the nature of the conflict
    In September, I described the fundamental nature of the conflict in 
Iraq as a competition among ethnic and sectarian communities for power 
and resources. This competition continues, influenced heavily by 
outside actors, and its resolution remains the key to producing long-
term stability in Iraq.
    Various elements push Iraq's ethnosectarian competition toward 
violence. Terrorists, insurgents, militia extremists, and criminal 
gangs pose significant threats.
Al-Qaeda's senior leaders, who still view Iraq as the central front in 
their global strategy, send funding, direction, and foreign fighters to 
Iraq. Actions by neighboring states compound Iraq's challenges. Syria 
has taken some steps to reduce the flow of foreign fighters through its 
territory, but not enough to shut down the key network that supports 
AQI. And Iran has fueled the violence in a particularly damaging way, 
through its lethal support to the Special Groups. Finally, insufficient 
Iraqi governmental capacity, lingering sectarian mistrust, and 
corruption add to Iraq's problems.
    These challenges and recent weeks' violence notwithstanding, Iraq's 
ethnosectarian competition in many areas is now taking place more 
through debate and less through violence. In fact, the recent 
escalation of violence in Baghdad and southern Iraq was dealt with 
temporarily, at least, by most parties acknowledging that the rational 
way ahead is political dialogue rather than street fighting.
                      current situation and trends
    As I stated at the outset, though Iraq obviously remains a violent 
country, we do see progress in the security arena.
    As this chart [slide 1]* illustrates, for nearly 6 months, security 
incidents have been at a level not seen since early-to-mid-2005, though 
the level did spike in recent weeks as a result of the violence in 
Basra and Baghdad. The level of incidents has, however, begun to turn 
down again, though the period ahead will be a sensitive one.
    As our primary mission is to help protect the population, we 
closely monitor the number of Iraqi civilians killed due to violence. 
As this chart [slide 2] reflects, civilian deaths have decreased over 
the past year to a level not seen since the February 2006 Samarra 
Mosque bombing that set off the cycle of sectarian violence that tore 
the very fabric of Iraqi society in 2006 and early 2007. This chart 
also reflects our increasing use of Iraqi-provided reports, with the 
top line reflecting coalition and Iraqi data and the bottom line 
reflecting coalition-confirmed data only. No matter which data is used, 
civilian deaths due to violence have been reduced significantly, though 
more work clearly needs to be done.
    Ethnosectarian violence is a particular concern in Iraq, as it is a 
cancer that continues to spread if left unchecked. As the box on the 
bottom left of this chart [slide 3] shows, the number of deaths due to 
ethnosectarian violence has fallen since we testified last September. A 
big factor has been the reduction of ethnosectarian violence in 
Baghdad, density plots for which are shown in the boxes depicting 
Iraq's capital over time. Some of this decrease is, to be sure, due to 
sectarian hardening of certain Baghdad neighborhoods; however, that is 
only a partial explanation as countless sectarian faultlines and 
numerous mixed neighborhoods still exist in Baghdad and elsewhere. In 
fact, coalition and Iraqi forces have focused along the faultlines to 
reduce the violence and enable Sunni and Shia leaders to begin the long 
process of healing in their local communities.
    As this next chart [slide 4] shows, even though the number of high 
profile attacks increased in March as AQI lashed out, the current level 
of such attacks remains far below its height a year ago. Moreover, as 
we have helped improve security and focused on enemy networks, we have 
seen a decrease in the effectiveness of such attacks. The number of 
deaths due to ethnosectarian violence, in particular, has remained 
relatively low, illustrating the enemy's inability to date to reignite 
the cycle of ethnosectarian violence.
    The emergence of Iraqi volunteers helping to secure their local 
communities has been an important development. As this chart [slide 5] 
depicts, there are now over 91,000 Sons of Iraq--Shia as well as 
Sunni--under contract to help coalition and Iraqi forces protect their 
neighborhoods and secure infrastructure and roads. These volunteers 
have contributed significantly in various areas, and the savings in 
vehicles not lost because of reduced violence--not to mention the 
priceless lives saved--have far outweighed the cost of their monthly 
contracts.
    Sons of Iraq have also contributed to the discovery of improvised 
explosive devices and weapons and explosives caches. As this next chart 
[slide 6] shows, in fact, we have already found more caches in 2008 
than we found in all of 2006. Given the importance of the Sons of Iraq, 
we are working closely with the Iraqi Government to transition them 
into the Iraqi Security Forces or other forms of employment, and over 
21,000 have already been accepted into the police or army or other 
government jobs. This process has been slow, but it is taking place, 
and we will continue to monitor it carefully.
    Al-Qaeda also recognizes the significance of the Sons of Iraq, and 
AQI elements have targeted them repeatedly. However, these attacks--in 
addition to AQI's use of women, children, and the handicapped as 
suicide bombers--have further alienated AQI from the Iraqi people. And 
the tenacious pursuit of AQI, together with AQI's loss of local support 
in many areas, has substantially reduced its capability, numbers, and 
freedom of movement. This chart [slide 7] displays the cumulative 
effect of the effort against AQI and its insurgent allies. As you can 
see, we have reduced considerably the areas in which AQI enjoys support 
and sanctuary, though there clearly is more to be done.
    Having noted that progress, AQI is still capable of lethal attacks, 
and we must maintain relentless pressure on the organization, on the 
networks outside Iraq that support it, and on the resource flows that 
sustain it. This chart [slide 8] lays out the comprehensive strategy 
that we, the Iraqis, and our interagency and international partners are 
employing to reduce what AQI needs. As you can see, defeating al-Qaeda 
in Iraq requires not just actions by our elite counterterrorist forces, 
but also major operations by coalition and Iraqi conventional forces, a 
sophisticated intelligence effort, political reconciliation, economic 
and social programs, information operations initiatives, diplomatic 
activity, the employment of counterinsurgency principles in detainee 
operations, and many other actions. Related to this effort, I applaud 
Congress' support for additional intelligence, surveillance, and 
reconnaissance assets in the upcoming supplemental, as ISR is vital to 
the success of our operations in Iraq and elsewhere.
    As we combat AQI, we must remember that doing so not only reduces a 
major source of instability in Iraq; it also weakens an organization 
that al-Qaeda's senior leaders view as a tool to spread its influence 
and foment regional instability. Osama bin Ladin and Ayman al-Zawahiri 
have consistently advocated exploiting the situation in Iraq, and we 
have also seen AQI involved in destabilizing activities in the wider 
Mideast region.
    Together with the Iraqi Security Forces, we have also focused on 
the Special Groups. These elements are funded, trained, armed, and 
directed by Iran's Quds Force, with help from Lebanese Hezbollah. It 
was these groups that launched Iranian rockets and mortar rounds at 
Iraq's seat of government 2 weeks ago, causing loss of innocent life 
and fear in the capital, and requiring Iraqi and coalition actions in 
response. Iraqi and coalition leaders have repeatedly noted their 
desire that Iran live up to promises made by President Ahmadinejad and 
other senior Iranian leaders to stop their support for the Special 
Groups. However, nefarious activities by the Quds Force have continued, 
and Iraqi leaders now clearly recognize the threat they pose to Iraq. 
We should all watch Iranian actions closely in the weeks and months 
ahead, as they will show the kind of relationship Iran wishes to have 
with its neighbor and the character of future Iranian involvement in 
Iraq.
                         iraqi security forces
    The Iraqi Security Forces have continued to develop since 
September, and we have transferred responsibilities to Iraqi forces as 
their capabilities and the conditions on the ground have permitted. 
Currently, as this chart [slide 9] shows, half of Iraq's 18 provinces 
are under provincial Iraqi control. Many of these provinces--not just 
the successful provinces in the Kurdish Regional Government area, but 
also a number of southern provinces--have done well. Challenges have 
emerged in some others, including, of course, Basra. Nonetheless, this 
process will continue, and we expect Anbar and Qadisiyah provinces to 
transition in the months ahead.
    Iraqi forces have grown significantly since September, and over 
540,000 individuals now serve in the Iraqi Security Forces. The number 
of combat battalions capable of taking the lead in operations, albeit 
with some coalition support, has grown to well over 100 [slide 10]. 
These units are bearing an increasing share of the burden, as evidenced 
by the fact that Iraqi Security Force losses have recently been three 
times our own. We will, of course, conduct careful after-action reviews 
with our Iraqi partners in the wake of recent operations, as there were 
units and leaders found wanting in some cases, and some of our 
assessments may be downgraded as a result. Nonetheless, the performance 
of many units was solid, especially once they got their footing and 
gained a degree of confidence, and certain Iraqi elements proved quite 
capable.
    Underpinning the advances of the past year have been improvements 
in Iraq's security institutions. An increasingly robust Iraqi-run 
training base enabled the Iraqi Security Forces to grow by over 133,000 
soldiers and police over the past 16 months. And the still-expanding 
training base is expected to generate an additional 50,000 Iraqi 
soldiers and 16 Army and Special Operations battalions throughout the 
rest of 2008, along with over 23,000 police and 8 National Police 
battalions.
    Additionally, Iraq's security ministries are steadily improving 
their ability to execute their budgets. As this chart [slide 11] shows, 
in 2007, as in 2006, Iraq's security ministries spent more on their 
forces than the United States provided through the Iraqi Security 
Forces Fund (ISFF). We anticipate that Iraq will spend over $8 billion 
on security this year and $11 billion next year, and this projection 
enabled us recently to reduce significantly our Iraqi Security Forces 
Fund request for fiscal year 2009 from $5.1 billion to $2.8 billion.
    While improved, Iraqi Security Forces are not yet ready to defend 
Iraq or maintain security throughout the country on their own. Recent 
operations in Basra highlight improvements in the ability of the Iraqi 
Security Forces to deploy substantial numbers of units, supplies, and 
replacements on very short notice; they certainly could not have 
deployed a division's worth of Army and Police units on such short 
notice a year ago. On the other hand, the recent operations also 
underscored the considerable work still to be done in the areas of 
logistics, force enablers, staff development, and command and control.
    We also continue to help Iraq through the U.S. Foreign Military 
Sales program. As of March 2008, the Iraqi Government has purchased 
over 2 billion dollars' worth of equipment and services of American 
origin through FMS. Since September, and with your encouragement of the 
organizations in the FMS process, delivery has improved as the FMS 
system has strived to support urgent wartime requirements. On a related 
note, I would ask that Congress consider restoring funding for the 
International Military Education and Training Program, which supports 
education for mid- and senior-level Iraqi military and civilian leaders 
and is an important component of the development of the leaders Iraq 
will need in the future.
                          upcoming challenges
    While security has improved in many areas and the Iraqi Security 
Forces are shouldering more of the load, the situation in Iraq remains 
exceedingly complex and challenging. Iraq could face a resurgence of 
AQI or additional Shia groups could violate Muqtada al-Sadr's cease-
fire order and return to violence. External actors, like Iran, could 
stoke violence within Iraq, and actions by other neighbors could 
undermine the security situation as well.
    Other challenges result, paradoxically, from improved security, 
which has provided opportunities for political and economic progress 
and improved services at the local, provincial, and national levels. 
But the improvements have also created expectations that progress will 
continue. In the coming months, Iraq's leaders must strengthen 
governmental capacity, execute budgets, pass additional legislation, 
conduct provincial elections, carry out a census, determine the status 
of disputed territories, and resettle internally displaced persons and 
refugees. These tasks would challenge any government, much less a still 
developing government tested by war.
    The Commander's Emergency Response Program, the State Department's 
Quick Response Fund, and USAID programs enable us to help Iraq deal 
with its challenges. To that end, I respectfully ask that you provide 
us by June the additional CERP funds requested in the supplemental. 
These funds have an enormous impact. As I noted earlier, the salaries 
paid to the Sons of Iraq alone cost far less than the cost savings in 
vehicles not lost due to the enhanced security in local communities. 
Encouragingly, the Iraqi Government recently allocated $300 million for 
us to manage as ``Iraqi CERP'' to perform projects for their people, 
while building their own capacity to do so. The Iraqi Government has 
also committed $163 million to gradually assume Sons of Iraq contracts, 
$510 million for small business loans, and $196 million for a Joint 
Training, Education, and Reintegration Program. The Iraqi Government 
pledges to provide more as they execute the budget passed 2 months ago. 
Nonetheless, it is hugely important to have our resources continue, 
even as Iraqi funding begins to outstrip ours.
                            recommendations
    Last month I provided my chain of command recommendations for the 
way ahead in Iraq. During that process, I noted the objective of 
retaining and building on our hard-fought security gains while we 
drawdown to the presurge level of 15 brigade combat teams. I emphasized 
the need to continue work with our Iraqi partners to secure the 
population and to transition responsibilities to the Iraqis as quickly 
as conditions permit, but without jeopardizing the security gains that 
have been made.
    As in September, my recommendations are informed by operational and 
strategic considerations. The operational considerations include 
recognition that:

  <bullet> The military surge has achieved progress, but that the 
        progress is reversible;
  <bullet> Iraqi Security Forces have strengthened their capabilities 
        but still must grow further;
  <bullet> The provincial elections in the fall, refugee returns, 
        detainee releases, and efforts to resolve provincial boundary 
        disputes and article 140 issues will be very challenging;
  <bullet> The transition of Sons of Iraq into the Iraqi Security 
        Forces or other pursuits will require time and careful 
        monitoring;
  <bullet> Withdrawing too many forces too quickly could jeopardize the 
        progress of the past year; and
  <bullet> Performing the necessary tasks in Iraq will require sizable 
        conventional forces as well as special operations forces and 
        adviser teams.

    The strategic considerations include recognition that:

  <bullet> The strain on the U.S. military, especially on its ground 
        forces, has been considerable;
  <bullet> A number of the security challenges inside Iraq are also 
        related to significant regional and global threats; and
  <bullet> A failed state in Iraq would pose serious consequences for 
        the greater fight against al-Qaeda, for regional stability, for 
        the already existing humanitarian crisis in Iraq, and for the 
        effort to counter malign Iranian influence.

    After weighing these factors, I recommended to my chain of command 
that we continue the drawdown of the surge combat forces and that, upon 
the withdrawal of the last surge brigade combat team in July, we 
undertake a 45-day period of consolidation and evaluation. At the end 
of that period, we will commence a process of assessment to examine the 
conditions on the ground and, over time, determine when we can make 
recommendations for further reductions. This process will be 
continuous, with recommendations for further reductions made as 
conditions permit. This approach does not allow establishment of a set 
withdrawal timetable; however, it does provide the flexibility those of 
us on the ground need to preserve the still fragile security gains our 
troopers have fought so hard and sacrificed so much to achieve.
    With this approach, the security achievements of 2007 and early 
2008 can form a foundation for the gradual establishment of sustainable 
security in Iraq. This is not only important to the 27 million citizens 
of Iraq; it is also vitally important to those in the gulf region, to 
the citizens of the United States, and to the global community. It 
clearly is in our national interest to help Iraq prevent the resurgence 
of al-Qaeda in the heart of the Arab world, to help Iraq resist Iranian 
encroachment on its sovereignty, to avoid renewed ethnosectarian 
violence that could spill over Iraq's borders and make the existing 
refugee crisis even worse, and to enable Iraq to expand its role in the 
regional and global economies.
                            closing comments
    In closing, I want to comment briefly on those serving our Nation 
in Iraq. We have asked a great deal of them and of their families, and 
they have made enormous sacrifices. My keen personal awareness of the 
strain on them and on the force as a whole has been an important factor 
in my recommendations.
    The Congress, the executive branch, and our fellow citizens have 
done an enormous amount to support our troopers and their loved ones, 
and all of us are grateful for that. Nothing means more to those in 
harm's way than the knowledge that their country appreciates their 
sacrifices and those of their families.
    Indeed, all Americans should take great pride in the men and women 
serving our Nation in Iraq and in the courage, determination, 
resilience, and initiative they demonstrate each and every day. It 
remains the greatest of honors to soldier with them.
    Thank you very much.

    The Chairman. Thank you very much, gentlemen.
    With Chairman Lugar's permission, I think we should do 7-
minute rounds. And thank you, gentlemen, for your physical 
constitution, here, for being able to sustain all this. Let me 
begin with a statement.
    Mr. Ambassador, I would not presume that, if the security 
agreement with Iraq goes beyond a Status of Forces Agreement, 
that you need only inform the Congress. You need to do much 
more than inform the Congress; you need the permission of the 
Congress if you're going to bind the next President of the 
United States in anything you agree to. But, that'll be 
something----
    [Applause.]
    The Chairman. There will be no response, please, from the 
audience.
    But, we have plenty of time to discuss that. Let's assume, 
gentlemen, all the progress you assert has been made--and I 
don't think anybody denies there's been progress made. And 
let's assume that you--and I believe you mean what you say, 
that our commitment is not open-ended--how far along this 
continuum, if--as they say--as average Americans say, on a 
scale of 1 to 10, how far along are we on this progress scale 
before we get to the point where we can significantly reduce 
American forces? Three, four, five, seven, eight, nine? Where 
are we?
    General Petraeus. Well, Senator----
    The Chairman. Give us some sense of how much progress has 
been made, relative to how much needs to be made--not in 
specific kinds of progress--that needs to be made in order for 
you to recommend to the President of the United States, ``Mr. 
President, we can not only drawdown, totally, the surge, but 
well below--well below what we have committed--have had in 
place the last 3 years.''
    General Petraeus. Well, again, Senator, you just mentioned 
the fact that we are, in fact, drawing down the forces that did 
constitute the surge, and that was part of the recommendation. 
It would have been a very, very difficult recommendation to do, 
otherwise; but, certainly that was in the realm of the 
possible, and that was made possible by the progress that we 
have made, particularly against al-Qaeda in Iraq----
    The Chairman. You're allowed to draw----
    General Petraeus [continuing]. Sunni insurgents----
    The Chairman. You recommended drawing down, before a pause, 
to the level that's 10,000 above what it was before the surge. 
Is that about right?
    General Petraeus. Sir, it's actually less than that. But, 
again, it's----
    The Chairman. But, it's----
    General Petraeus [continuing]. That's in the ballpark.
    The Chairman. But, it's above----
    General Petraeus. It is----
    The Chairman [continuing]. What it was----
    General Petraeus. It is above, because of certain enablers; 
in particular----
    The Chairman. But, in the interest----
    General Petraeus [continuing]. Military----
    The Chairman [continuing]. Of time, can you give me a 
sense--if you don't want to answer, just tell me you don't want 
to answer--on this scale of 1 to 10, to get to the point where 
you turn to the President and say, ``Mr. President, we can go 
down well below 130,'' which is the presurge level--how far 
along are we?
    General Petraeus. Well, I think we're in a 6 or a 7, or 
somewhere along there, Senator Biden. And----
    The Chairman. Thank you very much.
    General Petraeus. And what we'll do, again, is assess the 
conditions. Now, it doesn't mean that we have to wait, beyond--
--
    The Chairman. No; I understand.
    General Petraeus [continuing]. Much longer----
    The Chairman. I just want to----
    General Petraeus [continuing]. Much longer beyond 45 days.
    The Chairman [continuing]. Get a sense of where we are in 
this continuum.
    General Petraeus. OK, sir.
    The Chairman. Second, Mr. Ambassador, is al-Qaeda a greater 
threat to United States interests in Iraq or in the Afghan/
Pakistan border region?
    Ambassador Crocker. Mr. Chairman, al-Qaeda is a strategic 
threat to the United States wherever it is, in my----
    The Chairman. Where is----
    Ambassador Crocker [continuing]. Judgment.
    The Chairman [continuing]. Most of it?
    Ambassador Crocker. That----
    The Chairman. If you could take it out--you had a choice, 
the Lord Almighty came down, sat in the middle of the table 
there and said, ``Mr. Ambassador, you can eliminate every al-
Qaeda source in Afghanistan and Pakistan or every al-Qaeda 
personnel in Iraq,'' which would you pick?
    Ambassador Crocker. Well, given the progress that has been 
made against al-Qaeda in Iraq, the significant decrease in its 
capabilities, the fact that it is solidly on the defensive and 
not in a position, as far as----
    The Chairman. Which one would you----
    Ambassador Crocker [continuing]. I can judge----
    The Chairman [continuing]. Pick, Mr. Ambassador?
    Ambassador Crocker [continuing]. I would, therefore, pick 
al-Qaeda in the Pakistan/Afghanistan border area.
    The Chairman. That would be a smart choice.
    Now, assume that all the progress you assert has occurred. 
What further is required for you to suggest--either of you--
that the progress can be sustained at levels under 140,000 
troops, $12 billion a month, 30 to 40 deaths a month, and 225 
wounded a month? Because that's where we are now. To maintain 
where we are now, you're saying to us, at least for the next 45 
days, we have to continue to have 140,000, roughly, troops in 
place, we have to spend $12 billion a month, we're going to 
probably sustain 30 to 40 deaths a month, and we're going to 
have somewhere around 225 wounded a month. So, what has to 
happen--what has to happen for us to be able to reduce the 
costs in life and in dollars and in deployment?
    General Petraeus. There has to be progress in various local 
areas that we will look at, Senator. Because, again, what we'll 
be doing is the--an essentially--a combination of battlefield 
geometry that looks the enemy in the friendly situations, it 
looks at other factors. And there's also what the Ambassador 
has termed the ``political/military calculus.'' And you take 
that into account in local areas--most likely, province by 
province--and determine--we already have four or five locations 
that we are looking at most closely and determining whether to 
off-ramp those units at an appropriate moment----
    The Chairman. Well, let me----
    General Petraeus [continuing]. Assuming progress can 
continue.
    The Chairman. Thank you. My time is running out. Tell me 
whether or not there are any conditions under which you would 
recommend to us leaving--``conditions,'' meaning they got a lot 
worse--you say, ``to maintain the progress''--is there any 
conditions in which--those charts you showed us--if, this time 
in November or October, the American deaths have spiked back up 
to 2006 levels; if, in fact, the Awakening has decided it's 
awake and it's not going to be integrated, and it's better to 
go to war with the Shia, the civil war becomes more a reality; 
if, in fact, the numerous militia that exist among the Shia are 
in open war, not just in Basra, but for an extended period of 
time with one another--are any of those conditions such that 
you would say, ``We're going to have to withdraw and contain,'' 
or would you just automatically say--not ``automatic''--would 
you say we have to, once again, infuse more forces back into 
Iraq to settle it?
    We talk about this in terms of--you say, ``to sustain the 
progress.'' What happens, notwithstanding the pause, if, in 
fact, the progress is reversed obviously, significantly, and 
unalterably? What do you do then? Do you just come back and 
tell us the same?
    Ambassador Crocker. Mr. Chairman, it would be--it would 
depend on the specifics at the time.
    The Chairman. Let me give you the specifics: 90,000 Shia 
say, ``We're not getting dealt in,'' and the same kind of 
exchange in violence between Sunni and Shia is reignited in 
September, from Anbar province into Baghdad, and that same 
level of ethnosectarian violence is once again established. 
That's the condition. What do you do?
    Ambassador Crocker. Mr. Chairman, I really don't think you 
can have a productive conversation that is purely based on 
those hypotheticals.
    The Chairman. They're not----
    Ambassador Crocker. I mean, how did it----
    The Chairman [continuing]. Hypotheticals.
    Ambassador Crocker. How did it get that way? How did it get 
that way? I don't see that as likely, given what is lying 
ahead, in terms of provincial elections, for example. I think 
that is where you're going to not see both Sunnis and Shia 
focus to prepare for those who----
    The Chairman. What happens if the elections don't get 
carried off because of violence?
    Ambassador Crocker. Then we'll--we'll look at the 
circumstances and assess.
    The Chairman. I can't think of any circumstance where you 
fellows are likely to recommend--no matter how bad things got, 
where you would withdraw. But I may be mistaken. That's part of 
everyone's concern, at least mine.
    I yield to my colleague Senator Lugar.
    Senator Lugar. Well, thank you, Mr. Chairman.
    You have mentioned in your response to questions this 
morning, and, likewise, a little bit in your testimony, that 
you cannot assess the entire circumstances of our country. For 
example, presently, hopefully, somebody in the Defense 
Department or elsewhere is taking a look at the status of our 
military equipment overall. Briefings and hearings in other 
committees have highlighted deficiencies in a good number of 
categories of equipment for all of our Armed Forces. Or, as I 
mentioned in my opening statement, taking a look at the 
personnel situation. How are we going to maintain the Armed 
Forces that we have? Do we make changes in how we recruit and 
retain people for our Armed Forces? Are young Americans 
prepared, or even qualified to serve in sufficient quantities 
that may be required to meet our national security demands?
    Likewise, you cannot quite assess, nor can most of us, what 
impact a potential economic recession in our country means, or 
should it spread to other countries in the world, which then 
deprive us of resources, generally speaking.
    Likewise, what deficiencies do we have in energy security? 
How do food shortages throughout the world come into play.
    As you've pointed out, your job today is to discuss your 
responsibilities and the United States responsibilities in 
Iraq. But, these come in the midst of huge changes that are 
going on in our own context, some of them of our own making--
the lack of savings on the part of the American people, the 
problems of subprime mortgages, and many other things that 
really are not a part of Iraq--but factor into our 
preparedness, and our ability to respond.
    Now, I put it this way because usually when persons--not 
yourselves, but others--are asked, ``What if we were to 
withdraw significant American forces from Iraq?''--some people 
say we would have to rely, then, upon diplomacy to a greater 
extent, we would have to have a better consort with the 
countries that surround Iraq, or the United Nations, or NATO, 
or somebody else to fill in for that which we are not 
providing; or others would just simply say there will be dire 
consequences, and the consequences might be civil war, 
increased sectarian violence in many parts of the country, 
intervention by other countries, a halt in oil production that 
could cause further economic upheaval.
    But, let me just pose that particular question to the two 
of you. What are the dire circumstances?
    And then, second, what sort of contingency planning are we 
making, as a nation, for those dire circumstances? In other 
words, in the event that these dire circumstances occur, with 
or without 140,000 troops, what and who really comes to the 
rescue? How do we meet greater civil war, for example, or 
intervention by other countries, or the things that are usually 
predicted in the event that the core of American forces is 
mitigated or removed?
    General Petraeus. Well, Senator, what we have both 
identified as concerns if the progress is put into jeopardy, if 
other factor conspire against it, revolve around al-Qaeda 
regaining lost ground and influence, and then perhaps using 
that as a base to spread further----
    Senator Lugar. Well, what do we do about that----
    General Petraeus [continuing]. The----
    Senator Lugar [continuing]. General? Let's----
    General Petraeus. Well, we're staying after al-Qaeda, is 
what we're doing about it, Senator, tenaciously. We are----
    Senator Lugar. Then you need----
    General Petraeus [continuing]. We are battling----
    Senator Lugar [continuing]. More forces----
    General Petraeus [continuing]. Al-Qaeda every day. And----
    Senator Lugar. But, you'd need more forces, would you not, 
in the event that----
    General Petraeus. We----
    Senator Lugar [continuing]. Despite all of this----
    General Petraeus. We have the forces that we need right 
now, I believe. We've got to continue--we have to--we have our 
teeth into their--our teeth into their jugular, and we need to 
keep it there. We have tough fighting to do--in particular, in 
Mosul and Ninawa province--and we have to continue, and we have 
to continue and press the fight. And that's why I laid out the 
comprehensive approach that we are taking, which, by the way, 
very much involves diplomacy with source countries, it involves 
communications indirectly to Syria, it involves help from 
neighbors and so forth just to take action, such as, for 
example, not allowing a military-aged male to take a one-way 
ticket from some Sunni Arab country to Damascus, for example.
    Beyond that, other concerns, of course, the resumption of 
the ethnosectarian violence that tore Iraq apart in 2006 and 
2007--you saw the statistics on that; over 55 dead bodies a 
day, just in Baghdad, just from ethnosectarian violence--which 
caused so much of the tearing of the fabric of Iraqi society, 
and which the surge was, indeed, intended to stop and then to 
try to help people have the time to put a few stitches back 
into it.
    The Ambassador and I have both raised concerns about 
Iranian influence. As we mentioned this morning, the 
involvement of Iran with the so-called special groups and their 
activities in this indirect fire on the international zone, the 
seat of Iraqi Government came out in very high relief and 
generated enormous concern among Iraqi leaders, as well as, of 
course, among coalition leaders and civilians, because a number 
of these fell short, and, in fact, probably more civilian lives 
were lost than were others.
    Senator Lugar. What do you do about that, General, about 
the Iranian influence, even as it is high profile?
    General Petraeus. What we have done, sir, is, we have 
detained special-group members. We are going to lay out for the 
press, here, at some point in the future, what we have learned 
from them about their--the Quds Force training, equipping, 
funding, and directing of the so-called special groups, and the 
help that Lebanese Hezbollah has provided them. As I believe I 
reported to you in September, we detained the deputy head of 
Lebanese Hezbollah Department 2800, which is responsible for 
assisting the Iranian Quds Force in the training and equipping 
of these so-called special groups. And we've since detained a 
number of the special-group members, some of their financiers, 
some of their leaders, and four of their 16 master trainers. 
We'll lay that out, and we'll lay out the various weapons 
caches and other finds that we have had, that, again, show the 
very, very clear involvement of Iran in Iraq.
    That ties into regional stability. And then, of course, it 
all ties, eventually, into the global economy. And it is 
noteworthy that the progress in Iraq has enabled it to reach, 
in fact, recently, the highest export levels ever, I believe it 
is, out of the north, and the levels have exceeded their export 
goals now for the first 3 months of the year. And so, again, an 
area of progress, due to security progress, as well.
    Senator Lugar. Thank you, Mr. Chairman.
    The Chairman. Senator Dodd.
    Senator Dodd. Thank you, Mr. Chairman.
    And welcome, to both of you. As the chairman has said, 
you've got a long day, and a long day tomorrow coming up, and 
I'm sure some of these questions will be repeated, in one form 
or another. So, we thank you for your patience and your 
willingness to share with us your thoughts on all of this.
    I'd like to, first of all, pick up on something Senator 
Lugar has begun. I think it's very important in making these 
assessments, to look at the broader context, what we're dealing 
with. And one of the reasons I was a couple of minutes late 
getting over here, was that I was in the midst of trying to 
deal with a piece of housing legislation. We've got some 8,000 
people a day in this country that are entering into foreclosure 
on their homes. Numbers on inflation, unemployment rates, all 
of these factors which are contributing to a lot of people's 
concerns about, generally, where things are heading.
    I'd like to focus, if I can, just on two quick questions. 
One, I think, more specifically, for you, General, and one for 
the Ambassador.
    One has to do with the condition of our troops. I think all 
of us here, certainly at this dais, representing our 
constituency--whatever views we have on policy, there's an 
incredible admiration for what our men and women are doing in 
uniform. You've both raised it. It's been raised by others. 
It's very important, I think, that our troops know that. 
Arguments over policy are one thing, but our commitment to 
these men and women serving know no division whatsoever.
    But, I was sort of surprised and stunned on some of the 
recent numbers. A study done by the Department of Defense found 
that with each additional deployment, soldiers are 60-percent 
more likely to develop severe combat-related stress issues, 
while a study conducted by the Surgeon General of the Army 
found that soldiers suffering from high levels of combat stress 
are twice as likely to find themselves in a situation where 
they are in violation of the Armed Forces ethics standards, and 
seven times more likely to hit an Iraqi civilian.
    So, I'd like to ask you, if I could, General, as someone 
who has really written the book on counterinsurgency--and I say 
that with great admiration for your background and abilities--
what impact is the stress of repeated combat tours having on 
our military's ability to effectively conduct the 
counterinsurgency campaign? What effects could such high levels 
of combat stress have on soldiers who must regularly interact 
with Iraqis, and ultimately win the hearts-and-minds argument?
    Both the Army Chief of Staff, GEN George Casey, and 
Chairman of the Joint Chiefs of Staff, Admiral Mullen, have 
raised serious concerns about our Armed Forces capability to 
react to emerging threats, going to the point Senator Lugar 
raised about other contingencies where our forces may be called 
upon. I'll just quote for you, which I'm sure you're aware of, 
General Cody's comments at a recent hearing before the Armed 
Services Committee, where we were this morning. And I think, in 
relationship to the surge, talking about the surge, he said, 
``Right now, all the units that are back at home station are 
training to replace next units in Afghanistan and Iraq. If the 
surge comes down the way we predict, and we get so many troops 
back and brigade combat teams back, and we can get the dwell 
time right, we'll start getting those units trained to full-
spectrum readiness for future contingencies. I don't know what 
those future contingencies are,'' he went on to say, ``but I 
know that this Nation and this Joint Force needs to have a 
division-ready brigade, an airborne brigade ready for full-
spectrum operations, a heavy brigade combat team ready for 
full-spectrum operations, and a Stryker brigade combat team 
ready for full-spectrum operations. And we don't have that 
today.'' He went on to say, ``Right now, as I've testified--and 
I've been doing this for 6 years--I was a G-3 of the Army, and 
a Vice Chair,'' now former Chair, ``and I've never seen our 
lack of strategic depth at where it is today.''
    Now, if we're talking about continuing our forces in Iraq, 
adding to the stress with assessments being done by the Surgeon 
General and the Defense Department's own study, in light of 
these other issues you're dealing with, on the ground in Iraq, 
what additional pressures are we placing on these men and women 
serving? What additional pressures are we placing on ourselves 
and our ability to respond to other contingencies, given the 
pressures that have been recognized by some of your colleagues 
here at the Department of Defense?
    General Petraeus. Well, let me talk about Iraq, Senator. 
Obviously, that's what I'm riveted on, and that's what my 
mission is. And when I got back to Iraq, in February 2007, 
there were two enormous changes. The first was the damage done 
to Iraq by ethnosectarian violence--as I mentioned, the fabric 
of society torn; the second, how much more our troopers 
understand what it is that we are trying to do in this very 
complex endeavor that is counterinsurgency operations.
    By the way, counterinsurgency operations require full-
spectrum operations. They require offense. And we do a lot of 
it. In the past year, we did the Ramadi clearance, Baqubah, 
south Baghdad. Some of these were multiple--certainly multiple 
battalions and beyond brigade combat team operations. These are 
big operations, in other words, not just hearts-and-minds 
activities. Certainly, it involves force protection, some 
defense, and it involves stability-and-support operations, 
which a lot tend to associate with counterinsurgency, once the 
security situation reaches that point.
    Our troopers really very much understand it, and they are 
far better at this--far better because of changes made in the 
institution, in the Army that General Cody is the Vice Chief 
of, in the training of our troopers, their education of the 
leaders, the collective mission rehearsal exercises, the 
lessons-learned process, and all the rest of that.
    Now, there's no question but that these multiple tours have 
put enormous strain on the force. Absolutely. It is something, 
again, I am personally very keenly aware of.
    Paradoxically, reenlistment rates seem to be quite high. 
Again, I track the units in Iraq, and one of the divisions that 
is there on its third tour--in fact, getting ready to come 
home--is a unit that--the division commander reported the other 
day--that met their reenlistment goal for the entire fiscal 
year at this point right now--obviously, about halfway into it.
    So, again, while the troopers very much feel the strain, 
while I would personally welcome--I look forward to the 
opportunity for the Army and so forth to come back to 12-month 
tours, vice 15-month, which are particularly difficult, the 
troopers that we see in Iraq are doing a magnificent job. They 
also happen to be the best-equipped force--they are vastly 
better equipped than we were when I was a division commander 
and we went through the berm, flew over the berm in the fight 
to Baghdad. And I can give you case after case after case of 
equipment that places our forces in an absolutely unique 
position in the world now. And we monitored this when we saw 
another country starting to do some operations recently in that 
area, and recognized the vast differences between our 
situational awareness, intelligence, surveillance, and 
reconnaissance assets, the satellite communications, the fusion 
of conventional special forces and special mission units, and 
all the rest of that. It is vastly better than we were in the 
beginning. And, again, our troopers do an extraordinarily good 
job, despite the enormous strain that clearly they and their 
families have experienced over the course of the last number of 
years.
    Senator Dodd. Well, I thank you for that answer. I'm still 
deeply concerned about these reports on stress levels and so 
forth that are mounting up. And----
    General Petraeus. Sir, I share that. Again, as I stated--
and that is a factor in my recommendations. And again, I have, 
you know, personal experience with that.
    Senator Dodd. No, I know you do. I didn't get to the 
question, Ambassador Crocker, about these militias. Again, the 
good news is this Awakening and dealing with the Sunni militias 
dealing with al-Qaeda is the good news. But it's not a long-
term strategy. And exactly the point I think Senator Biden is 
driving at, in a sense, here, where we're arming and engaging 
these militias, and, at the same time, calling for a 
strengthened central government to respond to all of this, how 
you turn that around, it seems to me, when you're counting on 
these militias, and then----
    General Petraeus. Right.
    Senator Dodd [continuing]. Trying to integrate them is 
going to raise some huge issues, I think.
    General Petraeus. Senator, let me take that one, if I 
could, because there's few misconceptions. We don't arm any of 
these Sons of Iraq. They are tribal members, to begin with. 
Every Iraq is allowed an AK-47 in his own house, by law, and 
they are more than heavily enough armed.
    What we have done is, we've stood by them--initially, when 
the first tribe came forward, in October 2006, before the 
surge; but then, subsequent to that, as the chain reaction took 
place in Ramadi and went up and down the Euphrates River Valley 
in the early spring and then summer of 2007, enabled by the 
additional forces out in Anbar, then in Baghdad, south Baghdad, 
Diyala, and so forth--these individuals have decided to reject 
the extremist ideology of al-Qaeda, their oppressive practices, 
and the indiscriminate violence that they've visited on this--
on all communities in Iraq--not just Shia, but Sunni Arab 
communities, as well. And that's a hugely significant shift. 
It's a seismic shift in the Sunni Arab world, and one that we 
hope to see extend even farther.
    Senator Dodd. I hear that. We're paying them, of course.
    General Petraeus. Well, sir, they started out, 
volunteering. And they did volunteer for a long time. And we 
said--you know, we did the math, and that math is $16 million a 
month that we pay them with CERP, and now, as I mentioned, the 
Iraqis are giving $300 million in CERP, or how many tens of 
millions of loss of vehicles or loss of priceless lives? And I 
think that was the best investment that we've made in Iraq. And 
now we are transitioning them; as I mentioned, over 21,000 
transitioned to Iraqi Security Forces or other positions, and 
slowly, but surely--not easily--nothing in Iraq is easy.
    Senator Dodd. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    And, gentlemen, welcome.
    I want to go back, just very briefly as I open my 
questions, to a point that Chairman Biden noted at the 
beginning, and that is, we all recognize that the two of you 
and who you represent are implementers of policy. You don't set 
policy. You can help influence it, shape it, mold it. But, I 
know from my brief military experience, General, when the 
commander tells you to take the hill, you take the hill, or you 
sure as hell try. And we have the best force structure in the 
world to do that. And I think we all acknowledge that.
    And my point in opening with that comment is to make 
certain that you understand, as well as all of your colleagues, 
that this is not a session----
    General Petraeus. Right.
    Senator Hagel [continuing]. Today, to pick on you, to pick 
on any of you, or certainly not acknowledge the kind of 
sacrifices that you both acknowledged here today, and we 
respect that, and we appreciate it.
    But, I have always believed in one dynamic of this 
business, and that is, if we are to be held accountable--
elected officials--for any one thing, it is that we should be 
held accountable to developing and setting policy worthy of the 
sacrifices of our men and women that we ask to implement 
policy. So, I wanted to put that on the table before I ask a 
couple of questions.
    As we sit here today--and the two of you are acutely aware 
of this--your headquarters in the international zone, Green 
Zone, the last few days, has continually been rocketed, 
mortared. We took casualties there the other day, as you know, 
of course; a number of Americans killed and wounded. And 
there's, it seems to me, some disconnect in the abstraction 
that we're dealing with today, as you both have presented--not 
a glowing report, but, I think, a fair report--what you see as 
not just progress made, but where we're going and what this is 
about. But, the reality is, since the President announced the 
surge, last January, we have lost over 1,000 dead Americans--
January of 2007. And I know you're painfully aware of that, 
General. We've lost certain elements of our units, as well as 
in--the wounded, over 6,300 wounded, and all the other dynamics 
that have been alluded to.
    And the reason I'm bringing that up is because I think 
those are the realities that we're talking about here, and I 
want to move to one particular area that you have both covered 
in your testimony, and that is, Where do we go from here? 
Whether it's to pause and then you will assess, or whether it's 
what Ambassador Crocker noted, that I will get to specifically, 
the regional and international dynamics--as you have it, a 
diplomatic surge. But, the fact is, also--and I think anyone 
who takes an honest evaluation of this--and certainly we've 
seen the U.S. Institute of Peace's report, the part-two of the 
Iraqi Study Group Report, your former colleagues, General, who 
were up here last week, and others who have been involved with 
Iraq, the military, and foreign affairs for some time. The fact 
is, regardless of whether we're in or whether we're out or 
whether--when we leave, or the timeframe when we leave--because 
we are going to unwind, we are going to leave, at some point, 
if for no other reason than what my colleagues have noted here, 
because we don't have the capacity to sustain it--if for no 
other reason--and, just as you said, Ambassador Crocker, it's a 
matter of how we leave and what we leave, as best we can, but 
we're dealing with uncontrollables well out of the capacity for 
the world's finest military to deal with this. And I would--
just want to remind you, General, of something that you said in 
March last year, and I think it's something we should keep our 
eye on. You noted--this is your quote, ``There is no military 
solution to a problem like that in Iraq, for the insurgency of 
Iraq.'' And then you went on to say, ``A political resolution 
is what will determine, in the long run, the success of that 
effort.''
    When you were both here in September, you both noted that, 
that the surge was to buy time, essentially, for some political 
reconciliation, or at least some accommodation.
    And then, a couple of weeks ago, General Petraeus, you gave 
an interview, which was in the Washington Post, and you noted, 
``No one in the U.S. and Iraqi Government feels that there has 
been sufficient progress, by any means, in the area of national 
reconciliation.''
    Now, if we all generally agree that the sacrifices that 
we're making are all about the underpinning dynamic that, in 
the end, is all that's going to count--certainly, security is 
important; we understand that--but, how we arrive, or the 
Iraqis arrive, at some political accommodation to sort all this 
out, then that's--should be our focus. And the fact is, by any 
analysis, we're going to continue to see a bloody Iraq. We are 
going to continue to see, as you have both noted in your 
testimony, an Iraq that will ricochet from crisis to crisis. 
And I am wondering, as I have listened to both of you 
carefully, if we are not essentially holding our policy captive 
to Iraqi developments. Certainly, conditions, as you've noted, 
General, dictate tactics. But, I'm not sure that conditions 
should dictate policy.
    And, with that, I want to launch into Ambassador Crocker's 
testimony, when you talk about a ``diplomatic surge.'' Now, a 
``diplomatic surge,'' I assume, is somewhat similar to the 
surge we saw, militarily, meaning that you put tens of 
thousands of more troops on the ground, and you did the things 
you felt you needed to do to surge. But, as I read the 
testimony, Ambassador, it's pretty thin. I don't know if I 
would equate ``surge'' with ``Turkey hosted the second 
ministerial meeting of Iraq's neighbors in November--last 
November, and Kuwait will now host the third meeting later this 
month.'' I don't know if that's a surge. ``Support from Arab 
capitals has been strong--has not been strong.'' I don't know 
how we think we would find any regional diplomatic effort 
that's going to work if we can't get the regional neighbors to 
work with us. ``Syria plays an ambivalent role. Iran continues 
to undermine the efforts of the Iraqi Government.''
    So, where's the surge? What are we doing? I don't see 
Secretary Rice doing any Kissingeresque flying around. Where is 
the diplomatic surge? In my opinion, the one core issue that, 
in the end, is going to make the difference as to the outcome 
of Iraq, and will certainly have an awful lot to do with how we 
come out of this--so, where is the surge? What are you talking 
about?
    Ambassador Crocker. The neighbors process is predicated on 
biannual ministerial meetings. So, in November, in Istanbul; 
April, a little bit ahead, at 6 months, in Kuwait. That's the 
schedule we run to. The first ministerial was in last May, in 
Sharm el-Sheikh. In between the ministerials, there are 
meetings of working groups on energy, border security, and 
refugees. The border security--the energy and refugee working 
groups have met over the course of the last month. Border 
security will meet, I think, in this coming week. So, there is 
activity.
    Does there need to be more activity on the part of the 
region? Clearly, yes. And I noted in my statement, the Arabs 
need to be more engaged. We have pressed them on that. I have 
made a swing through the region. Of course, the President and 
the Vice President were both on regional tours in the first 
part of this year. And, ultimately, again, the Arabs are going 
to have to make their own decisions. But, they also need to 
understand that this is important to their interests, it's not 
a favor to us or to Iraq. So, that is a message we continue to 
press them on.
    Similarly, with Iran, as I noted in my statement, we have 
taken the position that we are prepared to discuss, face to 
face with the Iranian security, Iraq--at Iraqi request. The 
Iraqis have announced that they would like to see another 
meeting occur. We have said we're ready to participate. It's 
now up to the Iranians.
    Again, we can't compel the neighbors to behave 
constructively and positively, but we can certainly send a 
message that it's in their interest to do so.
    Senator Hagel. My time is up, Mr. Chairman. I appreciate 
it. Thank you.
    The Chairman. Thank you.
    Senator Kerry.
    Senator Kerry. Thank you, Mr. Chairman.
    Ambassador Crocker, General Petraeus, welcome. We are 
delighted to have you here. And we thank you both for what you 
are doing on behalf of our country.
    General Petraeus, I particularly want to thank you and 
acknowledge, as I don't think you've heard enough from all 
sides of the aisle in this country, that we really do respect 
and understand that you have achieved some measure of a kind of 
progress. And it's a progress that is within your purview, as 
commander of Armed Forces in Iraq and on the military field, to 
be able to achieve. And you've done about as good a job of 
playing a tough hand as somebody could do. So through you, to 
all of our troops, we want them to understand the degree to 
which we respect and recognize that accomplishment.
    The problem is, for all of us, that there's a larger set of 
balancing. I think you know that. You've repeatedly said how 
you're limited to Iraq. We Senators are not. We're looking at 
how we defend the larger interests of our country, protect it, 
and do a better job of fighting the war on terror.
    So I look at this larger field, and I see a fundamental 
equation with respect to Iraq that essentially stays the same, 
notwithstanding whatever progress we have made.
    There is a fundamental struggle--a sectarian power 
struggle--taking place, over which we do not have a lot of 
control; in fact, the Iranians have an increasing amount, 
partly because of our presence.
    There is a dysfunctional Iraqi Government, stumbling here 
and there, occasionally trying to stand up, but fundamentally, 
most would agree, unable to effectively deliver services, only 
with the greatest difficulty to be able to reconcile the oil 
law, the constitutional changes--the real fundamentals that go 
to the core of the sectarian division.
    There is a decreasing ability, as Senator Dodd has pointed 
to, and General Odom, last week, before our committee, and 
General McCaffrey, General Scales, and others, have all pointed 
to the decreasing ability of our military to sustain this over 
a long period of time. That is a message that, not only we have 
heard, but our opponents have heard; everybody in the world has 
heard it, including our troops, who live it with repeated 
deployments and stop-loss and other hardships.
    The issue here is how do we see our way to conclude this 
successfully? In that regard, there has been much 
misinterpretation and sloganeering, and exploitation, because I 
don't know anybody on our side who is suggesting that you 
create chaos, pull the plug, and avoid responsibility. That is 
not the suggestion. The suggestion is that we change the 
dynamics, which require something more of the Iraqis 
themselves.
    Your quote on March 14, that Senator Hagel pointed to 
earlier, ``No one feels there has been sufficient progress, by 
any means, in the area of national reconciliation.'' Is that an 
accurate quote, General?
    General Petraeus. It is, Senator, but thanks for the 
opportunity to note that I then laid out a number of areas in 
which there has been progress. And I think----
    Senator Kerry. I agree. And you've laid them out to this 
committee already.
    General Petraeus. Yes, sir.
    Senator Kerry. I have limited time, so I don't want to go 
through them all again now.
    General Petraeus. Right.
    Senator Kerry. You have laid them out. And I've 
acknowledged them, too. There is some progress in those areas.
    General Petraeus. What I was conveying was the impatience, 
candidly, that, well, actually all of us feel, and including 
the Iraqis.
    Senator Kerry. You said, this morning, to the Armed 
Services Committee, that war is not a linear phenomenon, and 
that you can't predict certain things. That is true, if only 
war were, in fact, the determinant of what is going to happen 
in Iraq. Yet you yourself have said, ``The war is not the 
determinant. There is no military solution.'' The solution lies 
on the political side, where you have now also acknowledged 
there is not sufficient progress.
    I've met with the Sunni chiefs, who are now part of the 
Awakening. We have, basically, rented their allegiance. You've 
acknowledged the money we're paying them. There is a time when 
that allegiance may shift. They are not being integrated into 
the Shia forces, into the ISF forces. That lack of integration 
is viewed by the Shia, whether the chiefs arm themselves, they 
are being paid by us, they are viewed as an increasing force. 
And the fundamental struggle of Iraq remains the same.
    My question is this: Has it struck you--as the chiefs 
acknowledged to me, saying, ``Yes, we don't have to make a 
decision as long as we know you guys are here''--has it struck 
you, as I know it did your predecessor, at the open-endedness 
of the commitment of large forces without a sense of what the 
process will be--without specific deadlines and times--that it 
actually empowers Iraqis to avoid making the decisions and the 
reconciliation they have to make?
    Ambassador Crocker. It's an important question, Senator. 
And it's something I have thought about. Are there alternatives 
that give you as good, or better, outcomes? And I'm familiar 
with the argumentation on that one.
    What I have seen during my little more than a year in Iraq 
now, is that when we do see movement forward, when we do see a 
spirit of compromise, something other than a zero-sum 
mentality, it's when leaders and the communities behind them 
are feeling relatively secure, secure enough to make tradeoffs, 
which is what----
    Senator Kerry. We gave them security with 160,000 troops, 
and we didn't achieve the political progress we needed. How do 
you achieve it with fewer troops, facing the drawdown realities 
of our forces' sustainability?
    General Petraeus. Senator, what we are doing, in fact, is 
helping achieve local bottom-up reconciliation. And, in fact, 
by the way, they are being integrated into the ISF. In fact, as 
a number of the Sons of Iraq in Anbar province, others in 
Baghdad, have been integrated into the police. Some of those 
fighting in Basra actually are from the 1st Iraqi Army 
Division, which has a substantial Sunni complement in it.
    I do weigh this issue all the time. But, what we are 
seeing, at local level, actually----
    Senator Kerry. Sunnis where?
    General Petraeus [continuing]. In Anbar----
    Senator Kerry. But it's a Sunni complement that operates as 
a Sunni complement.
    General Petraeus. No. No, sir. It's part of----
    Senator Kerry. It's fully integrated?
    General Petraeus [continuing]. Part of an integrated Iraqi 
Army, yes, sir. In fact, the first commander of the 1st 
Division, I think, was Shia, and the second commander is 
actually Sunni. So----
    Senator Kerry. How many are there?
    General Petraeus. There are 13 divisions now, sir.
    Senator Kerry. Again, that are fully integrated?
    General Petraeus. Well, varying levels. And, again, 
depending on where they were raised, but the Iraqi Army is an 
integrated force. Again, some of it is less integrated than 
others--again, depending on where it was recruited and trained. 
But, certainly, those in the midsection, and that's where the 
Iraqi 1st Division, as an example, is from.
    In Anbar province, what we are doing is precisely this. 
There's a substantial reduction going on there, from 14 
battalions down to about 6, and it is because there's not 
just--not just paying off the Sons of Iraq, they're actually 
being integrated into the provincial structure. There's all 
kinds of political to'ing and fro'ing. Some of that isn't 
pretty, at times. It hasn't been overly violent, though. And, 
gradually, they're also engaging with Prime Minister Maliki. 
Sheikh Ahmed, the head of the Awakening in Anbar province, has 
gotten more money out of Prime Minister Maliki----
    Senator Kerry. But, isn't there a contradiction?
    General Petraeus [continuing]. Than the provincial 
governor.
    Senator Kerry. Isn't there a contradiction in your overall 
statement of the strategic imperative? You've kept mentioning 
al-Qaeda here today. First of all, al-Qaeda didn't exist in 
Iraq until we got there. The Shia were not deeply interrupted 
by AQI.
    General Petraeus. Oh, sir, they were----
    Senator Kerry. The Kurds----
    General Petraeus [continuing]. They were blown up----
    Senator Kerry [continuing]. To the same degree----
    General Petraeus [continuing]. Right and left by AQI. That 
was the height of the sectarian violence.
    Senator Kerry. I understand that. But most of the evidence 
of what's happened in the Anbar province with the Sunni--is 
that once they decided to turn on al-Qaeda and not welcome 
them, they have been able to turn around their own security.
    General Petraeus. And we helped them, sir.
    Senator Kerry. Of course.
    General Petraeus. We cleared----
    Senator Kerry. We helped them.
    General Petraeus [continuing]. Ramadi, we cleared Fallujah, 
we cleared the belts of Baghdad----
    Senator Kerry. And every plan----
    General Petraeus [continuing]. Diyala, Baqubah, and 
everything else.
    Senator Kerry. Every plan I've seen here in Congress that 
contemplates a drawdown contemplates leaving enough American 
forces there to aid in the prosecution of al-Qaeda and to 
continue that kind of effort.
    General Petraeus. That's exactly right. Yes, sir.
    Senator Kerry. Then why doesn't that change the political 
dynamics that demand more reconciliation, more compromise, 
accommodation, so we resolve the political stalemate, which is 
at the core of the dilemma?
    General Petraeus. Sure, that's a--sir, it's a great 
question. One of the key aspects is that they are not 
represented right now, and that's why provincial elections, 
scheduled for no later than October, are so important. The 
Anbar sheikhs, for example, will tell you, ``We want these 
elections,'' Senator, as they, I'm sure did, because they 
didn't vote in January 2005. Huge----
    Senator Kerry. They expect----
    General Petraeus [continuing]. Mistake.
    Senator Kerry [continuing]. To do well.
    General Petraeus. And they know it. They'll do much better 
this time than they did before. More important, even in Ninawa 
province, where, because they didn't vote, you have a different 
ethnic group, actually, that largely is the head of the 
provincial council. So, again, all of those----
    Senator Kerry. I am out of time. Thank you.
    General Petraeus. Yes, sir. Thank you.
    The Chairman. Thank you.
    Senator Coleman.
    Senator Coleman. Thank you. Thanks, Mr. Chairman.
    I want to continue the discussion about this bottom-up 
approach. Ambassador, that's something you've talked about a 
lot, that when we weren't seeing the success, before we got de-
Baathification, before we got the central government doing a 
budget, a range of things, you talked about the bottom-up 
level.
    There's a piece in the New York Times today, David Brooks, 
and--quotes Philip Carl Salzman. He's talking about--in 
societies, ``Order is achieved not by top-down imposition of 
abstract law; instead, order is achieved through a fluid 
balance-of-power agreements between local groups.'' I take it 
that's a fair assessment of some of the things that we've been 
seeing in Iraq today. Is that a--would that be a fair 
assessment?
    Ambassador Crocker. Senator, actually, I think it's more 
complex than that. That is true, at one level. But, there also 
has to be a vertical integration, if you will.
    Senator Coleman. And my--my question, that--the conclusion 
of this piece is, you know, this--if you kind of follow this, 
you can establish order that way, drawing down United States 
troops at a slow pace, continuing the local reconstruction 
efforts, supporting local elections, reaching informal 
agreement with Iran and Saudis, reduce outside inference, and 
then Iraq can, kind of, be held together. But, my question is, 
I'd--it is about the vertical piece, and I think there is 
something else missing. And I'm a little frustrated as--what 
can we do--where is the pressure that we can put on Maliki to 
do those things that we're still a little frustrated that 
aren't done? Where is the--it's--we can't have unconditional 
support, here; there's got to be conditions. What are some of 
those conditions, that are not in place today, that can help us 
accelerate at least the vertical piece to support the 
horizontal piece that is taking place?
    Ambassador Crocker. Well, if I could approach it from this 
direction, picking up on some of Senator Kerry's comments, too, 
because there is a synergy here. As the Sunnis turned against 
al-Qaeda in Anbar, then in Baghdad and other places, the Shia 
took note of that. They were less threatened by al-Qaeda, 
obviously. And, as General Petraeus notes, al-Qaeda did 
enormous damage to Shia civilians. As that diminished, the Shia 
began to relax a little. And that meant two things. First, 
there was no longer the need to rely on groups like Jayish al-
Mahdi for security. And you then saw the reaction, in August, 
in Karbala, when Jayish al-Mahdi elements tried to take over 
one of the shrines--popular outrage against them, and that led 
Muqtada al-Sadr to declare a cease-fire. The Sunnis take note 
of that.
    So, you see a lot of positive developments, bottoms-up, as 
it were, but that then begins to inform the national level. And 
that's what gives you the climate in which some of the 
legislative compromises, that we just couldn't get in the 
summer or in the fall, were then achievable in January and--
December, January, and February. You take it another step.
    You mentioned Prime Minister Maliki. I think his decision 
to go after extremist Shia militias in Basra, again, was a 
product, in part, of a much better cross-sectarian climate than 
existed heretofore. He could go after extremist Shia groups. 
How well he did it is something General Petraeus can address, 
but, on the political side, we saw, then, further reaction from 
the leadership, including the Sunni leadership. And right now--
I can't say how it's going to develop, but right now there is 
probably broader support from the entire leadership for the 
Prime Minister and for getting on with the business of the 
state, including a reconciliation, than I've seen at any time 
since I got there.
    Senator Coleman. Let me take--I'll give an optimistic 
scenario--we've had a number of worst-case scenarios--but, 
perhaps getting to the same question.
    General, what you note, the surge has been, I think, 
certainly way beyond even my expectations, and I had some 
concerns, early on. But--I think it set the stage for what the 
Ambassador's talking about; the two go hand in hand--but, at a 
certain point in time, there's going to be a new administration 
coming in, you're going to be part of a transition, and they're 
going to ask the question, with the success that we've had 
militarily, with the movement that we've seen, both 
horizontally, from the ground up, as well as some vertically--
all, I think, these pieces fit together. That is complex. 
What's, then, the best-case scenario, to say that we've reached 
that--Ambassador, your words--that stable, secure, multiethnic, 
multisectarian democracy that has the ability to support--to 
defend itself against enemies, both internal and external--
assuming we're moving in that direction, what's, then, the 
best-case scenario to say, ``Now we can set a timetable and 
tell the American public that when we step out''--not in 
failure, but in achieving success?
    General Petraeus. Well, Senator, as I've explained, again, 
from a military perspective, as you would imagine, as a 
commander on the ground and the commanders under me, given the 
enormous effort it's taken to achieve this progress, it has to 
do with conditions again. And what we want to do is to look at 
conditions and determine where it is that we can make 
reductions without taking undue risks.
    This is really about risk, by the way. It's also a risk 
well beyond Iraq. It's, Where do you take risk? Do you take it 
in Iraq? Do you take in the region? Do you take it elsewhere? 
And I fully understand the role of those folks up the chain of 
command from me in determining, Where do they take the risk? 
And, at the end of the day, as Senator Hagel said, you salute, 
and you try to take the hill with what you're given. But, what 
you have to do is lay out--``If this is the mission that you 
want us to perform, these are the objectives''--and you have to 
have that dialog very, very clearly--``then this is what we 
believe the resources will be to accomplish that, here's how we 
might be able to project again for you, just, again, 
hypothetically at that point, to lay out what the requirements 
will be,'' and then it is up, of course, to the policymakers to 
determine, again, where do they want to take that risk, and 
based on, again, the various consequences and various 
locations.
    Senator Coleman. I may have time for one more question. And 
perhaps this is one that you can't answer.
    The--you mentioned, talked about Quds Force Iran is 
funding, is supporting the killing--efforts that resulted in 
the killing of coalition soldiers. In other times, that would 
be an act of war. What is it that we need to be doing that 
we're not doing to make it very----
    General Petraeus. Well----
    Senator Coleman [continuing]. Clear that that kind of 
action is--simply can't be tolerated?
    General Petraeus. Well, Senator, again, my job is in Iraq. 
What we have done in Iraq is attempted to interdict the flow of 
what are called ``lethal accelerants,'' this--these trained and 
equipped individuals and the weapons that have been provided to 
them in the funding, provided to them by the Iranian Quds 
Force. And then, of course, at the next level up, there has to 
be a regional approach; eventually, a global approach. But, 
that obviously has to be taken up by folks above me in the 
chain of command. But, again, obviously it's my job to raise 
what's going on, to lay out--you know, we've detained these 
individuals, we have detained Quds Force officers in Iraq, as I 
mentioned; we've detained the deputy head of Lebanese Hezbollah 
2800. So, again, there's no secret about this. And, as the 
Ambassador and I have mentioned, their involvement came out in 
much higher relief during this latest violence.
    Senator Coleman. I thank both you gentlemen, and those who 
serve under you, for your extraordinary service.
    General Petraeus. Thank you, Senator.
    The Chairman. Thank you very much.
    Senator Feingold.
    Senator Feingold. Thank you very much, Mr. Chairman.
    And thank you both for your coming again to testify here 
today. While we may not always see eye to eye on the current 
situation in Iraq or the way forward, I have great respect for 
your service to our country and for the difficult work that 
you're undertaking.
    I hope you won't, and you should not, take it personally 
when I say that I wish we were also hearing today from those 
who look at Iraq from a broader perspective. The participation 
at this hearing of those charged with regional and global 
responsibilities would have helped us answer the most important 
question we face, which is not whether we are winning or losing 
in Iraq?'' but ``are we winning or losing in the global fight 
against al-Qaeda?''
    Right now, Iraq is hurting our national security. It is the 
`` `cause celebre' for jihadists, creating a deep resentment of 
U.S. involvement in the Muslim world,'' as the Intelligence 
Community so clearly stated. That is why we need to redeploy 
our troops. If we do, Iran, as well as Turkey, Syria, and other 
regional actors, will have to decide if Iraqi instability is 
really in their interests once we are no longer on the hook. 
Iraqi factions will have a new incentive to come to the 
negotiating table to create a viable power-sharing agreement. 
Finally, and perhaps most importantly, we will be able to 
adequately address what must be our top priority--the threat 
posed by al-Qaeda around the globe, and particularly its safe 
haven in the Afghanistan-Pakistan region.
    In that regard, again, according to the Intelligence 
Community, al-Qaeda has regenerated the core operational 
capabilities needed to conduct attacks inside the United 
States. And terrorists who would conduct those attacks, 
including an influx of Westerners, are being trained in the 
Federally Administered Tribal Areas of Pakistan. The Chairman 
of the Joint Chiefs of Staff testified that, ``The most likely 
near-term attack on the United States will come from al-
Qaeda,'' via its safe haven in Pakistan.
    So, General, you were just talking about, Where do you take 
the risks? You repeated it several times. Where do you take the 
risks? General and Ambassador, do you agree with me that our 
top national security priority should be addressing the threat 
posed by 
al-Qaeda?
    General.
    General Petraeus. Go ahead.
    Ambassador Crocker. Clearly, al-Qaeda is our strategic 
threat. We, of course, have to look at this from the Iraq 
perspective. That's where our jobs are, that's what our mission 
is.
    With respect to al-Qaeda, that's why I think what the surge 
has achieved over this past year has been so important, because
al-Qaeda, in Anbar, in Baghdad, as well as the north, was well 
on its way to having the kind of base or safe haven in which it 
would be sufficiently unthreatened that it could do strategic 
planning from Iraq against us here.
    Senator Feingold. Well, let me ask the General, too, then. 
You've answered my question.
    General, do you think al-Qaeda is our top threat?
    General Petraeus. I do, Senator. And I think it's very 
important to remember what Zawahiri and Osama bin Laden have 
repeatedly stated, both publicly and privately, and that is 
that the central front of their global war on terror is in 
Iraq, and it is actually hugely important, not only that we 
have made the gains against al-Qaeda in Iraq, but that Sunni 
Arabs have come to reject al-Qaeda in Iraq. And that----
    Senator Feingold. But, General, al-Qaeda's safe haven is in 
Pakistan, not Iraq.
    General Petraeus. There is certainly----
    Senator Feingold. Iraq is----
    General Petraeus [continuing]. A safe haven in Pakistan, as 
well. The safe havens they had in Iraq are very much under 
threat, certainly----
    Senator Feingold. You would agree that----
    General Petraeus [continuing]. By our effort.
    Senator Feingold [continuing]. The greater safe haven, at 
this point, and their greater operability, is in Pakistan or 
Afghanistan, rather than Iraq, correct?
    General Petraeus. I believe that's so. Again, you'd--I'd go 
with the intelligence analysts, because my focus is in Iraq.
    Senator Feingold. All right. But, if Iraq is----
    General Petraeus. I'm obviously aware that there is, in the 
Fatah area, a safe haven for al-Qaeda, and that's where al-
Qaeda senior leadership issues its directives to folks like al-
Qaeda-Iraq.
    Senator Feingold. Well, if Iraq is really the key, why has 
our current approach to counterterrorism in Iraq been an 
increased threat from al-Qaeda around the world? Why does our 
Intelligence Community say things are actually worse than they 
were before?
    General Petraeus. Again, I--Senator, I'm talking about al-
Qaeda in Iraq.
    Senator Feingold. Well, I--I'm talking----
    General Petraeus. I can't speak----
    Senator Feingold [continuing]. About that, too. I'm asking 
about--given the fact that you say the key is to deal with them 
in Iraq----
    General Petraeus. No, sir, I said----
    Senator Feingold [continuing]. Why is it that----
    General Petraeus [continuing]. I said that----
    Senator Feingold [continuing]. As we're dealing with them 
in Iraq, has the threat, internationally, increased from al-
Qaeda, rather than decreased?
    General Petraeus. What I said, Senator, was that al-Qaeda 
views its central front in its global war on terror as being in 
Iraq. In other words, in a sense, their main effort. I can't 
speak to what they have been doing in the Fatah or how they 
have been growing there. Again, that's obviously not my area 
of----
    Senator Feingold. Well, that's interesting----
    General Petraeus [continuing]. Operations.
    Senator Feingold [continuing]. Because al-Qaeda said 
several things. In fact, Osama bin Laden gave quite the speech, 
in 2004, which I think bears reading. He says that his goal is 
to destroy the United States by bankrupting the United States. 
I would suggest what he's doing to us, if that--in Iraq, is 
really--his goal is to suck our economic and military capacity 
and that--for us to somehow believe that staying in Iraq is not 
playing into his hands, I think, is a mistake.
    General, you have stated that Iran is backing militias that 
are targeting U.S. forces. According to the Congressional 
Research Service, Iran also backs Maliki's political party, as 
well as the Islamic Supreme Council of Iraq and the Badr 
Brigade. Isn't it true that the Iraqi Security Forces we are 
arming, training, and fighting alongside continue to be 
infiltrated by militias, including the Iranian-backed Badr 
Brigade?
    General Petraeus. First of all, it is no secret that Iran 
has supported all Shia movements, to varying degrees, in Iraq. 
The Supreme Council is a--in the Badr Corps were elements in 
Iraq. By the CPA law that was adopted, by policy, there is an 
integration of militias into the Iraqi Security Forces. And 
when they don't serve in the interests of the Iraqi Security 
Forces, then they are discharged. And, in fact, that's what's 
happened with some militia members and with some others.
    So, there has been an integration of several different 
militias over time by, again, CPA law that was passed, back in 
2004. But, backing, in a sense, politically, perhaps with 
money, undoubtedly with money, and providing training, arming, 
equipping, and direction of individuals, in particular, the 
special groups, is a very different matter.
    Senator Feingold. Ambassador, following what Senator Kerry 
was talking about, wouldn't you agree that part of the 
political stalemate in Iraq is the result of disagreement among 
Iraqi leaders about our military presence there?
    Ambassador Crocker. Actually, I don't think that is a 
significant element. As we have consulted with Iraq's leaders--
we saw this in August, in the leadership communique there--the 
five principal leaders--again, Sunni, Shia, and Kurd--all 
stressed the importance of a long-term relationship with the 
United States, including security.
    The only major element of the Iraqi political constellation 
that is on record as opposing U.S.-force presence is the Sadr 
trend. Just about everybody else understands that our presence 
there is extremely important to security and stability, at this 
juncture.
    Senator Feingold. Well, I see--my time's up, but let me 
just add the fact that the majority of Iraqi parliamentarians 
have called for a timetable for U.S. withdrawal. That's a 
pretty significant group. And Prime Minister Maliki was 
apparently so concerned that the Parliament would not agree to 
a renewal of the U.N. mandate that he basically did an end run 
around them and signed it without their consent, which I think 
may have been a violation of Iraqi law.
    But, Mr. Chairman, I see my time is up.
    The Chairman. Senator Corker.
    Senator Corker. Mr. Chairman, thank you.
    And, to the two of you, I want to thank you very much for 
your service and your patience with all of us today. And 
certainly, I have deep respect for what you both do and what 
our men and women in uniform are doing in Iraq. And, again, 
thank you both for your testimony.
    I've noticed, in today's questions, that whereas in the 
past we might have talked about some of the smaller issues, if 
you will, that relate to Iraq, and some of the things that are 
happening in a sectarian way, I think most of the questioning 
today is focused on the bigger picture. The surge has been 
successful, from the standpoint of creating greater security, 
and yet, I think people want a sense of what the end is going 
to look like. And I know that you share that same frustration.
    And this morning, with Mr. Hadley and General Lute--talking 
a little bit with them about, historically, how we find 
ourselves in a unique place, where our military is performing 
exceptionally well and doing the things--everything that 
they've been asked to do, and more, and yet we're dependent 
upon a government, that we have, really, no control over, to 
perform equally well, for us to really be victorious. I don't 
even know if I want to use that word. But, to be successful. 
And so, it's a very frustrating situation.
    I know we've described what our endgame is. In the big 
picture, we describe the country. But, General Petraeus, I 
wonder, for us if you could articulate, from the military 
standpoint, what you see the end to be.
    General Petraeus. Well, what we want to do--and it will be 
done by local areas, not by a national light-switch, Senator--
is to continue the handoff of security responsibilities to 
Iraqi officials and Iraqi forces, province by province--in some 
cases, district by district--enabling us to draw down, enabling 
us to move more to an overwatch instead of a lead, a process 
that has been very much underway.
    It's important to note, in fact, that in the recent flareup 
of violence during the Basra operations, that, in most of the 
other southern provinces, Iraqi Security Forces performed well. 
That was the case in Karbala and Babil province, in--Najaf was 
not really tested, but Qadisiyah, Dhi Qar, Muthanna, and, to a 
degree, Wasit. So, really all of the other southern provinces, 
again, forces did--generally did well. In some cases, we did 
provide overwatch or backup or some kind of assistance, but 
they were the ones carrying the ball. That's what we want to 
extend farther, in other provinces. As I mentioned, there are 
two additional provinces identified for provincial Iraqi 
control.
    And that process continues, trying to keep the pressure, 
certainly, on al-Qaeda-Iraq, on their Sunni insurgent allies, 
and, over time, continue to reduce our footprint, our mission 
profile, and increase that of the Iraqi Security Forces, over 
time. That means that we will have--will stay heavily involved, 
over time, I would think, with the transition-team effort, with 
the adviser effort, certainly with our Special Operations 
Forces, and with a conventional base that is sufficient to 
support these other efforts. But, again, gradually coming down, 
in terms of enablers, in terms of our brigade combat teams, and 
so forth.
    Senator Corker. As we've drawn down, certain significant 
things have occurred, as has been mentioned, from the 
standpoint of benchmarks. And I don't know how the two of you 
go about leveraging, if any takes place--I hope it does--of 
existing government, but can you state to us any sense of how 
the drawdown has affected leverage, if you will, with the 
Maliki government and/or others, and whether a pause in that 
drawdown--what effect that may or may not have in regards to 
the same?
    General Petraeus. Well, there's a dual-edged sword there, 
Senator. Again, the recognition that we are drawing down 
obviously does put pressure on them. There's no question about 
that. And what we want to do is put enough pressure on them to 
generate productive activity, but not so much pressure that 
they go into their corners, hang onto what they've got, and 
posture themselves to take on each other, once we have--no 
longer have the capacity to keep everybody making way together.
    There are other methods, obviously, of leverage. Obviously, 
they--you know, they do request our support, our advice, 
everything from passes for the Green Zone to even occasionally 
showing that we have emotions other than endless patience. And 
we do try to employ every single tool at our disposal. 
Sometimes that has worked; sometimes, frankly, it has not. But, 
certainly, the progress in January and February, are a result 
of their efforts, again, recognizing, certainly, the imperative 
of achieving that progress.
    Ambassador.
    Ambassador Crocker. It's an important point. The dynamic in 
Iraq is such that the Iraqis, the Maliki government, others, 
want to be in charge of their own country, you know. I don't 
think any nation wants to have to rely on outside forces for 
their internal security. So, I think they very much feel the 
imperative to make this kind of progress on their own. And, 
again, that's part of the interpretation I lend to the Prime 
Minister's decision to go down to Basra, to demonstrate that 
Iraqi forces, under his leadership, are capable of taking 
independent action. So, I think that's an important step, and 
an important indication of Iraqi willingness--we'll leave the 
``ability'' thing aside--but of a willingness and intention to 
increasingly be directing their own affairs. So, it's not so 
much that we've got to constantly press them to do things so 
that we don't have to, it's more, kind of, guiding and 
channeling, and helping them see over the short-term horizon as 
to how deals can be dealt. And it's a constant, complex 
process.
    But, the intention, I think, very much, on the part of the 
national leadership, is to take the steps that increasingly 
will allow them to be in charge of their own destiny.
    Senator Corker. So, if I could summarize that--and I 
appreciate the statement--in essence, there are those who argue 
strongly for withdrawal causing the Iraqis to act more 
responsibly or take on more responsibility. You, in essence, 
are arguing the same thing, that, in essence, as we drawdown, 
it does put more pressure on them to act responsibly. But, at 
the same time, that needs to be done in a measured way so that 
it's not done in a way that creates chaos, that causes them to 
then begin looking at self-protection, but done in a way that's 
steady. And that, in essence, is what you're taking a look at 
here, for 45 days, once this drawdown gets to a certain point.
    General Petraeus. That's exactly right, Senator. Again, 
it's important to remember that we will be withdrawing--or we 
will have withdrawn, by July, over one-quarter of our ground 
combat forces, 5 of 20 brigade combat teams, plus the Marine 
expeditionary unit and two Marine battalions. That is a very 
substantial reduction in a relatively short period of time in 
about a 6- or 7-month period. And, again, it was the Secretary 
of Defense, actually, that coined this concept, or the phrase, 
if you will, of a period of consolidation, really assessing 
where we need to adjust our forces, physically on the ground, 
an evaluation that then can be the basis for the assessments 
that allow us to make further recommendations for a reduction 
in forces, and determining where that should be.
    Senator Corker. Thank you, Mr. Chairman. And thank both of 
you.
    The Chairman. Senator Boxer.
    Senator Boxer. Thank you.
    General, help me with some of the numbers, here. It is my 
understanding that we've trained over 400,000 Iraqi Security 
Forces. And after we reduce U.S. forces, we'll be down to about 
140,000, is that correct?
    General Petraeus. That is correct. A little----
    Senator Boxer. OK. So----
    General Petraeus [continuing]. Under that, Senator.
    Senator Boxer [continuing]. 400,000 plus 140,000. And I 
understand that there are 6,000 al-Qaeda terrorists in Iraq. 
How many insurgents are there?
    General Petraeus. I would actually assess that there are 
fewer al-Qaeda----
    Senator Boxer. Well, give me a----
    General Petraeus [continuing]. Iraq----
    Senator Boxer [continuing]. Number. Fewer, OK.
    General Petraeus. Again, we typically say a couple of 
thousand. Again, we can provide a classified----
    Senator Boxer. OK. Well, let's----
    General Petraeus [continuing]. Laydown for you.
    Senator Boxer [continuing]. Say a few thousand al-Qaeda.
    General Petraeus. And then----
    Senator Boxer. And how many insurgents?
    General Petraeus. And then there are other additional 
thousands of Sunni insurgent extremists, as well.
    Senator Boxer. So, I was just saying to my colleagues, 
we've done a lot for the Iraqis, in terms of helping to build 
up their security forces. It's pretty overwhelming, folks, on 
the Iraqi side.
    Now, I'll tell you what concerns me and a lot of my 
constituents. You have said--both of you--that ``the gains in 
Iraq''--and you've said this many times before today--``are 
fragile and reversible.'' You've used those terms--which are 
terms of art--and I appreciate it. They're important words. So, 
my constituents and I believe that, after 5 years of 
unbelievable bloodshed on all sides, and 4,024 Americans 
killed--although I remember it seemed like just yesterday that 
it was 4,000--but today we have 4,024 dead--30,000-plus 
wounded, and nearly $600 billion spent. You have to wonder why 
the best you can say is that ``the gains are fragile and 
reversible.''
    Now, I think most of us agree--those who have not 
particularly supported this endeavor--that the reason this is 
the best you can say is because there's been no political 
solution. I listened carefully to Senator Hagel, and--
Ambassador Crocker--in listening to your answer to the 
Senator's question, I don't get the sense that you've been 
given instructions from our Commander in Chief to change the 
dynamics. I find your testimony very status quo. And the status 
quo has been an absolute disaster. And I just don't see 
anything changing. I don't see us saying to the Iraqis, ``It is 
your turn. We will help you. Step out and get the politics 
resolved.''
    So, in line with demanding more from the Iraqis, General 
Petraeus, you are asking us for millions more to pay off the 
militias.
    And, by the way, I have an article here that says that 
Maliki recently told a London-based paper that he was concerned 
about half of them, and would not put them into the militia, 
into the ISF, because he thinks--and this is a quote from him--
that ``they oppose the central government.'' But, that aside, 
we've been paying $182 million a year--that's on an annual 
basis--$18 million a month. And I would say to you, here at 
home we could get health care for 123,000 kids and we could 
send 210,000 kids to after-school programs with that money.
    My question is, Why don't you ask the Iraqis to pay the 
entire cost of that program? I think, in Senator Lugar's 
testimony, he made the point that it could be an opportunity 
for them to then turn it into something more long term. But, 
when that supplemental comes, I'm going to be saying to my 
colleagues we should not be paying off those militias. And I 
wonder why, given the fact that the Iraqis have billions of 
dollars in surpluses, including $30 billion in American banks, 
and we have nothing but raging deficits, one reason is this 
war--why we wouldn't ask them to pay for the cost of that 
program of paying off the militias.
    General Petraeus. First of all, Senator, these are not 
actually militias. What they are is, typically, tribal members; 
in some cases, former insurgents. But, this is how you end 
these wars, you sit down with----
    Senator Boxer. I didn't say I objected to it----
    General Petraeus [continuing]. Former insurgents----
    Senator Boxer. I asked you why they can't pay for it.
    General Petraeus. Well----
    Senator Boxer. I understand----
    General Petraeus [continuing]. In fact----
    Senator Boxer [continuing]. Your point on it----
    General Petraeus [continuing]. Senator, what they are doing 
is, they have committed $163 million to gradually assume their 
contracts. They have committed the $300 million, that I 
mentioned in my statement, to Iraqi CERP that offsets, in 
fact----
    Senator Boxer. OK. I just----
    General Petraeus [continuing]. What we are spending.
    Senator Boxer. I don't want to argue----
    General Petraeus. And, beyond that----
    Senator Boxer [continuing]. A point that----
    General Petraeus [continuing]. The savings in vehicles----
    Senator Boxer. Yeah.
    General Petraeus [continuing]. Not lost, actually is 
certainly----
    Senator Boxer. No, no. I----
    General Petraeus [continuing]. Worth it.
    Senator Boxer [continuing]. Understand your point. I'm just 
asking you why you would object to asking them----
    General Petraeus. Well----
    Senator Boxer [continuing]. To pay for that entire program, 
given all we are giving them----
    General Petraeus. Senator----
    Senator Boxer [continuing]. In blood, in everything else.
    General Petraeus. Senator, it is a very fair question, and 
I think that if there's anything that the Ambassador and I will 
take back to Iraq, candidly, after this morning's session and 
the--this afternoon's--is, in fact, to ask those----
    Senator Boxer. Good.
    General Petraeus [continuing]. Kinds of questions----
    Senator Boxer. Excellent.
    General Petraeus [continuing]. More directly.
    Senator Boxer. I'm very happy about that.
    When the Bush administration told the American people, more 
than 5 years ago, that we'd be greeted as liberators in Iraq, 
and supporters of the war said that people would be dancing in 
the streets, waving American flags, there was a whole other 
vision put forward. And now, last month, Iranian President 
Ahmadinejad was given the red-carpet treatment, while our 
President has to sneak in there in the dead of night.
    So, I'm wondering, why, after what we have given--4,024 
American lives gone, more than $\1/2\ billion spent--all this 
for the Iraqi people, is it that the Iranian President is 
greeted with kisses and flowers. And I'm quoting from an 
article in the Boston Globe. Suzanne Maloney, an expert on the 
Middle East, argues that, ``Iraqi leaders will only begin to 
differentiate themselves from Tehran when they're forced to 
grapple independently with the painful alternatives of 
governing and assuming greater responsibility for their 
country's security, and that will only happen when we put a 
timeframe on our presence.''
    So, if either of you could answer this question, Do you 
agree that, after all we have done, after all the sacrifices--
and God bless all of our troops and all of you who put 
yourselves in harm's way--after all of this, that Iran is 
stronger and more influential in Iraq than ever before?
    Ambassador Crocker. Senator, that's an important and 
complex issue, obviously.
    With respect to President Ahmadinejad's visit, I'd just 
make the point that presumably when he comes to Iraq he doesn't 
have to worry about Iranian-based extremist militias. More 
broadly----
    The Chairman. We will--the committee will stand in recess, 
and the police will clear the people who are talking, back 
there.
    [Recess.]
    The Chairman. The committee will resume.
    Senator.
    Senator Boxer. OK. If I could say--I agree with you that 
there are certain factions there that certainly support Iran. 
That's part of the problem. But, my question is this. 
Ahmadinejad was the first national leader----
    Can you please cool it, back there?
    Ahmadinejad was the first national leader to be given a 
state reception by Iraq's Government. Iraqi President Talibani 
and Ahmadinejad held hands as they inspected a guard of honor, 
while a brass band played brisk, British marching tunes. 
Children presented the Iranian President with flowers. Members 
of Iraq's Cabinet lined up to greet him, some kissing him on 
both cheeks.
    So, it's not a question about the militias out there. I'm 
saying, after all we have done, the Iraqi Government kisses the 
Iranian leader, and our President has to sneak into the 
country. I don't understand it. Isn't it true that, after all 
we've done, Iran has gained ground?
    Ambassador Crocker. Senator, Iran and Iranian influence in 
Iraq is obviously an extremely important issue for us. But, 
it's very much, I think, a mixed bag. And what we saw over 
these last couple of weeks, in Baghdad and in Basra, as the 
Prime Minister engaged extremist militias that were supported 
by Iran, is that it revealed not only what Iran is doing in 
Iraq, but it produced a backlash against them and a rallying of 
support for the Prime Minister in being ready to take them on.
    Iran, by no means, has it all its own way in Iraq. Iraqis 
remember, with clarity and bitterness, the 1980-88----
    Senator Boxer. Yes.
    Ambassador Crocker [continuing]. Iran-Iraq war----
    Senator Boxer. Well, that's my point.
    Ambassador Crocker [continuing]. In which----
    Senator Boxer. And now he's getting kissed on the cheeks. 
That's my point.
    Ambassador Crocker. And there was a lot of commentary 
around--among Iraqis, including among Shia Iraqis, about just 
that point, ``What's he doing here, after what they did to us 
during that war?'' But, you--Iraqi Shia died by the tens--by 
the hundreds of thousands, defending their Arab and Iraqi 
identity and state against a Persian enemy, and that's, again, 
deeply felt. It means, when Iran's hand is exposed in backing 
these extremist militias, that there is a backlash, broadly 
speaking, in the country, including from Iraq Shia. And I think 
that's important, and I think it's important that the Iraqi 
Government build on it.
    Senator Boxer. I give up. It is what it is. They kissed him 
on the cheek. I mean, what they say over the dinner table is 
one thing, but they actually kissed him on the cheek. He had a 
red-carpet treatment, and we are losing our sons and daughters 
every single day for the Iraqis to be free. It is irritating, 
is my point.
    Ambassador Crocker. Senator, the Vice President was in 
Iraq, just a couple of weeks after that, and he also had a very 
warm reception.
    The Chairman. Did he get kissed?
    Ambassador Crocker. I believe----
    [Laughter.]
    The Chairman. I just want to know whether he got kissed, 
that's all.
    Ambassador Crocker. Yes, he did get kissed.
    [Laughter.]
    The Chairman. Senator Voinovich.
    Senator Voinovich. Thank you.
    The Chairman. Thank you, Senator Boxer.
    Senator Voinovich. First of all, I want to thank both of 
you for the terrific partnership that you've established in 
Iraq. A lot of us pray to the Holy Spirit; I've been praying to 
the Holy Spirit that somehow you would be enlightened and make 
the right decisions there, and that the leaders in Iraq would 
be enlightened to understand the wonderful opportunity the 
members of our Armed Forces have provided them. Over 4,000 
troops have died in the line of duty and more than 28,000 are 
coming home wounded, half of whom are going to be disabled the 
rest of their lives. Progress has been and will continue to be 
difficult. When I talked to Ambassador to the United Nations 
Zalmay Khalilzad, he said, ``Iraqis are going to probably have 
to kill each other a little bit over there to realize that 
something's going to have to be different, because they're 
destroying lives and infrastructure.''
    But it's heartening to see the Sunni Awakening. This 
movement was evident when I visited Iraq in August 2007. My 
impressions were that the Sunnis know that the United States is 
not an occupying force, that they are increasingly opposed to 
al-Qaeda, and that our Provincial Reconstruction Teams are 
effective and appreciated by local communities. Iraqi Sunnis 
also like being paid when they cooperate with coalition aims. 
Groups like the Sons of Iraq are now coming forward.
    But, if you look at the enormous costs that we have 
incurred, and will incur, from operations in Iraq, I see cause 
for serious concern. I've received from the Congressional 
Budget Office an estimate of the level of federal spending 
which would be required through fiscal year 2017 under two 
redeployment scenarios. These estimates range from $1.2 
trillion to $1.7 trillion. And, of course, we have to take into 
account health care and other associated costs. I think you all 
know that the Government Accountability Office has estimated 
that the Army will require $12 to $13 billion per year to 
replace lost, damaged, and worn equipment for the duration of 
the war in Iraq. The Marine Corps has estimated it will need 
$15.6 billion for equipment reset, and the National Guard has 
said that they are going to need $22 billion. So, in other 
words, the United States is at a point right now where we are 
really strained and stressed. In addition to the costs of 
operations in Iraq and Afghanistan, we have a national debt of 
more than $9 trillion. This year's budget is going to be out of 
balance by about another $660 billion. And I hate to agree with 
Senator Feingold, but I think that----
    [Laughter.]
    Senator Voinovich [continuing]. If Osama bin Laden is 
assessing this situation, he might think he has achieved some 
of his aims--in effect, we're kind of bankrupting this country. 
We are eating our seed corn. We have got some really big 
problems today. We're in a recession, and God only knows how 
long it will last.
    So, it seems to me that there's some urgency that we need 
to pray a little bit harder to get Iraq and its neighbors to 
understand that we're going to be on our way out. Some of my 
colleagues and I have talked about this, and what we think we 
need is a surge of diplomacy during this period of time.
    The witnesses that appeared before this committee on April 
2 argued that the United States should take advantage of the 
10-month period between now and the beginning of the next 
administration. We will have wasted this opportunity if we 
don't make a concerted effort at diplomacy, if we don't sit 
down with the Syrians and the Saudis and the Egyptians, and 
tell them, ``Hey, guys, we're on our way out. We have to leave 
here because of our own financial situation, and we're stressed 
out to the point where we've got to pursue gradual 
redeployment. Now, understand this. And it's not in your best 
interest to see this situation deteriorate. It's time for you 
to step in and start taking some action and bring regional and 
global actors together.''
    I also believe that this administration has lots of 
problems around the world. I just finished a book, ``The Much 
Too Promised Land'' by Aaron Miller, which discussed instances 
where the United States really made some difference. And that 
was when we had someone in our Government involved in 
diplomatic efforts on a full-time basis. Secretary of State 
Condoleezza Rice should get together with both of you, and she 
should work, day in and day out, to let parties in the region 
know, ``Folks, we're on our way out.''
    And I just wonder, do you understand that that is where we 
are at? We have somebody sitting across the table here who may 
be the next President of the United States. The American people 
have had it up to here. We appreciate the sacrifice that you've 
made, and that your families have made. Lives have changed 
forever. But the truth of the matter is outside of those who 
have served and their families, we haven't sacrificed one darn 
bit in this war. We've never been asked to pay for a dime, 
except for the people that we've lost. And I'm sure the men and 
women who serve alongside you understand that. I'd like to know 
what do you think about the idea of developing a diplomatic 
surge during this 10-month window to let regional players know, 
``It's going to be over, here, folks, and you'd better start 
working together''?
    Ambassador Crocker. Well, Senator, look, I appreciate the--
you know, the sense of frustration that you articulate. I share 
it. I, kind of, live it every day. I mean, the reality is, it 
is hard in Iraq. And there are no light switches to throw that 
are going go dark-to-light. It's going to be----
    Senator Voinovich. But, don't you think that if we said, 
``Folks, you know we're going to leave'' wouldn't that be 
effective?
    Ambassador Crocker. Well, first, with respect to the 
region, we have been sending that message, and that's why my 
testimony was written the way it was. We do need to see the 
region, particularly the Arabs, step forward. That's a message 
that's been sent by the President and the Vice President during 
their visits to the region over the last couple of months. They 
do need to understand that they have an interest here, and that 
staying disengaged is dangerous for Iraq, it's dangerous for 
the world, and it's dangerous for the Arab world, in 
particular.
    Now, again, with respect to the frustration you articulate, 
if--and these are not decisions we make, these are decisions 
that you will make, as well as others--if you decide--as I said 
in my testimony, if we decide that we just don't want to do 
this anymore, then we certainly owe ourselves a very serious 
discussion of ``Then what?'' What are the consequences? Because 
my experience in the Middle East--which goes back a lot longer 
than I'd care to remember, frankly--are that things can get 
really, really bad, indeed. So, we've got to have--we've got to 
have a pretty sober discussion as to what the consequences of 
alternative courses of action are.
    Senator Voinovich. General.
    General Petraeus. Well, I would echo what the Ambassador 
said, sir. I certainly share the frustration. I've been at 
this, I think, about as long as anybody in uniform in Iraq. 
There may be some more out there longer, but not many. And, 
again, it is very easy to dislike where we are, to be 
frustrated at it, and so forth. But, we are where we are. And, 
again, as the Ambassador, I think, has very clearly stated, 
there are very, very real consequences of the different options 
that we consider. And, I think, as long as it's very clear that 
we address those and we go into those with our eyes wide open, 
then that is--the job has been done.
    There has been pretty extensive diplomatic activity. Even 
the Ambassador and I have participated in this. I've gone to 
Jordan, he's gone to a number of different Arab countries. 
We've both been to Bahrain, to Qatar, and others. We may stop, 
on the way back, in the country, as well. We--certainly, 
anything that generates that kind of supportive activity is 
welcome----
    Senator Voinovich. I just want to----
    General Petraeus [continuing]. On the military side.
    Senator Voinovich [continuing]. Say one thing, and my time 
is up.
    General Petraeus. So----
    Senator Voinovich. I was in Egypt, and spent time with 
their Foreign Minister, Ahmed Aboul Gheit. I was in Jordan, 
talking to Prime Minister Nader al-Dahabi. And they don't have 
the urgency that they need to become really engaged today. And 
I think this is the case because regional actors believe that 
we're going to continue to be there for a while, and that they 
really haven't faced the reality of our eventual withdrawal, 
and don't understand that they'd better start working together.
    The Chairman. I thank the Senator from Ohio, and I wish he 
would not reference the Senator from Illinois and cause anyone 
to cheer. I can only imagine the headline in the Washington 
Post, ``Biden Throws Out People for Cheering for Democratic 
Candidate.'' [Laughter.]
    The Chairman. So, I hope you'll refrain from referencing 
that again.
    I yield to the Senator from Florida.
    Senator Bill Nelson. Mr. Chairman, before I continue my 
questioning from this morning in the Senate Armed Services 
Committee, I want to let Senator Obama go first, because he's 
got a scheduling problem. So, with your permission.
    The Chairman. I'll just imagine that headline, as a 
supporter for Hillary, I----
    [Laughter.]
    The Chairman. So, anyway, I think it's a good idea. 
[Laughter.]
    No--Senator Obama. And then we'll go--we'll go back to 
Republican and then back to you.
    Senator Obama.
    Senator Obama. Well, first of all, thanks to Senator Nelson 
for his graciousness.
    And I want to thank both General Petraeus and Ambassador 
Crocker for their dedication and sacrifice. And, obviously, our 
troops are bearing the largest burden for this enterprise. I 
think all the--both of you take those sacrifices very 
seriously. And we appreciate the sacrifices that you, 
yourselves, are making.
    I want to just start off with a couple of quick questions, 
because in the ``parade of horribles'' that I think both of you 
have outlined, should we leave too quickly, at the center is 
al-Qaeda in Iraq and Iran. So, I want to just focus on those 
two things for a moment.
    With respect to al-Qaeda in Iraq, it's already been noted 
they were not there before we went in, but they certainly were 
there last year, and they continue to have a presence there 
now. Should we be successful in Mosul, should you continue, 
General, with the effective operations that you've been engaged 
in, assuming that, in that narrow military effort, we are 
successful, do we anticipate that there ever comes a time where 
al-Qaeda in Iraq could not reconstitute itself?
    General Petraeus. Well, I think the question, Senator, is 
whether Iraqi Security Forces, over time, with much less help, 
could deal with their efforts to reconstitute. And I think it's 
a----
    Senator Obama. That's my----
    General Petraeus. I think it's----
    Senator Obama [continuing]. Point.
    General Petraeus. I think it's a given that al-Qaeda-Iraq 
will try to reconstitute, just as any movement of that type 
does try to reconstitute.
    Senator Obama. I don't----
    General Petraeus. And the question is----
    Senator Obama [continuing]. Mean to----
    General Petraeus [continuing]. Whether----
    Senator Obama. I don't mean to interrupt you, but I just 
want to sharpen the question so that--because I think you're 
getting right at my point, here. I mean, if one of our criteria 
for success is ensuring that al-Qaeda does not have a base of 
operations in Iraq--I just want to harden, a little bit, the 
metrics by which we're measuring them--at what point do we say 
they cannot reconstitute themselves? Or are we saying that 
they're not going to be particularly effective, and the Iraqis 
themselves will be able to handle the situation?
    General Petraeus. I think it's really the latter, Senator, 
that--again, if you can keep chipping away at them, chipping 
away at their leadership, chipping away at the resources, that 
comprehensive approach that I mentioned, that, over time--and 
we are reaching that, in some other areas, already, as I 
mentioned; we are drawing down very substantially in Anbar 
province, a place that, I think, few people would have thought 
would be at the situation we're in, at this point now, say, 18 
months ago. And, again, that's what we want to try to achieve 
in all of the different areas in which----
    Senator Obama. OK.
    General Petraeus [continuing]. Al-Qaeda still has a 
presence.
    Senator Obama. So, I just want to be clear if I'm 
understanding. We don't anticipate that there's never going to 
be some individual or group of individuals in Iraq that might 
have sympathies toward al-Qaeda. Our goal is not to hunt down 
and eliminate every single trace; but, rather, to create a 
manageable situation, where they're not posing a threat to Iraq 
or using it as a base to launch attacks outside of Iraq. Is 
that accurate?
    General Petraeus. That is exactly right.
    Senator Obama. OK. And it's also fair to say that, in terms 
of our success dealing with al-Qaeda, that the Sunni 
Awakening's been very important, as you've testified. The Sons 
of Iraq and other tribal groups have allied themselves with us. 
There have been talks about integrating them into the central 
government. However, it's been somewhat slow, somewhat 
frustrating. And my understanding, at least, is, although 
there's been a promise of 20 to 30 percent of them being 
integrated into the Iraqi Security Forces, that has not yet 
been achieved; on the other hand, the Maliki government was 
very quick to say, ``We're going to take another 10,000 Shias 
into the Iraqi Security Forces.'' And I'm wondering, does that 
undermine confidence, on the part of the Sunni tribal leaders, 
that they are actually going to be treated fairly and they will 
be able to incorporate some of these young men of military age 
into the Iraqi Security Forces?
    General Petraeus. No, that is ongoing, Senator. As I 
mentioned, there's over--well over 20,000 who have already been 
integrated into either Iraqi Security Forces or other 
government positions. It doesn't just have to be the ISF, it 
can be other positions. And there are thousands of others who 
are working their way through a process with the Iraqi National 
Committee for Reconciliation in the Ministry of Interior, and 
so forth. It hasn't been easy, because, in the beginning, 
certainly, there was understandable suspicion about groups that 
were predominantly Sunni Arab, although about 20 percent are 
actually Shia, as well. But, the process is moving. It's not 
been easy, but it is actually ongoing. And it is generally, 
now, a relatively routine process, although it takes lots of 
nudging.
    Senator Obama. OK. Let me shift to Iran. Just as--and, 
Ambassador Crocker, if you want to address this, you can--just 
as it's fair to say that we're not going to completely 
eliminate all traces of
al-Qaeda in Iraq, but we want to create a manageable situation, 
it's also true to say that we're not going to eliminate all 
influence of Iran in Iraq, correct? That's not our goal. That 
can't be our definition of success, that Iran has no influence 
in Iraq. So, can you define more sharply what you think would 
be a legitimate or fair set of circumstances in the 
relationship between Iran and Iraq that would make us feel 
comfortable drawing down our troops?
    Ambassador Crocker. Senator, as I said in my statement, we 
have no problem with a good, constructive relationship between 
Iran and Iraq. The problem is with the Iranian strategy of 
backing extremist militia groups and sending in weapons and 
munitions that are used against Iraqis and against our own 
forces.
    Senator Obama. Do we feel confident that the Iranian 
Government is directing these--this aid to these special 
groups? Do we feel confident about that? Or do we think that 
they're just tacitly tolerating it? Do you have some sense of 
that?
    Ambassador Crocker. There's no question in our minds that 
the Iranian Government--in particular, the Quds Force. This is 
a conscious, carefully worked out policy.
    Senator Obama. If that's the case, can you respond a little 
more fully to Senator Boxer's point. If, in fact, it is known--
and I'm assuming you've shared this information with the Maliki 
government--that Iran's Government has assisted in arming 
special groups that are doing harm to Iraqi Security Forces and 
undermining the Iraqi Government, why is it that they're being 
welcomed the way they were?
    Ambassador Crocker. Well, we don't need to, again, tell the 
Prime Minister that, he knows it----
    Senator Obama. OK.
    Ambassador Crocker [continuing]. And is trying to take some 
steps to tighten up, significantly, on the border.
    In terms of the Ahmadinejad visit, you know, Iran and Iraq 
are neighbors. A visit like that should be in the category of a 
normal relationship.
    Senator Obama. OK.
    Ambassador Crocker. I think what we have seen since then, 
in terms of this very clear spotlight focused on a malign 
Iranian influence, puts that visit into a very different 
perspective for most Iraqis, including Iraqi Shia.
    Senator Obama. OK.
    Mr. Chairman, I know that I'm out of time, so let me just--
if I could have the indulgence of the committee for one minute.
    The Chairman. Everybody else has. [Laughter.]
    Senator Obama. I just want to close with a couple of key 
points.
    No. 1, we all have the greatest interest in seeing a 
successful resolution to Iraq. All of us do. And that, I think, 
has to be stated clearly in the record.
    I continue to believe that the original decision to go into 
Iraq was a massive strategic blunder, that the two problems 
that you've pointed out--al-Qaeda in Iraq and increased Iranian 
influence in the region--are a direct result of that original 
decision. That's not a decision you gentlemen made; I won't lay 
it at your feet. You are cleaning up the mess afterward. But, I 
think it is important, as we debate this forward.
    I also think that the surge has reduced violence and 
provided breathing room, but that breathing room has not been 
taken the way we would all like it to be taken. And I think 
what happened in Basra is an example of Shia-versus-Shia 
jockeying for power that underscores how complicated the 
political situation is there, and how we still have to continue 
to work vigorously to resolve it.
    I believe that we are more likely to resolve it, in your 
own words, Ambassador, if we are applying increased pressure in 
a measured way. I think that increased pressure in a measured 
way, in my mind--and this is where we disagree--includes a 
timetable for withdrawal--nobody's asking for a precipitous 
withdrawal, but I do think that it has to be a measured, but 
increased, pressure--and a diplomatic surge that includes Iran. 
Because if Maliki can tolerate, as normal, neighbor-to-neighbor 
relations in Iran, then we should be talking to them, as well. 
I do not believe we're going to be able to stabilize the 
situation without them.
    Just the last point I will make. Our resources are finite. 
And this has been made--this is a point that just was made by 
Senator Voinovich, it's been made by Senator Biden, Senator 
Lugar, Senator Hagel. There's a bipartisan consensus that we 
have finite resources. Our military is overstretched, and the 
Pentagon has acknowledged it; the amount of money that we are 
spending is hemorrhaging our budget; and al-Qaeda in 
Afghanistan, I think, is feeling a lot more secure as long as 
we're focused in Iraq and not on Afghanistan. When you have 
finite resources, you've got to define your goals tightly and 
modestly.
    And so, my final--and I'll even pose this as a question and 
you--I won't--you don't necessarily have to answer it; maybe 
it's a rhetorical question. If we were able to have the status 
quo in Iraq right now without U.S. troops, would that be a 
sufficient definition of success? It's obviously not perfect; 
there's still violence, there are still some traces of al-
Qaeda, Iran has influence, more than we would like. But, if we 
had the current status quo, and yet, our troops have been drawn 
down to 30,000, would we consider that a success? Would that 
meet our criteria? Or would that not be good enough and we have 
to--we'd have to devote even more resources to it?
    Ambassador Crocker. Senator, I can't imagine the current 
status quo being sustainable with that kind of precipitous 
drawdown.
    The Chairman. That wasn't the question.
    Senator Obama. No, no, that wasn't the question. I'm not 
suggesting that we'd yank all our troops out all the way. I'm 
trying to get to an end point. That's what all of us have been 
trying to get to. And so--see, the problem I have is, if the 
definition of success is so high--no traces of al-Qaeda, and no 
possibility of reconstitution; a highly effective Iraqi 
Government; a democratic multiethnic, multisectarian, 
functioning democracy; no Iranian influence, at least not of 
the kind that we don't like--then that portends of the 
possibility of us staying for 20 or 30 years. If, on the other 
hand, our criteria is a messy, sloppy status quo, but there's 
not, you know, huge outbreaks of violence; there's still 
corruption, but the country's struggling along; but, it's not a 
threat to its neighbors, and it's not an al-Qaeda base--that 
seems to me an achievable goal within a measurable timeframe. 
And that, I think, is what everybody here on this committee has 
been trying to drive at, and we haven't been able to get as 
clear of an answer as we would like.
    Ambassador Crocker. And that's because, Senator, it is a--I 
mean, I don't like to sound like a broken record, but----
    Senator Obama. I understand.
    Ambassador Crocker [continuing]. This is hard, and this is 
complicated. I think that when Iraq gets to the point that it 
can carry forward its further development without a major 
commitment of U.S. forces, with, still, a lot of problems out 
there, but where they, and we, would have a fair certitude 
that, again, they can drive it forward themselves without 
significant danger of having the whole thing slip away from 
them again, then clearly our profile, our presence, diminishes 
markedly. But, that's not where we are now, Senator.
    Senator Obama. Thank you for your indulgence, Mr. Chairman.
    The Chairman. Thank you.
    On a second round, we'll go back and ask you to answer the 
question you were asked, which you haven't answered. But, we'll 
do that in the second round.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    And, gentlemen, thank you for your service. Certainly thank 
you for your endurance here this afternoon. It's certainly a 
marathon day for you. But, truly, thank you for all that you do 
to serve so many in this country.
    When you were here before the committee last--in September, 
we were talking, at that point in time--we were--the focus was 
on the military surge, and a great deal of discussion as to how 
that was going to play out, and what we could anticipate, and 
what we could expect. I asked the question of both of you, at 
that time, more along the lines of, ``Let's talk about the 
civilian surge. What are we doing on the other side that can 
help facilitate the military mission, the military surge?'' And 
at that time, General, you responded that you would like to see 
more from the civilian side. You indicated, at that time, that 
there were some--there were some elements of the government 
that truly were at war--the Department of Defense clearly was 
engaged, the Department of State was engaged, USAID--but not 
all the others. And there were some departments that you 
specifically mentioned at that time.
    From your standpoint, at this point in time now, are you 
satisfied that we have a level of participation from those 
other departments, from those other areas of government where 
we can and should be making a difference?
    Now, Ambassador Crocker, in your testimony, you go into 
some length about what we are seeing with the PRTs and the 
efforts that have been made there, but--I'll just repeat the 
question from September to both of you again, as to whether or 
not you're satisfied that all areas that need to be engaged are 
fully engaged.
    General Petraeus. Well, Senator, there has been a surge on 
the civilian side that has been very helpful, frankly. The 
Provincial Reconstruction Teams, and the so-called EPRTs, the 
Embedded Provincial Reconstruction Teams, which are actually 
subprovincial, in most cases, have been enormously helpful and 
valuable.
    They have augmented at Brigade Headquarters, Division 
Headquarters, the assets of our Civil Affairs personnel, and 
brought really useful skill sets to bear in a number of 
different provinces and districts. And that has been of 
enormous value, and enormous help.
    There has also been an increase in certain areas in the 
capacity-building arena. And again, that has helped--as has 
been the organization of what we call ``fusion cells,'' where 
the--as you may know, I've reported before--that the Multi-
National Force-Iraq and the Embassy actually have a joint 
campaign plan. This truly is one team. And we head it together, 
in that regard. Yes, we report to different chains of command, 
but we try to achieve unity of effort in what we do, and so 
we've actually combined our assets in areas such as the Energy 
Fusion Cell, which looks at oil and electricity. There is a 
Voter Security--it just goes on and on, a number of these 
different fusion cells.
    Having said all that, there still is a need for capacity-
building help in certain areas. And I think--I'm sure the 
Ambassador would agree that there are certain ministries in 
Iraq that still could use help in the capacity-building arena, 
and still probably don't have all that they should have.
    Beyond that, I think we do need to take a look at the PRT 
composition, and that is ongoing, actually. Just to report out, 
that that is taking place. To determine, for example, do you 
need more agriculture experts in Ninawa than you do in Baghdad? 
Do you need more oil experts in, say, Kirkuk than you need in--
right now, at least--in Anbar? Although there's oil out there, 
too.
    So, that is what is ongoing, and again, bottom line is 
there's been a substantial civilian surge in the PRT arena, and 
in some capacity-building areas, but there is still more needed 
in others.
    Senator Murkowski. Ambassador, when you address this--in 
your comments to the committee, you've indicated that the era 
of U.S.-funded major infrastructure projects is over. When 
we're talking about the assistance that is being provided from 
here on out in Iraq, it is more of the--when you say the 
capacity-building--those experts that can come in to help 
facilitate. Because I think the--the concern that you have 
certainly heard around this dais today is, the American 
patience is not unlimited, the President has said that you have 
indicated that our support--our financial support--equally 
cannot be unlimited.
    And when Iraq is at that point--as they are now--where they 
clearly have reserves that are available to them, I think the 
American public looks at this and says, ``OK, well, we can 
understand the need to continue funding that equipment for our 
troops. We appreciate that. But when it comes to building 
schools, or building hospitals--I've got schools and hospitals 
in my own community that need to be addressed.'' So, can you 
speak to that aspect of the U.S. investment into Iraq at this 
point?
    Ambassador Crocker. That's an important point, Senator, and 
that is exactly right. I mean, our emphasis has shifted away 
from infrastructure--we're not doing schools and clinics 
anymore--and into capacity-building, as we've discussed. But 
also, developing local capacity, that's again where the PRTs 
come in with their quick-response funds. To be able to do 
things that local governments cannot do for themselves, and 
are--as of yet--unable to resource through higher echelons of 
government.
    And also to pay attention to categories of people or 
circumstances that, again, may not get the assistance they need 
from other sources at this point. NGOs, women's groups, we do a 
lot there, and so forth. I, broadly speaking, would say that 
what is motivating our thinking now is kind of the traditional 
construct of foreign aid, of using it where it makes a 
difference in ways that are important to us, and where it 
wouldn't happen if we weren't able to step forward.
    Senator Murkowski. Can I just ask very, very quickly, Mr. 
Chairman, and this is to you, General.
    As we approach July and this 45-day period of consolidation 
and evaluation, we've also been talking with the Pentagon about 
achieving the goal of reducing the deployment rotations from 
the current 15 months, to the desired level of 12 months. What 
will this do, if anything, to the length of deployments?
    General Petraeus. Senator, obviously I'm not the one that 
determines the level of deployments, but I do certainly read 
newspaper articles, at least, say that there is discussion 
about this, and there may be some mention of this in the days 
or weeks to come.
    Senator Murkowski. But you don't think that your proposal--
--
    General Petraeus. I'm fine with 12-month tours. I'm fine 
with 12-month tours, I would--we would welcome 12-month tours.
    Senator Murkowski. And you think you can do it, given the 
numbers that you have, currently, keeping them at 12-month 
deployments.
    General Petraeus. Well, we're not the force providers, 
we're obviously the force employers and the ones who have to 
answer that rightly are the Department of the Army, Department 
of the Navy, and the case of the Marine Corps.
    But, again, my understanding is there has been discussion 
of that, we have been asked if, are we OK with 12-month tours. 
We have replied that that is fine.
    Senator Murkowski. I think that's where we all would like 
to get, now.
    General Petraeus. Well, again, that's obviously for other 
people to determine.
    Senator Murkowski. Thanks, Mr. Chairman.
    The Chairman. Thank you very much.
    Let me explain to my colleagues--I appreciate your patience 
in my allowing people to go, if they're in the midst of a 
question, beyond the 7 minutes. As one of my colleagues from 
New Jersey recently said, he said, he appreciates my patience, 
he'll learn to appreciate it more, the more senior he is.
    But I do appreciate all of you--I know it's a long, long 
wait, and--but I don't want to cut people off in the midst of 
them finishing up.
    Senator Nelson.
    Senator Bill Nelson. Gentlemen, I want to continue to 
follow up on my questioning this morning. And I had quoted from 
two retired generals that had testified to us last week.
    And General Odom, let me state another quote of his, ``Let 
me emphasize that our new Sunni friends insist on being paid 
for their loyalty. I've heard, for example, the cost in one 
area of about 100 square kilometers is $250,000 per day, and 
periodically they threaten to defect unless their fees are 
increased. And many who break with al-Qaeda and join our forces 
are beholden to no one, thus the decline in violence reflects a 
dispersion of power to dozens of local strongmen.''
    So, are these figures accurate? Are we paying these Sunnis 
up to $250,000 in 100-square mile--100-square kilometer area?
    General Petraeus. I'm not familiar with that particular 
statistic, Senator. Again, I did present the figure that we 
provide per month in my briefing earlier. And, as I mentioned, 
the math is very much in our favor, candidly, when we look at 
the savings, and the vehicles that are not lost, not to 
mention, again, the priceless lives that are saved by the 
increased security.
    The key, over time, and General Odom is exactly right--that 
over time, these have to be integrated into, again, Iraqi 
governmental institutions, employment, and so forth. And 
there's a variety of programs that are designed to facilitate 
that, including a number of those that I mentioned have been 
funded by the Iraqi Government, in terms of the retraining and 
integration programs, as well as the Iraqi Security Forces 
integration efforts.
    Senator Bill Nelson. Well, it's not necessarily bad that 
we're paying them. We pay in a lot of areas, including for 
intelligence. But General Odom's point was, and I'll quote him 
again, ``We don't own them, we merely rent them.'' And he was 
concerned that these groups don't have any allegiance to our 
U.S. forces. And so, with this decline, what do you think about 
his comment about a ``decline in violence reflects a dispersion 
of power to dozens of the local strongmen?''
    General Petraeus. Well, Senator, there has always been a 
tribal structure in a number of these areas. And what we have 
done is come to realize that we should work with tribal 
sheikhs. They are important organizing elements in their 
society. They, frankly, do a lot more than just sheikh work, 
they also typically have a construction business, an import-
export business, and a trucking company. So, they're very 
integrated into the economies, as well.
    Again, over time, what we have to do is provide avenues for 
their tribal members to find either slots in the Iraqi Security 
Forces and local police, or what have you, or be integrated 
into the economy, through job training, through these small 
loans that the Iraqis are providing and so forth.
    Senator Bill Nelson. I started my questioning today of the 
surge, militarily, has worked. Has it provided the environment 
in which we, in fact, can get the political reconciliation? Let 
me tell you what General McCaffrey, retired four-star, 
testified to us.
    He says, ``The war as it is now configured is not 
militarily nor politically sustainable.'' That's a quote. And 
he further says, ``There is no U.S. political will to continue 
casualties of military killed--of U.S. military--killed and 
wounded every month.''
    Do you want to comment on General McCaffrey's comments?
    General Petraeus. Well, I think again, we're keenly aware 
of--as I've mentioned a number of times--the enormous strain, 
the enormous sacrifice, and the enormous cost of the effort in 
Iraq. And it was factored into my recommendations, and it is a 
reason that the surge, for example, is going to come to an end, 
and it's a reason that we will look as hard as we can, to make 
farther reductions once the dust has settled, after we've taken 
one quarter--over one quarter--of our combat power out, over 
about a 7- or 8-month period.
    Senator Bill Nelson. Mr. Ambassador, I want to ask you, 
also, about what General McCaffrey felt very strongly. He said 
that the only thing that could keep Iraq united, at the end of 
the day--once we start pulling out--he says, either you have 
the strong security commitment by the United States, or a 
strongman emerges. And that begs the question from General 
McCaffrey's comments, are we facing a situation where we've 
removed a dictator, and is another one likely to replace him?
    Ambassador Crocker. I don't think that is what any segment 
of the Iraqi population wants to see. Iraqis know about 
dictators. They suffered under one of the worst in the world, 
and they also suffered--not quite as severely, but 
significantly--from his predecessors from 1958 on. So, if there 
is a unifying view among Iraqis, it is that they do not want to 
go back to that.
    At the same time, I think Iraqis from all communities see 
the value--not just the value, but the necessity--of 
maintaining in Iraqi identity, and that includes the Kurds. I 
think the recent events with the PKK and the Turks, have 
demonstrated to the Kurds the value of being part of a larger 
Iraqi entity.
    So, you know, I'm familiar with the thinking on the 
strongman theory, but I don't think that is where anyone in 
Iraq wants to take this.
    And finally, I'd make the point on another piece of glue 
that holds the country together, and those are revenues, oil 
revenues. While it is true that they have not yet wrestled 
their way through to a comprehensive hydrocarbon and revenue-
sharing package, revenues are distributed. And all the 
provinces, and all of the communities, obviously, have an 
interest in having that happen, and it goes through the center. 
So, I think that's also a powerful force that holds Iraq 
together.
    The Chairman. Thank you very much.
    Senator.
    Senator Isakson. Thank you, Mr. Chairman.
    General Petraeus, thank you for your service to the 
country, and the same to you, Ambassador Crocker.
    General Petraeus, I want to acknowledge that Naval Officer 
Maria Miller, who's leaving the room, accompanied you here from 
Baghdad. I just wanted to brag about her for a second, as an 
example of the brave men and women that are representing us.
    She worked in the House of Representatives on the Education 
Committee and post-9/11, volunteered to go to OCS, the United 
States Navy, and eventually deployed to Iraq to be your 
administrative assistant. She is just one example of countless 
tens of thousands of American young people who are doing a 
magnificent job. So, I commend you on her selection, and her on 
her selection of you.
    Ambassador Crocker, when I voted for the surge last year, I 
did so clearly in the anticipation that it gave us a chance to 
both buy time and an opportunity for there to be some political 
action and movement on behalf of the Iraqis.
    You made a comment during your remarks about Basra, about 
Maliki actually deploying Shia troops against a Shia militia to 
regain control. Although there were a lot of comments about 
that being a sign of deterioration, it seemed to me to send a 
signal that they were willing to lead, am I right there?
    Ambassador Crocker. You are right, Senator. This was an 
initiative he took on himself, and politically it's had very 
positive resonance throughout Iraq.
    Senator Isakson. Well, if you combine that with the fact 
that they've established provincial elections for before 
October of this year and, if I recall the Iraqi Constitution 
correctly, if you are a political party and operate a militia, 
you can't gain voting status, or electable status, is that 
right?
    Ambassador Crocker. That is--that is correct, and that is 
what Prime Minister said publicly, I think, yesterday or the 
day before.
    Senator Isakson. So, I think it's important for us to 
understand we have an opportunity--or they have an 
opportunity--with Maliki having demonstrated he's willing to 
deploy Shia troops to enforce security, as he did in Basra and 
at the port, and if those operating a militia can't gain 
political power, that possibly these elections in the provinces 
this fall could be more about politics, and less about 
militias, am I right?
    Ambassador Crocker. I think you are right, Senator. These 
elections will be important, because--indeed, critical--because 
that is how this contest for power and influence gets sorted 
out by nonviolent means. It's how the Sunnis regain 
representation. It's how the contest among Shia gets resolved, 
again, by a means other than violence. So, these are very 
important.
    Senator Isakson. Well, the Sunnis are going to turn out 
this time, right?
    Ambassador Crocker. Absolutely. They've made that very 
clear, that boycotting didn't work for them, and they're not 
going to do it again.
    Senator Isakson. And do Muqtada al-Sadr and some of the 
other Shia who operate militias understand that to be a part of 
the political process, you can't have a militia? Do we have the 
chance to get these parties to the same table, politically?
    Ambassador Crocker. I think we do, and I think we're seeing 
some signs of that debate within the Sadr Trend, that may have 
been what motivated him to issue the statement he did in late 
March, saying, ``Put the guns down, guys.'' That this was not 
working to his political advantage.
    Senator Isakson. Well, it's my hope that as you do the 
consolidation and review that takes place in that 6 weeks post-
July, that there is continuing political movement on behalf of 
the Iraqis, and then you really do see a political resolution 
to the problem that we all know ultimately must come. And 
that's what, I think, we've got to hope and actually work for.
    General Petraeus, your comment about a unit that had just 
enjoyed meeting its entire goal for reenlistment in the first 
quarter of this year, I think that's the 3d Infantry Division 
out of Fort Stewart, GA.
    General Petraeus. It is.
    Senator Isakson. And I was there last week when the first 
of those men and women came back. Fort Stewart, in dealing with 
this stress on the force, and the pressure on the force, the 
orthopedic injuries that are becoming more common, and PTSD, 
and traumatic brain injury--the Army has installed a tremendous 
warrior transition facility at Fort Stewart, which I visited 
and met with the 71 soldiers who are being treated there. It's 
remarkable to me what they have done to deal with the typical 
injuries incurred in the global war on terror--both soft tissue 
as well as non. But, it's just fantastic. And I hope if you 
ever get the chance--and I know you're a busy man--you'll get 
to visit there, because it is truly an impressive facility.
    General Petraeus. Sir, I've also visited the facility at 
Walter Reed, which is state of the art as well, in fact we'll 
see soldiers from there on Friday.
    Senator Isakson. I have two last comments. One is about 
what Senator Murkowski and some others have said. The cost of 
this war has been tremendous on the taxpayers of the United 
States, and it appears to me for the first time, the Iraqi 
Government is really making some steps to take over a 
significant part. I know they're budgeting more than they're 
actually deploying and that's going to be the root of my 
question. If I look in here, they budgeted $10.1 billion for 
capital spending, but only deployed $4.7 billion in 2007. Are 
they getting better at deploying the resources they have, to 
replace what we, as Americans, were paying for?
    Ambassador Crocker. They are getting better, Senator. 
Overall, budget execution for 2007 is going to come in at 
something like 62, 63 percent. Obviously not what it needs to 
be, but that's almost 3 times better than they did in 2006. So, 
they are getting increasingly skillful at being able to not 
only design, but then execute their budgets.
    Equally truthfully, they've got a--we've got some ways to 
go, and that's why we're making a major effort at improving 
their budget execution efforts. We've got--if we can get the 
DEOB-REOB through, we'll have another--for some old 
reconstruction money--we intend to bring out a dozen Department 
of Treasury folks to work specifically on this issue.
    Senator Isakson. I'll question you more, but I'll ask 
General Petraeus to comment--our chairman was probably the 
leader in the Senate on the effort to appropriate the money for 
the MRAP. When I was there in January, I got to actually ride 
in one with a squad that went into Ghazaliya, and I've read--
tried to keep up with the amazing results--of the MRAP. Can you 
give me an update? It's been 3 months since I was there--is it 
still performing and protecting lives like it was?
    General Petraeus. It very much is, Senator. I don't have a 
count of the lives it has saved, but I can assure you that it 
is certainly in the dozens. It has performed magnificently. And 
I don't want to in an unclassed, get into the etches of all of 
this stuff, but what it provides in terms of additional 
protection for our soldiers is very, very substantial. And, I 
thank the earlier committee, I guess, today about the MRAP, 
because of just the sheer speed of providing that to us has 
been breathtaking, as well. I mean, it's almost been like a 
Manhattan Project to get these v-shaped hulls out there for us. 
And that MRAP family of vehicles has been exceptional.
    Senator Isakson. Well, thanks to both of you for your 
service and your commitment.
    Ambassador Crocker. Thank you, Senator.
    The Chairman. I will say to the Senator, I have had my 
staff look at that question, and, at least from one Senator's 
perspective, it looks like these vehicles are getting to where 
they are needed and performing as promised.
    Senator Menendez. Thank you.
    Senator Menendez. Thank you, Mr. Chairman.
    Let me thank both of you for your service. When I was in 
Iraq in January and visited with you, I came to even go beyond 
my admiration, not only for your service, but the extraordinary 
service of all our men and women in uniform, as well as in the 
Foreign Service--it's certainly not an easy assignment.
    And that's why I particularly believe that we need to give 
them a policy worthy of the sacrifices that we ask them to 
make. And I just don't believe that our present policy is in 
accord with the sacrifice we are asking our people to make.
    You know, General Petraeus, on page 2 of your testimony you 
said something that, I think, is very profound. You said it in 
September, you said it again in your testimony today. It says, 
``I describe the fundamental nature of the conflict in Iraq as 
a competition among ethnic and sectarian communities for power 
and resources. This competition continues.''
    And it just seems to me, if I were to ask a mother or a 
father in America, is their sons' and daughters' sacrifice for 
a fight among Iraqi politicians and sects for power and 
resources the national interest of the United States, I think 
they would clearly say, no. And I have a real problem when we 
see the sons and daughters of America dying, so that a fight 
over power and resources is the central essence of the 
fundamental nature of the conflict, as you described. That's a 
real problem. And so, when we start there, I don't know where 
we go that makes it better.
    Let me just ask you, Ambassador Crocker--what are the 
specifics of what we are doing to get rid of Iranian influence 
in Iraq?
    Ambassador Crocker. Well, again, as General Petraeus has 
said, we are going after those that are trained and supplied 
from Iran. And we have certainly gone after Quds Force officers 
when they come into the country.
    Senator Menendez. I'm not talking about the military 
context, or I would have asked General Petraeus. I'm talking 
about, what are we doing with an administration in Iraq that we 
have given $600 million in investments, the lives of over 4,000 
Americans, and yet they seem to be very welcoming of the type 
of influence from Iran that we clearly don't want to see, and 
is not in the national interests of the United States?
    Ambassador Crocker. Senator, that's actually not what we're 
seeing. Again, the whole motivation for Prime Minister Maliki's 
decision for the Basra operation was to take on these groups 
that are supported by Iran.
    Senator Menendez. But all of these groups, Ambassador, have 
been supported by Iran, including the side that he lined up 
with.
    As a matter of fact, there are some reports that suggest 
that Maliki did this for political purposes because the Iraqis 
can not sustain their own fight, and we get dragged into a 
major fight. Once again, backing up Maliki in a way in which we 
put our sons and daughters at risk. Those are American 
officials who were quoted, unofficially as saying this is what 
Maliki did. All sides in that side have been trained by the 
Iranians.
    Ambassador Crocker. That is not how Iraqis are viewing the 
whole Basra operation. There has been very broad-gauged support 
for Prime Minister Maliki and his government for what he did 
and of course is still doing down in Basra. This is, again, 
Sunni, Shia, and Kurdish support. They see this as a courageous 
decision to go after Shia extremists, as well as Sunnis. And, 
again----
    Senator Menendez. Ambassador, let me read to you what I'm 
talking about.
    In an article in the Washington Post it says, among other 
things, ``Maliki decided to launch the offensive without 
consulting his U.S. allies. U.S. officials who are not 
authorized to speak on the record, say they believe Iran has 
provided assistance, in the past, to all three groups, the 
Mahdi Army, the Badr organization of the Islamic Supreme 
Council--Iraq's largest Shia party--and forces loyal to the 
Fadhila party, which holds the Basra governor's seat. But the 
officials see the current conflict as a purely internal Iraqi 
dispute. And some officials have concluded that Maliki himself 
is firing, `The first salvo in upcoming elections.' '' Again, 
power and resources where American troops are being used in a 
way that I don't understand how pursues our national interests.
    Let me ask you this, General Petraeus, you said this 
morning in the Armed Services Committee that you described our 
reconstruction efforts as ``priming the pump'' for the Iraqi 
Government to be able to provide basic services, is that 
correct?
    General Petraeus. Not reconstruction efforts, sir, these 
are local small--very small grants, small projects, and so 
forth--that once we have cleared an area--typically, most 
typically, of al-Qaeda or other Sunni extremist influence--just 
to get very small businesses going again. Very small repair 
jobs and so forth.
    Senator Menendez. Ambassador Crocker, what about the $25 
billion that we have spent in foreign assistance in Iraq? Have 
those achieved the goals that we want?
    Ambassador Crocker. If you're talking about the Iraqi 
reconstruction funds, the $20 billion that was, in many cases, 
they have. In some cases, security conditions have made it 
difficult to bring projects to closure in a timely fashion. We 
have kept at these.
    We've recently handed over, for example, a major water 
treatment plant that we finished up in Nasiriyah----
    Senator Menendez. I'm glad you mentioned that. Let me read 
to you a series of facts: $25 billion in Iraq later of American 
taxpayer moneys, 43 percent of Iraq's population currently 
lives in absolute poverty, 19 percent of Iraqi children 
suffered from malnutrition prior to the war. Today that figure 
is higher, 28 percent. Last year, 75 percent of Iraqi 
elementary-aged children attended school, according to the 
Iraqi Ministry of Education. Now, it's only 30 percent. Fifty 
percent of Iraqis lacked regular access to clean water prior to 
2003. Now, it's higher--70 percent. Only 50 of 142 U.S.-funded 
primary health care centers are open to the public--and I could 
go on and on.
    To me, you know, I look at Iraq having $30 billion in 
reserves, held in the Federal Reserve of New York, and another 
$10 billion in development funds. Significant budgetary 
surpluses from previous years, and a projected 7-percent 
economic growth rate, and I say, ``How is it that the American 
taxpayer is, after $25 billion--'', and those are the results? 
How is the American taxpayer expected to pay for more?
    Ambassador Crocker. Senator, I don't know where those 
figures came from, or what reliability----
    Senator Menendez. Do you dispute them? Do you dispute them?
    Ambassador Crocker. I don't know what their basis is, you 
know? I do know there is other data out there. There was an 
ABC/BBC poll, and these organizations have been conducting 
polling in Iraq since 2004. Their March poll would tell a 
different story of, you mentioned education--63 percent 
believed their local schools were good, 78 percent thought 
their teachers, their children's teachers were good----
    Senator Menendez. Maybe for those who have a school to go 
to. I know that our statistics are from some recent reports 
that are pretty reliable. And as the subcommittee chair on all 
of our foreign assistance, I can't imagine continuing to 
justify the type of resources that we are spending for the 
results that we are having, politically and otherwise.
    And so, let me close in deference to my colleagues, by 
saying, look--when we went into Iraq, we were told that they 
would be overwhelmed by shock and awe. And I think that it's 
the American people who have a shock of being misled into a 
war, of having a set of circumstances where, in fact, it has 
cost well beyond. Paul Wolfowitz sat at a table similar to 
yours and told us that Iraqi oil would pay for everything. 
Iraqi oil would pay for everything. And $600 million later, it 
has paid for virtually nothing--$600 billion later, it has paid 
for virtually nothing.
    And, awe? Yeah. I think the American people are in awe of a 
government that will not come to a realization. We had a panel 
of experts here last week that said that there's no question 
that it is over in terms of transitioning out, it's just how we 
do that, and the timeframe. Despite how many questions have 
been asked here, you will not give us the endgame of success? 
It sounds like, ``When I see it, I'll realize it. But until 
then, give us an open checkbook.'' And that's a problem.
    What's the troop strength that needs to finally hit when we 
say, ``OK, they can do it on their own ability''? What is the 
political dynamics in which we say, OK, that's it, you know, 
they can move forward.
    I mean, at some point you cannot expect the Congress of the 
United States on behalf of the American people to continue an 
open checkbook, and say, ``Trust us, trust us. When we see it, 
we'll tell you that we've finally hit success.'' And that's 
what we hear up here, and the American people are not 
supportive of that.
    The Chairman. Senator, thank you very much.
    I would invite the Ambassador--I know your Embassy has that 
data, on number of people in school, et cetera. If you believe 
the data not stated by the Senator is--if it's not accurate, 
according to your Embassy records, then I'd appreciate you 
submitting it for the record. If not, we'll assume what was 
given here by the Senator, as to school, water, et cetera, is 
correct.
    Ambassador Crocker. We'd appreciate that opportunity, Mr. 
Chairman.
    And, Senator Menendez, if it would be possible to get the 
data you have, we'd be grateful.
    The Chairman. Thank you.
    The Senator from Wyoming.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Mr. Ambassador, General, thank you very much for being with 
us, I appreciate you taking the time to spend it with me on 
Thanksgiving Day, when I was visiting Wyoming troops throughout 
Iraq. And I want to thank both of you for your service to our 
Nation.
    There were a group of veterans here today--the Veterans for 
Freedom--many from Wyoming, many who have served in Iraq. And 
they wanted to have me personally extend to you their thanks, 
as well.
    In my short time here in the Senate, I do understand that 
the politics of Iraq is divisive, but I clearly understand that 
we must make our judgment based on facts, not on politics.
    But, whichever way you wish to look at this issue, Iraq is 
a matter of national security, and as you've said, Ambassador 
Crocker, earlier today, hard does not mean hopeless.
    After we visited on Thanksgiving, I also went and had a 
chance to visit with Prime Minister Maliki, and I told him 
about being from Wyoming, a Western State, and our Western way, 
and our Western culture. And in Wyoming, we like to get things 
done. We are a generous people, but our patience is not 
unlimited.
    Which gets me to the question of the discussions we had 
last week, where we heard in testimony that we need to instill 
the will to win with the Iraqi Security Forces. What's the best 
way to do that?
    General Petraeus. Well, what we need to do, Senator, is 
what has been done, successfully, in a number of areas, 
actually. And that is, of course, to train them, equip them, 
and then guide them in the early stages of their operations, 
get them some confidence.
    One of the challenges in Basra, frankly, was that a very 
brand new brigade, right out of unit set fielding, and basic 
training unfortunately ended up getting thrust into some pretty 
tough combat, and the results of that are, frankly, 
predictable.
    So, we've got to figure out how to enable them to get their 
feet on the ground, to get some experience, to get combat under 
their belt, and then gradually ease back, and slowly but 
surely, take your hand off the bicycle seat and let them pedal 
it for themselves.
    Now, that has worked in a number of areas, and is working. 
I mean, Fallujah is a tremendous example, of course, as the 
Ambassador mentioned, one of the most dangerous cities in Iraq, 
in the past. And a city where, albeit, there are challenges, 
but has done extremely well.
    They have 10 police precincts, I believe it is now. There 
are no Iraqi Army forces required in the streets of Fallujah at 
this point in time. We have, I believe, the latest is a Marine 
squad with each of those precincts, but gradually going down to 
where we have one for every other precinct. And slowly but 
surely, again, taking our hands off the bicycle seat, even in 
Fallujah.
    Ramadi, similar results there. So, some of the very tough 
areas, this has indeed worked, a number of the southern 
provinces, as well. But then, others where there clearly are 
challenges, because of the security efforts that are required.
    Senator Barrasso. General, earlier today you testified that 
the Sunni communities have rejected al-Qaeda in terms of their 
extremist ideology. How important is that in the things that 
you're trying to accomplish?
    General Petraeus. Well, it is--it's very important. It's 
not complete, across the board, Senator, I don't want to give 
that impression. But, the fact that numerous Sunni 
communities--and probably the majority of Sunni communities--
across Iraq have rejected al-Qaeda and, more importantly, 
extremist ideology; have been repelled by its indiscriminate 
violence and abhor the practices that they brought to their 
communities--that al-Qaeda did--as they let them into their 
communities for a whole variety of reasons in the early years, 
after liberation. This is very, very significant--again, not 
just for Iraq--but for the broader Arab world.
    And, in fact, over time, the answer to al-Qaeda-Iraq, of 
course, is not going to be to kill or capture every single one 
of them. It is going to be painstaking changes in education 
systems in Arab countries, it's going to be changes, in some 
cases, in the Imams.
    There is a country in the Middle East that, in fact, is 
working through determining who is preaching in its mosques. 
It's going to be a course in employment, in other 
opportunities. But it is, it has to be, again, a comprehensive 
effort to combat extremism, and the conditions that lead young 
men--in particular, in the Arab world--to embrace it. 
Particularly in, and again, in the Sunni-Arab world.
    So, the rejection in Iraq is very, very important, and the 
chain reaction that it set off, there in Ramadi, again has a 
huge significance, not just for Iraq, but for the region.
    Senator Barrasso. If I could go into another area, Senator 
Dodd earlier talked about the mental health of the troops. 
Senator Isakson talked about the physical health of the troops 
and what's being done now with physical medicine, 
rehabilitation.
    My training is as an orthopedic surgeon, and was basically 
practicing medicine until last year. I've just gotten back from 
Afghanistan, where I had a chance to go the Baghram and visit 
the hospital there. I watched the transport, how they do it 
with patients, what they can do, and their lifesaving 
techniques. I thought they had absolutely the best equipment 
that you could imagine. I went into the operating room, watched 
the reconstruction of a leg that had been severely injured.
    The equipment, the plates, the screws, the rods--everything 
they had is what you would expect to find at any major trauma 
center in the United States, and I thought that the level of 
care was absolutely outstanding, in terms of limb and 
lifesaving abilities.
    General Petraeus. It is phenomenal, Senator. And it is 
present in a variety of different locations, so that it's 
within the golden hour, if you will, of--from point of injury 
to trying to get the soldier to the location where that level 
of care is available, if needed.
    Senator Barrasso. And, in Afghanistan what I saw was, 
actually, the transport system was better than what you would 
find at pretty much any major trauma center in the United 
States, in terms of quick access in the golden hour of trauma. 
And I just wanted to make sure that in Iraq, our soldiers are 
receiving that same high level of care.
    General Petraeus. It is, and in fact Senator, that's one of 
the elements of this battlefield geometry that I've talked 
about. That even as we drawdown, we have to make sure that we 
have a sufficient footprint out there, so that adviser teams 
and other small elements--Special Operations teams, and so 
forth--still have the access to that transportation system so 
that, again, we can make use of that golden hour in the best 
way possible, to get our soldiers to the care they need.
    Senator Barrasso. Mr. Chairman, my time is expired. Thank 
you very much.
    The Chairman. Well, thank you for staying within your time. 
Yeah, I think you ought to get a special award for that.
    Senator Cardin.
    Senator Cardin. Thank you very much, Mr. Chairman.
    The Chairman. Excuse me, Senator, on my time--before we 
start the clock--Senator DeMint is unable to return, and I ask 
unanimous consent that the statement that he has on these 
hearings be entered in the record, at this time.
    [The prepared statement of Senator DeMint follows:]

Prepared Statement of Hon. Jim DeMint, U.S. Senator From South Carolina

    Chairman Biden, Senator Lugar, thank you for holding this hearing 
today. No other issue is more pressing on the minds of Americans than 
the situation in Iraq and the national security of the United States.
    General Petraeus, Ambassador Crocker, thank you for appearing 
today. I know today and tomorrow will be long exhausting days, but we 
appreciate your service and your efforts to better inform us about what 
is really going on in Iraq.
    Seven months ago, you both appeared before this committee to 
discuss the shift in U.S. policy in Iraq and present your impressions 
about what the ``surge'' of U.S. forces could accomplish. During the 
four hearings we heard many of my colleagues say that your strategy had 
no chance of success, that the sky was falling, and that your plans 
required, as one Senator put it, the ``willing suspension of 
disbelief.''
    Several months later, the picture in Iraq is very different. The 
credit is due to our men and women in uniform and the incredibly hard 
work they have performed; but we also thank you both for your steadfast 
leadership and commitment to this effort. Fortunately, today we can say 
the sky didn't fall, and that we remained true to the belief that 
people want to be safe and free.
    Without a doubt, the situation in Iraq is still fragile. Iraq is at 
a crossroads, but substantial progress has been made. Over the last 
year, U.S. deaths are down about 70 percent and Iraqi deaths are down 
almost 90 percent. U.S. security assistance for Iraq is down more than 
30 percent, U.S. Assistance for Reconstruction is down more than 70 
percent, and Iraqi security spending has increased by more than 25 
percent. At the same time, Iraq's economy is growing by more than 7 
percent. These are significant signs of progress.
    On my recent trip, I was encouraged by the Sons of Iraq and their 
willingness to stand up for their country and put it back on a path to 
peace and stability. The Sunni Muslims that confronted al-Qaeda, sided 
with the United States, and turned the country around are to be 
commended. They have suffered immensely for Iraq and have sacrificed 
their lives and the lives of their families so that America's efforts 
will not fail. We should not easily dismiss their hardships.
    And still we hear my colleagues say the surge has worked in 
military terms, but has failed politically. But in the past few months 
the Iraqi Government passed a de-Baathification law, an amnesty law, a 
law to govern provincial elections, and a budget--by the way, something 
our Government has been unable to do this year. There are still more 
items the Iraqis must address, but they have made progress.
    Despite shortcomings, I was encouraged by Prime Minister Maliki's 
efforts to go after the militias in Basra and the Mahdi Army throughout 
Iraq. Through these actions, we saw Iraq's President and two Vice 
Presidents, joined by every major political group in Iraq--except the 
Sadrists--condemn Sadr's militia, and endorse Prime Minister Maliki's 
demand that Sadr's militia disarm.
    Sadr's militia is now virtually the only militia left in Iraq that 
illegally challenges the authority of the Iraqi Security Forces or the 
coalition. Other major militias have disbanded and transformed into 
political organizations. This is another sign of the growing legitimacy 
of the rule of law and respect for the authority of the central 
government in Iraq.
    However, I am concerned by a recent increase in violence in Iraq. I 
am concerned that Iran is beginning to realize that a stable Iraq is 
not beneficial to the Iranian regime and that they will seek to 
undermine the progress going forward. We must ensure Iran does not have 
the ability to threaten stability in Iraq.
    I am cautiously optimistic about the future of this war-torn 
nation. But the reality of the situation here in Washington is often 
very different than reality in Iraq. Here in Congress, political 
agendas tend to obscure the facts. I hope that for the sake of our 
country, our soldiers in Iraq, and the Iraqi people, we can put 
politics aside and soberly address the situation on the ground in Iraq.
    That is why I am disheartened by some Senators' recent statements 
that we should withdraw immediately and that if the terrorists regain a 
foothold in Iraq, we should then reenter the country. It is always 
better to stay and defend than to run away and fight another day to 
regain something that was already purchased with such a high price in 
blood and treasure. That was a failed strategy in Vietnam and should 
not be repeated here.
    The future of Iraq is uncertain, but the future of the United 
States was uncertain for decades after the signing of our Constitution. 
Iraq realizes their future lies in a sustained alliance with the West 
and an embrace of democratic principles; we cannot and should not 
abandon a friend in a bad part of town, and this is no time to walk 
away from Iraq.
    There is too much at stake here to get this wrong. Defeating al-
Qaeda in Iraq is a central fight in the war on terror. Success in Iraq 
against al-Qaeda and other terrorists will in fact make Americans safer 
and the world safer, too.
    We all grieve the losses of our fallen soldiers and our hearts go 
out to those who have been wounded in battle. I hope we will honor 
their sacrifice by staying and completing their mission.

    The Chairman. Now, I yield to you, Senator Cardin.
    Senator Cardin. And, Mr. Chairman, I would ask that my 
statement also be made part of the record.
    The Chairman. Without objection, it will.
    [The prepared statement of Senator Cardin follows:]

   Prepared Statement of Hon. Benjamin L. Cardin, U.S. Senator From 
                                Maryland

    Mr. Chairman, I want to join my colleagues in welcoming General 
Petraeus and Ambassador Crocker. I disagree with the mission to which 
this administration has committed their talents, but I want to 
recognize their dedication and their service. They answered their 
government's call to duty under the most difficult circumstances. That 
took courage and we are grateful.
    I also want to pay tribute to all of our troops and diplomats 
serving in Iraq with such courage and competence. I am humbled again 
and again by their skill and their sacrifice. Their service fuels my 
own sense of urgency that this Nation develop a strategy in Iraq and a 
global foreign policy that is worthy of their commitment: A strategy 
that brings our troops home.
    After more than 5 years, more than 4,000 American lives lost, 
30,000 wounded, and $600 billion spent--we still don't have the 
strategy we need in Iraq. I believe it is imperative that we change 
course now, not in 10 months. This President should not put off the 
hard decisions to the next administration.
    Ambassador Crocker, you've stated we have a ``moral imperative to 
keep bringing violence down in Iraq.'' I agree with you; we do. But we 
also have a moral obligation to the men and women of our Armed Forces. 
We have a moral obligation to their families. We have a moral 
obligation to the American people that we will use our military to 
pursue a thoughtful strategy that is best for the long-term security of 
our Nation and our allies.
    I've always believed invading Iraq was a mistake. I voted against 
granting our President that authority in 2002. I have opposed this 
administration's strategy from the beginning. But as much as we might 
wish it, we cannot change the past. This war was recklessly begun; 
we've got to find the smartest, most prudent way to end it.
    In January 2007, the President explained his new ``surge'' strategy 
to end the conflict in Iraq. By adding 30,000 troops, ``over time,'' he 
said ``we can expect . . . the government will have the breathing space 
it needs to make progress in other critical areas.'' But even the 
President recognized that, ``a successful strategy for Iraq goes beyond 
military operations. . . . So America will hold the Iraqi Government to 
the benchmarks it has announced.''
    Well, the political epiphany for the Iraqi Government has yet to 
come.
    In March, General Petraeus, you said, ``no one'' in the U.S. and 
Iraqi Governments ``feels that there has been sufficient progress by 
any means in the area of national reconciliation.'' In a March 27 
speech declaring ``normalcy'' had returned to Iraq, the President 
agreed that ``substantial work remains.'' And, in fact, only 3 of the 
18 benchmarks the Iraqi Government and our Government agreed were 
important have been accomplished.
    Yes; it is clear that, thanks to the excellent work of our troops, 
and several unrelated factors--the Sadr cease-fire, the Sunni 
``Awakening,'' and, tragically, ethnic cleansing--violence in Iraq 
decreased from its highest and most appalling levels. Iraqi Government 
did not take advantage of relative calm to reach accommodation among 
its various factions. Local political and militia groups continue to 
struggle to amass power. Recent violence in Basra and Baghdad 
demonstrate that our troops continue to referee a multitude of civil 
wars and political power struggles--Shia on Shia in Basra and Baghdad, 
Shia on Sunni, Kurdish on Sunni, and the list goes on.
    I continue to believe, that in the name of security, we are 
undermining our overall goal of stability. We are arming and paying 
Sunni militia to combat al-Qaeda in Iraq, we are arming Shia militia 
allied with Iran to combat other Shia militias that oppose the central 
government. I have yet to hear a clear strategy for how we will unite 
these disparate armed forces under a central government and bring our 
troops home. I have only seen how we are entrenching ourselves deeper 
and deeper into an Iraqi civil war.
    U.N. officials reported this past Friday that nearly 5 million 
Iraqis have been displaced by this conflict. An estimated 2 million are 
in neighboring countries. All are running out of money creating a 
humanitarian and a security crisis throughout the region. If all were 
to try and return home, it would be chaos. We aren't doing what we need 
to do to resolve the crisis.
    Arming opposing militias, meddling in intra-Shia violence, 
tinkering around the edges of the growing refugee crisis: What I see is 
our country ricocheting between the crisis-of-the-day rather than 
employing a comprehensive strategy that shifts the U.S. from our 
current, unsustainable military presence to a longer term diplomatic 
role. Running out the clock on this President's term is not an 
appropriate strategy for the United States of America.
    This summer, we will be back in a familiar place. Just as when the 
President announced the ``surge,'' we will have over 130,000 troops in 
Iraq, unacceptable sectarian violence, millions of displaced Iraqis, 
and no fundamental political reconciliation to show for our efforts. We 
need a new strategy in Iraq and we need it now. The American people are 
tired of waiting.
    For years, some of us have been calling for a new approach; one 
that transitions our mostly military effort to a diplomatic effort, one 
that brings our troops home and lets Iraqis take control of their own 
streets. We need our Nation's most senior officials engaged in bringing 
Iraq's political actors, Iraq's neighbors and international entities 
with such as the United Nations and the Organization for Security and 
Cooperation in Europe (OSCE) to the table. At this time, these 
international organizations have far greater regional credibility than 
we do.
    General Petraeus, Ambassador Crocker, I look forward to your 
testimony. Beyond your reports about stability achieved and laws 
passed, I most want to hear what our country's objectives should be 
going forward given the political reality on the ground in Iraq and the 
reality of our military capacity. The ``substantial work that 
remains,'' according to President Bush, includes ``implementing the 
laws [the Iraqi Government] passed, reviewing its Constitution, 
drafting a electoral law, and passing laws to reform its oil sector and 
codify revenue-sharing.'' What are your recommendations for the tactics 
we should employ to reach these most fundamental goals?
    Our country and the world has an interest in a safe and secure 
Iraq. But in working toward that end, we cannot ignore other competing 
needs, especially at home. We need a more thoughtful approach that will 
protect and bring home our troops, step up our diplomatic efforts, 
internationalize the effort to bring stability to that country and the 
region, and allow us to pursue terrorists like al-Qaeda in Afghanistan 
and wherever they seek refuge.

    Senator Cardin. Let me thank General Petraeus, and 
Ambassador Crocker, and all of the soldiers and diplomats that 
have served our Nation so well, and with tremendous sacrifice. 
And, we can't say thank you enough, and I just really want to 
express our appreciation on behalf of the people of Maryland, 
that I have the honor of representing.
    I want to go back to what the President of the United 
States said on January 10, 2007, when he announced our new way 
forward in Iraq.
    He said, ``Over time, we can expect growing trust and 
cooperation from Baghdad's residents. When this happens, daily 
life will improve, Iraqis will gain confidence in their 
leaders, and the government will have the breathing space it 
needs to make progress in other critical areas.''
    Senator Menendez has talked about the daily life for 
Iraqis. The President, this administration, and the Iraqi 
Government agreed on certain benchmarks to judge progress in 
other critical areas. By any indication, those benchmarks have 
not been met.
    Last week, in hearings that we held in this committee, I 
asked the panelists to name a politician or political party 
that could be our partner for making peace in Iraq, who would 
make the type of concessions that are required to have a 
lasting government that has the respect of its people?
    When peace broke out in South Africa and Northern Ireland, 
there were local leaders and national leaders in those 
countries that were willing to make those types of concessions. 
At the hearing last week, there was no consensus that there are 
no national leaders today in Iraq that are prepared to make the 
type of concessions to move forward with a lasting peace.
    I must acknowledge that I would like to see, in the next 10 
months of this administration, a change of mission. I opposed 
the war in Iraq, and have opposed the way this war has been 
pursued by this administration. But, I certainly don't want to 
see the status quo maintained--I would like to see a change, I 
would like to see a greater focus on diplomacy as some of my 
colleagues have talked about.
    But, I'm now concerned that this administration might 
negotiate a long-term security agreement, framed in a way to 
avoid the approval of the Congress, in order to try to affect 
the flexibility of future administrations or future Congresses 
to change course.
    So, Mr. Ambassador, let me just give you an opportunity to 
either clarify, or comment on any of the assumptions I've made, 
with the ability to move forward with a partner who is prepared 
to make concessions, or the security plan that is being 
contemplated, being drafted in a way that the Iraqi 
Government--and perhaps their Parliament--would have more to 
say than this Congress?
    Ambassador Crocker. Thank you, Senator.
    On the first, as I tried to describe, I think, in response 
to Senator Corker's questions, we are seeing as a result of 
improved security conditions, bottoms-up reconciliation that 
then affects moods and attitudes----
    Senator Cardin. I think my question deals with Iraqi 
national leaders who are prepared to make concessions.
    Ambassador Crocker. Yes, sir. My point was, you have both 
bottoms up and top down, and they link.
    The improved security situation, and the corresponding 
relaxation, if you will, on the part of both Sunni and Shia 
communities--as the Sunnis repudiate al-Qaeda and related 
groups, the Shia no longer see the need to rely on militias to 
protect them.
    Senator Cardin. I understand that. I'm looking for, though, 
a national leader who's prepared to step forward to make the 
types of unpopular positions that are required if you're going 
to have real compromises made in the government. If you want to 
name a person, fine. If not, let me try to move on to the next 
point.
    Ambassador Crocker. OK, just to say that that atmosphere, 
then, affects national-level leaders and gives you a dynamic, 
in which you can start to see progress on complex pieces of 
legislation that are tied to reconciliation, that--the package 
that the Parliament voted in February--that you simply could 
not have gotten 6 months before. And it takes all the leaders 
in on this.
    Is there a Nelson Mandela out there? I don't think so. But, 
we are seeing, kind of, the tradeoffs starting to be made, and 
a move away from zero-sum thinking that any concession is a 
weakness. And that is progress.
    With respect to your second point, on a long-term 
relationship, we are currently negotiating a Status of Forces 
Agreement in many respects----
    Senator Cardin. Is it being drawn in a way to exclude the 
Congress' approval?
    Ambassador Crocker. It is being drawn in a way that will be 
similar to the 80-odd others that we have around the world, as 
an executive agreement.
    Senator Cardin. Iraq has a history with this Congress. And 
I just urge you, if you want the cooperation of many of us, 
that agreement better come before us.
    Let me--I want to raise one other issue. One of the facts 
that have happened over the last 5 years, that is clearly 
without dispute, is there is now 5 million displaced Iraqis--
about 2 million in neighboring countries, 3 million, now, close 
to 3 million within Iraq itself--you've acknowledged that in 
your statements.
    The refugees' impact on surrounding countries cannot be 
underestimated.
    My point is that, you stated in your testimony that, in 
coming months, the Iraqi Government must resettle Iraqis, both 
internally displaced and refugees. My concern is that the 
United Nations High Commissioner on Refugees does not believe 
the conditions are stable enough for the return of internally 
displaced individuals. My question is, Do you disagree with the 
High Commissioner?
    No. 2, you state that the role that the United Nations is 
playing is to, in fact, help resettle. The High Commissioner 
says that's not accurate, that it is to make an assessment as 
to whether it's safe to resettle. If you could clarify that, I 
think it would be helpful to us.
    Ambassador Crocker. Senator, we work very closely with the 
U.N. in Iraq, and now with UNHCR, since they have put 
international staff back into the country. And General Petraeus 
and I have both met, incidentally, with the High Commissioner. 
Both the U.N., and ourselves, and other concerned governments 
are all working with the relevant Iraqi authorities, to be sure 
that they've got the resources and the planning to deal with 
returns as they happen, because the people have a vote, 
themselves.
    Senator Cardin. My question is, Do you disagree with the 
High Commissioner as to whether the conditions today are safe 
for resettlements of internally displaced individuals?
    Ambassador Crocker. Senator, it's not a blanket issue. It 
depends on the area. There are some areas where people can 
safely return, there are areas where they probably should wait 
a bit.
    Senator Cardin. Thank you, Mr. Chairman.
    The Chairman. Gentlemen, we're getting there. And, thank 
you for your patience, and I thank my colleagues for theirs, as 
well.
    Senator Casey.
    Senator Casey. Thank you, Mr. Chairman. Mr. Chairman, I 
want to thank you for your patience, as well. It's been a long 
day, and the witnesses have been here awhile, I'll do my best 
to stay within my time.
    I want to thank the Ambassador and the General for your 
testimony today, and your service to the country. You have both 
been given terribly difficult assignments and we're grateful 
for your service.
    Really, I have two areas of questioning. One pertains to 
the renewal of Blackwater Worldwide contract. We know what 
we're talking about, with regard to a private security firm. 
All kinds of controversy and investigations, as you know, have 
been involved in the case of Blackwater, I guess it was 
September, when there were shots fired in a crowded area and 17 
Iraqi civilians were killed, in addition to other 
investigations.
    Ambassador Crocker, the question I have for you is, Can you 
describe the process that you and/or the administration 
undertook to make a determination about the renewal of that 
contract?
    Ambassador Crocker. This was a decision made in the 
Department--the Department of State. Blackwater is, I think, in 
the third year of a 5-year contract, so the decision was to go 
ahead with the next year of that contract.
    The fact is, Senator, that we--in order to move around 
securely, we are--and will need to continue to rely on private 
contractors. We just simply don't have the assets with the 
State Department Diplomatic Security System to do it any other 
way.
    In the wake of the September incident, we took a number of 
steps. There was a Memorandum of Agreement signed between the 
Departments of State and Defense. The Multi-National Force and 
the Embassy had worked out a set of procedures, you now have an 
officer in our tactical operations center, so that the battle 
space owners have full visibility on any of these movements.
    We've put diplomatic security agents from the State 
Department with each security contractor motorcade, installed 
TV cameras and recorders--again, a number of steps to ensure 
that we've got the tightest possible control that we can, over 
all of this. And since September, there have been just three 
escalation-of-force incidents, I believe, none of them 
involving any injuries.
    Now, with respect to the contract, as you know, there is an 
FBI investigation underway of the September incident that is 
not yet concluded. When it is, I--along with others in the 
Department--are going to be looking at what the investigation 
has turned up. If I feel it's warranted, I would not hesitate 
to recommend a cancellation of the contract, at the discretion 
of the Government.
    Senator Casey. But at this point in time, no other firm was 
considered when that renewal determination was made, is that 
correct?
    Ambassador Crocker. To the best--I'm not sure that's 
exactly correct, Senator. And we'd have to check back with the 
people who actually made the determination at State. I don't 
think there was--it was felt there was another qualified firm 
available.
    [The written information from Ambassador Crocker follows:]

    The Department considered a variety of options in deciding to 
extend the Worldwide Personal Protective Services Task Order. Given the 
enhanced accountability and oversight measures put in place, along with 
the continuous operational requirements in Baghdad, the determination 
was made that extension of the current task order would best facilitate 
ongoing support of our foreign policy initiatives in Iraq. It is 
important to recognize that this action can be terminated by the U.S. 
Government at any time.

    Senator Casey. I want to move to my last question and it 
really is directed at both of you, but I think General Petraeus 
is probably the one who would answer this.
    I was in Iraq back in August, Senator Durbin and I were 
there and we had a dinner with both of you, and I appreciated 
your hospitality. One of the things that I was complaining 
about was the language that I thought the administration was 
using, about victory and defeat, and that I think this language 
doesn't necessarily describe what is happening in this 
particular conflict--unlike other wars our country has been 
engaged in.
    Ambassador Crocker, you said at the time, sitting next to 
me that the way you would frame the debate, so to speak, is how 
we measure success should be sustainable stability. And I guess 
my question pertains to that description, but in particular, 
that description juxtaposed with the levels of readiness.
    I know that, General, the old Level 1, Level 2, 3, and 4 
are now Operational Readiness Assessments, which you have in 
chart No. 10. But the way I look at this, in terms of where we 
were back in January 2007, as opposed to where we are in March 
2008, is that at the Level 1, the highest level--which in your 
chart is in green--we have about 10 to 12 battalions who are at 
Level 1, who can function independently.
    I guess my basic question, in the limited time I have, is: 
What do you think is sustainable stability, as it pertains to 
Level 1, the number of Level 1 battalions needed? And, two, if 
you can tell us what we've spent on training the Iraqi Security 
Forces, to date?
    General Petraeus. First of all, Senator, thanks for the 
opportunity to explain the ORA process, and what it means, 
because, it's a fairly mechanical action. It depends on having 
all of the--certain percentage of the--commissioned officers, 
noncommissioned officers, personnel fill, qualified people, 
vehicles, readiness status of the vehicles, training readiness, 
if you will, ability to carry out tasks, and so forth.
    And the problem with the Iraqis increasing the number of 
ORA 1 Level units, is that as they get ORA 1 Level units, they 
tend to take leaders out from them, and to use them to build 
additional elements. It's, in fact, why there's that additional 
category of ``in the lead.''
    You don't need ORA 1 Level units, necessarily, to achieve 
security in a location, depending on, again, obviously, what 
the enemy situation is, what the threat is, what the level of 
local support is, and so forth. So there's, again, not a 
mechanical or arithmetical layout of how many ORA 1 Level units 
are needed in this area or that area. Obviously, the enemy gets 
a vote, and in fact they--while we'd like to see ORA Level 1 
units, again, we actually agree with the approach that they 
have taken, where they tend to raid those units, and the good 
leaders, and create more units, because they do, in fact, need 
more units and more troopers and more police.
    And they need them, because in a counterinsurgency, of 
course, the demand for security forces to citizen ratio is very 
substantial.
    We have reached sustainable security in some provinces. And 
again, not just the successful and secure Kurdish Regional 
Government provinces, but also in a number of the other 
provinces that have moved to provincial Iraqi control. And 
then, in some other areas, obviously, we have a long way to go, 
because of the enemy situation. And, in some cases, because of 
the local ethnosectarian dynamics, as well.
    But, by and large--certainly since you visited in August--
the forces have grown, their capability has grown. It is still 
uneven, and in fact, the number of provinces that they have 
taken over has grown, as well.
    Senator Casey. Thank you, I'm out of time. Thank you.
    The Chairman. Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Gentlemen, I've been at it almost as long as you have 
today, I think.
    I would first like to say that, obviously from the 
questions that you've received on this committee, we've got a 
pretty strong consensus on this committee that this country has 
put itself in two distinct strategic disadvantages with the 
situation that we've been in, in Iraq.
    The first is that we've had the greatest maneuver forces in 
the world, the United States Army, and the United States Marine 
Corps, tied down block by block, city by city, talking about 
sectarian strife, et cetera, in one country, while the forces 
of international terrorism have remained mobile and, in many 
cases, have recentered themselves elsewhere.
    And the second is, as Senator Voinovich was so adamantly 
talking about, our national strategic posture, when you look at 
the economy, our ability to focus on larger strategic 
interests--particularly, in my view, what has been happening 
with the evolution of China during this process, have also been 
falling by the wayside.
    A note, really quickly, on the questions that you received, 
very heavily on this side, but also from the other side, about 
the diplomatic surge, I think we all know what people were 
really talking about. And you've answered, I think, as best you 
can with respect to what's been going on, but increased 
civilian participation, particularly in an atomized way, is not 
really what people are talking about.
    Ambassador, I know when you and I were visiting before your 
confirmation hearing, we were pretty much in agreement as to 
what robust diplomacy really would mean, and how it would 
impact the future of the region. Robust diplomacy can only 
happen from the very top. And it hasn't happened, in many 
reasons, as a conscious decision.
    And with respect to the ability to address al-Qaeda 
wherever it would reform itself--I have a pretty strong faith 
in the Iraqis, if you look at what they did in Al Anbar. They 
finally got sick enough of it, that it was the Iraqis 
developing the will to fight. I'm not that concerned, long 
term, if we reposition our forces.
    Now, that being said--Ambassador Crocker, I want to get 
back into this diplomatic arrangement that I was talking to you 
about earlier. If one reads your testimony, page five of your 
testimony--you speak about, and I'm going to quote you here, 
``We have begun negotiating a bilateral relationship between 
Iraq and the United States.''
    I've been having meetings for several months on this, 
trying to understand exactly what that means, and from what I 
can understand, there are actually two documents that go into 
this, is that not correct?
    Ambassador Crocker. That is correct. There is a----
    Senator Webb. It would be a Strategic Framework Agreement, 
and then--pursuant to the Strategic Framework Agreement--there 
would be a Status of Forces Agreement.
    Ambassador Crocker. Status of Forces Agreement.
    Senator Webb. Right.
    Ambassador Crocker. That is correct.
    Senator Webb. That was not clear from your testimony, and 
it hasn't been completely clear from your oral testimony today, 
either. I think we need to understand that.
    And Mr. Chairman, I think we need to pay very close 
attention in the next couple of months, to the first agreement, 
the Strategic Framework Agreement.
    We've asked to actually be able to see what the document 
looks like and I would give you the same question I had 
earlier, in terms of that document--what would have to be in 
that document before--in the view of this administration--it 
would require congressional approval?
    Ambassador Crocker. Senator, with respect to the Status of 
Forces Agreement, as I have said earlier, we expect that will 
have a number of elements in common with----
    Senator Webb. I understand Status of Forces Agreement. But, 
in my experience--and I've been doing this pretty well as long 
as you have, a Status of Forces Agreement is pursuant to an 
agreement that gives two countries some sort of a relationship, 
it could be the United States-Japan bilateral security 
arrangement, or it could be the collective situation like we 
have in NATO.
    So, the real question is the strategic framework.
    Ambassador Crocker. Right. I was--the point I was going to 
make on the SOFA, and I know you know this, but I just, I think 
it needs to be out there where it's clear to everyone--our 
intention is to negotiate that as we have done all of our other 
SOFAs, except the NATO SOFA, as an executive agreement.
    The Strategic Framework Agreement, which we and the Iraqis 
conceive as setting out a vision for our ongoing relationship, 
in a variety of fields--political, economic, cultural, 
scientific----
    Senator Webb. And security.
    Ambassador Crocker. And security--that is correct. We do 
not see that Strategic Framework Agreement as rising to the 
level of an executive agreement.
    Senator Webb. I'm looking at an article that came from The 
Guardian today, which at least ostensibly quotes from the 
working draft of that agreement. And there's some very, very 
careful language in there, in terms of how external threats 
would be dealt with, but it really seems to me, very clearly, 
to be tiptoeing to the edge of what would require overt 
congressional approval.
    I'm not going to take any more time from the day on this, 
but I would hope that we could do some follow-on examination of 
this, Mr. Chairman.
    And also, Ambassador Crocker, from what we were told when 
we met with people from the administration, you are the lead 
negotiator on both of those agreements, is that not correct?
    Ambassador Crocker. I'm overseeing the process from 
Baghdad, yes, in terms of the SOFA. We've got someone out to 
head that effort, who is a specialist in the field, but it is 
true that I am overseeing the overall effort, and it is 
certainly our intention to be fully transparent with this. I 
believe the committee has had briefings, or the staff has had 
briefings on where we are, and----
    Senator Webb. We've had briefings, but, to my knowledge, at 
least from the perspective of our office--the administration 
has declined to show us the document. So, we really don't know 
what we're dealing with.
    Ambassador Crocker. Well, it's obviously important that we 
do have a relationship of some confidence on this, and I will 
talk to my colleagues to see that we do.
    Senator Webb. And I thank you for your testimony and I wish 
you luck tomorrow.
    Thank you, Mr. Chairman.
    The Chairman. Senator, let me say, with the witnesses here, 
that we're having a hearing on this with the administration on 
Thursday, on this very thing. I guarantee you, as sure as the 
sun will rise tomorrow, this committee will know exactly what 
is in that agreement, No. 1.
    No. 2, we've been told thus far, it doesn't settle it, that 
as was just stated it will not be an executive agreement, so it 
does not rise to any enforceable agreement.
    The danger, in my view, I think we're going to find, is the 
Iraqis are going to think it means something, and we're going 
to be acknowledging it doesn't mean anything other than a wish, 
an aspiration. Because it says--I've been told by the 
administration--they would consult with the Iraqis if the 
following things were to occur, consult. Not binding anyone.
    If it's anything beyond that, then it rises to a different 
level. But, I promise you, we will know exactly--exactly--what 
this Strategic Framework Agreement entails.
    And I asked the chairman a moment ago whether he had any 
closing statement, his indication was no. I just want to do a 
little bit of housekeeping, it'll take two more minutes. There 
are some things I'd like to follow up with, in writing, and to 
see if you would be prepared to respond to.
    I'll just say, generically, General, that you said, you 
know, we're at the early stages of the Iraqis being able to 
do--take care of themselves. General, we're long past the early 
stages. We're 6 years into this. We're very long in the tooth. 
I know what you mean by it, but just so you know up here, and 
in the country--we're way beyond the early stages. There's just 
a little bit of time left.
    And the second point I'd make is, the reason why you find 
so many people, Mr. Ambassador, fixating on the Iraqis paying 
more--we've spent, we've sat with the Pentagon, we've been in 
theater, we have met with the State Department--everyone agrees 
we should be doing roughly $150 million for Pakistan now, to 
aid their new government, to deal with the construction, to 
deal with the Federally Administered Tribal Areas, et cetera--
we can't find $150 million. Let's just get at this. We can't 
find $150 million.
    So, if they picked up the $150 million that we're doing, 
which I think we should be doing, ``paying,'' ``compensating'' 
the forces, it means it's this big deal. It means that what 
everyone says is a critical, critical, critical moment for us 
in United States-Pakistan relations, right now, we need $150 
million. We can't get it.
    We can't even be assured we're going to get the money that 
the Defense Department says, and the State Department says they 
need for a piece of legislation that was spearheaded--I 
cosponsored it, but the real credit goes to my colleague, 
here--to provide for, in the future, a civilian force available 
to compensate for, or to add to, or to take over, 
responsibilities that need--in the future.
    So, I just want you to understand, when we're--this is not 
about being punitive with the Iraqis--we're scraping, just 
there, $175 million for two things everybody says--the 
Secretary of Defense makes a speech, saying that a 19-to-1 
ratio that we're spending on military versus diplomacy is 
unacceptable. We've got to change it.
    Ryan, we can't get it done. Money. So this is nickel and 
dimes when you're talking about a continued commitment of $3 
billion a week, for some period, anyway. But it's a big, big, 
big, big deal strategically. And, so that's why you're going to 
get a lot of pressure on that.
    And the last point--it's been a long day, Ambassador 
Crocker, but I would like you to, in writing, answer the 
question that was posed by Senator Obama. If not, we have a lot 
of other hypotheticals--if, in fact, the status quo as it 
exists today were guaranteed to be able to be sustained over 
the next 5 years, would that be sufficient for us to 
considerably drawdown American forces?
    We've got to get some kind of matrix for people to get a 
sense of what we're talking about, here. Otherwise, we're going 
to lose all support for anything--just a politician speaking 
now--in my opinion.
    So, there's a number of things that--it will not be a long 
list of things--but there's three or four things I'd like to, a 
little, clean up--not clean up--but follow up on some of the 
things we've mentioned.
    And it is not, again, a desire to embarrass anybody, but 
you know, if you had to guess for me, who's close--Maliki or 
Sadr--to the Iranians, that's a kind of hard call. You know, 
the Badr Brigade was called the Badr Brigade because it was 
part of the Iranian Revolutionary Guard. And the Badr Brigade 
is the place where Maliki--no? You don't think he's----
    Ambassador Crocker. The Badr Brigade is associated with the 
Supreme--Islamic Supreme Council, Abdul Aziz al-Hakim--Prime 
Minister Maliki is from the Dawa Party.
    The Chairman. No; I know he's from the Dawa Party, but he 
is siding now, with Hakim, relative to Sadr. That's all I'm 
saying.
    I don't want to--I've kept you too long, I'm going to put 
some of this down. You guys have an incredibly difficult job--
you're doing your job, I think, very well.
    And the last point is, Ambassador Crocker--just so you 
know. Nobody thinks you're surging. Nobody thinks there's a 
diplomatic surge anywhere. Nobody. Nobody. And we need a surge. 
But that's another issue.
    So, if you have--I invite any closing comment you'd like to 
make. And I'll close by saying thank you, your patience is 
amazing, and your physical stamina exceeds your good judgment, 
I think. I mean, this has been a long day for you, but thank 
you very much.
    We stand adjourned.
    [Whereupon, at 6:50 p.m., the hearing was adjourned.]
                              ----------                              


                  Additional Submitted for the Record


    Prepared Statement of Hon. Christopher Dodd, U.S. Senator From 
                              Connecticut

    Mr. Chairman, I would like to thank you for holding this hearing on 
the administration's strategy for Iraq following the troop surge. Iraq 
remains one of the most important components of American foreign 
policy, and I deeply appreciate the opportunity to reexamine U.S. 
strategy in Iraq. I would also like to take a moment to thank General 
Petraeus and Ambassador Crocker for their service, and express my deep 
gratitude for the thousands of Americans serving in uniform in Iraq as 
we speak.
    The recent outbreak of fighting between Iraqi Security Forces and 
Shiite militias, and the tenuous cease-fire that has followed, is a 
clear indication that Iraq has far to go before it can be considered a 
stable, secure, and self-sustaining state. The most important question 
we must ask today is not ``where did the surge get us,'' but rather 
``where do we go from here''? All too often, this administration has 
shown an aversion to answering this all important question. Our 
strategy in Iraq, it seems, is predicated on planning for tomorrow 
rather than next year, on short-term marriages of convenience rather 
than long-term plans for sustainability.
    Mr. Chairman, the so-called ``breathing space'' provided by the 
troop surge does not appear to have achieved the most important goal of 
the troop surge, that of long-term sustainable political 
reconciliation, or even the outlines of one. General Petraeus himself 
has suggested that Iraqi political leaders have failed to take 
advantage of the relative calm provided by the troop surge to bring 
about political reconciliation. The few pieces of reconciliation 
legislation that have been passed by the Iraqi Parliament, such as the 
de-Baathification laws and the Provincial Powers Law were both passed 
by razor-thin margins along highly polarized sectarian lines.
    Perhaps more troubling, at the same time that the Maliki government 
has sought to wrest control from Iraq's sectarian militias, the 
administration has seen fit to employ Sunni militias, many made up of 
former insurgents, to combat al-Qaeda in Iraq. While this strategy may 
be advantageous in the short run, and certainly the decline of al-Qaeda 
is a positive development, it raises serious questions about the long-
term ability of Iraq's central government to provide for the security 
of its people, particularly as it has become clear that the Maliki 
government has made little progress in integrating these sectarian 
militias into the Iraqi Security Forces.
    The cost of this war, Mr. Chairman, is another matter that this 
administration has shown little interest in addressing. Estimates have 
suggested that the United States will have spent $720 million a day in 
Iraq, and Nobel Prize winning economist Joseph Stiglitz has suggested 
that the ultimate cost of this war, including the cost to the United 
States economy, including fully rebuilding our military and caring for 
our veterans in the long term, may be as high as $3 trillion. The 
citizens of New Britain, Connecticut, alone, have paid some $204 
million in tax dollars for this war, a number that falls just below the 
town's $211 million yearly budget.
    Meanwhile, the United States has spent well over $20 billion on 
reconstruction costs alone. All of this is being spent despite the fact 
the Maliki government holds close to $40 billion in reserves and 
development funds in banks from New York to Switzerland and has 
reported budget surpluses on numerous occasions. Once again, we must 
ask, ``where do we go from here,'' how much longer must the United 
States foot the bill for Iraq's reconstruction?
    Mr. Chairman, taken all together, we seem to be no better or worse 
off than we were in the autumn of 2005, both in regards to the number 
of U.S. troops in Iraq and the level of violence. Despite this 
administration's predictions of the surge's success, we seem to be 
right where we started. And despite all of this, the American people 
have yet to hear about what our strategy is going forward? Where will 
Iraq be in the next 6 months, or the next year, and equally important, 
where will the United States be? How many soldiers will we have on the 
ground in Iraq? I hope that during today's hearing we will finally 
start hearing answers to these important questions; questions that have 
frankly never been answered during the nearly 6 years of this 
disastrous war.
    General Petraeus, Ambassador Crocker, I thank you for your 
testimony today, and I look forward to a frank and direct answer to 
this all important question.
                                 ______
                                 

  Responses of Ambassador Ryan Crocker to Questions Submitted for the 
                 Record by Senator Joseph R. Biden, Jr.

    Question. When do you expect the next round of Iran-Iraq-United 
States talks? Why were talks planned for March called off?

    Answer. No date has been set for another round of United States-
Iraq-Iran talks. We have been willing for some time to participate in 
further trilateral talks with Iran on security in Iraq, at the request 
of the Government of Iraq. The Iranians have repeatedly found reasons 
not to come to the table. We remain open to further talks when the 
circumstances indicate that these would be helpful to improve security 
in Iraq.

    Question. What is the latest on the situation in northern Iraq 
between Turkey and the PKK? What is the status of tripartite diplomatic 
efforts between Turkey, Iraq, and the United States? What role do you 
see for the Kurdistan Regional Government in this process?

    Answer. The United States recognizes the PKK terrorist organization 
as a common enemy of Turkey, Iraq, and the United States. Over the past 
several weeks, the Turkish military has continued to carry out air 
strikes against the PKK in northern Iraq, which has become more active 
as the weather in northern Iraq has improved.
    We also continue to press for increased diplomatic engagement 
between Turkey and Government of Iraq officials in Baghdad in 
coordination with regional officials from the Kurdistan Regional 
Government (KRG) in Erbil. We continue to strongly urge the KRG to 
cooperate with both the Turkish Government and Iraqi Government to 
confront the threat posed by the PKK. Recently we have observed 
encouraging movement toward such cooperation by officials in Ankara, 
Baghdad, and Erbil.

    Question. In your September testimony you told the committee that a 
meeting of Iraq's neighbors last year had discussed the idea of 
creating a permanent secretariat. Has that happened? If not, why not?

    Answer. In lieu of a Secretariat, the participants in the Expanded 
Neighbors process have created an ad hoc Support Mechanism. 
Participants in the April 22 Expanded Neighbors Ministerial approved 
the Terms of Reference of the Ad Hoc Support Mechanism. The Support 
Mechanism is located in the Iraqi Ministry of Foreign Affairs in 
Baghdad and is actively assisted by the United Nations on substantive, 
technical, and organizational issues. The Support Mechanism is intended 
to liaise with Member States on preparing for upcoming meetings, 
developing draft agendas, maintaining records of decisions reached, and 
carrying out other administrative tasks necessary to ensure that the 
process continues to be successful.

    Question. On February 14, during his trip to the region, the U.N. 
High Commissioner for Refugees, Antonio Guterres, said that he did not 
believe that conditions currently exist for safe and sustainable 
returns in Iraq. Necessary conditions according to the United Nations 
include refugees being free of fear from discrimination and 
persecution, and confident of their physical safety and material 
security.

  <bullet> Do you concur that these conditions should be used as 
        standards when assessing the appropriateness of returns?
  <bullet> Do you believe that these conditions currently exist in 
        Iraq? Do you believe that Iraq is safe enough for refugees and 
        IDPs to be going home?

    Answer. We support UNHCR's assessment that the situation in Iraq 
does not yet merit the promotion of large-scale refugee returns. We do 
support planning for refugee and IDP returns and have been actively 
engaged with the GOI to develop the policy guidance, infrastructure, 
and basic service requirements that need to be in place to support 
large-scale returns. We have urged UNHCR to develop and conduct, in 
coordination with the Government of Iraq (GOI), a Returns Assessment 
identifying these same elements in areas of anticipated returns. The 
terms of reference for that assessment have been finalized and we 
expect a final report in June. We have also supported the United 
Nations Assistance Mission for Iraq (UNAMI) in its collaboration with 
the GOI to finalize the National Policy on Iraq Displacement that would 
provide overall policy guidance to the GOI in assisting returnees to 
reintegrate back into their communities.

    Question. On November 26, 2007, you sent a letter to Prime Minister 
al-Maliki recommending that he issue an Executive order to coordinate 
government action related to Iraqi refugees. The letter outlined a 
number of recommendations, with the suggestion that they be dealt with 
by the end of January 2008: First, for the Ministry of Displacement and 
Migration to develop a mandate. Second, for the Ministry to develop a 
National Policy. Third, for the Ministry to establish an 
interministerial committee to address issues faced by internally 
displaced persons and returning refugees. Fourth, for the Ministry to 
develop a clear role for Iraqi Security Forces in relation to 
internally displaced persons and returning refugees. Fifth, for the 
Ministry to delineate a clear legal framework for returning refugees 
and internally displaced persons.

  <bullet> To what degree has the Iraqi Government addressed these 
        recommendations? If so, which ones? If not, what are the 
        impediments? Are you continuing to raise these recommendations 
        and urge that they be undertaken?

    Answer. The Government of Iraq has responded to several of the 
recommendations made in our November 26 letter to Prime Minister 
Maliki. The Basic Law, which establishes the Ministry of Displacement 
and Migration (MODM) as an official Ministry, was submitted to the 
Council of Representatives (COR) for approval earlier this year and 
awaits further review.
    In April 2008, the MODM finalized a National Policy which defines 
its day-to-day operations. The policy was approved by the Council of 
Ministers (COM) for approval on May 20; it permits the MODM to develop 
a detailed action plan on displacement and returns.
    MODM has begun work on a returns plan. The Ministry has prepared an 
additional budget request of $195 million that would be used to provide 
support to up to 100,000 returning families. The COM has appointed an 
interministerial group, consisting of MODM, the Ministry of the 
Interior, the Ministry of Foreign Affairs, and the Ministry of Finance, 
to work on the returns plan in order to get this budget passed.
    The Government of Iraq still needs to delineate a role for the 
Iraqi Security Forces in relation to displaced Iraqis and establish a 
legal framework on returns, as per recommendations four and five in our 
letter to PM Maliki. The National Policy on displacement and the 
returns plan underway may address these issues.
    Embassy and Department officials continue to engage the Government 
of Iraq at high levels on the issues of IDPs and refugee returnees. 
Embassy staff meet with senior officials of the Government of Iraq, the 
MODM, and UNAMI/UNHCR on a regular basis to ensure a unified USG and 
international community message to the Iraqis and to bring maximum 
pressure to bear for urgent senior-level Government of Iraq attention 
to the humanitarian situation of its displaced citizens.

    Question. How much financial support has the Government of Iraq 
given to its neighbors to support the needs of Iraqi refugees? What is 
your view of this level of assistance, given the resources of the 
Government of Iraq? Do you have any sense of the future spending plans 
of the Government of Iraq to respond to the continuing needs of Iraqi 
internally displaced persons and refugees?

    Answer. The Government of Iraq (GOI) pledged $25 million to support 
Iraq's neighbors that have taken in Iraqi refugees. Of that amount, $15 
million has been disbursed to Syria and $2 million to Lebanon. The GOI 
earmarked $8 million for Jordan, but the funds have not yet been 
disbursed. The U.S. Government continues to encourage the GOI to 
increase its refugee assistance, as such increases would improve the 
living conditions of Iraqi refugees and advance relations between the 
GOI and its neighbor countries.
    The GOI recognizes the importance of providing assistance to 
internally displaced persons (IDPs) and preventing the current 
situation from deteriorating. It has allocated increasing amounts to 
the Ministry of Displacement and Migration each year since 2005. The 
Ministry received an allocation of $3.7 million in 2005 and $17.6 
million in 2008, $7.8 million of which is for social benefits.
    With the assistance of the U.S. Government and the United Nations 
Assistance Mission in Iraq (UNAMI), the GOI has increased its 
assistance to the displaced. The GOI has finalized the National Policy 
on Iraq Displacement and has submitted to the Council of 
Representatives the Basic Law formally establishing the Ministry of 
Displacement and Migration. With the U.N., the GOI is planning an 
international conference in June to discuss and review its plans to 
support the return of displaced persons. The Iraq Cabinet recently 
approved a $195 million plan drafted by the MODM that will support the 
return of displaced families. President Bush recently called on the GOI 
to use its increasing resources to aid all Iraqis, including IDPs and 
refugees.

    Question. In his trip to the region last month, the United Nations 
High Commissioner for Refugees stated that humanitarian aid in Syria 
and Jordan may have to scale back dramatically within the next several 
months because of underfunding. Last month I sent, with several of my 
colleagues, a letter to the President urging the United States to fund 
50 percent of the estimated $900 million that will be necessary to meet 
the humanitarian needs of Iraqi refugees and internally displaced 
persons (IDPs) in 2008. While I welcome the $275 million that the 
President requested in the 2008 Emergency Supplemental, it is not 
enough. Furthermore, the President's 2009 budget request did not 
include any funding to support Iraqi refugees and IDPs.

  <bullet> What is your understanding of why the 2009 budget request 
        did not include funding for assistance to Iraqi refugees and 
        internally displaced persons based upon its best assessment of 
        the needs?
  <bullet> Are you concerned about insufficient international support 
        to meet the projected needs for Iraqi refugees and IDPs in 
        2008? What are you doing to assure that calls for assistance 
        are adequately funded?

    Answer. The administration requested $141 million in MRA as part of 
its FY 2009 supplemental request specifically to assist Iraqi refugees, 
internally displaced persons and conflict victims. This request 
demonstrates the administration's continued commitment to support Iraqi 
refugees, IDPs, and conflict victims.
    We remain concerned that the international community, including the 
Government of Iraq, has not stepped forward to adequately fund Iraqi 
refugee assistance projects. Ambassador Foley raised our concerns 
during his travel to the gulf and Europe in late March when he 
encouraged greater engagement on the part of regional countries and 
traditional European donors in helping displaced Iraqis, including 
stepping up their respective contributions to international 
humanitarian appeals. The Secretary also highlighted the need for 
increased collaboration on the part of European and regional countries 
in assisting Iraqi refugees during the April 22 Expanded Neighbors of 
Iraq Ministerial meeting in Kuwait. Embassy Baghdad is also actively 
engaged at senior levels with the Government of Iraq (GOI) encouraging 
the GOI to make substantial contributions to international humanitarian 
appeals and bilaterally to countries hosting large numbers of Iraqi 
refugees.

    Question. In his trip to the region last month, the United Nations 
High Commissioner for Refugees stated that humanitarian aid in Syria 
and Jordan may have to scale back dramatically within the next several 
months because of underfunding. Last month I sent, with several of my 
colleagues, a letter to the President urging the United States to fund 
50 percent of the estimated $900 million that will be necessary to meet 
the humanitarian needs of Iraqi refugees and internally displaced 
persons (IDPs) in 2008. While I welcome the $275 million that the 
President requested in the 2008 Emergency Supplemental, it is not 
enough. Furthermore, the President's 2009 budget request did not 
include any funding to support Iraqi refugees and IDPs.

  <bullet> What is the United States doing to protect Iraq's fragile 
        ethnic and minority groups (such as Yazidis, Assyrians, 
        Chaldeans, Mandeans, Sabeans, Shabaks, Turkmen, etc.) from 
        terrorist and sectarian attacks, ethnic cleansing, physical 
        intimidation, and economic dislocation?

    Answer. Since 2003, the U.S. Government has been the single largest 
contributor of humanitarian assistance for Iraqis, providing nearly 
$1.2 billion to date, including $208 million in FY 2008 with additional 
assistance to follow. Regarding the FY 2009 supplemental request, the 
administration requested $141 million in Migration and Refugee 
Assistance (MRA) and an additional $45 million in International 
Disaster Assistance (IDA) specifically to assist Iraqi refugees, 
internally displaced persons, and conflict victims. This new request 
demonstrates the administration's continued commitment to support Iraqi 
refugees, IDPs, and conflict victims.
    The Government of Iraq is focused on improving and maintaining 
security for all Iraqis, including its ethnic minority citizens. When 
the fight against al-Qaeda in Iraq shifted to the northern province of 
Ninawa, which is also home to a large number of religious minorities, 
Iraqi Prime Minister Nouri al-Maliki made it a priority to send Iraqi 
forces to the area. Iraqi Security Forces, with support from coalition 
forces, continue their campaign to bolster security in the area. In 
fact, this support deters criminal organizations from targeting and 
intimidating minority groups.
    Our PRT and coalition forces have been working closely with the 
Iraqi Security Forces to ensure that Christians from Ninawa are 
recruited into the Iraqi Police Force. The Iraqi police in Ninawa are 
in the process of filling 700 positions with Christians from the area 
to serve in their own communities. By maintaining a diverse police 
force, Iraq will be in a better position to protect its religiously and 
politically diverse minority communities.

    Question. Ambassador Satterfield testified to the committee that 
one of the elements to be negotiated in the Status of Forces Agreement 
with Iraq is Iraq's consent to ``the conduct of combat operations and 
associated detainee operations.''

  <bullet> What sorts of combat operations are anticipated?
  <bullet> Would U.S. forces be permitted to conduct combat operations 
        on their own, without any Iraqi participation or approval?
  <bullet> Would there be any limitations on such operations?
  <bullet> Against whom would the United States be ``authorized'' by 
        the Iraqis to conduct combat operations?

    Answer. U.S. forces currently conduct military operations as part 
of the Multi-National Force-Iraq (MNF-I), which is authorized by the 
U.N. Security Council under UNSCR 1546 as continued by UNSCR 1790 
(2007) to take ``all necessary measures to contribute to the 
maintenance of security and stability in Iraq.'' With the anticipated 
expiration of the mandate of MNF-I in December 2008, the United States 
and Iraq will discuss appropriate authority from the Government of Iraq 
for U.S. forces to continue to undertake military operations in Iraq. 
We expect to preserve the operational flexibility needed to allow U.S. 
forces to be effective, and we will continue to discuss with the 
Government of Iraq the precise modalities involved in ensuring this 
flexibility. The majority of MNF-I operations are already conducted in 
close coordination with Iraqi forces, and this coordination would 
undoubtedly continue and grow as the security situation evolves. As 
with other negotiations, we do not publicly discuss our negotiating 
positions, or those of our negotiating partners, on key issues. We will 
ensure, however, that Members of Congress are kept fully informed as 
the negotiations proceed; briefings have already begun, and will 
continue.

    Question. What sorts of detention authorities are anticipated in 
the SOFA? Will they likely match the detention authority currently 
provided for under the relevant U.N. Security Council Resolutions?

    Answer. We expect the Iraqi justice system, as it continues to grow 
in capacity, to take the lead role in conducting detention and 
imprisonment tasks. As with other negotiations, we do not publicly 
discuss our negotiating positions, or those of our negotiating 
partners, on key issues. We will ensure, however, that Members of 
Congress are kept fully informed as the negotiations proceed; briefings 
have already begun, and will continue.

    Question. Is it possible or even likely that the SOFA will require 
that individuals detained by U.S. forces ultimately be turned over to 
the Iraqis?

    Answer. As with other negotiations, we do not publicly discuss our 
negotiating positions, or those of our negotiating partners, on key 
issues. We will ensure, however, that Members of Congress are kept 
fully informed as the negotiations proceed; briefings have already 
begun, and will continue.

    Question. When is the last time that you discussed with the Iraqis 
the possibility of extending the Multi-National Force's mandate under 
the U.N. Security Council Resolutions?

    Answer. On November 26, 2007, President Bush and Prime Minister 
signed the Declaration of Principles for a Long Term Relationship of 
Cooperation and Friendship, in which the two leaders affirmed Iraq's 
goal of ending its status under chapter VII. In his letter to the U.N. 
Security Council on December 7, 2007, requesting a 1-year extension of 
the U.N. mandate, Prime Minister Maliki wrote that the Government of 
Iraq considered this to be its final request to the Security Council 
for extension of the mandate.

    Question. Assuming that the Status of Forces Agreement and the 
Strategic Framework Agreement are presented to the Iraqi Council of 
Representatives for approval, how confident are you that the Council 
will in fact approve these two documents?

    Answer. The United States and Iraq are negotiating agreements that 
will be in the best interests of both countries. We believe those who 
review the documents will come to that conclusion. However, we cannot 
predict how the Council of Representatives will act.

    Question. The Declaration of Principles that President Bush and 
Prime Minister al-Maliki signed last November contemplates ``providing 
security assurances and commitments'' to Iraq to ``deter foreign 
aggression against Iraq.'' What sources of foreign aggression does Iraq 
worry about?

    Answer. Leaders within the Government of Iraq have made public 
statements on several occasions noting their concerns about foreign 
aggression. For example, a number of Iraqis, both inside and outside 
the government, are increasingly concerned about malign Iranian 
influence in their country manifested through the funding, training, 
and supplying of militias in Iraq. In addition, Syria continues to 
harbor former Iraqi regime elements, and foreign fighters continue to 
enter Iraq from Syrian territory. Al-Qaeda in Iraq, which consists 
mainly of non-Iraqis, is also an ongoing threat.

    Question. The committee has heard reports that former Iraqi Prime 
Minister Ayad Allawi and former Iraqi Foreign Minister Adnan Pachachi, 
both of whom are previous visitors of President Bush to the White 
House, expressed interest in traveling to the United States, but 
believed they were discouraged from doing so by the U.S. Embassy.

  <bullet> Have Dr. Allawi or Dr. Pachachi applied for visas or 
        otherwise been in touch with the Embassy regarding a visit to 
        the United States?
  <bullet> What is the status of these applications?

    Answer. See below.

[Please note that the information provided in response to these two 
questions will not be printed in this hearing. The information was 
derived from visa records and it is therefore confidential and 
protected from unauthorized disclosure under Section 222(f) of the 
Immigration and Nationality Act, 8 U.S.C. 1202(f), and, in accordance 
with that law, may only be used for the ``formulation, amendment, 
administration, or enforcement of the immigration, nationality, or 
other laws of the United States.'']

    Question. Does the Embassy support their plans to visit the United 
States?

    Answer. The Embassy supports the travel of all qualified visa 
applicants, including officials or former officials of the Government 
of Iraq. The Embassy notes that Dr. Pachachi is currently a member of 
the Iraqi Council of Representatives (COR). Dr. Allawi is also a member 
of the COR and is Iraqyya's bloc leader in the COR.
                                 ______
                                 

 Responses of GEN David Petraeus to Questions Submitted for the Record 
                    by Senator Joseph R. Biden, Jr.

                      our strategic goals in iraq
    Question. The President has said our strategic goal in Iraq is: ``A 
free Iraq that is democratic, that can govern itself, defend itself and 
sustain itself, and be a strong ally in this war against radicals and 
who would do us harm.'' Where are we in meeting each of the objectives? 
What is your best estimate as to when Iraq will meet these objectives?

    Answer. The strategic goal of the United States in Iraq remains a 
unified, democratic, and federal Iraq that can govern, defend, and 
sustain itself and is an ally in the war on terror. The United States 
is pursuing this goal along political, security, economic, and 
diplomatic lines of operation. The security environment in Iraq 
continues to improve, with all major indicators reduced 40 to 80 
percent from presurge levels. Civilian deaths are 65 percent lower than 
July 2007 levels and 75 percent lower than the peak number of monthly 
deaths that occurred in the last 2 months of 2006 at the height of the 
sectarian violence. The impetus for violence in Iraq remains the 
communal struggle for power and resources. However, in many areas of 
the country, Iraqis now settle these differences through debate and the 
political process rather than violent measures. Other factors that 
contribute to a long-term reduction in violence include coalition and 
Iraqi forces' operations against
al-Qaeda in Iraq and their Sunni extremist allies, the revitalization 
of sectors of the Iraqi economy, local reconciliation measures, and the 
government's actions to crack down on militias. Perhaps more 
importantly, the government's success in Basra and Sadr City against 
militias, particularly Jaysh al-Mahdi and the Jaysh al-Mahdi Special 
Groups, has reinforced a widespread attitudinal shift in the population 
toward greater rejection of militias. This rejection, while still 
developing, is potentially as significant for Iraq as the Sunni 
rejection over the past 18 months of al-Qaeda in Iraq's indiscriminate 
violence, oppressive practices, and extremist ideology.
    These gains are very significant; however, they can be reversed if 
not accompanied by continued progress toward national reconciliation 
and economic development. In that broader sense, the government's 
efforts in Basra demonstrated two very positive and long-awaited 
improvements. First, the government demonstrated its willingness to 
confront criminal militias and extremists, regardless of sectarian 
identity. As a result, the government achieved broader support, which 
it is now applying toward other political challenges. Second, Iraqi 
forces assumed the lead and, after some initial difficulties, executed 
a significant counterinsurgency operation, winning the support of the 
majority of Basrawis and a greater share of the Iraqi population, all 
the while developing a sense of confidence that enabled more effective 
operations. The Iraqis have capitalized on the Basra operation by 
conducting additional major operations elsewhere in Basra province, in 
Sadr City and other Baghdad neighborhoods, and in Ninawa province. 
Iraqi Security Forces continue to grow in size and capabilities, but at 
varying rates. In the northern provinces, Iraqi Special Operations 
Forces and Iraqi Army battalions operate independently or side by side 
with coalition forces, demonstrating proficiency in counterinsurgency 
operations against al-Qaeda in Iraq and other extremist groups. In many 
population centers, such as Ramadi and Kirkuk, the Iraqi Police are in 
the lead for population security, performing well and earning the trust 
of the population. In the opening days of the Basra offensive, 
performance was mixed, but new units that performed poorly in March 
have already been retrained and are now conducting offensive operations 
in Basra. Since then, Iraqi Security Forces in Baghdad and Ninawa are 
performing effectively, particularly when assisted by coalition 
advisors, reconnaissance and surveillance assets, close air support, 
and other key enablers. The Joint Headquarters and Division staffs have 
demonstrated an improved capability in terms of deploying and 
sustaining Iraqi Army units in battle and more sophisticated planning 
for operations.
    The Government of Iraq continues to assume broader ownership of 
Iraq's security programs. Iraq's security ministries have improved 
their ability to execute their budgets but still require increased 
capacity to man, train, sustain, and field forces. The Ministry of 
Defense and the Ministry of Interior training capacity continues to 
expand but will require more time to fully address the training demand 
backlog. The current shortage of Iraqi Security Force leaders will take 
years to overcome, but several measures are in place to address this 
problem, including rehiring former officers and noncommissioned 
officers. Both ministries lack all the institutional capacity needed 
and have found it difficult to make procurement decisions in a timely 
manner.
    The current security and political environment has become more 
hospitable to compromises across sectarian and ethnic divides, while 
expanding oil export revenues have generated the capital resources 
needed to support the emerging set of development and reconciliation 
programs. However, recent debates within the Government of Iraq related 
to the Provincial Powers Law and ministerial appointments, as well as 
considerable bureaucracy and continuing challenges with corruption and 
sectarian behavior suggest that development of governmental capacity 
will require time and effort. In general, the Council of 
Representatives has shown a greater willingness and capability to 
address difficult issues, having passed a package of important laws in 
early 2008 and making progress on the provincial elections law 
currently being debated.
    Negotiations continue to formalize a bilateral relationship between 
Iraq and the United States. The Iraqis view the development of this 
relationship as a strong affirmation of their sovereignty, placing them 
on a par with other U.S. allies. The Government of Iraq continues to 
assume greater provincial security responsibility through the 
Provincial Iraqi Control process. Nine of eighteen provinces have 
assumed Provincial Iraqi Control, and the remaining provinces are 
progressing well. Anbar and Qadisiyah are expected to transition to 
Iraqi control in the early summer of 2008.
    Provincial Reconstruction Teams are helping provincial development 
by strengthening local government capacity, political and economic 
development, reconciliation, rule-of-law implementation, and basic 
services delivery. Their support of provincial governments was 
essential in the effort to develop Provincial Development Strategies, 
which outline the provincial objectives and areas of focus for the next 
3 to 5 years, for 17 of the 18 Iraqi provinces. Macroeconomic data 
illustrates the extent of progress achieved in developing a healthy 
economic environment in which employment and business can expand. The 
United States Treasury Department reports that the Iraqi economy grew 4 
percent in real terms in 2007 and projects the Iraqi economy to grow 7 
percent in real terms for 2008, reaching an estimated gross domestic 
product of $60.9 billion. Oil production increases of 9-10 percent this 
year--coupled with the higher prices of oil--should drive growth in 
that sector and support increased government spending. The nonoil 
sector is likely to grow at 3 percent. Core inflation fell to 12 
percent in 2007 compared to 32 percent in 2006--the result of the 
combination of an improving security environment in the second half of 
2007, tight monetary policy throughout 2007, and dinar appreciation of 
7 percent against the euro and 20 percent against the United States 
dollar from November 2006 through the end of 2007. Lower inflation 
rates improved Iraqi purchasing power for basic needs and provided a 
more stable environment in which the private sector could grow. The 
Government of Iraq's ability to execute its capital budget, while 
steadily improving, remains constrained by spending units' lack of 
capacity and cumbersome budgetary approval and funding processes. 
Despite these difficulties, the overall trend for capital budget 
execution continues to improve, allowing the Government of Iraq to 
spend or commit 72 percent of its $10B capital budget for 2007 by 
year's end. Provincial budget execution also improved overall, but 
progress was uneven. Due to greater emphasis by government leaders, 
Iraqis have seen an increase, albeit uneven, in the delivery of 
essential services such as electricity, water, sanitation, and health 
care. Despite these improvements, the population's level of 
satisfaction with essential services remains low. While the Government 
of Iraq acknowledges it has the revenues to support large projects, 
budget and program execution rates demonstrate that the Government of 
Iraq needs to develop greater ability to execute programs on the scale 
required. This is a critical deficiency, because improving the delivery 
of essential services in places like Basra, Sadr City, and Mosul is 
essential for the Iraqi Government to swing popular support away from 
militias and insurgents and toward the central government. The 
coalition is working with the Government of Iraq to improve ministerial 
capacity.
    We continue to believe that we will have established sufficient 
stability to enable a reduction to 15 Brigade Combat Teams by July 
2008. Subsequent reductions will, as I explained in the April 
testimony, be based on conditions on the ground.

    Question. In 2004 you stated ``any army of liberation has a certain 
half-life before it becomes an army of occupation.'' You have also 
stated that the typical insurgency lasts at least 9 or 10 years. What 
is your best military judgment as to the half-life of our military 
operations in Iraq? Are we seen by most Iraqis as an army of liberation 
or of occupation? As we begin the sixth year of military operations in 
Iraq, what is your best military judgment as to how far into their 
lifespan the current insurgency--or, if you will, insurgencies--in Iraq 
are?

    Answer. Since we began last year to emphasize the security of the 
Iraqi population and to orient our Joint Campaign Plan toward 
establishing sustainable security in Iraq, many Iraqis have come to 
view the presence of coalition forces in their country as a necessary 
part of a ``reliberation'' of the country from extremist groups and 
other malign forces that the Iraqi people have come to reject. Our 
emphasis over the past year on partnership with the Iraqi Security 
Forces also means that in the vast majority of our security operations 
we are seen alongside Iraqi forces at every step, rather than operating 
independently. Furthermore, as the Iraqi Security Forces have 
undertaken their own ``surge'' over the past year, adding well over 
100,000 members to their ranks, they have increasingly taken the lead 
in security operations around the country. The ongoing ISF-led 
campaigns to secure Basra and Mosul are models in this regard, with 
capable Iraqi forces in the lead and coalition forces providing support 
and combat enabler systems that the Iraqis do not yet have. In general, 
there is a greater acceptance today among the Iraqi people of our 
supporting role in establishing sustainable security, while we in the 
coalition forces take care that our actions reinforce to the Iraqis 
that we recognize and respect their sovereignty--and help them to 
defend it.
                                  iran
    Question. President Bush recently designated the Iranian Quds 
Force, part of the Islamic Revolutionary Guard Corps, a terrorist 
organization under Executive Order 13224, for providing material 
support to terrorists. According to press reports, General Qassem 
Suleimani, the commanding general of the Quds Force played a role in 
negotiating the cease-fire between Maliki's government and Muqtada al-
Sadr. What role did Iran play in negotiating the cease-fire? How much 
influence does Iran exert in Basra? On the Government in Baghdad? On 
the Kurds? How does it exercise that influence? Do the United States 
and Iran have any common interests in Iraq?

    Answer. Iran facilitated the Basra cease-fire negotiations between 
members of the Government of Iraq and Muqtada al-Sadr in Qom, Iran. 
Iranian officials, including Qassem Suleimani, reportedly helped draft 
a cease-fire document. Prime Minister Maliki, however, continued 
operations in Basra until Iraqi Security Forces achieved his objective 
of disarming the militia groups there and restoring government control 
throughout the city. Iran seeks to create economic dependencies in 
Basra through the provision of electrical power, banking services, 
infrastructure investment, and the sale of Iranian products in Basrawi 
markets. Separately, Iran supports Shia militias with funds, training 
and weapons as a means of exerting and maintaining influence. Iraqi 
Security Forces discovered numerous large ammunition caches in Basra 
while clearing Jaysh al-Mahdi-dominated neighborhoods, to include 
substantial quantities of Iranian-produced explosively formed 
penetrator and improvised explosive device components, rockets, small 
arms and numerous mortar and artillery rounds of various calibers--
including some manufactured as recently as February 2008. Iranian 
influence on the Government of Iraq has been substantial, although 
there are signs its influence may increasingly be resented by Iraqi 
leaders and citizens. Iranian Government officials maintain ties with 
Iraqis who lived in exile in Iran during the Saddam Hussein regime. 
Iran provides funds to various Shia political parties in addition to 
providing training, weapons, and funding to Shia militias such as the 
Jaysh al-Mahdi. Iran exerts influence by acting as a moderator in 
disputes between the government and Muqtada al-Sadr. Additionally, Iran 
has built power lines linking several border cities to the Iranian 
electrical power grid and has recently offered a $1 billion loan for 
reconstruction of Iraqi infrastructure, provided Iraq employs Iranian 
contractors and labor for associated construction projects. However, 
Prime Minister Maliki and other members of the Shia-led government 
publicly expressed frustration with Iran following the clashes in Basra 
and Sadr City, blaming the recent intra-Shia violence on Iranian 
provision of lethal aid to Shia militias.
    The Kurdistan Regional Government seeks to maintain cordial 
relations with the United States and Iran, with whom the region shares 
a large land border. Iranian officials maintain ties to several 
Kurdistan Regional Government leaders, including Iraqi President Jalal 
Talibani, dating to the Saddam Hussein regime, when Iran and Kurdish 
officials shared a common antipathy toward the Baathist government. 
Iran seeks to exert influence in the Kurdish-administered area by 
creating economic dependencies through investment, reconstruction, and 
infrastructure projects, provision of electrical power and trade. 
Following the September 2007 detention of high-ranking Iranian 
Revolutionary Guards Corps-Quds Force officer Mahmoud Farhadi in the 
Kurdish city of Sulaymaniyah, Iran attempted to apply economic pressure 
on the Kurdistan Regional Government for his release by closing all 
border crossings to Iran, halting trade for approximately 2 weeks 
before realizing that the action was hurting Iran's economy and 
creating resentment in Iraq.
    Iranian long-term interests in Iraq include ensuring a Shia-
dominated, friendly government in Baghdad, strengthening economic ties 
between Iran and Iraq, and ensuring access for Iranian pilgrims to Shia 
religious sites in Iraq. The United States and Iran share an interest 
in a stable Iraq, however, Iran's apparently seeks a weak Iraq that it 
can dominate and is not likely to share or support U.S. policies in the 
region or in the war on terror.
                       the iraqi security forces
    Question. How many Iraqi battalions do you judge to be fully 
capable of planning, executing, and sustaining independent operations 
Level I combat readiness? How many Iraqi battalions are at Level II 
readiness, meaning they are ``in the lead'' in the counterinsurgency 
effort?

    Answer. The Operation Readiness Assessment (ORA) level is 
determined though the use of specific criteria and mathematical formula 
based on percentages of assigned soldiers, leaders, and equipment. 
Iraqi leaders tend to find the ORA method of assessment to be too 
mechanical and prefer to focus on a unit's demonstrated capability for 
performing actual missions, which is typically referred to as ``in the 
lead.'' Depending upon local security conditions, Iraqi Army units at 
ORA I, II, or III may all be ``in the lead'' for conducting 
counterinsurgency operations in their assigned sectors. As of 11 May, 
2008, there are a total of 121 Iraqi Army and National Police combat 
battalions capable of planning, executing, and sustaining independent 
counterinsurgency operations. Iraqi Army battalions make up 111 of the 
121, and 10 Iraqi National Police battalions make up the remainder. The 
111 Iraqi Army battalions consist of 107 Iraqi Army combat and 4 Iraqi 
Special Operations Forces (ISOF) battalions, which are fully capable of 
planning, executing, and sustaining independent operations and are in 
the lead for counterinsurgency operations. Of the 111 Iraqi Army units, 
there are currently 12 Iraqi battalions that are rated Operational 
Readiness Assessment (ORA) level I, 80 that are rated ORA level II, and 
19 that are rated ORA level III. There are 10 ORA level II battalions 
within the Ministry of Interior; 9 are National Police battalions and 1 
is an Emergency Response Unit (ERU) capable of conducting 
counterinsurgency operations.

    Question. Of these level I and level II units, how many are of 
mixed tribal, ethnic and sectarian affiliation--and how many are 
comprised of members of the same ethnic, sectarian, or tribal 
affiliation?

    Answer. The Iraqi Army is an integrated, national army comprised of 
the many ethnicities that make up the country of Iraq. There is 
currently no method for tracking tribal, ethnic, or sectarian 
affiliation for the entire Iraqi Army. Units do tend to have recruits 
from the general area of Iraq in which they are based; however, they 
also get recruits from across the country and deploy throughout it as 
well. For example, two of the brigades operating in predominantly Shia 
Basra province are from Anbar province, a nearly exclusive Sunni area; 
however, the units are mixed in their ethnosectarian makeup.
    The Iraqi Army and National Police have proven to be generally 
effective, nonsectarian organizations over the past year, completing 
over 20 major deployments throughout the country conducting 
counterinsurgency operations.
    The National Police (NP) provide the Government of Iraq with a 
rapid response paramilitary police force capable of countering large 
scale civil disobedience, enforcing law and order and responding to 
national emergencies. Their capabilities are similar to the Iraqi Army. 
Although initially recruited almost exclusively from the Baghdad area 
and once heavily influenced by militias and sectarian agendas, the 
National Police have undergone serious retraining and revetting of the 
entire force over the past 18 months resulting in a capable and less 
sectarian influenced organization. Recent plans now have the 
development of the entire Sunni-manned Abu Risha Brigade formed from 
forces recruited and trained from Al Anbar province.
    While there is no dedicated method to track the ethnicity of 
soldiers in units, there is a concerted effort made during Iraqi 
selection boards to ensure command selection rates are representative 
of all ethnicities across Iraq. Demographics of Iraqi Army leadership 
are tracked and monitored by coalition forces and embedded Transition 
Teams to ensure unit leadership does not display sectarian trends, can 
maintain impartiality, and will serve all of Iraq's people. A small 
number of Iraqi Army commanders have been relieved of duties for 
sectarian issues and several others have been relieved for corruption.
    The Iraqi Army has largely been able to transcend sectarian agendas 
by fostering a strong esprit de corps and sense of nationalism. The 
units are composed of many different ethnicities but each is striving 
toward the same goal; a safer more secure Iraq.
                            request for data
    Question. How many contractors in Iraq have their salaries paid for 
by American taxpayers? Of these, how many are American, how many are 
Iraqi, and how many are third-country nationals?

    Answer. Per the results of the Fiscal Year 2008, First Quarter 
Contractor Census, there were 163,591 contractors reported in Iraq 
under Department of Defense Contracts. Of the 163,591 contractors 
reported, 31,325 are United States citizens, 75,898 are local 
nationals, and 56,368 are third country nationals.

    Question. Could you please provide the committee, for the public 
record, updated versions of the following charts which accompanied your 
testimony to include the entire duration of the war--weekly security 
incidents (chart 2), civilian deaths (chart 3), ethnosectarian violence 
(chart 4), high-profile attacks (chart 5), and caches found and cleared 
(chart 7)?

    Answer. The attachment contains requested updates to the testimony 
charts. Data is not available prior to 2004. Data for ethnosectarian 
deaths is not available prior to 2006.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question. Prime Minister al-Maliki has called for the dissolution 
of the entire Jaysh al-Mahdi, not just the so-called ``Special 
Groups.'' What is the difference between the Special Groups and the 
mainline Jaysh al-Mahdi? Does Prime Minister al-Maliki make a 
distinction between the two? Does Muqtada al-Sadr? How many Special 
Groups members do you assess there to be? How many members are there of 
the mainline Jaysh al-Mahdi?

    Answer. Jaysh al-Mahdi is not a single, cohesive organization with 
clear delineations between mainline Jaysh al-Mahdi and Special Groups; 
rather, networks and membership are interwoven, with Special Group 
leaders and members typically recruited from JAM and often still 
connected to them during operations. Prior to 25 March 2008, it was 
estimated that the Jaysh al-Mahdi contained 25,000 and 40,000 total 
members, including the Special Groups. Mainline Jaysh al-Mahdi are 
generally Muqtada al-Sadr loyalists who have complied with his August 
2007 ``freeze'' order, February 2008 ``freeze'' extension, and 
subsequent cease-fire orders.
    Special Groups accounted for approximately 5-10 percent of the 
total strength of Jaysh al-Mahdi. Special Groups have evolved since 
they were originally formed by Muqtada al-Sadr as a counter to 
coalition forces. Special Groups, of which there are several different 
subentities that share the name, are Iranian trained, equipped, and 
funded, employ relatively sophisticated armaments and weapons systems, 
and often operate outside of Sadr's control.
    Muqtada al-Sadr has attempted to differentiate between loyalists, 
mainstream Jaysh al-Mahdi and loyal Special Groups, and noncompliant 
Special Groups. Prime Minster Maliki also seems to recognize the 
distinctions between Jaysh al-Mahdi and Special Groups, but the current 
operations in Basra and Sadr City tended to blur any substantial 
distinctions, as Special Groups tended to work with JAM and to use JAM 
to provide security for them.
                    iraqi quality of life indicators
    Question. How many al-Qaeda operatives do you estimate there to be 
in Iraq? What is the approximate breakdown between Iraqis and foreign 
fighters?

    Answer. MNF-I estimates that AQI is comprised of approximately 
1,200 to 3,000 personnel in April 2008. AQI is primarily made up of 
Iraqis, but it is the only group among the Sunni insurgent groups in 
Iraq known to have foreign facilitators in key leadership roles. MNF-I 
assesses foreign terrorists comprise approximately 10 percent of AQI 
(approximately 120-300 personnel).
                  the islamic supreme council of iraq
    Question. The Islamic Supreme Council of Iraq is a key partner of 
the United States in Iraq, though it has strong ties with Iran. What is 
the relationship of ISCI and its affiliated Badr Organization with Iran 
and the Quds Force? Has the Badr Organization ever formally been a part 
of the Iranian Revolutionary Guard Corps? Would you characterize the 
relationship between ISCI and Iran as stronger, weaker, or about the 
same as the relationship the Sadr Trend enjoys with Iran? Which party 
do Iraqis perceive as more closely aligned with Iran--ISCI or the Sadr 
Trend?

    Answer. Some members of the Islamic Supreme Council of Iraq (ISCI) 
and the Badr Organization maintain links to Iran that they formed 
during their decades of exile while the regime of Saddam Hussein was in 
power. Although ISCI and the Badr Organization seek to publicly 
distance themselves from Iran, some senior current and former Badr 
Organization members maintain ties with Iranian intelligence and the 
Iranian Revolutionary Guard Corps (IRGC). The Badr Organization traces 
its origins to the 9th Badr Division, founded in Iran in 1983. It was 
later renamed the Badr Corps. Badr Corps was subordinate to the IRGC, 
with financial support from the Iranian Government and its basing 
arrangements on Iranian territory. Following Iraq's liberation in 2003, 
Badr Corps reorganized itself into a political party, the Badr 
Organization. Its former forces were integrated into the Iraqi Security 
Forces, with the exception of elements that transitioned into service 
as security guards for ISCI offices. The ISCI and Badr relationships 
with Iran are substantially different from the Sadr Trend's 
relationship, and therefore it is difficult to make direct comparisons. 
ISCI and Badr have deep historical ties to Iran, but the groups have 
gradually grown more independent from Iran as they have acquired 
political power in Iraq. The Sadr Trend embraces nationalism as part of 
its ideology, which distances its members ideologically from the 
Iranians (and the leaders of the Sadr movement remained in Iraq during 
the Saddam regime). In practical terms, however, Sadr's movement now 
has strong ties to Iran. The Sadr-associated Special Groups and, to a 
degree, militia receive arms, funding, training, and direction from 
Iran. In addition, Muqtada al-Sadr has resided in Iran for most of the 
last 18 months. Iraqis perceive that the Iranians exercise influence 
over all of these organizations, but tend to view ISCI as more closely 
aligned with Iran than the Sadr Trend. This perception is based on the 
longer history of association between ISCI and Iran, and the fact that 
the Sadr Trend embraces a nationalist agenda.
                     shia politics, basra and iran
    Question. When you testified before the committee in September you 
described a competition in Basra between the Fadhila Party, the Supreme 
Council and its Badr Corps, and Sadr's party and its Mahdi Army. You 
added: ``there have been deals there recently, and the violence level 
has just flat plummeted. It's included some release of some Jaysh al-
Mahdi figures, and, again, accommodations between all of them. Again, 
for the Shia south, that's probably OK. These are Iraqi solutions for 
Iraqi problems.'' What happened between last September and last month 
that led to Maliki's decision to attack? Why did the violence levels 
recently climb again after previously declining?

    Answer. Local accommodation between groups in Basra, which formed 
the basis for maintaining the peace in the city late last year, had 
become increasingly threatened by the Sadr militia and criminal 
activity by early 2008. I think that Prime Minister Maliki decided that 
crime, corruption, and militia activity in Basra had reached 
intolerable levels. For this reason, in late March he initiated 
Operation CHARGE OF THE KNIGHTS to defeat criminals and militias in 
Basra and restore the authority of the Government of Iraq. This 
operation, which is still ongoing, has significantly curtailed the 
activities of armed militias by capturing or killing a number of 
criminals and militia members, degrading their freedom of movement, 
recovering significant arms and munitions at cache sites, and expanding 
the Iraq Security Force presence in the city and surrounding areas. The 
initial response of criminal gangs and militias to Iraqi military 
operations in Basra produced a temporary increase in violence in late 
March and into April. However, as Iraqi Security Force operations in 
Basra, Mosul, and Baghdad's Sadr City progressed, the level of security 
incidents across Iraq reached the lowest level in more than 4 years and 
the levels in Basra reached historic lows as well.

    Question. Press reports indicate that Prime Minister Maliki is 
hiring 10,000 mostly Shia tribesmen to counter the Mahdi Army in Basra 
and Baghdad, in part to counter desertions from the Iraqi Army. What 
can you tell us about these programs and his plans? Is or will the 
United States pay monthly stipends to these volunteers as we have Sunni 
Awakening members? What does this say about the reliability of Iraqi 
Security Forces? Do the predominantly Sunni ``Sons of Iraq'' perceive a 
sectarian bias and a double standard given the slow rate of their 
hiring into official security forces?

    Answer. Despite press accounts that Prime Minister Maliki at one 
point planned to hire large numbers of Shia tribesmen to provide 
security, it does not appear that this plan has been fully implemented 
in either Basra or Baghdad. During the initial stages of the Basra 
operation, Iraqi forces utilized local tribesmen to create additional 
security presence in some areas outside the city. Two tribal security 
forces of approximately battalion size were formed, but the Iraqi 
Government appears to have done little to sustain this effort, and the 
tribesmen have not been officially hired following their initial 
voluntary assistance to Iraqi forces. Given the fact that the 
government has not pursued this initiative to organize Shia tribal 
forces, there is no reason that this initiative should have caused 
Sunni Sons of Iraq to perceive a double standard. In the meantime, the 
Iraqi Security Forces (ISF) have proven, despite initial difficulty, 
capable of effectively conducting clearing operations and reducing the 
mafia-like grip of criminal gangs and militias on Basra and, 
increasingly, on Sadr City. Atmospherics now indicate that most 
Basrawis and residents of Sadr City are grateful for ISF presence and 
activity in their cities.
                                 ______
                                 

  Responses of Ambassador Ryan Crocker to Questions Submitted for the 
                   Record by Senator Christopher Dodd

    Question. What is the situation of the Iraqi education system? How 
many children are currently attending school?

    Answer. Although education is culturally very important and highly 
prized in Iraq, the education system faces significant challenges. 
Degradation of infrastructure over the last three decades and a lack of 
security in recent years have significantly hampered improvements in 
the education sector. Action is needed in the following areas in order 
to improve the country's educational system:

  <bullet> Hire and develop more qualified and experienced staffs and 
        senior ministry officials;
  <bullet> Decentralize authority and support internally proposed 
        improvements;
  <bullet> Develop improved communication and coordination within and 
        between ministries responsible for education;
  <bullet> Improve the quality of strategic planning, needs 
        assessments, and database systems;
  <bullet> Provide additional training for teachers and professors;
  <bullet> Identify and prioritize the areas of highest need for 
        infrastructure and investment development.

    During the 2006-07 academic year (the last year for which we have 
approximately reliable data), four ministries were charged with 
educating Iraq's students. Two Ministries of Education (Central and 
KRG) were responsible for approximately 7.1 million Iraqi children in 
grades K-12. These ministries are also responsible for vocational 
education and teacher training institutes. Two Ministries of Higher 
Education and Scientific Research (Central and KRG) were responsible 
for educating approximately 367,000 undergraduate students (graduating 
about 75,000 in 2007), and 20,000 post-graduate students.

    Question. Ambassador Crocker and General Petraeus, can you or 
anyone in the administration assure members of this committee and the 
American people that the $19.2 billion that has been allotted for 
developing the Iraqi Security Forces since 2003 is fully accounted for 
and appropriately allocated?

    Answer. National Security Presidential Directive 36 assigns 
direction of U.S. efforts to organize, train, and equip the Iraqi 
Security Forces to U.S. Central Command (CENTCOM) under the authority, 
direction, and control of the Secretary of Defense. Public Law 109-10, 
``Emergency Supplemental Appropriations Act for Defense, the Global War 
on Terror, and Tsunami Relief, 2005,'' provides for the Iraq Security 
Forces Fund (ISFF). The Multi-National Security Transition Command-Iraq 
(MNSTC-I) obligates ISFF to provide equipment, supplies, services and 
training for the Iraq Security Forces. As the train-and-equip program 
for Iraq operates under the authority of the CENTCOM and is implemented 
by MNSTC-I, the issue of ISFF accountability falls under the aegis of 
the Department of Defense.

    Question. What is the status of Iraqi hospitals and its public 
health system? What is the ability of Iraqis to access health care?

    Answer. The Iraqi health care system suffered greatly under 
sanctions from the Oil for Food Program due to actions of the Saddam 
regime. Corruption diverted critical resources such as medicines and 
equipment from hospitals and clinics. Subsequently, intimidation and 
assassination of Iraq doctors has drastically reduced the number of 
medical professionals in Iraq. Further, it has been difficult for 
doctors to receive continuing medical education training--necessary 
training to keep their skills current.
    In November 2007, Dr. Salih al-Hasnawi was approved by the Council 
of Ministers as the Minister of Health following the Sadrist block's 
withdrawal from the Iraqi Cabinet. Since his appointment, we have seen 
steady progress in addressing critical areas that should result in 
improved health care delivery. For the first time in over two decades, 
Dr. Hasnawi organized a Continuing Medical Education conference in 
Baghdad in January and has repeated similar smaller conferences since. 
Also, Dr. Hasnawi has submitted to the Deputy Prime Minister a proposal 
to increase the salary of doctors to encourage the many who have left 
Iraq to return, as well as a request to provide housing for doctors and 
nurses near hospitals and clinics.
    The Iraqi public health system requires further improvements, many 
of which will take time. The Minister of Health has identified the key 
areas which require attention, such as medicine procurement and 
distribution, repairing hospitals and clinics damaged by insurgents and 
improving physician training. The Ministry of Health is working closely 
with the United States and other partners to increase the delivery of 
health services. The United States Primary Healthcare Center (PHC) 
construction program will be completed by the end of 2008. We will have 
turned over 136 newly constructed PHCs, across all provinces, to the 
Ministry of Health. Through our hospital program, we will have 
completed 25 hospital rehabilitation projects. Seven renovation 
projects are currently underway now. We are expected to complete 
construction of the Basra Children's Hospital, a specialized pediatric 
oncology hospital and training center, this August. The Ministry of 
Health is currently in the process of writing contracts for 
construction of new hospitals. Through a $1 billion grant from the 
World Bank, the Ministry of Health is constructing approximately six 
new teaching hospitals with 400 beds each.
    Iraqis do have access to health care--doctors are working and 
clinics and hospitals are open. The reputation of hospitals has 
improved, and fears of sectarian targeting have significantly 
decreased. There are Ministry of Health facilities, which provide free 
services, as well as private facilities. In the afternoons and 
evenings, many public service doctors provide care for a fee in their 
private clinics. Doctors' clinics are busy, often seeing over 100 
patients a day. Medical facilities still suffer from shortages of 
supplies and medicines to treat patients. The Ministry of Health is 
working to improve the situation, but it will take time.

    Question. How many Iraqis have access to adequate sanitation and 
potable drinking water?

    Answer. There are no systematic data on the number of Iraqis 
actually receiving public water and sewage services. When completed 
projects funded by the USG will have the capacity to provide potable 
water to 8 million Iraqis and sewage service to 5 million. However, as 
a result of leaky distribution network, intermittent electricity 
supply, and shortages of technical staff, the number receiving service 
is almost certainly smaller than the projects' capacity.
    There are no systematic data on the current capacity of non-USG-
funded potable water and sewage plants, but the service actually 
provided by those plants would be subject to the same limitations that 
affect the USG projects.

    Question. Do Iraqis have adequate access to affordable staple goods 
such as flour, cooking oil, and gasoline?

    Answer. Iraqis generally have access to staples such as food and 
cooking oil. Taking into account inflation, market prices for food and 
grains have increased moderately relative to last year's prices. The 
people of Iraq are largely insulated from the current rise in world 
food prices, as the Government of Iraq (GOI) supplies the bulk of their 
nonperishable staples under the auspices of the Public Distribution 
System (PDS). The PDS is a program of in-kind food aid given by the 
Government of Iraq to Iraqis, all of whom are officially eligible for 
PDS rations. An estimated 20 percent of Iraqis rely heavily or solely 
on PDS for their food, and another 20-25 percent count on PDS to 
supplement their other food purchases. Major PDS reforms planned in 
2008-09 would allow the GOI to better target vulnerable Iraqis for 
assistance as part of a larger social safety net program.
    For the most vulnerable Iraqis, the U.N. World Food Program 
recently began implementing a food assistance program. It is designed 
to reach 750,000 people, with a focus on those who are not fully 
covered by PDS and internally displaced people (IDPs).
    The GOI has lowered subsidies on refined fuel oils, bringing prices 
up to regional market levels, in line with its commitments under an 
International Monetary Fund (IMF) economic restructuring program. 
Prices for fuel oil, including cooking gas and gasoline, have been 
steady since June 2007. The primary Iraqi cooking gas, liquefied 
petroleum gas (LPG), costs approximately $2.49 per 12-kilogram 
cylinder. The price of gasoline (about octane 87) is $1.41 per gallon. 
We are not aware of gasoline or cooking gas shortages.
                                 ______
                                 

 Responses of GEN David Petraeus to Questions Submitted for the Record 
                      by Senator Christopher Dodd

     missing u.s.-funded lethal equipment for iraqi security forces
    Question. Late last summer, the GAO released a report entitled 
``DOD Cannot Ensure that U.S. Funded Equipment Has Reached Iraqi 
Security Forces,'' which found that the Pentagon had lost track of 
about 190,000 AK-47 assault rifles, and nearly 90,000 pistols given to 
Iraqi Security Forces in 2004 and 2005. In response to this egregious 
dereliction of duty, I authored an amendment to the 2008 Defense 
Authorization Act requiring the President to implement a weapons 
tracking program which mirrors the Foreign Military Sales program that 
the U.S. uses to track weapons shipments to the rest of the world. I am 
proud to say that it was signed into law. The Chief of Mission in a 
particular country is supposed to be responsible for overseeing U.S. 
policy on foreign military assistance--not to mention the adherence to 
specific U.S. International Traffic in Arms Regulations.

  <bullet> What actions have you or your office played in implementing 
        the weapons tracking program required by the Defense 
        Authorization Act?

    Answer. The National Defense Authorization Act, 2008, Public Law 
No. 110-181, section 1228, requires the President to implement a policy 
to control the export and transfer of defense articles into Iraq, 
including the implementation of a registration and monitoring system. 
Multi-National Force-Iraq (MNF-I) has implemented many policies and 
procedures which will help meet the intent of this law as it comes into 
effect in late July 2008. First, Multi-National Security Transition 
Command-Iraq (MNSTC-I) implemented a database tracking system for 
weapons accountability. Following the Government Accountability Office 
(GAO) report of July 2007, MNSTC-I requested that the Department of 
Defense Inspector General (DODIG) conduct an inspection in October 
2007. In implementing GAO and DODIG recommendations, MNSTC-I reconciled 
serial numbers of weapons and created a weapons database. All small 
arms procured for the Government of Iraq (GOI) through MNSTC-I, either 
from Iraqi Security Forces Fund (ISFF) or Foreign Military Sales (FMS), 
are now registered by serial number in this database, which is managed 
by MNSTC-I logistics personnel. Additionally, 100 percent serial number 
inventories were completed on all weapons held at Taji National Depot 
and Abu Ghraib Warehouse, enabling reconciliation of the database.
    Also, we have also worked to assess and improve Iraq's internal 
weapons accountability. In coordination with the Iraqi Ground Forces 
Command (IGFC), MNSTC-I established an Iraqi/coalition joint inspection 
team in October 2007 to inspect and assess Iraqi Divisions' equipment 
records and verify on-hand quantities. MNSTC-I was able to establish a 
baseline of where weapons are located and to provide an operational 
snapshot of accountability in several Iraqi divisions. This data was 
utilized to reconcile the coalition issue log with Iraqi hand receipts 
and assess the effectiveness of ISF accountability procedures.
    The 3-month audit provided MNSTC-I the first opportunity to 
exercise end-use monitoring with direct support from the Iraqi Security 
Forces (ISF). Additionally, we have further regulated contractor 
delivery of weapons in-theater. Since September 13, 2007, the Joint 
Contracting Command Iraq/Afghanistan (JCC-I/A) has ensured that all 
weapons contracts to procure and deliver munitions include a number of 
clauses to increase accountability. Contracts now require vendors and 
shippers to do the following: Deliver munitions to Iraq through U.S.-
controlled ports of entry within Iraq; provide serial number lists 
electronically in advance of any weapons shipments to Iraq; post serial 
numbers on the inside and outside of weapons shipping containers; and 
provide en route visibility of weapons and munitions, to include the 
arrival dates and times of munitions cargo being delivered to Iraq.

    Question. What steps has the Defense Department taken to track 
these weapons and ensure that they stay out of the hands of Iraqi 
insurgent groups?

    Answer. MNF-I has contributed to the Defense Department's efforts 
by setting forth and enforcing comprehensive policies and procedures 
regarding weapons accountability. We have worked to establish an 
unbroken chain of custody for the accountability and control of 
munitions under U.S. control from entry into Iraq to issuance to the 
ISF. We have increased the number of logistics and property 
accountability specialists in-country (in MNSTC-I, in particular) and 
increased security procedures throughout the chain of custody. We have 
also worked with the ISF to build their property accountability systems 
and structures. In July 2007, we partnered with the ISF to establish an 
M-16 Biometrics Program that links individual soldiers to the 
particular weapons they are issued. Prior to weapons issue, each 
soldier is required to provide biometric data in the form of a retinal 
scan, a voice scan, and fingerprints. In addition, soldiers' personnel 
and payroll data are verified before a weapon is issued. The final step 
in the process is to take a picture of each soldier holding his new 
weapon with the serial number visible. Similar biometric procedures 
have been implemented for Iraqi police badge and weapon issue, as well, 
and the Ministry of Interior requires policemen to present their 
identification card and weapon in order to receive monthly pay. The 
fidelity of data and level of detail captured in these accountability 
procedures are significant.

    Question. Can you or anyone in the administration assure members of 
this committee and the American people that the $19.2 billion that has 
been allotted for developing the Iraqi Security Forces since 2003 is 
fully accounted for and appropriately allocated?

    Answer. MNSTC-I accounts for and allocates the ISFF. MNSTC-I 
submits a detailed accounting of ISFF commitments, obligations, and 
expenditures as part of a quarterly report required by section 3303 of 
the U.S. Troop Readiness, Veterans' Care, Katrina Recovery, and Iraq 
Accountability Appropriations Act of 2007. MNSTC-I's quarterly report 
and the processes it documents are also subjected to numerous internal 
reviews and outside agency audits and inspections. In addition, the 
Department of Defense Inspector General conducted an audit of ISFF 
execution in FY07 (D-2007-060, ``Management of the Iraq Security Forces 
Fund in Southwest Asia, Phase II'') and determined that MNSTC-I's 
obligations of the ISFF ``complied with the intent of '' the Emergency 
Supplemental Appropriations Act for Defense, the Global War on Terror, 
and Tsunami Relief, 2005.'' MNSTC-I has also instituted a monthly funds 
reconciliation and review process in coordination with the U.S. Army 
Corps of Engineers Gulf Region Division and the Defense Finance and 
Accounting Service that led to the deobligation and reallocation of a 
total of $993 million from FY06/07 and FY07/08 ISFF (as of 29 Feb 08). 
This process earned MNSTC-I the Department of Defense Manager's 
Internal Control Plan ``Check It'' Campaign Most Improved Process Award 
for FY08.
                     humanitarian situation in iraq
    Question. We are spending billions of dollars in reconstruction 
funding in Iraq. And many have argued that Iraq is now better off than 
it was before.

  <bullet> What is the status of Iraqi hospitals and its public health 
        system?
  <bullet> What is the ability of Iraqis to access health care?
  <bullet> How many Iraqis have access to adequate sanitation and 
        potable drinking water?
  <bullet> Do Iraqis have adequate access to affordable staple goods 
        such as flour, cooking oil, and gasoline?
  <bullet> What are the living conditions of the nearly 2 million 
        internally displaced persons living in Iraq?
  <bullet> What are the living conditions of the nearly 2 million 
        refugees who have fled that conflict to Jordan and Syria?
  <bullet> What is the situation of the Iraqi education system?
  <bullet> How many children are currently attending school?
  <bullet> From a purely humanitarian respect, are the Iraqi people any 
        better off than they were 4 years ago?

    Answer. Statistical data from the International Organization for 
Migration suggests that the humanitarian situation in Iraq varies 
considerably by province. Many Iraqis living in northern and western 
Iraq indicate a better humanitarian situation today as compared to 5 
years ago. In part due to the security situation, other Iraqis 
throughout central and southern Iraq have indicated little or negative 
change in their humanitarian situation since 2003. The still inadequate 
capacity of the Iraqi Government has limited the provision of essential 
services necessary to address lacking humanitarian conditions in some 
areas. The U.S. Mission-Iraq (USM-I) and Multi-National Force-Iraq 
(MNF-I) are partnering with Iraqi ministries to develop further 
capacity.
    Access to health care and the quality of the Iraq public health 
system remain concerns that are being actively addressed by the Iraqi 
Government and by the coalition. In 2003, Iraqi civilian health care 
lagged behind the region based on the number of physicians in the 
country; the ratio of physician-to-population served; health care 
expenditures per capita; lack of equipment maintenance/modernization; 
extremely inefficient national medical supply system, and leading 
health statistics. With improving security conditions, Iraqi health 
care has shown a measured increase in capability throughout the past 12 
months, with a clear potential for significant gains within the next 
12-24 months. The Iraqi Government, with coalition assistance, has now 
completed the construction of 105 of 137 planned Primary Healthcare 
Centers (PHCs), with the remaining 32 scheduled for completion by 
September 2008. Also, of the 47 hospital renovation projects in 20 
hospitals across the country, 32 have been completed with the remainder 
ongoing. Though a shortage of medical providers exists, these 
infrastructure improvements helped increase the capacity of Iraqi 
medical facilities to treat 3.25 million patients annually in hospitals 
and 630,000 outpatients annually at PHCs.
    We continue to engage with Iraqi ministries to develop a national 
health care strategy, encourage repatriation of Iraqi physicians, 
reengineer the Iraqi medical supply distribution system, and improve 
national emergency medical services communication ability. The status 
of water, wastewater, and solid waste treatment services vary by 
locale. In partnership with the Iraqi Ministry of Water Resources, the 
U.S. Government has completed the rehabilitation, expansion, and/or 
construction of 21 major water treatment plants and hundreds of small 
water compact units. These projects have restored or added around 2.2 
million cubic meters per day of treatment capacity, which is sufficient 
to serve around 7.5 million Iraqis at a standard level of service. To 
address the recurring challenge in Iraq of a summer outbreak of 
cholera, we have worked with Iraqi ministries to ensure adequate stocks 
of chlorine are on hand. Many wastewater treatment projects have also 
been completed and rehabilitated, and results from recent water testing 
reveal that 87 percent of samples were adequate. Solid waste management 
in urban areas is conducted by local municipalities and reliability of 
municipal programs depends heavily on local officials. In rural areas, 
open trench solid waste disposal is the norm. To address long-term 
sustainability issues, MNF-I and USM-I continue to work with Iraqi 
officials to develop operations and maintenance capability and to train 
staff from the relevant ministries.
    Access to staple goods in Iraq is generally good. Iraqis have 
access to affordable staple goods through several means. The first 
method is through the Public Distribution System, a public food program 
managed by the Ministry of Trade that delivers basic food items and 
commodities to nearly all Iraqis for a nominal fee. The system is part 
of a social safety net that provides the population with 10 products, 
including wheat flour and cooking oil. Besides the commodities provided 
through the Public Distribution System, increased security and 
stability have allowed many markets to reopen, farmers to return to 
their fields, and food commodities to be imported into the country, 
thus increasing the availability and affordability of staple goods by 
the average Iraqi. In terms of access to gasoline, the availability of 
benzene and diesel has also increased as the security situation has 
improved. More petrol stations are open, and importation and 
distribution of refined oil products have increased. The best indicator 
of that positive change is the lack of vehicle lines at the petrol 
stations. Previously, Iraqis had to wait in long lines to fuel their 
cars or purchase benzene for their generators.
    According to the United Nations High Commission on Refugees 
(UNHCR), conditions among Iraq's internally displaced persons (IDPs) 
and refugees vary widely. For IDPs, conditions vary from governorate to 
governorate, with an estimated 1 million persons in need of adequate 
shelter, food, and regular income. Around 300,000 individuals do not 
have regular access to clean water and are in need of legal aid to 
enable them to access other basic services.
    The UNHCR reports that between September 2007 and March 2008 
approximately 60,000 displaced Iraqis returned to their homes, with the 
majority returning to Baghdad. The U.N. also reported that the rate of 
displacement in Iraq is slowing. As security conditions improve, USAID, 
the lead agency for coordinating U.S. Government assistance to IDPs, is 
working with partner nongovernmental organizations and members of the 
international community to help the Iraqi Government fulfill its 
commitment to improving essential services to IDPs.
    The UNHCR also reports that refugees suffer from a variety of 
shortages and share many of the same limitations on employment and 
access to services as IDPs. To assist its neighboring countries as they 
care for Iraqi refugees, the GOI has pledged to give $25 million ($15 
million has been dispersed to Syria, $2 million to Lebanon, and $8 
million to Jordan).
    The most pressing issue for the Iraqi Education System is the 
construction and rehabilitation of schools. Currently, there are 20,000 
schools in Iraq, with an estimated 4,000 more needed to accommodate the 
large numbers of children enrolled. Improved security has had an effect 
on enrollment, as total primary school enrollment rose by over 180,000 
students to 4,334,511 for 2007-2008. Total secondary enrollment for 
2006-2007 was 1,491,933; data for the current year is not available. 
There is a sufficient number of teachers, though training is needed to 
integrate modern teaching standards.
                                 ______
                                 

  Responses of Ambassador Ryan Crocker to Questions Submitted for the 
                   Record by Senator Russell Feingold

    Question. A recent report issued by Refugees International noted 
that ``as a result of the vacuum created by the failure of the Iraqi 
Government and the international community to act in a timely and 
adequate manner, nonstate actors play a major role in providing 
assistance to vulnerable Iraqis.'' Mr. Ambassador, how are we 
responding to the grave needs of displaced Iraqis? How do the problems 
identified by Refugees International impact plans for national 
reconciliation?

    Answer. Refugees International identifies a number of issues in its 
April 2008 report, including the provision of assistance by nonstate 
actors, the lack of visible U.N. involvement, and absence of conditions 
for safe and dignified returns. These issues are being addressed by the 
USG, Government of Iraq (GOI), and U.N., so we do not believe that they 
will have a negative impact on national reconciliation efforts.
    The United States has been the largest donor to the international 
humanitarian effort to assist displaced and vulnerable Iraqis. Thus far 
in this fiscal year, the Department of State and the U.S. Agency for 
International Development (USAID), through the Office of Foreign 
Disaster Assistance (OFDA) have contributed $208 million, and both are 
in the process of finalizing additional contributions ($100+ million) 
to international and nongovernmental organizations with available FY 
2008 funding. Since the start of the conflict in 2003 and despite an 
increasingly challenging security environment, USG-funded NGOs have 
continuously provided assistance to Iraqis throughout the country 
targeting more than 830,000 IDPs as well as host communities. With 
recent improvements in security, USG-funded partners are better able to 
access and assist the populations that they have been serving for 5 
years, building upon previously established connections to local 
communities.
    Within Iraq, as provincial governments improve their ability to 
execute their budgets and program funds to deliver services and address 
local needs, Iraqi citizens will increasingly turn to GOI institutions 
for assistance instead of nonstate actors. Over the past 2 years, 
provincial governments have proven increasingly capable of committing 
and spending their own budget allocations, spending upward of $2 
billion since early 2006 according to data gathered by our PRTs. The 
GOI recently increased its efforts to address citizens' needs through 
targeted post-kinetic reconstruction funds in Basra and Sadr City, both 
of which are areas that have long been dominated by militia groups.
    International organizations, including UNHCR, UNICEF, UNOCHA, the 
International Organization for Migration, the International Committee 
of the Red Cross, are also increasing and expanding their presence 
throughout the country, particularly through engaging international and 
national NGOs as implementing partners. USAID works closely with all of 
them to increase cooperation on operational, security, and logistics 
concerns as well as program and project areas.
    The USG strongly supports the return of Iraqi refugees from abroad 
when conditions in Iraq permit their safe and dignified return. The USG 
is in agreement with UNHCR guidance and is not advocating returns at 
this time. The GOI continues to work with the U.N. and USG to prepare 
for returns when conditions permit.
    Alongside humanitarian assistance for IDPs, USAID provides 
capacity-building assistance to the Ministry of Displacement and 
Migration (MODM) through the National Capacity Development program. 
MODM demonstrated its improved capacity when it submitted and received 
a $195 million budget from the Iraqi Council of Ministers in order to 
assist returning IDPs and refugees. The MODM's budget includes, among 
other things, targeted assistance to Iraqi families in the form of 
stipends and funding for transport. USAID is also working closely with 
the MODM to facilitate coordination with the other humanitarian efforts 
led by the U.N., IOM, and NGOs. The MODM has drafted a National Policy 
on Displacement that defines the rights and needs of the displaced that 
is now being considered by the Council of Ministers, and expects 
approximately $195 million budget allocation to provide assistance to 
returning families and to needy IDPs.

    Question. During your testimony, you stated that talk of Iranian 
involvement in brokering a cessation of hostilities in Basra was 
speculative. GEN Petraeus later testified that ``Iran, at the end of 
the day, clearly played a role in--as an arbiter, if you will, for 
talks among all of the different parties to that particular action.'' 
Do you still believe that reports of Iranian involvement are 
unsubstantiated?

    Answer. There is a lack of clarity on this issue. Moreover, there 
are limitations associated with discussing the subject matter in a 
public forum due to the sensitivity (classified nature) of the 
information. According to Iraqi officials, leaders of a number of Shia 
groups, including Jaysh al-Mahdi (JAM), met in Iran with 
representatives of the GOI prior to the declaration of a cease-fire. 
Nevertheless, it is important to note that Iran still supports 
militant-armed groups in Iraq which harm Iraqi and coalition interests 
and lives. We call upon the Islamic Republic of Iran to refrain from 
such negative activities and to work with the Government of Iraq in a 
constructive and sustainable manner.

    Question. General Petraeus testified that ``Iran has supported all 
Shia movements to varying degrees in Iraq. The Supreme Council is and 
the Badr Corps were elements in Iraq.'' Ambassador Crocker, what is the 
current state of Iranian support for the Supreme Council and the Badr 
Corps?

    Answer. There is a strong relationship between Iran and ISCI due to 
historical, cultural, and religious ties. Although the Badr Corps has 
been officially disbanded, Iran still continues to support ISCI 
financially and politically as one of its most important and 
influential allies in Iraq.

    Question. Have you or Prime Minister Maliki received any 
communications from members of the Iraqi Parliament expressing concern 
about the long-term security arrangements,? If yes, what concerns have 
they expressed and how are they being addressed? If you haven't 
received any communications at this time but you were to receive some 
in the future, how would such concerns be incorporated in the process?

    Answer. Both the President and Prime Minister Maliki signed the 
Declaration of Principles last November, which ends with, ``Taking into 
account the principles discussed above, bilateral negotiations between 
the Republic of Iraq and the United States shall begin as soon as 
possible, with the aim to achieve, before July 31, 2008, agreements 
between the two governments with respect to the political, cultural, 
economic, and security spheres.'' Negotiations of a strategic framework 
are underway, and both governments remain committed to establishing a 
strong basis for our bilateral relations, including in the security 
field. While a wide range of opinions are being registered in Iraq's 
climate of free expression, we deal with the issues brought to the 
table by Iraqi negotiators.
                                 ______
                                 

 Responses of GEN David Petraeus to Questions Submitted for the Record 
                      by Senator Russell Feingold

    u.s. presence in iraq and iraqi security forces competence with 
                           external security
    Question. You have proposed that we slowly drawdown to a smaller 
presence in Iraq after we have ``trained'' the Iraqi Security Forces. 
Do you anticipate that we will need to maintain U.S. troops in Iraq 
until the Iraqi Security Forces is able to defend itself from external 
threats?

    Answer. The long-term vision for victory in Iraq is an Iraq that is 
peaceful, united, democratic, and secure, where Iraqis have the 
institutions and resources they need to govern themselves and provide 
security for their country. The desired strategic end state for 
Operation Iraqi Freedom is a stable Iraq that can govern, defend, and 
sustain itself and serve as an ally in the war on terror. To accomplish 
the long-term vision for Iraq and the Operation Iraqi Freedom strategic 
end state, coalition forces must assist the Government of Iraq in 
developing an Iraqi Security Force capable of defeating both internal 
and external threats to Iraq. Furthermore, until the Government of Iraq 
is capable of defending itself against external threats, coalition 
forces will play a role in deterring regional threats to Iraqi 
sovereignty.

References: 1. National Strategy for Victory in Iraq; 2. Update to 
Joint Campaign Plan Operation Iraqi Freedom dated 27 November 2007; 3. 
Long-Term Security Posture in Iraq dated 27 August 2007.
              embedded u.s. iraqi security forces trainers
    Question. Can you confirm that, currently, over 6,000 U.S. 
``trainers'' are embedded in Iraqi Security Forces and serve side by 
side with them while they conduct operations? What specifically are 
U.S. trainers doing while embedded in Iraqi units?

    Answer. There are currently 7,360 transition team personnel 
embedded with Iraqi Security Forces at all levels. Approximately 6,400 
of those personnel are embedded with the Iraqi Army, the National 
Police, the Department of Border Enforcement, and the Iraqi Police on a 
regular basis. The remaining personnel train and
assist the upper echelons of the Ministry of Defense and Ministry of 
Interior in support of the mission of the Multi-National Security 
Transition Command-Iraq (MNSTC-I)
    U.S. trainers on transition teams advise the Iraqi Security Forces 
on counterinsurgency operations, security and policing, and border 
enforcement with a focus on enhancing the maneuver, logistical, 
intelligence, command and control, and fires capabilities of Iraqi 
units. These advisers provide dedicated assistance and expertise to the 
Iraqi Security Forces from the initial planning of an operation through 
its execution. These teams also provide situational awareness and 
enhance Iraqi Security Force effectiveness through their links to key 
coalition and U.S. enablers, particularly intelligence, surveillance 
assets, and air support.
             u.s. iraqi security forces trainer casualties

    Question. When General Odom appeared recently before the Senate 
Foreign Relations Committee, I asked him whether he thought it would be 
safe to leave tens of thousands of U.S. troops in Iraq for the purpose 
of continuing such a ``training'' mission. He testified that ``[i]t 
would be a lot more dangerous for our troops. If you want to get a 
sense of that danger, talk to some NCOs and officers who have actually 
trained them out there. They fear for their lives when they're living 
and working close with Iraqi forces.'' How many U.S. servicemembers 
have died while serving as embedded ``trainers''? How many have died 
while conducting joint operations with Iraqi Security Forces? Have any 
members of the Iraqi Security Forces been dismissed due to concern that 
they may have participated in hostilities against U.S. forces?

    Answer. Since the adviser mission began in late 2004, 57 U.S. 
transition team members have been killed in action while serving with 
Iraqi Army, National Police, and Border Enforcement units. In addition, 
there have been 33 U.S. members of Iraqi police transition teams killed 
in action since July 2006. Every transition team member killed in 
action died while traveling in support of, or while conducting, joint 
operations with Iraqi Security Forces.
    To date, we have no evidence that members of the Iraqi Army, 
National Police, or Department of Border Enforcement have been 
dismissed due to concern that they may have participated in hostilities 
against U.S. forces. Within the Iraqi police, there have been very rare 
instances of personnel being dismissed on suspicion of anticoalition 
activities. There are no reported incidents of a transition team member 
being attacked by the unit in which the team member was embedded.
    In the past 12 months there has been one attack by an Iraqi soldier 
on U.S. servicemembers who were not embedded advisers. On December 26, 
2007, an attack on a U.S. company operating jointly with an Iraqi 
patrol in Mosul resulted in the death of two U.S. servicemembers.
                     badr corps activities in iraq
    Question. During your testimony you said that ``The Supreme Council 
is and the Badr corps were elements in Iraq.'' During his testimony 
before the House Armed Services Committee on January 17, 2008, Mark 
Kimmitt, Deputy Assistant Secretary of Defense for the Middle East, 
testified that the Badr Corps remains active in Iraq. Is the Badr Corps 
still operational in Iraq at this time? Does the Badr Corps receive 
arms, funds, or training from Iran?

    Answer. Currently, the Badr Organization is part of the legitimate 
political process in Iraq and supports the Iraqi Security Forces. Until 
2003, Badr Corps was the armed wing of the Supreme Council of the 
Islamic Revolution in Iraq (now the Islamic Supreme Council of Iraq), a 
Shia political movement. From 2003 to 2005, the Badr Corps transformed 
into the Badr Organization--a political entity that holds elected seats 
in the Iraqi Council of Representatives. While the Badr Organization 
retains some discrete, narrow security responsibilities (for example, 
it provides security for some of its party offices in southern Iraq), 
almost all of its militia members were integrated into the Iraqi 
Security Forces under Coalition Provisional Authority Order 91.
    Undoubtedly, the Badr Organization leaders maintain links to Iran 
that were formed during its decades in exile there prior to 2003. 
Although the Islamic Supreme Council of Iraq--with which Badr 
Organization remains associated--seeks to publicly distance itself from 
Iran, some current and former Badr Organization members still receive 
training in Iran and maintain ties with Iranian intelligence.
 identification methods of rogue badr corps members in iraqi security 
                                 forces
    Question. You noted in your testimony that the Badr Corps has been 
``integrated'' into the Iraqi Security Forces and that rogue elements 
are thrown out of the Iraqi Security Forces. How are you able to 
identify these rogue elements? Do you believe that sectarianism has 
been eliminated from the Iraqi Security Forces, including all those 
individuals who remain loyal to ISCI or the Badr Brigade?

    Answer. Significant strides have been made to reduce the level of 
sectarianism within the Iraqi Security Forces, but there is more that 
remains to be done. Certainly, there are individuals in the Iraqi 
Security Forces who were previously members of groups such as the Badr 
Organization (formerly Badr Corps); in fact, the Badr Corps was among 
the elements that a CPA order directed should be integrated into the 
ISF. In the majority of cases, this has not proven to be a problem. We 
occasionally see reports of individuals within the Ministries of 
Interior and Defense pursuing sectarian agendas. Those individuals are 
dealt with on a case-by-case basis. Identification of sectarian 
elements within the Iraqi Security Forces is accomplished through a 
combination of covert and overt collection methods to include human 
intelligence and the use of biometric tools.
                      strategic overwatch brigades
    Question. Last year you indicated that, even after an eventual 
drawdown of our troops, you still envisioned leaving five brigades in 
Iraq indefinitely to perform a ``strategic overwatch'' role. Can you 
elaborate on the nature of this overwatch role, how many troops you 
anticipate leaving in Iraq and for how long? At what point in the 
current plan to which President Bush has agreed would we, by your 
assessment, reach this state of ``overwatch''?

    Answer. As Iraqi Security Forces increasingly assume primary 
responsibility for security in Iraq, their relationship with coalition 
forces will continue to transition from coalition forces in the lead, 
to partnership, and then to overwatch. Within the ``overwatch'' 
relationship, three subcategories further distinguish the coalition 
role: Tactical overwatch, operational overwatch, and strategic 
overwatch. During strategic overwatch, coalition forces may: Provide 
certain combat enablers to Iraqi Security Forces upon request; perform 
a limited set of missions in coordination with the Government of Iraq; 
and maintain a strategic reserve capable of intervening in a timely 
manner throughout Iraq in the event of crisis.
    Transition between security relationships will be conditions-based, 
and may be expected to occur at varying rates in different parts of the 
country. For these reasons, it is not prudent to place a specific 
timeline on transitioning to tactical, operational, or strategic 
overwatch. When conditions do allow coalition forces to assume a role 
of strategic overwatch throughout Iraq, the actual force strength 
required at that point would be dependent upon the strategic context 
and the situation at the time.
            u.s. and iraqi funding of iraqi security forces
    Question. In your testimony you noted that Iraqi expenditures on 
Iraqi Security Forces exceeded U.S. expenditures on those forces. If 
you count U.S. expenditures on logistics and training for the Iraqi 
Security Forces, wouldn't U.S. expenditures exceed Iraqi expenditures?

    Answer. A comparison of the annual budget expenditures of the 
Ministries of Defense and Interior and the U.S. Iraqi Security Force 
Fund (ISFF) reveals that Iraqi spending exceeded U.S. spending in 2006 
and 2007, and Iraqi spending is projected to be triple the amount of 
U.S. spending in 2008. The table below shows annual expenditures for 
the Government of Iraq's security ministries as well as the U.S. 
Government's ISFF.

------------------------------------------------------------------------
                                                        Amount executed
Year of appropriation and source     Appropriation           ($US)
------------------------------------------------------------------------
2004:
  Government of Iraq............  MOD/MOI Budget....  $1,770M.
  U.S. Government...............  ISFF..............  $5,210M.
2005:
  Government of Iraq............  MOD/MOI Budget....  $2,043M.
  U.S. Government...............  ISFF..............  $5,391M.
2006:
  Government of Iraq............  MOD/MOI Budget....  4,548M.
  U.S. Government...............  ISFF..............  $3,007M.
2007:
  Government of Iraq............  MOD/MOI Budget....  $5,717M.
  U.S. Government...............  ISFF..............  $5,542M.
2008:
  Government of Iraq............  MOD/MOI Budget....  $9,000M
                                                       (projected).
  U.S. Government...............  ISFF..............  $3,000M
                                                       (projected).
------------------------------------------------------------------------

                  security of supply lines from kuwait
    Question. Is it true that the majority of our essential supplies 
and equipment are transported by land over 400 miles from Kuwait? Have 
these convoys been subjected to attacks in some cases? If the fighting 
between Maliki's forces and rival Shia groups in the south deepens, 
could it further endanger that supply line?

    Answer. The bulk of our supplies are transported into Iraq by land 
from Kuwait. The average distance from these ports to the first Army 
General Support hub is approximately 370 miles. Additionally, almost 
all deploying and redeploying unit equipment transits Kuwait.
    The following list breaks out various classes of supply and the 
percentages that enter Iraq through Kuwait:

          Class I (Food and Water): 85 percent;
          Class II (Clothing & Personal Equipment) & Class IV 
        (Construction Material): 85 percent;
          Class III (Bulk) (Fuel and Petroleum Products): 50 percent;
          Class V (Ammunition and Explosives): 98 percent;
          Class IX (Repair Parts): 10 percent.

    During the course of U.S. involvement in Iraq, convoys heading 
north from Kuwait have been attacked. However, there have been no 
improvised explosive device attacks along these supply routes in the 
past 6 months, and no small-arms fire or other forms of attack for the 
last 3 months.
    We protect the southern supply routes through the use of patrols. 
Though we have done contingency planning, we do not expect the Iraqi 
Government's ongoing operations in Basra and elsewhere in southern Iraq 
to result in an escalation of security incidents that significantly 
affects our sustainment operations.
            dod support to iraqi state board of antiquities
    Question. How is the Department of Defense supporting the State 
Board of Antiquities and Heritage in Iraq to protect Iraq's cultural 
heritage--specifically, how is DOD supporting the protection of 
archeological sites? Could DOD's civil affairs play a greater role in 
helping to protect Iraq's cultural heritage and if so, how?

    Answer. On May 3, 2008, Multi-National Force-Iraq published a 
Protection of
Archaeological Sites Cautionary Note advising all personnel to stay 
clear of archaeological sites throughout Iraq per the Iraq Antiquities 
and Heritage Law No. 55 of 2002 and General Order 1B. Department of 
State Cultural Affairs, specifically the Cultural Heritage Officer, is 
the main point of contact on all issues related to cultural heritage 
and leads an Iraq Antiquities Working Group that includes the following 
members:

--Environmental Engineers from U.S. Central Command, U.S. Central 
    Command Air Forces, and U.S. Army Central.
--Cultural Resource Managers from Air Force Center for Environmental 
    Excellence and U.S. Air Force Air Combat Command.
--Environmental Program Managers from Multi-National Force-Iraq and 
    Multi-
    National Corps-Iraq.
--Deputy Federal Preservation Officer.
--Environmental Division Cultural Resources Manager from Fort Drum 
    Cultural Resources Center for Environmental Management of Military 
    Lands from Colorado State University.

    This working group collaborates on issues related to site 
protection, including:

--The implementation of a Historic/Cultural Resources Fragmentary Order 
    for military presence on and near archaeological sites. The 
    implementation of a ``Contingency Based Environmental Guidance 
    Document'' for U.S. personnel in-theater.
--The implementation of an ``Archaeological Construction Checklist'' 
    for military presence on and near archaeological sites (including 
    the use of maps for planning purposes).
--Multi-National Force-Iraq is represented on a team that assists the 
    Iraqi State Board of Antiquities and Heritage submit budget 
    requests to the Minister of Tourism and Antiquities. Projects 
    include renovation of the Baghdad Museum, new construction of a 
    warehouse to store and secure Iraq antiquities, and a modern 
    security system throughout the museum facility.

    DOD Civil Affairs personnel work closely with the local Provincial 
Reconstruction Teams within each Iraqi province; however, they are not 
specifically trained in cultural heritage protection. Appropriately 
trained Civil Affairs personnel could provide cultural resource 
management and cultural heritage protection expertise to local 
commanders.
                                 ______
                                 

  Responses of Ambassador Ryan Crocker to Questions Submitted for the 
                   Record by Senator Robert Menendez

    Question. the following are the statistics that Senator Menendez 
presented during the hearing:

  <bullet> 43 percent \1\ of Iraq's population currently lives in 
        ``absolute poverty.''
---------------------------------------------------------------------------
    \1\ Oxfam and the NGO Coordination Committee in Iraq (NCCI), 
``Rising to the Humanitarian Challenge in Iraq,'' July 2007.
---------------------------------------------------------------------------
  <bullet> 19 percent \2\ of Iraqi children suffered from malnutrition 
        prior to the war; today, that figure is 28 percent.\3\
---------------------------------------------------------------------------
    \2\ Oxfam and the NGO Coordination Committee in Iraq (NCCI), 
``Rising to the Humanitarian Challenge in Iraq,'' July 2007.
    \3\ Oxfam and the NGO Coordination Committee in Iraq (NCCI), 
``Rising to the Humanitarian Challenge in Iraq,'' July 2007.
---------------------------------------------------------------------------
  <bullet> Last year, 75 percent \4\ of Iraqi elementary-age children 
        attended school, according to the Iraq Ministry of Education. 
        Now, it is only 30 percent.\5\
---------------------------------------------------------------------------
    \4\ Newsweek, 1/22/07.
    \5\ Newsweek, 1/22/07.
---------------------------------------------------------------------------
  <bullet> 50 percent \6\ of Iraqis lacked regular access to clean 
        water prior to 2003. Now, it is 70 percent.\7\
---------------------------------------------------------------------------
    \6\ Oxfam and the NGO Coordination Committee in Iraq (NCCI), 
``Rising to the Humanitarian Challenge in Iraq,'' 7/07.
    \7\ Oxfam and the NGO Coordination Committee in Iraq (NCCI), 
``Rising to the Humanitarian Challenge in Iraq,'' 7/07.
---------------------------------------------------------------------------
  <bullet> Only 50 of the 142 U.S.-funded primary health care centers 
        are open to the public.\8\
---------------------------------------------------------------------------
    \8\ Department of Defense Report to Congress: ``Measuring Security 
and Stability in Iraq,'' March 2008.
---------------------------------------------------------------------------
  <bullet> 62 percent \9\ of Iraqis surveyed in a February poll rated 
        the availability of medical care as ``quite bad'' or ``very 
        bad.''
---------------------------------------------------------------------------
    \9\ BBC, 3/14/08. ABC News/BBC/NHK National survey.

    If the Department of State has different or updated statistics, 
please provide them for the indicators above, and please provide any 
additional statistics that the administration has gathered that capture 
the overall welfare of the Iraq people today, as compared to before the 
---------------------------------------------------------------------------
2003 invasion.

    Answer. Iraq has a long way to go in providing the necessary 
essential services on a regular and equitable basis to the Iraqi 
population. For over two decades, Saddam Hussein's destructive policies 
laid waste to much of the country's essential services infrastructure, 
and ignored the needs of the Iraqi people. During the sanctions period, 
the Oil for Food Program allowed unrestricted sales of food and 
medicines through regulated sales of oil. Saddam Hussein used this 
money not for the benefit of the Iraqi people, but for his own selfish 
purposes. Data from the Saddam era is often unreliable, as government 
statistics were produced for political purposes.
    In the period between 2003 and early 2006, U.S. programs began 
making improvements in the lives of many Iraqis. However, al-Qaeda's 
attack on the Golden Mosque of Sammara in 2006 began a vicious cycle of 
sectarian violence that overwhelmed the gains the Iraqis had made after 
conducting peaceful, democratic elections in 2005. Some of the 
statistics provided above on health care services and school attendance 
are from that dire period.
    For these reasons, in January 2007 President Bush announced a 
``surge'' to combat the violence spreading throughout Iraq. Following 
consultations with Congress, the United States increased American force 
levels and the Iraqi Army and Police Brigades increased as well. At the 
same time, the State Department increased the number of Provincial 
Reconstruction Teams (PRTs) and the number of other U.S. civilian 
advisers in Iraq.
    The surge created a more secure and stable environment. In my 
testimony I reported on gains in Iraq's economy, governance, and 
delivery of essential services. Iraq is increasingly using its own 
resources to build on the progress made under U.S.-funded efforts.
    The gains of the surge are fragile. We will continue to work with 
Iraqi leaders and build their capacity to meet the needs of their 
people long after our presence has been reduced.

Forty-three percent of Iraq's population currently lives in ``absolute 
poverty.''

    When the Social Safety Net Program was introduced by the Government 
of Iraq with support from the World Bank and the U.S. Government, the 
World Bank estimated that there were about 1.2 million poor families or 
9.6 million people who should be assisted with the program. This 
represents about 33 percent of Iraq's population. As Iraq makes 
progress on governance and economic development, employment will rise. 
Employment is the key to reducing poverty. Officially, unemployment is 
18 percent but underemployment is much higher--perhaps as high as 40-50 
percent. The improved security situation has led to increased retail 
trade and other economic activity. This is one reason for the 9.1-
percent jump in business registrations in 2007 over 2006. Focused USG-
funded programs also play a significant role. The Community 
Stabilization Program provides jobs, essential services, vocational 
training and microgrants, particularly in areas recently stabilized. 
The pilot Civilian Service Corps program by the U.S. military will 
provide jobs and vocational training to Iraqis who band together to 
undertake local reconstruction and infrastructure development projects. 
The Task Force for Business Stability Operations is reviving some of 
Iraq's state-owned enterprises and recently concluded investment 
agreements with international companies for cement factories.

Nineteen percent of Iraqi children suffered from malnutrition prior to 
the war; today, that figure is 28 percent.

    In the most recent comprehensive survey, the United Nations World 
Food Programme found that 15.4 percent of Iraqis had insecure access to 
food in 2006. Some food needs are met by PDS, an Iraqi program of in-
kind aid. All Iraqis are eligible, with an estimated 20 percent of 
Iraqis relying heavily on PDS for food, and another 20-25 percent 
counting on PDS aid as a supplement.
    Among other major PDS reforms, the GOI plans to roll PDS food aid 
into a broad social safety-net program that will target the needy. 
Improved targeting will allow the GOI to better support the most 
vulnerable Iraqis.
    Iraq's domestic agricultural sector was left underdeveloped under 
Saddam's rule, resulting in a low quality of Iraqi domestic 
agricultural products and a sector that cannot provide sufficient food 
to meet Iraq's needs. Iraqi Prime Minister Maliki recently launched a 
$500 million agricultural development initiative, approved in the GOI's 
2008 budget, to increase domestic food production and quality.

Last year, 75 percent of Iraqi elementary-age children attended school, 
according to the Iraq Ministry of Education. Now, it is only 30 
percent.

    The single largest factor in school attendance is the level of 
violence in-country. The Iraqi statistical agency COSIT reported 2006 
attendance in primary schools throughout the country at 83.1 perecent. 
This would approximate to near the figure quoted in the Newsweek 
source, dated January 22, 2007, for 2006 figures. During the upswing in 
violence experienced in the fall of 2006 and summer of 2007, the number 
of children attending school dropped as parents kept their children at 
home. While the 2007 figures from COSIT on school attendance are not 
available at this time, it is expected that student attendance will 
have increased to reflect greater regular attendance as the security 
situation improved. If military and police security operations continue 
in certain areas, however, it is expected that school attendance would 
be temporarily disrupted.
    Prior to 2003 Iraq had a total of 14,121 schools. The United States 
and coalition partners have rehabilitated 5,618 of 11,000 schools 
needing repair. Additionally, more than 61,000 teachers have been 
trained and more than 8,700,000 textbooks provided for Iraqi children 
by USAID.

Fifty percent of Iraqis lacked regular access to clean water prior to 
2003. Now, it is 70 percent.

    Fifty percent lack of access in 2003. The immediate source of this 
figure is a July 2007 report, ``Rising to the Humanitarian Challenge in 
Iraq.'' As the basis for the figure, that report cites the January 2006 
SIGIR report to the Congress, which in turn cites a November 2003 
Department of Defense ``draft working paper.'' \10\
---------------------------------------------------------------------------
    \10\ Department of Defense, Essential Services--Water (Draft 
Working Paper, 17 November 2003).
---------------------------------------------------------------------------
    The working paper is a single-page document that does not indicate 
source or methodology; because of its lack of substantiation, it 
subsequently was withdrawn. Taking the paper on its face, it is not 
even clear whether it refers to service prior to the war or at the time 
it was prepared. Assuming it does refer to the earlier period, it may, 
despite its lack of substantiation, be a plausible estimate of the 
amount of potable water produced at that time, but it is substantially 
too high for the potable water service actually received by Iraqis.
    A 2005 GAO report \11\ found that in 2003 Iraq still produced 
enough water to supply about 60 percent of urban Iraqis and 50 percent 
of rural Iraqis, but that the percentage of Iraqis receiving adequate 
amounts of clean water was much lower due to heavy leakage and 
contamination. For example, sewage leaked into the water network, which 
was too damaged to keep contaminants out.
---------------------------------------------------------------------------
    \11\ GAO-05-872, at p. 5.
---------------------------------------------------------------------------
    For Baghdad in particular, a July 2003 UNICEF study estimated that 
in late 2002 the theoretical supply of potable water was 218 liters per 
person. By comparison, the standard level of service used to estimate 
the number of Baghdad residents that can be served by USG water 
projects is a delivered supply of 312 liters per person. Moreover, most 
Baghdad residents did not receive even the theoretical daily supply of 
218 liters. ``[T]he majority of people never got such large amounts of 
water, especially those at the end of leaking and damaged water 
distributions networks. In many places water flowed for only a few 
hours each day, and when it did the pressure was low and it was 
contaminated by raw sewage and other pathogens seeping into the leaking 
system. Additionally, water quantities were limited and many families 
received as little as 50 litres per person per day, with long queuing 
times for collection.'' \12\
---------------------------------------------------------------------------
    \12\ Iraq Watching Briefs. Water and Environmental Sanitation 
(UNICEF July 2003).
---------------------------------------------------------------------------
    Due to a lack of metering, it is not possible to translate these 
observations into a reliable estimate of the percentage of Iraqis that 
lacked access to adequate supplies of potable water in 2003. However, 
it is possible to conclude that the percentage was much higher than 50 
percent.
    Current 70 percent lack of access. The immediate source of this 
figure is again ``Rising to the Humanitarian Challenge in Iraq.'' That 
report in turn cites a published summary of a March 2007 UNHCR press 
conference. The summary does not provide a source or methodology for 
the 70-percent figure.
    The lack of metering again makes it impossible to directly measure 
the number of Iraqis with access to potable water. For the current 
level of service, however, it is possible to estimate the number of 
Iraqis with access to potable water provided by facilities constructed 
or rehabilitated by the principal USG projects.
    Water treatment facilities financed by the Iraq Relief and 
Reconstruction Fund (IRRF) have the capacity to provide an estimated 
additional 8 million Iraqis with potable water. This estimate is based 
on the plants' capacity and characteristics (for example, estimated 
leakage) and on a standard level of per capita usage.
    We do not have the data that would be needed to make a similar 
estimate for the number of Iraqis that can be served by non-USG 
projects. However, the 8 million Iraqis that can be served by USG 
projects are themselves approximately 30 percent of the population. The 
70-percent figure therefore would imply that no Iraqis receive potable 
water from non-USG facilities. That clearly is not the case.
    Because we cannot make a reliable estimate of the number of Iraqis 
who receive potable water from facilities not constructed or 
rehabilitated by USG projects, we cannot reliably estimate the overall 
number of Iraqis who lack access to potable water. We can, however, 
conclude that the 70-percent figure is substantially too high.

Sixty-two percent of Iraqis surveyed in a February poll rated the 
availability of medical care as ``quite bad'' or ``very bad.''

    The Iraqi health care system suffered greatly under post-Desert 
Storm sanctions due to actions of the Saddam regime, despite provisions 
made for humanitarian relief under Oil for Food. Corruption and 
Saddam's political purposes diverted critical resources such as 
medicines and equipment from hospitals and clinics. Currently, medical 
professionals are subject to threats and assassination, causing many to 
leave the country and drastically reducing the number of professionals 
in Iraq.
    We are, however, seeing progress in addressing critical needs that 
should result in improved health care delivery. In November 2007, Dr. 
Salih al-Hasnawi was approved by the Council of Ministers as the 
Minister of Health following the Sadrist block's withdrawal from the 
Iraqi Cabinet. For the first time in over two decades, Dr. Hasnawi 
organized a Continuing Medical Education conference in Baghdad in 
January and has held similar smaller conferences since. Also, Dr. 
Hasnawi has proposed increasing the salary of doctors to encourage the 
many who have left Iraq to return, as well as housing doctors and 
nurses near hospitals and clinics.
    The Iraqi public health system requires further long-term 
improvements. The Minister of Health has identified the key areas as 
medicine procurement and distribution, repairing hospitals and clinics 
damaged by insurgents, and improving physician training. The Ministry 
of Health is working closely with the United States and other partners 
to increase the delivery of health services.
    The reputation of hospitals has improved, and fears of sectarian 
targeting have significantly decreased. There are Ministry of Health 
facilities, which provide free services, as well as private facilities. 
In the afternoons and evenings, many public service doctors provide 
private clinic care for a fee. Doctors' clinics are busy, often seeing 
over 100 patients a day. Medical facilities still suffer from shortages 
of supplies and medicines, but the Ministry of Health is working to 
improve the situation.

Only 50 of the 142 U.S.-funded primary health care centers are open to 
the public.

    The United States Primary Healthcare Center (PHC) construction 
program will be completed by the end of 2008. We will have turned over 
a total of 136 newly constructed PHCs, across all provinces, to the 
Ministry of Health. To date we have turned over to the Ministry of 
Health 86 PHCs, of which 59 are open to the public.
                                 ______
                                 

Responses of GEN David Petraeus to Question Submitted for the Record by 
                        Senator Robert Menendez

                    iraqi quality of life indicators
    Question. The following are the statistics that Senator Menendez 
presented during the hearing (derived from Oxfam and the NGO 
Coordination Committee in Iraq (NCCI), ``Rising to the Humanitarian 
Challenge in Iraq,'' July 2007; Newsweek 1/22/07; Department of Defense 
Report to Congress: ``Measuring Security and Stability in Iraq,'' March 
2008; and BBC, 3/14/08. ABC News/BBC/NHK National survey): 43 percent 
of Iraq's population currently lives in ``absolute poverty''; 19 
percent of Iraqi children suffered from malnutrition prior to the war, 
today, that figure is 28 percent. Last year, 75 percent of Iraqi 
elementary-age children attended school, according to the Iraq Ministry 
of Education. Now, it is only 30 percent. Fifty percent of Iraqis 
lacked regular access to clean water prior to 2003. Now, it is 70 
percent. Only 50 of the 142 U.S.-funded primary health care centers are 
open to the public. Sixty-two percent of Iraqis surveyed in a February 
poll rated the availability of medical care as ``quite bad'' or ``very 
bad.'' If the Department of State has different or updated statistics, 
please provide them for the indicators above, and please provide any 
additional statistics that the administration has gathered that capture 
the overall welfare of the Iraq people today, as compared to before the 
2003 invasion.

    Answer. The last formal comprehensive study of humanitarian 
conditions was conducted by the World Health Organization in 2006. This 
study, as well as many of the statistics cited above, reflects data 
collected at an especially turbulent period of time in Iraq, one during 
which Iraq was embroiled in horrific ethnosectarian violence. 
Significant progress in the security situation since then has enabled 
progress in many areas, though it is to be expected that improvements 
in essential services and many other factors that affect quality of 
life would take time to catch up. To better gauge how Iraqis are 
currently faring, the U.S. Government is currently working with Gallup 
on a survey that will be completed within the next 30-60 days and will 
address issues of health and education. We anticipate having updated 
statistics by September 2008. While we do not have updates on most of 
the particular statistics cited in this question, we do have other more 
current data on the humanitarian conditions in Iraq. Statistical data 
from the International Organization for Migration suggests that the 
humanitarian situation in Iraq varies considerably by province. Many 
Iraqis living in northern and western Iraq indicate a better 
humanitarian situation today compared to 5 years ago. In part due to 
the security situation, other Iraqis throughout central and southern 
Iraq have indicated little or negative change in their humanitarian 
situation since 2003. The still inadequate capacity of the Iraqi 
Government has limited the provision of essential services necessary to 
address lacking humanitarian conditions in some areas. The U.S. 
Mission-Iraq
(USM-I) and Multi-National Force-Iraq (MNF-I) are partnering with Iraqi 
ministries to develop further capacity.
    Access to health care and the quality of the Iraq public health 
system remain concerns that are being actively addressed by the Iraqi 
Government and by the coalition. In 2003, Iraqi civilian health care 
lagged behind the region based on the number of physicians in the 
country; the ratio of physician-to-population served; health care 
expenditures per capita; lack of equipment maintenance/modernization; 
extremely inefficient national medical supply system, and leading 
health statistics. With improving security conditions, Iraqi health 
care has shown a measured increase in capability throughout the past 12 
months, with a clear potential for significant gains within the next 
12-24 months. The Iraqi Government, with coalition assistance, has now 
completed the construction of 105 of 137 planned Primary Healthcare 
Centers (PHCs), with the remaining 32 scheduled for completion by 
September 2008. Also, of the 47 hospital renovation projects in 20 
hospitals across the country, 32 have been completed with the remainder 
ongoing. Though a shortage of medical providers exists, these 
infrastructure improvements helped increase the capacity of Iraqi 
medical facilities to treat 3.25 million patients annually in hospitals 
and 630,000 outpatients annually at PHCs. We continue to engage with 
Iraqi ministries to develop a national health care strategy, encourage 
repatriation of Iraqi physicians who left the country, reengineer the 
Iraqi medical supply distribution system, and improve national 
emergency medical services communication ability.
    The status of water, wastewater, and solid waste treatment services 
vary by locale. In partnership with the Iraqi Ministry of Water 
Resources, the U.S. Government has completed the rehabilitation, 
expansion, and/or construction of 21 major water treatment plants and 
hundreds of small water compact units. These projects have restored or 
added around 2.2 million cubic meters per day of treatment capacity, 
which is sufficient to serve around 7.5 million Iraqis at a standard 
level of service. To address the recurring challenge in Iraq of a 
summer outbreak of cholera, we have worked with Iraqi ministries to 
ensure adequate stocks of chlorine are on-hand. Many wastewater 
treatment projects have also been completed and rehabilitated, and 
results from recent water testing reveal that 87 percent of samples 
were adequate. Solid waste management in urban areas is conducted by 
local municipalities and reliability of municipal programs depends 
heavily on local officials. In rural areas, open trench solid waste 
disposal is the norm. To address long-term sustainability issues, MNF-I 
and USM-I continue to work with Iraqi officials to develop operations 
and maintenance capability and to train staff from the relevant 
ministries.
    Access to staple goods in Iraq is generally good. Iraqis have 
access to affordable staple goods through several means. The first 
method is through the Public Distribution System, a public food program 
managed by the Ministry of Trade that delivers basic food items and 
commodities to nearly all Iraqis for a nominal fee.
    The system is part of a social safety net that provides the 
population with 10 products, including wheat flour and cooking oil. 
Besides the commodities provided through the Public Distribution 
System, increased security and stability have allowed many markets to 
reopen, farmers to return to their fields, and food commodities to be 
imported into the country, thus increasing the availability and 
affordability of staple goods by the average Iraqi. In terms of access 
to gasoline, the availability of benzene and diesel has also increased 
as the security situation has improved. More petrol stations are open, 
and importation and distribution of refined oil products have 
increased. The best indicator of that positive change is the lack of 
vehicle lines at the petrol stations. Previously, Iraqis had to wait in 
long lines to fuel their cars or purchase benzene for their generators.
    The most pressing issue for the Iraqi Education System is the 
construction and rehabilitation of schools. Currently, there are 20,000 
schools in Iraq, with an estimated 4,000 more needed to accommodate the 
large numbers of children enrolled. Improved security has had an effect 
on enrollment, as total primary school enrollment rose by over 180,000 
students to 4,334,511 for 2007-08. Total secondary enrollment for 2006-
07 was 1,491,933; data for the current year is not yet available. The 
Iraqi Central Organization for Statistics and Information Technology 
will not speculate on the overall percentage of children enrolled in 
school until a census is completed. There is a sufficient number of 
teachers, though training is needed to integrate modern teaching 
standards.
                                 ______
                                 

  Responses of Ambassador Ryan Crocker to Questions Submitted for the 
                 Record by Senator Robert P. Casey, Jr.

    Question. In recent testimony before the Congress, both Secretary 
Rice and Secretary Gates have affirmed that the United States does not 
intend to extend security assurances or commitments to the Iraqi 
Government under the aegis of the Strategic Framework Agreement or 
Status of Forces Agreement currently under negotiation between the 
United States and Iraq. Ambassador Crocker, you were the lead U.S. 
negotiator on the Declaration of Principles and are now heading the 
U.S. team drafting both the Status of Forces Agreement and the 
Strategic Framework Agreement. Can you confirm to the committee that 
the United States will not, under any circumstances, extend security 
assurances or commitments to the Government of Iraq this year?

    Answer. As both Ambassador Satterfield and I have testified, 
neither document will extend security commitments to Iraq this year.

    Question. On Friday, the State Department announced a 1-year 
renewal of a contract with Blackwater Worldwide, the private security 
contractor, to provide security for U.S. diplomats in Iraq. In response 
to the announcement of the contract renewal, Iraqi Prime Minister 
Maliki declared on Sunday that this renewal is not final because ``they 
committed a massacre against Iraqis and until now this matter has not 
been resolved.'' He went on to say, ``No judicial action has been taken 
and no compensation has been made. Therefore, this extension requires 
the approval of the Iraqi Government, and the government would want to 
resolve the outstanding issues with this company.''

  <bullet> A. Please review the process by which this contract renewal 
        was made. Was any consideration given to stripping Blackwater 
        of the contract and giving it to another qualified entity? To 
        what extent did the views of the Iraqi Government factor into 
        the decision of the State Department?

  <bullet> B. How does the decision to renew this contract with a 
        company that, in the eyes of the Iraqi people, represents U.S. 
        arrogance and impunity serve your overall mission of 
        counterinsurgency and winning the hearts and minds of the Iraqi 
        people?

  <bullet> C. As the United States and Iraq negotiate a Status of 
        Forces Agreement, how do you envision that agreement will treat 
        private military contractors in Iraq? Will they be subject to 
        Iraqi law? Will the Iraqi Government have the right to veto the 
        presence of certain companies?

    Answer to Part A. This task order with Blackwater for protective 
services in Baghdad is a 5-year contract with an initial year and then 
four option years. The Department exercised option year two of the task 
order as an interim measure. One of the principal recommendations of 
the report by the Secretary of State's Panel on Personal Protective 
Services is that U.S. Embassy Baghdad submit a recommendation on 
whether the continued services of Blackwater is consistent with the 
accomplishment of the overall United States mission In Iraq, based on 
the results of the FBI investigation into the September 16 incident, 
which is still ongoing. The Department has the right to terminate this 
contract for convenience or for cause at any time.

    Answer to Part B. The Department of State agrees that winning the 
hearts and minds of the Iraqi people is key to our overall mission in 
Iraq. To that end, since the Nisoor Square incident on September 16, 
2007, the Department has taken numerous steps to minimize the risk of 
future incidents, while continuing to protect our diplomats in a highly 
dangerous environment. For example, the Embassy revised the use of 
force policy applicable to private security contractors in order to 
emphasize that the overall success of any mission must not be viewed 
solely in terms of whether the protectee was kept safe, but also to 
reflect the impact on the local population.
     The Department has instituted numerous other measures to improve 
the oversight and accountability of its security contractors, including 
placing a Diplomatic Security Special Agent in every convoy, revising 
the procedures for reporting
and investigating incidents, and improving communication and 
coordination with
MNF-I and Government of Iraq officials.
    It was due in part to these considerations that the Department took 
the interim measure of exercising another option year of Blackwater's 
task order to provide protective services in Baghdad, pending the 
results of the FBI investigation.

    Answer to Part C. Jurisdiction over private security contractors is 
a subject of deep concern to both Iraq and the United States. This 
matter will be carefully considered by both sides in the course of the 
SOFA negotiations. As with other negotiations, we do not publicly 
discuss our negotiating positions, or those of our negotiating 
partners, on key issues.
                                 ______
                                 

 Responses of GEN David Patraeus to Questions Submitted for the Record 
                    by Senator Robert P. Casey, Jr.

                          electrocution deaths
    According to information provided by the Army and Marine Corps to 
the office of Representative Altmire, at least 12 servicemembers have 
died in Iraq as a result of accidental electrocutions since 2003. On 
January 2, 2008, Staff Sergeant Ryan Maseth of Shaler, Pennsylvania, 
was electrocuted while taking a shower in his living quarters in the 
Radwaniyah Palace Complex (RPC) in Baghdad. Recent news reports and 
statements from the Department of Defense in response to Staff Sergeant 
Maseth's death indicate that a lack of government oversight and poor 
contract management may have contributed to accidental deaths or 
injuries of U.S. personnel serving overseas.

    Question. Since 2003 when the first accidental electrocution death 
was reported, how many deaths or injuries from accidental 
electrocutions of military and contract personnel in Iraq, as well as 
any other military installation, have occurred?

    Answer. According to safety records maintained by the Multi-
National Corps-Iraq (MNC-I) Safety Office and U.S. Army Combat 
Readiness Center, between September 2003 and May 2008, 11 military 
personnel and 2 contractor employees died due to accidental 
electrocutions in Iraq. The same records show two soldiers died in the 
United States and one in Germany by accidental electrocution. The 13 
recorded deaths due to accidental electrocution in Iraq occurred under 
the following circumstances: 5 died from contact with power 
distribution lines, 2 installing communications equipment, 2 performing 
maintenance on generators, 2 taking a shower, 1 while power washing 
equipment, and 1 while swimming. The only two events that occurred 
inside billeting facilities (both while taking a shower) were on 
different bases in Iraq and occurred 3\1/2\ years apart (May 2004 and 
January 2008).

    Question. Did the Army or Defense Contract Management Agency (DCMA) 
actually fund Kellogg, Brown and Root Services, Inc. (KBR) to perform 
electrical repair work at the RPC complex, prior to the death of Ryan 
Maseth?

    Answer. Yes, the Army funded KBR to perform maintenance as part of 
a contract modification under the Logistics Civil Augmentation Program. 
The funds were for limited maintenance to include electrical repairs 
initiated by customer service order requests.

    Question. What were the dates of this contract?

    Answer. The contract modification was made using a ``change 
letter'' that was issued on 23 February 2007.

    Question. Did KBR submit reports documenting safety hazards 
relating to the improper grounding of electrical devices at the RPC 
complex?

    Answer. Yes, KBR submitted reports documenting potential grounding 
issues. It is my understanding that, prior to the 23 February 2007 
contract modification, KBR conducted only limited technical inspections 
of the RPC complex. The last inspections were performed on 10 February 
2007. These inspections revealed no deficiencies related to the water 
pump contributing to SSG Maseth's death but did indicate other 
grounding issues.

    Question. Did KBR receive $3.2 million under ACL07-139-D9-005 to 
repair deficiencies identified in KBR's February 10, 2007 technical 
inspection report?

    Answer. KBR received an estimated $3.2 million pursuant to the 23 
February 2007 contract modification in order to perform maintenance 
services.

    Question. What measures have the Department of Defense and its 
affiliates taken to ensure proper safety and code enforcement by 
contractors operating in Iraq, specifically KBR, in eliminating issues 
of electrical safety hazard since 2003?

    Answer. Multi-National Force-Iraq is currently reviewing facilities 
maintenance electrical standards and incorporating changes into our 
theater support contracts to help insure proper electrical safety 
standards. The Defense Contract Management Agency (DCMA) has directed 
KBR to implement a theaterwide, full technical inspection of all 
maintained facilities where no prior inspection was performed. 
Additionally, DCMA directed KBR to perform life, health, and safety 
inspections on all other maintained buildings to begin any necessary 
repairs. The MNC-I Safety Office has issued several safety alerts on 
electrocution hazards. Additionally, the Army Sustainment Command has 
made annual improvements to the contract statements of work based on 
lessons learned to insure electrical safety.


             NEGOTIATING A LONG-TERM RELATIONSHIP WITH IRAQ

                              ----------                              


                        THURSDAY, APRIL 10, 2008

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:38 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Feingold, Bill Nelson, Menendez, 
Cardin, Casey, Webb, Lugar, Coleman, Voinovich, Murkowski, and 
Isakson.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    The Chairman. The hearing will come to order. I apologize 
for keeping my colleagues and the witnesses waiting.
    Last November, the President of the United States and Prime 
Minister Maliki of Iraq signed a Declaration of Principles, 
which they--or, what they referred to as a Declaration of 
Principles, which set out what is referred to these days, in 
Washington jargon and international jargon, as a framework. 
It's interesting--I don't know--the good news for you all is, 
you have to explain this to other diplomats. The bad news for 
us is, we have to explain it to ordinary, very smart Americans, 
who don't understand the jargon, and it's confusing. So, part 
of what I hope we can do is demystify some of what is being 
discussed here.
    So, the Declaration of Principles set out a framework for 
our countries--that is, Iraq and the United States--to 
negotiate by the end of July of this year, agreements governing 
cooperation in political, economic, and security spheres. And, 
among other things, the Declaration contemplates, ``providing 
security assurances and commitments to the Republic of Iraq to 
deter foreign aggression against Iraq,'' and--that's the end of 
the quote--and supporting Iraq, ``in its efforts to combat all 
terrorist groups,'' including
al-Qaeda, Saddamists, and ``all other outlaw groups, regardless 
of affiliation,'' which means all those folks fighting in Iraq 
and killing each other. So, to average Americans and to slow 
Senators like me, that sends up a--not one red flag, but 25 red 
flags, because I don't know of any time we've ever had a Status 
of Forces Agreement or an agreement not requiring congressional 
approval that says, ``Not only are we going to talk to you and 
consult with you when it comes to whether or not you're going 
to be attacked from outside, but we're going to consult with 
you--the government and--on anything that may happen to you 
inside,'' when, in fact, we don't know what the hell the 
government is--heck the government is inside.
    We just witnessed the ``government,'' Mr. Maliki, a Shia, 
the Dawa party, engaging in a--I'm not making a judgment, but 
engaging in using force against another Shia group that helped 
put him in office, the Sadr operation, along with--you know, so 
it gets pretty complicated for average Americans and average 
Senators.
    So, we're going to hear, today, about these two agreements 
that the administration's negotiating with Iraq which were 
anticipated in the November declaration.
    On Tuesday, Ambassador Crocker told us that these 
agreements would set forth a vision--that was his phrase--of 
our bilateral relationship with Iraq. One of the problems is, 
you're about to set forth a vision of an administration that is 
not shared by many other people. We're likely to have a--we're 
going to have a new President, who has an even shot. It may 
be--of the three people competing, the vision this 
administration shares for Iraq is clearly not one shared by two 
of the three, and the third--may or may not share the vision. I 
suspect he might.
    One agreement is a Strategic Framework Agreement that will 
include the economic, political, and security issues outlined 
in the Declaration of Principles, and that document, I think, 
might be better titled ``What the United States Will Do for 
Iraq,'' because it consists mostly of a series of promises that 
flow in one direction, promises by the United States to a 
sectarian government that has, thus far, failed to reach any 
political compromises necessary to have a stable country.
    Now, whether they're binding or not, if I look at this--and 
excuse me for speaking not in diplo-speak or in foreign-policy 
terms, but like, I think, normal people look at these things--
here we are, the reason why we're not going to continue the 
U.N. umbrella that allows us to be where we are now and extend 
it, is the Iraqis said, ``Hey, look, we're not an occupied 
country, we're a sovereign country, we're going to deal with 
ourselves.'' The reason why we're not just doing a straight 
Status of Forces Agreement--as I said, ``You want a Status of 
Forces Agreement, we want some promises. We want something in 
return. And what you all seem to be saying to us''--and this 
is--I just want to put this in the framework, I may be wrong, 
speaking of frameworks--``You all are coming to us and saying, 
`Well, we're going to make commitments' '' that are not binding 
to them, but in Iraq, they think we mean it. It may not be 
binding. We're binding you to come up and get a treaty. But, in 
Iraq, when we say, ``We'll do the following things,'' the Iraqi 
people and the Parliament we're going to try to sell them on 
is, ``We're going to them,'' because if--otherwise, we wouldn't 
be having this discussion, we wouldn't be trying to have a 
strategic agreement with Iraq at this moment, were it not for 
the Iraqis demanding something more for our continued presence, 
and an agreement relative to our forces in Iraq. I just want to 
put this in context, at least as I understand it.
    The second agreement is what officials call standard Status 
of Forces Agreement which will govern the presence of U.S. 
forces in Iraq, including their entry into the country and the 
immunities to be granted to our forces under Iraqi law. But, 
unlike most SOFAs, as they're referred to, unlike most Status 
of Forces Agreements, it will permit U.S. forces, for the 
purposes of Iraqi law, to engage in combat operations and 
detain insurgents; put another way, detain people we conclude 
are bad guys.
    Now, no other Status of Forces Agreements that I'm aware of 
allows us the ability--and I think we should have--if we're 
going to be there, we should have this authority, though I'm 
speaking for myself, but it is unusual. I can't think of any 
agreement, of the 80 or 90 or so we have, where we have--an 
American military commander commanding forces under a Status of 
Forces Agreement in another country can say, ``By the way, 
there are some bad guys over there. Let's go get them.'' I 
don't think there's any, but I'll be happy to hear--to be 
corrected, if that's the case.
    So, unlike most other of these agreements--and there may be 
some--we're going to ask to be able to continue to engage in 
combat operations and detain people that the U.N. mandate 
allows us to do under our control.
    In February, Secretaries Rice and Gates made clear that, 
despite the unambiguous reference to ``security commitments''--
that's the phrase--security commitments in the declaration, 
these agreements would not include a legally binding security 
commitment to defend Iraqis, if attacked, or--or to defend the 
government against other militia groups within this country and 
what--whether we call it a civil war or not, you know, 
competing interests for control of Iraq. And I welcome that 
clarification, but it obscures a critical point: The likelihood 
that the United States will promise some response if Iraq is 
threatened or attacked--often called a ``security assurance'' 
or a ``security arrangement''--it will likely create the 
perception, at least, in Iraq, that the United States--and, I 
would argue, in the region--that the United States would come 
to Iraq's rescue if it's threatened to be attacked. Next 
President may not want to do that. Next President may say, 
``I'm not buying into that deal. That's not my vision. I'm no 
piece of that vision.''
    It also ignores the further startling pledge in the 
declaration, to support the Iraqi Government in its battle 
with, ``all other outlaw groups.'' So, I assume that means any 
group that is at odds with the Prime Minister--``the 
government''--is an outlaw group. And that's a potentially 
expansive commitment to take sides in an Iraqi civil war.
    The key question before this committee, in my view, is 
whether either agreement should be approved by the Congress, 
either as a treaty, approved by two-thirds of the Senate, or as 
a congressional-executive agreement approved by both houses. It 
is a fact that security arrangements with several countries 
were made without explicit congressional or Senate approval, 
but not all security arrangements are created equal.
    Our present military commitment in Iraq, in the context--
you can't discuss this other than the context in which it's 
in--the context in which this agreement would be made and 
concluded are important factors in evaluating, in my view, 
whether congressional approval is required. Moreover, past 
practice is not a reason to bypass Congress, nor can it answer 
the question of the President's authority, as the Supreme Court 
reminded us when it struck down dozens of statutes providing 
for a legislative veto in the landmark case INS v. Chadha.
    This committee has long been concerned with unilateral 
efforts of the executive branch to bind the Nation. In 1967, 
the committee held a series of hearings that led to Senate 
approval of the National Commitments Resolution, which states 
that a national commitment by the United States can only 
result, ``from affirmative action taken by the executive and 
the legislative branch of the United States by means of a 
treaty, statute, or concurrent resolution in both Houses of 
Congress specific to providing for such commitment.''
    In its report on the resolution, the committee expressed 
concern that some foreign engagements, such as our base 
arrangements in Spain, form a kind of quasi-commitment 
unspecified as to the exact import, but like buds in 
springtime, ready under the right climatic conditions to burst 
into full bloom. I'm continuing to quote, ``In practice, the 
very fact of our physical presence in Spain constitutes a 
quasi-commitment to the defense of the Franco regime, possibly 
even against internal disruptions.''
    In 1970, a special subcommittee of this committee engaged 
in the study of security arrangements and commitments abroad. 
It described the practice of creeping commitments--that's the 
phrase, ``creeping commitments''--and observed that, ``Overseas 
bases, the presence of elements of U.S. Armed Forces, joint 
planning, joint exercises, or extensive military assistance 
programs represent to host governments more valid assurances of 
U.S. commitment than any treaty or executive agreement.''
    The Constitution gives Congress the power to authorize the 
use of force, the power to raise and support the military, and 
the power of the purse, and it gives the Senate the power to 
approve treaties. The President, as Commander in Chief and 
Chief Diplomat, can direct forces in war, once authorized, and 
negotiate and sign treaties. This division of power was 
intentional, and, among other things, was designed to prevent 
one person from making national commitments that could result 
in taking the country to war. I've often stated that no foreign 
policy could be sustained in the United States of America, no 
matter how enlightened, no matter how brilliant the vision, 
without the informed--the informed consent of the American 
people ahead of time; basically, without them knowing what 
they're getting into. That old expression of Vandenberg's, 
``You want me in at the landing, I've got to be in on the 
takeoff.'' I think it was Vandenberg.
    Five years ago, President Bush went to war in Iraq without 
gaining that consent. He did so by overstating the intelligence 
and understating the difficulty, cost, duration, and mission. 
He had a legal basis, but he didn't get the informed consent 
from the American people, and we're seeing the consequence now. 
With just 9 months left in his term, the President is on a 
course to commit the Nation to a new phase of a long war in 
Iraq, and, thereby, bind--at least politically and 
internationally, perceptively--bind his successors to his--what 
I consider to be a failed policy. Once again he appears poised 
to do so, without the informed consent of the American people, 
by rushing to conclude long-term agreements with the Iraqis 
without adequate public debate and without a voice of the 
people's representatives in Congress. Instead of giving us a 
strategy to end the war without leaving chaos behind--this is 
purely me, I do not associate anyone else, I do not speak for 
my party in this regard, I'm not speaking for the Presidential 
candidates on the Democratic side either--but, from my 
perspective, he's--instead of giving us a strategy to end the 
war without leaving chaos behind, the President has made it 
clear that he intends to pass on the problem to his successor, 
and, by these agreements, to make it harder--harder, not 
easier--for a successor to change course.
    The President may have the power to initiate these talks, 
but I think it's a mistake for him to do so. The situation in 
Iraq can hardly be described as normal, and the government in 
Baghdad is far from established and reliable, even in the eyes 
of the Iraqi people. That is a very shaky edifice for building 
a long-term relationship.
    Instead, I believe the President should devote his 
energies--notwithstanding what he legally may be able to do, I 
think he should devote his energies to working with Iraq and 
its neighbors on a diplomatic surge, I think, to help 
developing a lasting political settlement and provide the 
foundation for a stable Iraq, and he should defer discussion of 
such long-term agreements to his successor.
    But, the President persists in this course. And if he does, 
the Congress will insist on its role in approving or 
disapproving these agreements.
    I conclude--before I yield to the chairman--by saying I 
believe that the President would be well suited, the country 
would be better off, there would be clear and more precise 
understanding on the part of both the Iraqis, as to what we're 
promising, and on the part of the American people, as to what 
they're committing to, for him to negotiate a Status of Forces 
Agreement, period. A Status of Forces Agreement, period. And--
but, that's my view.
    We're going to get a chance--and I genuinely--and I mean 
this sincerely--and I'm anxious to hear what the administration 
has to say on this. And they're going to be followed by a panel 
of witnesses who have varying degrees of difference--legal 
scholars--on what is required by the President, what is 
required by the Congress. And we're anxious to hear it.
    With that, let me yield to Chairman Lugar.

 OPENING STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM 
                            INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman.
    I join you in thanking our witnesses for joining us today 
to discuss the legal framework for our presence in Iraq. 
Although the issue may seem technical, it is highly 
consequential, both for United States policy and for the 
welfare of our soldiers and diplomats.
    American military and civilian personnel in Iraq and the 
other members of the multinational coalition have worked under 
a series of Chapter VII United Nations Security Council 
resolutions, the latest being UNSCR 1790, adopted on December 
18, 2007. This Chapter VII resolution authorizes the presence 
of the Multi-National Force in Iraq until December 31, 2008. It 
notes the requests made by Prime Minister Maliki in his letter 
of December 10, 2007, which is part of the resolution.
    Prime Minister Maliki declares that, ``The Government of 
Iraq considers this to be its final request to the Security 
Council for the extension of the mandate; and expects, in the 
future, that the Security Council will be able to deal with the 
situation in Iraq without the need for action under Chapter VII 
of the Charter of the United Nations.''
    Chapter VII actions give a U.N. force internationally 
recognized authority to use deadly force if necessary without 
having to ask the permission of the host nation. It's 
distinguished from Chapter VI missions--such as those in Cyprus 
and Lebanon--that require the consent of the host government.
    The Multi-National Force in Iraq also operates under an 
order issued by the Coalition Provisional Authority in 2003. 
CPA Order Number 17, as it is called, ensures that our 
personnel will not be subject to Iraqi legal proceedings. This 
protective legal umbrella will expire when the mandate for the 
Multi-National Force expires at the end of this calendar year.
    I lay out these points, because they make clear the 
technical reasons for our hearing today. Our presence in Iraq 
must be governed by international law or a bilateral agreement, 
and our military and diplomatic personnel must have appropriate 
legal protections.
    Transitioning to a bilateral agreement can deliver benefits 
with respect to our relationship with Iraq. Such an agreement 
would be a tangible expression of Iraqi sovereignty, it would 
provide a predictable legal framework for both sides. 
Negotiations on such an agreement also have the potential to 
enhance United States leverage in our dealings with the Iraqi 
Government.
    Last summer, Senator Warner and I proposed an amendment to 
the Defense Authorization bill. Among the elements of that 
amendment was an acknowledgment that the rationalization for 
the authorization to use force, passed in 2002, is obsolete and 
in need of revision. Many of the conditions and motives from 6 
years ago no longer exist or are irrelevant to the current 
situation. The amendment stated an expectation that the 
President would send to Congress a new rationale for the 
authorization. Our amendment also included a requirement that 
the administration, ``initiate negotiations with the Government 
of Iraq on a Status of Forces Agreement, with the goal to 
complete work not later than 120 days after enactment of this 
Act.''
    The administration has told our committee that there are 
two agreements being negotiated in parallel. The first is a 
Status of Forces Agreement, which prescribes how criminal 
jurisdiction over our troops and claims against activities by 
our military personnel will be handled. The second agreement is 
a Strategic Framework Agreement that addresses broader issues 
in the United States-Iraqi strategic relationship. Clearly such 
agreements have the potential to be extremely consequential for 
the future of American activities in Iraq.
    On Tuesday, Ambassador Crocker testified that the 
agreements being negotiated, ``will not establish permanent 
bases in Iraq, and we anticipate that it will expressly 
foreswear them. The agreement will not specify troop levels, 
and it will not tie the hands of the next administration. Our 
aim is to ensure the next President arrives in office with a 
stable foundation upon which to base policy decisions, and that 
is precisely what this agreement will do. Congress will remain 
fully informed as these negotiations proceed in the coming 
weeks and months.''
    Although this is reassuring, Congress has legitimate 
concerns about commitments or understandings that might be made 
in these agreements, and the subjects covered in a Strategic 
Framework Agreement may directly or indirectly affect how and 
when American forces would be used in Iraq in the future.
    We know that Iraq presents an extraordinarily complex 
environment for United States troops who might be drawn into 
future scenarios related to ethnic strife, competing militias, 
internal territorial disputes, terrorist attacks, foreign 
incursions, or even coup attempts. The complexity of these 
legal issues is not a reason to avoid talks with the Iraqis, 
but as these negotiations go forward it is essential that the 
administration be fully transparent about their intentions and 
the progress of their deliberations.
    We are 7 months from a Presidential election. Even before 
that, our mission in Iraq may well evolve, based on conditions 
on the ground, Iraqi political developments, and concerns about 
the strains on the American military. Congress and the American 
people should be thoroughly apprised of the details of any 
agreement related to the future of American involvement in 
Iraq. Therefore, I thank the administration for the briefings 
that our committee has received, thus far. We will appreciate 
very much the testimony we hear today.
    I thank you, Mr. Chairman.
    The Chairman. Thank you.
    And, again, I welcome our witnesses.
    Ambassador David Satterfield, the Senior Advisor to the 
Secretary of State and Coordinator for Iraqi Policy, career 
Foreign Policy Officer with significant credentials. He spent 
most of his career dealing with the Middle East, serving as 
Deputy Chief of Mission in Baghdad, Principal Deputy Assistant 
Secretary for the Bureau of Near East Affairs, and Ambassador 
to Lebanon--all cushy jobs. [Laughter.]
    And Mary Beth Long is the Assistant Secretary of Defense 
for International Security Affairs. She's previously served as 
Deputy Assistant Secretary of Defense for Counternarcotics and 
for the Central Intelligence Agency, and has briefed us before, 
both in closed session and open, and it's a delight to have her 
here. And I thank you for being here, Madam Secretary.
    And Joan Donoghue is a Principal Deputy Legal Advisor for 
the Department of State. She's previously served as Deputy 
General Counsel for the Department of Treasury. Probably happy 
to be with State and not Treasury right now, in light what--all 
that's going on. I'm joking. [Laughter.]
    But, thank you all for being here. And, as I understand it, 
both Assistant Secretary Long and Ambassador Satterfield are 
going to testify.
    We'll begin with you, Mr. Ambassador.

  STATEMENT OF HON. DAVID SATTERFIELD, SENIOR ADVISOR TO THE 
  SECRETARY OF STATE AND COORDINATOR FOR IRAQ, DEPARTMENT OF 
STATE, WASHINGTON, DC; ACCOMPANIED BY JOAN DONOGHUE, PRINCIPAL 
   DEPUTY LEGAL ADVISOR, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Satterfield. Thank you very much, Mr. Chairman.
    And I would ask for concurrence that my prepared remarks be 
entered into the record.
    The Chairman. They will be.
    Ambassador Satterfield. Mr. Chairman, Senator Lugar, 
members of the committee, thank you for the opportunity to 
appear today to discuss the U.S. Government's intent and 
purpose, as well as progress toward developing a basic 
framework for normalized relations with the Iraqi Government, 
which would include a Status of Forces Agreement.
    Our overarching goal in Iraq is to help the Iraqi people 
establish their country as a stable, democratic nation with an 
effective sovereign government that can meet its people's needs 
and play a positive role in the region and in the International 
Community. There is healthy debate about the future presence, 
composition, and role of U.S. forces in Iraq. However, it is 
clear that U.S. forces will need to operate in Iraq beyond the 
end of this year.
    The Government of Iraq has expressed its intent that the 
U.N. Chapter VII mandate expire at the end of this year, and 
not be renewed. The United States and the U.N. Security Council 
support this goal. It's therefore imperative that the United 
States negotiate with the Iraqi Government an agreement that 
would provide a post-Chapter VII framework applicable to U.S. 
forces, including Iraqi consent to the presence and operation 
of those forces and the protections necessary for our troops to 
continue to operate in Iraq.
    Such an agreement is similar to many SOFAs we have across 
the world. This SOFA is indeed unique, in that it also takes 
into account the special circumstances and requirements for our 
forces in Iraq; in particular, in providing for consent by the 
Government of Iraq to the conduct of military operations and 
associated detainee operations.
    In addition to a Status of Forces Agreement, we intend to 
establish a strategic framework for a strong, forward-looking 
relationship with Iraq, a relationship that reflects our shared 
political, economic, cultural, and security interests. Such a 
strategic framework would broadly address the topics outlined 
in the Declaration of Principles signed by the President and 
Prime Minister Maliki in November 2007.
    Both the Status of Forces Agreement and the Strategic 
Framework come at the urging of, and with explicit support 
from, the Iraqi Government and moderate political forces from 
across the spectrum of Iraq's ethnic, religious, and political 
communities and parties. Together, they seek an accord that 
both affirms Iraqi sovereignty and continues to permit United 
States and coalition forces to assist in addressing the threat 
posed by extremists and outside actors who seek power through 
violence and terror.
    On the U.S. side, Ambassador Crocker will be in the lead, 
and he is assisted by an interagency team of experts charged 
with negotiating the details of the Status of Forces Agreement. 
The Iraqis have also set up a broadly representative and 
technically capable team, a team that represents, if you will, 
a national decision on their part. And together we are in the 
initial stages now of engaging and clarifying positions on key 
issues.
    The Status of Forces Agreement will set the basic 
parameters for the U.S. military presence in Iraq, including 
the appropriate necessary consent from the Government of Iraq 
and protections necessary for our troops to operate 
effectively. These provisions are vital for our military. We 
owe it to our forces in Iraq to obtain for them the protections 
they enjoy elsewhere in the world.
    The Strategic Framework and the Status of Forces Agreement 
will not tie the hands of the next President. They will ensure 
that every policy option remains on the table. As for the size 
of the United States presence in Iraq, the nature of our 
operations in Iraq, the Status of Forces Agreement and the 
Strategic Framework will do nothing to commit or limit the 
discretion of this President or the next President to make 
those important decisions.
    Neither the Framework nor the Status of Forces Agreement 
will include a binding commitment to defend Iraq or any other 
security commitments that would warrant Senate advice and 
consent.
    I want to be clear. They will not establish permanent bases 
in Iraq--indeed, the agreements will be explicit on this 
point--nor will they specify the number of forces or the role 
of forces to be stationed in that country.
    In keeping with past practice, our intent is to conclude 
the Status of Forces Agreement as an executive agreement, 
rather than a treaty. We intend to consult, as the Secretaries 
of Defense and State and we have pledged, with the Congress 
throughout this entire process. We are committed to a fully 
transparent process, and we understand the importance of such 
engagement.
    Background briefings by senior administration officials, 
including this panel, have already begun. Ambassador Crocker, 
our lead negotiator, testified before both the House and the 
Senate this week, as you know. And, as with other negotiations, 
I must make clear, we will not be publicly discussing our 
negotiating positions, but we will ensure Members of the 
Congress are kept fully informed.
    Mr. Chairman, members, the United States has enduring 
national security interests in Iraq; 2008 is a year of critical 
transition, both for the United States and for Iraq. Our 
primary objective is to build a sustainable foundation for 
success in promoting U.S. interests. We are committed to doing 
everything we can to ensure that the situation in Iraq 
continues to stabilize and that the next administration has 
maximum flexibility to consider and to adopt its own policies 
to conditions and circumstances on the ground. This is 
precisely what the agreements we seek with Iraq must and will 
achieve.
    Thank you.
    [The prepared statement of Ambassador Satterfield follows:]

 Prepared Statement of Ambassador David M. Satterfield, Senior Advisor 
   to the Secretary of State and Coordinator for Iraq, Department of 
                         State, Washington, DC

    Chairman Biden, Ranking Member Lugar, members of the committee, 
thank you for the opportunity to appear before you today to discuss the 
U.S. Government's progress toward developing a basic framework for 
normalized relations with the Iraqi Government, which would include 
what is known as a Status of Forces Agreement.
    Our overarching goal in Iraq is to help the Iraqi people establish 
their country as a stable democratic nation, with an effective 
sovereign government that can meet its people's needs and play a 
positive role in the international system. Our efforts are now paying 
off. Not only have Iraq's army and police played an increasing role in 
dramatically improving security over the past year, but also Iraq's 
democratically elected government is increasingly providing services 
for the Iraqi people and building relationships with other nations to 
combat regional instability. More and more, the Iraqis are taking 
greater control of their own destiny, and they desire a more normal 
relationship with the United States.
    There is healthy debate about the future presence and composition 
of U.S. forces in Iraq. However, it is clear that U.S. forces will need 
to operate in Iraq beyond the end of this year. For nearly 5 years, the 
presence in Iraq of the United States and our coalition partners has 
been authorized by United Nations resolutions. The Government of Iraq 
has expressed its strong desire that the U.N. Chapter VII mandate 
expire at the end of this year. The U.S. and the U.N. Security Council 
support this goal. It is therefore imperative that the United States 
negotiate with the Iraqi Government an agreement that would provide a 
post-Chapter VII framework applicable to U.S. forces, including Iraqi 
consent to the presence and operation of our forces and the protections 
necessary for our troops to continue to operate in Iraq. This agreement 
is similar to the many status of forces agreements (SOFAs) we have 
across the world, which address such matters as jurisdiction over U.S. 
forces; the movement of vehicles, vessels, and aircraft; nontaxation of 
U.S. activities and the ability of U.S. forces to use host-government 
facilities. The SOFA is also unique in that it also takes into account 
the particular circumstances and requirements for our forces in Iraq, 
in particular, by providing for consent by the Government of Iraq to 
the conduct of military operations. Neither we nor the Iraqis intend 
for this to be a permanent provision of the SOFA.
    In addition to a status of forces agreement, we intend to establish 
a framework for a strong relationship with Iraq, reflecting our shared 
political, economic, cultural, and security interests. This strategic 
framework will broadly address the topics outlined in the Declaration 
of Principles signed by President Bush and Prime Minister Maliki on 
November 26, 2007. Both the SOFA and the strategic framework, which 
will build upon the improving security in Iraq and the increased 
capabilities of the Iraqi Government, come at the urging of the Iraqi 
Government and moderate political forces from across the spectrum of 
Iraq's ethnic, religious, and political communities. Together, they 
seek an accord that both affirms Iraqi sovereignty and continues to 
permit U.S. and coalition forces to assist in restraining extremists 
and outside actors who seek power through violence and terror. 
Strengthening those moderate political voices is vital to Iraq's long-
term stability and regional security. And it is vital to our national 
security that they succeed.
    On the U.S. side, Ambassador Crocker is the lead strategist, and he 
is assisted by an interagency team of subject-matter experts charged 
with negotiating the details of the SOFA. The Iraqis also have set up a 
broadly representative and technically capable team, and, together, we 
are in the initial stages of engaging and clarifying our positions on 
key issues.
    The status of forces agreement will set the basic legal parameters 
for the U.S. military presence in Iraq, including the appropriate 
consent from the Government of Iraq and the protections essential for 
our troops to operate effectively. These provisions are vital for our 
military, and we owe it to our troops in Iraq to obtain for them the 
protections they have elsewhere in the world.
    Far from constricting the policy options available to the next 
President, the SOFA and strategic framework will ensure that every 
policy option remains on the table. These options include a range of 
missions that the next administration may wish to pursue, such as 
helping the Iraqi Government fight al-Qaeda, develop its security 
forces, and stop the flow of lethal training and aid from outside Iraq. 
As for the size of the U.S. presence in Iraq, the SOFA and the 
strategic framework will do nothing to limit the discretion of this 
President--or the next President--to make that important decision. 
Neither the framework nor the SOFA will include a binding commitment to 
defend Iraq or any other security commitments that would warrant Senate 
advice and consent. The SOFA, like all of our other bilateral SOFAs, 
will not contain provisions that govern the status for foreign forces 
in the United States and thus will differ from the NATO SOFA, which was 
concluded as a treaty because it does contain such reciprocal 
provisions. Also, let me be clear; the SOFA and strategic framework 
will not establish permanent bases in Iraq or specify the number of 
American troops to be stationed there.
    In keeping with past practice, our intent is to conclude the SOFA 
as an executive agreement, rather than a treaty subject to Senate 
approval. We will continue to consult Congress throughout the entire 
process as negotiations proceed in the coming months. Background 
briefings by senior administration officials have already begun, and 
Ambassador Ryan Crocker, our lead negotiator, testified before both the 
House and the Senate this week. As with other negotiations, we will not 
publicly discuss our negotiating positions on key issues. But we will 
ensure that Members of Congress are kept fully informed.
    A bilateral security agreement with Iraq has long been noted as a 
necessary milestone in our relationship by bipartisan commissions and 
by leading Members of Congress from both political parties. The 
Independent Commission on the Security Forces of Iraq, chaired by GEN 
James L. Jones, the former Marine Corps Commandant and NATO Commander, 
recommended negotiating a bilateral agreement. This echoed a call from 
a diverse group of senior Senators, including Carl Levin, John Warner, 
and Richard Lugar. The Baker-Hamilton Iraq Study Group similarly 
advocated a series of longer term missions that would require agreement 
with the Iraqi Government.
    The United States has enduring national interests in Iraq--2008 is 
a year of critical transition, both for the United States and Iraq. 
Next year will bring new Iraqi national elections and new tests for 
Iraqi Security Forces who are slated to assume the lead in security 
efforts in all of their country. Our primary objective now is to build 
a sustainable foundation for success. We are committed to doing 
everything we can to ensure that the situation in Iraq continues to 
stabilize and that the next administration has maximum flexibility to 
adapt its own policies to conditions and circumstances on the ground. 
This is precisely what an agreement with Iraq must, and will, achieve.

    The Chairman. Thank you very much.
    Madam Secretary.

   STATEMENT OF HON. MARY BETH LONG, ASSISTANT SECRETARY OF 
   DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS, DEPARTMENT OF 
                    DEFENSE, WASHINGTON, DC

    Secretary Long. Thank you, Mr. Chairman.
    I'd like to start out by thanking this body and its members 
for your continued support of our men and women in uniform and 
to the Department of Defense. Thank you, again, for everything 
that you do for us.
    The Department of Defense, of course, has a strong interest 
in not only achieving the Strategic Framework that Ambassador 
Satterfield will speak to you about, but, as well, the Status 
of Forces Agreement that we're here to talk about today. This 
latter document, of course, provides the protections and the 
authorities for the United States military, its civilian 
personnel, and the contractors supporting for them to operate, 
and continue to operate, in Iraq. It is, as a matter of course, 
an essential document in transitioning the institutional 
relationship between our countries in a military way.
    As all of you are aware, on January 1, 2009, the day 
following the expiration of the current United Nations UNSCR 
resolution, our men and women in uniform, as well as our 
coalition partners, will need an international authority under 
which to maintain their continued operations in Iraq. The 
United States is very interested, in addition to the SOFA and 
arranging this for our troops, in providing a robust coalition 
presence in Iraq well into 2009 and beyond.
    As we move ahead in our negotiations with Iraq, I would 
like to join Ambassador Satterfield in guaranteeing and 
assuring you, we're committed to a transparent and cooperative 
process with the Members of this body, as well as the other 
legislative body.
    And, with that, Mr. Chairman, I stand ready for your 
questions.
    Thank you.
    The Chairman. Thank you very much.
    Maybe we'll start with 7-minute rounds. Let me begin.
    I don't think there's been many times when I've taken issue 
with a position taken by Chairman Lugar, and he points to the 
need for U.S. leverage, in his opening statement. I would think 
we're at the maximum point of U.S. leverage we'll ever be, at 
this moment. If we don't have leverage now over this 
government, then we're in real trouble with the decision having 
to make about--we have 140,000 troops there, and more than that 
now. If that doesn't constitute leverage, I don't know what 
does.
    But, anyway--and, again, I'm going to try to--I'm going to 
try to pursue this so that, I think, that my constituency can 
understand what we're talking about here.
    And let me begin with the last statement, your concluding 
point, Mr. Ambassador. You say, ``We have enduring national 
interests in Iraq.'' What are they?
    Ambassador Satterfield. Senator, we believe strongly that, 
both in and through Iraq, the future of United States interests 
in a stable, secure Middle East, in an Iraq and a broader 
region which is fully prepared and able to confront the 
challenge posed by extremism, whether al-Qaeda's terror or 
Iran's expansionist, hegemonistic ambitions, is facilitated, is 
supported through what happens in Iraq. This is not solely 
about Iraq or the future of that country, although that is an 
important issue. It is, more broadly, about the price and the 
advantages of failure and success in making of Iraq a stable 
state, a state that is able to assist in our, and in regional, 
efforts to confront the extremism, the terror, and Iranian 
ambitions, of which I spoke. Those are our fundamental 
interests.
    The Chairman. Now, would you acknowledge that it's possible 
that two of the three Presidential candidates don't share that 
vision? There are those--I'm not speaking for either candidate, 
but it may very well be, the next President does not believe 
that Iran is seeking hegemony in the region and that Iran may 
very well be worse off with an Iraq in disarray. You would 
acknowledge that's a possibility, wouldn't you?
    Ambassador Satterfield. Mr. Chairman, I speak on behalf of 
this administration.
    The Chairman. Right. That's the point I want to make. You 
speak in behalf of ``this'' administration, whose views are not 
shared by two of the three potential next Presidents. And we're 
about to codify, we're about to lay out for the whole world to 
see, this President's vision of our rationale to be in Iraq. I 
think that, as they say, overmakes my point.
    You are speaking, as you should, for this President. You've 
laid out two premises that there is significant disagreement on 
with the competing parties' candidates. One, that the fight 
against terrorism resides in Iraq--that is not a view shared 
by--they acknowledge terrorism exists, but it is not a view 
shared by a lot of the witnesses that have appeared before us 
in the past. Witnesses appeared before us--very confident women 
and men of very respected backgrounds have said that if we 
leave Iraq, there's no rationale for al-Qaeda to stay, that the 
real war against terrorism is on the Pakistan/Afghan border.
    I'm not making the case who's right or who's wrong, but I'm 
making the case, at the front end of this, you have a vision 
that--representing the President--that is not a vision at least 
wholly shared by two of the candidates who may very well--at 
least based on polling data, have an even chance of being the 
next President.
    So, what in the heck are we doing? Forget the legalities of 
this. Just think of the practicalities. Just like big nations 
can't bluff, big nations can't make implied promises that you 
have a pretty good idea the next guy coming along may not--or 
woman coming along--may not be committed to. This is folly. 
This is a serious, serious mistake, in terms of the interests 
of the United States of America. Forget the constitutional 
requirements. Forget the precedents.
    Well, let me ask you another question, if I may. What--as 
you point out, you're not going to tie the hands of the next 
President of the United States of America. Yet, the security 
arrangement envisions, at a minimum, we will consider 
protecting the government--because that's what we're talking 
about now, we're going to have to deal with the Government in 
Iraq--the government against threats, both internal and 
external.
    What would happen if, tomorrow, the Maliki government 
decided that The Awakening was a threat--I predict, to my 
colleagues, that may cross his mind--and decides that he is 
going to move with Iraqi forces, primarily Shia, against an 
element of The Awakening, the Sunnis, in a remote part of Anbar 
province, gets tied down, just like he did in Basra? What is 
the expectation, do you think, of the Government of Iraq? That 
would use, as we did in Basra, helicopters, we would use 
intelligence data, we would use communications, we would use--
you know, we would coordinate with them? I would expect that 
would be the expectation. And then, what happens when the 
United States doesn't? What happens to those forces of ours who 
are sitting on the ground?
    This is a bad idea. What do you think is the notion, here, 
that is contemplated by--let me back up.
    Have we had discussions, to the best of your knowledge, 
with the Maliki government about extending the U.N. mandate for 
3 months?
    Ambassador Satterfield. Mr. Chairman, I led the 
negotiations in Baghdad last December that produced the 
extension for 1 additional year, to December 31 of this year--
--
    The Chairman. That's why I asked the question.
    Ambassador Satterfield [continuing]. Of the Security 
Council resolutions. I participated in the prior 2 years' 
negotiations, as well. I can assure you that, in the course of 
those 3 years of discussions, of negotiations, particularly 
this last one, it became quite clear that the Government of 
Iraq--and this is beyond Prime Minister Maliki--but that the 
political structure of Iraq wished to bring to an end, by 
December 31 of this year, and no later, that Chapter VII 
mandate, based on reasons of sovereignty assertion, as well as 
a national will and a sense of national preparedness.
    In two previous years, in 2005 and 2006, we secured an 
additional extension, based upon our judgment, in consultation 
with the Government of Iraq and its political leadership, that 
that was both a possible goal and a desirable goal. That is not 
our conclusion--was not our conclusion last year.
    The Chairman. You haven't answered my----
    Ambassador Satterfield. We do not believe, Mr. Chairman----
    The Chairman. You haven't answered my question.
    Ambassador Satterfield [continuing]. That this can be----
    The Chairman. With all due respect, has there been a direct 
request, in the last month or so, of the Iraqi Government to 
consider a binding Status of Forces Agreement and an 
extension--an extension of the U.N. mandate for 3 months? They 
are not unaware--I speak with the same principals you speak 
with. I may have spoken to them as many times as you have in my 
close-to-dozen trips to--or 10 or 12, whatever it is--to Iraq, 
whether it's Maliki or whether or not it's the Vice Presidents 
representing each of those constituencies there or--I mean, you 
know, and--all of us have, not just me; we've all spoken to 
them. Has anyone said to them--they know there's an election 
coming up, they know the debate that's going on, they're 
watching this, as well as--I mean, the TVs are turned on for 
this hearing, not because we're important, because they're 
wondering what's going on--has anyone said to them, in the last 
several months, ``Consider extending the mandate for 3 months 
to allow the next administration to work out its relations''?
    I mean, you say the following. You say that we want a 
normalized relationship with the Iraqi Government. There is no 
Iraqi Government that we know is likely to be in place, a year 
from now. They haven't even worked out, under their 
Constitution, the two provisions they're required to work out, 
a law--a regions law, which is written in their Constitution, 
which goes into effect the middle of this month, because 
they've postponed it, kicked it down the road 16 months; that 
expires--I ask my staff for help--I think, mid-April. So, come 
a couple of days from now, any of the--any of the 18 
governorates--they may not--will have the legal authority to 
vote within their governorate to establish a region defining 
its own security arrangements, not in contravention to the 
Constitution, the national Constitution, and defining a number 
of other things. They are able to write a constitution, any one 
of those governorates, just like the constitution of the State 
of Indiana, the constitution of the State of Minnesota. They're 
able to do that. Just like Minnesota has their own State 
Police, they can decide to have their own State Police. Nothing 
done yet.
    We don't know what the shape of this government's going to 
look like. We're having provincial elections that are coming 
up, which most of the witnesses before us said are probably not 
going to take place on time. Hope they do.
    So, the idea we're normalizing relationships with a 
government that is far from normal or normalized--half the 
Cabinet has walked away. There's not a normal Government in 
Iraq.
    My time is up. I've gone 3 minutes beyond it. Almost 4. I 
apologize. But, if you want to respond, you can. I understand 
if you don't want to. But, just understand my frustration here. 
The premise is, there's a normalized government--we're going to 
normalize relations with a government that really doesn't 
thoroughly exist. It is sovereign, but it does not--who are we 
normalizing it with? What is the shape of that government?
    And you point out that the enduring national interest that 
we want to essentially codify--not bindingly, but codify with 
the Iraqis--is one that is not necessarily shared by the next 
President.
    I think you're making a big mistake for our national 
interests, in pushing this without telling the Iraqis--and if 
we don't have leverage now, what are they going to say, ``Go 
home''? Good. Have us go home. Tell us they don't want us 
there. Not a lot of Americans are going to say, ``Oh, no, no, 
no; let's stay when you don't want us.''
    We just heard, for 2 days, from two incredibly competent 
government servants--one military, one civilian; Petraeus and 
Crocker--that the Iraqis really want us to stay. This sure as 
heck would be a good test.
    I yield to my colleague.
    Senator Lugar. Well, thank you very much, Mr. Chairman.
    The chairman has laid out, in some detail, political 
analysis of conditions in the United States, as well as an 
analysis of developments of the Government in Iraq.
    Let me just pursue, for a moment, that proposition, that--
and both are, if not in flux, at least subject to substantial 
changes.
    Now, given that predicament, why have you chosen the 
current path of the presentation of these two agreements? For 
example, the chairman has mentioned, if I gather his argument 
correctly, extending the U.N. Security Council resolution for 
another 3 months. One alternative might have been to approach 
the Security Council for an extension of the next year--that 
is, 2009--on the basis, literally, of these very substantial 
prospective changes in Iraq, quite apart from changes in the 
United States.
    Now, from the standpoint that you described, Ambassador 
Satterfield, as having negotiated the last go-round of this, 
the Iraqis with whom you dealt would find that very 
unsatisfying. As a matter of fact, they have said, ``This is 
it, with 2008, that year extension, and that's it.'' And I 
understand the point of view of those leaders with whom you 
visited, or maybe even some more substantial group of people. 
But, on the other hand, the situation is one in which the 
political changes have to be recognized by the Iraqis, really, 
in their own country, and perhaps they also recognize political 
change that may occur in the United States of America in our 
debate, regardless of which party wins.
    Now, under those circumstances, it would appear that we 
have at least some leverage--speaking of leverage--to indicate 
that, although it may be the preference of the Iraqis, at least 
those in the leadership, to see the Security Council mandate 
come to an end at the end of 2008, in our judgment it really 
won't work out that way.
    And I mention that very candidly, in view of the opposition 
to the proposition of the two agreements, that you must sense 
that it was at least manifest in some comments in the hearings 
with General Petraeus and Ambassador Crocker, and certainly 
have been in the chairman's opening statement and questioning 
of you this morning. But, this is, in essence, is not likely to 
be a laydown hand. Knowing this, that you had a political 
argument in this country, why did you proceed as you have to 
present these two agreements in the form you have presented 
them?
    Ambassador Satterfield. Senator, as you note, the Iraqi 
Government, beyond Prime Minister Maliki, the entire structure 
of the Iraqi political establishment, has made quite clear, in 
growing fashion, but explicitly so in the concluding part of 
last year, they wish this to be the end of the Chapter VII 
mandate. We believe--they certainly believe--that that reflects 
the broadest view of their constituents, because, indeed, they 
have constituents in Iraq. We believe it's an appropriate 
moment, given that Iraqi demand--and that is exactly what it 
is, a demand that the mandate come to a close--it is their 
request which is the requirement, not a U.S. request for 
extension of the Security Council mandate--given their demand 
that it come to an end, we determined that a course which laid 
out both a framework that presented the Status of Forces 
Agreement in context--that is a specific agreement in which the 
Iraqis offer to us authorities, offer to us permissions, offer 
to us protections for our personnel in country--that this would 
be presented by the Iraqis to their people, as we will present 
it here, in the context of a broad and overarching strategic 
partnership and relationship with Iraq and with its people for 
the time to come.
    With respect to the political environment here, this 
administration, as is the case, Senator, with any 
administration, must pursue what it determines to be U.S. 
national interests, as well as the best means of pursuing those 
interests, until the last day, the last hour that it remains in 
office. And we believe these undertakings, the Strategic 
Framework and the Status of Forces Agreement, provide a stable 
platform for the next administration--indeed, for this 
administration in the next months--to look at the situation in 
Iraq, to make judgments about how best to carry forward United 
States interests with the greatest ability to make appropriate 
and thoughtful decisions possible. It does not tie the hands of 
the next President.
    Senator Lugar. Well, let me just follow a little bit 
further on that. And this is not meant to demean, for a moment, 
that argument you presented. But, the context of the argument I 
presented was that this administration surely recognizes the 
argument that we're having here today, and have had a little 
bit before. Taking into account these two agreements, along 
with the testimony we heard from General Petraeus and 
Ambassador Crocker regarding a 45-day pause in the drawdown for 
further consultations we begin to arrive at a more stable 
understanding--at least from the administration's perspective--
for what things may look like as we reach the end of this 
administration and the end of the year, as far as the Iraqis 
are concerned. What the committee is trying to figure out in a 
bipartisan way--and this is difficult in the middle of a 
political campaign--is where does this leave the next 
administration?
    Now, your assertion would be, ``Well, it leaves it with a 
stable situation. You have two agreements. The Iraqis have made 
proposals for security. Whoever the incoming President is, or 
Secretary of State or Defense or so forth, ought to be happy to 
have a lay of the land.'' Maybe so, maybe not. Maybe the 
incoming folks are not at all happy with that situation; as a 
matter of fact, did not really like the particular agreement 
that was fostered, but at least proceeded to make things stable 
for this administration through the rest of the year. And, in 
simply commonsense terms, this is why we're having, it seems to 
me, if not an argument, at least a debate, about an issue that 
otherwise, as you say, would seem very matter-of-fact, that 
we'd finally get the U.N. out of it, turn it into a bilateral 
agreement about Iraq and the United States.
    But, as the chairman has pointed out--and I don't 
necessarily want to get into the detail of how stable I believe 
the Iraqi Government is, how comprehensive, and so forth--but 
we've had, not endless hearings, but a good number, trying to 
describe ``a bottom-up scenario where stability in the 
provinces might somehow ever get to the Green Zone.'' Even 
discussing the Iraqi Government as if it is an entity that is 
definable, that is strong--and so forth--seems to me to be a 
stretch; although diplomatically, I understand your standpoint. 
Nevertheless, as you're dealing in these negotiations, who else 
do you deal with? Do you go to the Green Zone, not out into one 
of the 18 provinces, to try to find and divine the future?
    Let me just, sort of, get back to the thought that it may 
very well be that the administration's point of view is simply 
to try to ride this one through with the two agreements.
    I would hope, in the course of these hearings, and in other 
consultations that you have promised, that as we get into 
details that will not be public today, that there is even some 
degree of give within our own conversations, quite apart from 
that which we might ask of the Iraqis. Because I think the 
chairman's points are well raised. Ultimately, although we 
haven't promised Mr. Maliki what we would do if this force or 
that force came at him, or if somehow the Parliament can't move 
on anything, or if, in fact, corruption or lack of service, or 
the breakdown of the power system, or all these things occur, 
and you can't really cover all those contingencies, and yet all 
of them are very real, given testimony we've already heard 
about the country. So that although the Iraqis may insist that, 
``We are sovereign, we want the U.N. out of there, the U.N. 
Security Council, it's all passe,''--we have some leverage with 
them, I would contend--in fact, quite a bit, in terms of their 
security and their future. And, I think, probably we ought to 
utilize that in the coming weeks as we discuss these 
agreements.
    Ambassador Satterfield. Senator, if I could respond to the 
points that you've made, and a point, a very good point, which 
the chairman made, as well.
    We have very deliberately chosen to negotiate these 
documents, not with a given figure or office, or even with a 
given party or faction. These have to reflect a national 
decision on the part of the Iraqis, has to reflect national 
will, which is why we have very deliberately structured these 
negotiations--insisted on it, in fact, and have had that 
reciprocated by the Iraqi side--in seeing a broad collective, 
reflecting, frankly, the majority of all of the forces in Iraq, 
except those on the extreme margins, which, of course, are a 
different story. The vast majority of Iraqis and their 
political representatives are part of this process because of 
the concerns over what might be the course of different 
governments, different parties taking office through the 
constitutional provisions of Iraq.
    With respect to the issue of, ``Wouldn't it be better to 
simply continue with the Security Council resolution?''--
putting aside the point that the Iraqis themselves have made 
clear to the Council and to us, they don't wish that to be the 
course, we believe that acknowledging, formally, Iraqi 
sovereign status is, itself, a major contributing element to 
stability in the time ahead in Iraq. It has its own intrinsic 
value and merit, in terms of that country's future and in terms 
of how we see that country's future impacting on the region.
    And, finally, a point which the chairman and you both raise 
about, ``What would be the consequences of a decision--a 
request on the part of this or any other Iraqi Government, for 
a particular engagement of U.S. forces?'' The case would be, 
under the Status of Forces Agreement, as is the case today, at 
this moment--any such request would be subject to consultation, 
reflection, and analysis on the part of our leaders, diplomatic 
and military, in Iraq as well as here in Washington, and a 
decision would be taken on that basis, based on our assessment 
of national interest. And we have been extremely clear and 
fully transparent with the Iraqi Government on this issue of 
what consultations mean. It's reflected in sort of the ``web 
and woof'' of everything we do in Iraq today. It will not 
change with these agreements.
    Senator Lugar. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Taking advantage of being chairman, for 30 
seconds here. The difference is, there is no formalized 
agreement guaranteeing the present government's security 
internally. That's the big difference. Or at least implying we 
would do that.
    And I want to make it clear to the witnesses, I don't doubt 
for a minute the veracity of everything you say about these not 
being binding. So, understand I am not in any way questioning 
your assertions about the intentions of the administration, 
relative to not formally binding the next administration. I 
just wanted to make that clear.
    I yield to the Senator from Wisconsin, Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    Thank you all for being here.
    In his appearance before the Senate Armed Services 
Committee this week, Ambassador Crocker was asked about the 
agreement being negotiated with the Iraqi Government and 
whether, ``you envision this after we succeed in this 
conflict.'' Ambassador Crocker responded that he, ``would 
actually envision it as helping us to succeed in the 
conflict.''
    I'd like to confirm that what we are in fact seeking to 
establish a long-term relationship with Iraq, even as the 
fighting continues. Is that correct? Are we--are we--is that 
what we're trying to do? And are there any conditions the 
Government of Iraq must meet before the United States agrees to 
anything, such as achieving national reconciliation?
    Ambassador Satterfield. Senator, we do, indeed, believe, as 
Ambassador Crocker stated, as I have stated, that the 
conclusion of these arrangements, we believe, will contribute 
to stability in Iraq, security in Iraq, and, indeed, to our 
common success--ours and Iraq's. And in terms of 
conditionality, obviously we continue to work with the 
Government of Iraq, as it continues to work on advancing the 
goal of national reconciliation, along with greater assumption 
of its responsibilities on the security side, on the economic 
side.
    Senator Feingold. But, are we trying to establish this 
long-term relationship as the fighting continues?
    Ambassador Satterfield. Well, we are obviously negotiating 
these arrangements now while the fight for a stable and secure 
Iraq continues; yes, sir.
    Senator Feingold. OK. Given the fact that the Maliki 
government with which you're negotiating does not represent a 
true coalition of the main Iraqi political parties, won't this 
agreement have the effect of exacerbating the perception that 
we are taking sides in a civil war, especially since the 
majority of the Iraqi Parliament has called for a timetable for 
the withdrawal of the American troops?
    Ambassador Satterfield. Senator, in fact, we believe the 
Government of Iraq, the Presidency Council, Prime Minister 
Maliki, as the head of the executive branch, do indeed reflect 
the broad range of centrist parties in Iraq. Those parties that 
have excluded themselves from participation in the government 
in whole, the Sadrist Movement, although they do continue to 
participate in the Council of Representatives, represent a 
rather extreme position. Prime Minister Maliki does have the 
participation in his government, and is in active dialog with 
the principal Sunni interlocutor, Vice President Tariq al-
Hashimi. He is very much part of this process. As I said to the 
chairman and Senator Lugar, we have structured this 
negotiation, the Iraqis have structured their negotiating team, 
to reflect all--and I will underscore ``all''--of the major 
political parties in Iraq, ethnic, sectarian parties. They are 
all part, formally, of----
    Senator Feingold. OK, but this is a----
    Ambassador Satterfield [continuing]. This process.
    Senator Feingold [continuing]. Duly elected Parliament. Are 
you not concerned at all that the majority of the Iraqi 
Parliament has called for a timetable for the withdrawal of 
United States troops? Is that not relevant?
    Ambassador Satterfield. Senator, I do not believe that the 
majority of the members of the Iraqi Parliament do not support 
the conclusion of these arrangements, and would not offer their 
support for these arrangements. We believe, quite to the 
contrary, that, indeed, they will enjoy broad popular and broad 
legislative support in Iraq.
    Senator Feingold. Historically, security commitments to 
other countries have only been made in treaties that were 
ratified by the Senate. Now, I understand that you are saying 
that this agreement will not provide any commitments or bind 
future Presidents. I would note that the agreement will not 
bind the Congress either. If the Congress were to enact 
legislation prohibiting enforcement of the agreement, would you 
agree that this statute would be binding and would override the 
executive agreement?
    Ambassador Satterfield. Senator, we do intend to negotiate 
the Status of Forces Agreement as an executive agreement, as is 
the course with virtually all such arrangements that don't 
contain reciprocal or other binding commitments.
    With respect to the speculative question on possible 
legislation, we would have to assess that legislation in its 
context.
    Senator Feingold. If Congress passes a clear law overriding 
the executive agreement, would the law override that agreement, 
in your view, from a matter of law?
    Ms. Donoghue. Senator, as Ambassador Satterfield indicated, 
we would obviously have to look carefully at it, at the time. 
It would certainly present difficult questions for us if we 
were at that, sort of, loggerheads and we would hope that, 
through additional briefings and discussions with you about the 
content of the agreement and the extent to which it provides 
protections for our troops, we wouldn't reach that point.
    Senator Feingold. I would suggest your difficulty is in the 
nature of our Constitution. If we pass a law overriding it, 
that's the law.
    What would your--in your view, have to be in these 
negotiated documents to cause them to rise to the level of 
needing congressional approval?
    Ms. Donoghue. Senator, we haven't done a laundry list of 
the things that ``could'' create a problem, because we simply 
aren't contemplating those things. We've tried to identify some 
of the topics that have arisen in discussions of these 
agreements to try to make clear what we don't intend to cover. 
So, for example, there certainly has been a practice that a 
binding security commitment has been submitted to the Senate. 
We don't intend one of those, and we haven't done thorough 
analysis about whether there's any possible way that we could 
make an argument that we wouldn't have to submit that to the 
Senate.
    Senator Feingold. OK.
    Ambassador Satterfield, you note in your testimony, ``our 
overarching goal in Iraq is to help the Iraqi people establish 
their country as a stable democratic nation, with an effective 
sovereign government that can meet its people's needs and play 
a positive role in the international system.'' Wouldn't this 
objective be better served by establishing the basis for an 
international peacekeeping force, which would be perceived by 
the local population as impartial, unlike the Iraqi perception 
of United States forces?
    Ambassador Satterfield. Well, Senator, that is not the 
intent or goal of the Iraqi Government. It is not something 
that we believe would be a practical or achievable goal, now or 
in the foreseeable future.
    Senator Feingold. During the Iraq hearing, on Tuesday, 
Ambassador Crocker committed to submitting the agreement to the 
Iraqi Parliament for approval. Ambassador Satterfield, do you 
believe that this agreement should be approved by the Iraqi 
Parliament, rather than just being signed by the Prime Minister 
or the Presidency Council?
    Ambassador Satterfield. Senator, we will leave to the Iraqi 
Government decisions on how to proceed with this agreement, in 
accordance with their constitutional requirements.
    Senator Feingold. And do you understand that requirement to 
be submitting to the Iraqi Parliament?
    Ambassador Satterfield. We leave that decision to the Iraqi 
Government.
    Senator Feingold. Then why would Ambassador Crocker have 
committed to submitting the agreement to the Iraqi Parliament?
    Ambassador Satterfield. What Ambassador Crocker said was, 
that was our understanding of what the Iraqi Government 
intended to do with the agreement.
    Senator Feingold. Is that your understanding, as well?
    Ambassador Satterfield. Yes, indeed.
    Senator Feingold. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman.
    First, in terms of Status of Forces Agreement, can you do a 
Status of Forces Agreement and not do the Security Agreement? 
Could you do one without the other?
    Ambassador Satterfield. Senator, we believe, as I noted in 
a prior remark, that presenting the Status of Forces Agreement 
to the Iraqi Parliament, to the Iraqi people, to their 
political leadership, is best done, most successfully done, in 
context. That context is the broad nature of a cooperative 
partnership, strategic relationship that we see as a value both 
to the United States and a value to Iraq and its people as we 
go forward. Now, that kind of broad overarching relationship 
certainly has a security dimension, but it also has economic, 
cultural, technical dimensions to it. This helps the Status of 
Forces Agreement be understood fully in the context of a 
relationship that goes beyond dimensions of security alone.
    Senator Coleman. The challenge that we face--and I would--
and I think the question, by the way, is, In the middle of a 
Presidential election, our political situation, can you put 
politics aside? Can folks of goodwill on both sides of the 
aisle look at this and say--we know there's going to be a new 
President. They may have a different perspective of what our 
enduring national interests are, they may have the same 
perspective. I suspect, whoever the President is is going to 
have some differences and some different perspectives. In 
understanding our own situation, is it possible to--for the 
administration to engage in a dialog with this Congress, with 
Members of Congress, with representatives of candidates, and 
have some kind of commitment that we don't go forward--we can't 
go forward with anything unless we have that solid 
understanding and commitment?
    I think we're fighting about--not ``fighting''--I think 
there's some conflict here that you would think we could avoid. 
The reality is, we're in a Presidential election, and 
leadership's going to change, and we're going to have some--we 
have some long-term interests in Iraq. We're going to--no 
question about that--we have some long-term interests in Iraq. 
And even in this committee, I know--I mean, there is 
disagreement.
    I listened to General Odom the other day. I disagree with 
his perspective about Iran. I don't think--or I don't think 
Israel's going to be safer. I don't think Hamas is going to be 
less emboldened. I don't think Hezbollah is going to be 
quieter. And it--you know, if we're simply somehow out of Iraq, 
that that's going to make Iran a better friend. They're going 
to still do what they're doing, which is undermining security 
in the region.
    All that said and done, I think, in terms of our future 
relationship with Iraq, because of the political environment 
that we're in, it would just make sense that, rather than have 
some of the exchanges we're having, that we--the administration 
says, ``Congress, we're going to work with you, and we're not 
going to go forward unless we have the chairman of the 
committee, the ranking member, the former chairman, sit down 
and we have an understanding that we're comfortable with what's 
being done here. And if we can't get to that, then we have to 
have something else to continue the relationship.'' But, 
otherwise, we're going to engage in this debate, and one side's 
going to say, ``Well, the Iraqi Congress is approving this, but 
we're not approving it.'' It's become a--people are going to be 
making political points over something that I don't think the 
intent is to make political points on.
    The intent is to protect our troops, protect their 
interests. They operate now under a U.N. mandate. That 
mandate's going to end. I have the concern--I certainly agree 
the issue was conditionality--I have some concerns about the 
Iraqis' ability to move forward aggressively on the political 
front, and I think this is an opportunity for us to have some 
conditionality.
    But, rather than a question, my humble suggestion is that, 
if we're going to engage in full conversation, and full 
transparency and full recognition of the political reality, 
that somehow, when we're done with this hearing, that there be 
some conversation with the leadership on both sides of the 
aisle, and say, one, we've got to get Status of Forces 
Agreement. Our folks--troops have to be--there are some basic 
protections they have to have in place, no question about that. 
And I don't think there's much argument about that. But then, 
on the other issue, we recognize that, unless we have that 
understanding, this is going to be--people are going to be 
making political points over something that shouldn't be a 
matter of politics. And I can see the debate, and I can hear 
the debate. We've already heard some of it. And if there's a 
way to avoid that, I think it would be in the best interests of 
this country, the best interests of the administration. I'd 
certainly work closely, Mr. Chairman and Ranking Member, with 
whoever, to see if we can find some common ground here.
    Ambassador Satterfield. Senator, I very much appreciate the 
points that you've made, and we certainly do hope that, through 
a full transparency in briefings, which we can provide in open, 
as well as in other more confidential settings, on the issue of 
strategic framework, we can, indeed, meet the concerns, address 
the concerns which you and many others have expressed about 
this.
    We do believe that the two pieces of this process go 
together, have to go together, that together they advance long-
term, beyond this administration, U.S. national interests. But, 
indeed, we are committed to the kind of exchanges, the kind of 
full transparency you discuss.
    Senator Coleman. Well, then my concern is, rather than get 
to the point where there are going to be some resolutions in 
Congress that are going to attempt to create--tie the hands of 
an administration, create constitutional challenges as to what 
Article I says, versus Article II, of the Constitution, 
executive--or legislative versus executive--that there be a 
very clear understanding that we're not going to go forward 
with a security arrangement unless and until there is full buy-
in from this body. It doesn't have to be a formal treaty, but I 
just think there has to be that recognition. Otherwise, we're 
going to proceed down a very bitter, partisan, political divide 
that is going to be used for scoring points and not protecting 
our troops.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. I think it's a good suggestion.
    I would add, if I could, it's not--the reason why these 
political points are so sharp is, I think everyone would 
acknowledge, the underlying policy differences are so real. 
Sometimes political points are just scored for political 
points. But, the policy differences among the candidates are 
really significantly different, and that's what agitates the--
this whole issue. So, I think it's an interesting suggestion.
    Senator from Florida.
    Senator Bill Nelson. Mr. Chairman, Senator Cardin and 
Senator Casey were here before me, and, as a courtesy, I would 
defer to them.
    The Chairman. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Let me thank my friend from Florida, Senator Nelson, for 
yielding the time.
    First, I want to thank our panel for their service to our 
country--I mean that sincerely--and for their commitment to a 
transparent process in dealing with Congress on these two 
agreements.
    But, I must tell you, I strongly disagree with the way that 
you are proceeding. I don't think it's in the interest of this 
country. I agree completely with the chairman. I find it very 
difficult to understand--and my constituents find it difficult 
to understand--why we could not have a 3-month extention of the 
U.N. resolution set to expire at yearend if only the United 
States made that request to Iraq. I find it unbelievable that 
Iraq would not yield to our recommendation on that point, 
considering the national elections here in the United States. 
And I believe that's the way we should proceed.
    As the chairman has pointed out, there are strong 
differences of opinion in this country with regard to a 
Strategic Framework. There is just a different view by the 
majority of Congress and the American people as to how we 
should proceed in Iraq versus how this administration intends 
to proceed in Iraq.
    So, I must tell you, I just disagree with any effort by 
this administration to enter into an agreement with Iraq 
without the approval of Congress. The administration's 
expressed intent to do so is being interpreted by the people of 
this Nation as an effort to affect the next administration and 
future Congresses. I don't think there's anything you could say 
that would convince me or the people of Maryland--and that's 
people who support and those who oppose the President's plans 
otherwise. There's simply a belief that the President's trying 
to affect the options of the next administration, the next 
President--and the next Congress.
    So, Mr. Ambassador, let me just ask you something about the 
language you have used. Language is important. You know that; 
you're a diplomat. You say that neither the Framework nor the 
Status of Forces Agreement will include a binding commitment to 
defend Iraq. And you've mentioned that word ``binding'' several 
times. All of you have. Would you commit to us that we could 
eliminate that word ``binding,'' that neither agreement will 
include a commitment of any sort in regards to the United 
States defending Iraq?
    Ambassador Satterfield. Senator, this administration 
believes, the President believes, and these arrangements will 
certainly express that view, that the stability and security of 
Iraq is vital to broad, long-term U.S. national security 
interests in and beyond the Middle East. The President 
believes, the administration believes, that assuring--not in 
the form of a binding legal commitment, but assuring the people 
of Iraq and the Government of Iraq that we do believe their 
security is important, that we will act as we believe necessary 
and appropriate to protect and advance that security, that that 
is our policy. That, we think, is important to do.
    Senator Cardin. Well, Mr. Ambassador, that's where we 
disagree. We disagree as to the appropriate manner to make that 
agreement. We do not believe that this administration should 
enter an agreement which will clearly have an effect on U.S. 
military presence in Iraq and will clearly affect the options 
of the next administration or the next Congress. As you know, 
last summer this Congress passed legislation requiring the 
President begin to bring our troops home. The President vetoed 
that bill. So, there's a different view here in Congress. And I 
don't know how you can come before us and say that the 
agreement you are proposing will allow all the options a future 
President and a future Congress might choose to pursue. I look 
at the options that you lay out and I don't see any options 
that outline the drawing down of U.S. troops.
    I just believe that, out of respect for our Constitution 
and the responsibilities that each of us have to the American 
people, that this administration should not be negotiating an 
eleventh-hour agreement. That is just wrong.
    And I am not encouraged by your statements. I think the 
word ``binding'' is somewhat in the eyes of the beholder. I 
have seen the United States--I've seen the State of Maryland--
spend a lot of money, not because they had a ``binding'' 
commitment, but because they thought they had lead people to 
believe they would and that created a moral obligation to do 
so.
    And I don't take comfort from your statement here, that 
``2008 is a year of critical transition, both for the United 
States and Iraq.'' If you were here 1 year ago, you would have 
said 2007 was a year of critical transition. If you were here 2 
years ago, you would have said 2006 is a year of critical 
transition. If you were here in 2005, you would have said 2005 
is a year of critical transition.
    So, yes; I think 2008 will be a year of transition for Iraq 
and the United States. And I don't believe it's appropriate for 
this administration to bind our Nation's options, especially 
without the approval of Congress. I just want you to know that. 
I want you to know that.
    I think you're moving into very dangerous territory.
    I look forward to the open process that you have committed 
to. And I can assure you this will not be the last time you're 
going to hear from us on the negotiations that you're pursuing.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Governor.
    Senator Voinovich. Thank you, Mr. Chairman.
    I'm sorry I missed the other discussion.
    The question I have is this. Iraqis want to let the Chapter 
VII mandate expire in the U.N. Security Council at the end of 
this year. We say we support it. Is there some overwhelming 
feeling on the Security Council that should entertain Iraq's 
request that Chapter VII be allowed to expire? And in light of 
the fact that we have an election coming up here in the United 
States, don't Iraqis understand that this is going to be a 
fairly controversial thing between now and our November 
election? That's No. 1.
    No. 2, the agreement said it would ``take into account 
numerous principles, including the United States supporting the 
Republic of Iraq in defending its democratic system against 
internal and external threats.'' And the chairman of the 
committee mentioned internal threats being perhaps the Sunnis, 
if the central, Shia-dominated government feels threatened. Who 
are the external threats? ``Providing security assurances and 
commitments to the Republic of Iraq to deter foreign aggression 
against Iraq that violates its sovereignty and integrity of its 
territories, waters, or airspace.'' This looks like a real 
commitment from Uncle Sugar, to Iraq.
    And then, in the February 13, 2008, Washington Post article 
by Secretary of State Rice and Secretary of Defense Gates, they 
said, ``In these negotiations, we seek to set the basic 
parameters for the U.S. presence in Iraq, including the 
appropriate authorities and jurisdiction necessary and to 
operate effectively to carry out essential missions, such as 
helping the Iraq Government fight al-Qaeda, develop its 
security forces, and stem the flow of lethal weapons and 
training from Iran. In addition, we seek to establish a basic 
framework for a strong relationship with Iraq, reflecting our 
shared political, economic, cultural, and security interests. 
Nothing to be negotiated will mandate that we continue combat 
missions. Nothing will set troop levels.''
    Well, it seems to me that if you're talking about 
``supporting the Republic of Iraq and defending its democratic 
system against internal and external threats,'' and ``providing 
security assurances and commitments to the Republic of Iraq to 
deter foreign aggression against Iraq that violates its 
sovereignty and the integrity of its territory,'' implicit in 
those statements is a commitment by the United States to 
participate.
    Even though Secretaries Rice and Gates say a Status of 
Forces Agreement (SOFA) will not mandate U.S. participation, 
the United States actually is making commitments in the 
agreement. And I have to say to both you and the administration 
that you aren't going to conclude such an agreement between now 
and the November election.
    In the past, the administration often has not listened to 
the Congress. They basically have said, ``Trust us. We'll take 
care of it. Don't worry about it.'' The fact of the matter is 
that this Congress and this Senate are going to get involved in 
this issue. My best advice to you would be to try to work out 
the Status of Forces Agreement. If I were you, I'd also go to 
the United Nations and say, ``You know what, folks? We've got 
an election coming up. We've got lots of political problems. 
You understand that. You all come from countries some of which 
face similar situations.''
    I think that you ought to consider some other options. 
Instead of spending all this time concentrating on the 
agreement, try to work with members of the Security Council to 
see if Iraq can delay the agreement until after the U.S. 
Presidential election. Proceeding with this agreement now will 
embroil us in controversy, allegations will be made, you name 
it. I mean, that's the reality of this situation. Do you 
understand what you're up against in trying to get this done 
now?
    Ambassador Satterfield. Senator, the two issues that you 
pose, the question of the Security Council--the Security 
Council, in December of last year, welcomed--indeed, the 
members strongly supported the Iraqi request that the Chapter 
VII mandate terminate and not be extended after December 31 of 
this year. That is the formal position of the Security 
Council----
    Senator Voinovich. Well, why doesn't the Security Council 
delay the conclusion of the agreement for 6 months?
    Ambassador Satterfield. Because the Government of Iraq, 
Senator, requested that the mandate be terminated, and because 
the members of the Council, on reflection of the strategic 
interest in seeing a sovereign agreement and all that a 
sovereign agreement entered into by the Government of Iraq with 
the United States or other coalition members would mean for 
security in that country, a goal shared by the Council, 
supported----
    Senator Voinovich. What if you tell the Iraqis that you're 
not going to be able to complete this second agreement between 
now and the end of this administration?
    Ambassador Satterfield. Senator, with all respect, that is 
not the position of this administration.
    Secretary Long. Senator, I think there--I could provide an 
illuminating point that might be helpful to the point that you 
raised.
    One of the things that's often overlooked about the 
Security Council resolution is that, by the nature of that 
resolution, it may be revoked by Iraq, as the requestor, at any 
time. So, on the issue of the protections of our forces in 
Iraq, we could put ourselves, very possibly, in the position, 
by going around the Iraqi request or by not recognizing the 
reality that it may be revoked, of putting men and women in 
uniform who are in Iraq in the position of having no document 
which internationally provides them with the protections that 
they require. And, in fact, the Baker-Hamilton Study Group 
recommended that we have such a SOFA agreement. So, I just 
wanted to illuminate that----
    Senator Voinovich. Well why don't you concentrate on the 
SOFA and back off from formulation of the framework? This 
administration is not going to get it done.
    Ambassador Satterfield. Senator, again, I understand the 
point on the linkage here, but we do see a linkage. The 
Strategic Framework, we do not believe in any way obligates or 
commits this or the next administration in a fashion which 
should be seen as unacceptably binding.
    Senator Voinovich. I don't think----
    Ambassador Satterfield. We do see it as useful----
    Senator Voinovich. No----
    Ambassador Satterfield [continuing]. In getting the SOFA.
    Senator Voinovich. All right.
    Ambassador Satterfield. Do you----
    Senator Voinovich. You look at it that way. I'm just saying 
to you, from my perspective and from what I'm picking up from 
my colleagues, it's not going to happen. Proceeding toward a 
strategic framework with Iraq is going to turn into a big 
political thing between now and the election. I think, in the 
long run, rushing such an agreement could even hurt, rather 
than help, the situation. I'm asking you to look at reality.
    The Chairman. Gentlemen, a vote has just started, but I 
would suggest we keep going. There's going to be three votes in 
a row. And I suggest you all miss the votes and continue the 
hearing. [Laughter.]
    No; I suggest we keep this going for as long as we can, to 
get through the first vote. Then we're going to have to adjourn 
or recess until the two votes are completed.
    We have a very distinguished panel behind this panel, and I 
hope we'll come back.
    But, I yield to the Senator from New Jersey.
    Senator Menendez. Mr. Chairman, I understand that Senator 
Nelson had yielded----
    The Chairman. He has set a bad precedent for you. 
[Laughter.]
    Senator Menendez. Well, I'm happy, at this moment, to yield 
to Senator Casey.
    The Chairman. All right.
    Senator Casey.
    Thank you.
    Senator Casey. Mr. Chairman, thank you very much.
    And I now owe the State of New Jersey, as well as the State 
of Florida. Thank you----
    [Laughter.]
    Senator Casey [continuing]. For breaking the rules. We're 
grateful. I'm the beneficiary----
    Senator Menendez. Our interest rates are higher, though. 
[Laughter.]
    Senator Casey. I want to thank the panel.
    Mr. Ambassador, I want to return to a point that several of 
my colleagues have been probing--I think it's important to 
establish something for the record.
    It's just a very simple question. Is it your testimony 
today, and is it the legal position of the administration, the 
President, and the Department of State, that the Strategic 
Framework Agreement that you're seeking to negotiate and to put 
into action is legally binding on the next administration or 
not legally binding?
    Ambassador Satterfield. Senator, at present, we contemplate 
the Strategic Framework as a collection of political assurances 
on the character, the content of the partnership with Iraq that 
includes, but goes beyond, security measures, that, as such a 
collection of political assurances, it would not rise to the 
level of a legal commitment that would trigger advise-and-
consent procedures.
    Senator Casey. And I would also ask the counsel, Is it your 
legal position of the State Department, that this is not 
legally binding?
    Ms. Donoghue. That is the current understanding of the 
text. And, of course, with any text, we watch it closely as it 
develops--and we constantly evaluate whether we need to change 
that.
    Senator Casey. Well, look, one of the reasons why there's 
such skepticism--you sense it here today, and I know you 
understand this prior to today--is that this isn't happening in 
a vacuum. What's been happening for a number of years now, and 
certainly the last number of months, is that the question of 
this Strategic Framework being debated and discussed and argued 
about in the context of signing statements. This and other 
issues have caused a lot of concerns. Language from months ago 
seemed to commit us to deterring foreign aggression in Iraq. 
It's not as if this just is a difference of opinion about this 
Strategic Framework. It's in that context, why you have a high 
degree of skepticism. You're hearing, from both sides, about 
the problems you face in getting this done, at least from the 
vantage point of Congress.
    And what I don't understand is--and I'd ask you about--
however, let me just return to one aspect of your testimony, 
first.
    Mr. Ambassador, on page 3 of your testimony, the 
continuation from page 2, right in the middle of that 
paragraph, you say, ``Together they''--meaning both the SOFA 
and the Strategic Framework--``seek an accord that both affirms 
Iraqi sovereignty and continues to permit U.S. and coalition 
forces to''--and this is the language I'm focusing on--``to 
assist in restraining''--``assist in restraining extremists and 
other outside actors who seek power through violence and 
terror.'' What does that mean?
    Ambassador Satterfield. Senator, what that means is the 
following: For U.S. forces to be present in--to be effective in 
their presence in Iraq, in advancing the security goals that we 
believe are important, they will require from the Iraqi 
Government, after the expiration, December 31, no later than 
the 31st of December, of the Chapter VII mandate, permissions 
from the Government of Iraq for the conduct of combat 
operations and associated detainee operations, as they will 
require certain protections from the Government of Iraq. 
Whether or not forces are or are not present, and at what 
levels, whether or not they should conduct these operations is 
a decision for the Executive, this and the next administration. 
But, for that Executive to have the ability to make such 
decisions, they will require permission from the Government of 
Iraq. The Status of Forces Agreement codifies, sets forth, 
those post-Chapter VII permissions. That is what that testimony 
means.
    Senator Casey. Well, for the life of me, I can't understand 
why you wouldn't want to have greater consensus here, through 
the Congress and through the American people, for any kind of 
Strategic Framework, because it's going to be very difficult to 
give integrity to what you're trying to accomplish here if you 
don't have the support of the American people and have a 
Congress which, at best, is highly skeptical about what you're 
trying to do.
    I know I'm low on time, because we have to vote. Senator 
Webb and Senator Menendez are--and others--are waiting.
    I guess the last thing I wanted to cover is just the 
question of--we've been hearing a lot of different perspectives 
on this, and we know that, months ago back in November, in the 
Declaration of Principles, that declaration asserted, 
``security assurances and commitments to the Republic of Iraq 
to deter foreign aggression against Iraq that violates its 
sovereignty and integrity of its territories, waters, and 
airspace.'' If there was a lost-in-translation, or a bad 
translation, why didn't the administration immediately clarify 
that, or repudiate it, or explain? Why did this comment sit 
there, so to speak, on the paper until it was questioned by 
others in Congress? Principally why didn't the administration 
immediately say, ``That translation was bad,'' if it was that 
``We didn't mean to say that. That's misleading language''?
    Ambassador Satterfield. Senator, indeed, as soon as 
concerns were raised over that language--Secretary Gates was, I 
think, the most forceful and detailed member of the 
administration to speak to the fact that that language was not 
interpreted by us at the time, should not be interpreted now as 
to imply a binding security commitment or guarantee.
    Senator Casey. Thank you very much.
    The Chairman. Thank you very much.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman. I'll be very 
brief.
    Counselor Donoghue, is there any historical precedent in 
the United States that lends any guidance on this? I know we 
had declarations of war in World War I and World War II and 
Korea was a U.N. action, if I'm not correct. Did the transition 
from Truman to Eisenhower also necessitate a Status of Forces 
Agreement? Do you know?
    Ms. Donoghue. Well, we have Status of Forces Agreements of 
a wide variety. We have about 80 that we consider to be 
enduring Status of Forces Agreements, and a smaller number, 
perhaps 40, that were negotiated for specific arrangements. Is 
that----
    Senator Isakson. But, none preceding a transition of 
Executive power from one administration to the next? The 
pending issue is the election in November and what status we're 
going to negotiate in advance of that, and whether that 
agreement might possibly bind somebody. I'm just wondering if 
there is a historical precedent in the United States.
    Ms. Donoghue. Senator, I don't know the answer to that. We 
would have to look at the dates on which each of these 
agreements were concluded, and tie them to the election cycle.
    Senator Isakson. If there is one, I'd like to know it. And 
if you'd let me know, I'd appreciate it.
    Ms. Donoghue. Yes, Senator.
    [The written information and charts supplied by Ms. 
Donoghue follow:]

    The United States began negotiating status of forces agreements 
(SOFAs) after World War II, when it began deploying U.S. forces abroad 
for extended periods. At least 18 agreements concerning the status of 
U.S. forces abroad have been signed in the final year of a Presidential 
term. The attached chart lists these agreements.
    Furthermore, we are not aware of any case in which an incoming 
administration has terminated a SOFA recently concluded by the outgoing 
administration. In fact, we are not aware of any U.S. administration 
terminating any SOFA under any circumstances whatsoever.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Isakson. Mr. Satterfield, can this agreement, if 
completed, be canceled by either party at any time?
    Ambassador Satterfield. Yes, Senator.
    Senator Isakson. Mr. Chairman, you informed me, the other 
day that any treaty that we negotiate is cancelable by either 
party at any time.
    The Chairman. That's correct. I don't know of a treaty 
we've written that doesn't allow either party to an escape 
clause saying the treaty is no longer their national interest, 
and unilaterally withdraw from it, as President Bush did with 
the ABM Treaty.
    Senator Isakson. My only comment would be, if either an 
advice-and-consent treaty, or the agreement are both cancelable 
at any time by either party, no matter how deep a debate we get 
into--is it really relevant?
    The Chairman. Well, if you're----
    Senator Isakson. Or, what's the difference?
    The Chairman [continuing]. If you're asking me, they're 
relevant in the sense that withdrawal from treaties and 
withdrawal from executive agreements have political 
consequences that--you saw when we withdrew from the ABM 
Treaty, what that did internationally, the responses we 
received. And, again, it falls under the category, in my view, 
Senator, that big nations can't make assurances lightly, 
whether they're legally binding or not, without having 
consequences when they don't fulfill that obligation. That's 
the generic point I was making.
    And you asked about the treaty--any treaty like it. I would 
like to suggest that, when you're looking--I don't know of any 
treaty that allows the latitude and protection for civilians 
and contractors as broadly as is being sought here, 180,000. 
So, civilian, nongovernment security forces contracted, like 
Blackwater, and the ability of a stationed force being able to, 
on its own, initiate military action in the country in which 
the Status of Forces Agreement exists--I know of no such 
treaty. I'd be delighted to hear if there was one; I may be 
mistaken.
    Senator Isakson. I'll yield the balance of my time to Mr. 
Menendez, who has been waiting.
    The Chairman. We have about 3 minutes, which means we'll 
have 5 minutes after the vote. So, if you--I think you could 
probably get in, and I'll go protect you on the floor--I'm not 
being facetious--so that you get shut out, in terms of voting, 
if you want to begin.
    Senator Menendez [presiding]. OK, Mr. Chairman.
    Ambassador, let me ask you this. What was the purposes of 
the Declaration of Principles for a long-term relationship?
    Ambassador Satterfield. The purpose of the Declaration of 
Principles, last November, was to begin to lay out the broadest 
parameters of shared Iraqi-United States goals, to be fleshed 
out in the form of the Strategic Framework and, in terms of 
security issues, the Status of Forces Agreement this year.
    Senator Menendez. And in that declaration, the language 
clearly said, in the security sphere, ``supporting the Republic 
of Iraq in defending its democratic system against internal and 
external threats'' and providing, ``security assurances and 
commitments to the Republic of Iraq to deter foreign aggression 
against Iraq that violates its sovereignty, integrity of its 
territories, waters, or airspaces.'' Is that not correct?
    Ambassador Satterfield. Senator, we have explained--
Senator, I believe I addressed Senator Casey on the point that 
Secretary Gates and others have made clear. This does not, the 
language you refer to, constitute a binding security guarantee 
or commitment on the part of the U.S. Government.
    Senator Menendez. Well, words have meaning. Certainly those 
of us who have practiced in the law understand that words have 
real meanings. And when you start off in a Declaration of 
Principles that basically commits the United States to support 
the Republic of Iraq in all of these ways, it raises real flags 
for those of us who are concerned. And I echo the comments of 
the chairman and the ranking member and others who are 
concerned about your Status of Forces Agreement that you are 
pursuing.
    Isn't it true that, under the Provisional Authority's 
resolution, that has been signed, that if we had an extension 
of the U.N. resolution, we'd have all of the guarantees we 
would be able to achieve under a Status of Forces Agreement?
    Ambassador Satterfield. Senator, the U.N. Security Council 
Chapter VII mandate empowers what was CPA legislation on 
privileges and immunities, but it is the intent of the 
Government of Iraq, as expressed to the Security Council and 
accepted by the Council and by the U.S. Government, to 
terminate that mandate. We are approaching this from the 
standpoint of a successor to the Chapter VII mandate.
    Senator Menendez. I understand that. If you had an 
extension of the resolution, you'd need no Status of Forces 
Agreement. Yes or no?
    Ambassador Satterfield. From the strict standpoint of 
protections for U.S. forces and the bases for the presence of 
those forces, that is correct.
    Senator Menendez. OK. Now, let me ask you this. It seems to 
me that what we are looking at here is a real concern in which 
we, I think, on both sides of the aisle, largely believe that 
such an agreement needs to come before the Congress. I know 
that that's not the administration's point of view--or 
certainly at least before this Senate. But, it is a real 
challenge to having seen the Statement of Principles, having 
seen the precedent set here by the administration in signing 
statements and other relevant issues to what they will dictate 
what they believe the law is, notwithstanding what the Congress 
says the law is, that there is a total lack of confidence that 
we will not be committed in the longer term context in the 
Status of Forces Agreement.
    Let me ask you, in a different context, isn't it true that, 
in fact, we have probably the greatest leverage right now? 
Moving aside from a Status of Forces Agreement and the 
necessity, we believe, for the administration to come to the 
Senate, isn't this a moment, as this agreement is negotiated--
of tremendous interest to the Iraqis, as well as to us?
    Ambassador Satterfield. Indeed, it is, Senator.
    Senator Menendez. Therefore, isn't this a moment, as you 
pursue this, even though I believe you should pursue it with 
the Senate's concurrence, that it should be used for real 
leverage to get the Iraqis to move in a direction that we want 
them to move and they have not?
    Ambassador Satterfield. Well, Senator, we certainly--and 
not just in the context of these negotiations, but in terms of 
our broad dialog and engagement with the Government of Iraq--
are, indeed, making clear, as we have in the past, the need for 
continued progress. But, I would say, as Ambassador Crocker 
spoke over the past 2 days, that, indeed, progress is being 
made. More needs to be done, but significant, substantial 
progress has been made.
    Senator Menendez. Yes, well let me just say, I believe that 
to the extent that Iraq is equally, if not as--greater than us, 
in terms of our interest in having such an agreement, that it 
provides a tremendous leverage opportunity, one that I don't 
hear the administration even talking about using as a tool in 
pursuing greater acceleration of some of the key political 
elements that we need for an opportunity in Iraq to be 
successful. And I just think that that is a huge mistake and 
undermines a critical opportunity to make the Iraqis make the 
hard choices, compromises, negotiations necessary for a 
government of national unity, as well as bearing more of its 
funding of its own domestic responsibilities.
    I have a message from the chairman, that he would ask you 
to stay, because Senator Webb and maybe one other may have some 
questions. And if you would do so, we would appreciate it.
    And thank you for your responses.
    [Recessed.]
    The Chairman [presiding]. The hearing will come to order. 
We do apologize. The witnesses are pros, though; they know how 
this place works. I apologize.
    What we've done is--there's going to be another vote, but 
we have plenty of time for Senator Webb, who I think is the 
last questioner of this panel, to be able to get in his 
questions. And then we'll--for the next panel, we'll let you 
know--we're going to dismiss this panel, but there'll probably 
be another 10 minutes before we begin your panel. I'm sorry. I 
hope none of you have planes or trains to catch in the 
meantime, because we're anxious to hear what you have to say.
    I yield to the Senator from Virginia.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Ambassador Satterfield, I'm trying to get myself 
straightened, here. Let me start off by saying that I agree 
with the chairman on the question of the political wisdom of 
the way this is moving forward. I also happen to agree with 
Senator Feingold, particularly on the potential that there is a 
constitutional issue here, certainly an issue in federal 
systems, in terms of how the different branches of government 
really should be working.
    And I don't know if you all read Arnaud de Borchgrave, the 
columnist, commentator. I think he's pretty good. He had an 
article, that came out yesterday, actually, and one of the 
paragraphs in this article said, ``The full''--I'm quoting, 
here--``The full impact of Bush's answer to a question put to 
him by a European author in a private Oval Office meeting a 
year ago leaves no room for doubt. After an optimistic briefing 
on Iraq, the author asked the President, `What about your 
successor?' and Bush replied, `Don't worry about him, we'll fix 
it so he'll be locked in.' ''
    Whether it is accurate or not, as it pertains to the issue 
before it, it certainly defines the mood of distrust that has 
followed the way that we ended up in Iraq, from many of us who 
were warning, prior to the invasion, that there was no exit 
strategy, because people who were putting this together did not 
intend to leave.
    And particularly in terms of putting together this larger 
Strategic Framework, the way that it's been repeated 
identified, going to political, economic, cultural, and 
security matters, I think you can understand the hesitations 
from both sides of the aisle on that.
    I'd like to get some clarification on a couple of things, 
if I may, just in a sense of attempting to understand the 
actual legal environment in which you are proposing to move 
forward.
    First, Secretary Long, you mentioned--and this is my best 
attempt at trying to get a quote while you were speaking. I 
think the operative words are exact. I don't know if I got your 
whole quote. But you said, ``After 31 December, we will need an 
international authority in order to maintain our military 
presence in Iraq. We will need an international authority.'' 
What international authority will that be?
    Secretary Long. Senator, I apologize if I implied that 
there was a legal necessity for an international authority. 
What I meant to say was that the--our authorities now to 
operate in a combat nature in Iraq are derived from the United 
Nations Resolution Chapter VII and subsequent related 
agreements. The auspices under which we are operating will 
expire, as you know, on December 31, 2008, the end of this 
year, and we will--we are looking to replace those with an 
authority granted by the Iraqi Government, pursuant to the 
SOFA.
    Senator Webb. So, in your view, the international 
authority, after December 31, would come from what document?
    Secretary Long. I don't want to make a legal determination, 
but I know that, in the view of many of our coalition partners, 
they are operating now with our Armed Forces under the Chapter 
VII resolution, and that they believe they are required--and I 
don't have insight into their legal structures for a subsequent 
legal authority under which our coalition partners will 
continue to operate with us. Now, whether that is granted as a 
bilateral agreement with--between whatever country and the 
Iraqis, or whether it is a subsequent United Nations 
resolution, we don't know yet. Some of them are contemplating 
operating with our forces under an----
    Senator Webb. No, no, what--for the United States----
    Secretary Long. For the United States----
    Senator Webb [continuing]. After December 31, 2008, is 
there an operative legal authority in place right now for us to 
continue in Iraq?
    Secretary Long. Not for combat operations, no.
    Senator Webb. And so, what is the operative legal authority 
that you believe will allow us to move forward?
    Secretary Long. The Status of Forces Agreement----
    Senator Webb. In terms of the Status of Forces Agreement, 
under what legal authority is that going to be negotiated?
    Secretary Long. That's an executive agreement that is 
binding, sir.
    Senator Webb. So, essentially what you are maintaining is 
that an executive agreement from the United States Government 
can bind us--let me choose a better word--can authorize the 
continued presence of the United States military in Iraq.
    Secretary Long. Go ahead.
    Ambassador Satterfield. Senator, the Status of Forces 
Agreement relates to, specifically and exclusively, 
authorization or permission from the Government of Iraq, as the 
host government, for the presence of forces, for privileges 
extended to those forces----
    Senator Webb. I understand----
    Ambassador Satterfield [continuing]. Or for the ability to 
conduct combat and associated detainee operations. It is quite 
distinct from--entirely distinct from the authorizations or the 
authorities within the U.S. system required for that presence 
of forces and their conduct.
    Senator Webb. That's exactly the point that I'm trying to 
make. So, what is this other authority that authorizes us to be 
there after December 31? What is the legal authority?
    Ambassador Satterfield. The legal authorities in the U.S. 
context----
    Senator Webb. Right.
    Ambassador Satterfield [continuing]. Are the same 
authorities under which we are present and under which we 
conduct operations in Iraq today.
    Senator Webb. In other words, the congressional 
authorization of 2002.
    Ambassador Satterfield. It is, Senator, the President's 
authorities as Commander in Chief, it is both the 2001 
counterterrorism, as well as the 2002 congressional 
authorizations.
    Senator Webb. So, in your view--you and I have had a 
discussion about this before, the congressional authorization 
of 2002 and this other document authorize the United States to 
maintain a presence in Iraq until when?
    Ambassador Satterfield. Along with the President's 
constitutional authorities as Commander in Chief, that 
authorization is not limited in time. I'd defer to the 
counselor for further detail on that.
    Senator Webb. So, in perpetuity, arguably, your position 
would be that the United States Congress probably does not 
abrogate that authority, because, since it goes to the 
Commander in Chief. That's actually the wording of the 
Presidential signing statement when he signed the 2002 
authorization.
    Ambassador Satterfield. Senator, the two specific pieces of 
legislation do not contain a temporal calendar for termination 
of their authorities.
    Senator Webb. Right. So your view would be--and I have 
read, carefully, the Presidential signing statement in 2002, 
where the President doesn't say that this congressional 
authorization limits his ability to function as a Commander in 
Chief. So, we're obviously going to be in disagreement on this. 
I'm just trying to get clear, here. You're maintaining that the 
congressional authorization of 2002 and the other one you 
mentioned, in 2001----
    Ambassador Satterfield. 2001.
    Senator Webb [continuing]. Plus, or perhaps superceded by, 
the President's authority as Commander in Chief, authorizes the 
United States to be in Iraq after December 31----
    Ambassador Satterfield. Along with----
    Senator Webb [continuing]. Into perpetuity, unless 
something else happens.
    Ambassador Satterfield. Along with the President's 
constitutional authorities as Commander in Chief are the 
authorities in the United States system for the presence of 
conduct of operations of United States forces in Iraq.
    Senator Webb. So, if you don't have the Strategic Framework 
Agreement, you would say that this is the authority for 
negotiating United States bases in Iraq, et cetera. What is 
the----
    Ambassador Satterfield. Well----
    Senator Webb. What is the impact of the Strategic----
    Ambassador Satterfield. Senator----
    Senator Webb [continuing]. Framework Agreement?
    Ambassador Satterfield [continuing]. Whatever authorities 
this or any other U.S. President may have through the 
Constitution or statute, when U.S. forces are present in a 
foreign country, they require some form of authorization for 
that presence and for their operations. Now, that can come in 
the form of an international mandate. That is the extent--but, 
terminating, December 31, Chapter VII----
    Senator Webb. Right.
    Ambassador Satterfield [continuing]. Resolution--or they 
are based upon a sovereign agreement that is either bilateral 
or multilateral, as in the case of NATO, for----
    Senator Webb. Right.
    Ambassador Satterfield [continuing]. That presence and 
those operations----
    Senator Webb. Or bilateral, as in the sense of Japan, the 
Philippines----
    Ambassador Satterfield. Or----
    Senator Webb [continuing]. Et cetera.
    Ambassador Satterfield. Yes, exactly, sir.
    Senator Webb. OK.
    Ambassador Satterfield. You must have one of the two.
    Senator Webb. So, it would be your position, then, that the 
Strategic Framework Agreement, from a United States 
perspective, is the authorizing agreement for bases--for 
negotiating bases and these other sorts of things.
    Ambassador Satterfield. It is the basis for the Government 
of Iraq's permission for forces to be there and to conduct 
certain operations, if the Executive determines to do so.
    Senator Webb. Or if the United States Government determines 
to do so.
    Ambassador Satterfield. Post-December 31.
    Senator Webb. So, this is an essential document.
    Ambassador Satterfield. It is, Senator.
    Senator Webb. OK. And I would argue, Mr. Chairman, that 
it's a document that would need some congressional consent.
    What is a ``permanent base''?
    Ambassador Satterfield. Senator, the administration has 
made quite clear that we are not seeking permanent bases in 
Iraq, and the agreement----
    Senator Webb. Right. But----
    Ambassador Satterfield [continuing]. Would explicitly 
exclude that.
    Senator Webb [continuing]. What is a permanent base? Are 
our bases in Japan permanent bases?
    Secretary Long. I have looked into this. As far as the 
Department is concerned, we don't have a worldwide, or even a 
departmentwide, definition of ``permanent bases.'' I believe 
those are, by and large, determined on a case-by-case basis. 
But, as Ambassador Satterfield pointed out, the Secretary of 
Defense has said, explicitly, that this agreement does not----
    Senator Webb. Well, I understand that. But, basically, my 
point is, it's sort of a dead word.
    Secretary Long. Yeah, Senator----
    Senator Webb. It doesn't----
    Secretary Long [continuing]. You're exactly right.
    Senator Webb [continuing]. Really mean anything.
    Secretary Long. It doesn't. We've had----
    Senator Webb. We've had----
    Secretary Long [continuing]. Bases----
    Senator Webb. We've had bases in Korea since 1953 anyway, 
and I would be hard-pressed to say they're permanent. How long 
is permanent? We have bases in Japan, under a security 
agreement, that--we are relocating a lot of those to Guam, so I 
wouldn't say that they are permanent. So, to say that these 
won't be permanent bases really doesn't go to the question of 
what they will be; it goes to the question of what they won't 
be. And what we're saying they won't be is a dead word.
    Secretary Long. Senator, you're exactly right. I think most 
lawyers, from a ``permanent'' standpoint, would say that it--
the word ``permanent'' probably refers more to the state of 
mind contemplated by the use of the term.
    Senator Webb. Exactly. And I would say that the state of 
mind, in a governmental sense, should be established by all the 
appropriate constitutional players. I mean, you're saying that 
this agreement will reflect all of the major political parties 
of Iraq, but, at this point, it doesn't really reflect all the 
major political parties of the United States. That's why we're 
interested in continuing this discussion.
    And I thank you for your time. I'm well over my time.
    I thank you, Mr. Chairman.
    The Chairman. Thank you. I'm glad you were able to have the 
extra time.
    Let me follow up, as we're about to--this last vote--and 
I'll thank you for your presence and let you all go. But, 
there's a certain irony here. The irony is that we're 
acknowledging that the Iraqis will not give us a Status of 
Forces Agreement, absent other commitments that are not 
technically binding, but, nonetheless, commitments of stating 
to what the relationship is going to be in the future. And we 
are--making the argument--and you always use the phrase, 
Secretary Long, of ``multinational forces.'' The truth is, when 
this U.N. resolution expires, in January, no other forces are 
allowed to be in that country, unless the Iraqis negotiate, 
independently with them, a Status of Forces Agreement. So, if 
you've got 8 Czechs or 27 Czechs or 15 whoever, they require, 
in order for their troops to be protected--because they can't 
piggyback on ours, there is no national, there is no 
international, thing that allows them to do that.
    And the irony here is, the--you are correct, I believe, 
that the authorization of use of force in 2002 is the basis 
upon which we are able to use force in Iraq, but it says, ``to 
defend the national security of the United States against 
continuing threats posed by Iraq and to enforce all relevant 
U.N. Security Council resolutions regarding Iraq.''
    All U.N. Security Council resolutions regarding Iraq will 
cease and desist as of January 1 of this year. So, that's no 
longer relevant. And the Government of Iraq is the very 
government we're negotiating the Status of Forces Agreement, 
so, ipso facto, it is not a threat to the United States of 
America. So, I would respectfully suggest you have no 
constitutional basis upon which to argue that the resolution of 
authorizing the use of force of 2002 gives you any 
constitutional or legal jurisdiction, justification for what 
you're about to do.
    And the last point I'll make is that the agreements 
referenced are accurate, you need either an international 
mandate or a sovereign agreement for American forces to be 
there. Status of Forces Agreements in every other country do 
not call for the ability--whether it's Korea or Japan--for the 
United States, in this Status of Forces Agreement, to engage in 
war unilaterally within that country or with anyone else. NATO, 
which was cited, is a treaty and a different breed of cat, does 
not at all relate to this. It is not at all remotely 
comparable.
    And so, the irony here is, we are saying the Iraqis will 
not give us a Status of Forces Agreement to protect our forces, 
which you all agree we need, absent a larger agreement, a 
separate agreement; and in the Status of Forces Agreement, 
we're asking for something we've not asked in any other Status 
of Forces Agreement I'm aware of, the ability to unilaterally 
conduct military operations--not in defense of our troops being 
attacked--unilaterally--as well as be able to take prisoners in 
the country of Iraq, whether Iraqi citizens or otherwise, and 
hold them without the permission of the Iraqis. They're two 
things we're asking for in this Status of Forces Agreement.
    I'd respectfully suggest you don't have a constitutional 
leg to stand on for this agreement. So, I'd also suggest--and 
I'll be happy--I'm going to cease, so let you--because I'll 
submit some of these in writing, and I'd appreciate a written 
answer, as well.
    I'd also suggest you negotiate a Status of Forces 
Agreement, period. Because I'd also suggest that if the answer 
is, ``The Iraqis won't give it to us because they want more,'' 
that's an awful hard case to explain to the American people, 
why we ain't giving everything. We're giving, and going to 
continue to give, 30 to 40 American lives a month, even with 
the downturn in violence. We're continuing to give 230 to 240 
Americans wounded a month, even with the reduced violence. 
We're continuing to give $3 billion a week. If that ain't 
enough, then, guess what? If the Iraqi Parliament votes for us 
to go home, guess what? I predict to you, 85 percent of the 
registered Republicans in Americans, 95 percent of the 
Democrats, and 90 percent of the Independents will say, ``Hey, 
man, they don't want us? OK, we're out of there.''
    I think you need a different game plan, respectfully, 
because I do think we have to protect our troops. And that's 
selfish, because some of us have special troops that are going 
to be there. And so, I will submit some of these in writing, if 
you will.
    I thank you, as always, for your candor. You've been 
straightforward with us. I truly appreciate it. I understand 
your point. But, I think we have a political--in a broad sense, 
a political dilemma here, as well as a legal and constitutional 
one. And hopefully we can resolve it.
    But, if you'd like to make any closing comment, I'd be 
delighted to hear you, your view.
    Ambassador Satterfield. No, Senator; we certainly 
understand the points that have been raised here today by you 
and all of your colleagues. We understand the importance of a 
full understanding on the part, not just of this body, but the 
American people, of what both of these documents do and don't 
do. And we certainly understand the sacrifices made----
    The Chairman. Oh, I know you do.
    Ambassador Satterfield [continuing]. By America----
    The Chairman. I wasn't implying you didn't.
    Ambassador Satterfield [continuing]. In that country. 
They're extraordinary. And they continue to be----
    The Chairman. Yes.
    Ambassador Satterfield [continuing]. Extraordinary.
    But, what we are seeking to do here is to secure, for the 
long term, fundamental American interests, interests that we, 
frankly, believe will be shared by this and all 
administrations.
    Thank you, sir.
    The Chairman. Well, that's my hope. And I thank you all.
    I apologize to the next panel, I've got to run and make 
this vote. And if I can get one of my colleagues to come back, 
I'd ask them to start, so we don't hold you up, if they come 
back.
    So, I'd ask my staff, whoever comes back, Democrat or 
Republican, if they'd empower the panel and begin.
    But, I thank you all.
    We're recessed until the next vote.
    [Recess.]
    The Chairman. The hearing will come to order.
    We have a very distinguished panel. We've kept you waiting 
a great deal already, for which I apologize. And I'm glad they, 
though, had an opportunity to hear the testimony today of the 
administration so--because I may ask you to comment on some of 
what they've said and I acknowledge that there are varying 
interpretations, constitutionally and legally, of what they 
said.
    Mike Matheson is a visiting research professor of law at 
George Washington University, here in Washington, DC. He was a 
career attorney in the Offices of the Legal Advisor at the 
Department of State for 28 years, including 13 years as Deputy 
Advisor to two of the Acting Legal Advisors.
    It means you've got to go back, though, right? Good luck on 
your testimony. You're not going back? Oh, I thought you were 
staying, I thought you were on leave, I'm sorry. I misspoke, I 
misunderstood.
    Mike Glennon is an old friend of this committee, as a 
matter of fact he used to sit back here, back in the old days, 
when he and a guy named John Ritch ran this place. He's a 
professor of international law at the Fletcher School of Law 
and Diplomacy. We've called on him--both Republican chairs and 
Democratic chairs have called on him repeatedly since his stint 
here as counsel from 1977 to 1980. Happy to have him back.
    And Ruth Wedgwood is director of the International Law and 
Organization Programs at the Paul Nitze School of Advanced 
International Studies at Johns Hopkins University, a really 
fine outfit. She's also a member of the Secretary of State's 
Advisory Committee on International Law, and a member of the 
Defense Policy Board as well as a member of the United Nations 
Human Rights Committee.
    I thank you all for being here, and maybe if you could 
proceed in the order in which you were recognized, and then 
we'll have some questions, with your permission.
    Thank you.

STATEMENT OF MICHAEL J. MATHESON, PROFESSOR, GEORGE WASHINGTON 
            UNIVERSITY SCHOOL OF LAW, WASHINGTON, DC

    Mr. Matheson. Thank you, Mr. Chairman. I appreciate the 
invitation to testify today. I have submitted a written 
statement which I suggest be included in the record, and that I 
give you a summary.
    The Chairman. The entire statement will be placed in the 
record.
    Mr. Matheson. Thank you.
    I just want to focus on certain questions about these 
agreements which the administration apparently intends to 
conclude, pursuant to the joint declaration. I will be focusing 
on legal issues, but of course this, in no way, obviates the 
very legitimate policy and practical concerns that you--and 
other members of the committee--have been raising.
    First of all, with respect to the question of security 
commitments and security assurances: As you know, the term 
``security commitments'' has been the subject of considerable 
dialog between the political branches over the years, as to 
what it means, and what the consequences of it are. It's most 
commonly been used in the sense of a binding obligation of the 
United States to act in the common defense of another country, 
in the event of armed attack. Of course, such security 
commitments were included in a number of defense treaties after 
World War II--the NATO treaty, Korea, Japan, and so on.
    This term has often been used in distinction from 
``security assurances,'' or ``security arrangements,'' which 
typically have been used to mean a commitment to take some 
lesser action, in the event of a security threat to another 
country. One good example of that was in the 1975 agreement 
with Israel, in which the United States agreed that in the 
event of a threat to Israel's security, that the United States 
would--and let me quote this, ``consult promptly with the 
Government of Israel with respect to what support, diplomatic 
or otherwise, or assistance, it can lend in accordance with its 
constitutional principles.''
    As we know, the Declaration of Principles with Iraq refers 
both to security commitments and assurances. The administration 
has now told us that it does not intend to give security 
commitments. Assuming that's the case, I suppose that's an 
answer to the legal question, but obviously it does not, in any 
way, dispose of the considerations you and other members were 
suggesting that there could be significant political and 
practical consequences of a security assurance, even though it 
may not rise to the level of a security commitment.
    Next, with respect to the status of the U.S. forces, when 
U.S. Armed Forces are deployed in another country for an 
extended period, the United States will always want to have in 
place some form of agreement or other instrument which defines 
the status of those forces, and assures that they have 
appropriate privileges, and appropriate immunities from local 
law and local jurisdiction.
    There isn't any uniform model or content for these SOFAs--
some are very brief and general; some are very extensive and 
may include a number of formal understandings or appendices. 
But they typically have certain common objectives. They give 
U.S. forces the right to enter, to move about in conducting 
their mandate; they grant exemption from some, or all, local 
taxes and charges; they grant exemption from local criminal or 
civil jurisdiction, in whole or in part. The specific terms may 
vary, depending on the circumstances and the demands of the 
host country.
    With respect to Iraq, United States forces are in Iraq as 
part of the Multi-National Force that's been authorized by the 
Security Council under Chapter VII of the U.N. Charter, as you 
know. And the Security Council authorized the Multi-National 
Force to use ``all necessary measures'' to maintain security 
and stability in the country, and to protect the international 
contingents, and for various other purposes. And it's commonly 
understood that this authorizes those units to use force in 
carrying out that mandate.
    The status of the Multi-National Force is governed by an 
order issued in 2004 by the Coalition Provisional Authority, as 
the occupying authority; this is known as CPA 17, and its been 
maintained in force since the end of the occupation by a 
provision of the Iraqi Constitution, for the duration of the 
Multi-National Force mandate.
    CPA 17 does those things which a typical SOFA will do. It 
gives immunity to Multi-National Force personnel from Iraqi 
criminal jurisdiction; it governs such matters as contracting, 
and taxes, and travel, and so on. It does differ from a typical 
SOFA in one respect, which is that it gives immunity to 
civilian contractors, as well as to government personnel.
    Now, CPA 17 only covers U.S. forces as they are part of the 
Multi-National Force. As you know the current mandate of the 
Multi-National Force only extends through the end of this 
current year. If no follow-on SOFA were concluded by then, then 
it would be prudent to extend the current protections of CPA 
17.
    This could be done by action of the Security Council to 
extend the current U.N. mandate, but there could be other ways 
to do the same thing--to preserve the status quo. For example, 
one might have a simple exchange of notes between the United 
States and the Iraqi governments, which would agree to maintain 
the current authority and status of United States forces for 
some interim period while the follow-on agreement was 
negotiated. And that applies not only to the technical status 
of those forces, but also to any authorization to conduct 
military operations that might be desirable.
    Next, the role of Congress in all of this: With respect to 
security commitments, as we know, they have almost always been 
done in the form of treaties, but at a minimum, in any event, 
by some kind of act of Congress. More limited security 
assurances, such as a simple promise to consult in the event of 
a security threat, could be done by executive agreement, and 
has been done in the past by executive agreement, pursuant to 
the President's constitutional authority.
    With respect to SOFAs, there's no uniform model or format.
The NATO SOFA was in the form of a treaty. There were other 
SOFAs which were concluded as agreements implementing treaties, 
but also there have been a large number of SOFAs concluded as 
executive agreements, pursuant to the President's 
constitutional authority.
    If a SOFA with Iraq were limited to giving United States 
forces exemption from Iraqi law, then the President could do 
this without the necessity for congressional approval. If other 
types of commitments were added, that might or might not 
require congressional approval as a legal matter, depending 
upon their content, and their relationship to other statutory 
restrictions.
    For example, if there were a commitment to permanent 
bases--whatever that might mean--in an Iraqi SOFA, then that 
would be contrary to the DOD Appropriations Act, and 
consequently, the administration has told us there will be no 
such commitment.
    But even if you had a case where an agreement fell 
completely within the President's constitutional authority, 
that doesn't mean, in my mind, that Congress should not play a 
significant role. On the contrary, given the very obvious 
importance of the future United States-Iraqi relationship, and 
given the importance of the role of the United States forces in 
that relationship, it seems to me as a minimum that the 
administration should fully consult and involve Congress in 
decisions about both the form and the substance of the 
agreement.
    And I would go further--I would say that, ideally, the two 
branches should be arriving at some consensus on the future 
role and status of the U.S. forces, and this might be confirmed 
in some form. It might take the form of formal congressional 
approval, it might take the form of a sense-of-Congress 
resolution, it might take the form of formal exchanges with the 
congressional leadership; the important thing is that it should 
be a joint endeavor, it seems to me, in defining the future 
role of the United States and its forces in Iraq. This, I 
think, would be necessary to acknowledge and accommodate the 
legitimate interest of Congress, both with respect to U.S. 
foreign and national security policy, and the use of U.S. 
funds, and the disposition of U.S. forces.
    Mr. Chairman, that completes my summary. Of course, I'd be 
very glad to answer your questions.
    [The prepared statement of Mr. Matheson follows:]

Prepared Statement of Michael J. Matheson, Professor, George Washington 
                 University Law School, Washington, DC

    I have been asked to give my views on the agreements with Iraq that 
are contemplated pursuant to the November 2007 United States-Iraq 
Declaration of Principles.\1\ It would appear that the administration 
intends to conclude a Status of Forces Agreement (or SOFA) to govern 
the rights and immunities of U.S. forces in Iraq, and a Strategic 
Framework document to establish a broader blueprint for future 
cooperation in the political, economic, cultural, and security fields. 
These documents are intended, among other things, to govern the United 
States-Iraq security relationship after the expiration of the current 
U.N. Security Council mandate, which currently provides for the 
presence of U.S. and other coalition forces through December of this 
year.
---------------------------------------------------------------------------
    \1\ See www.whitehouse.gov/news/releases/2007/1/20071126-11.
---------------------------------------------------------------------------
                  security commitments and assurances
    According to the Declaration of Principles, the new documents will 
include ``security assurances and commitments to the Republic of Iraq 
to deter foreign aggression against Iraq that violates its sovereignty 
and integrity of its territories, waters, or airspace.''
    The question of what constitutes a ``security commitment'' to 
another country has been the subject of dialog between the executive 
branch and Congress for decades. In 1969, the Senate adopted the 
National Commitments Resolution,\2\ which asserted that any ``promise 
to assist'' a foreign country ``by the use of Armed Forces'' would be a 
``national commitment'' that could only be given by means of a treaty, 
statute, or concurrent resolution.
---------------------------------------------------------------------------
    \2\ S. Res. 85, 91st Cong., 1st Sess., June 25, 1969.
---------------------------------------------------------------------------
    The National Defense Authorization Act for Fiscal Year 1991 
included a provision requiring the President to submit a report to 
Congress describing all existing ``security arrangements with, or 
commitments to'' other countries.\3\ In 1992, President George H.W. 
Bush submitted a report listing current U.S. security commitments and 
arrangements.\4\ He defined a ``security commitment'' as ``an 
obligation, binding under international law, of the United States to 
act in the common defense in the event of an armed attack on that 
country.'' He provided a list of current U.S. security commitments, 
almost all of which were contained in treaties concluded between 1947 
and 1960, including the North Atlantic Treaty, the Rio Treaty (with 
Latin American countries), the Southeast Asia Treaty, and treaties with 
Australia, New Zealand, the Philippines, South Korea and Japan.\5\
---------------------------------------------------------------------------
    \3\ Sec. 1457, Public Law 101-510; codified in 50 U.S.C. 404c.
    \4\ See Treaties and Other International Agreements: The Role of 
the United States Senate, a study prepared for the Senate Foreign 
Relations Committee by the Congressional Research Service, 103d Cong., 
1st Sess., November 1993, p. 206-07.
    \5\ The State Department also maintains a list of ``U.S. Collective 
Defense Arrangements,'' consisting of these treaties. See 
www.state.gov/s/l/treaty/collectivedefense.
---------------------------------------------------------------------------
    The provisions of these treaties vary somewhat, but each contains 
language that contemplates U.S. action in the common defense in the 
event of armed attack against one of the treaty parties. For example, 
Article 5 of the 1949 North Atlantic Treaty says that the Parties agree 
``that an armed attack against one or more of them in Europe or North 
America shall be considered an attack against them all and consequently 
they agree that, if such an armed attack occurs, each of them, in 
exercise of the right of individual or collective self-defense . . ., 
will assist the Party or Parties so attacked by taking forthwith, 
individually and in concert with the other Parties, such action as it 
deems necessary, including the use of armed force, to restore and 
maintain the security of the North Atlantic area.'' \6\ Article V of 
the 1960 Treaty of Mutual Cooperation and Security between Japan and 
the United States says that each Party ``recognizes that an armed 
attack against either Party in the territories under the administration 
of Japan would be dangerous to its own peace and safety and declares 
that it would act to meet the common danger in accordance with its 
constitutional provisions and processes.'' \7\
---------------------------------------------------------------------------
    \6\ April 4, 1949; 63 Stat. 2241; TIAS 1964; 34 UNTS 243.
    \7\ June 23, 1960; 11 UST 1652; TIAS 4510; 373 UNTS 186.
---------------------------------------------------------------------------
    The 1992 Presidential report contrasted such security commitments 
with ``security arrangements''--that is, pledges by the United States 
to take some action in the event of a threat to the other country's 
security, typically to consult with that country--but containing no 
commitment with respect to the use of U.S. Armed Forces. It listed a 
number of such arrangements, including those with Israel, Egypt, and 
Pakistan. For example, it cited the 1975 Memorandum of Agreement with 
Israel, which stated that in the event of a threat to Israel's security 
or sovereignty, the U.S. would ``consult promptly with the Government 
of Israel with respect to what support, diplomatic or otherwise, or 
assistance it can lend in accordance with its constitutional 
practices.'' \8\ Pledges of this sort have also been called ``security 
assurances.''
---------------------------------------------------------------------------
    \8\ September 1, 1975; 32 UST 2150; TIAS 9828.
---------------------------------------------------------------------------
    In addition to such ``security commitments'' and ``security 
assurances,'' there are a variety of other steps that the United States 
might take to enhance the security of a friendly country, including 
providing military assistance, sales of military items and technology, 
and stationing U.S. forces. Some or all of these steps may be taken in 
conjunction with security commitments or assurances.
    Once again, the United States-Iraq Declaration of Principles refers 
to ``security assurances and commitments.'' However, on reflection, the 
administration has now stated that the agreements contemplated will not 
include any security commitments to Iraq. Other forms of security 
assurances or arrangements may be included in either the SOFA or the 
strategic framework document, but the administration has not yet, to my 
knowledge, indicated exactly what is intended.
                         status of u.s. forces
    When U.S. forces are deployed to a foreign country for a 
significant period--whether under U.N. authority or not--the United 
States will typically wish to have in place an instrument making clear 
the status of U.S. forces and the extent of their immunity from the law 
and jurisdiction of the state in which they are operating. If the U.S. 
is acting as an occupying power, this may take the form of an 
occupation order; otherwise, it will take the form of an agreement with 
the state in question, either concluded by the U.S. Government itself 
or by the Multi-National Force or coalition of which it is a part. 
According to the administration, the United States has such agreements 
with more than 115 countries.\9\
---------------------------------------------------------------------------
    \9\ Condoleezza Rice and Robert Gates, ``What We Need Next in 
Iraq,'' Washington Post, February 12, 2008.
---------------------------------------------------------------------------
    There is no uniform model or template for SOFAs, but they typically 
have certain common objectives: To give U.S. forces the right to enter, 
leave, and move about the country, wear their uniforms and use their 
vehicles; to exempt U.S. forces and personnel from some or all taxes 
and charges of the host country; to regulate claims and contracts; and 
to exempt U.S. personnel from local criminal and civil jurisdiction in 
whole or in part. This may be stated in brief and general terms, or it 
may be complex and detailed. For example, the SOFA concluded in 2002 
with East Timor was less than 3 pages in length, while the Korea SOFA 
ran to more than 150 pages and was accompanied by a series of agreed 
understandings.
    The terms of these agreements may vary, depending on the needs of 
the situation and the attitude and demands of the foreign government in 
question. For example, on the question of foreign criminal jurisdiction 
over U.S. personnel, some SOFAs allocate criminal jurisdiction between 
the United States and the host country, depending on whether or not the 
offenses alleged were committed against other U.S. personnel or in the 
course of official duty; while other SOFAs give U.S. personnel complete 
exemption from foreign criminal jurisdiction.
    U.S. forces are present in Iraq as part of the Multinational Force 
(MNF) authorized by the Security Council under Chapter VII of the U.N. 
Charter. Security Council Resolution 1511 in October 2003 authorized 
that force ``to take all necessary measures to contribute to the 
maintenance of security and stability in Iraq,'' including the security 
of U.N. and Iraqi operations and ``key humanitarian and economic 
infrastructure.'' This ``all necessary measures'' language is 
understood to include freedom of movement and the right to use 
necessary force to carry out the MNF mission. Subsequent resolutions 
referred also to ``preventing and deterring terrorism and protecting 
the territory of Iraq,'' combat operations against violent groups and 
internment of their members, humanitarian assistance, civil affairs 
support, and relief and reconstruction.\10\
---------------------------------------------------------------------------
    \10\ See U.N. Security Council Resolution 1546 (2004) and letters 
incorporated by reference.
---------------------------------------------------------------------------
    This authorization and mandate has been periodically renewed by the 
Council. In December 2007, the Council extended the mandate until 
December 31, 2008. It declared that it would terminate that mandate 
earlier if requested by the Iraqi Government, and noted that Iraq had 
advised that it would not request a further extension of that 
mandate.\11\ (Of course, the Council still retains the right to extend 
the mandate if it should wish to do so, and any early termination of 
the mandate would still require affirmative Council action.)
---------------------------------------------------------------------------
    \11\ U.N. Security Council Resolution 1790 (2007).
---------------------------------------------------------------------------
    The status, privileges, and immunities of U.S. forces in Iraq are 
still governed by an order issued in June 2004 by the Coalition 
Provisional Authority as the occupying authority during the initial 
period of U.S. operations in Iraq. That order, known as Coalition 
Provision Authority Order Number 17 or CPA 17, grants immunity to all 
MNF personnel from Iraqi arrest and criminal jurisdiction, and 
regulates other matters usually covered by SOFAs, such as contracting, 
travel, taxes, and fees. It differs from typical SOFAs in one 
significant respect, in that it grants such immunity to civilian 
contractors with respect to acts performed under their contracts.\12\
---------------------------------------------------------------------------
    \12\ See http://www.cpa-iraq.org/regulations/
20040627_CPAORD_17_Status_of_Coalition_Rev_with_Annex_A.pdf.
---------------------------------------------------------------------------
    Article 126 of the Iraqi Constitution states that ``existing laws 
shall remain in force, unless annulled or amended in accordance with 
the provisions of the Constitution,'' which is apparently understood to 
mean, among other things, that CPA 17 will continue in force unless 
specifically rescinded or amended by the Iraqi Parliament. However, CPA 
17 does not provide a clear basis for the status of U.S. forces after 
the termination of the MNF mandate. It only covers U.S. forces as part 
of the MNF, and it states that it will remain in force for the duration 
of the MNF mandate under Council resolutions ``and shall not terminate 
until the departure of the final element of the MNF from Iraq.''
    While this language might give some room for the continuation of 
immunities for any U.S. forces that may temporarily remain in Iraq as 
part of the MNF after December 31, 2008, it would, if possible, be 
better to clarify the matter in a definitive way. In the event a 
permanent SOFA is not agreed by that date (which the administration 
evidently intends to do), it would seem prudent to take some 
affirmative step to continue the CPA 17 provisions for a further period 
while negotiations continue. This might, for example, be done by a 
temporary extension of the MNF mandate by the Security Council, an 
exchange of notes between the United States and Iraq temporarily 
extending the current status of U.S. forces, or an act of the Iraqi 
Parliament.
    Finally, the question arises as to whether any other agreement to 
be negotiated pursuant to the November 2007 Joint Declaration would in 
any way define or affect the future mission or status of U.S. forces. 
Secretaries Rice and Gates have stated that the coming negotiations 
with Iraq will ``set the basic parameters for the U.S. presence in 
Iraq, including the appropriate authorities and jurisdiction necessary 
to operate effectively and to carry out essential missions'' but that 
nothing to be negotiated will mandate combat missions, set troop 
levels, provide security commitments or authorize permanent bases in 
Iraq.\13\ It may be worthwhile to clarify what is intended along these 
lines, and in particular whether anything is intended that would go 
beyond the traditional scope of SOFAs as described above.
---------------------------------------------------------------------------
    \13\ See note 9 above.
---------------------------------------------------------------------------
                          the role of congress
    With respect to security commitments and assurances, U.S. practice 
gives useful guidance as to the form these commitments or assurances 
should take. Security commitments in the technical sense have generally 
been undertaken by treaty, or at a minimum by act of Congress.\14\ 
Certainly a binding commitment to defend Iraq would call for such 
action. On the other hand, properly limited security assurances--such 
as a simple promise to consult--have taken various forms, including 
sole executive agreements and policy statements, and the President 
could offer them on the basis of his own constitutional authority.
---------------------------------------------------------------------------
    \14\ 14 Apparently security commitments were given to the Marshall 
Islands and Micronesia under Compacts of Free Association approved by 
Congress. See note 4 above at p. 206.
---------------------------------------------------------------------------
    With respect to Status of Forces Agreements, there is no uniform 
model or format. The NATO SOFA took the form of a treaty; \15\ some 
SOFAs have been agreements implementing prior mutual defense treaties; 
\16\ but a great many take the form of executive agreements concluded 
under the President's own constitutional authority. If the agreement is 
limited to giving U.S. forces and personnel exemption from foreign law, 
the President may conclude it without further congressional approval.
---------------------------------------------------------------------------
    \15\ North Atlantic Treaty Status of Forces Agreement, 4 UST 1792, 
June 19, 1951. Since this agreement granted exceptions and immunities 
from U.S. law to foreign NATO personnel, it had to be done as either a 
treaty or pursuant to act of Congress.
    \16\ For example, the Agreement Under Article IV of the Mutual 
Defense Treaty Between the United States of America and the Republic of 
Korea, Regarding Facilities and Areas and the Status of United States 
Armed Forces in the Republic of Korea, TIAS 6127, July 9, 1966.
---------------------------------------------------------------------------
    Other types of commitments would have to be evaluated within the 
context of any relevant existing legislation, which might or might not 
require further congressional action, depending on the content of the 
commitments and the applicable statutory restrictions. Particular 
attention would have to be paid to any commitments of U.S. funds, any 
commitments to provide military assistance or arms sales, any 
arrangements involving U.S. bases in Iraq or access to Iraqi bases, any 
forgiveness of obligations to the United States, and any immunities or 
exceptions from the application of U.S. law. For example, any 
commitment to permanent U.S. bases in Iraq would be inconsistent with 
the most recent DOD Appropriations Act,\17\ and the administration has 
now indicated that there will be no such commitments.
---------------------------------------------------------------------------
    \17\ Act Making Appropriations for the Department of Defense for 
the Fiscal Year Ending September 30, 2008, Section 8113.
---------------------------------------------------------------------------
    But even if a proposed commitment or arrangement falls within the 
President's independent constitutional authority, this does not mean 
that Congress should play no role in the process. Given the obvious 
importance of the future United States-Iraq relationship and in 
particular the role of U.S. forces in the future security of Iraq, it 
would seem at a minimum that the administration should engage in 
serious consultation with Congress on both the form and substance of 
the agreements that will implement the United States-Iraq Declaration 
of Principles. Ideally, the two branches should arrive at a consensus 
on the future role and status of U.S. forces, which might then be 
confirmed in some form--for example, by statute, joint resolution, 
provisions in authorization or appropriations legislation, sense-of-
the-Congress resolution or formal exchanges with the congressional 
leadership. Such steps would acknowledge and accommodate the direct 
interest and responsibility of Congress in U.S. foreign and national 
security policy, in the use of U.S. funds, and in the disposition of 
U.S. Armed Forces.

    The Chairman. Thank you very much.
    Professor Glennon.

  STATEMENT OF MICHAEL J. GLENNON, PROFESSOR OF INTERNATIONAL 
 LAW, FLETCHER SCHOOL OF LAW AND DIPLOMACY, TUFTS UNIVERSITY, 
                          MEDFORD, MA

    Mr. Glennon. Thank you, Mr. Chairman.
    It's very good to see you again, and very nice to be back 
in this room where I spent so many days over the years.
    First, let me apologize for the length of my written 
statement. I know it's a bit longer than normal, but I also 
know that the administration is going to disagree very strongly 
with what I'm about to say, so I wanted to lay out my reasoning 
and the supporting evidence completely, so that the committee 
can come to an informed judgment on these matters.
    In any event, I can summarize it very quickly.
    The Chairman. The entire statement will be placed in the 
record.
    Mr. Glennon. Thank you, Mr. Chairman.
    There are two issues. The first, Mr. Chairman, is whether 
the administration's negotiating something with Iraq that ought 
to be submitted to the Senate for its advice and consent as a 
treaty. My answer is yes.
    I know that the administration has said that it intends to 
make no explicit security commitment to Iraq that creates a 
binding legal obligation, but in my view, that does not resolve 
the issue. I must say, in listening to the administration's 
testimony here this morning, I was rather reminded of that 
famous Magritte painting of a pipe, and it's entitled, ``This 
is not a pipe.''
    The question still arises whether the administration--
whatever it says--will be making an implied security commitment 
to Iraq, as you noted earlier, in your initial comments.
    As you well know, Mr. Chairman, this committee was greatly 
concerned about the abuse of implied security commitments in 
the late 1960s and early 1970s. Senator Stewart Symington's 
Subcommittee on Security Commitments held extensive hearings in 
the full committee, and the Senate concluded that military base 
agreements with other countries could create implied 
commitments.
    This conclusion then led the committee and the Senate to 
find that the base agreements with Spain and Portugal created 
implied commitments to those countries, commitments that were 
constitutionally required to be submitted to the Senate for its 
advice and consent as treaties.
    The rationale for that conclusion was that the context of a 
base agreement--as you indicated earlier--the context of the 
base agreement, taken in its entirety, and viewing all relevant 
elements of the bilateral relationship, created an implied 
commitment.
    The Symington subcommittee listed some of the factors that 
create an implied commitment. It said, ``Overseas bases, the 
presence of elements of United States Armed Forces, joint 
planning, joint exercises, or extensive military assistance 
programs, represent to host governments more valid assurances 
of United States commitment than any treaty or executive 
agreement.''
    Mr. Chairman, every one of those factors identified by the 
Symington subcommittee is present with respect to Iraq. There 
will be bases, combat troops, joint planning, joint exercises, 
and extensive military assistance programs. And there will be 
more than that. There will be American troops, on the ground, 
fighting side-by-side with the Iraqis. When American troops 
stop fighting, they may still be present, in effect, as a 
tripwire in a situation that remains volatile and potentially 
explosive. If they are attacked, they will, no doubt, fight.
    Added to all that will, of course, be the security 
framework arrangement itself. Recall that President Bush and 
Prime Minister al-Maliki formally agreed last November that it 
would include security assurances and commitments against both 
external and internal threats.
    I am not aware, Mr. Chairman, of any treaty to which the 
United States is a party that commits the United States to 
defend a government against internal threats. And, indeed, Mr. 
Chairman, I don't believe that the United States has ever been 
a party to such a treaty.
    So in sum, if all of these factors taken together do not 
add up to an implied security commitment, it's hard to imagine 
what would. It is hard to conceive of an international 
agreement more significant than the new security agreement with 
Iraq. The proverbial Martian stepping off a flying saucer could 
only react with bewilderment in comparing the proposed security 
arrangement to the international agreements that this 
administration has submitted to the Senate for its advice and 
consent as treaties. These include an agreement to control 
antifouling systems on ships, an agreement against doping in 
sports, an agreement governing the international registration 
of industrial designs, and a treaty to govern port privileges 
for tuna ships.
    I do not understand, Mr. Chairman, how the United States 
Constitution could solemnly require Senate advice and consent 
to the regulation of steroids, bilge pumps and tuna boats, but 
not to a commitment to use armed force to defend another 
government from its own people.
    So, I believe, Mr. Chairman, that constitutionally the new 
security arrangement with Iraq should be submitted to the 
Senate for its advice and consent as a treaty.
    This would be good, in my view, not only for the Senate, 
but for the Executive. Treating the security arrangement as a 
treaty is the best way to ensure that the United States and 
Iraq share the same understanding of what that arrangement 
means. It imputes no ill intent to the Executive to observe 
that the administration has an understandable incentive to 
overstate the scope of the security arrangement in its 
communications with the Iraqis, and to understate the scope of 
the arrangement in its communications with the Congress. It is 
essential that the Congress not be led to believe that there is 
no security commitment if there is one. It is also essential 
that the Iraqis not be led to believe that there is a security 
commitment, if there is not one. When it comes to the role of 
the United States in Iraq's future security, Congress and Iraq 
must be on the same page. If they are not, the consequences 
could be catastrophic, both internationally and domestically.
    Now, Mr. Chairman, it would be easy to stop here, but I 
would be remiss if I did so. As important as the Senate's 
treaty power is, there is a second, even larger, issue before 
the committee today that Congress urgently needs to confront. 
That issue concerns its war power. The question is whether 
there is any continuing authority under United States domestic 
law under which use of force can be continued in Iraq, and my 
answer to that question is, ``No.''
    None of the sources of authority that the administration 
relies upon to use force in Iraq, in fact, authorizes use of 
force--not the Commander-in-Chief clause, not Congress's 2002 
joint resolution, not the 2001 AUMF, and not subsequent 
appropriations legislation.
    The Commander-in-Chief clause, Mr. Chairman, is not a 
source of authority, because the President cannot 
constitutionally exceed limits that Congress imposes when it 
authorizes use of force. Congress imposed limits in the 2002 
joint resolution--it authorized use of force for two, and only 
two purposes: To defend the national security of the United 
States against a continuing threat posed by Iraq, and to 
enforce all relevant U.N. Security Council resolutions 
regarding Iraq.
    Those two limits are now being exceeded--or, as Senator 
Lugar put it--the resolution is obsolete. First, as you pointed 
out earlier, there is no threat posed by Iraq that has 
continued to exist from before the United States-led invasion. 
The continuing threat posed by Iraq was seen as stemming from 
the Government of Iraq, from the regime of Saddam Hussein--and 
that regime is now gone. The threats that we're fighting 
against today are new threats that come from within Iraq. The 
legislative history is clear that the 2002 joint resolution 
does not authorize the use of force against those sorts of 
threats.
    Second, each relevant Security Council resolution that Iraq 
was flouting before the invasion has now been honored. The 2002 
joint resolution did not authorize the use of force to enforce 
future Security Council resolutions that did not then exist. To 
interpret Congress's 2002 joint resolution that way would raise 
very grave constitutional problems, concerning delegation, 
appointments, and presentment; problems that can be avoided by 
construing that resolution as applying--in Representative 
Gephardt's words, and he was the chief sponsor of this on the 
House side--as applying to ``outstanding resolutions that 
existed at the time of enactment of the 2002 joint 
resolution,'' not as applying to any future Security Council 
resolution that the Security Council might, at any point in the 
future, adopt. The Constitution permits only 535 Members of 
Congress to place the United States in a state of war, not the 
United Nations Ambassadors of Belgium, Croatia, and Indonesia.
    The so-called AUMF is also a thin reed on which to base 
authority to use force in Iraq. First, there are very serious 
doubts whether the organization called ``al-Qaeda in Iraq,'' or 
``al-Qaeda in Mesopotamia'' is, in fact, the same organization 
that was behind the 2001 terrorist attacks on the United 
States. In any event, it's clear that only a very small portion 
of the casualties being suffered by the United States in Iraq 
today are being inflicted by al-Qaeda in Iraq. No, force is 
being used against elements, for the most part, that are not 
affiliated with al-Qaeda in Iraq.
    It is true that in the fog of war it's uncertain where the 
line is drawn. But that very uncertainty has legal consequences 
under the War Powers Resolution, because the War Powers 
Resolution requires that any use-of-force authorization be 
specific. And the ambiguities that I've just referred to mean 
that under the War Powers Resolution, it is not permissible to 
infer authority to use armed force, either from the 2001 AUMF, 
or, any longer, from the 2002 joint resolution with respect to 
Iraq.
    Finally, the administration's claim--that Congress has, 
since 2002 enacted lots of appropriations legislation, which 
implicitly approves what is being done in Iraq--also runs afoul 
of the War Powers Resolution. As you know, Mr. Chairman, the 
War Powers Resolution singles out appropriations legislation in 
section 8(a)(1), and says that authority to infer the use of 
armed force may not be inferred from appropriations 
legislation, unless the authority is specific, and it 
specifically refers to the War Powers Resolution. No 
appropriations legislation does that.
    So, I conclude, Mr. Chairman, that first, the 
administration should submit the new security arrangement to 
the Senate for its advice and consent as a treaty, and second, 
that Congress has got to enact new authority to use force in 
Iraq, and that if the Congress does not do that, the 
administration constitutionally will be required to wind up 
that use of force with all deliberate speed, consistent with 
the safety of the United States troops now on the ground in 
Iraq.
    Thank you.
    [The prepared statement of Mr. Glennon follows:]

 Prepared Statement of Michael J. Glennon, Professor of International 
 Law, Fletcher School of Law & Diplomacy, Tufts University, Medford, MA

    Mr. Chairman and members of the committee, thank you for inviting 
me to testify today on negotiating a long-term relationship with Iraq. 
It is a pleasure to be back.
    I testified about the constitutionality of the administration's 
proposed security arrangement on February 8 before the House Foreign 
Affairs Committee's Subcommittee on International Organizations, Human 
Rights, and Oversight, where I was asked whether a binding security 
commitment could constitutionally be made by the President without 
approval by the Senate or the Congress. My view was that the President 
could not make such a commitment on his own. Since then, the 
administration has indicated that it does not intend to enter into a 
binding security commitment with Iraq. However, the administration 
apparently continues to adhere to the November 26, 2007, Declaration of 
Principles signed by President Bush and Iraqi Prime Minister al-Maliki, 
and to the position that the strategic framework contemplated by that 
Declaration can be put in place without Senate or congressional 
approval. The Declaration, as you know, envisions ``security assurances 
and commitments . . . to deter foreign aggression against Iraq that 
violates its sovereignty and integrity of its territories, waters, or 
airspace.'' The question that arises is whether, in light of the 
surrounding circumstances, what is now contemplated by the Declaration 
might still include components that should be accorded Senate or 
congressional approval.
    Mr. Chairman, my view is that the absence of a binding, explicit 
security commitment to Iraq does not resolve the issue whether Senate 
advice and consent is required. Even absent an explicit security 
commitment, an implicit security commitment can exist--and, in fact, 
will exist if the President proceeds to put in place the security 
framework arrangement that is apparently contemplated. That arrangement 
should therefore be presented to the Senate for its advice and consent 
as a treaty.
    In my view, however, there is an even bigger question at stake 
today: What is the source of authority to prosecute the war in Iraq, 
and what will be the source of authority after the relevant Security 
Council resolution expires on December 31? The harsh truth is that U.S. 
military action in Iraq has gone far beyond what Congress authorized in 
October 2002 in the Joint Resolution on Iraq, or in the Authority to 
Use Military Force (AUMF) that it enacted following the September 11 
attacks. I know that this committee is primarily interested in the 
former question--the constitutionality of a Presidential security 
commitment. I raise this issue, however, because the Senate cannot 
intelligently consider the lawfulness of a Presidential security 
commitment to Iraq without considering at the same time what authority, 
if any, exists for the President to use force in Iraq. If authority to 
use force in Iraq does currently exist, a plausible argument can be 
made that, in principle, the new security arrangement with Iraq might 
be authorized implicitly by the same statute or statutes that authorize 
use of force; the President can, after all, agree to do what he is 
lawfully authorized to do. On the other hand, if authority to use force 
does not exist, or if it will not exist in the future, a new security 
arrangement with Iraq cannot substitute for constitutionally required 
statutory authority to use force. The administration's proposed 
security arrangement--whether it is entered into as an executive 
agreement by the President alone or whether it is accorded the advice 
and consent of the Senate as a treaty--cannot constitutionally serve as 
a source of ''authority to fight.'' And except as force is used 
incident to the need to protect forces being withdrawn, the Executive 
cannot constitutionally continue the use of force in Iraq without 
renewed statutory authority. Authority that earlier existed to use 
force in Iraq has now expired.
    I will address these use-of-force issues in a moment, but let me 
begin with constitutional questions posed by the proposed security 
framework arrangement.
                   the security framework arrangement
    The absence of a binding, explicit security commitment to Iraq does 
not resolve the issue whether Senate advice and consent is required. 
Even absent an explicit security commitment, an implicit security 
commitment may exist. An implicit security commitment derives from all 
pertinent aspects of the United States bilateral relationship with a 
given country. This committee and the Senate have long posited the 
belief that commitments requiring the approval of the Senate as 
treaties can be inferred from a variety of contextual factors, such as 
the establishment of U.S. military bases. These factors pervade the 
proposed strategic arrangement with Iraq. I therefore believe that the 
arrangement should be submitted to the Senate for its advice and 
consent as a treaty. An elaboration follows.
The international law backdrop: Tacit commitments
    Contract lawyers in the United States domestic legal system are 
familiar with the concept of a ``contract implied in fact.'' A contract 
implied in fact, as the Supreme Court described it, is a contract 
``inferred, as a fact, from conduct of the parties showing, in the 
light of the surrounding circumstances, their tacit understanding.'' 
Baltimore & Ohio R. Co. v. United States, 261 U.S. 592 (1923). It 
exists in the absence of explicit words of agreement. Agreement is 
deemed to be implied by the entire ``course of dealing'' between the 
parties, including nonverbal practice. ``A treaty is in its nature a 
contract between two nations.'' Foster v. Neilson, 27 U.S. 253, 314 
(U.S. 1829).
    An analogous concept exists in international law. It is variously 
called a tacit agreement, a de facto agreement, a quasi-agreement or a 
special custom. A special custom arises, the International Court of 
Justice has found, when a certain practice between two states comes to 
generate lawful expectations, as when one state has consistently 
granted another a right of passage. Right of Passage Over Indian 
Territory (Port. v. India), 1960 I.C.J. 6 (Apr. 12). Treaty law and 
customary international law in such circumstances conjoin. ``Such 
special customary law may be seen as essentially the result of tacit 
agreement among the parties,'' notes the Restatement (Third) of Foreign 
Relations Law of the United States. Sec. 102, comment e. Treaties are 
to be liberally construed, the Supreme Court has made clear. All 
pertinent contextual elements are to be taken into account in 
determining the scope of the obligations undertaken. ``Like other 
contracts,'' it has said, ``they are to be read in the light of the 
conditions and circumstances existing at the time they were entered 
into, with a view to effecting the objects and purposes of the States 
thereby contracting.'' Rocca v. Thompson, 223 U.S. 317, 331-32 (U.S. 
1912). The U.N.'s International Law Commission has underscored the 
possibility that binding international commitments can be created by 
conduct rather than words. ``[B]ehaviours capable of legally binding 
States,'' the Commission has noted, ``may take the form of formal 
declarations or mere informal conduct including, in certain situations, 
silence, on which other States may reasonably rely.'' International Law 
Commission, ``Unilateral Acts of States: Report of the Working Group'' 
3-4, U.N. Doc. A/CN.4/L.703 (Jul. 20, 2006).
    Even if a textual disclaimer purported to make a commitment 
nonbinding on a party, there is authority that violation could still be 
unlawful. The late legal scholar Oscar Schachter, for example, wrote 
that it would be unlawful to act inconsistently with such an instrument 
if other parties ``reasonably relied'' upon it. Mere ``political 
texts,'' he wrote, are still governed by the general requirement of 
good faith. Oscar Schachter, ``International Law in Theory and 
Practice'' 95-101 (1991). Henry Kissinger underscored this same point 
in referring to the Sinai Accords in 1975. ``While some of the 
undertakings are nonbinding,'' he said, ``they are important statements 
of diplomatic policy and engage the good faith of the United States as 
long as the circumstances that gave rise to them continue.'' Hartmut 
Hillgenberg, ``A Fresh Look at Soft Law,'' 10 Eur. J. Int'l L. 499, 511 
(1999). The Reporters' Notes to the Restatement emphasize the potential 
gravity of nonbinding commitments: ``Parties sometimes prefer a 
nonbinding agreement in order to avoid legal remedies. Nevertheless, 
the political inducements to comply with such agreements may be strong 
and the consequences of noncompliance may sometimes be serious.'' 
Sec. 301, Reporters' Note 2.
    In reality, therefore, there often is little practical difference 
in the international order between legally binding security 
commitments, which are normally unenforceable, and nonbinding security 
commitments, the breach of which can lead to disastrous costs, 
reputational and otherwise.
Long-standing Senate concern about tacit commitments
    The possibility that international commitments can be created 
implicitly through a combination of words and conduct gives rise to 
domestic constitutional concerns, for the Treaty Clause prohibits the 
President from making a treaty without the advice and consent of two-
thirds of the Senate, and the Declaration of War Clause confers upon 
Congress the decision to place the nation in a state of war.
    As you know, the question whether the President constitutionally 
can make security commitments on his own, without Senate or 
congressional approval, is not a new issue. In fact, this committee was 
the forum in which that question was debated at length in the 1960s and 
70s. The committee established a Subcommittee on United States Security 
Agreements and Commitments Abroad headed by Senator Stuart Symington. 
The Symington subcommittee held a lengthy series of hearings on the 
issue, as the full committee did later.
    Those hearings, and their collective wisdom, produced a measure 
that has abiding relevance. It is called the ``National Commitments 
Resolution'' and was adopted by the Senate in 1969. It warned that a 
national commitment ``results only from affirmative action taken by the 
executive and legislative branches of the U.S. Government by means of a 
treaty, statute, or concurrent resolution of both Houses of Congress 
specifically providing for such commitment.'' S. Res. 85, 91st Cong., 
1st Sess. (1969).
    Looking back, the National Commitments Resolution seems a bit 
impressionistic. It sets out no bright lines or three-part tests. But 
the Senators behind it--Symington, Fulbright, Mansfield, Church, Case, 
Javits, and Aiken--understood the need to focus on fundamentals and, by 
doing that, to set the framework for debate. And the National 
Commitments Resolution did precisely that. The resolution, and the 
thinking that animated it, laid the conceptual predicate for later 
efforts to rein in what many believed had become an ``imperial 
presidency'' in the realm of diplomacy. Following the resolution's 
logic, this committee led the Senate in an effort to curb unauthorized 
national commitments:

  <bullet> In December, 1970, after it was reported by the committee, 
        the Senate adopted S. Res. 469, 91st Cong., 2d Sess. (1970), 
        expressing the sense of the Senate that nothing in an executive 
        bases agreement with Spain should be deemed to be a national 
        commitment by the United States.
  <bullet> In March, 1972, The Senate adopted S. Res 214, 92d Cong., 2d 
        Sess. (1972), expressing the sense of the Senate that ``any 
        agreement with Portugal or Bahrain for military bases or 
        foreign assistance should be submitted as a treaty to the 
        Senate for advice and consent.''
  <bullet> In 1972, the committee declined to report the Vienna 
        Convention on the Law of Treaties in the belief that the rule 
        set out in Article 46 would permit the President to commit the 
        nation in violation of constitutional limits set out in the 
        Treaty Clause.
  <bullet> In 1972, Congress adopted the Case-Zablocki Act, Public Law 
        No. 92-403 (1972), requiring that the President to transmit to 
        Congress the text of any international agreement other than a 
        treaty as soon as practicable but no later than 60 days after 
        it entered into force.
  <bullet> On May 15, 1978, the Senate Foreign Relations Committee 
        reported a measure (section 502 of S. 3076, 95th Cong., 2d 
        Sess. (1978)) that would have subjected an unauthorized 
        agreement to a point-of-order procedure that would have cut off 
        funds for the implementation of the agreement in question, but 
        the measure was rejected by the full Senate. (Section 502 
        incorporated the ``Treaty Powers Resolution,'' S. Res. 24, 95th 
        Cong., 2d Sess. (1978)).
  <bullet> In September, 1978, the Senate adopted S. Res. 536, 95th 
        Cong., 2d Sess. (1978), stating the sense of the Senate that in 
        determining whether a particular international agreement should 
        be submitted as a treaty, the President should have the timely 
        advice of the Committee on Foreign Relations through agreed 
        procedures established with the Secretary of State.

    Mr. Chairman, I want to underscore the premise underpinning these 
steps, because that premise is directly pertinent to the proposed 
strategic framework with Iraq. The premise is that a national 
commitment can result not only from explicit words but can also result 
implicitly from deeds. The premise is that it is essential to look not 
only to text but also to the surrounding context--in its entirety--to 
determine whether a commitment in fact exists. The premise is that 
there is no bright line that separates commitment from noncommitment; 
that commitment often is subjectively created in the eye of the 
beneficiary state; and that all elements comprising the relevant 
bilateral relationship are pertinent. This committee put it well in its 
report on the National Commitments Resolution: ``Some foreign 
engagements,'' it said, ``such as our bases agreement with Spain, form 
a kind of quasi-commitment, unspecified as to their exact import but, 
like buds in springtime, ready under the right climatic conditions, to 
burst into full bloom.''
    This was the premise that led this committee and the Senate to urge 
that the base agreements with Portugal and Spain be submitted to the 
Senate as treaties. There was no formal, explicit, ``binding'' 
commitment by the United States to either Spain or Portugal. Rather, 
the committee, and the Senate, inferred from the surrounding context 
that the presence of bases in those countries constituted--in the words 
of the Symington subcommittee--de facto commitments. The full committee 
in its 1969 report on the National Commitments Resolution noted the 
real-world consequences of what it called a ``quasi-commitment'' to 
Spain:

          In practice the very fact of our physical presence in Spain 
        constitutes a quasi-commitment to the defense of the Franco 
        regime, possibly even against internal disruptions. At some 
        point the distinction between defending American lives and 
        property and defending the host government would be likely to 
        become academic, if not to disappear altogether. . . . It is 
        not difficult to envision a situation in which the need to 
        protect American servicemen would lead to large-scale military 
        intervention in Spain and, as a result, to another military 
        enterprise unauthorized by Congress.

    The Symington subcommittee listed a number of the contextual 
factors from which an implied commitment might reasonably be inferred: 
``Overseas bases, the presence of elements of United States Armed 
Forces, joint planning, joint exercises, or extensive military 
assistance programs represent to host governments more valid assurances 
of United States commitment than any treaty or executive agreement.'' 
It continued:

          [E]ach of these acts created an atmosphere in which the 
        United States was better prepared and more inclined to 
        undertake military action in the country in question; and the 
        host government was increasingly led to believe that such 
        actions would be taken should contingencies develop. An 
        expectation of involvement or action was created on both sides.

    The subcommittee recognized the practical reality that the mere 
presence of U.S. troops in a country entailed a U.S. military response 
if that country were attacked. It recalled the 1968 acknowledgement of 
GEN Earle Wheeler, then Chairman of the Joint Chiefs of Staff, that 
``the presence of United States troops on Spanish soil represented a 
stronger security guarantee than anything written on paper.'' Thus, the 
subcommittee found, ``[f]aith on both sides is no longer placed 
primarily in the language of treaties, but in the presence of United 
States forces or facilities in the territory of those countries which 
are seeking United States protection through involvement.''
Application to Iraq
    Whether denominated an ``implied,'' ``tacit,'' ``de facto,'' or 
``quasi'' commitment, the security arrangement with Iraq, viewed, as 
this committee has counseled that it must be, in light of the entire 
surrounding context, must reasonably be considered to constitute a 
national commitment of precisely the sort contemplated by the Senate in 
the National Commitments Resolution and its legislative progeny. Every 
one of the contextual factors identified by the Symington subcommittee 
as giving rise to an implicit security commitment appears to present in 
the planned security arrangement with Iraq.
    Verbal as well as nonverbal indicia of commitment support this 
conclusion. The November 26, 2007, ``Declaration of Principles for a 
Long-Term Relationship of Cooperation and Friendship Between the 
Republic of Iraq and the United States of America'' lays out the 
substance of what the United States and Iraq intend to agree upon in 
negotiations to be concluded before the end of this year. According to 
the Declaration of Principles, the Agreement will, among other things, 
provide ``security assurances and commitments . . . to deter foreign 
aggression against Iraq that violates its sovereignty and integrity of 
its territories, waters, or airspace.'' Further, the Agreement will 
commit the United States to defend Iraq not simply against foreign 
aggression but ``against internal and external threats,'' and will 
commit the United States to support the Iraqi Government in its effort 
to ``defeat and uproot'' ``all outlaw groups'' from Iraq. The proposed 
Agreement apparently will have no expiration date and no termination 
provision.
    More important than these words, however, will be conduct. 
Thousands of members of the U.S. Armed Forces will continue to be 
stationed in Iraq. If attacked, those forces will no doubt become 
engaged in hostilities. Significant casualties over a protracted period 
of time are possible, particularly if the United States becomes 
involved in a wider regional conflict. Substantial military bases and 
other facilities apparently will continue to be maintained in Iraq. 
Joint planning will take place with the Iraqi armed forces, police, and 
other security elements. Joint exercises will be held. An extensive 
military assistance program will be carried out. Continued 
appropriations of public funds will unavoidable.
    There can be little doubt, therefore, that whatever caveat or 
disclaimer the United States might formally apply in purporting to 
qualify its involvement, the Iraqi Government might reasonably conclude 
that the new strategic framework constitutes a national commitment by 
the United States. These and other factors, taken together, constitute, 
in the words of Senator Symington's subcommittee, ``more valid 
assurances of United States commitment than any treaty or executive 
agreement.''
Implications for the Senate's treaty power
    The Framers of the Constitution believed that such a commitment 
should not be made unless it is accorded the advice and consent of two-
thirds of the Senate as a treaty.
    On some matters, it is true, the intent of the Constitution's 
Framers is opaque. As Justice Jackson wrote, their purposes often must 
be ``divined from materials almost as enigmatic as the dreams Joseph 
was called upon to interpret for Pharaoh.'' Youngstown Sheet & Tube Co. 
v. Sawyer (Steel Seizure), 343 U.S. 579, 634 (1952). Here, however, 
their intent is luminously clear. I will focus on one, Alexander 
Hamilton, because he was the Framer least enthusiastic about 
legislative power. Hamilton wrote extensively about the treaty power. 
His views are therefore as significant as they are representative. 
Hamilton considered the treaty clause ``one of the best digested and 
most unexceptionable parts of the plan.'' The Federalist No. 75 
(Alexander Hamilton). He opined that ``the vast importance of the 
trust, and the operation of treaties as laws, plead strongly for the 
participation of the whole or a portion of the legislative body in the 
office of making them.'' Id. Hamilton noted that although the King of 
England could make treaties by himself, this power was denied to the 
President: ``In this respect, therefore, there is no comparison between 
the intended power of the President and the actual power of the British 
sovereign. The one can perform alone what the other can do only with 
the concurrence of a branch of the legislature.'' The Federalist No. 69 
(Alexander Hamilton). Hamilton therefore considered ``it would be 
utterly unsafe and improper to entrust that power to an elective 
magistrate of four years' duration.'' He concluded with a famous 
warning:

          The history of human conduct does not warrant that exalted 
        opinion of human virtue which would make it wise in a nation to 
        commit interests of so delicate and momentous a kind, as those 
        which concern its intercourse with the rest of the world, to 
        the sole disposal of a magistrate created and circumstanced as 
        would be a President of the United States. The Federalist No. 
        75 (Alexander Hamilton).

    The institutional virtues of the Presidency famously identified by 
Hamilton--unity, secrecy, and dispatch--have no relevance to the 
conclusion of a strategic arrangement with Iraq. No emergency exists: 
The administration has known since last year that the Government of 
Iraq wishes to enter into a bilateral arrangement with the United 
States to replace the governing U.N. Security Council resolution, which 
expires at the end of this year. If the process of negotiating a new 
security arrangement, or approving it as a treaty, necessarily extends 
beyond the end of this year, there is no reason why the Security 
Council resolution itself cannot be extended, as was in fact done 
before. Extension of the resolution would, indeed, have the salutary 
effect of involving the next administration in the process of 
formulating the terms of the security arrangement, which seems fitting 
inasmuch as it is, after all, the next administration that will be 
called upon to execute it.
    The unity and secrecy of the Executive are similarly more vice than 
virtue in the making of a security arrangement with Iraq. The approval 
process will be strengthened by the expression of diverse views. 
Executive officials normally are chosen for their support of an 
administration's policies. When the spread of opinion voiced in the 
decisionmaking process is overly narrow, its legitimacy suffers. The 
Senate, on the other hand, is a clearinghouse for multiple opinions. 
Deputy assistant secretaries of state do not fly home regularly to 
Indianapolis or Wilmington or Hartford to get an earful of constituent 
opinion about taxes, combat deaths, and war costs. Senators do. The 
sense that their viewpoints have been heard and considered gives 
divergent constituencies a sense of participation in policymaking that 
is crucial to a policy's legitimacy. Public deliberation in considering 
those views is a further element that is essential for legitimacy; the 
Senate was, of course, designed for deliberation. Anonymous staffers of 
the National Security Council who meet in secret, however great their 
expertise, cannot confer the needed measure of legitimacy on a policy. 
In short, the policy outcome is strengthened if the process is seen by 
the public as ``regular,'' as having produced a decision as a matter of 
right. This is perhaps why the Supreme Court has emphasized the 
importance of free and open debate to the proper operation of separated 
powers. It said:

          That this system of division and separation of powers 
        produces conflicts, confusion, and discordance at times is 
        inherent, but it was deliberately so structured to assure full, 
        vigorous and open debate of the great issues affecting the 
        people and to provide avenues for the operation of checks on 
        the exercise of governmental power. Bowsher v. Synar, 106 S. 
        Ct. 3181, 3187 (1986).

    An executive decisionmaking process removed from the full panoply 
of public or at least congressional opinion easily falls prey to the 
peculiar distortions of groupthink, to the pressures that cause the 
myopia of the quick fix to substitute for insight of statesmanship. 
Diversity of viewpoint is thus a crucial means of avoiding error and of 
achieving consensus. The greater the number of viewpoints heard, the 
greater the likelihood that the resulting policy will reflect 
accurately the common interests of the whole.
    An open treaty-making process of the sort contemplated by the 
Framers injects productive new ideas into policy. It is no secret that 
the United States has no national strategy in Iraq. The ``surge'' is 
not a strategy. A funding cutoff is not a strategy. The United States 
has yet to develop a national consensus in answering the overarching 
question: What long-term support should the United States provide Iraq 
as the United States seeks to promote stability in the Middle East? The 
American people have a huge and obvious stake in their government's 
answer to that question. That answer ought not be worked out behind 
closed doors, solely between negotiators for Iraq and the current 
administration--an administration that will be in office for less than 
3 weeks after the new arrangement takes effect. It is entirely 
conceivable that open, robust debate in the Senate could generate a 
national consensus around a genuine strategy for supporting long-term 
regional stability. Potentially new and different options could emerge 
from Senate debate, concerning, perhaps, broadening the negotiating 
process to include states other than just Iraq and developing a genuine 
collective regional security arrangement. Perhaps the Senate would 
insist upon an Iraqi commitment to movement toward political 
reconciliation as a condition for any U.S. commitment to Iraq. There 
are many possibilities. In any case, the United States needs a national 
strategy for dealing with Iraq in the coming years. The Senate is not 
only the logical place to develop that strategy--it is the 
constitutionally required place to do so.
    Open Senate consideration of the security arrangement as a treaty 
would also ensure that the United States and Iraq share the same 
understanding of what the arrangement means. It imputes no ill intent 
to the Executive to observe that the administration has an 
understandable incentive to overstate the scope of the security 
arrangement in its communications with the Iraqis and to understate the 
scope of the arrangement in its communication with the Congress. It is 
essential that the Congress not be led to believe that there is no 
security commitment if there is one. It is also essential that the 
Iraqis not be led to believe that there is a security commitment if 
there is not one. When it comes to the role of the United States in 
Iraq's future security, Congress and Iraq must be on the same page. If 
they are not, the consequences could be catastrophic, both 
internationally and domestically.
    Why not include the House of Representatives? All are familiar with 
George Washington's famous suggestion that the Senate was to be the 
proverbial saucer where hot ideas from the cup of the House cooled. 
There is, in fact, continuing truth in the metaphor. A 6-year term does 
provide a measure of insulation from sometimes excessive popular 
pressure. Long-term national security strategy should weigh public 
opinion heavily, but cannot be automatically dictated by it. With two-
thirds of the Senate not facing immediate reelection, Senators are 
better situated institutionally to formulate prudent policies that 
reflect the nation's long-term interests. In any event, while it is 
surely true that many international agreements are in this day and age 
approved as ``congressional-executive agreements''--i.e., authorized by 
majority votes in both the House and Senate--there are sound 
interpretive reasons for construing the Constitution as not viewing 
these as interchangeable with treaties. The view that the President is 
constitutionally free to designate any agreement a congressional-
executive agreement, and thereby to lower the Senate's required 
approval margin from two-thirds to one-half, would altogether eliminate 
a key check on the President's power that the Framers placed 
purposefully and explicitly in the constitutional text. Some 
international arrangements, constitutionally, must be concluded as 
treaties. The President cannot, as the late Philip Kurland put it, call 
a treaty something other than a treaty and thereby dispense with the 
obligation to secure Senate approval. Philip Kurland, ``The Impotence 
of Reticence,'' 1968 Duke L.J. 619, 626. That would also seem to be the 
view of the United States Supreme Court, which in the famous case of 
Missouri v. Holland, 252 U.S. 416 (1920), emphasized that the treaty 
power is broader than the legislative power, implying that treaties and 
executive agreements are not interchangeable instruments.
    If some agreements must be concluded as treaties, it makes sense to 
think that the most important agreements must be so concluded. It was 
for these reasons that this committee has said that ``[t]he Treaty 
Clause requires that, normally, significant international commitments 
be made with the concurrence of two-thirds of the Senate. Acting on the 
basis of his sole constitutional power, the President would be without 
the power to enter into such an agreement.'' Exec. Rept. No. 95-12, 
95th Cong., 2d Sess. (Panama Canal Treaties). It would be hard to 
conceive of an international agreement more significant than the new 
security arrangement being negotiated with Iraq. The proverbial Martian 
stepping off a flying saucer could only react with bewilderment in 
comparing the proposed security arrangement to the international 
agreements that this administration has submitted to the Senate for its 
advice and consent as treaties. Among them are an agreement to control 
antifouling systems on ships, an agreement against doping in sports, an 
agreement governing the international registration of industrial 
designs, and a treaty to govern port privileges for tuna ships. It is 
hard to understand how the United States Constitution could seriously 
require Senate advice and consent to the regulation of steroids, bilge 
pumps, and tuna boats but not to a de facto commitment to use armed 
force to defend another government--from its own people.
    The argument will no doubt be heard that submission of the Iraq 
security arrangement as a treaty would complicate United States-Iraqi 
relations or somehow delay the implementation of needed initiatives. 
But it would be useful to remember, as Justice Brandeis reminded us, 
that the Constitution's separation of powers doctrine is designed not 
to promote efficiency but to save the people from autocracy. One of the 
key structural safeguards in that design is the check on executive 
power provided by the requirement that two-thirds of the Senate approve 
treaties. It is perilous to disregard such checks in the cause of 
administrative convenience. This committee put it well in its 1979 
report on treaty termination:

          The constitutional role of the Congress has too often been 
        short-circuited because it was viewed--in the executive branch 
        and even by some Members of Congress--as an impediment to the 
        expeditious adoption of substantive policies commanding the 
        support of a majority. Thus, when in our recent history the 
        substance of those policies lost that support, the procedures 
        once available as checks had atrophied, and Congress was forced 
        to struggle to reclaim its powers. The lesson was learned the 
        hard way: Procedural requirements prescribed by the 
        Constitution must not be disregarded in the name of efficiency, 
        and the substance of a policy, however attractive, can never 
        justify circumventing the procedure required by the 
        Constitution for its adoption. S. Rept. No. 96-119 at 5-6 
        (1979).
Conclusion
    For these reasons, Mr. Chairman, I believe that new security 
framework arrangement with Iraq should be submitted to the Senate for 
its advice and consent as a treaty. I have not yet addressed 
constitutional requirements that govern the use of force within that 
framework, or whether constitutional requirements governing use of 
force are now being met in Iraq or will be met when the current 
Security Council resolution, Res. 1790, expires on December 31. If the 
constitutional requirements are being met, it is arguable that the same 
authorities that permit use of force also permit conclusion of the new 
security arrangement without a need for further authorization. It is to 
these crucial questions that I now turn.
                   authority for use of force in iraq
    The administration has cited a number of potential sources of 
authority for use of force in Iraq. In a February 13, 2008, opinion 
piece in the Washington Post, Secretary of State Condoleezza Rice and 
Secretary of Defense Robert Gates wrote that the new security 
arrangement with Iraq would include a provision that, in their words, 
confers ``authority to fight.'' In a March 5, 2008, letter to 
Representative Gary Ackerman, Jeffrey T. Bergner, Assistant Secretary 
for Legislative Affairs of the Department of State, transmitted a paper 
from Ambassador David M. Satterfield, dated March 4, 2008, responding 
to Representative Ackerman's question whether the administration 
believes it has constitutional authority to continue combat operations 
in Iraq beyond the end of this year absent explicit additional 
authorization from Congress. He answered in the affirmative. The 
President's authority, Ambassador Satterfield wrote, would derive from 
four sources:
          (1) His constitutional authority as Commander in Chief;
          (2) The Joint Resolution to Authorize the Use of United 
        States Armed Forces Against Iraq, Public Law 107-243, enacted 
        October 2, 2002;
          (3) The Authority for Use of Military Force (AUMF), Public 
        Law 107-40, enacted September 18, 2001; and
          (4) The fact that ``Congress has repeatedly provided funding 
        for the Iraq war, both in regular appropriations cycles and in 
        supplemental appropriations.''
    In my opinion, authority to use force in Iraq will not be conferred 
after December 31, and is not currently conferred, by any of those 
sources. To summarize my view, an executive agreement cannot confer 
authority to use force. A statute can confer such authority, but the 
Constitution prohibits use of force that exceeds statutorily authorized 
limits. Force now being used in Iraq exceeds the limits imposed by both 
the 2002 Joint Resolution and the AUMF. The 2002 Joint Resolution 
authorizes use of force against Iraq for two purposes: To ``defend the 
national security of the United States against the continuing threat 
posed by Iraq,'' as its resolution put it, and to ``enforce all 
relevant United Nations Security Council resolutions regarding Iraq.'' 
The first purpose has been fulfilled: The ``continuing threat'' posed 
by Iraq was seen as stemming from the Government of Iraq--principally 
the regime of Saddam Hussein, and that regime is gone. The second 
purpose also has been fulfilled: ``All relevant United Nations Security 
Council resolutions'' referred to resolutions in effect at the time of 
enactment of the 2002 Joint Resolution, and, to the extent that they 
are still relevant, the current Iraqi Government is now in compliance 
with them. A contrary interpretation would raise serious delegation, 
presentment and appointments problems under the Constitution and should 
therefore be avoided. As to the AUMF, while it does permit the use of 
force against ``organizations'' that ``planned, authorized, committed, 
or aided the terrorist attacks that occurred on September 11, 2001,'' 
and while force currently is being used against al-Qaeda in Iraq, it is 
doubtful whether al-Qaeda in Iraq is the same organization that engaged 
in the 2001 attacks, and in any event force is being used in Iraq 
against persons and entities not related to al-Qaeda in Iraq. Authority 
to use force cannot lawfully be inferred from either of these two 
ambiguous statutes, or from subsequent appropriations statutes; such an 
inference is prohibited under the section 8(a)(1) of the War Powers 
Resolution, which requires that use of force be specifically 
authorized. An elaboration follows.
The President's Commander-in-Chief power as authority to use force in a 
        limited or ``imperfect'' war
    The starting point must be the Constitution. In its earliest cases, 
the Supreme Court recognized a President's obligation to respect 
congressional restrictions when Congress has authorized ``imperfect 
war''--a war fought for limited purposes. In an imperfect war, Justice 
Bushrod Washington said in Bas v. Tingy, 4 U.S. 37, 41 (1800), those 
``who are authorized to commit hostilities . . . can go no farther than 
to the extent of their commission.'' The following year, in Talbot v. 
Seeman, 5 U.S. 1, 27 (1801), Chief Justice John Marshall wrote that 
``[t]he whole powers of war being, by the Constitution of the United 
States, vested in Congress, the acts of that body can alone be resorted 
to as our guides in this enquiry.'' In the 2001 AUMF and in the 2002 
Joint Resolution on Iraq, Congress in effect authorized limited or 
``imperfect'' war. The President is therefore constitutionally required 
to respect the limits imposed in those two laws; Congress has 
implicitly prohibited any use of force not authorized therein, and the 
President's authority is at its ``lowest ebb''--lower than it might 
have been had Congress been silent. This is the critical lesson 
imparted by Justice Jackson's famous concurring opinion in the Steel 
Seizure case, 343 U.S. 579 (1952), which has since been adopted by the 
Supreme Court as the governing analytic framework.
An executive agreement as authority to use force
    Ambassador Satterfield did not, in his March 4 paper, refer to the 
February 13, 2008, opinion by Secretary of State Condoleezza Rice and 
Secretary of Defense Robert Gates suggesting that the new arrangement 
will confer ``authority to fight.'' In any case, whatever the import of 
such a provision under international law,\1\ under U.S. domestic law, 
authority for the President to use force--``authority to fight''--in 
Iraq must come from either the Constitution or the Congress. The 
arrangement with Iraq, if entered into as a sole executive agreement, 
therefore could not serve as a source of such authority. The question 
whether a sole executive agreement can provide authority to use force 
was put to the State Department during the administration of President 
Gerald Ford. In connection with the appearance of Secretary of State 
Henry Kissinger's appearance before the Senate Foreign Relations 
Committee on November 19, 1975, Senator Dick Clark submitted the 
following written question to the Department of State: ``Does any 
executive agreement authorize the introduction of U.S. Armed Forces 
into hostilities, or into situations wherein imminent involvement in 
hostilities is clearly indicated by the circumstances?'' Assistant 
Secretary of State Robert J. McCloskey responded as follows on March 1, 
1976, in a letter to Senator Clark:
---------------------------------------------------------------------------
    \1\ Under international law, police activities, enforcement action 
and other uses of force by one state within the territory of another 
state are permitted if the government of that state consents. 
Provisions such as those in question could constitute consent by the 
government of Iraq for use of force by the United States within the 
territory of Iraq. Of course, any relevant limitations or restrictions 
imposed by humanitarian law (concerning, for example, requirements of 
humane treatment, proportionality, or the need to distinguish between 
combatants and noncombatants) would apply to any use of force by the 
United States. There is authority that a government cannot, under 
international law, lawfully consent to military intervention by another 
state if significant areas of its country or substantial parts of its 
population are under the control of an organized insurgency--i.e., if 
the country is in a civil war. The theory is that principles of self-
determination require that the people of a state be permitted to 
determine their own destiny free from outside interference. According 
to this theory, intervention in a civil war is impermissible whether 
that intervention occurs on behalf of the sitting government or on 
behalf of insurgents--unless another state has intervened unlawfully on 
behalf of either, in which case ``counter-intervention'' is permitted 
on behalf of the other side. These rules have been violated so many 
times by so many states in so many conflicts, however, that it is in my 
opinion doubtful whether they now constitute binding international law. 
As a question of fact it is, moreover, doubtful whether the insurgency 
in Iraq has risen to a level that would constitute a civil war for 
international law purposes, although that could of course change over 
the period within which any security arrangement is in effect.

          The answer is ``no.'' Under our Constitution, a President may 
        not, by mere executive agreement, confer authority on himself 
        in addition to authority granted by Congress or the 
        Constitution. The existence of an executive agreement with 
        another country does not create additional power. Similarly, no 
        branch of the Government can enlarge its power at the expense 
        of another branch simply by unilaterally asserting enlarged 
---------------------------------------------------------------------------
        authority.

    The State Department's 1976 conclusion was correct. The President 
cannot confer upon himself authority to use force. So obvious is this 
principle that, when Congress made clear in 1973 in the War Powers 
Resolution (in section 8(a)(2)) that no treaty may be construed as 
conferring implied authority to use force, it made no reference to 
executive agreements. Congress no doubt deemed it unnecessary to affirm 
that if a treaty approved by two-thirds of the Senate cannot provide 
such authority, a fortiori a sole executive agreement cannot.
A treaty as authority to use force
    Even if the new security arrangement were accorded the Senate's 
advice and consent as a treaty, it could not constitutionally authorize 
the use of force. Authority to use force would have to be conferred by 
implementing legislation, the enactment of which would of course 
include participation by the House of Representatives.
    ``A treaty may not declare war,'' the Senate Foreign Relations 
Committee said in its report on the Panama Canal Treaties, ``because 
the unique legislative history of the declaration-of-war clause . . . 
clearly indicates that that power was intended to reside jointly in the 
House of Representatives and the Senate.'' S. Exec. Doc. No. 95-12, at 
65 (1978). The events to which the committee alluded are recorded in 
Madison's notes of the Constitutional Convention. The Convention 
considered a proposal that would have permitted the President to make 
war by and with the advice and consent of the Senate, and the plan was 
rejected. The plan was rejected in the face of arguments that both 
Houses of Congress should participate in the decision to go to war. 
Accordingly, the United States has never entered into a treaty that 
would have placed the nation in a state of war. The Covenant of the 
League of Nations was rejected by the Senate in part because of concern 
that it would oblige the United States to use force if so required by 
the League's Assembly. In each of its post-World War II mutual security 
treaties, the United States has therefore made clear that none of those 
treaties imposes an automatic obligation upon the United States to use 
force.
The 2002 Joint Resolution as authority to use force
    Section 3 of the 2002 Joint Resolution provides as follows:

          (a) Authorization.--The President is authorized to use the 
        Armed Forces of the United States as he determines to be 
        necessary and appropriate in order to--
                  (1) defend the national security of the United States 
                against the continuing threat posed by Iraq; and
                  (2) enforce all relevant United Nations Security 
                Council resolutions regarding Iraq.

    The resolution provided no automatic termination date and remains 
in effect until these objectives are accomplished. Each of the two 
``prongs'' will be examined in turn.
            The first prong: A ``continuing threat posed by Iraq''?
    The first question is whether the joint resolution continues to 
authorize use of force on the basis of its first prong--defense against 
``the continuing threat posed by Iraq.'' A review of the resolution's 
text and legislative history reveals that it does not. The ``continuing 
threat'' referred to the danger posed in 2002 and earlier by the 
Government of Iraq. That threat was seen to flow from the regime's 
pursuit and possession of weapons of mass destruction. Iraq, the joint 
resolution noted, ``attempted to thwart the efforts of weapons 
inspectors to identify and destroy'' these weapons. The joint 
resolution found that Iraq continued ``to possess and develop a 
significant chemical and biological weapons capability,'' actively 
sought a nuclear capability, and supported and harbored terrorist 
organizations. The threat, the resolution found, was that ``the current 
Iraqi regime'' would either employ weapons of mass destruction in a 
surprise attack against the United States or ``provide them to 
international terrorists who would do so.''
    That threat is gone. Saddam Hussein's regime is history, and the 
threat posed by it is gone. Hussein is dead. A different government is 
in place. It does not possess or seek weapons of mass destruction. It 
does not support or harbor terrorists. There are, of course, terrorists 
present in Iraq today who pose a threat to American troops there. They 
may someday pose a threat to the general U.S. population. But Congress 
in 2002 authorized use of force against the old Iraqi Government, not 
against groups unaffiliated with Saddam Hussein's regime (many of which 
actually opposed it).
    Our starting point is of course the text of the joint resolution. 
In and of itself, the text of the first prong says little about the 
scope of the ``continuing threat posed by Iraq.'' Two aspects of the 
wording are significant, however. First, the text refers to the 
continuing threat posed ``by Iraq''--not a continuing threat from Iraq. 
The joint resolution is not, and was not intended to be, an open-ended 
authorization to use force against any future threat arising from a 
group within the territory of Iraq. Its sponsors had in mind a 
particular ``continuing threat''--one emanating in some way from the 
Iraqi Government. Second, the threat in question was ``continuing,'' 
i.e., it is one that existed before the joint resolution was adopted 
and would continue to exist afterward, until it could be eliminated 
with the use of force. Threats that emerged after the enactment of the 
joint resolution therefore would not be continuing threats--they would 
not have continued from the period before use of force was authorized. 
Whatever threat may be posed today by entities that were not operating 
within Iraq before enactment of the joint resolution--such as, for 
example, al-Qaeda in Iraq--these are not among the entities against 
which the joint resolution authorizes the use of force.
    During the debate over this authorization and the decision to go to 
war, the most cited threat posed by Iraq was that arising from Iraq's 
programs to develop weapons of mass destruction. Nevertheless, based on 
the legislative history of the resolution, it is not possible to 
construe the authorization as limited to the threat posed by Iraqi 
weapons of mass destruction. Nor was the authorization limited to the 
WMD threat posed by the regime of Saddam Hussein. Several amendments 
offered in the House and the Senate that would have imposed such 
restrictions were rejected. In the House Committee on International 
Relations, Representative Smith proposed an amendment that would have 
substituted the words ``the current Iraqi regime'' for ``Iraq.'' The 
amendment was rejected by committee. H. Rept. No. 107-721, at 38 
(2002). In the Senate, Senator Durbin proposed an amendment that would 
have replaced the words ``the continuing threat posed by Iraq'' with 
``an imminent threat posed by Iraq's weapons of mass destruction.'' 148 
Cong. Rec. S10229 (daily ed. Oct. 9, 2002) (text of Amend. 4865). That 
amendment was rejected by the Senate. 148 Cong. Rec. S10272 (daily ed. 
Oct. 10, 2002) (Rollcall Vote No. 236 Leg.).
    The House committee report likewise confirms that the ``continuing 
threat posed by Iraq'' was not limited to the primary threat of Iraq's 
weapons of mass destruction, though it does focus on the Iraqi 
Government in power at the time. The report's description of ``The 
Current Threat in Perspective'' mentions the threat posed by the Iraqi 
Government's aid to and harboring of terrorist organizations. H. Rept. 
No. 107-721, at 6-8 (2002). The Report declares that:

          The current Iraqi government's demonstrated capability and 
        willingness to use weapons of mass destruction, the risk that 
        the current Iraqi regime will either employ those weapons to 
        launch a surprise attack against the United States or its Armed 
        Forces or provide them to international terrorists who would do 
        so, and the extreme magnitude of harm that would result to the 
        United States and its citizens from such an attack, combine to 
        justify action by the United States to defend itself. H. Rept. 
        No. 107-721, at 7 (2002)(emphasis added).

    Nevertheless, the House committee report repeatedly uses the 
``Iraqi regime'' as a code word for ``the Baathist government of Iraq 
led by Saddam Hussein.'' The report traces the history of Iraqi 
aggression and obstinacy in the face of international demands for 
transparence and compliance with human rights law and international 
standards for inspection and monitoring of its WMD-capable facilities. 
The report notes specifically:

          Iraq both poses a continuing threat to the national security 
        of the United States and international peace and security in 
        the Persian Gulf region and remains in material and 
        unacceptable breach of its international obligations by, among 
        other things, continuing to possess and develop a significant 
        chemical and biological weapons capability, actively seeking a 
        nuclear weapons capability, and supporting and harboring 
        terrorist organizations. The continuing threat posed by Iraq is 
        the motivation for the committee's favorable action on H.J. 
        Res. 114.

    The report highlights repeated Iraqi renunciations of its 
obligations under U.N. Security Council resolutions, ``brutal 
repression of its civilian population,'' Iraqi ``capability and 
willingness'' to use WMD externally and internally (against Iran and 
its own Kurdish citizens), and continuous hostile acts toward the U.S., 
including the attempt to assassinate former President G.H.W. Bush in 
1993. The report cites Iraqi attacks on U.S. and coalition aircraft 
enforcing the unilaterally imposed no-fly zones over northern and 
southern Iraq.
    These are the sorts of ``continuing threats'' that Congress had in 
mind.
    It is thus clear from the House committee report, the floor debate, 
and the text of the joint resolution itself that the authorization's 
supporters were concerned about the continuing threat posed by the 
Government of Iraq, not a threat from terrorist groups operating in 
Iraq or from Iraq. Numerous Members of the House saw the ``continuing 
threat'' as stemming from the then-existing Iraqi Government.
    The same was true in the Senate. This interpretation is supported 
specifically by discussion in the Senate surrounding an amendment 
proposed by Senator Bob Graham that would have added authorization to 
``defend the national security of the United States against the threat 
posed by the following terrorist organizations: (A) The Abu Nidal 
Organization, (B) Hamas, (C) Hezbollah, (D) Palestine Islamic Jihad, 
(E) Palestine Liberation Front.'' 148 Cong. Rec. S10088 (daily ed. Oct. 
8, 2002) (text of Amend. 4857). In opposing the amendment, Senator 
Joseph Lieberman, one of the original cosponsors of the Senate version 
of the text that became H.J. Res. 114 (2002), argued that this would 
``open up new territory,'' 148 Cong. Rec. S10159 (daily ed. Oct 9, 
2002), and would likely be opposed by Senate Democrats, but he did not 
suggest that the authority to use force against terrorist organizations 
was already contained in the underlying resolution. Rather, he 
characterized the Authorization as follows:

    [I]n responding to the threat to our national security posed by 
Iraq under the leadership of Saddam Hussein, it represents our best 
effort to find common ground to dispatch our constitutional 
responsibility and to provide an opportunity for the broadest 
bipartisan group of Senators to come together and express their support 
of action to enforce the United Nations resolutions that Saddam Hussein 
has constantly violated. . . . 148 Cong. Rec. S10159 (daily ed. Oct 9, 
2002) (emphasis added).

    To conclude, both the text and legislative history of the joint 
resolution indicate that the authorization to use force in Iraq was 
limited to the continuing threat posed by the Government of Iraq, in 
particular, but not limited to, the regime of Saddam Hussein and the 
threat of weapons of mass destruction. At present, U.S. forces in Iraq 
are engaged in the joint use of force with Iraqi forces and President 
Bush has praised the leadership of Iraqi Prime Minister Nouri al-
Maliki. It is hard to see how any ``continuing threat''--a threat that 
has continued since before 2002--is still posed by that government.
    The most sensible conclusion, therefore, is that the first prong of 
the 2002 Joint Resolution is no longer available as a source of 
authority to use force in Iraq.
            The second prong: ``enforce all relevant Security Council 
                    resolutions''?
    The second prong of the 2002 Joint Resolution further authorizes 
the use of force to ``enforce all relevant United Nations Security 
Council resolutions regarding Iraq.'' To the extent that any 
resolutions adopted before enactment of the 2002 Joint Resolution are 
still applicable, all have been honored by the Iraqi Government; the 
United States surely is not contemplating the use of force to enforce 
them against that government. The question, therefore, is the meaning 
of ``relevant'': Does the term, as used in the second prong, refer to 
future United Nations Security Council resolutions--resolutions 
relevant to Iraq that might at some point in the future be adopted by 
the Security Council? The joint resolution, it is worth noting, does 
not set a pertinent time period; if it were construed as authorizing 
force to enforce a future Security Council resolution, there would be 
no reason, in other words, to believe that that authority would not 
continue indefinitely into the future, until the 2002 Joint Resolution 
is formally repealed.
    The text of the second prong is ambiguous. The legislative history, 
however, is not. Congress appears clearly to have intended to authorize 
the enforcement of those Security Council resolutions outstanding at 
the time of the enactment and, at most, a limited set of potential 
future Security Council resolutions directed at implementing the 
outstanding resolutions. This set of future resolutions would not 
include Resolution 1790, which provides the current mandate for the 
Multinational Force in Iraq.
    The second prong of the Authorization is not the only reference to 
``all relevant Security Council resolutions'' in the 2002 Joint 
Resolution. 107 Public Law No. 243 Sec. 2(2) (2002). The immediately 
preceding section expresses congressional support for U.S. diplomatic 
initiatives regarding Iraq using the same language regarding Security 
Council resolutions. In addressing this provision, the House committee 
report specified exactly what constitutes a relevant Security Council 
resolution for these purposes:

          This section states that Congress supports the efforts of 
        President Bush to strictly enforce, through the United Nations 
        Security Council, all Security Council resolutions adopted 
        prior to the enactment of this Act addressing the threats posed 
        by Iraq, or adopted afterward to further enforce the earlier 
        resolutions. H. Rept. No. 107-721, at 41 (2002) (emphasis 
        added).

    The use of the same language in the subsequent section authorizing 
the use of the Armed Forces implicitly includes the same set of 
Security Council resolutions.
    Further support for this interpretation is provided by statements 
made during the House and Senate floor debates by Representative 
Richard Gephardt and Senator Lieberman, the original cosponsor and 
sponsor of the House and Senate versions of the bill, respectively, who 
played a significant role in managing the debate over H.J. Res. 114. In 
the House, Representative Gephardt stated:

          The resolution and its accompanying report define the threat 
        posed by Iraq as consisting primarily of its weapons of mass 
        destruction programs and its support for international 
        terrorism. They also note that we should continue to press for 
        Iraqi compliance with all outstanding U.N. resolutions, but 
        suggest that we only contemplate using force to implement those 
        that are relevant to our nation's security.
          As for the duration of this authorization, this resolution 
        confines it to the continuing threat posed by Iraq; that is, 
        its current and ongoing weapons programs and support for 
        terrorists. We do not want Congress to provide this or 
        subsequent Presidents with open-ended authority to use force 
        against any future threats that Iraq might pose to the United 
        States that are not related to its current weapons of mass 
        destruction programs and support for international terrorism. 
        The President would need to seek a new authorization from 
        Congress to respond to any such future threats. 148 Cong. Rec. 
        H7779 (daily ed. Oct. 10, 2002) (emphasis added).

    In the Senate, Senator Lieberman emphasized that the two prongs of 
the Authorization are linked and that relevant resolutions are those 
relating to the continuing threat by Iraq:

          It seems to me these two parts have to be read in totality as 
        modifying each other. The resolutions that are relevant in the 
        U.N. Security Council are to be enforced particularly in 
        relationship to the extent to which they threaten the national 
        security of the United States. In doing this, we are expressing 
        our understanding that the President is unlikely to go to war 
        to enforce a resolution of the United Nations that does not 
        significantly affect the national security of the United 
        States. 148 Cong. Rec. S10269 (daily ed. Oct 10, 2002) 
        (emphasis added).

    The legislative history thus conclusively reveals that the second 
prong of the 2002 Joint Resolution was intended to authorize (1) the 
enforcement of preexisting Security Council Resolutions and (2) at 
most, future Security Council resolutions that were aimed at 
implementing the earlier resolutions and were related to ``the 
continuing threat posed by Iraq.'' Security Council Resolution 1790--
the current U.N. authorization for the Multinational Force--does not 
fall within the scope of either class.
    Neither Resolution 1790 nor preceding resolutions passed to 
authorize the Multinational Force in Iraq can be construed as 
resolutions aimed at implementing resolutions that were active at the 
time H.J. Res. 114 was passed. Security Council Resolution 1790 renews 
the mandate of Security Council Resolution 1546 (2004). During the 
period in which the Coalition Provisional Authority exercised sovereign 
control over Iraq, the Multinational Force was authorized by Security 
Council Resolution 1511 (2003). Not one of these resolutions makes any 
reference, even in preambular language, to Security Council Resolution 
687 or any other resolution relating to Iraq that was in force when the 
2002 Joint Resolution was passed. Nothing in Resolution 1790 suggests 
that it was adopted to implement or enforce resolutions that were 
outstanding in October 2002 when Congress's joint resolution was 
enacted.
    If the 2002 Joint Resolution were to be interpreted as authorizing 
the enforcement of an unlimited set of future resolutions regarding 
Iraq that the Security Council might pass, three potentially serious 
constitutional problems would arise.
    The first concerns the delegation of legislative power. The 
doctrinal specifics of constitutional jurisprudence governing the 
delegation of power to international organizations are amorphous; 
however, the constitutional principle that restricts the domestic 
delegation of legislative power--the principle that no delegated powers 
can be further delegated (delegate potestas non potest delegari)--would 
seemingly apply equally to international delegations. Among the 
domestic branches of the U.S. Government, the delegation doctrine 
precludes Congress from delegating power without providing an 
``intelligible principle'' to guide its application. J.W. Hampton, Jr., 
& Co. v. United States, 276 U.S. 394, 409 (1928) Internationally, an 
open-ended grant of power to the U.N. Security Council to determine--
within U.S. domestic law--the time, place, manner, and objectives of 
U.S. use of force in Iraq would squarely raise such concerns. Although 
not expressed in explicit constitutional terms, the statements by a 
number of Senators who opposed the Levin amendment reflected the same 
concern. The Levin amendment would have made Congress's authorization 
contingent upon a resolution from the U.N. Security Council authorizing 
the use of force; a number of Senators were concerned that its adoption 
would give the Security Council a veto over U.S. security policy in 
Iraq. President Bush himself expressed similar concerns in signing the 
United States-India Peaceful Atomic Energy Cooperation Act. The law as 
enacted prohibits the transfer of nuclear material to India in 
violation of guidelines set by the Nuclear Suppliers Group, a 
consortium of 40 nuclear fuel producing nations that includes the 
United States. The President's December 8, 2006, signing statement said 
that ``a serious question would exist as to whether the provision 
unconstitutionally delegated legislative power to an international 
body,'' and that to ``avoid this constitutional question'' his 
administration would interpret the provision ``as advisory.'' To 
construe the joint resolution as delegating to the U.N. Security 
Council power to determine whether authority to use force is available 
in U.S. domestic law would raise the same constitutional question. The 
Constitution permits only 535 Members of Congress to place the United 
States in a state of war--not the U.N. Ambassadors of Belgium, Croatia, 
and Indonesia.
    A second constitutional problem is posed by construing the second 
prong as applying to future Security Council resolutions. That problem 
concerns the Constitution's Appointments Clause. Article II gives the 
President the power to appoint ``officers of the United States'' only 
with the advice and consent of the Senate, and permits Congress to 
permit the appointment of ``inferior officers'' by the President, the 
courts, or department heads. The Supreme Court has made clear that 
``any appointee exercising significant authority pursuant to the laws 
of the United States is an `Officer of the United States' and must, 
therefore, be appointed in the manner prescribed'' by the Clause. The 
question arises whether the U.N. representative of a state that is a 
member of the Security Council would be exercising ``significant 
authority pursuant to the laws of the United States'' if that 
individual were permitted, in casting a vote within the Security 
Council, to give the resulting resolution force and effect within the 
domestic law of the United States. It is one thing to incorporate by 
reference into existing federal law Security Council resolutions that 
already exist; their terms are set and known to Congress when they are 
incorporated. It is be quite another, however, to so incorporate any 
and all Security Council resolutions that may be adopted at any point 
in the future--whatever their purposes, whatever their terms, and 
whatever their justification--with no time or subject matter 
limitations beyond the vague requirement of ``relevance.''
    Construing the second prong as applying to future Security Council 
resolutions creates a third constitutional problem, concerning 
presentment. In Immigration and Naturalization Service v. Chadha, 462 
U.S. 919 (1983), the United States Supreme Court made clear that 
Congress cannot give a measure the force and effect of law unless it is 
presented to the President for his signature or veto. Yet that would be 
precisely the effect of a future-looking construction of the second 
prong: It would give a future Security Council resolution the force of 
federal law without presentation to the President for his signature or 
veto.
    That these three problems attend a future-looking interpretation of 
the term ``relevant'' counsels that that interpretation should be 
avoided. It is a settled canon of statutory construction that 
interpretations that raise constitutional doubts are to be avoided. As 
the Supreme Court made clear in Crowell v. Benson, 285 U.S. 22, 62 
(1932), ``When the validity of an act of the Congress is drawn in 
question, and even if a serious doubt of constitutionality is raised, 
it is a cardinal principle that this Court will first ascertain whether 
a construction of the statute is fairly possible by which the question 
may be avoided.'' This is the canon on which President Bush relied in 
his signing statement on the United States-India nuclear law.
    When President Bush signed the 2002 authorization, he said that 
``Iraq will either comply with all U.N. resolutions, rid itself of 
weapons of mass destruction, and end its support for terrorists, or it 
will be compelled to do so.'' He, too, seemed to believe that 
``relevant'' referred to past resolutions, not future ones. Weighing 
all the evidence, it is reasonable to conclude that the second prong of 
the 2002 Joint Resolution also is no longer available as a source of 
authority to use force in Iraq.
The AUMF as authority to use force
    The pertinent provision of the AUMF reads as follows:

          [T]he President is authorized to use all necessary and 
        appropriate force against those nations, organizations, or 
        persons he determines planned, authorized, committed, or aided 
        the terrorist attacks that occurred on September 11, 2001, or 
        harbored such organizations or persons, in order to prevent any 
        future acts of international terrorism against the United 
        States by such nations, organizations or persons. Pub. L. No. 
        107-40 Sec. 2(a) (2001).

    For two reasons, the AUMF ought not be construed as providing 
authority for the use of force in Iraq.
    First, the AUMF requires some nexus between the organization or 
entity in question and the 2001 attacks on the Pentagon and World Trade 
Center. It is not clear that ``al-Qaeda in Iraq'' is properly 
considered to be the same organization that engaged in those attacks. 
The mere fact that both organizations share the same name is not 
legally sufficient to bring the Iraqi entity within the scope of the 
AUMF. As I understand it, a serious question exists whether al-Qaeda 
cells operating within Iraq are in a ``command and control'' 
relationship with the al-Qaeda leaders who were present in Afghanistan 
at the time of the 2001 terrorist attacks. A thorough examination of 
this question probably would require a closed session of the committee. 
Suffice it to note, however, that one would have to scrutinize very 
closely the comparative leadership structure, personnel, weaponry, 
strategic objectives, tactical targets, recruiting methods, physical 
facilities, theaters of operation and other aspects of the two 
organizations before concluding that they are in fact one and the same.
    Second, even if the AUMF were applicable to al-Qaeda in Iraq, force 
is being used by the United States in Iraq against persons and entities 
not related to al-Qaeda in Iraq. As I understand it, fewer than 20 or 
25 percent of U.S. casualties in Iraq can be attributed to al-Qaeda in 
Iraq. Military operations directed at insurgents responsible for the 
remaining 75 or 80 percent of U.S. casualties are not authorized by the 
AUMF. Perhaps for this reason, as recently as January 2007 the 
administration did not rely upon the AUMF as a source of authority for 
U.S. military operations in Iraq. In response to a written question 
concerning sources of authority that was put to Secretary Rice by 
Senator Biden following her oral testimony, Secretary Rice cited only 
the 2002 Joint Resolution and the President's constitutional authority, 
not the AUMF. Securing America's Interest in Iraq: The Remaining 
Topics: Hearings Before the Committee on Foreign Relations, United 
States Senate, 110th Cong., 1st Sess. 161 (2007).
The War Powers Resolution's ``clear statement'' rule: No implicit 
        authority, from appropriations or elsewhere
    At most, it is debatable whether authority to continue to use force 
in Iraq is provided by the 2002 Joint Resolution. At most, it is 
debatable whether such authority is provided by the AUMF. (It is not 
even debatable whether such authority is provided implicitly from 
appropriations or other sources--it is not.) The War Powers Resolution 
establishes as a rule of law that, when it comes to the monumental 
question whether a statute confers authority to use force, debatable 
authority is not enough. The War Powers Resolution requires that such 
authority be specific. Section 8(a)(1) provides not only that the 
statute in question must explicitly refer to the resolution; it 
provides that it must specifically authorize the use of force. That 
section provides as follows:

          Sec. 8. (a) Authority to introduce United States Armed Forces 
        into hostilities or into situations wherein involvement in 
        hostilities is clearly indicated by the circumstances shall not 
        be inferred--
                  (1) from any provision of law (whether or not in 
                effect before the date of the enactment of this joint 
                resolution), including any provision contained in any 
                appropriation Act, unless such provision specifically 
                authorizes the introduction of United States Armed 
                Forces into hostilities or into such situations and 
                stating that it is intended to constitute specific 
                statutory authorization within the meaning of this 
                joint resolution . . .

    Because serious ambiguities are present in both the 2002 Joint 
Resolution and the AUMF if they are construed as authorizing the use of 
force in Iraq, it cannot be said that either statute ``specifically'' 
does so.
    This section also undercuts Ambassador Satterfield's claim that 
authority may be inferred from the fact that ``Congress has repeatedly 
provided funding for the Iraq war, both in regular appropriations 
cycles and in supplemental appropriations.'' The section explicitly 
provides that authority to introduce the armed forces into hostilities 
``shall not be inferred . . . from any provision of law . . ., 
including any provision contained in any appropriation Act,'' unless 
those two conditions are met. No appropriations act meets either 
condition.
    Accordingly, the War Powers Resolution precludes inferring 
authority to use force in Iraq from the 2002 Joint Resolution, from the 
AUMF, or from any appropriations legislation.
                               conclusion
    The administration's proposed strategic framework agreement 
concerns the long-term nature of the U.S. relationship with Iraq; 
renewed authorization for the use of force concerns the role of our 
Armed Forces in that relationship. These are two sides of the same 
coin. Both matters lie at the core of our long-term relationship with 
Iraq. Both raise issues that the executive alone is not empowered to 
decide. Both require the involvement of the legislative branch of this 
government: Whether to make a long-term security commitment to Iraq is 
a question that is constitutionally committed to the President and the 
Senate by the Treaty Clause; whether force should be used to carry out 
that commitment is a question that is constitutionally committed to the 
Congress by the Declaration of War Clause. Neither issue can be 
addressed in isolation. Both must be addressed if either is to be 
resolved. The Constitution specifies how they must be addressed. 
Setting long-term strategy in a security arrangement is the task of the 
Senate and President as treaty-makers; authorizing use of force to 
carry out that strategy is the task of Congress. This is the process 
that the Constitution mandates.
    In contemplating that process, it is useful to recall the words of 
this committee, written 39 years ago in its report on the National 
Commitments Resolution:

        Foreign policy is not an end in itself. We do not have a 
        foreign policy because it is interesting or fun, or because it 
        satisfies some basic human need; we conduct foreign policy for 
        a purpose external to itself, the purpose of securing 
        democratic values in our own country. These values are largely 
        expressed in processes--in the way in which we pass laws, the 
        way in which we administer justice, and the way in which 
        government deals with individuals. The means of a democracy are 
        its ends; when we set aside democratic procedures in making our 
        foreign policy, we are undermining the purpose of that policy. 
        It is always dangerous to sacrifice means to ostensible ends, 
        but when an instrument such as foreign policy is treated as an 
        end in itself, and when the processes by which it is made--
        whose preservation is the very objective of foreign policy--are 
        then sacrificed to it, it is the end that is being sacrificed 
        to the means. Such a foreign policy is not only inefficient but 
        positively destructive of the purposes it is meant to serve. S. 
        Rept. No. 91-129 (1969).

  STATEMENT OF RUTH WEDGWOOD, EDWARD B. BURLING PROFESSOR OF 
INTERNATIONAL LAW AND DIPLOMACY, DIRECTOR OF THE INTERNATIONAL 
    LAW AND ORGANIZATIONS PROGRAM, THE PAUL NITZE SCHOOL OF 
   ADVANCED INTERNATIONAL STUDIES, JOHNS HOPKINS UNIVERSITY, 
                         WASHINGTON, DC

    Ms. Wedgwood. It's a pleasure to be here, I've never been 
before you, Senator Biden. I've seen you on the train, 
sometimes, coming up to Wilmington.
    The Chairman. Every day.
    Ms. Wedgwood. You always look very regal and elegant.
    But, it's a pleasure to be with Mike Glennon and Mike 
Matheson, who are my good old friends, and to appear before 
this committee.
    I will, I think, to some degree, stray from my prepared 
statement, because much of it was covered in the morning 
session, so I will, where I can give you----
    The Chairman. We'd like to be able to insert your full 
statement, if we could.
    Ms. Wedgwood. Thank you very much.
    But, for value-added, let me react to some of those 
statements in the morning, and a couple of supplementary 
things.
    First, I wanted to draw attention to the interesting 
parallel between the May 2005 United States-Afghan framework 
called the ``Joint Declaration of the United States-Afghanistan 
Strategic Partnership'' and this current framework, the Iraq-
United States Declaration of Principles from November 2007. My 
surmise is that lawyers got to the text of the Afghan 2005 
Strategic Partnership declaration a little earlier than they 
got to the Iraq declaration, if at all. The Afghan framework 
uses precatory language--it speaks about ``consult with respect 
to taking appropriate measures, in the event that Afghanistan 
perceives that its territorial integrity, independence, or 
security is threatened, or at risk.'' But it also has some more 
imperative language, ``continue to conduct counterterrorism 
operations in cooperation with Afghan forces.''
    So one curious fact for me--and I'm a mugwump, I stay in 
academia so I can be independent in my views--but one curious 
thing to me, is in the Afghan-United States 2005 arrangement, 
nobody seems to have kicked up the same amount of dust--in the 
press, on the Hill, anywhere, frankly.
    The Chairman. If I can interrupt you for a second, there's 
a simple reason for that. They think that was a necessary war. 
There's overwhelming consensus that these are the guys who 
attacked us, and there was overwhelming consensus that we had 
to go in there, and stay there as long as it took.
    Ms. Wedgwood. I think sometimes----
    The Chairman. Just practically, politically, that's the 
difference.
    Ms. Wedgwood. No; I understand the practical, political 
judgment. Sometimes, I think, formal arguments get kicked up 
when people don't like the substance.
    The Chairman. No, valid point. No, I wasn't questioning 
your point, I was just answering your question, why it didn't 
kick up as much dust.
    Ms. Wedgwood. Sure enough. But from a formal point of view, 
a constitutional point of view, I think you have to reconcile 
the two documents, and say that whatever one lays down as a 
template for the Iraq case, you've got to read it back into the 
Afghan case, and be content to live with it there, to the 
extent that it may inhibit the discretion of future Presidents 
to do what they feel the need to do in a very fluid, temporally 
changing security environment.
    I have ICRC Red Cross friends in Geneva who were telling me 
that, you know, once Karzai is sworn in there's not really a 
war any more, and of course there clearly is, in Afghanistan.
    So, my point is just to try to take a candid view of both 
documents.
    Second point, on the Iraq framework, or Declaration of 
Principles: The difficulty I see in delaying its completion is 
posed by Security Council Resolution 1790--I have never seen a 
U.N. resolution like that before. Essentially, it says, by the 
pull of a plug, the Prime Minister of Iraq can end the Chapter 
VII mandate. And the Security Council has committed itself to 
honoring Prime Minister Maliki's request. And not only this 
time, but it was done before, the year before, in Resolution 
1723--it's kind of like my kid's homework, the last, last 
delay--in Resolution 1723, it's said to be the final extension, 
we're now into the final final extension. Both of them at the 
pleasure of Prime Minister Maliki.
    So, from the point of view of worrisome exposure, one could 
be left without belt or suspenders on a Thursday morning if 
Prime Minister Maliki changed his mind, and the Security 
Council felt morally obliged to rescind the Chapter VII 
resolution, as they said they would.
    Third point is a simple historical observation: Presidents 
often do enunciate security doctrines. I don't make light, at 
all, of the Senate's power, and Congress's power--I'm not from 
way across the street. But, Presidents often do make strategic 
declarations--Potsdam, Yalta--that do have a real effect on 
what the country, then, can do. And Congress has to fight for 
its influence.
    I don't think there's quite as bright a line as some might 
like, distinguishing what a President can enunciate, in a 
nonbinding fashion, which may create a political reality, but 
not a legally binding instrument. There are instances where 
we're quite content to have had that happen in the past.
    I think Iraq probably sees this declaration as essential to 
its reclamation of full independence. Every so often, I embark 
on a form of post-conflict tourism. A year after the fighting 
stops, I go there in my high heels to take a look around.
    And typically, in a post-conflict situation, the 
administered territory, whether it's Timor, or Kosovo, or 
Bosnia--they want their propers back. They want to get 
independence, they're eager. Sergio Vieira de Mello was pushed 
very hard in East Timor by local leaders--to make the 
transition from U.N. administrators to local Timorese. And, in 
fact, the U.N. transferred authority earlier than they probably 
meant to, originally.
    I don't think that the push for the important, formal 
reclamation of independence is one that we should take 
lightly--as a matter of the pride of local folks. After all, 
we're pushing Iraq to be more responsible for themselves. So, 
there would be a certain irony in telling them, ``You've got to 
do that, but wait another year, until we get our political 
house in order after the American Presidential campaign.''
    So, I see the push seeking to assert sovereign jurisdiction 
over your own territory and waterways, and how force is used as 
a natural concomitant of every post-conflict situation in 
transition.
    I worry about what delay would mean as a signal to Iraq's 
neighbors. The Iranians are very frisky. And they read our tea 
leaves better than we can, sometimes. And if we seem to be 
querulous, or tremulous, or just uncertain because we have a 
Presidential campaign coming up, I worry that people who aren't 
terribly friendly might take advantage of that.
    And finally, in the same kind of point--whatever political 
party is in power, it just can't be the case, to my mind, that 
in the first year, and last year, of every Presidential tenure, 
you can't do business. We all know it takes a new 
administration a year to get staffed up, even at the Assistant 
Secretary level. And, if the last year you're a lame duck, that 
means there's a lot of ungoverned time, which I, again, worry 
would leave us in drift, and leave our interlocutors to perhaps 
take advantage from time to time, and leave the people that 
we're trying to help in a state of uncertainty that's 
demoralizing.
    Finally, let me just address, if I could, Mike Glennon's 
point on the use of force. And it's a point I've raised in 
front of Congressman Delahunt in the prior hearings that we 
had. When you try to be a purist on when a treaty is required 
or an executive agreement, or whether a Declaration of 
Principles will suffice, or whether you have to go to Congress 
for a formal authorization for the continued use of force, you 
discover there are more counterexamples out there than you 
could ever bear to live with.
    In the Kosovo air war in 1998, and the Bosnian campaign in 
1995, Madeleine Albright and Bill Clinton, there was no 
congressional authorization for the use of force.
    In the follow-on force called KFOR, supporting UNMIK, under 
Resolution 1244 of the Security Council, where there was no 
separate congressional resolution authorizing the participation 
of U.S. troops in the NATO force there.
    Now that we're once more in legally uncertain waters in 
Kosovo, in what a former SRSG in Kosovo has called a ``legally 
messy'' situation, we are going to have our troops in a 
situation where there's not even a new Security Council 
resolution.
    So, there often are instances of important commitments of 
armed force--if only in deterrence--where it's not as clean as 
you'd like it to be, either congressionally, or in regard to 
the Security Council. And so, on that problem of security 
tails, when you're already in a place, under a clear 
authorization for the use of military forces, such as the 2002 
congressional authorization for the use of force in Iraq--I 
would be very cautious in enunciating any doctrine that says 
that as soon as you've reached benchmark 3, it expires, you've 
got to go back, and there's a vacuum until you do, retreat and 
then advance again.
    I could--if we were to do legal briefs, I could find plenty 
of language in the preambular clauses of the AUMF, that talk 
about the need to prevent acts of international terrorism, all 
appropriate actions against international terrorists, promote 
the emergence of a democratic government to replace the prior 
regime. There's enough preambular language to give a practical 
reading to the operative language in the 2002 authorization for 
the use of force, to not give it this Draconian, Calvinistic, 
absolute cutoff point.
    I'd be cautious on this. Because, every political party, 
indeed, every actor, soon discovers that the doctrines they 
enunciate in year one, can come back and bite them in the tail 
in year five. And there's got to be a shoe you can put on all 
of your feet.
    Thank you.
    [The prepared statement of Ms. Wedgwood follows:]

  Prepared Statement of Ruth Wedgwood, Edward B. Burling Professor of 
International Law and Diplomacy, Director of the International Law and 
      Organizations Program, The Paul H. Nitze School of Advanced 
 International Studies (SAIA), Johns Hopkins University, Washington, DC

    I appreciate the invitation to comment on the matter of 
``Negotiating a Long-Term Relationship with Iraq.''
    The impetus for today's hearing may stem, in part, from the events 
of November 26, 2007--in particular, from a document entitled 
``Declaration of Principles'' that was announced on that date by 
President George W. Bush and by Iraqi Prime Minister Nouri Kamel al-
Maliki of Iraq.
    This ``Declaration of Principles'' touches on a host of topics, 
sketching many of the common interests shared by the United States and 
the Iraqi people. It is quite similar to the declaration of mutual 
interests announced by the United States and Afghanistan on May 23, 
2005.
    There has been a concern in some quarters that this ``Declaration 
of Principles'' amounts, in form and substance, to a binding agreement 
between the United States and Iraq, akin to an ``executive agreement'' 
that could be binding under international law.
    In my view, this is not the case. The Declaration of Principles was 
not styled as a binding legal agreement. The document discusses a broad 
range of matters of aspiration and shared interest, including issues 
that the United States and Iraq could not possibly address without also 
seeking the cooperation of many other countries.
    This includes, for example, enhancing the position of Iraq in 
regional and international organizations and helping Iraq to obtain 
debt forgiveness, as well as Iraq's future accession to the World Trade 
Organization. These goals depend upon the actions of many other 
countries beyond the two states that joined in the declaration, and 
could not be made the subject of a self-executing agreement.
    Rather, the Declaration of Principles reflects Iraq's timely sense 
of its sovereign independence, as well as the ambitions that are shared 
by any free and democratic country.
     the security council mandate and the status of american forces
    The Declaration of Principles records Iraq's wish to gain full 
recognition of its sovereignty--most notably, its return to the fully 
independent status enjoyed by the Iraqi nation before Saddam Hussein 
chose to invade neighboring Kuwait and embroil the world community in a 
difficult conflict. In the language of the Declaration of Principles, 
Iraq looks forward to exercising ``full sovereignty . . . over its 
territories, waters and airspace, and its control over its forces and 
the administration of its affairs.''
    The November 2007 Declaration of Principles thus looks toward a 
future period when the United States and other allied forces may be 
hosted in Iraq for a number of purposes--but may no longer have the 
legal umbrella of a United Nations security mandate, including 
provisions concerning the immunity of Multi-National Force.
    It is the issue of an appropriate legal framework for U.S. forces 
working in Iraq that accounts, in part, for the timing of the 
Declaration of Principles--and for some of the urgency felt in future 
plans to negotiate a formal bilateral Status of Forces agreement.
    The Multi-National Force has operated in Iraq under a series of 
U.N. Security Council mandates since 2004. Resolution 1546, approved by 
the Council on June 8, 2004, was extended in November 2005 and November 
2006 in Resolutions 1637 and 1723. These resolutions invoke the 
authority of Chapter VII of the U.N. Charter, which permits the use of 
military force by the United Nations and cooperating states in the 
Multi-National Force.
    Resolution 1723 was due to expire on December 31, 2007. Hence, in 
November 2007, the Declaration of Principles prominently focused on 
Iraq's intention to ``request to extend the mandate of the Multi-
National Force-Iraq (MNF-I) under Chapter VII of the United Nations 
Charter for a final time.'' (Emphasis added).
    The Iraqi representative to the United Nations also noted that this 
extension would be ``for the last time.''
    Upon Iraq's request to the United Nations, on December 18, 2007, 
the Security Council passed Resolution 1790 for a final extension of 
the Multi-National Force mandate until December 31, 2008.
    But this was subject to the important proviso, recorded in the 
operative language of Resolution 1790. Namely, in operative paragraph 
2, the Council noted that it ``Decides further that the mandate for the 
Multi-National Force shall be reviewed at the request of the Government 
of Iraq no later than 15 June 2008, and declares that it will terminate 
this mandate earlier if requested by the Government of Iraq.'' 
(Emphasis added).
    Thus, it could be the case that at any moment, the Government of 
Iraq could request a termination of the mandate of Resolution 1790, and 
the United States would be faced anew with the immediate question of 
the legal protections available to its forces in Iraq.
    This is a topic typically treated through bilateral status of 
forces agreements, and the future intention of the United States to 
negotiate such an agreement is thus not surprising.
                      status of forces agreements
    The role of ``status of forces agreements'' (or ``SOFAs'') is a 
matter of general importance to all American servicemembers and their 
families, as well as to political leaders interested in the posture and 
protection of American Armed Forces around the globe.
    Recent headlines concerning events on the Japanese island of 
Okinawa highlight the importance of providing safeguards both to 
American forces stationed abroad and to the civilian populations with 
whom they come in contact. So, too, the decision by the United States 
to recognize Kosovo as a newly independent nation, separate from 
Serbia, may pose the question of how to assure appropriate status and 
legal protections to American servicemembers who will be stationed in 
Kosovo as part of NATO peacekeeping forces.
    A status of forces agreement is, in fact, a manifestation of the 
full sovereignty of the state on whose territory it applies. In 
particular, this kind of agreement serves to structure the relationship 
between a sovereign host (often called a ``receiving'' state) and one 
or more so-called ``sending'' states whose forces are permitted to 
visit or be stationed on foreign territory.
    Status of forces agreements (``SOFAs'') are widely used in modern 
international relations. Status of forces agreements govern the working 
relationship between states in the NATO alliance, as well as member 
states of the Partnership for Peace. Status of forces agreements govern 
and protect United Nations forces dispatched on peacekeeping and peace 
enforcement missions around the globe.
    Status of forces agreements also serve to structure bilateral 
relationships between states, where the two parties conclude there is a 
common interest in permitting the location of a military force, or a 
monitoring station, or a prepositioning of supplies, or indeed, any 
other anticipated military function or presence. Even a joint military 
exercise may be governed by a status of forces agreement, where there 
is any presence on foreign territory.
    In a United Nations peacekeeping operation, the status of forces 
will typically be based on a model U.N. status of forces agreement. 
However, in a Chapter VII peace enforcement operation, the status of 
forces will not necessarily depend upon the consent of the state where 
they are deployed, since Chapter VII resolutions have coercive power.
    For its part, the United States has attempted to assure that in 
United Nations mandates for peacekeeping and peace enforcement, there 
is an assurance that U.S. forces will not be subject to any assertion 
of international jurisdiction by a treaty court to which it has not 
assented.
    Status of forces agreements can serve several purposes. In many 
respects, SOFAs are the military equivalent of diplomatic or consular 
immunity agreements. Status of forces agreements may describe the 
method of entry and departure of international troops. They may 
describe the division of legal authority in regard to any alleged 
misconduct.
    Typically, primary criminal and civil jurisdiction over any act of 
misconduct committed in the course of the performance of ``official 
acts'' is reserved to the so-called sending state, while jurisdiction 
over private acts of misconduct can be assumed by the receiving state. 
There may, however, be instances in which the sending state is 
primarily or exclusively responsible for both spheres.
    A SOFA agreement often has procedures for handling any commercial 
claims that arise from the presence or activities of international 
troops. The provision of buildings and grounds, the applicability or 
inapplicability of local taxes, customs issues, foreign exchange 
regulations, and the hiring of local workers, are also typical 
features. Alongside its substantive provisions, a SOFA will typically 
provide a standing structure for consultation and settlement of any 
disputes between the state parties. The relationship between the 
receiving and sending states may also be structured by a basing 
agreement concerning any approved installations, improvements, training 
activities, permissions for overflight, communications, and services.
    For the further work of the committee, I should note the detailed 
examination of the history and structure of SOFA agreements available 
in a collaborative study organized by a German international law 
scholar, Dieter Fleck, entitled ``The Handbook of the Law of Visiting 
Forces'' (Cambridge University Press 2001). The issues that arise in 
overseas deployments are also addressed by John Woodliffe, a British 
scholar, in ``The Peacetime Use of Foreign Military Installations Under 
Modern International Law'' (Martinus Nijhoff 1992). And finally, 
Professor Kent Caldor, my colleague at Johns Hopkins University, has 
recently finished an important work entitled ''Embattled Garrisons: 
Comparative Base Politics and American Globalism'' (Princeton 
University Press 2007).
                               conclusion
    The negotiation of a status of forces agreement does not suggest 
that the United States is seeking any permanent bases in Iraq. Indeed, 
we have status of forces agreements even for transient activities. The 
United States has expressly eschewed any desire for permanent bases in 
Iraq. Both the President and Secretary of Defense Robert Gates have 
publicly embraced that position.
    While status of forces agreements are typically concluded as an 
executive agreement between two governments, this does not trench upon 
the longstanding interest of both political branches of government in 
foreign policy issues concerning the use of force. The Congress still 
retains its authority over the budget of the Armed Forces, and its 
oversight capabilities. The constitutional and statutory provisions 
concerning the use of force, as a matter of American domestic law, also 
remain intact. Thus, the issue of the negotiation of a future SOFA 
arrangement with Iraq may be a far more technical matter than some 
voices have suggested. Insofar as the future relationship with Iraq may 
involve mutual cooperation in training local forces and assisting in 
the fight against the type of terrorism that can ravage civilian lives 
and harm America's security, this is a common interest that we share 
with a great many countries in the world. Its nature, scope, and 
duration would not ordinarily be determined in a status of forces 
agreement.

    The Chairman. I want to thank you for your very practical 
way of approaching this. I assure you, I'm not a Calvinist. I 
have great respect for Calvinists, but I am not one.
    And, but--all kidding aside--the points you make, I think, 
are very valid.
    If I can--I'm going to raise a couple of assertions, make a 
couple of statements, I would invite you all to comment on what 
I say, and what one another have said, OK? Since one of the 
real disadvantages for you is, I'm the only one here.
    And this is--I look forward to this, don't turn the clock 
on, Bertie, turn the clock off.
    But, maybe you can help me, at least, and the committee 
record.
    I suffer from--for the last 18 years, teaching a course in 
separation of powers at Widener University Law School, and that 
old joke--at least when I was in law school, which I wish I had 
paid more attention when I was--if you want to learn a subject, 
teach it. And you all are much more proficient and 
knowledgeable in teaching, and the subject matter than I am. 
But let me just walk through a couple of things for you, if I 
can, maybe help us get our arms around this.
    Professor Donoghue, a number of the points you raised are, 
I think, technically correct--in the Calvinistic sense--pardon 
me?
    Oh, I'm sorry, I did say Donoghue, I apologize. She was 
here before, I apologize. I introduced you as that too, I'm 
sorry, you were very kind. You can call me Bidden if you like. 
[Laughter.]
    I truly apologize, and I even wrote it down here, Donoghue, 
I apologize.
    But, look--there are practical explanations for each of the 
legal points that you've raised, constitutional points. For 
example, I can't think of any other time in the 20th century 
where, other than the Vietnam war, where--when the passing of 
power from one President to the next--has been almost solely 
based upon the issue of whether or not the pursuit of that war, 
and the way it was being pursued, is appropriate. That's what 
this election is about. It's the economy, stupid, economy--but 
guess what? The end of the day, it's about the war.
    So, we're about to have a referendum in the United States 
of America on whether or not, essentially continue--based on my 
friend John McCain's assertions--whether we continue the policy 
of this administration, relative to the use of force in Iraq 
for the rationale offered by this President and offered by 
John, which relates to the threat of Iran, internal 
destabilization resulting in regional instability, the hegemony 
of Iran, the growth of terrorism in the region, et cetera. 
These are all propositions that underlie the continuation of 
the use of this force that are literally being debated by the 
public.
    The point I raised with a couple of my colleagues on the 
way over to the last vote--just imagine the circumstance, to 
make a point, if this administration said, ``We want a Status 
of Forces Agreement,'' this is essentially a continuation, a 
letter--if you will, as you suggested, a letter, just of an 
understanding between us--of continuing the Status of Forces 
Agreement that essentially contains in CPA 17. And assume they 
said, ``No; we're not going to do that. And we're not going to 
give a Status of Forces Agreement unless you have these other 
commitments,'' whether you argue they're constitutionally 
binding, legally binding, or not binding, ``unless you do that, 
we're not going to give you the right to stay.''
    I ask you all just to imagine what the American people 
would say if the Iraqi Government said, ``We don't want you 
here any longer unless you do more of what we want beyond 
shedding your blood and draining your Treasury.'' My guess is, 
just being a plain old politician, that Americans would say, 
``No problem, Jack, we're coming home.''
    Because I don't know that Americans--average Americans, 
Republicans, Democrats, and Independents--view Iraq in the 
context of the region, view Iraq in the context of these 
larger, arguably rational, I mean, arguably real conditions of 
what might happen in the region and in the world if we were to 
leave. They view it as Iraq.
    And so, I would suggest that, in answer to your question 
about this Calvinistic notion of one President not being able 
to bind another President, when, in fact, we're already engaged 
in something, and if we had to every 4 years know that, you 
know, we may fundamentally change things. I think that you're 
right, that's a dangerous precedent to formalize, I think, 
formalize constitutionally, or any other way. But, 
practically--practically, it occasionally occurs, and it's 
occurred in my lifetime--this is my 35 years in the Senate--
twice.
    It didn't occur in Bosnia, there was no fundamental 
disagreement in the American public about American forces 
staying in Bosnia. There was no fundamental intellectual and/or 
political rift about the bombing campaign in Kosovo. Well, I 
was here, I mean let me put it this way, there's not a single 
solitary person that ran for reelection in the Republican 
ticket saying, ``Get out of Bosnia. Do not use force in 
Kosovo.'' I can't think of one campaign.
    My skittish Democratic friends--since I was the author of 
that idea here--to use that force, to prove I am a Catholic, 
not a Calvinist. All kidding aside, you know, what happened 
here. Technically, or legally, or constitutionally, I may have 
been wrong, but the effect here in the political environment, 
no one stood up on the floor of the Senate, they just voted, 
``No.'' It did not engender a debate that's so consequential 
that it's dividing the country.
    And so, I can't think of anything other than Vietnam, which 
I ran in Vietnam, 1972, I ran on a platform saying, ``I 
disagree with Nixon and end this war, almost under any 
circumstances.'' My argument in that war was, the underlying 
rational for the war had no, no historical basis. And the 
underlying rational was, if we didn't stay there and protect 
the South, the dominoes were going to fall, you're going to 
have Camrhan Bay, a Russian port, the Russians and the Chinese 
were going to be in league and they're going to take over, and 
the next thing under San Francisco Bridge.
    I went so far in the debate, in the last debate--it was 
pointed out to me 4 years ago by a press person who was still 
around covering me then--I allegedly said--I don't remember 
it--in a debate, that I make the following commitment, ``I am 
so certain the administration's rational for the war in Vietnam 
is unfounded, that if a Russian fleet ever docks in Camrhan Bay 
and if I'm lucky enough to have been elected, I will offer my 
resignation from the Senate, on the floor of the United States 
Senate the moment that happens.'' That's how certain I was, the 
rational was flawed, regardless of the constitutional 
justification or the constitutional powers the President had.
    Well, that's kind of where we are now. In the minds of an 
awful lot of Democrats, some Republicans, and a lot of 
Americans. So, I just lay that basis, that premise down as to 
the reason why this is different, is it's different. This is a 
pipe, this is a picture of a pipe. It's different than any 
other circumstance I can think of in the 35 years I've been a 
Senator and, I would argue, in the 20th century, including 
Korea.
    So, having said that, let's go to the more difficult pieces 
of this. I think the Professor raises a good point, Mike, 
Michael. How--from a legal standpoint, distinguish Afghanistan 
and Iraq?
    Mr. Glennon. It is an interesting point, I'm not persuaded 
that it's a convincing point.
    Are there examples of executive agreements that should have 
been sent up to the Senate as treaties, over the course of 200 
years, that the Senate didn't object to? Answer; of course.
    Second, are there instances in which the President has used 
force, in which he should have gotten advanced authorization 
from Congress as required by the War Powers Clause? Answer; of 
course. That's not really the question, Senator.
    The question is, given the, in effect, atrophy of 
congressional power that has occurred as a consequence of these 
precedents, is it constitutionally impermissible for Congress 
to reclaim its power?
    The Chairman. There is no question about that, Mike. I 
understand that. You can not--you can not change the essential 
fabric of the Constitution by any precedent, you can't do it. I 
understand that and I understand, you know, the famous Harvard 
professor, the name escapes me right now, years ago who said, 
this is in the area of foreign policy, the Constitution issues 
an invitation for the executive and legislation----
    Mr. Glennon. Corwin.
    The Chairman [continuing]. You know, who was it?
    Mr. Glennon. Corwin.
    The Chairman. Corwin. And Corwin made that--and so really 
that's the area we fall in here. But my point is, from a 
constitutional standpoint--not whether or not it binds us in 
Iraq--is it correct that there are not fundamentally 
different--there are not fundamentally different justifications 
for--from a constitutional standpoint--for the Afghan agreement 
and the Iraqi contemplated agreement? That's the question.
    Mr. Glennon. Well, Senator I have to say I haven't looked 
closely at the Iraqi agreement, but I would apply the same 
multifactor test that you yourself alluded to earlier. And the 
question is, viewing the entire bilateral relationship in 
context, taking into account every element in the surrounding 
context, what is the implicit commitment, if any, that is 
contained in the words and conduct of the United States, viewed 
in conjunction with the words and conduct of the other side? 
So, the argument from precedent is not terribly useful in this 
context.
    The Chairman. No; I'm just making--I think it's important 
for someone like me, who is making a constitutional, a 
legislative, as well as a political argument, to be honest with 
my colleagues. And so, the only thing I'm trying to figure out 
is, I'm prepared to--if it's true--acknowledge that it may not 
be, from a constitutional perspective, any more within the 
power of the administration to do what it did in its agreement 
in Afghanistan, and acknowledge that, but say that from a 
political perspective in the context, the American public are 
much more prepared to support that. And the next President will 
be bound by it, as a practical matter, because these are the 
guys that killed our guys. These are the guys that killed, 
these are the guys that launched the attack. They're still 
living in the mountains between Afghanistan and Pakistan, 
they're still hanging around. And so, whether or not there is a 
more compelling legal rational for the next President to honor 
that, as a practical matter, the next President is going to 
honor that. There is no disagreement among us.
    As a matter of fact, all three candidates are saying we 
have to devote more resources. You have both Senator Clinton 
and Senator Obama saying we should be surging forces into 
Afghanistan. Now that may still create a constitutional dilemma 
for us if we're going to be, you know, if we're going to go by 
the numbers. I'm not disagreeing with that. I'm just trying to 
figure out what it is.
    Professor.
    Mr. Matheson. Of course you have two separate questions 
here, and it's useful to keep them apart analytically.
    The first question is whether the executive branch has the 
authority to commit United States forces into hostilities, and 
that's a question which differs between Iraq and Afghanistan, 
in the sense that I think the joint resolution for Afghanistan 
is pretty straightforward. We're still fighting, as you say, 
against those entities that caused 9/11, whereas it's a more 
gray area with respect to Iraq, since it's a debate about 
whether the threat posed by Iraq really only relates to that 
posed by Saddam Hussein.
    The Chairman. Quite frankly, that's the answer I was 
looking for.
    Mr. Matheson. But the other side of the question is whether 
there's some constitutional inhibition on the President to get 
authority to use force from a foreign government. And here I 
think I would--with apologies to my good friend and colleague--
take issue with the idea of implied or implicit security 
commitments, as a legal matter, in the sense that I think a 
security commitment is an obligation to come to the defense of 
another country. That's probably the most significant 
obligation a state could have. And I think we should always 
expect that would take express form, rather than implied form, 
and I don't think we should agree that that kind of obligation 
could be created implicitly simply by the fact that hostilities 
are occurring, or that we have authority to use force. So, I 
think I would draw a different line there.
    As a practical matter, of course, this kind of situation 
can have very significant impacts. But I would make that 
distinction, legally, so that comparing Iran and Afghanistan, I 
think in both cases the President could constitutionally get 
authority to use force as a matter of international law, but 
then as a domestic constitutional issue, you have to inquire as 
to whether the congressional authorization still stands.
    The Chairman. Thank you.
    You wanted to respond, Professor, or make a statement, I 
thought. Were you seeking to----
    Ms. Wedgwood. Oh, just a couple of things. First, on the 
argument that two wrongs don't make a right, which was Michael 
Glennon's point.
    I still give some credit to the Dames and Moore decision 
that Chief Justice Rehnquist handed down on the Algiers 
Accords, when we were transferring cases from domestic federal 
courts to the United States-Iran Claims Tribunal. The Chief 
Justice said that ``the institutional practice, over time, does 
matter.'' It shows each institution's understanding of the 
practical contours of the Constitution. So, maybe not one 
instance, but if you do have a series, say, of precatory 
statements by Presidents, wanting to reassure their allies or 
their beneficiaries about what the state of play is, that look 
a lot like this, the practice adds up to something that could 
be, I think, carving out an area, as I think you, yourself, 
perhaps suggested.
    The only other point I want to suggest is that, after 
today's hearing, after all the conversation in the Washington 
Post over the last couple of weeks, if there's one thing the 
Iraqis know, it's that not everybody thinks this is binding. So 
that any worry that we've misled them, that having a framework 
agreement would amount to some kind of double-play upon them, 
they have to be aware that there indeed is a campaign on, and 
that somebody coming in the White House might take quite a 
different view.
    But even that person, whoever it is, Barack Obama, Hillary 
Clinton, or John McCain--no one is prescribing immediate, 
instantaneous withdrawal. So we're going to have some military 
folks there for quite awhile, even if we are in the process of 
leaving, and in that interim period, it's equally crucial to 
have the Status of Forces Agreement to protect them during an 
exit.
    Mr. Glennon. Two quick comments, Mr. Chairman.
    First, Professor Matheson raises a very important point. 
The question really is, What's the effect, under international 
law, of an agreement, implicit or explicit, that is entered 
into in violation of your domestic law--indeed in violation of 
rule of fundamental importance of your domestic law? There is 
authority in Article 46 of the Vienna Convention on the Law of 
Treaties to the effect that that is not binding in 
international law, if the violation is manifest. And I would 
suggest to you that this constitutes precisely that kind of 
manifest violation that the Vienna Convention had in mind.
    So, I agree with Mike, that we would not be and should not 
be bound by an ultra vires agreement of this sort, but it's 
because of the applicable international law principle.
    Second, there's no question, as Ruth points out, that 
custom and practice, as you know as a professor of separation 
of powers, have an impact in setting practical and operational 
rules of law in allocating authority, as between the two 
political branches of the Federal Government.
    The question however, is this: Can explicit Supreme Court 
holdings be overturned by contrary custom and practice? The 
applicable case is not Dames and Moore. There are three cases 
that were decided by the Marshall court, in which it found that 
when Congress authorizes the use of force with limits attached, 
the President is constitutionally required to respect those 
limits, his Commander in Chief power does not permit him to 
exceed congressionally imposed limits. I don't think that John 
Marshall was being Draconian or Calvinistic in the way he 
decided those three cases.
    Finally, you've really touched on something important in 
focusing on the transition. The truth is that this new 
framework agreement is only going to be in effect for less than 
3 weeks, governing the current administration. If the intent is 
not to tie the hands of the next administration or remove some 
options from the table, or cause the new administration to buy 
into, as you said, the vision of this administration, what's 
the purpose in extending it beyond that 3-week period? Why not 
let the new administration negotiate it for themselves?
    The Chairman. Well, the argument they're going to make is 
that that they will not negotiate, they will no longer, from 
January 1 to January 20, will our troops be protected. They 
will not have the--this the administration's argument--they 
will not have the protection of the Status of Forces Agreement, 
and they'll all be in jeopardy of being able to be tried in 
Iraqi court or whatever. That would be their argument, I 
expect.
    You were going to say something, Professor.
    Mr. Matheson. I just wanted to address that practical 
situation, because I think there are some false dichotomies 
here.
    It isn't necessarily the case that you have to have the 
Security Council extend the Chapter VII mandate. Apparently the 
Iraqis have some kind of political difficulty with that. I'm 
not sure why they do, because there are lots of countries where 
there are Chapter VII operations going on, and in fact, every 
country, including the United States, has obligations under at 
least two Chapter VII resolutions right now on terrorism and 
weapons of mass destruction.
    But assuming, for the moment, that they have this political 
hangup about the Security Council renewing the mandate, that 
doesn't preclude some kind of extension of the status quo by 
simple agreement.
    The Chairman. Exactly. No; that's exactly--look, this is 
their attempt, the Iraqis, to hold us up. And, you know, it's 
real simple, I mean, there is no--their sovereignty need not be 
in any way compromised, they would need only do what you just 
said. And say we will not extend Chapter VII, use the same 
language, call it, we've entered into a new agreement with the 
United States of America, and it's consistent with what, the 
following, boom, and then lay it out in a letter agreement.
    Mr. Matheson. And if they refuse that kind of a very 
reasonable accommodation, then my answer as the U.S. 
Representative would be, all right, in that case we're going to 
have to go back to the Security Council and impose this on you 
under Chapter VII, you don't give us any feasible option. And 
I'm sure that that's not the way they would want to go.
    The Chairman. No, look, I agree, this is--I must tell you, 
and I've kept you a long time. I have made no--I've not made 
any secret of my view of the administration's intentions, for 
the last year and a half.
    I know it sounds cynical, Professor Wedgwood, for me to say 
this, but I said well over a year and a half ago, I think the 
intent of this administration, because they don't have a 
solution--they're very smart people--they don't know what to do 
in Iraq, is to just make sure the dog doesn't die on their 
doorstep. Just keep this thing from imploding and hand it off 
to the next President, Democrat or Republican. I don't think 
it's a partisan thing, I think it's a historical perspective 
thing.
    And, because you can't, I mean, I knew, and I've known 
Secretary Rumsfeld and Vice President Cheney--I know he's gone, 
Rumsfeld--for 30 years. These are really smart guys, these guys 
aren't stupid, these guys know how bad things are going, were 
going.
    And if you notice, there's been no political suggestion as 
to how to reconcile the party's offer by the administration--
none. They haven't offered any political, they argue political 
progress is being made, bottom-up, by agreements between tribes 
and among tribes and our military on the ground. They're 
positive things, but it's not like there is an overarching 
political prescription that this administration is pushing 
nationally, i.e., Iraq or internationally.
    And so I'm absolutely convinced that this--and I'm 
revealing my prejudice so I don't fly under false colors--I 
believe, in my discussions with the President--he never used 
the same language--but I believe that--I believe that the quote 
used by Senator Webb, quoting a relatively conservative 
commentator saying that Bush has said in the Oval Office, 
``Don't worry, the next President's going to not have any 
choice.'' That's what I think this is about. This is about 
continuing a policy he doesn't know how to settle into the next 
administration.
    And so, we all know this is going to take on an almost--
it's not going to be, no court's going to take this issue. This 
political question doctrine will be invoked by--particularly 
this court, and I suspect probably any court. So we're down to 
that invitation Corwin talked about, to struggle for the 
control of the conduct of foreign policy. And in this case, I 
hope the administration listens to my Republican colleagues. 
Not to me, my Republican colleagues. There's very little 
stomach--very little stomach--to make an agreement with a 
government whose longevity is questionable at best, whose 
support is, I would argue, very shaky in its own country.
    For example, you heard the Secretary--the Ambassador say, 
that this brings in all the parties, we're negotiating with 
them all, except the bad ones, basically. Why is Maliki still 
Prime Minister? Because 32 Sadrites said, ``You're Prime 
Minister.'' How do you negotiate an agreement they aren't in 
on? I don't know, and still keep you political, actually have 
that party, you know, have this being a consensus, you know, I 
don't know. There's not even a Cabinet.
    Professor, you wanted to respond?
    Ms. Wedgwood. Now I'm straying well out of my legal 
competence, but just into citizenry.
    The Chairman. Yeah, sure.
    Ms. Wedgwood. But I guess the point I'd make is--or offer 
for consideration is that I don't think this agreement would 
look terribly different no matter whom you negotiated it with. 
It doesn't pledge troth to Maliki as a person, it pledges--it's 
an agreement with the Government of Iraq.
    The Chairman. And by the way, I think it would be 
materially different if, in fact, Sadr controlled the 
Parliament. Materially different. There would be no agreement. 
There would be a commitment to require a timetable to get out. 
And watch what happens between the Sunnis and the Sadrites in 
Parliament on this. I'll make a prediction to you, I'll make a 
prediction. They're going to say, ``Hey, go.''
    So I don't know, I mean, look that's--now we're into, you 
know, into an area which is the reality of where we find 
ourselves, but it just seems to me that we're begging for 
trouble and confusion, and what we're doing--the irony of all 
ironies is--by going the separate route of bilateral 
negotiations here for whatever reasons required, demanded by 
the, I mean by, excuse me, by the Iraqis or not. Nobody's going 
to talk about a Multi-National Force anymore, this President is 
going to have an awful hard time saying this is a multilateral 
action.
    So it's kind of, in a sense, exposing the reality of what's 
going on in Iraq. In that sense it's a good exercise for the 
American people to see. It's a sham that we have a multilateral 
organizational structure condoned by the International 
Community. It's about to be withdrawn. And, you know, I just 
think it's--I just think it's a gigantic--beyond the legal 
consequences--a gigantic mistake. Because--I'll end where I 
began and let you close, Professor--but the one thing, and I 
know neither, none of you are as old as I am, but the one thing 
that I think my generation walked away from our experience in 
Vietnam with--that is our experience dealing with that war and 
that generation of Vietnam--whether you were for the war or 
against the war, thought we should have left earlier, thought 
we should have stayed longer, whatever position you take--is no 
foreign policy can be sustained without the informed consent of 
the American people. And the idea that anybody thinks, if we 
put up to a referendum in America, an agreement whereby we 
would agree to protect this government, a Maliki government 
that exists today, against threats from--internal threats, not 
al-Qaeda alone--any threats, because there are insurgents, bad 
guys, et cetera, from the perspective of Maliki. They're going 
to send there, they're going to continue to spend $3 billion a 
month, a week for that? Whoa. I don't think there's any 
consensus for that, none, none at all. But that's--that's what 
elections are about, we'll find that out.
    Professor, you wanted to make a comment.
    Mr. Matheson. I just wanted say that I suppose it's only 
fair that we remind ourselves that we've been focusing today on 
the question of whether this administration or the next one 
should negotiate this, but even if it is postponed into the 
next administration, it will still leave a lot of very 
difficult issues about how to do these agreements. Do we give 
immunity to civilian contractors? If so, how do we enforce that 
responsibly?
    The Chairman. Yep, exactly.
    Mr. Matheson. What will we demand in terms of a right to 
conduct combat operations? will it be open-ended? what are the 
implications of that? What do we do about certain other U.N. 
resolutions, which are currently in effect: The one that 
prohibits WMD for Iraq, the one that ensures continuing draws 
on Iraqi oil revenues for compensation? What do we do about 
those resolutions?
    The Chairman. I agree. We kick the can down the road on all 
of those, but at least it would be in the context of full-blown 
debate, after the American people have spoken about whether the 
degree and extent of the involvement in Iraq is one they're 
willing to continue to support. I think.
    Mike.
    Mr. Glennon. Senator, I think that's really the key point. 
I, you know, Ambassador Satterfield underscored the procedure 
that they're following, is one that is intended to generate a 
consensus within Iraq. It would be good if the administration 
were as concerned about generating a consensus behind a 
strategy within the United States, and the way to do that is to 
submit this to the Senate for its advice and consent. And if he 
can get a two-thirds--if the President can get a two-thirds 
vote in support of that, then you've got a consensus.
    The Chairman. Last word for you, Professor.
    Ms. Wedgwood. Two last quick thoughts. One is just to note 
that--the Defense Science Board did a study a little while ago, 
showing the time horizon for all manner of humanitarian 
missions, Bosnia, Kosovo--they're all taking longer than we 
thought. When you stack them up you get huge demands on force 
structure. So there really is a serious conversation to be had 
about what we can and can't do.
    But then as the law professor in me impishly rises to the 
surface, I did want to note, that as far as I can tell, the 
only mention in the United States-Iraq Declaration of 
Principles that has to do with internal matters, is in the 
first part of the declaration, in a section entitled 
``Political, Diplomatic, and Cultural Spheres.'' It speaks of 
``supporting the Republic of Iraq in defending its democratic 
system against internal and external threats.'' I wouldn't take 
that to mean that you have to keep any particular politician, 
including Prime Minister Maliki in power.
    The Chairman. I hope that's true.
    I thank you all very much. I apologize, I'm late for a 1 
o'clock.
    Thank you so much.
    [Whereupon, at 1:10 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


Joint Responses of Ambassador David Satterfield and Assistant Secretary 
Mary Beth Long to Questions Submitted for the Record by Senator Joseph 
                             R. Biden, Jr.

                  new sofa or extension of mnf mandate
    Question. You stated that the reason we need to negotiate a Status 
of Forces Agreement is that Iraq does not want to extend the mandate of 
the Multi-National Force under the Security Council resolutions. Has 
Secretary Rice raised the possibility of extending the mandate of the 
Multi-National Force under the U.N. Security Council resolutions with 
the Government of Iraq?

    Answer. U.S. officials have engaged Iraqi officials on the 
importance of concluding the Status of Forces Agreement and any other 
necessary arrangement in a timely manner. The United States is working 
on normalizing its relationship with Iraq through a Status of Forces 
Agreement and other bilateral arrangements.
                         iraqi reaction to sofa
    Question. Are these agreements likely to be controversial in Iraq? 
What happens if either of them is rejected by the Iraqi Council of 
Representatives?

    Answer. These agreements will likely encounter vigorous political 
debate in Iraq given the number of views espoused by the various 
political parties.
    The United States will support the Iraqi leadership in ensuring 
that any agreement is approved by the Council of Representatives and 
earns the support of the major Iraqi political representatives.
              absence of u.n. mandate and u.s. legitimacy
    Question. Won't the absence of a U.N. mandate mean that our 
presence would have even less international legitimacy than it does 
today? Why shouldn't we wait until the mission is narrowed and a 
smaller presence envisaged before seeking to end the U.N. mandate?

    Answer. The current U.N. mandate would be replaced by an 
arrangement that further recognizes Iraq's rights as a democratic, 
free, and sovereign country, and affirms the legitimacy of the 
coalition in Iraq. The United States will work with Iraq and other 
international partners to ensure the continued participation of a large 
number of partners in a broad coalition of nations.
          cpa order no. 17, section 20 language clarification
    Question. The language in Section 20 of CPA Order No. 17 is 
ambiguous--it says that the Order ``shall remain in force for the 
duration of the mandate authorizing the MNF under U.N. Security Council 
Resolutions 1511 and 1546 and any subsequent relevant resolutions and 
shall not terminate until the departure of the final element of the MNF 
from Iraq. . . .'' Have you discussed with the Government of Iraq its 
view of when the privileges and immunities provided to the 
``Multinational Force'' and ``MNF Personnel'' pursuant to CPA Order No. 
17 will terminate? Assuming that the MNF mandate expires on December 
31, 2008, as anticipated in U.N. Security Council Resolution 1790 and 
we have no SOFA in force--is it your view that CPA Order No. 17 would 
no longer apply to U.S. personnel, property, funds, or assets currently 
in Iraq and covered by the Order as of December 31, 2008? What is the 
view of Iraq on this point? What is the administration's plan, should 
the scenario outlined become a reality at the end of this year (i.e., 
if we have no SOFA in force when the MNF mandate expires on December 
31, 2008, and there is no other mechanism in place that would otherwise 
extend the status quo)?

    Answer. CPA Order No. 17 (Revised), as part of Iraqi domestic law, 
is an important source of privileges and immunities for the Multi-
National Force in Iraq
(MNF-I) and its personnel in Iraq. As Iraqi law, it could be amended or 
rescinded legislatively by Iraq, as Section 20 of the Order states, 
either before or after the termination of the U.N. Security Council 
mandate for the MNF-I. The United States and Iraq have begun 
negotiations concerning the status of U.S. forces in Iraq upon the 
expiration of the U.N. Security Council mandate for the MNF-I. Our 
expectation is that we will be able to reach agreement with Iraq to 
have appropriate protections and authorities in place for U.S. forces 
prior to any date upon which privileges and immunities under CPA Order 
No. 17 (Revised) may terminate. Ensuring the protections and 
authorities for U.S. forces assisting Iraq continue uninterrupted as we 
transition from the U.N. Security Council mandate is one of our central 
goals. Accordingly, we remain in consultation with Iraq on issues 
related to the scope and effectiveness of CPA Order No. 17, as part of 
our ongoing negotiations.
    We remain confident that we will be able to agree with Iraq on 
appropriate protections and authorities for U.S. forces and their 
supporting personnel in Iraq, and remain committed to our goal of 
achieving this agreement in a timely manner.
            sofa and strategic framework draft text request
    Question. Earlier this week, the Guardian newspaper in the United 
Kingdom reported on a draft text, dated March 7, of one of the 
agreements--although it is unclear whether it was the Status of Forces 
Agreement or the Strategic Framework agreement. Will you be willing to 
share draft texts with the committee, on a classified basis if 
necessary?

    Answer. Our Secretaries of State and Defense are committed to 
keeping the negotiation process as transparent as possible, and will 
keep the Congress fully apprised as we proceed.
                        sofa provisions request
    Question. Please provide a list of the types of provisions that 
will be in the SOFA that you expect to conclude with Iraq.

    Answer. Like most other SOFAs, this SOFA contains provisions that 
are designed to address the vast majority of day-to-day issues that 
arise over the course of a deployment of U.S. forces. These include 
provisions addressing criminal and civil jurisdiction over U.S. forces 
and civilian personnel, use of agreed facilities and areas, movement of 
vehicles, tax and customs exemptions, contracting procedures, utilities 
and communications, status of personnel, and entry and exit from the 
host nation.
    The United States also envisions temporary attachments to the SOFA 
that are designed to address the particular circumstances and 
requirements of our forces in Iraq. Our objectives include the 
authorizations necessary for U.S. forces to conduct military and 
detention operations in Iraq, and provisions related to contractors.

    Question. What existing SOFA would you say is most like the SOFA 
you hope to negotiate with Iraq?

    Answer. The SOFA being negotiated with Iraq will reflect, in 
general, many of the current SOFAs in place with allies in the region. 
In light of the unique security circumstances facing U.S. forces in 
Iraq, the SOFA would likely contain temporary attachments allowing U.S. 
forces, at the request of the Government of Iraq, to conduct military 
and detention operations, and provisions concerning contractors.
                         transfer of detainees
    Question. Will the SOFA cover any aspect of the possible transfer 
of detainees currently in the control of the Multi-National Force to 
the control of the Iraqi Government?

    Answer. We expect that the SOFA will provide a basis for U.S forces 
to detain individuals who pose a threat to the people of Iraq and 
coalition forces present in Iraq. This authority is necessary as long 
as the United States is engaged in combat operations; we will not 
deprive our troops of the authority to detain hostile elements. The 
SOFA may also serve as a starting point for more detailed discussions 
related to the Government of Iraq transition to primary responsibility 
for detention operations, which may include the transfer of some 
detainees to the Government of Iraq.
                      expiration of mnf-i mandate
    Question. The Declaration of Principles by President George Bush 
and Prime Minister al-Maliki indicates that upon expiration of the MNF-
I mandate, ``Iraq's status under Chapter VII and its designation as a 
threat to international peace and security will end, and Iraq will 
return to the legal and international standing it enjoyed prior to the 
issuance of U.N. Security Council Resolution No. 661 (August, 1990). . 
. .'' Please elaborate on what this means, specifically:

  <bullet> Do you expect, as this statement indicates, that all U.N. 
        Security Council resolutions regarding Iraq adopted after 
        August 1990 will no longer be applicable to Iraq? If not, which 
        resolutions will continue to apply upon expiration of U.N. 
        Security Council Resolution 1790?
  <bullet> Is it the administration's position that with the expiration 
        of the MNF-I mandate at the end of this year, Iraq will no 
        longer pose a threat to international peace and security?
  <bullet> What will be the status of the U.N. Compensation Commission 
        as of December 31, 2008? Will Iraq continue to be obligated to 
        contribute to the Compensation Fund after December 31, 2008? 
        What will happen to the money that is in the Fund as of 
        December 31, 2008? Is the administration exploring the 
        possibility of a new U.N. Security Council resolution that 
        would address the U.N. Compensation Commission?
  <bullet> What will be the status of the Development Fund for Iraq as 
        of December 31, 2008? Will the monitoring of the Development 
        Fund by the International Advisory and Monitoring Board come to 
        an end? What will happen to the money that is in the Fund as of 
        December 31, 2008? Is the administration exploring the 
        possibility of a new U.N. Security Council resolution that 
        would address any of these issues?

    Answer. U.N. Security Council Resolution 1790 continues the mandate 
of the Multi-National Force Iraq (MNF-I) to ``take all necessary 
measures to contribute to the maintenance of security and stability in 
Iraq'' through December 31, 2008 (unless earlier terminated). Both the 
United States and Iraq are committed to moving beyond a U.N. Security 
Council Chapter VII mandate. This will serve as the basis on which to 
begin the process of normalizing the United States-Iraq bilateral 
relationship. Such a step is consistent with Iraq's sovereignty and 
will help Iraq regain its rightful status in the international 
community--something both we and the Iraqis seek.
    UNSCR 1790 anticipates that the mandate for the MNF-I and the 
arrangements and protections related to Development Fund for Iraq will 
terminate on December 31, 2008, unless earlier terminated. The Security 
Council would have to act affirmatively to terminate other Chapter VII 
actions applicable specifically to the situation in Iraq, including 
provisions in resolutions 661 (1990), 687 (1991), 707(1991), 1284 
(1999), 1483 (2003), 1518 (2003), 1546 (2004), and 1762 (2007). The 
mandate for the U.N. Assistance Mission to Iraq (UNAMI) is also 
established in a U.N. Security Council resolution.
    The status of the U.N. Compensation Commission (``UNCC''), which 
was established by UNSCR 687 (1991), is unaffected by the expiration of 
the Development Fund for Iraq provided for in UNSCR 1790 (2007) and 
will continue to exist after December 31, 2008. Under the terms of 
UNSCR 687 (1991) and UNSCR (1483) (2003), Iraq will also continue to be 
obligated to pay 5 percent of the proceeds of its exports of petroleum, 
petroleum products, and natural gas, until the UNCC Governing Council, 
in consultation with Iraq, decides otherwise. Money held by the 
Compensation Fund as of December 31, 2008, as well as future 
contributions from Iraq's proceeds of petroleum exports, will remain in 
the Fund for disbursement by the UNCC to pay the remaining outstanding 
awards, which currently amount to approximately $28 billion. Because 
Iraq's obligation to pay UNCC awards remains in force under UNSCR 687 
(1991) and UNSCR 1483 (2003) and is not affected by UNSCR 1790 (2007), 
a new U.N. Security resolution to address this obligation is 
unnecessary at this time.
    UNSCR 1790 continues until December 31, 2008, the provisions 
originally outlined in UNSCR 1483, which recognized the establishment 
of the Development Fund for Iraq (DFI) and mandated that 95 percent of 
the proceeds from the export sale of Iraqi oil and natural gas products 
be deposited in the DFI for the benefit of the Iraqi people, and 
required all states to extend protections to these Iraqi assets. The 
United States implements its obligations to provide immunities to the 
DFI by Executive orders declaring a national emergency that the 
President must renew annually each May, pursuant to the International 
Emergency Economic Powers Act (50 U.S.C 1701-1701) (``IEEPA'') and the 
United Nations Participation Act. .
    Monitoring of DFI by the International Advisory and Monitoring 
Board (IAMB) will come to an end with the expiration of the U.N. 
Security Council resolution that is currently in place. However, since 
2007, the IAMB has been working closely with the Iraqi oversight body--
the Committee of Financial Experts (COFE)--to provide independent 
oversight of Iraq's oil export revenues. COFE, which was established by 
the Council of Ministers in October 2006 to exercise oversight over 
petroleum revenues, is intended to ensure the continued oversight of 
external audits and succeed the IAMB starting January 2009. COFE is 
chaired by the President of the Iraqi Board of Supreme Audit and 
includes two independent experts chosen by, and reporting to, the 
Council of Ministers with required public disclosure of their reports. 
The IAMB and COFE will fully coordinate their efforts through 2008, 
with the IAMB placing increasing reliance upon the work of COFE while 
discharging its responsibilities under UNSC Resolution 1790, to ensure 
a smooth hand-over in 2009.
    As part of the International Compact with Iraq, the Government of 
Iraq has committed to establishing a new single oil proceeds account as 
a successor to the DFI by the end of 2008, and we hope to see the 
government maintain the auditing and transparency of this account.
                   jurisdictional issues in the sofa
    Question. Most SOFAs provide a blend of jurisdiction. For example, 
a SOFA frequently establishes which party to the SOFA is able to assert 
criminal and/or civil jurisdiction over certain personnel and assets. 
Do you anticipate that Iraq will be able to assert criminal and/or 
civil jurisdiction over U.S. personnel?

    Answer. Jurisdiction over U.S. forces and personnel is one of the 
issues under discussion in the ongoing SOFA negotiations with Iraq. Our 
view is that the United States should retain criminal and civil 
jurisdiction for our troops and government employees.
                          contractor immunity
    Question. Do you expect the scope of contractor immunity to be 
similar to that found in CPA Order No. 17? If it is not as broad as the 
immunity found in Order No. 17, in what respect might it be narrowed? 
If it is narrower, do you expect that the wide array of U.S. 
contractors will be willing to operate in Iraq?

    Answer. Contractor support is critical to the U.S. mission in Iraq. 
The status of contractors is an issue of concern to both the United 
States and Iraq.
    We seek an outcome that will ensure our ability to maintain an 
effective contractor presence in Iraq.
           declaration of principles july 31, 2008, deadline
    Question. Do you expect to meet the deadline of July 31, 2008, that 
is contained in the Declaration of Principles? What is the 
administration's plan if this deadline is not met?

    Answer. We believe the July 31, 2008 deadline is achievable, and we 
are working with Iraqi officials to conclude the agreement under 
negotiation by the date specified.
                     expected duration of the sofa
    Question. What is the expected duration of the SOFA? Indefinite? A 
fixed term of years?

    Answer. The SOFA with Iraq is intended to be an enduring agreement 
that sets the basic legal parameters for a U.S. military presence in 
Iraq in a variety of circumstances. The agreement will not establish 
permanent bases or commit the United States to maintaining a particular 
level of forces in Iraq. The agreement reflects the authorities and 
protections common to U.S. Status of Forces Agreements with our friends 
and allies, although it also takes into account the current 
circumstances in Iraq.
      explaining the necessity of a strategic framework agreement
    Question. Why is it necessary to have a Strategic Framework 
agreement?

    Answer. The Strategic Framework will help set the structure for a 
more normalized bilateral relationship between the United States and 
Iraq as two sovereign states. This document would acknowledge the 
shared political, economic, cultural, and security components of our 
bilateral relationship.
                          security arrangement
    Question. In which document are you going to include the security 
arrangement that has been discussed--in the SOFA or in the Strategic 
Framework agreement? What is it likely to say? Has Iraq requested an 
assurance?

    Answer. The Declaration of Principles signed by President Bush and 
Prime Minister Maliki set forth a political commitment to negotiate 
bilaterally on a broad variety of topics, including security issues. 
The Declaration affirmed that the United States recognizes Iraq's 
interest in taking into account concerns about internal and external 
threats to its security in bilateral negotiations.
           implications of the strategic framework agreement
    Question. The Declaration of Principles states that one of the 
principles is supporting Iraq ``in its efforts to combat all terrorist 
groups'' including al-Qaeda, Saddamists and ``all other outlaw groups 
regardless of affiliation.'' In the last 2 weeks, the Government of 
Iraq attacked groups it deemed to be ``criminals'' and ``outlaws'' in 
Basra. The United States assisted in this operation. These were Shia 
militias--not al-Qaeda, and not Saddamists. Why should the committee 
not believe that the Strategic Framework agreement is going to commit 
us, in writing, to participate in a civil war?

    Answer. Nothing to be negotiated will mandate that we continue 
combat missions.
    Nothing will commit the U.S. to join Iraq in a war against another 
country or provide other such security commitments.
                            kurdistan issues
    Question. In recent months, the United States gave Turkey a green 
light to engage in military operations against the PKK in Iraq. What if 
this occurs again, and Kurdish Regional Government forces retaliate in 
Turkey, under the Iraqi banner? How will the security assurance you are 
considering for Iraq be balanced against our obligations to Turkey 
under the North Atlantic Treaty?

    Answer. The United States recognizes Turkey's sovereign right to 
defend itself against terrorist threats, and values its strategic 
relationship with Turkey.
    Neither the Strategic Framework nor the Status of Forces Agreement 
will include a binding security commitment obligating the United States 
to act in common defense against any external threat to Iraq.
    The United States recognizes Turkey's struggle against the PKK as a 
legitimate pursuit against a terrorist enemy of the United States, 
Turkey, and Iraq. We will continue to support the ongoing efforts 
between the Government of Iraq and Turkey to counter the PKK threat 
inside Iraq by encouraging Turkey, Iraq, and the Kurdistan Regional 
Government to cooperate in countering the PKK.
      security arrangement implications for future administrations
    Question. Would the Government of Iraq have a reasonable 
expectation that the next President will honor the security 
arrangement, if you include it in the nonbinding Strategic Framework 
agreement? Or do you think it only commits this President?

    Answer. Neither the SOFA nor the Strategic Framework will bind this 
or any future U.S. President to a security commitment with Iraq, and 
the Government of Iraq is aware of this point.
    Our primary goal in negotiating these agreements is to set a policy 
structure with Iraq that normalizes our bilateral relationship so that 
the next administration will have all the options available under the 
Constitution when it takes office in January 2009. It will also ensure 
that U.S. forces are granted the protections and authorities they need 
after the expiration of the mandate of the Multi-National Force on 
December 31, 2008.
               current national security threat from iraq
    Question. The Authorization for the Use of Force in 2002 (Public 
Law 107-243) authorizes the President to use force in Iraq to ``defend 
the national security of the United States against the continuing 
threat posed by Iraq'' and to ``enforce all relevant United Nations 
Security Council resolutions regarding Iraq.'' Iraq today is an ally, 
not an adversary. What is the threat to U.S. national security today 
that is posed by the Government of Iraq? If the Security Council 
mandate for the
MNF-I expires, what Security Council resolutions will U.S. forces be 
enforcing? Does the executive branch believe that the Authorization for 
the Use of Military Force enacted on September 14, 2001 (Public Law 
107-40) is relevant to Iraq? If so, why? Which persons or organizations 
that were involved in the attacks against the United States are present 
in Iraq? Please provide any relevant legal analysis.

    Answer. At the time of the resolution, Congress recognized that the 
threat posed to the national security of the United States by Iraq was 
not limited to the Saddam regime itself. In particular, Congress 
recognized the threat posed by terrorist groups known to be in or 
supported by Iraq and the critical U.S. interest in the stability of 
the Persian Gulf region. The Congressional Report on the 2002 
Authorization for the Use of Military Force in Iraq found, ``Iraq also 
aids terrorists who have attacked the United States and its allies, 
including terrorists who use weapons of mass destruction.'' 107 H. Rpt. 
721 at 6 (2002). The report further noted that ``[i]t is in the 
national security interest of the United States to restore 
international peace and security to the Persian Gulf region. . . . 
[S]afeguarding the free flow of energy supplies has been recognized as 
a vital national security concern of the United States for scores of 
years.'' 107 H. Rpt. 721 at 7. The situation in Iraq, including the 
threat posed by terrorist and insurgent elements present in Iraq and 
the consequent threat to regional stability, continues to present a 
threat to U.S. national security, even after the fall of the Saddam 
Hussein regime.
    There are Iraq-related provisions in a number of Chapter VII 
resolutions that will continue in force after December 31, 2008, unless 
the Security Council takes specific action to terminate them. Whether 
or not U.S. forces are understood to be enforcing these or other 
Security Council resolutions through their continuing activities in 
Iraq, U.S. forces will have the authority to continue their mission 
after the expiration of UNSCR 1790 under both the President's authority 
as Commander in Chief under the Constitution and relevant legislation, 
including Public Law 107-243.
    In addition to the authority U.S. forces have under the 
Constitution and Public Law 107-243, as described, Public Law 107-40 is 
relevant to Iraq, as it authorizes the President to use all necessary 
and appropriate force against nations, organizations, or persons that 
planned, authorized, committed, or aided the terrorist attacks of 
September 11, 2001, ``in order to prevent any future acts of 
international terrorism against the United States'' by those same 
entities, and our forces continue to fight al-Qaeda and affiliated 
terrorist organizations in Iraq.
                    defining a security arrangement
    Question. Is a ``security arrangement'' simply a political 
statement that would not legally bind the United States to any 
particular course of action?

    Answer. As discussed in the 1992 Report to Congress on U.S. 
Security Commitments and Arrangements, required under Public Law 101-
510, section 1457 (1990), a security arrangement is understood to be a 
pledge by the United States to take some action in the event of a 
threat to another country's security. Security arrangements may appear 
in legally binding agreements, such as treaties or executive 
agreements, or in political documents, such as policy declarations by 
the President, Secretary of State, or Secretary of Defense. They are 
distinct from security commitments, which are understood to be an 
obligation, binding under international law, of the United States to 
act in the common defense in the event of an armed attack on another 
country.
                                 ______
                                 

 Responses of Ambassador David Satterfield to Questions Submitted for 
                  the Record by Senator Richard Lugar

    Question. Recognizing that we need some sort of predictable 
international legal grounding for our mission in Iraq, a mission that 
will clearly not be over before the end of 2008 or 2009 for that 
matter, what options are there to establish this framework? I had 
conversations a month or so ago with our Ambassador to the United 
Nations, Zal Khalilzad, and he described to me the environment in New 
York during the negotiations for the current resolution.

  <bullet> Can you get another UNSCR if you need it, say a 6-month 
        extension?
  <bullet> Would that be preferable, purely from a legal viewpoint?
  <bullet> Why have you chosen the current path, given the 
        alternatives, and the obvious opposition you are seeing from 
        certain circles on the Hill?
  <bullet> Under what circumstances or reassurances might Iraq be 
        willing to extend the U.N. Security Council resolution for a 
        limited duration?
  <bullet> How would other coalition allies view a renewed security 
        council resolution vice being rolled under a U.S.-negotiated 
        SOFA?

    Answer. Through a number of conversations on this topic, the Iraqis 
have made it clear to me, to Ambassador Crocker, and to Secretary Rice 
that they are opposed to seeking any further renewals of the Chapter 
VII MNF-I mandate, currently extended in UNSCR 1790. President Bush has 
said that he supports Iraq's goal of normalizing its international 
standing and bilateral relationships and believes that an alternative 
to another Chapter VII resolution needs to be found for 2009 and 
beyond. Accordingly, the United States and Iraq have begun negotiation 
of new bilateral accords that would continue to permit U.S. and 
coalition forces to operate in support of Iraq's security and 
stability.
    That said, the Council has the authority to renew the mandate in 
UNSCR 1790 for a period of time shorter than 1 year. A written request 
from the Iraqi Government is one of the key elements that the U.N. 
Security Council has taken into account when considering previous 
resolutions to extend the mandate of the MNF. Given its clear public 
opposition to renewal of the Chapter VII MNF-I mandate, we do not 
currently anticipate that Iraq will pursue a renewal of this mandate. 
If Iraq continues to oppose such a resolution, it is unlikely that 
Security Council members would agree to extend the mandate of MNF-I for 
6 months. However, the option for Iraq to request such an extension 
will remain open.
    The United States has consulted with coalition partners about our 
plans to negotiate bilateral accords with the Iraqi Government that 
would permit the continued presence of a coalition force in Iraq. In 
general, coalition partners have emphasized the importance of ensuring 
that their troops stationed in Iraq have appropriate rights, 
responsibilities, and authorities to allow them to perform their 
necessary functions. We remain in consultations with them, and with 
Iraq, on this issue.

    Question. Ambassador Satterfield, in your statement, you have 
echoed prior administration statements by noting that, ``This strategic 
framework will broadly address the topics outlined in the Declaration 
of Principles signed by President Bush and Prime Minister Maliki on 
November 26, 2007.'' And you state clearly, as Ambassador Crocker did 
Tuesday--what the agreement will not contain. But it is still unclear 
to me what this document will contain.

  <bullet> Can you provide further clarity for us as to the contents of 
        the Strategic Framework agreement?
  <bullet> How closely will it follow the Declaration of Principles?
  <bullet> What sort of legal or historical precedent is there for a 
        Strategic Framework agreement of this kind?
  <bullet> How do the Iraqis view this? Do their laws stipulate the 
        same distinctions we are making between security commitment and 
        security arrangement?
  <bullet> Will they be conveying either document to their Parliament 
        for ratification?

    Answer. As you noted, the Strategic Framework will broadly address 
the topics outlined in the Declaration of Principles signed by 
President Bush and Prime Minister al-Maliki on November 26, 2007, to 
reflect shared U.S. and Iraqi political, economic, cultural, and 
security interests. As with other negotiations, we do not generally 
publicly discuss our negotiating positions, or those of our negotiating 
partners. We will ensure, however, that Members of Congress are kept 
fully informed as the negotiations proceed; briefings have already 
begun and will continue. While we do not generally comment on specific 
text or negotiating positions during the course of ongoing 
negotiations, we have confirmed that we will not enter into a binding 
commitment to defend Iraq or any other security commitments that would 
warrant Senate consent.
    The United States makes declarations and enters into understandings 
outlining its strategic political, economic, and security interests 
with its friends and allies in a variety of contexts. To give two 
recent examples, the United States and Afghanistan issued a Joint 
Declaration of United States-Afghan Strategic Partnership in 2005, and 
the United States signed a Declaration of Strategic Partnership and 
Cooperation Framework with Uzbekistan in 2002. The United States also 
has concluded binding agreements that contain security arrangements, 
which do not amount to commitments to act in the common defense in the 
event of an armed attack on another country.
    The Iraqis have indicated to us that they intend to submit the 
documents to the Iraqi Council of Representatives. Iraq's domestic 
legal requirements are established by Iraqi laws and customs and may be 
different from the United States domestic legal requirements.

    Question. What are the Iraqis requesting in this agreement?

  <bullet> Are we leveraging their requests with demands for political 
        movement on provincial elections, or the hydrocarbon law, or 
        even better budget execution?
  <bullet> Are we negotiating troop withdrawal terms?
  <bullet> Will they be conveying either document to their Parliament 
        for ratification?

    Answer. Again, as with other negotiations, we do not generally 
publicly discuss our negotiating positions, or those of our negotiating 
partners. We will ensure, however, that Members of Congress are kept 
fully informed as the negotiations proceed; briefings have already 
begun and will continue. With regard to the need for Iraqi progress in 
such areas as budget execution, provincial elections, and a national 
hydrocarbon law, we continue to engage on these issues energetically, 
in all appropriate venues. Also, as we have stated, the Strategic 
Framework and Status of Forces Agreement will not establish permanent 
bases in Iraq or specify the number of U.S. forces that may be present 
in Iraq. Every policy option will remain on the table for the next 
administration.
    The Iraqis have indicated to us that they intend to submit the 
documents to the Iraqi Council of Representatives. Iraq's domestic 
legal requirements are established by Iraqi laws and customs and may be 
different from the United States domestic legal requirements.

    Question. Can you describe the difference between a U.N. Security 
Council Resolution Chapter VII mandate and a Chapter VI mandate?

    Answer. In general, the key distinction is in the ability of the 
Security Council to make decisions under Chapter VII that U.N. Member 
States have an international legal obligation to accept and carry out. 
When the Council decides, under Chapter VII, to take action for the 
purpose of maintaining or restoring international peace and security, 
it can do so with or without agreement from the Member State(s) 
affected by it.

    Question. How do the Iraqis view this politically (internally)?

    Answer. In a letter to the Security Council dated December 7, 2007, 
which was annexed to Resolution 1790, Prime Minister al-Maliki 
declared, ``the Government of Iraq considers this to be its final 
request to the Security Council for the extension of the mandate of 
MNF-I and expects, in future, that the Security Council will be able to 
deal with the situation in Iraq without the need for action under 
Chapter VII of the Charter of the United Nations.'' The GOI has been 
very firm in its opposition to extending the Chapter VII MNF-I mandate.

    Question. Is there discord among factions?

    Answer. The Iraqi Government appears to be united in its opposition 
to a renewal of the Chapter VII MNF-I resolution.

    Question. How is a Chapter VII mandate viewed in the international 
arena?

    Answer. It is widely accepted that Chapter VII authorizes the 
Security Council to decide in appropriate cases to provide a mandate 
with or without agreement from the Member States affected. That said, 
there is a widespread view that such authority should be used 
judiciously.

    Question. How many ongoing Chapter VII missions are there, and what 
are their duration?

    Answer. There are numerous peacekeeping and other missions 
currently authorized under Chapter VII, with mandates typically having 
durations from 6 to 12 months.

    Question. On our second panel, Professor Matheson suggested an 
exchange of letters might do the trick when it comes to laying out a 
set of understandings regarding our strategic relationship. Might this 
be a viable option?

    Answer. Through the negotiation of a status of forces agreement, we 
are seeking to normalize our security relationship with the Government 
of Iraq and ensure that U.S. troops are sufficiently protected. 
Currently, Coalition Provisional Authority Order 17 (CPA 17) protects 
U.S. forces, as part of MNF, for the duration of the MNF mandate and 
``until the departure of the final element of MNF from Iraq.'' 
Professor Matheson testified that while this language may provide some 
room for the continuation of immunities after the expiration of UNSCR 
1790, the more prudent course of action would be to clarify our 
protections in a definitive way. Professor Matheson suggested that the 
protections afforded under CPA 17 could be temporarily extended through 
an exchange of diplomatic notes as a solution ``in the event a 
permanent SOFA is not agreed by [the expiration of the UNSCR].'' The 
negotiation of a more durable SOFA is, in our view, the most 
appropriate way to achieve that goal.
                                 ______
                                 

Responses of Assistant Secretary Mary Beth Long to Questions Submitted 
                for the Record by Senator Richard Lugar

                    commitments to iraq and in sofa
    Question. Ms. Long, as the Armed Services' voice here, perhaps you 
can comment on this point. I mentioned in my opening statement some 
rather dire situations which could arise in Iraq. Since we are talking 
about how such a document would set the stage for a strategic 
partnership between the U.S. and Iraq, it would be helpful if you could 
try to explain to us what commitments the document would contain with 
respect to U.S. military forces in 2009 and beyond, recognizing that 
Iraq presents an extraordinarily complex environment for U.S. troops, 
and these agreements will affect the military establishment more than 
anyone else. For example, are we trying to assure the Iraqis that we 
would help them defend their territorial integrity if they were 
attacked? What scenario do you envision? What is the Iraqi Government's 
expectation?

    Answer. We do not envision that either the Status of Forces 
Agreement (SOFA) or Strategic Framework (SF) will commit U.S. forces to 
any particular action in 2009 or beyond. To respond to your example, we 
do not envision making a security guarantee to the Iraqis to help 
defend their territorial integrity if they should be attacked.
    In the course of the negotiations, we have made clear to the Iraqis 
that we cannot provide a security commitment. We believe that the Iraqi 
Government understands this point, although they have made public 
statements that would indicate that they are seeking such a commitment.
    We have explained to the Iraqi Government that a close relationship 
with the United States, which would be bolstered by the conclusion of a 
SOFA, and of a mutually beneficial SF, will be the best deterrent of 
external aggression that the Iraqis can have. We have also stressed 
that such a relationship would not constitute a binding obligation to 
defend the territory of Iraq from external attack.

    Question. Ms. Long, Ambassador Satterfield mentioned in his opening 
statement that this SOFA would be unique compared to most SOFAs, for 
example, by gaining consent from the Government of Iraq for military 
and detainee operations. If possible, in open session, please describe 
the combat and detainee principles. Will these special provisions have 
a shorter or renewable duration? Would you envision General Petraeus 
having to consult with Iraqi authorities before acting? When would and 
when would he not have to seek concurrence? Please be specific.

    Answer. Two of the three ``attachments'' we envision to the SOFA 
would provide the authority for U.S. military operations and detainee 
operations. The general principle of these two attachments is to 
provide the authorities needed for U.S. forces to operate as required 
in Iraq and to provide the authorities needed to allow us to detain 
individuals as a result of military operations.
    The idea of the ``attachments'' is that they would be terminated 
when no longer necessary, without affecting the basic SOFA, which we 
envision as a longer term agreement.
    Our general principle is that our authority to conduct these 
operations would result from Iraqi consent. While the precise wording 
of that consent is a matter under negotiation, our concept is that our 
authority would be general in nature, but that the implementation would 
be governed by Implementing Arrangements (IAs) that would call for 
close coordination of U.S. forces and Iraqi forces' activities. As the 
Iraqis become better able to provide for their own security, they will 
increasingly take the lead in these operations.
    We would, of course, retain the necessary freedom for our commander 
to take whatever actions he regards as necessary for the safety of the 
forces under his command and for countering any threats to U.S. 
national security.
                                 ______
                                 

Joint Responses of Ambassador Satterfield and Assistant Secretary Mary 
 Beth Long to Questions Submitted for the Record by Senator Robert P. 
                               Casey, Jr.

                              translations

    Question. The Declaration of Principles signed last November 
asserts that the United States will provide ``security assurances and 
commitments to the Republic of Iraq to deter foreign aggression against 
Iraq that violates its sovereignty and integrity of its territories, 
waters, or airspace.'' Despite that plain language, Secretary of State 
Rice and Secretary of Defense Gates have asserted that the United 
States does not intend to provide legally binding security assurances 
or commitments to the Iraqi Government.
    It remains unclear why such disconnect exists between the Statement 
of Principles and subsequent statements by senior administration 
officials. On March 13, the Politico newspaper reported that 
administration officials blame this misunderstanding on a sloppy 
language translation. According to an unidentified administration 
official, the original Arabic phrase in the Joint Declaration was 
``translated in kind of an interesting way'' and that a better 
translation may have been only ``We will consult in the event of a 
threat to Iraq's security.''

  <bullet> Was the original language in the Declaration of Principles 
        signed last November inaccurately translated? Was the original 
        document negotiated between the two governments in Arabic and 
        then translated to English?
  <bullet> Why did three whole months pass before this inaccurate 
        translation was first disclosed by an administration official, 
        especially on such a weighty matter as committing American 
        blood and treasure to protect another nation? Why did the 
        administration not immediately point out, upon release of the 
        Declaration of Principles on November 26, 2007, that the United 
        States only wished to consult on, not guarantee, Iraq's 
        security?
  <bullet> Please explain what a promise to consult with the Iraqi 
        Government in the event of a threat to its security entails. 
        How is such a promise affected by the continued presence of 
        large numbers of U.S. military forces on Iraqi soil?

    Answer. The language in the Declaration of Principles signed last 
November was an accurate translation of both the English and Arabic 
texts. The Declaration of Principles does not, however, include a 
binding security commitment.
    In regard to what ``a promise to consult'' with Iraq means, the 
United States has entered into a number of security arrangements around 
the world that take the form of a pledge to consult a foreign 
government in the event of a threat to the security of the foreign 
country. Consultations may involve discussion of appropriate courses of 
action and possible responses, including potential U.S. assistance. A 
promise to consult, however, does not commit the United States to any 
action beyond consultation. Such a promise is not affected by whether 
there are U.S. military forces in the foreign country.
                 binding nature of strategic framework
    Question. Please clarify whether the Strategic Framework agreement 
will be considered legally binding upon the United States, even if, per 
the testimony of Ambassador Satterfield today, ``it would not rise to 
the level of a legal commitment that would trigger advise-and-consent 
procedures.''
    Does the administration consider the Strategic Framework agreement 
only a political document expressing nonbinding goals and aspirations 
for the future United States-Iraqi relationship?

    Answer. As we have stated, the Strategic Framework would reflect 
the shared political, economic, cultural, and security interests of the 
United States and Iraq, and would be signed at the highest levels, 
similar to strategic declarations signed with Afghanistan, Russia, and 
other states, none of which triggered advice-and-consent procedures. As 
with any text, we watch it closely as it develops and constantly 
evaluate where it may fall along the continuum of a nonbinding 
political commitment or an executive agreement, neither of which, 
however, would trigger advise-and-consent procedures, similar to the 
strategic declarations noted above, and will not tie the hands of the 
next administration.
             timing of negotiations on strategic framework
    Question. While recognizing that the President will remain 
Commander in Chief for the next 9 months, it is also clear that the 
future of the U.S. relationship with Iraq is one of the key issues in 
the upcoming Presidential election. Please explain why the 
administration views it essential to negotiate a Strategic Framework 
agreement prior to the end of 2008.
    Why not allow the next President to negotiate a Strategic Framework 
agreement with Iraq? Won't an agreement agreed to by the successor to 
President Bush carry more force and credibility with both the Iraqi 
people and the broader Middle East region?

    Answer. The administration and the Government of Iraq consider both 
the Strategic Framework and the SOFA important and complementary. The 
SOFA negotiations must be completed by the end of 2008 when the U.N. 
Security Council mandate for MNF-I expires. We cannot leave SOFA 
discussions to the next administration; to do so could leave our 
military forces and civilians without the protections and authorities 
that they need. The Iraqis have made clear that they want to consider 
the Strategic Framework and SOFA together. We cannot, therefore, delay 
the negotiation of the Strategic Framework.

    Question. Did the Iraqi Government request the negotiation of a 
Strategic Framework agreement in exchange for the promise to conclude a 
Status of Forces Agreement authorizing the continued presence of U.S. 
troops on Iraqi soil past December 31, 2008?

    Answer. The Strategic Framework and the SOFA are complementary and 
mutually reinforcing. One is not an ``exchange'' for the other. The 
Strategic Framework encompasses cooperation in the political, cultural, 
economic, and security spheres. The SOFA will provide the protections 
and authorities necessary when U.S. forces are present in Iraq.
                          the role of congress
    Question. Putting aside the question of whether or not the 
administration is legally required to submit a Strategic Framework 
agreement for congressional approval, has the administration considered 
that formal congressional approval of a Strategic Framework agreement 
would send the strongest possible signal to Iraq and the region 
regarding the integrity of the U.S. commitment to the Iraqi people?

    Answer. The Strategic Framework agreement itself--to be signed by 
the President--is a strong enough signal to Iraq and the region 
regarding the integrity of the U.S. commitment to the Iraqi people. 
Further, we will ensure that Members of Congress are kept fully 
informed as the negotiations proceed; briefings have already begun and 
will continue.
                        permanent bases in iraq
    Question.On Tuesday, Ambassador Ryan Crocker testified before this 
committee, as part of his opening statement, that the Strategic 
Framework agreement and the Status of Forces Agreement ``will not 
establish permanent bases in Iraq, and we anticipate that it will 
expressly forswear them.'' Administration officials continue to 
reiterate that both the United States and the Iraqi Governments are 
opposed to the establishment of permanent U.S. military facilities on 
Iraqi soil.
    Please provide an update on the progress of negotiations with the 
Iraqi Government regarding a provision explicitly forswearing permanent 
U.S. military facilities on Iraqi soil.

    Answer. SOFA and SF negotiations, which address this provision, are 
currently underway. It would be premature to announce progress while 
the negotiations are ongoing.

    Question. At the hearing today, Assistant Secretary of Defense Mary 
Beth Long, in response to a question from Senator Webb, testified that 
``As far as the [Department of Defense] is concerned, we don't have a 
worldwide or even a departmentwide definition of permanent bases. I 
believe those are, by and large, determined on a case-by-case basis.''
    Will the Strategic Framework agreement or the Status of Forces 
Agreement define the specific nature of a ``permanent'' military 
facility? If so, what definition will the U.S. side propose in the 
upcoming negotiations?

    Answer. The Status of Forces Agreement provides for authorities, 
rights, and obligations of U.S. forces when present in the territory of 
Iraq. Neither the SOFA nor the Strategic Framework would obligate the 
United States to maintain any military presence in Iraq or to a 
specific duration of use for any facility in Iraq, when U.S. forces are 
present. While we do not generally comment on specific text or 
negotiating positions during the course of ongoing negotiations, we 
have confirmed that we do not seek permanent bases in Iraq.

    Question. If no definition is provided, what value does such a 
provision forswearing ``permanent'' U.S. military facilities in Iraq 
carry? Will either the SOFA or the Strategic Framework agreement 
include any other specific constraints on the duration of future U.S. 
military facilities in Iraq?

    Answer. As we have stated, the SOFA and the Strategic Framework 
will ensure that all policy options remain open for this and future 
administrations. While we do not generally comment on specific text or 
negotiating positions during the course of ongoing negotiations, 
nothing in these documents will bind the United States to maintain a 
military presence in Iraq or to a specific duration of presence for any 
military facilities in Iraq.
                       status of forces agreement
    Question. In his opening statement to the committee that was 
entered into the record, Ambassador Satterfield asserted that the 
Status of Forces Agreement to be negotiated between the United States 
and Iraq ``is similar to the many Status of Forces Agreements (SOFAs) 
we have across the world, which address such matters as jurisdiction 
over U.S. forces; the movement of vehicles, vessels, and aircraft; 
nontaxation of U.S. activities and the ability of U.S. forces to use 
host-government facilities.''
    Nevertheless, as he partially acknowledged in the next sentence, 
this SOFA will go beyond those we have negotiated with over 100 other 
nations in three significant respects:

  <bullet> Authority for U.S. forces to conduct military operations on 
        Iraqi soil;
  <bullet> Authority for U.S. forces to detain Iraqis for indefinite 
        periods;
  <bullet> Sweeping immunity for all U.S. contractor personnel, both 
        those attached to the U.S. military and U.S. civilian agencies.

    Please evaluate the degree to which the United States-Iraq Status 
of Forces Agreement will include provisions not included in a typical 
SOFA.

    Answer. The United States typically seeks to negotiate Status of 
Forces Agreements (SOFAs) wherever we have U.S. troops stationed 
abroad. While SOFAs, like other international agreements, must be 
tailored to the specific circumstances and environment of each country, 
these agreements typically include provisions addressing criminal and 
civil jurisdiction over U.S. forces and civilian personnel; entry and 
exit from the host nation; tax and customs exemptions; licenses, 
contracting, motor vehicles, utilities and communications; the 
environment; and claims between the parties, among other issues. We 
have proposed in negotiations that our SOFA with Iraq would address, if 
agreed by the Government of Iraq, in addition to such standard SOFA 
topics, provisions relating to the ongoing conflict in Iraq, including 
the authorizations necessary for U.S. forces to continue to conduct 
military operations and related detentions, and limited U.S. 
jurisdiction over contractors for offenses related to the performance 
of their contracts.

    Question. To the degree to which this Status of Forces Agreement is 
unique and goes beyond a typical SOFA, what weight should that 
determination have with respect to whether or not the Congress should 
have a formal role in approving the final agreement?

    Answer. The Department's procedures for determining whether an 
agreement may properly be concluded as an executive agreement or a 
treaty require consideration of a variety of factors, including the 
extent to which the agreement involves commitments or risks affecting 
the nation as a whole; past practice as to similar agreements; the 
preference of Congress as to a particular type of agreement; the need 
for prompt conclusion of the agreement; and the general domestic and 
international practice as to similar agreements. The Department's 
analysis of the proposed SOFA in light of the factors set forth in 
Department regulations, including relevant constitutional 
considerations, determined that conclusion of the proposed SOFA as an 
executive agreement would be appropriate.
                                 ______
                                 

 Responses of Ambassador David Satterfield to Questions Submitted for 
                 the Record by Senator George Voinovich

    Question. Does the State Department have a Memorandum of 
Understanding with the Iraqi Government about the security assistance 
provided to the Iraqi Security Forces through U.S. assistance? If so, 
does that MOU include any expectations from the United States about the 
management of the ISF or the inclusion of various ethnic groups in the 
ISF by the Iraqi Government?

    Answer. National Security Presidential Directive 36 assigns 
direction of U.S. efforts to organize, train, and equip the Iraqi 
Security Forces (ISF) to U.S. Central Command (CENTCOM) under the 
authority, direction, and control of the Secretary of Defense. Public 
Law 109-13, ``Emergency Supplemental Appropriations Act for Defense, 
the Global War on Terror, and Tsunami Relief, 2005,'' provides for the 
Iraq Security Forces Fund (ISFF). The Multi-National Security 
Transition Command-Iraq (MNSTC-I) obligates ISFF to provide equipment, 
supplies, services and training for the Iraq Security Forces.
     The ISF is a professional force that the Government of Iraq 
intends to be representative of the diverse ethnic and religious fabric 
of Iraq. In order to achieve this, the security ministries strive to 
recruit personnel from across the spectrum of Iraqi society. As the 
train-and-equip program for Iraq operates under the authority of 
CENTCOM and is implemented by MNSTC-I, details of ISF train-and-equip 
program are better provided by the Department of Defense.

    Question. Is the State Department doing anything to make sure that 
various bids, including those from small businesses, are considered 
when soliciting contracts for the Iraq reconstruction effort? 
Specifically, what is the justification for sole-source contracting for 
large solicitations for the Iraqi Security Forces, such as the current 
solicitation for a ``Universal Fire Truck'' (Solicitation: 
W56HZV07RG202)? Were any small businesses considered to help in 
supplying the deliverables?

    Answer. The State Department considers bids from all levels of 
potential business prospects when reviewing contractual proposals for 
the Iraq reconstruction effort. Primarily due to the challenging and 
unpredictable security environment, small businesses are less likely to 
submit a competitive bid on reconstruction projects within Iraq. 
However, every effort is made to ensure a comparative analysis is 
conducted when considering all bid proposals.
    The Multi-National Security Transition Command-Iraq coordinates the 
acquisition of equipment and supplies for the Iraqi Security Forces 
(ISF) based on Iraqi security ministry requirements. Military equipment 
acquisition requests in support of ISF, such as Universal Fire Trucks, 
are fulfilled by the Tank-Automotive and Armaments Command under the 
purview of the U.S. Army's Material Command. Details of military 
equipment solicitations are better provided by the Department of 
Defense.

                                  <all>

</pre></body></html>
